<html>
<title> - NEW INNOVATIONS AND BEST PRACTICES UNDER THE WORKFORCE INVESTMENT ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   NEW INNOVATIONS AND BEST PRACTICES
                   UNDER THE WORKFORCE INVESTMENT ACT

=======================================================================

                                HEARINGS

                               before the

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 12, 2009

                               ----------                              

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 26, 2009

                               ----------                              

            FIELD HEARING HELD IN ALBANY, NY, MARCH 23, 2009

                               ----------                              

              HEARING HELD IN WASHINGTON, DC, MAY 5, 2009

                               ----------                              

           FIELD HEARING HELD IN HENDERSON, NV, MAY 29, 2009

                               ----------                              

                            Serial No. 111-2

                               ----------                              

      Printed for the use of the Committee on Education and Labor


                   NEW INNOVATIONS AND BEST PRACTICES
                   UNDER THE WORKFORCE INVESTMENT ACT

=======================================================================

                                HEARINGS

                               before the

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 12, 2009

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 26, 2009

                               __________

            FIELD HEARING HELD IN ALBANY, NY, MARCH 23, 2009

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 5, 2009

                               __________

           FIELD HEARING HELD IN HENDERSON, NV, MAY 29, 2009

                               __________

                            Serial No. 111-2

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
47-096                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Sablan, Northern Mariana 
    Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS


                    RUBEN HINOJOSA, Texas, Chairman

Timothy H. Bishop, New York          Brett Guthrie, Kentucky,
Jason Altmire, Pennsylvania            Ranking Minority Member
Joe Courtney, Connecticut            Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Dina Titus, Nevada                   Michael N. Castle, Delaware
Robert E. Andrews, New Jersey        Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
David Wu, Oregon                     Judy Biggert, Illinois
Susan A. Davis, California           Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Jared Polis, Colorado
Pedro R. Pierluisi, Puerto Rico


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 12, 2009................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    66
    Guthrie, Hon. Brett, Ranking Minority Member, Subcommittee on 
      Higher Education, Lifelong Learning, and Competiveness.....     4
        Prepared statement of....................................     5
        GAO report, ``Workforce Investment Act: One-Stop System 
          Infrastructure Continues to Evolve, but Labor Should 
          Take Action to Require That All Employment Service 
          Offices Are Part of the System,'' Internet address to..    66
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........     1
        Prepared statement of....................................     3
        Additional statements submitted:
            Congleton, Ronald G., Commissioner representing 
              labor, Texas Workforce Commission..................    64
            Harvey, David C., president & CEO, ProLiteracy.......    61
            National Council of State Agencies for the Blind, 
              Inc................................................    67

Statement of Witnesses:
    Bahr, Morton, president emeritus, Communications Workers of 
      America, commissioner, National Commission on Adult 
      Literacy...................................................    11
        Prepared statement of....................................    13
        Supplemental material submitted for the record...........    68
    Camp, Bill, Sacramento Central Labor Council, AFL-CIO........    26
        Prepared statement of....................................    28
        Response to question submitted for the record............    71
    Elzey, Karen R., vice president & executive director, 
      Institute for a Competitive Workforce, U.S. Chamber of 
      Commerce...................................................    37
        Prepared statement of....................................    39
        Response to question submitted for the record............    72
    Gonzalez, Yvonne Bonnie, chief executive officer, Workforce 
      Solutions, Inc.............................................     7
        Prepared statement of....................................     9
        Response to question submitted for the record............    73
    Johnson, Sherry, associate director, Lincoln Trail Area 
      Development District.......................................    34
        Prepared statement of....................................    36
        Response to question submitted for the record............    76
    Wooderson, Steve, administrator, Iowa Vocational 
      Rehabilitation Services....................................    17
        Prepared statement of....................................    19
        Response to question submitted for the record............    77

                              ----------                              
                                                                   Page

Hearing held on February 26, 2009................................    79

Statement of Members:
    Guthrie, Hon. Brett, Ranking Minority Member, Subcommittee on 
      Higher Education, Lifelong Learning, and Competiveness.....    81
        Prepared statement of....................................    82
        Additional submission: ``CWA Priorities for Workforce 
          Investment Act Reauthorization''.......................   150
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........    79
        Prepared statement of....................................    81
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor, submissions for the record:
        Hon. John Baldacci, chairman, Jobs for America's 
          Graduates Board of Directors...........................   149
        James Kendzel, executive director, National Organization 
          for Competency Assurance (NOCA)........................   137

Statement of Witnesses:
    Keenan, Cheryl, Director of Adult Education and Literacy, 
      Office of Vocational and Adult Education, U.S. Department 
      of Education...............................................    84
        Prepared statement of....................................    86
        Response to question for the record......................   172
    Lanter, Bob, legislative committee chairman, CWA executive 
      director, Contra Costa Workforce Development Board.........   122
        Prepared statement of....................................   124
    Morales, John, president, National Workforce Association.....    92
        Prepared statement of....................................    93
    Raynor, Charissa, executive director, SEIU Healthcare NW 
      Training Partnership, on behalf of the Service Employees 
      International Union (SEIU).................................   112
        Prepared statement of....................................   114
    Scott, George A., Director of Education, Workforce and Income 
      Security Issues, U.S. Government Accountability Office.....    90
        Prepared statement of....................................    92
        Additional submission....................................   155
    Smith, Kevin G., executive director, Literacy New York, Inc..   117
        Prepared statement of....................................   119
    Vito, Sandi, on behalf of the National Governors Association.   107
        Prepared statement of....................................   109
        Responses to questions for the record....................   165
        Additional submissions:
            ``Aligning State Workforce Development and Economic 
              Development Initiatives''..........................   156
            ``Common Measure Proposal Reauthorization of the 
              Workforce Investment Act''.........................   168
            ``ECW-1.--Governors' Principles to Ensure Workforce 
              Excellence''.......................................   169
            ``Accelerating Sector Strategies,'' Internet address 
              to.................................................   171
            ``State Sector Strategies: Regional Solutions to 
              Worker and Employer Needs,'' Internet address to...   171

                              ----------                              
                                                                   Page

Field hearing held in Albany, NY, on March 23, 2009..............   173

Statement of Members:
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........   173
        Prepared statement of....................................   175
    Tonko, Hon. Paul, a Representative in Congress from the State 
      of New York................................................   176

Statement of Witnesses:
    Breen, Gail B., executive director, Fulton, Montgomery, and 
      Schoharie Counties Workforce Development Board, Inc........   184
        Prepared statement of....................................   186
    Meiklejohn, Nanine, senior legislative representative, 
      American Federation of State, County and Municipal 
      Employees (AFSCME).........................................   208
        Prepared statement of....................................   210
    Musolino, Mario, Executive Deputy Commissioner, New York 
      State Department of Labor..................................   179
        Prepared statement of....................................   181
    Quick, Tom, human resources leader, power & water, GE Energy 
      Infrastructure.............................................   191
        Prepared statement of....................................   193
    Sarubbi, Joseph T., executive director, Training and 
      Education Center for Semiconductor Manufacturing and 
      Alternative and Renewable Technologies (TEC-SMART), Hudson 
      Valley Community College...................................   203
        Prepared statement of....................................   205

                              ----------                              
                                                                   Page

Hearing held on May 5, 2009......................................   229

Statement of Members:
    Guthrie, Hon. Brett, Ranking Minority Member, Subcommittee on 
      Higher Education, Lifelong Learning, and Competiveness.....   231
        Prepared statement of....................................   232
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........   229
        Prepared statement of....................................   231
        Additional submissions:
            Research report no. 06-2, Washington State Board for 
              Community and Technical Colleges, April 2005, 
              ``Building Pathways to Success for Low-Skill Adult 
              Students: Lessons for Community College Policy and 
              Practice from a Longitudinal Student Tracking 
              Study''............................................   284
            Letter, dated May 14, 2009, from Dr. Reder...........   288

Statement of Witnesses:
    Bere, David, president and chief strategy officer, Dollar 
      General Corp...............................................   244
        Prepared statement of....................................   246
    Cooper, Kathy, policy associate, Washington State Board for 
      Community and Technical Colleges...........................   248
        Prepared statement of....................................   250
    Finsterbusch, Martin C., executive director of VALUE, Inc....   238
        Prepared statement of....................................   239
    Kinerney, Donna, Ph.D., instructional dean, Adult ESOL & 
      Literacy--GED Programs, Montgomery College.................   256
        Prepared statement of....................................   258
    Lanterman, Roberta, Family Literacy..........................   260
        Prepared statement of....................................   262
    Reder, Dr. Stephen, university professor and chair, 
      Department of Applied Linguistics, Portland State 
      University.................................................   251
        Prepared statement of....................................   253
        Information about distance-learning services.............   271
    Wilson, Gretchen, Grammy winning recording artist, GED 
      graduate...................................................   235
        Prepared statement of....................................   236

                              ----------                              
                                                                   Page

Field hearing held in Henderson, NV, on May 29, 2009.............   291

Statement of Members:
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........   291
        Prepared statement of....................................   292
    Titus, Hon. Dina, a Representative in Congress from the State 
      of Nevada..................................................   293

Statement of Witnesses:
    Brooks, Chris, director, Bombard Renewable Energy............   312
        Prepared statement of....................................   314
    Cook, Chanda, director of community initiatives, Nevada 
      Public Education Foundation................................   316
        Prepared statement of....................................   318
    Metty-Burns, Rebecca, interim director, division of workforce 
      & economic development, College of Southern Nevada.........   322
        Prepared statement of....................................   324
    Patchett, Brian, president and CEO, Easter Seals of Southern 
      Nevada.....................................................   297
        Prepared statement of....................................   299
        Additional submissions:
            ``Executive Summary: Crossroads Rehabilitation 
              Center, Inc.''.....................................   305
            ``Easter Seals Southern Nevada--Investing in 
              Workforce Capacity''...............................   311
                   NEW INNOVATIONS AND BEST PRACTICES

                   UNDER THE WORKFORCE INVESTMENT ACT


 NEW INNOVATIONS AND BEST PRACTICES UNDER THE WORKFORCE INVESTMENT ACT

                              ----------                              


                      Thursday, February 12, 2009

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:36 p.m., in 
room 2175, Rayburn House Office Building, Hon. Ruben Hinojosa 
[chairman of the subcommittee] presiding.
    Present: Representatives Hinojosa, Bishop, Courtney, Tonko, 
Titus, Andrews, Tierney, Wu, Davis, Hirono, Polis, Guthrie, 
McKeon, Castle, Biggert, and Roe.
    Staff Present: Paulette Acevedo, Legislative Fellow, 
Education; Tylease Alli, Hearing Clerk; Adrienne Dunbar, 
Education Policy Advisor; David Hartzler, Systems 
Administrator; Fred Jones, Staff Assistant, Education; Jessica 
Kahanek, Press Assistant; Brian Kennedy, General Counsel; 
Sharon Lewis, Senior Disability Policy Advisor; Ricardo 
Martinez, Policy Advisor, Subcommittee on Higher Education, 
Lifelong Learning, and Competitiveness; Lisa Pugh, Legislative 
Fellow, Education; Melissa Salmanowitz, Press Secretary; 
Michele Varnhagen, Labor Policy Director; Margaret Young, Staff 
Assistant, Education; Stephanie Arras, Minority Legislative 
Assistant; James Bergeron, Minority Deputy Director of 
Education and Human Services Policy; Robert Borden, Minority 
General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Kirsten Duncan, Minority Professional 
Staff Member; Susan Ross, Minority Director of Education and 
Human Services Policy; Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel; and Sally Stroup, Minority 
Staff Director.
    Chairman Hinojosa. A quorum is present, and the hearing of 
the subcommittee will come to order.
    Pursuant to Committee Rule 12(a), any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    I now recognize myself, followed by the ranking member, 
Brett Guthrie, for an opening statement.
    Good afternoon to everyone, and welcome to the Subcommittee 
on Higher Education, Lifelong Learning, and Competitiveness 
hearing on ``New Innovations and Best Practices under the 
Workforce Investment Act,'' better known as WIA.
    One of the top legislative priorities for our subcommittee 
is the reauthorization of the Workforce Investment Act. WIA was 
last reauthorized in 1998 and was due for reauthorization in 
2003. In other words, it is long overdue.
    America's workers cannot afford to wait any longer for an 
upgrade to our workforce investment system. Our economy has 
lost 3.6 million jobs since December 2007, with 798,000 jobs 
shed last month alone. Unemployment has surged to 7.6 percent 
in our country. The magnitude of these losses is greater than 
anything we have seen in over a generation.
    Worse, as we face the most serious economic crisis since 
the Great Depression, it is clear that we have failed to 
provide our workers with the education and skills that would 
help them weather this storm. According to the National 
Commission on Adult Literacy's report, ``Reach Higher, 
America,'' 80 million to 90 million U.S. adults, roughly half 
of the workforce, lack the basic education and communication 
skills required for jobs that pay family-sustaining wages.
    These are the challenges we must address as we renew the 
job training, adult education, and vocational rehabilitative 
services programs authorized under the Workforce Investment 
Act. The American Recovery and Reinvestment Act, which includes 
a multibillion-dollar investment in job training to help 
prepare laid-off adult and younger workers for jobs in emerging 
industries, including green jobs, is a critical first step to 
getting America back to work. Just as we talk about modernizing 
our physical infrastructure, we need to modernize our 
infrastructure for supporting human capital. That is where the 
reauthorization of WIA will be key.
    In 1998, we took a bold step forward in trying to unify a 
collection of discrete workforce development programs into a 
coherent system that would serve workers and employers alike. 
WIA envisioned one-stop services for locally developed 
solutions to workforce development needs.
    The law was enacted during a time of economic expansion, a 
time when we were adding jobs and not shedding jobs. Today, we 
face a starkly different environment, and we must adjust our 
workforce investment policy to the new reality. An improved WIA 
should be a key plank in our plans to restore economic 
prosperity to America's working families. We have an 
opportunity to update job training programs so that they not 
only place workers into jobs but also onto career pathways to 
better wages and advancement in the workplace.
    Reauthorization is the perfect time to get serious about 
re-engaging adult learners who struggle with literacy or who 
lack a high school diploma with our education system, providing 
them with the skills and credentials they need for success.
    We also need to make sure that our investment in WIA 
results in more job training and education services in our 
communities. We need to look for innovative ways to manage the 
infrastructure and the administrative costs of the system so 
that we can maximize the resources that are available for 
direct services to workers.
    Finally, we need to work on an accountability system that 
provides us with the information we need to determine that the 
programs are achieving their goals while, at the same time, 
build in accountability measures for serving the populations 
with the greatest barriers to employment.
    I would like to work with all of the members of our 
subcommittee to shape a WIA reauthorization bill that will 
garner broad, bipartisan support.
    Today's hearing is the beginning of our deliberations for 
this 111th Congress. I would like to thank the witnesses for 
joining us today. Your testimony, each and every one of you, 
will help set the stage for our work ahead.
    I would like to recognize the senior Republican member of 
our subcommittee, Representative Brett Guthrie from Kentucky, 
for his opening statement.
    And if I may ask him to pause for just a moment, I want to 
say that I believe that today's hearing is going to be one that 
is very important and, as I said in my closing statement, sets 
the foundation for the work that is before us, and one that we 
are going to try to move with great speed and hope that, if all 
goes well, that we can see our work concluded before the end of 
the summer.
    And, with that, I yield to my good friend, Brett Guthrie.
    [The statement of Mr. Hinojosa follows:]

 Prepared Statement of Hon. Ruben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelong Learning and Competitiveness

    Good afternoon and welcome to the Subcommittee on Higher Education, 
Lifelong Learning and Competitiveness hearing on New Innovations and 
Best Practices under the Workforce Investment Act.
    One of the top legislative priorities for our subcommittee is the 
reauthorization of the Workforce Investment Act--also known as WIA.
    WIA was last reauthorized in 1998 and was due for reauthorization 
in 2003. In other words, it is long overdue.
    America's workers cannot afford to wait any longer for an upgrade 
to our workforce investment system. Our economy has lost 3.6 million 
jobs since December 2007, with 598,000 jobs shed last month alone. 
Unemployment has surged to 7.6 percent. The magnitude of these losses 
is greater than anything we have seen in over a generation.
    Worse, as we face the most serious economic crisis since the Great 
Depression, it is clear that we have failed to provide our workers with 
the education and skills that would help them weather the storm. 
According to the National Commission on Adult Literacy's report, Reach 
Higher, America, 80-90 million U.S. adults, roughly half of the 
workforce, lack the basic education and communication skills required 
for jobs that pay family sustaining wages.
    These are the challenges we must address as we renew the job 
training, adult education, and vocational rehabilitative services 
programs authorized under the Workforce Investment Act.
    The American Recovery and Reinvestment Act, which includes a multi-
billion dollar investment in job training to help prepare laid-off, 
adult, and younger workers for jobs in emerging industries including 
green jobs, is a critical first step to getting America back to work.
    Just as we talk about modernizing our physical infrastructure, we 
need to modernize our infrastructure for supporting human capital--that 
is where the reauthorization of the Workforce Investment Act will be 
key.
    In 1998, we took a bold step forward in trying to unify a 
collection of discreet workforce development programs into a coherent 
system that would serve workers and employers alike. WIA envisioned 
one-stop services for locally developed solutions to workforce 
development needs. The law was enacted during a time of economic 
expansion, a time when we were adding jobs and not shedding them. 
Today, we face a starkly different environment and we must adjust our 
workforce investment policy to the new reality.
    An improved WIA should be a key plank in our plans to restore 
economic prosperity to America's working families. We have an 
opportunity to update job training programs so that they not only place 
workers into jobs but also onto career pathways to better wages and 
advancement in the workplace. Reauthorization is the perfect time to 
get serious about re-engaging adult learners, who struggle with 
literacy or who lack a high school diploma, with our education system, 
providing them with the skills and credentials they need for success.
    We also need to make sure that our investment in WIA results in 
more job training and education services in our communities. We need to 
look for innovative ways to manage the infrastructure and 
administrative costs of the system so that we can maximize the 
resources that are available for direct services to workers.
    Finally, we need to work on an accountability system that provides 
us with the information we need to determine that the programs are 
achieving their goals, while at the same time build in accountability 
measures for serving the populations with the greatest barriers to 
employment.
    I would like to work with all of the members of our subcommittee to 
shape a WIA reauthorization bill that will garner broad, bipartisan 
support.
    Today's hearing is the beginning of our deliberations for the 111th 
Congress. I would like to thank the witnesses for joining us today. 
Your testimony will help set the stage for our work ahead.
    I would like to recognize the Senior Republican Member of our 
Subcommittee, Rep. Brett Guthrie, for his opening statement.
                                 ______
                                 
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you very much. 
And thank you for calling this hearing. And I welcome our 
distinguished witnesses. I look forward to working with you 
throughout the 111th Congress and on many important issues.
    Our country is facing its toughest economic challenges in 
recent memory. We face complex and difficult problems as we 
work toward economic growth. Last week, we saw the Department 
of Labor statistic that nearly 600,000 jobs were lost in 
January. As more and more Americans join the ranks of the 
unemployed, there has never been a more critical time to make 
sure that our workforce has the opportunity to find new jobs or 
receive additional training.
    In Kentucky, I have observed how investing in the workforce 
provides tangible improvements for workers, their families, and 
their employers. I come from a manufacturing background, so I 
have seen firsthand that unemployed workers who receive 
additional training for new skills can obtain a new higher-
paying job, which radically transforms their way of life. At 
the same time, these newly trained workers increase the 
productivity of local employers and fill gaps in the workforce.
    Investing in the workforce is important to make sure that 
our workers are adequately prepared to meet the changing 
demands of our economy. With the proper investment, our 
workforce can be strengthened and maintain its competitive 
advantage.
    We must be committed to a dynamic, results-oriented job 
training system that can effectively serve those looking for a 
job and those workers in need of retraining. The one-stop shops 
under the Workforce Investment Act are a tremendous resource 
for workers. However, Federal job training initiatives have not 
been updated in more than a decade, leaving us with a system 
that is duplicative and less efficient than it could be.
    We need to renew these programs for the 21st century, 
keeping local workforce investment boards at the center of a 
dynamic, responsive system to serve workers. If we are serious 
about restoring our economy, it is vitally important that the 
Workforce Investment Act be reauthorized now.
    I look forward to today's testimony and learning the best 
practices and innovative ideas from around the country as we 
work to improve this important legislation.
    Thank you, Mr. Chairman.
    [The statement of Mr. Guthrie follows:]

  Prepared Statement of Hon. Brett Guthrie, Ranking Minority Member, 
 Subcommittee on Higher Education, Lifelong Learning, and Competiveness

    Thank you, Mr. Chairman, for calling this hearing and I welcome our 
distinguished witnesses. I look forward to working with you throughout 
the 111th Congress on many important issues.
    Our country is facing its toughest economic challenges in recent 
memory. We face complex and difficult problems as we work toward 
economic growth. Last week, we saw the Department of Labor statistic 
that nearly 600,000 jobs were lost in January. As more and more 
Americans join the ranks of the unemployed, there has never been a more 
critical time to make sure that our workforce has the opportunity to 
find new jobs or receive additional training.
    In Kentucky, I have observed how investing in the workforce 
provides tangible improvements for workers, their families, and their 
employers. I come from a manufacturing background so I have seen 
firsthand that unemployed workers who receive additional training for 
new skills can obtain a new, higher-paying job, which radically 
transforms their way of life. At the same time, these newly trained 
workers increase the productivity of local employers and fill gaps in 
the workforce.
    Investing in the workforce is important to make sure that our 
workers are adequately prepared to meet the changing demands of our 
economy. With the proper investment, our workforce can be strengthened 
and maintain its competitive advantage.
    We must be committed to a dynamic, results-oriented job training 
system that can effectively serve those looking for a job and those 
workers in need of retraining. The one-stop shops under the Workforce 
Investment Act are tremendous resources for workers. However, federal 
job training initiatives have not been updated in more than a decade, 
leaving us with a system that is duplicative and less efficient than it 
could be. We need to renew these programs for the 21st century, keeping 
local workforce investment boards at the center of a dynamic, 
responsive system to serve workers. If we are serious about restoring 
our economy, it is vitally important that the Workforce Investment Act 
be reauthorized now.
    I look forward to today's testimony and learning the best practices 
and innovative ideas from around the country as we work to improve this 
important legislation.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Chairman Hinojosa. Without objection, all members will have 
14 days to submit additional materials or questions for the 
hearing record.
    I would like to introduce our very distinguished panel of 
witnesses here with us this afternoon.
    And welcome, to each and every one of you as witnesses.
    On the lighting system, for those of you who have not 
testified before this subcommittee, I wish to explain our 
lighting system and the 5-minute rule. Everyone, including 
members, is limited to 5 minutes of presentation or 
questioning. The green light is illuminated when you begin to 
speak. When you see the yellow light, it means you have 1 
minute remaining. When you see the red light, it means your 
time has expired and you need to begin the conclusion to your 
testimony.
    Please be certain, as you testify, to turn on and to speak 
into the microphone in front of you.
    Let me introduce the witnesses.
    Our first witness is Ms. Bonnie Gonzalez, the CEO of the 
Workforce Solutions organization. Yvonne Bonnie Gonzalez was 
appointed CEO of her organization in May of 2003. In her 
position, she has programmatic and fiduciary responsibility of 
the organization that oversees workforce development services 
for Hidalgo, for Starr, and Willacy Counties in deep south 
Texas. She is responsible for ensuring that public dollars go 
directly to services and investments in customized training, 
incumbent worker training, and other direct services provided 
to the business client and public through workforce centers.
    Bonnie has worked in elementary and post-secondary 
education systems and has a special interest in our Nation's 
health-related infrastructure since she was a nurse by 
profession. Bonnie has a bachelor of science from the 
University of Texas at Austin and earned a master's of public 
administration from Harvard University. She is a very special 
person in my district which I represent.
    And it is a pleasure to welcome you. I am going to let you 
get started.
    Oh, forgive me. I am out of practice since we finished the 
last session. I am going to actually introduce all of the 
members of the panel and give my ranking member the opportunity 
to introduce someone from his State of Kentucky.
    The second person who will be testifying today is Mr. 
Morton Bahr, president emeritus, Communications Workers of 
America, and commissioner on the National Commission on Adult 
Literacy.
    Mr. Barr served his union for 51 years and retired as the 
president in 2005. Recently, he served as a member of the 
National Commission on Adult Literacy, and all our members have 
a report developed by the Commission in their folders. Under 
his leadership, CWA was one of the first unions to jointly own 
an educational company devoted to delivering educational 
opportunities to the members of the union who were employed by 
AT&T. This model was later replicated throughout the 
telecommunications industry.
    In 1997, he was appointed by President Clinton to chair the 
Commission for a Nation of Lifelong Learners.
    Welcome to our hearing, Mr. Bahr, and thank you for your 
service to our Nation.
    The next speaker will be Mr. Stephen Wooderson, State 
director, Iowa Vocational Rehabilitation Services. Stephen 
Wooderson, of West Des Moines, has worked in the vocational 
rehabilitation profession for over 30 years. He began his 
career as a vocational rehabilitation counselor and served at 
all levels of supervision and management.
    Stephen is also a retired Army Reserves lieutenant colonel, 
who has served in numerous command and staff positions during 
his 20-year military career prior to retiring in 2001.
    Mr. Wooderson received his bachelor of science from 
Southwest Baptist College and earned his master's of arts from 
Spaulding University.
    Welcome. And thank you for your military service, as well 
as your long years of service to your very important 
profession.
    The next person will be Mr. Bill Camp, executive secretary, 
Sacramento Central Labor Council, AFL-CIO. Mr. Camp's umbrella 
organization of local unions represents 160,000 union families 
in Sacramento and five surrounding counties.
    He is the vice chair of Sacramento Works, Incorporated, the 
county workforce investment board. He has also served as the 
past Chair of the United Way Board of California, Capital 
Region.
    In the past, he has served as an elected school board 
member, worked at the California Agriculture Labor Relations 
Board, the California State Senate Rules Committee, and the 
California Labor Federation, AFL-CIO.
    He received his bachelor's of arts in sociology from Oregon 
and earned his master's of arts in sociology from Duke 
University. Bill has served in his current position for 10 
years.
    And we really appreciate and welcome your perspective on 
the issues this afternoon.
    Ms. Karen Elzey will be the next presenter. She is the vice 
president and executive director, Chamber of Commerce, and 
director of the Institute for a Competitive Workforce.
    Ms. Elzey has 10 years' experience in workforce development 
and has received her bachelor's and earned her master's degree 
from Miami University of Ohio.
    This afternoon, she will be discussing innovative 
strategies for workforce development that the Chamber is 
initiating through the Institute. She also is here to share the 
nationwide contributions of the business community in support 
of the Workforce Investment Act.
    And I welcome Ms. Elzey.
    At this time, I wish to give the speaking system to my 
ranking member, Brett.
    Mr. Guthrie. Thank you, Mr. Chairman. I appreciate the 
opportunity to introduce our next witness.
    And a lot of my colleagues and people here have been asking 
us about our ice storm, which was my district and your area 
where you live. So I appreciate your coming. I know there is a 
lot going on back in Elizabethtown. Fortunately, my house is 
just south of the line that came through. But I appreciate your 
coming here under difficult circumstances. And we appreciate 
everybody that has been commenting on Kentucky and giving us 
your prayers.
    Sherry Johnson is the associate director for Employment 
Training Programs with the Lincoln Trail Area Development 
District in Elizabethtown, Kentucky. She has been with the 
agency since 1985. She has been the Chair of the Kentucky local 
Workforce Investment Area Directors Group and the Co-Chair for 
the Workforce Subcommittee of the Governor's BRAC Task Force. 
And BRAC is an acronym for essentially the realigning of Fort 
Knox. And I appreciate her doing that.
    Sherry has a bachelor's degree from Murray State University 
and a master's degree from Western Kentucky University.
    We welcome you here, Sherry, and thank you for making the 
trip to Washington.
    Chairman Hinojosa. With that, we will begin and ask the 
first witness, Ms. Gonzalez, if she would like to start.

 STATEMENT OF YVONNE BONNIE GONZALEZ, CHIEF EXECUTIVE OFFICER, 
                   WORKFORCE SOLUTIONS, INC.

    Ms. Gonzalez. Good afternoon, Chairman Hinojosa, Ranking 
Member Guthrie, and members of the subcommittee. My name is 
Yvonne Bonnie Gonzalez, and currently as, you have been told, I 
serve as chief executive officer of Workforce Solutions.
    Workforce Solutions is a workforce development board 
serving Hidalgo, Starr, and Willacy Counties right on the U.S. 
Texas border. We are one of 28 workforce development boards in 
the State of Texas. We are considered the fourth-largest board 
in the State, behind Houston, Dallas, and San Antonio, 
receiving a stake in Federal investment of approximately $57 
million this year for the purpose of connecting our business 
customers with our most available workforce.
    As CEO, I have recently been named to the Governor's Texas 
Team for Nursing Education Capacity. I serve as a member of the 
U.S. Department of Labor's Initiative for Workforce 
Transformation and the Texas Association of Workforce Boards 
and the Border Trade Alliance. Membership in these committees, 
councils, and initiatives provide me the unique opportunity to 
contribute and, most importantly, to communicate the critical 
connection between education, workforce, and economic 
development.
    On behalf of Workforce Solutions and our numerous public 
and private partners, I would like to thank the committee and 
the Chair for his invitation and for the opportunity to address 
this committee.
    My remarks this afternoon will focus on the adult 
education/workforce development innovative strategies and best 
practices that will continue to strengthen Texas's and the 
Nation's competitive advantage in this 21st century.
    Let me tell you a little bit about our area in south Texas. 
We are about 84 percent Hispanic; 27 percent of the families 
live below the poverty level, compared to about 12 percent 
statewide; 38 percent of people 25 years of age and older have 
less than a ninth-grade education. And that data is 
representative of the entire the State of Texas border.
    National data demonstrate a clear relationship between 
educational attainment and lifelong earning potential. Sadly, 
the educational attainment in the lower Rio Grande Valley of 
Texas continues to lag behind the Nation. Roughly two out of 
every five adults in Hidalgo and Cameron Counties do not hold a 
high school diploma.
    While the percentage of adult residents in the two counties 
with some college experience or an associate's degree is 
similar, the percentage completing a 4-year degree or higher is 
significantly--I say significantly--lower than the rest of the 
United States.
    The Rio Grande Valley has a very young workforce, and this 
trend we see will continue over the next few decades. This also 
means that large numbers of young and inexperienced workers 
will continue to join the valley's labor force each year.
    The lower Rio Grande Valley has a unique historical pattern 
of faster population growth during and immediately following a 
recession. The valley tends to draw an influx of migrants from 
Texas's major metropolitan areas, especially as jobs in those 
cities begin to dry up. There is a long data lag, so it may be 
a couple of years before the current recession shows up in the 
migration data.
    The daunting nature of these economic and workforce 
challenges that I have just shared before you requires a 
renewed national commitment and new national priorities. The 
21st century workforce development system needs to remain 
locally driven, but it must receive the necessary and enhanced 
support and resources from Federal allocations. Bold, new 
thinking and drastic shifts in current policy will also be 
necessary to realize the vision of a successful workforce. This 
new economic era demands a new workforce development system.
    Concerning unemployment statistics, I venture to say, and 
this committee obviously is very aware, that the fact that 
unemployment numbers are rising so fast, for those of us that 
are faced with that stark reality in our communities, that even 
historical unemployment trends and seasonally adjusted 
statistics have pretty much gone out the window during this 
economic crisis. The urgency of this present climate calls for 
changes in how the current systems operate.
    Texas is a traditionally recognized leader in workforce 
development. However, differences in measuring the 
effectiveness of the workforce investment activity, we find, 
still separates boards and the grantor.
    I see my red light is on. I reserve any comments. And, 
considering there are many pages left, should there be any 
additional comments or questions, I reserve the right to 
respond to those as needed. Thank you.
    [The statement of Ms. Gonzalez follows:]

Prepared Statement of Yvonne Bonnie Gonzalez, Chief Executive Officer, 
                       Workforce Solutions, Inc.

    Good Afternoon, Chairman Hinojosa and Members of the Subcommittee.
    My name is Yvonne ``Bonnie'' Gonzalez. I serve as the Chief 
Executive Officer of Workforce Solutions. Workforce Solutions is the 
workforce development board serving Hidalgo, Starr and Willacy 
Counties. Although this Board covers only three counties, it is 
representative and reflective of the 23 Texas counties along the 
entirety of the Mexican border. We are 1 of 28 workforce development 
boards in the state of Texas. We are the 4th largest board in the state 
behind Houston, Dallas, and San Antonio, receiving a state and federal 
investment of approximately $57 million annually for the purpose of 
connecting business customers with the available workforce.
    As CEO, I have recently been named to the Governor's ``Texas Team 
for Nursing Education Capacity'', serve as a member U.S. Department of 
Labor's Initiative for Workforce Transformation, the Texas Association 
of Workforce Boards and am a member of the Border Trade Alliance. 
Membership in these committees, councils and initiatives provides me 
the unique opportunity to contribute, and most importantly, to 
communicate the critical connection between education, workforce and 
economic development.
    On behalf of Workforce Solutions, and our numerous public/private 
partners, I would like to thank you for the opportunity to address the 
Committee. My remarks this afternoon will focus on the adult education/
workforce development innovative strategies and best practices that 
will continue to strengthen Texas' and the nation's competitive 
advantage in the 21st century global marketplace.
    Demographics: The following is a snapshot of not only our area, but 
the Texas-Mexico border. These statistics are however not a secret to 
this Committee:
    <bullet> 84% of the people are Hispanic
    <bullet> 27% of the families live below the poverty level compared 
to 12% statewide (Texas Workforce Commission data 2006)
    <bullet> 38% of people 25 years or older have less than a 9th grade 
education
    <bullet> The Texas-Mexico border, especially from Webb County to 
Cameron County has repeatedly ranked amongst the fastest growing areas 
in the nation in the past 2 years
    <bullet> National data demonstrate a clear relationship between 
educational attainment and life-long earning potential
    <bullet> Educational attainment rates in the LRGV continue to lag 
behind the nation.
    <bullet> Roughly two out of every five adults in Hidalgo and 
Cameron counties do not hold high school credentials.
    <bullet> While the percentage of adult residents in the two 
counties with some college experience or an Associate's degree is 
similar, the percentage completing a 4-year degree or higher is 
significantly lower than the U.S.
    <bullet> The Valley has a young workforce, with this trend 
projected to continue well into the coming decades.
    <bullet> This means that large numbers of young, inexperienced 
workers will continue to join the Valley's labor force each year.
    <bullet> The Lower Rio Grande Valley has a unique historical 
pattern of faster population growth during and immediately following a 
recession.
    <bullet> The Valley tends to draw an influx of migrants from 
Texas's major metropolitan areas when those cities stop providing jobs 
(like construction) and people return home to the Valley.
    <bullet> There's a long data lag, so it may be a couple of years 
before the current recession shows up in the migration data. But if 
past experience is a guide, the Valley may already be on the receiving 
end of an influx of migrants, many of whom are likely to be unemployed.
    The daunting nature of these economic and workforce challenges 
requires a renewed national commitment and new national priorities. The 
new 21st century workforce development system needs to be locally 
driven and needs to receive the necessary and enhanced support and 
resources from federal allocations to enable our workforce to compete 
successfully in the global economy.
    Bold new thinking and drastic shifts in current policy will also be 
necessary to realize this vision. A new economic era demands a new 
workforce development system. Projected growth statistics too numerous 
to mention points to the Hispanic population concentrated in states 
along the border as the source of the nation's future workforce.
    Concerning employment and unemployment statistics, I would venture 
to say this Committee is especially aware of the fact unemployment 
numbers are rising so fast on a daily basis as to render any statistics 
meaningless; even historical unemployment trends and seasonally 
adjusted statistics have gone out the window during this economic 
crisis.
    The urgency of the present climate calls for changes in how the 
current systems operate in order to meet the emergent needs of both 
workers and business. WIA is no exception.
    Texas is a nationally recognized leader in Workforce Development. 
This recognition was achieved through the strong leadership, vision and 
fundamental understanding that business was at the core of and the 
ultimate consumer of the public dollar's investment in human capital. 
To continue building will require a review of current WIA rules and 
eligibility, allowable activities, eligible training provider systems 
and performance measures and their relation and relevance to business.
    However, differences in measuring ``the effectiveness of the 
workforce investment activities'' still separate boards and the 
``grantor''. To quote the old cliche ``that which gets measured gets 
done'' has become ``operational'' and drives the current workforce 
development system. Unfortunately, what is currently being measured and 
how it is measured clashes with private sector workforce plans.
    Just as the daily headlines are capturing rapid historic changes in 
the nation's economy, so have the demographics.
    <bullet> Our Workforce Centers are now reporting more and more 
people seeking employment who report a 12th grade education or higher. 
These new job seekers do not fit ``pre-unemployment crises'' profile; 
those with extremely low education levels and poor work history. This 
new ``job seeker'' will require expedited workforce services that do 
not fit the ``traditional'' model of adult-literacy/work experience/
employment, but rather short term technical training in the emerging 
industry sectors with specific job skill portable credentials for entry 
into new job opportunities.
    <bullet> The return of our troops from Iraq and Afghanistan will 
require extremely specialized services in conjunction with the 
Department of Vocational Rehabilitation Services to re-adjust into the 
workforce
    <bullet> With Veterans as a priority a resource of skills and 
leadership will become available, but must be met with rapid re-
training in these transferable skills into new industries
    The current WIA system requires a delicate balancing act in order 
to meet both regulatory program compliance and the results businesses 
expect based on the plans developed from their input. The limited 
allowable activities (i.e. use of WIA funds) forces WIBs to innovate, 
to ``think outside the box'' while remaining physically ``in the box''. 
Through partnerships and collaboration, Workforce Solutions has been 
able to:
    <bullet> Implement a Customer/Staffing Solutions and Business 
Consultative Approach that bridges job seeker and employer without 
references to governmental forms and policies
    <bullet> Established Fee for Service to business in order to 
provide workforce expertise in the areas of human resources, job 
screening and assessments
    <bullet> Established Workforce Solutions as an equal partner in 
economic development via Business Intelligence (data)
    <bullet> Created linkages between emerging high technology jobs and 
preparation of the local workforce through competitive grants
    <bullet> Implemented Read Right--a tutoring program for reading 
comprehension which has demonstrated significant impact
    <bullet> Convened leading business and industry leaders to map the 
future of the workforce for investments of training funds
    Workforce Development's future resides not in the delivery of 
services to targeted populations, but in ``job creation'' with business 
at the forefront, and the delivery of services at the speed that 
business demands. In order for WIA to remain ``in business'' it must 
return to its original intent of serving business.
    Given the time allotted by the Committee, the following rules and 
regulations governing WIA must be re-visited with ``business results'' 
as the measures to be achieved.
    <bullet> WIBs in Texas are awarded block grants which include TANF 
funds. Boards are measured on their ability to meet the 
``participation'' hours of the TANF participant. This is not a 
workforce development program, but rather a ``public assistance 
continuing eligibility requirement''. Failure to keep the TANF 
recipient ``participating'' leads to sanctions
    <bullet> Title II of WIA--Adult Basic Education and Literacy must 
be addressed and brought into Workforce Development as a provider. 
Currently WIA funds must be spent on Adult Basic Education and Literacy 
because administration of Title II funds do not prepare the job seeker 
for employment
    <bullet> Program Eligibility--access to WIA training services are 
built on employment inhibiting requirements. An individual must 
document low income, dislocation from work or receipt of public 
assistance to qualify. These requirements limit the working poor, 
employed workers seeking training for higher skills and employed/
incumbent workers from being able to progress in the workforce
    <bullet> Time Limitations on training activities--allows only for 
those who are best prepared to complete training while leaving those 
who can most benefit without
    <bullet> Efficiencies and Accountability--WIBs are in effect 
penalized for implementing efficiencies in the delivery of their 
services and documentation thereof.
    A shift to a knowledge based economy increases the educational 
requirements of many industries and occupations. Higher education means 
increased capacity and productivity of a workforce, decreased need for 
social services, and finally an enhanced pace for innovation and 
increased competitiveness.
    In summary, strategic and sustainable partnerships between 
education, workforce and economic development entities are critical. 
Together, building and deploying local talent is the key to maintaining 
a competitive advantage in the Rio Grande Valley, South Texas and the 
Nation. This type of innovative and strategic alignment will bring our 
nation's economy to a new level.
    Your challenge and mine, is to secure the development and fostering 
of skilled talent for the nation.
                                 ______
                                 
    Chairman Hinojosa. Be assured that the entire statement 
that you brought us will be made part of the record.
    Ms. Gonzalez. Thank you.
    Chairman Hinojosa. I now call on Mr. Bahr.

 STATEMENT OF MORTON BAHR, PRESIDENT EMERITUS, COMMUNICATIONS 
WORKERS OF AMERICA, COMMISSIONER, NATIONAL COMMISSION ON ADULT 
                            LITERACY

    Mr. Bahr. Mr. Chairman, I want to thank you for your 
interest in adult education and the opportunity to discuss our 
commission's findings and recommendations.
    Capital can be moved anywhere around the world while we 
sleep. New technology can give a company perhaps several months 
of lead time before the competition catches up. Therefore, to 
be an effective competitor in the intensifying global 
marketplace, the United States must have the best educated, 
highly motivated workforce.
    The choice before us, Mr. Chairman, is whether we settle 
for a low-skills, low-wage economy or we do all that is 
necessary to develop a high-skills, high-wage economy where all 
workers have the ability to earn family-sustaining wages. We 
know that education, skills development, and lifelong learning 
are the keys to an innovative and productive workforce.
    America is in danger of losing its long-held place as world 
leader in education. For the first time in our history, our 
young adults aged 25 to 34 are less educated than their 
parents. In addition, about 88 million adults are undereducated 
insofar as being ready to do college-level work. This problem 
is also exacerbated by the 1.3 million high school students who 
drop out each year.
    The Commission has two overarching recommendations. First, 
we ask Congress to transform the adult education and literacy 
system as we now know it into an adult education and workforce 
skills system, with the ability to serve 20 million adults by 
2020.
    Secondly, we ask Congress and State governments to make 
readiness for post-secondary education and workforce skills the 
primary mission of the adult education and workforce skills 
system. To achieve this essential transformation, we call for 
significant action on the part of Federal and State 
governments.
    At the core of our Federal recommendation is the passage of 
a comprehensive new Adult Education and Economic Growth Act, 
designed to overhaul and expand adult education and workforce 
skills training. The act should define the fundamentals of 
adult education, set forth new program goals, and offer 
incentives and strategies to increase learner access.
    Because readiness is the major new service outcome and 
since we want to prepare learners for employment in high-
performance workplaces, the new programs will need to offer 
such basics as excellence in oral and written communications, 
critical thinking, problem solving, the ability to adapt to new 
technologies, and work in teams. This will require traditional 
adult education and workforce development groups to work 
together more closely.
    States should invest more in the skills of their workers so 
that increased productivity helps offset the effect of low-wage 
labor paid in developing countries.
    Government alone cannot do the entire job. Business, too, 
must step up to the plate. For example, 16 national unions, 
together with some 400 employers in the private and public 
sectors, are jointly providing education and training 
opportunities to some 500,000 workers.
    During our 2 years of intensive study, we learned that you 
cannot tweak a system designed for the 20th century to be 
relevant in the rapidly changing world of the 21st century. 
That is why we call for action at all levels to transform the 
system into an adult education and workforce skills system. The 
system must be highly accountable, have more relevance, 
measurable outcomes, and preserve and create economic 
opportunities for key underserved segments of our population.
    As the 2007 State New Economy Index puts it, workers who 
are skilled with their hands and could reliably work in 
repetitive and sometimes physically demanding jobs were the 
engine of the old economy. In today's new economy, knowledge-
based jobs are driving the economy, jobs held by individuals 
with at least 2 years of college.
    The Commission proposes a new system, built up gradually 
over the next decade, to address the needs described in our 
report. This means that workplace skills education should be 
much more highly valued and that employers should devote a 
larger share of their training budgets to their low-skilled 
workers.
    Mr. Chairman, the challenge facing our Nation cannot be 
underestimated. How well we deal with it will largely determine 
how successfully we compete with the rest of the world and what 
economic and social standards our citizens will enjoy. It will 
take a Marshall Plan type of response by government at all 
levels, business, labor, and philanthropy, all working together 
to restore our leadership around the world.
    For me, speaking from 51 years of serving the members of my 
union and the communities in which they live, I believe we can 
develop an economy where not a single U.S. employer can justify 
moving work offshore because there were no qualified American 
workers and that we can eliminate the use of H-1B visas or keep 
it to a bare and justified minimum.
    Thank you.
    [The statement of Mr. Bahr follows:]

 Prepared Statement of Morton Bahr, President Emeritus, Communications 
Workers of America, Commissioner, National Commission on Adult Literacy

    Mr. Chairman, thank you for this opportunity to tell the 
Subcommittee on Education and Labor about the findings of the National 
Commission on Adult Literacy. We appreciate your recognition of the 
importance of adult education--the third leg of our educational 
system--in preparing our workforce for jobs.
    The National Commission is a distinguished independent panel of 
leaders. We are former U.S. secretaries of labor and education, 
prominent business and labor leaders, and workforce development 
experts. We are adult educators, community college heads, and 
researchers. We are leaders in ESL, family literacy, correctional 
education, youth policy, philanthropy, and even the Foreign Service. 
Our final report, Reach Higher, America, was released on June 26, 2008 
at a special event on Capitol Hill. You should have a full copy of that 
report in your folder.
    It is no secret that America is at risk of losing its place as a 
world leader in education. Here is just one alarming indication of that 
from our report: Of all 30 OECD free-market countries, we are currently 
the only nation whose young adults are less educated than the previous 
generation.\1\
---------------------------------------------------------------------------
    \1\ Source: Education at a Glance, 2007, OECD, analysis for the 
Commission by the National Center for Higher Education Management 
Systems (NCHEMS).
---------------------------------------------------------------------------
    Here is another alarming fact. Some 88 million adults in America 
need help with their ESL and basic skills, yet we are currently 
providing services to only 3 million people. I will elaborate on these 
numbers shortly. The Commission calls for bold change at the state and 
federal levels to address this challenge. We have two overarching 
recommendations:
    <bullet> We call on Congress to transform the adult education and 
literacy system as we now know it into an adult education and workforce 
skills system with the capacity to effectively serve 20 million adults 
annually by the year 2020.
    <bullet> We call on Congress and state governments to make 
readiness for postsecondary education and workforce the primary mission 
of the adult education and workforce skills system.
    To achieve this essential transformation, we call for several 
actions, particularly on the part of federal and state government.
    For this bold federal leadership role to pay off, it must be met by 
strong state leadership. Here, in broad terms, are our recommendations 
on the state role:
    6) States should engage in comprehensive planning and establish 
goals to improve adult educational attainment and workforce skills in 
light of their economic development goals.
    7) States should legislate authority for coordination and alignment 
of systems consistent with their postsecondary education, workforce, 
and economic development goals. In some cases, a cross-agency planning 
body already exists; in others it may need to be created. In some 
states, a cabinet level position might either be established or 
strengthened. Whatever the approach, most commissioners feel the 
governor's office must be involved.
    8) New federal funds under the new Act should be awarded to states 
following federal approval of a comprehensive adult education plan that 
each state develops and updates periodically for federal review. These 
funds should be available for awards within the first year of the Act's 
passage, and states should be ``held harmless'' at current federal 
adult education grant levels.
    9) States should invest more in the skills of their workers so that 
increased productivity helps offset the effect of low-cost labor 
furnished by developing countries. Business must be an active partner 
in this effort.
    The recommended federal and state actions aim to increase 
dramatically the number of adult Americans with limited basic skills 
who receive basic skills instruction as defined in the Act. They should 
result in seamless pathways of instruction from the lowest levels of 
proficiency to attainment of a GED and/or readiness for occupational 
and/or postsecondary education. They should greatly strengthen the 
quality, range, and accountability of basic skills instruction and 
related services. And we should gradually achieve the following desired 
outcomes from general and workforce basic skills instruction--
verifiable learning gains, acquisition of basic and workforce skills, 
accelerated learning, GED acquisition, and transitions to vocational, 
postsecondary, or other programs that will benefit individuals, the 
business community, the economy, and American society.
    Let me now explain the reasons for our recommendations. During two 
years of intensive study,\2\ we thoroughly examined our current adult 
basic education system. We looked at its scope, purposes, funding, 
enrollments, and outcomes. We also looked carefully at the federal role 
in this system, at state performance, and at the impact of changing 
demographics in America on our global competitiveness and human 
resource development needs. We wanted to determine how well this 
system, created for the 20th century, meets the nation's need to 
prepare current and future workers in the 21st century, from the 
standpoint of adults with low basic skills--our community leaders, our 
parents and family units, our young adults, our aspiring new Americans, 
our neighbors, incumbent workers, the unemployed and underemployed.
---------------------------------------------------------------------------
    \2\ The Commission's work was enabled by funding from the Dollar 
General Corporation (lead funder at $1 million), the Charles Stewart 
Mott Foundation, The McGraw-Hill Companies, Harold W. McGraw, Jr., a 
longtime champion of adult education and literacy, and the Joyce and 
Ford Foundations.
---------------------------------------------------------------------------
    The Commission quickly discovered that America's needs cannot be 
met by simply tweaking the adult education system we have. That's why 
we call for action at all levels--with a focus on federal and state 
leadership--to transform the system into an ``Adult Education and 
Workforce Skills System.'' This system must be highly accountable; have 
more relevant, measurable, and comparable outcomes; and preserve and 
create economic opportunities for key underserved segments of our 
population--especially the burgeoning ESL population, the huge number 
of high school dropouts and underachievers, and nonviolent offenders in 
our correctional population, who return daily to our communities 
lacking the skills to qualify for jobs.
    These people, and many millions of other adults at very low 
literacy and ESL levels, are a big part of our workforce. The vast 
majority of them are beyond the reach of our secondary schools and of 
higher education institutions. Right now, the U.S. labor force consists 
of about 150 million adults aged 16 and older.\3\ Unless we rise to the 
adult education challenge, nearly half of these people, many of prime 
working age, will fall behind in their struggle to get higher wage 
jobs, or to qualify for the college courses or job training that will 
help them join or advance in jobs that pay a family-sustaining wage.
---------------------------------------------------------------------------
    \3\ Source: 2006 American Community Survey, U.S. Census Bureau.
---------------------------------------------------------------------------
    The American economy requires increasingly that most workers have 
at least some postsecondary education or occupational training to be 
ready for current and future jobs in the global marketplace. The Bureau 
of Labor Statistics forecasts that between 2004 and 2014, 24 of the 30 
fastest growing occupations will require workers with postsecondary 
education or training to compete internationally and maintain our 
standard of living. Every bit of research wisdom over the past two 
decades supports this proposition. The New Commission on Skills of the 
American Workforce and the Commission on a Nation of Lifelong Learners, 
on which I also served, are two of those voices. Yet, we have been 
moving further from that goal, until now I hope.
    As the 2007 State New Economy Index puts it: ``Workers who were 
skilled with their hands and could reliably work in repetitive and 
sometimes physically demanding jobs were the engine of the old economy. 
In today's New Economy, knowledge-based jobs are driving prosperity * * 
* jobs held by individuals with at least two years of college.''
    At present, as this Committee knows, our high school dropout rates 
are staggering. But other compelling facts underlie the Commission's 
recommendations, too. For example, one in four working families is low-
income, and one in five lives in poverty. Parents and caregivers in 
many of these households lack the education and skills to earn a 
family-sustaining wage. One in every 100 U.S. adults 16 and older is in 
prison or jail at any given time (about 2.3 million persons in 2006). 
About 43 percent of these people don't have a high school diploma or 
equivalent; some 56 percent have very low basic skills. Yet 95 percent 
of incarcerated people return to our communities. More than 18 million 
recent immigrants need ESL and literacy services now. And beyond that, 
each year another 2 million immigrants come to the U.S. seeking jobs 
and better lives--the promise of America. The Commission discussed the 
ESL need as a ``tsunami.'' Fifty percent of these people have low 
literacy levels and lack high school education and English language 
skills, severely limiting their access to jobs and job training, 
college, and citizenship. I should note that a collateral benefit of 
ESL instruction is preparation for citizenship.
    The recent National Assessment of Adult Literacy found that about 
30 million adults 16 and older are at the very lowest level of skills 
proficiency, which they call ``below basic.'' Another 60 million are 
less than proficient and need various amounts of skills upgrading. 
Analysis done for the Commission by the National Center for Higher 
Education Management Systems found that at least one educational 
barrier keeps up to 88 million adults (aged 18 and older) from entering 
college and/or job training programs. Of these 88 million:
    <bullet> 18.2 million are English-speaking adults who lack a high 
school diploma.
    <bullet> 18.4 million have limited English skills. Of these 8.2 
million have not completed high school and many others have less than 
adequate basic literacy skills.
    <bullet> 51.3 million have a high school diploma but no college and 
many millions of them are not prepared to enter college or jobs.
    In light of these statistics, it is truly shocking that the adult 
education programs of the U.S. Departments of Education and Labor, 
where the bulk of services are offered, are presently serving only 3 
million adults aged 16 and over.
    Most states have not been seriously committed to adult education 
either--although in some cases this attitude is changing. Every state 
has an ESL service need, and ESL services are receiving the lion's 
share of adult education funding. For instance, in California, total 
enrollment was about 570,000 in 2007. Of these, only 18% were in adult 
basic education programs, 11% were in high school diploma (ASE) 
programs, and a whopping 71% were in ESL programs. In Rhode Island, of 
the 6,787 enrolled in 2007, 49% were enrolled in ESL. In Texas, with a 
total enrollment of 102,365 in 2007, ESL accounted for 58%. The 
national average for these three program types is 38% for ABE, 16% for 
ASE/GED, and 46% for ESL, respectively. Clearly, we are addressing the 
tip of the iceberg in all three areas of service.
    States appropriate funds to meet Department of Education matching 
requirements. By this criterion, our analysis shows that state 
commitment to adult education varies widely. Using the three states 
mentioned above: California's state appropriation in 2008 was $700 
million. It matched the federal grant of $62 million by 1133%. Rhode 
Island ranks somewhere in the middle in terms of match percentage. Its 
appropriation last year, $2 million, was 98% of the federal grant 
amount. Texas ranks near the bottom on this measure. It got federal 
grant funds of nearly $40 million and provided a 15% match of $6 
million.
    In Reach Higher, America, the Commission looks at national and 
state comparisons of GED need and attainment. Texas and California top 
the list in terms of the low percentage of GEDs attained in relation to 
adults 18-64 without a high school diploma. In Texas, about 2.9 million 
adults aged 18-64 lacked a high school diploma in 2006. Only about 
32,000 attained a GED or equivalent, about 1.1% of the need. This 
pattern is consistent across the states for a national average of only 
1.5%. It is quite evident that we can and need to do much better.
    The Commission proposes a new System built up gradually over the 
next decade or so to address the needs and problems described above. 
The System we envision will provide nearly seven times the current 
service capacity. It will emphasize readiness for entering college and 
job training programs to prepare adults for family-sustaining jobs. It 
will emphasize workforce certificates and other concrete measures to 
demonstrate readiness. It will require comprehensive planning at the 
state level and stronger state funding commitments. It will require new 
partnerships at all levels, especially across and among federal and 
state agencies, but also among disparate service provider types, who 
need to rise above self-interest and turf barriers. It must serve 
people all along a continuum of need from those at the lowest skill 
level to those just short of readiness. And, again, it includes both 
incumbent and future workers. This means that workplace skills 
education should be much more highly valued, and that employers should 
devote a larger share of their training budgets to their low-skilled 
workers.
    The Commission's recommendations target federal and state 
government. But we also call for much stronger partnerships between the 
states and the business community, and we call on community colleges 
and other adult education service providers, nonprofit organizations, 
and philanthropy to play their part. All have an essential role.
    One of the curses of current federal and state educational policy 
and practice is the ultra-territorial division of many of our important 
reform efforts, resulting in disconnected and insular silos that work 
against creative communication, meaningful evaluation, and positive 
change. I can't emphasize enough the importance of breaking down 
entrenched silos of interest in the campaign we are recommending.
    The new Adult Education and Economic Growth Act should call for 
connections between the adult education and workforce skills programs 
of all federal agencies, especially the WIA Title I and II programs. 
Fragmentation, disconnect, and lack of communication characterize these 
interactions now. And it should require states to develop integrated 
statewide plans as a condition of receiving new federal funds. In these 
plans, adult education and workforce skills development are to be 
linked more closely in the context of clearly articulated state 
economic goals. It also would mobilize public and private resources in 
a way that allows the states to pursue their own choices depending on 
differences in state demographics and local need--such as family and 
parent literacy, crime prevention and recovery, the needs of non-
English language minorities, the needs of working-age nonviolent 
offenders, preparation for success in and entry into college and job 
training, and excellence in the 21st century workforce. And it would 
actively engage governors and their policy staff, and provide federal 
incentives to encourage that.
    The kind of responsible change I am speaking about today should 
resonate in the Obama Administration. The Commission believes this 
change is crucial if we are to provide family-sustaining jobs, compete 
in the global economy, and protect our nation's security, core 
democratic values, and opportunity for all Americans.
    Mr. Chairman, adult education and workforce skills services for a 
majority of the 88 million adults defined by the Commission are 
absolutely key to economic recovery and growth. The goals of providing 
job training for displaced workers and creating a competitive workforce 
in ``green jobs'' and other aspects of the new economy cannot be 
achieved unless the adult education system is reinforced and redirected 
to help tens of millions of adults enter the system to acquire the 
basic skills they need to participate in postsecondary and job training 
programs.
    Education drives the economy! That refrain was heard again and 
again in the deliberations of our National Commission. We understand 
the urgency of strengthening our K-12 and higher education 
institutions, but adult education is equally important. It is the third 
vital part of our educational system. It is now a marginalized 
enterprise and must be strengthened and transformed right along with 
them.
    America faces a choice. We can invest in the basic education and 
skills of our workforce and remain competitive in today's global 
economy. Or we can continue to overlook the glaring evidence of a 
national crisis as documented in the Commission's report and move 
further down the path to decline. We must rise to the challenge.
    The plan set forth in Reach Higher, America constitutes a kind of 
domestic Marshall Plan--because that is how serious we consider the 
challenge. Action to meet the challenge will cost a great deal more 
than we are spending now. But the Commission doesn't just call for a 
heavier infusion of new funds. Our report devotes an entire chapter to 
spelling out the substantial fiscal gains that will result from those 
expenditures. It's a national investment that will pay for itself many 
times over. For example, according to the Center for Labor Market 
Studies at Northeastern University, if 4 million dropouts earn a high 
school diploma by 2020, the net fiscal contributions to federal, state, 
and local governments in 2008 dollars would exceed $25 billion 
annually. To give another example, if the 2.9 million adults (18-64) in 
Texas who do not have a high school diploma or GED got one, their 
annual net fiscal contribution to national, state, and local 
governments would increase by $13.5 billion. If they attended college, 
the annual net fiscal contribution would increase by another $10.6 
billion.
    In closing, I want to make two final points:
    Much of the national conversation today is necessarily about jobs. 
Transforming the adult education system into the Adult Education and 
Workforce Skills System we call for will create many new jobs in that 
sector of our economy. There is an acute need for many thousands of 
additional teachers, trainers, counselors, and other staff in the 
network of programs out there already; many thousands more will be 
needed as the new System is developed.
    I also realize that some may think our goals are unrealistic. But 
many initiatives are already in the works in some of the states, trying 
to tackle local adult education and skills training needs along the 
lines recommended by the Commission, and they are starting to get 
successful results. Some of these leading lights are profiled in the 
Commission's report. They include an array of workplace education 
programs; the statewide programs of the Indiana State Chamber of 
Commerce; a model public-private venture in Patrick County, Virginia; a 
cooperative college transition program in Louisville, Kentucky; and the 
much-touted I-Best program in Washington. These forward-thinking 
activities are proof that what we're calling for can be done.
    Thank you.
                                 ______
                                 
    Chairman Hinojosa. The rest of the entire report that you 
have prepared will be made part of today's hearing.
    Mr. Bahr. Thank you, Mr. Chairman.
    Chairman Hinojosa. Mr. Wooderson?

   STATEMENT OF STEPHEN WOODERSON, STATE ADMINISTRATOR, IOWA 
               VOCATIONAL REHABILITATION SERVICES

    Mr. Wooderson. Mr. Chairman, ranking member, and members of 
the subcommittee, thank you very much for this opportunity. I 
am Steve Wooderson from Des Moines, Iowa, and today I serve as 
president-elect of the Council of State Administrators of 
Vocational Rehabilitation.
    We know that people with disabilities have a history of low 
employment. In fact, if you experience a disability, you can 
anticipate twice as many people with disabilities not having a 
job as individuals that do have a disability.
    As a result of that, the Public VR Program was established 
in 1920 with the expressed purpose of increasing the rate of 
employment for people with disabilities. And today the Public 
Vocational Rehabilitation Program serves approximately 1 
million consumers in our country every year.
    The public perception of people with disabilities has 
changed over the last several years, much in part due to the 
Americans with Disabilities Act, many other pieces of 
legislation that have brought that to the forefront. We know 
that there are many people with significant disabilities in our 
country that can go to work and want to go to work. As a result 
of that, in 1998, the Rehabilitation Act was reauthorized as 
Title IV of the Workforce Investment Act.
    The Public VR Program was identified, at that time, as 
being a mandatory partner in the one-stop delivery system. The 
hallmark of our program is specialized counselors highly 
trained to work with individuals with significant disabilities 
to identify their unique needs, their unique abilities, and 
develop a customized, individualized career plan to help put 
them back to work.
    Mr. Chairman, in Pharr, Texas, we have a gentleman by the 
name of Mario that went to work after losing his previous job 
due to his disability, his disability being post-polio 
syndrome. We worked with our national employment network team 
and were able to help him in Texas, look at what the job market 
was like, identified opportunities for guidance and counseling, 
provided him with some prosthetic devices. And today he works 
for Convergys, a national company, and he is able to work out 
of his home as a result of the work of the Texas VR agency.
    Steve came to us as a young man in high school, junior, as 
many people do who are looking to transition from high school 
to post-high school activities. He experienced a learning 
disability, attention deficit disorder, also had difficulty 
with his speech as well. He wanted to go on. Our vocational 
rehabilitation counselor worked with him, with his school 
teachers, developed supports for him so that he was able to get 
job experience, eventually go to college with the support of 
the VR. And today Steve is a school teacher in Goose Creek, 
Iowa, making $30,000 a year. He is also a coach in that school 
system.
    We are also seeing an increase in referrals of our soldiers 
and servicemen and servicewomen coming back from Iraq and 
Afghanistan seeking services from the Public VR Program. Marine 
Lance Corporal Webb is a native of Alabama, went to serve our 
country in Iraq, was there 2 weeks, was injured. As a result of 
his injury, he lost a leg. He came back to Alabama looking for 
work. Our Alabama agency was able to work with the local 
employer. Alabama Power accommodated the workplace. He was 
hired as a dispatcher. And today he has actually moved into 
another job where he is a property management specialist.
    The demand for our services continues to rise at the same 
time our resources and our capacities continue to decrease. 
Some of the challenges that we are facing in the Public 
Vocational Rehabilitation Program is the mandatory COLA 
identified as being a floor; in reality, for us, it has become 
a ceiling.
    In 2008, 36 of our State agencies experienced waiting lists 
because they were unable to serve all individuals, meaning 
35,000 individuals with disabilities were waiting to access 
services from the Public Vocational Rehabilitation Program.
    The Workforce Investment Act wisely consolidated a number 
of programs into one. We agree with that. At the same time, the 
total dollars that are available for employment and training 
has reduced, creating additional challenges for us.
    Because of the complexity of the nature of the work of the 
Public Vocational Rehabilitation Program, serving folks with 
wide ranges of disabilities and very significant disabilities, 
our council believes that the Public Vocational Rehabilitation 
Program, our participation in the one-stop career centers must 
be considered in light of those challenges, and our outcomes 
must be evaluated in light of those challenges as well.
    We are very grateful to the bipartisan support for the 
stimulus package, where we look to have $500 million come to 
the Public Vocational Rehabilitation Program. We believe that 
is going to go a long way to eliminate those waiting lists, 
hopefully completely eliminate those current waiting lists as 
they are today.
    We are proud of the history of the VR Program. We believe 
that the data is there to show the value added. In fiscal year 
2007, the Public VR Program, with our partners, put 200,000 
people with disabilities to work in this country. They earned 
$3 billion in wages. They paid $966 million in Federal, State, 
and local taxes, and generated 36,000 additional jobs. Our 
figures show that they will pay back the cost of their 
rehabilitation in 2 to 4 years in taxes alone.
    Mr. Chairman, thank you for the opportunity to speak, and I 
look forward to responding to any questions you may have.
    [The statement of Mr. Wooderson follows:]

 Prepared Statement of Steve Wooderson, Administrator, Iowa Vocational 
                        Rehabilitation Services

    Mr. Chairman, Ranking Member Guthrie, and Members of the 
Subcommittee, thank you for inviting me here today to discuss the 
Public Vocational Rehabilitation program history, success, and 
challenges. My name is Steve Wooderson and I am the Administrator of 
the Iowa Office of Vocational Rehabilitation Services. I am here today 
as President-elect of the Council of State Administrators of Vocational 
Rehabilitation (CSAVR), the national organization that represents the 
State Directors of Vocational Rehabilitation.
    People with disabilities have a history of low employment; 
estimates are that as high as 70% of people with disabilities are not 
in the workforce and that a majority of these unemployed people want to 
be working. Many of those who are employed, are working in part-time 
positions or struggle to find ways to survive on low paying positions 
without benefits. A high percentage of the population lives below the 
poverty line. Individuals with disabilities who receive government 
support through programs such as Social Security and Medicare/Medicaid 
want to work but are not able to acquire positions that pay enough or 
provide the medical care that they need. Though they want to leave the 
rolls of government programs, their survival depends upon the medical 
supports offered through those systems.
    For the first time ever, last week the Bureau of Labor Statistics 
(BLS) reported that in December 2008 the unemployment rate for persons 
with a disability was 12.3 percent and rose to 13.2 percent in January 
2009 (not seasonally adjusted) as compared to those without a 
disability at 6.9 percent (December) and 8.3 percent (January). The 
percentage of people with disabilities who are unemployed is nearly 
double that of individuals who do not have a disability. However, what 
is most disconcerting within the new statistics is that the 
unemployment rate for people with disabilities is based on only 23% of 
the population of individuals being in the labor force, as opposed to 
nearly 71% of individuals without disabilities.
    The population of people with disabilities continues to increase as 
more individuals survive accident, illness and trauma. There is also a 
rise in prenatal conditions and without sufficient health care in poor 
communities childhood illness and disease such as diabetes are on the 
rise. Autism, learning disabilities and attention deficit disorder are 
seen in increasingly high levels in the K-12 school system. Disability 
is also prevalent in veterans who are returning home from the conflicts 
in Iraq and Afghanistan as well as those at home who are living with 
disabilities which are service or non-service connected. With the aging 
population and the current economic conditions, many people are forced 
to work longer because they lack or have lost their retirement. The 
aging workforce is growing and predicted to continue to increase as 
people work well into their 70's and beyond. This workforce requires a 
unique approach to workplace accommodations as they and their employers 
work through issues related to physical limitations and sensory 
disabilities involving vision and hearing. All of these individuals are 
potential consumers of the Public Vocational Rehabilitation program.
    The Public Vocational Rehabilitation program was established by 
Congress in 1920 as a state-federal partnership to assist eligible 
individuals with disabilities to achieve gainful employment and to live 
more productive lives in the community. Each year the VR program serves 
approximately one million customers with disabilities in multi-year 
career plans.

The Rehabilitation Act
    The Rehabilitation Act of 1973, as amended, (The Act) authorizes 
and funds a comprehensive array of programs to assist individuals with 
physical and mental disabilities to maximize their employment and to 
achieve economic self-sufficiency, independence, inclusion and 
integration into society
    There are seven titles in The Act. Each of these titles addresses 
an area of need and establishes programs that Congress designated to 
provide comprehensive services to support the employment and 
independence of people with disabilities.
    Title I authorizes the Public VR program which includes a consumer 
run State Rehabilitation Council, the Client Assistance Program and 
funding under VR services grants which incorporates the American Indian 
Rehabilitation program.
    Title II incorporates research and training.
    Title III covers the inclusion of programs designed to focus on the 
professional development and training of qualified staff, and special 
projects such as the Migrant and Seasonal Farmworkers programs.
    Title IV of the Act authorizes the National Council on Disability 
which is composed of fifteen Presidential appointees that represent 
various facets of the disability community to advise the President, 
Congress and key staff in the Department of Education, including the 
Commissioner of the Rehabilitation Services Administration on the 
development of programs under the Act.
    Title V is a civil rights component in The Act that focuses on the 
access to services, facilities, programs and employment opportunities 
in the Federal government or in programs and/or contractors receiving 
Federal funds.
    Title VI of the Act establishes programs that help create 
employment opportunities and work in conjunction with the VR program, 
including Supported Employment and Projects with Industry programs 
designed to meet the need for ongoing supports for those individuals 
who are significantly disabled.
    Title VII of the Act authorizes independent living (IL) services 
through a State network of community based IL centers which are 
coordinated through a State Independent Living Council. This Title also 
funds IL services for older individuals who are blind and need supports 
to remain living independently.
    Together these Titles address the various facets of individual need 
and the development of staff, programs and services that support the 
employment and independence of people with disabilities.
    The Public Vocational Rehabilitation (VR) program funded under 
Title I of the Act is the primary Federal program assisting individuals 
with disabilities, including individuals with the most significant 
disabilities, in securing competitive employment. Congress designated 
the Public VR program as a mandatory partner in the One-Stop service 
delivery system created under the Workforce Investment Act of 1998 
(WIA).
    VR provides a broad array of individualized services and supports 
to assist eligible individuals with disabilities in overcoming barriers 
to employment. VR services may include, but are not limited to, 
evaluations and assessments; counseling and guidance, vocational and 
other training and employment services; orientation and mobility 
training; transportation services and vehicle modifications; personal 
assistance services, job coaching, supported employment services; 
transition services for youth from school to work; job placement 
services; and post employment services. VR also works with a number of 
community partners in a variety of ways to meet the employment needs of 
individuals with disabilities.
    The Public VR program has many valuable features that distinguish 
it from other employment programs operating today. VR employs qualified 
rehabilitation professionals to identify the unique strengths, 
resources, priorities, concerns, abilities, capabilities, interests and 
informed choices of eligible individuals so that individualized 
services plans can be developed to ensure effective job matching and 
ongoing job success, features that can positively influence the bottom 
line for businesses.

History and Development of The Rehabilitation Act
    Since the inception of the Act, the public perception of disability 
has changed significantly. We have much greater expectations for people 
with disabilities, and understand that most of these individuals have 
the capacity to be, and want to be, important contributors to our 
workforce. In response to these changing perceptions, Congress has 
amended the Rehabilitation Act accordingly.
    In 1943, amendments to the Act extended services to persons with 
intellectual disabilities (mental retardation), mental illness and 
blindness. It also required that each VR agency submit a written State 
Plan to be approved by the Federal Government.
    A significant number of other Amendments to the Act took place 
between 1943 and 1973; however, in 1973 there was a major overhaul of 
the Act. A requirement for a client-centered rehabilitation plan was 
added to the Act and focused on employment outcomes. The Act also 
required that VR serve people with the most significant disabilities as 
a priority and added civil rights protections for individuals with 
disabilities who are served by any programs that receive federal 
funding.
    In 1978 Independent Living and the Client Assistance Program became 
permanent within the Act, and programs were added to serve American 
Indians and Migrant and Seasonal Farm workers.
    In 1986 Supported Employment was added to the Act to increase the 
employment of individuals with the most significant disabilities by 
providing them with job coaching and ongoing supports.
    In 1992 Congress required state agencies to focus on competitive 
employment as the primary outcome of the VR program, and created a 
``presumptive eligibility'' for individuals who received Social 
Security benefits due to a disability. Approximately one-third of VR's 
customers are people on Social Security Disability Insurance or 
Supplemental Security Income. The 1992 Amendments also included a focus 
on serving students transitioning from school to work.
    Finally, in 1998 the Rehabilitation Act was reauthorized through 
Title IV of the Workforce Investment Act to enhance partnerships 
between state VR agencies and their workforce partners to increase the 
employment of individuals with disabilities. Also in 1998 the 
Comprehensive System of Personnel Development (CSPD) was added to 
ensure that VR agencies employed qualified staff.

Focus on Comprehensive Individualized Planning
    Over the past 89 years the program has been expanded to serve a 
variety of eligible individuals with disabilities and to provide a wide 
range of services that are required for that individual to achieve an 
employment outcome and become independent. The hallmark of the VR 
program is its ability to provide a wide range of services to eligible 
individuals with disabilities through a comprehensive individualized 
career plan called the Individualized Plan for Employment or the IPE.
    The IPE incorporates the holistic needs of the individual which can 
include areas such as medical, psychological, accommodations and/or 
adaptive technologies, financial, housing, transportation, education, 
etc. and how services can reduce or eliminate barriers to support the 
individual's vocational goal and success in the workplace. For 
individuals with disabilities, success in a career requires this type 
of comprehensive approach.
    Where other programs are menu driven, VR customizes plans based on 
individual needs, vocational goals and the local labor market. It is a 
unique approach and works well for individuals with disabilities 
because of their varying needs and circumstances.

VR--Employer Partnerships
    Over the years state VR agencies have also worked hard to develop 
stronger relationships with the business community. Recently the CSAVR 
has created a National Employment Team (NET) that is a network of the 
80 state VR agencies and their employer partners to focus on increasing 
the employment of VR consumers. The NET has working partnerships with 
major corporations such as Walgreens, Safeway Convergys, Microsoft, and 
also with federal agencies such as the Internal Revenue Service (IRS) 
and the Department of Transportation (DOT), to name a few.
    Through the coordinated national team, VR's relationship with 
business effectively meets their employment needs while it incorporates 
``real time'' information from employers into VR's career planning and 
IPE process with consumers. This upfront work with business opens the 
doors to national employment opportunities for VR consumers.
    The national model with the corporate connections allows VR to 
develop productive working relationships with businesses in multiple 
states. The top level support and a company wide strategy have resulted 
in multiple employment outcomes. For example, in 2007 over 600 VR 
consumers were hired by Safeway which is headquartered in Pleasanton, 
CA. but does business in multiple states across the country.
    Another one of VR's important business partners is Convergys. 
Convergys is an outsourcing company headquartered in Cincinnati, Ohio 
but doing business in 35 countries. Through the NET, VR has developed a 
corporate level relationship that resulted in employment opportunities 
in 29 states. VR consumers are being hired for positions in brick and 
mortar sites as well as in home agent positions which allows 
individuals with significant disabilities and those in rural areas to 
be employed in good paying positions with benefits.
    In the area of IT, VR is working closely with Convergys to find a 
solution that will support access for people who are blind and use 
screen readers. Screen readers vocalize the printed information that 
sighted people access on the computer screen. Convergys has a corporate 
IT and HR team working with a VR team that includes staff experts from 
five agencies across the country. The company is thrilled because VR is 
providing the technical expertise to work with the company to resolve 
the access issue so that they can employ the talents of individuals who 
are blind. Again, this type of working relationship will open up 
employment opportunities for people with disabilities in 29 states 
through this one initiative. It also serves as a corporate model to 
other business customers.

Individual Results
            VR Consumers--Convergys: Texas and Iowa
    I want to share with you stories that are examples of the kind of 
work our agencies do every day. The first is about a man named Mario 
from Pharr, Texas. Mario is a 36 year old consumer who came to the 
State VR Agency in Texas seeking assistance after losing his job as a 
sanitation worker, due to his disability, post polio syndrome. When 
Mario applied for VR services, he was being supported by his girlfriend 
and Temporary Assistance for Needy Families (TANF). He requested VR's 
assistance to find employment and to acquire prosthetic and orthotic 
devices that would accommodate his disability at work.
    His VR counselor provided him with the needed accommodations and 
helped him to secure more suitable employment. As a result of the 
counseling, guidance, job placement assistance, and other vocational 
rehabilitation services provided by DARS, Mario was able to go to work 
for Convergys as a customer service representative on May 19, 2008. 
Because of these services, Mario was able to maintain this position and 
is still employed today.
    In Iowa our VR NET relationship with Convergys also helped David, 
age 44, from New London, Iowa, to become recently employed by 
Convergys. David is paralyzed from the waist down and uses a wheelchair 
for mobility. David came to IVRS after being laid off from a production 
position as a quality inspector.
    Iowa VR (IVRS) supported David in his goal of achieving his 
Associate of Arts degree at the local community college, but finding 
work in an economically depressed area of the state following his 
graduation had been a challenge. In addition, David had been addressing 
the challenge of leg tremors when he is exposed to changes in 
temperature and knows that working in a factory setting was not 
compatible with his overall well being.
    When David and his VR counselor began to investigate alternative 
career opportunities, they became aware of the NET's partnership with 
Convergys. After a review of the job description, it was determined 
that David had the skills and abilities to perform the essential 
functions of a home agent. They also considered the physical advantage 
of working from home and liked the fact that David would be earning an 
hourly salary plus benefits.
    Since December IVRS has connected David with the Convergys 
recruiter, helped upgrade his home computer, assisted him with 
purchasing necessary equipment, and he is now anticipating the start of 
his two-week training on February 9. David is extremely motivated by 
the long-term opportunity with Convergys to enable him to incorporate 
his outgoing personality with the customers he will be assisting on a 
daily basis.
            VR Transition Student--Hyatt: Florida
    In June of 2002, Tara Gilio was an 18-year-old exceptional 
education student graduating with a special diploma. Tara lived in 
Hudson, FL--a small town about an hour north of Tampa. She participated 
in classes for students with specific learning disabilities due to 
severe processing deficits that limited her reading and writing to 4th 
grade levels. Although she was an outgoing young lady, she knew that 
she would not qualify for traditional post-secondary programs--such as 
a vocational/technical school or community college.
    During her senior year in high school, Tara met her Vocational 
Rehabilitation Counselor who specialized in Transition and School to 
Work students. Her VR Counselor quickly identified Tara's interest in 
foodservice and referred her to a short-term alternative culinary 
training program for persons with disabilities, located at the Grand 
Hyatt Tampa Bay. The program was developed in collaboration with 
Florida's Vocational Rehabilitation Program in an effort to accommodate 
for persons with special needs and prepare them for entry-level 
employment in the foodservice industry.
    The VR Counselor included the training in Tara's Individual Plan 
for Employment and agreed to pay the tuition for the program. The 
Executive Chef saw Tara's potential and offered her a part-time job 
because there were no full-time positions available. Tara accepted the 
position and was upgraded to full-time within 6 months.
    Over the past 6\1/2\ years Tara has been promoted twice and she 
enjoys all of the benefits of working for a major employer. This 
includes medical insurance, free meals, free uniform cleaning and free 
rooms. She also enjoys training and inspiring the new students as they 
enter the training program. Tara married in 2005 and is the proud 
mother of a two-year-old daughter. She and her husband recently 
purchased their first home and Tara continues her employment at the 
Grand Hyatt Tampa Bay.
    Tara has written her own ``success story'' that began with a 
meeting with her Transition VR Counselor who simply asked ``What do you 
want to do when you leave high school?'' Tara appreciates the 
assistance from VR and recently stated that she ``would not be where 
she is today without Vocational Rehabilitation helping her and giving 
her a sense of hope,'' and when asked about the benefits of Vocational 
Rehabilitation, Tara recently replied ``VR changed my life forever.''
            VR Transition Student--Northwest Iowa School District
    Steve Farrell is a 23 year old teacher. Iowa Vocational 
Rehabilitation Services (IVRS) first became acquainted with Steve as a 
student at Cedar Falls High School. IVRS services were discussed with 
Steve and his parents in April of 2000 during his junior year. Referral 
information outlined disabling conditions that included Learning 
Disabilities (LD), Attention Deficit Hyperactivity Disorder (ADHD), and 
speech problems. (He also experienced a bout with depression when his 
older brother died suddenly in 2002 from drug/steroid abuse.)
    Steve was in a resource class for students with learning 
disabilities throughout school. Because his father was an instructor at 
Hawkeye Community College, Steve originally planned to attend that 
school and major in Police Science. He eventually changed his goal and 
decided he wanted to major in Physical Education and coach.
    The Cedar Falls Transition Alliance Program (TAP) became involved 
with Steve in June of 2000. TAP Coordinator Shirley Fossey arranged for 
Steve to be employed by Cedar Falls Schools over the summer. She also 
accompanied him when he entered Upper Iowa (Fayette) in the fall of 
2001. Both TAP and IVRS maintained contact with Steve as he progressed 
through school. TAP facilitated needed accommodations and assisted 
Steve in learning to advocate for himself. IVRS provided funding to 
offset tuition costs and paid for tutorial services to help Steve as he 
pursued obtaining a four-year degree instead of the two-year degree 
originally planned.
    Steve majored in Physical Education (PE), minored in Psychology and 
Wellness and Fitness, and has a coaching endorsement. He graduated with 
honors May 6, 2006 and is the first TAP participant to obtain a four-
year degree! Steve is currently working as a Physical Education, Health 
and Geography teacher/coach at Goose Lake, Iowa. He earns $30,000 a 
year as an employee of the Northeast Iowa School District. Services 
Steve received from VR; counseling and guidance services, diagnostic/
treatment, academic training/tuition assistance, job referral, 
placement search and supports, financial and tutorial assistance, and 
follow-up. Both Steve and his parents are very grateful for the 
services and supports he's received over the past six years. Steve's 
success is IVRS and TAP's success and he has given back to both by 
becoming a motivational speaker to students at Cedar Falls High School, 
where our relationship first began.
            VR and Veterans: Washington State
    Matt is a disabled veteran from Washington State. He is a 
quadriplegic who also has a traumatic brain injury (TBI). Matt spent 
seven months in a trauma hospital and now receives outpatient support 
from the VA Hospital in Seattle. Matt was not expected to live after 
his injury and he was certainly not expected to return to work, be an 
active father or contributing member of his community. Despite the 
medical predictions, Matt is a single parent raising his 12 year old 
daughter, he has returned to school, owns a home and lives 
independently in his community. Two months ago Matt re-entered the 
workforce on a part-time basis and plans to return full time when his 
daughter is older. He volunteers at his daughter's school and at the VA 
Hospital where he supports other veterans with disabilities who 
struggle to regain their independence and their place in American 
society.
    What was the difference for Matt and his family? It was the 
combination of a great team of caregivers, actively involved family 
members and a coordinated team approach between the VA system and 
Public VR that supported Matt's vision of employment and independence. 
Family members were actively involved and advocated to pull in experts 
across systems that supported Matt's success. Matt has received support 
from a variety of programs funded under The Rehabilitation Act, 
including Public VR, independent living supports, advocacy services and 
the support of qualified staff trained in programs under the Act such 
as the specialists in neuropsychological evaluation and TBI. This was 
coupled with the involvement of staff from the VA hospital who 
continues to support Matt's ongoing medical and psychological needs. 
The systems were coordinated, the family was involved, and Matt 
attained his goals and is working toward a future career. Matt is 
contributing through his payment of taxes, his role as a father and 
family member, involvement in his church and supporting the success of 
other veterans and their families through volunteer work. A coordinated 
system approach is a proven model of success, for the individual and 
for America.
            VR and Veterans: Alabama
    Marine Lance Corporal Corey Webb had been in Iraq for two weeks 
when he was injured after his unit came under enemy fire. The 
Springville man sustained a broken collarbone and a leg injury that 
would later require amputation. When he returned home, Webb tackled his 
recovery with the ``can do'' attitude that he had learned as a Marine. 
He was a bit lost, though, when it came to returning to the workplace. 
Prior to his deployment, the young man was preparing to begin work as a 
lineman for Alabama Power Co., but after his injury it was clear he 
wouldn't be able to perform the duties of that job.
    Despite that, he was determined to work with the company. Alabama 
Power, a longtime customer of the department's Employer Services, 
referred Webb to Alabama VR for assistance in finding a place with the 
company. Peggy Anderson, the statewide coordinator for employer 
development, and Kristie Grammer, a rehabilitation counselor and the 
department's V.A. liaison in the Birmingham area, worked diligently 
with Alabama Power to find a position for the young man. He eventually 
was hired as a dispatcher in the company's appliance sales division. 
Within a few months, he departed for the Annistion Army Depot, where he 
is a property management specialist.
    Today, with VRS' support, the 25-year-old is pursuing a bachelor's 
degree at Jacksonville State University. He's grateful for the 
assistance he has received through VRS, which he praises for being a 
``single point of contact.'' ``It's so much simpler,'' he said. ``If I 
need anything, I know I can call VRS.'' The Springville native said VR 
services are especially valuable to ``career military,'' who might not 
be familiar with the intricacies of searching for employment. ``A lot 
of these guys who've never done anything but serve in the military 
don't know how to find a job,'' he said. ``They don't know how to 
create a resume, set up interviews, or anything related to finding 
work. VRS gives them the tools they need to get back to work.''
            VR: Challenges and Opportunities
    Health care and higher education are just two factors driving the 
cost of providing VR services. As you may know, the Act has a mandatory 
Cost of Living Adjustment (COLA) that requires the federal government 
to increase funding for the program annually, but even with that, the 
COLA has not kept pace with the increased demand for VR services, as 
well as the faster growing costs of health care and education. The 
COLA, which is based on the generic Consumer Price Index-Urban (CPIU), 
was intended to be a floor below which annual appropriations for the VR 
program could not fall. It was not the intent of Congress at the time 
the COLA was included that it become a ceiling for appropriations, but 
in fact that is what has happened.
    Further, the employment expectations of people with disabilities 
have grown tremendously, especially since the passage of the Americans' 
with Disabilities Act. Despite the successes of the VR program, it 
faces an increased demand for services during the daunting challenges 
of the current economic downturn. Funding shortfalls have resulted in 
states having to implement an Order of Selection.
    The Public Vocational Rehabilitation (VR) program authorized under 
Title I of the Rehabilitation Act of 1973, as amended, requires a State 
VR agency to implement an ``Order of Selection'' (OOS) policy when it 
anticipates that it will not have sufficient fiscal and/or personnel 
resources to fully serve all individuals eligible for vocational 
rehabilitation services. Under an Order of Selection, individuals with 
the most significant disabilities must be selected first for the 
provision of VR services.
    At the end of FY 2008, 36 State VR Agencies were on an OOS with 
35,213 individuals on waiting lists for services. With the already high 
unemployment rate for people with disabilities expected to grow even 
faster in today's difficult economy, we expect that the demand for VR 
services will grow proportionately.
    Congress has acted in other ways to assist people with disabilities 
become employed. As mentioned earlier, in 1998 Congress passed the 
Workforce Investment Act that envisioned greater access to generic 
employment services for people with disabilities. Unfortunately, that 
promising vision from 10 years ago remains largely unfulfilled today. 
When WIA was first authorized, it consolidated a number of employment 
and training programs in an effort to create a seamless service 
delivery system. The consolidation was accompanied by a significant cut 
in funding, with additional cuts in funding in subsequent years. As a 
result, WIA has resulted in a substantial decline in funding available 
for actual training when compared to its predecessor program. As a 
result, mandatory partners in WIA, including VR are continually asked 
to contribute more funding to pay for infrastructure and other costs 
associated with the operation of the one-stop centers. Partner 
programs, particularly the Public Vocational Rehabilitation program, 
are already under-funded to meet the needs of their target populations.
    Vocational Rehabilitation customers often require longer-term and 
more supportive services than the typical WIA customer. Because of the 
significant disabilities of VR consumers and the complexity and length 
of services required, CSAVR believes that VR's participation in one-
stops and the evaluation of VR's outcomes must be different; taking 
into account the characteristics of the population VR serves.
    Although physical access to one-stop centers has improved since the 
authorization of the WIA, programmatic access continues to be a 
significant problem for many VR consumers. The significant majority of 
centers lack the adaptive technology necessary for consumers with 
significant disabilities such as blindness and cerebral palsy to access 
the resources of the one-stops self service centers. Disability 
navigators were employed by some centers in an effort to assist 
consumers with disabilities to have better access; however, many of 
these individuals lacked the level of skills and knowledge necessary to 
be of any significant benefit. In addition, there were insignificant 
numbers of navigators to meet the needs.
    The federal government spends approximately $200 billion a year on 
various types of assistance for individuals with disabilities. Of that, 
less than $3 billion is appropriated to address the employment and 
training needs of individuals with significant disabilities. The 
Nation's public policy must be directed toward the realization that a 
significant investment of resources must be in the WIA if people with 
disabilities are to have real access to the one-stop centers and to the 
individualized services and supports necessary to increase their 
independence and their economic self-sufficiency
    Another significant effort by Congress to increase employment among 
people with disabilities was the Ticket to Work and Work Incentives 
Improvement Act. The legislation, passed in 1999, created the Ticket to 
Work program in the Social Security Administration, increased access to 
healthcare coverage, and provided benefits planning and assistance to 
social security beneficiaries who want to return to work.
    The healthcare and benefits planning provisions have largely been 
successful at meeting the needs of people with disabilities on SSDI and 
SSI who want to work. States responded positively to the new Medicaid 
provisions in the Ticket to Work and many have aggressively implemented 
those provisions. In addition, we know that the benefits planning 
provisions have helped thousands of beneficiaries every year navigate 
the complex array of rules affecting beneficiaries trying to become 
more independent. However, the Ticket to Work implementation was less 
than successful in its initial rollout. Despite the promise of new 
options for employment services for beneficiaries, 90% of tickets were 
deposited with VR agencies. Further, the initial regulations provided 
too little financial incentive for employment programs, known in the 
law as Employment Networks, to participate, and worse, made it 
impossible for VR agencies and those Employment Networks to function 
cooperatively. In fact, the first regulations literally put VR agencies 
and Employment Networks in opposition to each other.
    SSA has significantly addressed these issues in new regulations 
published this year and VR agencies and Employment Networks are hopeful 
the new regulations will bring success to the Ticket program, but it is 
still too early to tell.
    Also, CSAVR is very excited about the prospects for renewed focus 
on the issue of employment and people with disabilities that the new 
administration has promised. The President has stated that his 
Administration will create a Commission to look at ways to improve 
employment services, work incentives in SSDI and SSI, and improve 
further access to healthcare for people with disabilities. We are 
pleased that the Administration will aggressively pursue the goal of 
making the federal government a model employer for people with 
disabilities. We are already seeing success in this area in our work 
with Federal partners such as the Internal Revenue Service (IRS) and 
the U.S. Department of Transportation (DOT). CSAVR looks forward to 
working with the Administration and Congress on these critical efforts 
for people with disabilities.
    We deeply appreciate the bipartisan efforts of both the House and 
Senate to include $500 million for Vocational Rehabilitation Services 
in H.R. 1, the American Recovery and Reinvestment Act. Too many times, 
programs for people with disabilities are first in line for cuts when 
the budget is tight and last at the table when the nation's treasury is 
flush. This funding will allow state VR agencies to clear their waiting 
lists and meet the inevitable increase in demand for VR services from 
veterans, youth, and all people with disabilities that will result from 
these difficult economic times.
            VR: Return on Investment
    In conclusion, the Public VR program has demonstrated over the 
years its effectiveness in serving people with disabilities. You have 
heard the stories in the testimony, but the numbers behind these 
stories reveal the impact that the Public VR program has in helping 
people with disabilities find and retain work, reduce dependency on 
benefits, and help grow the economy.
    In 2007 the Public VR program and its partners helped over 200,000 
people with disabilities find, return to, or retain employment and VR 
customers earned over $3.0 billion in wages, paid $966 million in 
federal, state, & local taxes, and generated 36,000 new jobs. In fact, 
on average every person we help find or retain employment will ``pay 
back'' the cost of their rehabilitation services, through taxes, in 
just two to four years.
    In addition, data from the Social Security Administration reveals 
that for every dollar SSA reimburses VR, means SSA has saved seven 
dollars in benefits that it would have paid out, a net savings of $754 
million to the Social Security (SSDI) and Supplemental Security Income 
(SSI) programs.
    Again, Mr. Chairman and Members of the Subcommittee, I thank you 
for the opportunity to speak to you today and I look forward to 
answering any questions that you may have.
    Thank you.
                                 ______
                                 
    Chairman Hinojosa. Thank you, Mr. Wooderson.
    I now call on Mr. Camp.

STATEMENT OF BILL CAMP, EXECUTIVE SECRETARY, SACRAMENTO CENTRAL 
                     LABOR COUNCIL, AFL-CIO

    Mr. Camp. Mr. Chairman and members of this committee, it is 
a privilege to be here.
    Not only are people in the United States watching the 
decisions that you are making certainly this week and that your 
committee will make between now and the summer, but the world 
is waiting to see what the United States will do to respond to 
this economic crisis.
    So, as we think about workforce development, we have to 
look at it in the context of what is going on economically in 
our Nation. When we look at it, for all of us, in whatever 
State you live, it is dire. In California, we have a $42 
billion budget deficit. We have 257,000 jobs lost. We have a 
crisis. We had 2 million calls a day to our unemployment 
insurance claims offices, trying to get a response about 
people's claims. The system is completely overwhelmed.
    So, in a crisis, we have a real opportunity--an opportunity 
to step back and decide what can we do that is different, what 
can we learn from what we have done, and what we should take 
on. And I would like to talk about some of those we have done 
in Sacramento and in California.
    But, first, we must be clear not to throw out the baby with 
the bath water. We have a labor exchange program, and the 
research data demonstrates that the public-sector labor 
exchange job--unemployment system and referral for jobs and 
counseling, paid for by public dollars, run by the public 
agency, is the most efficient and effective way to help those 
who get laid off work.
    The Workforce Investment Board needs to focus on training, 
not try to do the job that is already done better by the 
employment services divisions funded by the Wagner Peyser Act 
all over this Nation. It has been a successful program. It 
should be continued. We should focus our workforce investment 
energy on how do we develop the best training program for the 
right jobs that take us into the future.
    Let me give you an example, though, of what we have done in 
Sacramento. Our Employment Development Department has developed 
an excellent labor market information base. We have been able 
to take the data of our jobs that are going to be coming open 
in the near future, those that are growing in our region, what 
the wages are, how many people are going to be retiring in a 
given occupation, and be able to give really clear answers to 
workers about what their potential is.
    And we can do this on a regional basis, on a labor market 
basis, so the workers in San Diego get San Diego data and the 
workers in Los Angeles get Los Angeles data and the people in 
Sacramento can get Sacramento data. That is done by our EDD, 
Employment Services Department. And it is vital, because it 
says to the Workforce Investment Board, you have to be data-
driven. You have to make your decisions based on the accurate 
information in your region about what jobs are opening up, how 
much they pay, what kind of training people have to have, and 
how do we create that training.
    Let me give you an example of what I think, though, are 
some important principles that we have adopted in our Workforce 
Investment Board. And labor is very active in our board. I run 
the Labor Council, but I have been a vice president of our 
board from the day it started. We actually have two vice 
presidents--a labor vice president and a succession vice 
president.
    But the point is we are engaged. We have a stake in making 
our Workforce Investment Board successful. So we adopted a 
policy that at least 40 percent of our dollars that are going 
for adult and dislocated worker training has to go--40 percent 
of the money spent has to go to training, that you cannot use 
the Workforce Investment Board to supplement the cuts in Wagner 
Peyser that have gone on in the last few years. You have to 
maintain and mandate a Workforce Investment Board that puts 
dollars into training.
    The second thing is we have to establish what is really a 
self-sufficiency standard. What does it take to pay the rent, 
pay the bills, buy the food, and take care of your immediate 
family on a minimum basis in Los Angeles, in San Diego, in any 
place in the United States, and target the training towards 
that standard. And if the training program that we fund doesn't 
get people to a reasonable income level within a reasonable 
time that is self-sustaining, we have failed. We have failed 
the taxpayers, particularly.
    We are not here to train people so they can continue to 
depend on the government for support. We want to train people 
so they can go out and get their foot on that bottom step of 
the ladder and move up. So, as a result, we need to establish 
self-sustaining standards that allows us to do incumbent worker 
training. When they move up, they create a vacancy down below.
    The third thing we have tried to do is to create a career 
ladder. You think of a career ladder as an apprenticeship 
program, and if it is producing an increase in wages, then it 
ought to be honored. But we have developed that concept in the 
health industry. So we now have jointly run trust programs in 
health care that create career ladders. If you come in to work 
for Kaiser or for Catholic Healthcare West as a certified 
nurse's assistant, you have an opportunity to move up and 
become maybe someday a licensed vocational nurse.
    We find that these innovations really make a difference. 
Fifteen percent of our Workforce Investment Board members have 
to be appointed by the Labor Council. It creates a partnership 
between the Chamber of Commerce and the labor movement that is 
really invaluable, because you have to have that partnership. 
So when we bring the Chamber, the labor movement, our 
educational institution, our mandated partners together, we 
create programs that really increase people's wages.
    We look forward to working with you. We have to protect the 
public sector. We have to make sure we focus on training. We 
have to make sure that we have a balance between labor and 
business and the public sector, so that when we look at the 
formulation of the law, we need to balance out the labor 
representation of the board. And we have to incorporate an 
incentive for innovation.
    Thank you, sir.
    [The statement of Mr. Camp follows:]

   Prepared Statement of Bill Camp, Sacramento Central Labor Council,
                                AFL-CIO

    Mr. Chairman, members of the subcommittee, thank you for inviting 
me to testify today on behalf of the ten million members of the AFL-
CIO. My name is Bill Camp, and I am Executive Secretary of the 
Sacramento Central Labor Council in California. I am also a member of 
the Executive Committee of Sacramento Works, which provides labor 
exchange and a variety of employment- and training-related services for 
some 45,000 persons every year. We work extensively with the California 
Employment Development Department and their innovative labor market 
information data base that they have developed for the state. 
Sacramento Works also provides oversight and administration of programs 
funded by the Workforce Investment Act, including services for youth, 
dislocated workers, and disadvantaged adults. We operate 12 One-Stop 
Career Centers in Sacramento County, so I have seen the operation of 
our nation's employment and training systems up close for many years. 
In fact, in 1966 I received my BA degree at the University of Oregon 
which included a minor in the education of disadvantaged youth.
    I am also on the Executive Committee of LEED, Linking Education and 
Economic Development, a non-profit organization composed of key leaders 
in our community representing labor, private businesses, and the 
administrators of the school districts, county board of education, 
community college, and 4 year university serving the Sacramento region.

America's Job Seekers Need an Economic Recovery Plan
    Any consideration of innovative and forward-thinking responses to 
the new economy need to take into account the economic and fiscal 
conditions that affect everything we do. As we all recognize, the 
nation is caught in the most severe economic crisis since the Great 
Depression. Since December 2007, the official beginning of the 
recession, 3.6 million jobs have been lost across the country. About 
21.7 million persons are either unemployed or underemployed, according 
to the Economic Policy Institute. Jobs in the manufacturing and 
construction industry are plummeting. Every week it seems that more 
companies announce mass layoffs and facility closings. The rapid 
increase in persons applying for Unemployment Insurance benefits has 
placed severe stress on the UI system--at the same time as 46 states 
are encountering budget deficits.
    The severity of the economic crisis is taking its toll on 
California and its fiscal situation. The state lost more than 257,000 
jobs in 2008, with large reductions in manufacturing, construction, 
financial services, and educational and health services. In December, 
California's unemployment rate stood at 9.3 percent--more than two 
percentage points higher than the December national average. New claims 
for unemployment benefits increased to about 88,000 in December, 
compared to about 57,000 a year earlier. Our UI system is being 
overwhelmed. During the holiday period, the system averaged more than 2 
million call attempts every day. When laid off workers call in to try 
to file a claim, it can take them 20 times to get through. It takes 
weeks to file a claim.
    Because of the economic downturn, the state budget gap between 
revenues and expenditures will total $42 billion over the next few 
years. More than 2,000 state infrastructure projects have been 
cancelled, threatening the health and livelihoods of Californians. The 
Governor of California is proposing draconian budget cuts that will 
slash state spending for education, health care, and human services. In 
addition, the Governor is ordering the furlough of government staff at 
the very moment when laid off workers all across the state are in 
crisis and desperately need their services.
    Under these dire economic circumstances, it is more crucial than 
ever that the U.S. Congress enact an American Recovery and Reinvestment 
Act that helps the states and puts people to work improving the 
infrastructure, increasing the production of electricity from renewable 
energy sources, modernizing our schools, and investing in education and 
worker training programs. We urge you to finalize that legislation and 
place it on the President's desk with all possible haste.

Workforce Investment Innovations in California and Sacramento
    We recognize the need for innovation and fresh ideas about how to 
best serve the needs of a diverse population of job seekers. At the 
same time, it is important to balance the initiation of new programs 
with reliance upon--and improvements of--established workforce 
institutions that can rapidly mobilize their public employee ranks to 
provide necessary services during this time of national economic 
emergency. In California the center of our workforce development and 
unemployment insurance system is the dedicated public employees of the 
Employment Development Department (EDD). In particular, EDD has devoted 
substantial time and resources toward developing a sophisticated data 
base of labor market information. That data and the critical analytic 
work performed by our State EDD is indispensable to identifying growth 
industries, industry clusters, growth occupations within those sectors 
and clusters, and wage ranges for those occupations. This knowledge 
plays a role in effectively directing our state and local resources to 
respond to the crisis. LMI also supports groundbreaking work in 
analyzing the emerging green economy and projecting the growth in 
``green jobs'' in multiple industries.
    The workforce boards that do their work properly approach their 
economy and labor-market challenges in a strategic manner, first by 
asking how resources can be targeted for maximum benefit. The answer 
must be data driven. The Wagner Peyser funded employment service's 
labor market information is indispensable for addressing this threshold 
question.
    Unfortunately, the training resources necessary to bring industry 
partners to the table are scarce. This is due largely to eroding 
funding levels for WIA at the federal level. It's also due to the WIA's 
unsustainable support for costly One-Stop Career Centers. The central 
function of Wagner Peyser funded employment service is labor-exchange, 
which is an essential low-cost service for connecting jobseekers with 
employment opportunities. While employment service staff is largely co-
located in California One-Stops, the erosion of both Wagner Peyser and 
WIA title I resources has shifted a significant portion of WIA to 
supporting One-Stop facilities and activities. That shift has occurred 
at the expense of training and intensive services. The roles of WIA 
Title I and employment services must be clearly delineated to ensure 
that resources are not wasted and that we can maximize training 
opportunities under WIA. The employment service must be adequately 
funded to accomplish its central role of public labor exchange and 
providing labor market information, counseling, case management, and 
referral to job placement. WIA title I funding must be leveraged by the 
WIB for building regional high road partnerships and for training and 
intensive services directed toward high wage growth sectors.
    In Sacramento, we have formed partnerships between business, labor 
and educational institutions to make optimal use of the labor market 
data and analysis produced by EDD. First, we made an early decision 
about the fundamental policies and principles that have enabled our 
workforce investment agencies to identify employment opportunities and 
move training dollars where they are most needed. Labor has proposed a 
statewide requirement: that 40 percent of local WIA funds be dedicated 
to training. This measure would ensure some consistency across a state 
in which policies vary from one locality to another. Some of our WIBs 
actually devote as little as 3 percent of their dollars to training, 
for example, while others have local policies to spend 50 percent on 
training. This sort of requirement on the level of training should be 
seriously considered in a reauthorized WIA.
    There are still too many WIBs that function on the premise that any 
job is a good job, that low-wage employment is a better option than 
unemployment. This position leads to public resources subsidizing 
recruitment, screening, and placement services for low-wage employers 
such as Wal-Mart. The workforce board gets credit for placements, but 
the worker has now made the small step from unemployment to working 
poor.
    In California, even before the recent downturn, workers suffer from 
significant labor market ``churn.'' More than 1 million involuntary job 
separations occur each month. The workforce development system must not 
contribute to this by placing clients in low-wage high-turnover 
employment. Those clients end up back in the system seeking additional 
services. This is a very poor and inefficient use of scarce public 
resources, not to mention profoundly unjust.
    It is good board membership that drives the strategic direction of 
WIA resources and influences the broader system of training, education, 
and worker supports. If WIB activities are driven solely by 
technocratic measures that quantify placements over the quality of 
outcomes for workers, then it shouldn't surprise anyone that public 
resources subsidize low-road employers like Wal-Mart.
    In California, state law requires that each board have 15 percent 
labor representation who are nominated by central labor councils and 
local building and construction trades councils. Experience in 
California demonstrates that strong labor representation infuses 
principles for economic justice, quality services, and a worker-
centered approach to workforce and community development. It also 
connects workers with high-quality apprenticeship programs and other 
labor-management training partnerships in growth sectors, and to 
opportunities for employment with high-road employers. This structural 
engagement by local labor has meant a commitment to ensure the success 
of the training and employment opportunities of the unemployed in our 
region. When this broad array of union leaders show a commitment to the 
results of the Workforce Investment programs, the rest of the labor 
movement wants to help it be successful.
    I recall when the President and CEO of the Sacramento Metropolitan 
Chamber of Commerce called me on the phone and said he wanted to work 
with organized labor in fashioning a local board that really prepared 
the workforce for the high wage, high skill jobs of the Sacramento 
region. He made it clear that he wanted to be the Board President and I 
made it clear that I wanted to be the Vice-President of the local 
board. That took a little constitutional agility since we needed two 
vice Presidents, one for succession purposes and one to ensure Labor is 
really engaged in the policy decisions of the agency.
    In our first strategic planning session, we drew from EDD 
information and identified key industries that would include high wage, 
high skills opportunities as well as industries where Labor had a voice 
in the workplace. It was a give and take process, but enough 
opportunities so that everyone stayed engaged in the board's policy 
making role.
    Our second policy of importance was to ensure that wage and benefit 
standards had to be met by agencies who provided training or they would 
not be funded in the future. The board adopted income levels in line 
with a self-sufficiency standard and uses them as the eligibility 
criteria for intensive and training services provided at the One-Stop 
Centers. This policy ensures that unemployed and low-wage workers who 
work for less than $10 an hour are eligible for training. As these low 
wage workers moved up, they opened up opportunities for the unemployed. 
All the staff in the employment training agency understood that the 
sustainable wage policy was real. Any program that did not meet the 
standard might be discussed publicly at a board meeting. The 
identification of an employer's financial contribution to health 
benefits was a part of the wage package and ensured that those 
employers who provided benefits were on a level playing with those who 
did not. The self-sufficiency standard is an important part of ensuring 
that self-sufficiency is a driving force for the one-stop career 
centers. In a companion policy, the WIB identified the ``working poor'' 
as a special population that should receive priority for WIA services 
and gave a high priority to jobs with employer-paid fringe benefits. In 
addition to Sacramento, a few other boards in California have adopted 
self-sufficiency measures and other principles or standards that target 
WIA resources only to employers that provide good salaries and benefits 
in sectors with growth potential.
    The next policy that pushed employers and trainers to focus on high 
wage, high skilled jobs was the inclusion of career ladders and 
``lattices'' in the definition of a successful program. An example of a 
career ladder is an apprenticeship program, but it had to be real in 
terms of producing wage and benefit increases in order to meet our 
standards. We found that employers who did not traditionally have 
apprenticeship programs began to organize jointly administered trust 
funds where collective bargaining money was invested in training 
opportunities for lower waged workers to move up the ladder within 
their own industry. Our health care providers are the best example of 
this.
    Sacramento Works places a high priority on identifying the jobs 
that are going to be in high demand by employers in the region. The 
board funded a Sacramento regional workforce study to identify high 
wage, high growth critical occupational clusters with career ladders. 
The board required that the One-Stop Centers spend at least 75 percent 
of all training funds to train workers for these critical occupational 
clusters. An analysis of base wage data indicates that customers 
completing training in critical occupations had a higher retention rate 
and made an average of $8,000 more per year than customers receiving 
only labor exchange services.
    The efforts of Sacramento Works to focus on training job seekers 
for critical occupational clusters has resulted in strong local 
partnerships over the past eight years. Employers, labor, education, 
and local government have developed a number of sector initiatives in 
healthcare, construction, transportation, information technology and 
clean energy technology. I have attached a list of those partners to 
this testimony.
    One of our most important and unique innovations is called 
www.careerGPS.com. This data base covers 80 percent of the occupations 
in the top 75 industry sectors and subsectors that will need to be 
filled over the next 10 years in the Sacramento Labor Market area. It 
is accessible to anyone with a computer. It explains what jobs now and 
in the future will need to be filled, how much they pay, what training 
is required in order to apply, what training will be required after 
employment, what will be expected of any employee once they are hired, 
and the name address and phone number of any training agencies 
supplying the needs of that occupation as well as the program detail.
    Over the last three years, the Sacramento Works board has worked 
closely with the Partnership for Prosperity, an effort spearheaded by 
the Sacramento Area Commerce and Trade Organization (SACTO) and the 
Sacramento Metropolitan Chamber of Commerce. This group has brought 
together 34 organizations in the region to work together to create an 
economic development strategy for the Sacramento region. Under the 
auspices of the Partnership for Prosperity, the Sacramento board 
partnered with LEED Sacramento to create an action plan focused on 
identifying the high wage/high growth jobs in the region and 
collaborating with partners to ensure that workers are trained for 
these jobs. The result is this unique website, www.careerGPS.com. This 
website allows job seekers and students in high school and college to 
navigate the results of the regional workforce forecast to see what 
jobs are out there and what careers they may pursue. This tool is used 
by One-Stop Center coaches to assist job seekers in identifying 
appropriate training providers and will soon be used in high school and 
community college career centers to assist students in making career 
choices. This is an invaluable service to dislocated workers in today's 
economy. As far as I know, there is nothing like this on a regional 
basis anywhere else in the country.
    Sacramento Works is a truly integrated one stop career center 
system and has over 40 partners, including the State of California, 
Employment Development Department's Job Service merit staff. Local and 
state staff work side by side to provide assessment, coaching, labor 
exchange and training services to customers.

Reforming the Workforce Investment Act
    So far I have talked about the accomplishments and positive aspects 
of the workforce investment system in California--as it has matured and 
integrated labor representatives into its governance structures and 
policy approaches. As the U.S. Congress moves toward the 
reauthorization of the Workforce Investment Act, we urge the federal 
government to learn from these experiences and take bold action to 
reform WIA in a manner that will benefit the unemployed, working 
families, and communities being devastated by the economic crisis.
    As we travel around the country, we hear many stories about the 
failures and limitations of the workforce system from our WIB labor 
representatives and community organizations. We hear about the 
temporary agencies that sit on local boards. Participants come into 
One-Stop Centers, receive core services, and are sent to the same 
temporary agencies--where they get hired and are counted as placements. 
They work for a low-wage employer for a few months, the temporary 
agency receives their fee, and the participants are soon laid off. They 
go back to the One-Stop Center and go through the process again. In 
effect, the local WIB has become a revolving door for low-wage 
employers.
    Because of the ``work first'' approach adopted by WIA, participants 
are frequently directed into low-wage jobs with little opportunity for 
advancement. WIA provides too little training and skill development 
that would enable participants to move into high skill employment that 
pays family-sustaining wages and provides an opportunity for career 
advancement. There is growing consensus in the employment and training 
community that WIA fails to provide sufficient long-term training 
leading to good jobs. In reports published in 2003, for example, both 
the National Center on Education and the Economy (NCEE) and the 
Brookings Institution recognized this lack of training as a serious 
deficiency in the system.
    The world has changed drastically since WIA was passed more than 10 
years ago. WIA was crafted in an environment that favored deregulation, 
privatization, and the vast growth of private contractors delivering 
public services. Those policies have brought the nation to where we are 
today--suffering from an acute economic crisis and a global market 
meltdown that is spreading across the globe. The crisis calls into 
question the dominant political wisdom of the last 30 years that the 
bulk of decision-making about federal programs are best made locally 
and, if possible, by private sector actors. Instead, workforce policy 
should establish guiding principles and examine how each level of 
government and various programs can be harnessed to advance those 
objectives. Some of those principles include:
    <bullet> Federal policy should support jobs that pay family-
sustaining wages and benefits, and provide the opportunity for career 
advancement.
    <bullet> Federal policy should support a strong social safety net 
for unemployed and underemployed workers, who obtain services from 
dedicated public servants rather than contractors motivated by private 
gain.
    <bullet> Federal policy should be balanced to meet the needs of 
workers, employers and communities. Policies should also be balanced to 
meet the needs of low-wage workers and higher wage, high skilled 
workers.
    <bullet> Federal agencies should assume a stronger role in 
developing coherent policies and guiding the implementation of various 
federal program activities in order to focus limited government 
resources on important objectives--that are defined nationally--while 
leaving considerable latitude at the state and local level.
    Historically, when the nation is faced with large economic and 
wartime challenges, we have moved to centralize policy-making authority 
to achieve important national objectives. WIA needs to be retooled so 
it can play a meaningful role in responding to the current crisis 
through the development of comprehensive and uniform policies.
    As it is currently structured, WIA has pushed authority far down to 
the local level without sufficient federal leadership, without ample 
oversight by the Department of Labor, and without uniform 
implementation practices. The policies and practices of WIA vary from 
one WIB to another, creating confusion and inconsistency. As it stands 
now, WIA is a flawed system that has become so decentralized that it is 
not up to the task of supporting the job creation and clean energy 
initiatives we need to lift the nation out of the recession and 
economic crisis. Still, the AFL-CIO has supported more funding for WIA 
programs, and we have called upon the U.S. Congress to devote more 
resources in the American Recovery Plan for dislocated workers, low-
income adults, disadvantaged youth, and Reemployment Grants to the 
States.
    In this context, we urge Congress to reform WIA by instituting 
changes in the following four categories.
    First, we need to reassert the role of the public sector in WIA. 
The center of our nation's workforce development system must be a 
robust, publicly operated, employment security program that has the 
resources to provide job matching services, conduct labor market 
research on the employment implications of new and expanding 
industries, counsel job seekers, and make referrals to job placement. A 
2004 research report by WESTAT--a report that was suppressed by the 
Department of Labor under the Bush Administration--concluded that the 
public labor exchange provides ``highly effective reemployment services 
to claimants'' and other job seekers. Only a public labor exchange will 
ensure that services are provided in an equitable manner, free of 
personal favoritism and conflict of interest.
    The public labor exchange must serve as the primary entry point 
into the system. With plant closings, mass layoffs, and rising 
unemployment wracking our nation's economy, a strong and uniform system 
that provides rapid response and operates on a statewide and interstate 
basis is more crucial than ever. Maintaining a public labor exchange 
fosters accountability and the equitable provision of services. It has 
the capacity to achieve statewide and federal policy objectives. To 
ensure that WIA is responsive to the broad public interest, there 
should be a requirement that the One-Stop Centers be publicly operated 
and that full information about their operations be easily accessible 
and available to the public.
    Second, WIA needs to shift its focus toward providing training 
services. The mandate of WIA to follow a sequence of services has led 
to a focus on the core, minimal level of services and an 
underinvestment in training. This orientation has produced a system 
that tends to support low-road strategies that drive participants into 
low-wage, dead-end jobs. The sequence of services requirement should be 
abolished. Operational changes that can help to achieve the goal of 
fostering good jobs include a requirement that a minimum--such as 50 
percent--of adult and dislocated worker WIA funds be spent on training.
    Third, the interests of business and labor must be rebalanced in 
WIA governance structures. The requirement that a majority of State and 
local WIBs be representatives of business has created boards that are 
biased toward the interests of the corporate sector, and tends to 
create conflicts of interest between the boards and local vendors. This 
restriction has also had the unintended consequence of creating large 
and unwieldy boards, a problem that is recognized by labor and the 
business community. This restraint should be eliminated in a 
reauthorized WIA.
    WIA boards should be reconstituted to provide greater balance among 
key stakeholders and allow for more organized labor participation. 
Unions are strong advocates for effective training for good jobs. As I 
have explained, California now has a legal requirement that 15 percent 
of its local members be representatives of labor organizations. Such a 
provision should be considered for adoption for WIA as a whole.
    Fourth, WIA should incorporate program innovations in a number of 
areas, starting with sector partnerships. The AFL-CIO supports 
challenge grants that would push the WIA system to move in directions 
that correspond to the actual workings of labor markets and the 
workforce needs of industry clusters that have been identified by state 
government agencies and labor market analysis. Governors should have 
new authority to use WIA resources to develop statewide, industry or 
regionally based initiatives to supplement local workforce activities 
in accord with industry and labor market trends. We just caution that 
care should be taken to ensure that these partnerships are grounded in 
real conditions, and do not become another layer of bureaucracy with 
funding demands that are self-perpetuating.
    We would also like to see WIA recognize the need for career 
pathways for youth. We have been working with Senator Patty Murray to 
refine her ``Promoting Innovations to 21st Century Careers Act.'' We 
would encourage the House Education and Labor Committee to begin 
formulating similar legislation.
    Also, we would like to establish a program or initiative in WIA to 
fund Incumbent Worker Training and career ladders--as long as it 
includes appropriate protections to ensure that employers do not shift 
their costs to federal taxpayers. That program should not be limited to 
persons at particular income levels. And we would see that program 
coordinated with the work of sectoral partnerships, community colleges, 
apprenticeships, and labor-management training programs.
    In conclusion, the economic crisis has created dramatic new 
conditions in our country. As the economic crisis unfolded this fall, 
then-Senator Obama said in a Colorado speech: ``What we have seen in 
the last few days is nothing less than the final verdict on an economic 
philosophy that has completely failed.'' We need strong leadership from 
the federal level that is not blinded by free market ideology. And we 
need workforce development policy that is framed as part of a larger 
industrial policy that would reassert the importance of the public 
sector, revive our manufacturing economy to supply the component parts 
for a green economy, change our trade policies to generate American 
jobs, and pass an American Recovery Plan that can shore up our 
infrastructure and move toward a sustainable economy.
    I'm sure we won't agree with everything that the President's Chief 
of Staff will do in the years ahead. But we did notice Rahm Emmanuel's 
comment on ``Face the Nation'' last November when he said: ``Rule One: 
Never allow a crisis to go to waste. They are opportunities to do big 
things.'' Maybe those ``big things'' should include funding mechanisms 
for social programs. The AFL-CIO has called upon the G-20 leaders to 
explore the feasibility of a instituting a fee on all financial 
transactions. Even a very modest fee could yield revenues of $100 
billion per year. These resources that could be used for economic 
recovery, or education and training services, or to offset the costs 
associated with the Wall Street bailout. So I would leave you with that 
thought.
    The AFL-CIO looks forward to working with the subcommittee an the 
full Education and Labor Committee on these WIA reforms in the year 
ahead.

                               ATTACHMENT

          Sacramento High Growth High Wage Sector Initiatives

    <bullet> Transportation: Partnership with Regional Transit, 
California Labor Federation, International Brotherhood of Electrical 
Workers, American River College and Sacramento County Office of 
Education for a Clean Diesel Technology program which retrained bus 
mechanics in clean diesel and trained new workers for regional 
construction and transportation employers.
    <bullet> Transportation: Recruiting, screening and referring job 
candidates for Siemens' Transportation System, a company manufacturing 
light rail vehicles. Collaborating with Siemens' and Los Rios Community 
College district on welding training for selected employees.
    <bullet> Cost Estimating: Partnership with the Sacramento Builders 
Exchange to provide incumbent worker and career ladder training in cost 
estimating
    <bullet> Construction Trades: Partnership with Sacramento Sierra 
Building Trades Council, Northern California Construction Training, and 
Los Rios Community College District to provide pre-apprenticeship 
construction training.
    <bullet> Healthcare: Partnership with Kaiser, UC Davis Medical 
Center, Mercy, and Sutter Hospitals, SEIU and Los Rios Community 
College District to increase the number of nurses trained in the region 
and to develop a pre-apprenticeship training program (CNA, LVN, 
Registered Nurse Career Ladder).
    <bullet> Clean Energy Technology: Recruiting for students for 
Community College green technology courses in energy and 
sustainability, and the design and fabrication of solar projects.
    <bullet> Clean Energy Technology: Partner in Green Capital 
Alliance, a regional effort to position Sacramento as the premier 
region in the nation for high-value, clean technology companies and 
elevate the region's visibility both nationally and internationally.
                                 ______
                                 
    Chairman Hinojosa. Thank you, Mr. Camp. We will make sure 
that the entire paper that you wrote be made part of the record 
today.
    I call on Ms. Johnson.

  STATEMENT OF SHERRY JOHNSON, ASSOCIATE DIRECTOR, EMPLOYMENT 
       TRAINING PROGRAMS, TRAIL AREA DEVELOPMENT DISTRICT

    Ms. Johnson. Thank you, Mr. Chairman and members of the 
committee.
    I am the WIB director at the Lincoln Trail Area Development 
District, an eight-county regional economic planning and 
development agency located approximately 40 miles south of 
Louisville. I have been employed in this position for 24 years. 
The region is the birthplace of Abraham Lincoln, whose 200th 
birthday we celebrate today. And, additionally, it is the home 
of the Fort Knox Military Installation.
    The Workforce Investment Act has provided us with many new 
tools to provide workforce services to individuals and 
businesses throughout the region. But there have been many 
challenges along the way. We would like to take our time here 
today to discuss some of our challenges and successes in the 
Lincoln Trail region in Kentucky.
    There are several new influences that are changing the 
regional landscape for many years to come. We have not been 
immune to the challenges of businesses closing or reducing 
their workforce. Kentucky is losing manufacturing, primarily in 
the automotive-related industry, and in retail positions every 
day. In our region alone, we have lost 1,000 manufacturing and 
retail positions since July 1st. We are also faced with 
addressing the needs of 1,000 Federal civilian workers who may 
choose not to relocate to Fort Benning, Georgia, when the Armor 
School moves in 2011.
    Another challenge will be to recruit, train, retrain, and 
retain up to 1,800 individuals needed to fill the positions 
with the two new commands arriving at Fort Knox, the Army 
Accessions Command and Human Resources Command. And that 
challenge is now, because as many as 400 positions will arrive 
with the Human Resources Command advance party this spring.
    The higher educational skills and levels required for these 
positions presents us with significant challenges. Gone are the 
days when a high school diploma was a primary entrance to a 
good job, as is a third- or fourth-generation family member 
working for the same company.
    We are focusing our initial efforts to recruit workers from 
all across the Nation and even the world to fill these 
knowledge-based positions. Positions will require, at a 
minimum, a college degree and, in some cases, highly technical 
skills to manage the day-to-day operations of both commands.
    We literally have the equivalent of two Fortune 500 
companies relocating to our region, and we have to make certain 
that we are able to fill their workforce requirements now and 
in the future--a future that will require the development of 
career pathways and pipeline initiatives in our high schools 
and post-secondary institutions to meet the continuing need for 
a qualified workforce.
    Other regional challenges have been in the health care 
arena. We partnered with the Elizabethtown Community and 
Technical College and health care providers to start a 
respiratory technology program. This effort addressed the 
immediate shortfall, but we have only scratched the surface. 
Access to allied health training programs is limited, and 
waiting lists are the standard of the day. We must continue to 
invest in developing more access to health care training 
programs.
    We have also invested in an entrepreneurial academy of 
excellence to stimulate the development of new ideas, 
innovations, and businesses. In its first year, already over 
100 individuals have signed up for the workshops. This is a 
partnership between our local workforce board, Western Kentucky 
University, and the Lincoln Trail Innovation and 
Commercialization Center.
    We are also one of 39 WIRED designated regions across the 
country looking to develop and strengthen our regional economic 
prosperity. We cover a 26-county, two-State area and are 
addressing the challenges of educating and training our 
workforce for the 21st century.
    Other communities in Kentucky have developed targeted one-
stops and training programs, such as utility alignment and coal 
mining training, for dislocated workers, youth, and other 
growing sectors. Increased business services activities and 
developing strong relationships with local economic development 
have given us an edge in taking a proactive position instead of 
just reacting to change.
    The current economic conditions are unprecedented, and we 
must work collectively to address these enormous challenges. 
Unemployment continues to rise, and the President's stimulus 
package offers individuals extended benefits, but we also need 
to focus more attention on retraining workers and developing 
employment opportunities in small businesses. We need to infuse 
Federal, State, and local investments into these efforts to get 
our economy back on track and our workforce back to work.
    The challenges we face are daunting but not unique to us 
alone. Each day brings news of people losing their jobs, and we 
need to offer hope. There is a new day dawning in our region, 
with the BRAC transformation and the spinoffs of new retail, 
service, and contractor businesses that will follow this 
growth.
    The Workforce Investment Act must not be viewed as a 
poverty program but as a vital tool in the economic stimulus 
and recovery of our country. We must have the resources and the 
funding to address these challenges and opportunities. We must 
have unprecedented flexibility in our program design and 
delivery at this critical juncture.
    Workforce programs cannot do it alone. Workforce, 
education, and economic development efforts must unite to 
address these challenges. Our customers deserve hope, and we 
must generate that hope through a unified and streamlined 
delivery system. The challenge is enormous but one that we 
stand ready to engage, embrace, and successfully execute.
    Thank you, Mr. Chairman.
    [The statement of Ms. Johnson follows:]

Prepared Statement of Sherry Johnson, Associate Director, Lincoln Trail 
                       Area Development District

    Thank you Mr. Chairman and members of the Committee for the 
opportunity to speak before you today. I am the Workforce Investment 
Board Director for the Employment and Training Department at the 
Lincoln Trail Area Development District, an eight county regional 
economic planning and development agency located approximately 40 miles 
south of Louisville. I have been employed in this position 24 years. 
The region is the birthplace of Abraham Lincoln, whose 200th birthday 
we celebrate today. Additionally, it is the home of the Fort Knox 
Military Installation.
    Kentucky was one of the first states to implement the Workforce 
Investment Act in 1999. We saw it as an opportunity to be on the 
cutting edge of a new day in workforce training programs. The Act has 
provided us with many new tools to provide workforce services to 
individuals and businesses throughout our region, but there have been 
many challenges along the way. We'd like to use our time here today to 
discuss some of our challenges and successes in the Lincoln Trail 
region and the Commonwealth of Kentucky.
    There are several influences that are changing the regional 
landscape for many years to come. We have not been immune to the 
challenges of businesses closing or reducing their workforce because of 
the current economic situation in our country. Kentucky is losing 
manufacturing, primarily in the automotive related industry, and in 
retail positions every day. In the Lincoln Trail region alone, we have 
lost 1000 manufacturing and retail positions since July 1st. We are 
also faced with addressing the needs of 1000 federal civilian workers 
who may choose not to relocate to Fort Benning, Georgia when the Armor 
School moves in 2011. Another challenge will be to recruit, train, 
retrain and retain up to 1800 individuals needed to fill the positions 
with the two new commands arriving at Fort Knox--the Army's Accessions 
and Human Resources Command. And that challenge is at the forefront, 
because as many as 400 positions in the Human Resources Command advance 
party will be arriving this spring.
    The higher educational levels and skill sets required for these 
positions presents us with significant challenges in the region and the 
Commonwealth. Gone are the days when a high school diploma was the 
primary entrance to a good job, as is the 3rd or 4th generation family 
member working for the same company. We are focusing our initial 
efforts to recruit workers from across the nation, and even the world, 
to fill these knowledged-based positions. Positions will require, at a 
minimum, a college degree--and in some cases, highly technical skills 
to manage the day-to-day operations of both commands. We literally have 
the equivalent of two Fortune 500 companies relocating to our region, 
and we have to make certain that we are able to fill their workforce 
requirements NOW and in the future, a future that will require the 
development of career pathways and pipelines initiatives in our high 
schools and post secondary institutions to meet the continuing need for 
a qualified workforce.
    Other regional challenges have been in the healthcare arena. 
Several years ago, we were faced with a shortage of respiratory 
technicians. We partnered with the local community and technical 
college and local healthcare providers to start a respiratory 
technology training program. This effort addressed the immediate short 
fall, but we have only scratched the surface in addressing the shortage 
of healthcare workers. Access to allied health training programs is 
limited and waiting lists are the standard of the day. We must invest 
in developing more access to healthcare training programs.
    We have also invested workforce funds for an entrepreneurial 
academy of excellence in order to stimulate the development of new 
ideas, innovations and businesses. This project is in its first year 
and, already, over 100 individuals have signed up for the workshops. 
This is a partnership between our local workforce board, Western 
Kentucky University, and the Lincoln Trail Innovation and 
Commercialization Center.
    We are also one of the 39 WIRED designated regions across the 
country looking to develop and strengthen our regional economic 
prosperity. We cover a 26 county, 2 state area and are addressing the 
challenges of educating and training our workforce for the 21st 
century.
    Other communities throughout the Commonwealth have developed 
targeted one-stops and training programs such as utility lineman and 
coal mining training for dislocated workers, youth, and other growing 
industry sectors. Increased business services activities and developing 
strong relationships with local economic development professionals have 
given us an edge in taking a proactive position, instead of just 
reacting to change.
    The current economic conditions in our country are unprecedented 
and we must work collectively to address these enormous challenges. 
Unemployment continues to rise and the President's stimulus package 
offers individuals extended benefits, but we also need to focus much 
more attention on retraining workers and developing employment 
opportunities in small businesses. We need to infuse federal, state and 
local investments into these efforts to get our economy back on track 
and our workforce back to work.
    The challenges we face in the Lincoln Trail region and Kentucky are 
daunting but not unique to us alone. Each day brings news of people 
losing their jobs in the automotive related industry. The retail 
industry continues to suffer. We need to offer hope. There is a new day 
dawning in our region with the BRAC transformation at Fort Knox and the 
spinoffs of new retail, service and contractor businesses that will 
follow this growth.
    The Workforce Investment Act must not be viewed as a ``poverty 
program'' but as a vital tool in the economic stimulus and recovery of 
our country. We must have the resources and funding in place to address 
these challenges and opportunities. We must have unprecedented 
flexibility in our program design and delivery at this critical 
juncture. The Workforce Investment Act programs cannot do it alone. 
Workforce, education and economic development efforts must unite as one 
to address these challenges of the workforce system. Our customers 
deserve hope and we must generate that hope through a unified and 
streamlined delivery system. Mandated partner agencies must come to the 
table and actively participate in the one-stop system with their 
programs, services and funds. The challenge is enormous, but one that 
we stand ready to engage, embrace and successfully execute.
                                 ______
                                 
    Chairman Hinojosa. Thank you, Ms. Johnson.
    And now I call on Ms. Elzey.

STATEMENT OF KAREN ELZEY, VICE PRESIDENT, CHAMBER OF COMMERCE, 
   EXECUTIVE DIRECTOR, INSTITUTE FOR A COMPETITIVE WORKFORCE

    Ms. Elzey. Thank you, Chairman Hinojosa, Ranking Member 
Guthrie, and members of the subcommittee, for the opportunity 
to present this statement on the important role of the business 
community in promoting new innovations and best practices under 
the Workforce Investment Act.
    I commend the subcommittee for bringing attention to this 
important topic. This discussion is particularly timely, given 
the Nation's economic crisis. It is also important because of 
the proposed infusion of funds into the WIA system as part of 
the economic stimulus and the anticipated reauthorization of 
WIA.
    Our challenge is clear: how to use this money to create 
good jobs that pay good wages. We believe that, while the 
system has worked in some places, it is desperately in need of 
reform. With the new infusion of funding and a renewed 
commitment to creating high-quality, high-wage jobs, now is the 
time to reform the system.
    Despite some of the challenges, we have also witnessed many 
work local workforce systems that have achieved some success. 
While the Chamber has not undertaken a comprehensive review of 
the WIA system, it is evident that some of the most successful 
local workforce systems have several traits in common.
    First, strong business leadership. Simply put, a local 
workforce system that doesn't have buy-in from the business 
community will not be successful. A strong business presence 
drives success. While business leadership is envisioned under 
WIA by having a business majority on each local board, in 
reality these boards are often too large and unwieldy to be 
effective. As a result, many employers don't have the time or 
the patience to participate.
    Second, effective coordination. In some cases, States have 
made efforts to streamline their own bureaucracies. Others have 
assisted in branding centers to make it easier for the business 
community to have a single point of contact. In Arlington, 
Texas, the Chamber of Commerce and local WIB developed a single 
resource for employers. This center houses an array of 
workforce service providers that now operate as a single unit 
focused on meeting employer and employee needs.
    Third, relevant training. Local systems that are effective 
are ones that reach out to businesses to assess the skills 
needed by employers and needed for employees. In Omaha, 
Nebraska, Mutual of Omaha, Blue Cross/Blue Shield, the Greater 
Omaha Chamber, the local WIB, and others created a unique job 
training program. Under the initiative, jobs were identified 
for participants upfront. Training was tailored to meet the 
skills requirements for the specific jobs. A job coach was 
assigned to each worker to help ensure success. Of the 19 
initial participants in this pilot, all but three landed jobs 
at area insurance companies. This concept of tailoring training 
for actual jobs is one in which the Chamber is likely to take 
an even greater interest as part of WIA reauthorization.
    In Louisville, Kentucky, the community used WIA funding to 
create the KentuckianaWorks Scholars Program. This initiative, 
supported by the WIB, the Chamber, and elected officials, aims 
to increase the educational attainment of citizens. 
Specifically, it helps those who could, with some financial 
assistance, complete an associate's degree.
    Mr. Chairman, while this is by no means an exhaustive list 
of best practices in the WIA system, the Chamber believes they 
represent the fundamental areas in which to build upon the 
system.
    Federal job training needs to focus more attention on 
training people for actual jobs. Under WIA's predecessor, the 
Job Training Partnership Act, 75 percent of participants were 
enrolled in training. By 2000, only about half of participants 
were in training. And, today, just 20 percent of exiting 
participants were enrolled in training, not including those 
receiving self-services. In short, the new system must focus 
more attention funded on training. And, given the limited 
funding, this training must be maximized to ensure a far 
greater percentage of those who are being trained are being 
trained with the skills that employers need.
    We must also consider the fact that too many of our 
Nation's adults not only lack basic skills necessary for jobs 
that are disappearing, but that they will be even further 
behind as our Nation's economy improves. While most sectors of 
our economy are shrinking, others have continued to expand. 
Even during the last 3 months, employment in health care and 
education continued to increase. We must not lose sight for the 
need of our workforce systems to meet this demand and to 
prepare people for tomorrow's economic recovery.
    As the committee moves forward with WIA reauthorization, 
the Chamber welcomes the opportunity to work with each of you 
toward addressing these challenges and ensuring the system is 
able to meet the needs of our Nation's workforce.
    Thank you, Mr. Chairman.
    [The statement of Ms. Elzey follows:]

   Prepared Statement of Karen R. Elzey, Vice President & Executive 
   Director, Institute for a Competitive Workforce, U.S. Chamber of 
                                Commerce

    Thank you Chairman Hinojosa, Ranking Member Guthrie, and members of 
the Subcommittee, for the opportunity to present this statement this 
afternoon on the important role of the business community in promoting 
new innovations and best practices under the Workforce Investment Act 
(WIA).
    I commend the Subcommittee for bringing attention to this important 
topic. This discussion is particularly timely given the nation's 
economic crisis; the proposed infusion of funds into the WIA system as 
part of the economic stimulus; as well as the anticipated 
reauthorization of WIA this Congress.
    Indeed, it is not possible to have this discussion without noting 
the 11.6 million Americans unable to find work. In just the last three 
months alone, our nation has lost nearly 1.8 million jobs. 
Unfortunately, by most accounts, these numbers will likely become even 
more sobering in the months ahead.
    The front line of this reality can be seen from coast-to-coast in 
the one-stop career centers established as part of WIA, which are 
seeing record increases in those seeking employment and job training 
services. A recent article in the Ocala Star-Banner highlights a story 
in Marion County, Florida where demand for services at the local 
workforce center for the last six months is nearly surpassing demand of 
the entire previous year.
    The economic stimulus proposals in the House and Senate both 
include over $4 billion of additional funding for programs under the 
federal employment system, including WIA, representing a doubling of 
current federal expenditures in this area. Clearly, these funds would 
provide much needed capacity to the system during this time. Given this 
infusion of funds, however, our challenge is clear: how to use this 
money to create good jobs that pay a good wage for jobs that exist in 
today's economy? Perhaps the answer lies in our discussion here today 
about some of the best practices and innovations that are being 
implemented throughout the nation.
    There are many in the business community who question the 
effectiveness of the current system. Unfortunately, we have heard from 
our Chamber members across the country that the WIA system has not 
always been able to meet the needs of many job seekers and employers. 
We believe that while the system has worked in some places, it is 
desperately in need of reform. With the new infusion of funding, and a 
renewed commitment to creating high-quality, high wage jobs--now is the 
time to reform the system.
    In our view, reform starts in Washington. Poor local implementation 
of these programs often can be directly traced to the current patchwork 
of programs, rules, and regulations developed here in Washington. For 
example, despite several decades of attempts to streamline and 
coordinate multiple federal employment and training programs--the 
number of targeted programs continues to increase.
    The one-stop system put into place last reauthorization was 
supposed to fix all that--and it has been somewhat of an improvement. 
Yet, oftentimes conflicting target populations, performance measures, 
and even governance structures make one-stops nothing more than a co-
located maze of disconnected programs. This is particularly true in the 
area of job search assistance. While the Employment Service has the 
primary role of identifying job openings and providing this information 
to job seekers, federal law also assigns a similar role to the WIA 
system, welfare, and even food stamp programs in many cases. Such 
overlap confuses participants and employers alike.
    Despite these challenges, we have also witnessed many local 
workforce investment systems that have tried to make the best of these 
challenges, and have achieved some success. While the Chamber has not 
yet undertaken a comprehensive review of the WIA system, it is evident 
that some of the nation's most successful local workforce investment 
systems have several traits in common:
    1) Strong business leadership: Simply put, a local workforce 
investment system that doesn't have buy-in from the business community 
will not be successful; a strong business presence drives success. When 
businesses turn first to their local one-stop for their workforce 
needs, the participants going to these centers benefit. Businesses not 
only facilitate the information flow; they can help leverage other 
funding. While business leadership is envisioned under WIA by virtue of 
the business majority on each local board overseeing workforce 
investment areas--and that the chairs of these boards must represent 
the business community--in reality, these boards are often too large 
and unwieldy to be effective. As a result, many of the most active 
employers at the local level don't have the time or the patience to 
participate.
    2) Effective coordination: Despite the challenges of overlapping 
federal programs discussed above, there are examples of how local 
systems have overcome these difficulties and have at least provided a 
public perception of coordination. In some cases this is helped through 
state efforts to streamline their own bureaucracies and assisting in 
branding of centers to make it easier for the business community to 
have a single point of contact.
    For example, in Arlington, Texas, the chamber of commerce and 
Workforce Solutions for Tarrant County (the local Workforce Board) 
developed a single resource for employers, the Center for Continuing 
Education and Workforce Development. The center is a collaborative 
partnership housing an array of workforce service providers--including 
the office of the Arlington chamber's workforce development staff--that 
now operate as a single unit focused on meeting employer and employee 
needs.
    Built on the University of Texas-Arlington campus, the facility 
incorporates higher education, the publicly funded system, and 
employers into an integrated model. The chamber's Education and 
Workforce Development Council employer members meet on a monthly basis 
to provide center administration with feedback and information related 
to the needs of the employer community. A valuable by-product of this 
approach is that by increasing awareness of workforce development 
issues and resources, council members have become effective advocates 
of the employer-driven workforce development system for the employer 
community.
    3) Relevant training: While in theory all training under WIA should 
be relevant and tied to real jobs, this clearly is not always the case. 
Local systems that are effective are ones that reach out to businesses 
to assess the skills needed by new employees; are active in gathering 
local labor market information to help inform training; and are engaged 
with the local training providers to ensure they have programs which 
meet the needs of the local economy.
    In some cases, local areas have taken this one step further and 
have implemented truly innovative solutions to ensuring the relevancy 
of training. One example of this innovation was recently highlighted in 
the Omaha World Herald. After reports that Omaha had one of the highest 
rates of poverty among African-Americans in the nation, Mutual of Omaha 
and Blue Cross Blue Shield, along with other partners including the 
Greater Omaha Chamber of Commerce and the local workforce investment 
board, set out to create a unique job training program. Under the 
initiative, jobs were identified for participants up front after which 
training was tailored for the participants to meet the skills 
requirements for the specific jobs. In addition, a job coach was 
assigned to each worker to help ensure ongoing success. Of the 19 
initial participants, all but three landed jobs at area insurance 
companies. This concept of tailoring training for actual jobs is one in 
which the Chamber is likely to take an even greater interest as part of 
the reauthorization of the Workforce Investment Act.
    Another innovative approach is occurring in Louisville, Kentucky 
where the community is striving to raise the educational attainment of 
its citizens. In 2008 Mayor Jerry Abramson and other leaders announced 
$1 million in college funding (using WIA funding) that would be used to 
help Greater Louisville-area residents finish their associate's degrees 
though the KentuckianaWorks Scholars Program. The KentuckianaWorks 
Scholars Program will over 400 people in the 2008-2009 academic year by 
giving them up to $3,000 for tuition and up to $600 for books and 
supplies. This program is designed to help those who could, with some 
financial assistance, complete an associate's degree.
    KentuckianaWorks, the local workforce investment board, benchmarks 
the educational attainment of its citizens with 15 other communities in 
which it competes for economic development projects. The data showed 
that Louisville ranked 9th out of the 15 communities for the number of 
associate's degrees being produced. By setting a goal of educating an 
additional 400 people to complete their Associate's degree, Louisville 
could increase its ranking to fifth. The local chamber, Greater 
Louisville Inc., is a partner in this initiative.
    Mr. Chairman, while this is by no means an exhaustive list of best 
practices and innovation in the WIA system, the Chamber believes they 
represent the fundamental areas in which to build upon this system as 
part of the upcoming reauthorization of the Workforce Investment Act.
    Finally, Mr. Chairman, let me conclude with this important point: 
Federal job training needs to focus more attention on training actual 
people for actual jobs. Now, you might say, that seems pretty self-
evident, but let me bring the following statistics to your attention. 
Despite nearly 2.5 million individuals participating in WIA programs 
annually, very few actually receive training. In 2006, only 109,528 
Adult Program Participants received training and only 77,160 Dislocated 
Worker Participants received training. (To put this into perspective, 
there are over 6 million students enrolled in the country's 1,045 
community colleges). This reflects a significant decrease in the 
proportion of WIA funds that support training. Under WIA's predecessor, 
the Job Training Partnership Act, 75% of participants were enrolled in 
training. By 2000, only about half of participants were in training, 
and today just 20% of exiting participants were enrolled in training 
(not including those receiving self-services).
    In short, the new system must focus more attention and funding on 
training and given the limited funding, this training must be maximized 
to ensure a far greater percentage of those who are being trained are 
being trained appropriately and for jobs that actually exist.
    While it might be tempting to surmise that given the vast amount of 
job loss across our nation we need no longer place a priority on 
training for jobs ``that don't exist.'' However, such conclusions are 
short-sighted and fail to consider the long-term trends of our economy 
and the fact that too many of our nation's adults not only lack basic 
skills necessary for jobs that are disappearing--they will be even 
further behind as our nation's economy continues to improve.
    In fact, while most sectors of our economy are shrinking, others 
have continued to expand. Even during each of the last three months, as 
our economy has suffered some of the worst job loss ever, employment in 
health care and education continued to increase. We must not lose sight 
for the need of our workforce and training systems to meet this demand 
as well as the long-term demand in sectors including manufacturing, 
which despite its continued downturn, also faces a graying workforce--
from engineers to welders--signaling trouble in years ahead.
    Our nation is also on the verge of embarking on new sectors of 
employment from the bio-tech fields to health care to jobs that will 
help keep our nation more energy efficient. These emerging sectors will 
rely on a broad range of skilled employees--the employees that today's 
workforce system should be preparing for tomorrow's economic recovery.
    As the Committee moves forward with the reauthorization of WIA, the 
Chamber welcomes the opportunity to work with each of you toward 
addressing these challenges and ensuring this system is able to meet 
the needs of our nation's workforce.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    I want to thank each of the presenters for your testimony.
    At this time, we are going to begin the questions, and the 
members are going to have an opportunity to get clarification 
or maybe ask you some questions that were not addressed by any 
one of you. I now recognize myself for 5 minutes.
    Ms. Elzey, you talked about the need for the 21st century 
and modern, up-to-date, state-of-the-art training. One of your 
colleagues mentioned that it was difficult to get 40 percent of 
the Federal money that comes down to your State and for each of 
the workforce boards to go into training. That tells me that 60 
percent is being used by maybe whatever the State takes for 
administrative costs, and then the subcontractors have to show 
a profit, and then there are administration costs.
    At the board that you oversee, what percentage would you 
say is the average that was used in 2007 and 2008 for training 
after paying all the administrative costs?
    Ms. Elzey. Mr. Chairman, in my position, I don't currently 
oversee a board, so the statistics that I have quoted in terms 
of training were those national statistics that looked at what 
percentage was coming now, in terms of WIA versus JTPA.
    From our perspective and our members' perspective, we would 
like to see the dollars be able to be used more for training 
individuals for jobs that are currently available and those 
that employers will be creating in the future.
    Chairman Hinojosa. Let me ask Ms. Gonzalez. You oversee a 
large group that covers three counties. What would you say is 
the actual percentage of the Federal money that comes down to 
your area that is used for training?
    Ms. Gonzalez. Of the $57 million that we receive and those 
that flow through the State--those cover eight different 
funding streams, from food stamps, education and training, to 
our TANF dollars, to WIA Adult, Youth, and Dislocated--of the 
$57 million, between 67 and 70 percent go to direct client 
services, be that in training, be that in support services.
    We, Congressman, have gone from 12 facilities in our 
community down to six, and soon to be five, because our 
workforce board's commitment is that that investment, that 
Federal investment, must go to those that need it, those in 
need, which are obviously our customers.
    Chairman Hinojosa. Being that you said there were about 28 
centers throughout the State of Texas----
    Ms. Gonzalez. Yes, sir.
    Chairman Hinojosa [continuing]. Tell me how does your 
percentage compare with the average in the State of Texas.
    Ms. Gonzalez. Our percentage compares not very nicely with 
the rest of the State of Texas. Obviously, in the State of 
Texas, of the 28 workforce boards, there are regions that are 
representative of all kinds of issues and sectors in the 28 
boards.
    Our child care administrative cost is the lowest in the 
State. We receive $25 million a year, sir, for child care 
alone. At any given day, we support 10,000 children in child 
care. And we are recognized as one of the two lowest child care 
administrative costs in the State of Texas.
    So, to your question, that range varies. And at this time, 
sir, I do not currently have that information, but I will 
gladly provide it to you.
    Chairman Hinojosa. What could be done to reduce the 
administrative costs and increase the amount of money that 
would go to the client services? What could be done?
    Ms. Gonzalez. From our perspective, we believe strongly in 
procurement of services. The State of Texas, that is a 
mandatory process, where workforce services must be procured. 
It is not just automatically allocated to anybody. So we truly 
believe in a competitive process.
    We also believe that leveraging additional State and 
private-sector investment dollars into our systems would work. 
We, at the workforce board, and ours is a best practice, 
utilize a fee-for-service. If one of our business customers 
wants to work and requests specialized training, we ask them 
for investment. That money immediately goes right back into the 
program.
    Chairman Hinojosa. And what percentage does the employer 
pay in this leveraged system?
    Ms. Gonzalez. At a minimum, 50 percent. Normally between 60 
and 70 percent of the cost the employer puts in.
    Chairman Hinojosa. My time is up.
    I yield to Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman.
    This question is for Ms. Johnson and some from Ms. Elzey's 
testimony where it comes from, but I have heard there are more 
than 40 members on some local workforce boards in Kentucky. And 
it has been my experience that local boards, which are required 
to have a business majority, are essential to the workforce 
development in many States. And it is my understanding there is 
consensus around the idea of streamlining the State and local 
boards, and one idea is to remove the requirement that the one-
stop-partner programs have a seat on the local boards. This 
could result in greater representation by local businesses, 
education officials, community groups and employee 
representatives who are frequently frustrated that they are not 
able to connect or access resources from the local boards 
because of the sheer size.
    My question is, what has been your experience with the size 
and composition of State and local workforce investment boards?
    Ms. Johnson. Our local board membership is at 45, and I 
think throughout Kentucky 40-plus is the average. We certainly 
believe that a business majority is vital and critical to the 
process because they have the jobs, and we need to solicit 
input to them so that we understand and we know what the skills 
are of any industry or business out in our community.
    The partners who are represented through our memorandum of 
understanding and resource-sharing agreements, we would 
probably agree that possibly the one-stop partners would not 
need a seat on the board. But the board is not manageable at 
current size, current level. We would probably suggest that 25 
would be the maximum size for an ideal board to get business 
done, because with 45 members, you are looking at a majority of 
at least 23 to conduct business, and if you are pulling from a 
vast regional area, sometimes that is very difficult. So we 
would definitely support any reduction in the size of boards.
    Mr. Guthrie. Do you have a suggested size board?
    Ms. Johnson. Maximum 25.
    Mr. Guthrie. Maximum 25. Well, there is one more question I 
have.
    Ms. Johnson, again, as you know, there has been a lot of 
discussion over the last few years about the amount of funding 
under WIA that has been spent on training. It is my 
understanding that a number of provisions in the law have 
contributed to this issue.
    For example, the law includes requirements that job seekers 
participate in the level of service sequentially, or there are 
other bureaucratic requirements on community colleges where 
they don't participate or other eligible training providers 
because of the requirements and lack of support for mandatory 
partners at many one-stop centers.
    What has been your experience with unemployed workers in 
Kentucky who need specialized training?
    Ms. Johnson. We think the three levels of service are 
critical, because not everyone that comes into your one-stop 
system needs to go into training. Some just need to rework 
their resume; they need to work on interviewing skills. They 
might need to do some research as far as what the labor market 
is and transition those skills.
    But we look at both core and intensive as an opportunity to 
provide a little bit more intensive one-on-one case management 
service so that that transition to training, if it is needed, 
is very smooth and includes a plan of action so that person can 
go from being unemployed, from being laid off or whatever, but 
they can go back into training and get a job very quickly.
    We spend probably 85 percent of our funds on training at 
this point in time. The rest, 10 percent is admin, and 5 
percent is towards the administration of our one-stops. Not all 
partners are in our one-stops. We have employment services, 
veterans services, unemployment, vocational rehabilitation in a 
couple of our centers, but that is it. And partner agencies 
need to come and provide their services at the centers. I think 
it is critical. I think it is vital to the people who come 
seeking our services that they can access them in an easy, 
efficient and streamlined manner.
    Mr. Guthrie. Thank you very much. That is very helpful.
    I yield back my time.
    Chairman Hinojosa. Thank you.
    I now would like to call on the gentleman from New Jersey, 
Bob Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. Thank you for 
reassuming the leadership of this subcommittee. You have been 
great to work with, and we know you are going to lead us to an 
excellent reauthorization in this. Thank you very much.
    I thank the panel for their testimony.
    When workforce investment boards are at their best, they 
identify growing areas of a local economy and provide skilled 
workers for those jobs, and the workers build careers, not just 
jobs. When they are at their worst, what happens is what Mr. 
Camp described, which is the world's most expensive revolving 
door, where we train people for low wage, entry level jobs. 
They get them for a while, they lose them and come back, or 
someone else loses their job and comes back. Mr. Camp has 
suggested a remedy for that, which is a minimum amount of the 
funds would have to be spent on high quality training for a 
high quality job.
    I would be interested in the panel's opinion, I know Mr. 
Camp's opinion, he would be for it, but is anyone against that 
idea? Our chamber would be for that idea?
    Ms. Elzey. I think we are for the idea that local 
communities look at their local labor markets and identify the 
needs of employers in those communities to ensure that people 
get quality jobs.
    Mr. Andrews. That is not quite what I was asking. I was 
asking would be, would we have a statutory minimum where at 
least some percentage, Mr. Camp suggests 40 at his Web, would 
have to go for what I would call long-term quality training, 
that might be an associate's degree type thing, rather than a 
couple of months training, the theory being that that gets the 
person on a career ladder rather than just a short-term job. 
Does the chamber have a position on that?
    Ms. Elzey. Not at this time.
    Mr. Anderson. We would be interested in hearing what you 
think.
    Mr. Bahr, what do you think of that?
    Mr. Bahr. Just some experience that I have had in our own 
union. It is too late to talk about training and retraining 
once an employer announces a plant is closing. There used to be 
a time when a high school graduate without skills or a dropout 
was able to get a job in manufacturing at a family-sustaining 
wage. We have to recognize those days are gone forever and that 
to train people to flip hamburgers in the hope that they are 
going to continue on to get something better I think is not 
going to happen.
    While we still have to concentrate on the math and science, 
what the high performance workplace has done in this country is 
to reinvigorate and renew the need for liberal arts. The key to 
the future, we can't always predict what jobs are going to be 
needed. You know, it took over 100 years for the Morse Code to 
be made obsolete, and now if you don't keep up, every 3 years, 
you are obsolete.
    Mr. Andrews. Some would argue it is sooner than that.
    Mr. Bahr. That is the way technology is moving. So how do 
we deal with it?
    I began to develop this idea when President Clinton 
appointed me to chair the Commission for a Nation of Lifelong 
Learners. As much as he and Vice President Gore tried to keep 
it going down at the local level, we failed. But what we were 
able to do was identify the obstacles to adult learning, the 
real obstacles, what keeps people from learning. But more than 
that, we recognized that since we can't always predict what 
jobs are going to be available a year, 2 years, 3 years from 
now, and many employers are fearful of suggesting what may not 
turn out that way because we are in a global economy, that we 
have to train our workforce to be able to react quickly to the 
changes in technology. And the way you do that is with higher 
education.
    You know, if you look at the jurisdiction of this 
committee, change the commas----
    Mr. Andrews. Which is far too narrow, don't you agree?
    Mr. Bahr. Drop the commas and say higher education plus 
lifelong learning equals competitiveness.
    Mr. Andrews. I will tell you one of the things that our 
chairman I think heard that and was able to negotiate in the 
stimulus bill, which I know will enjoy broad support on the 
committee, is a substantial increase in the lifelong learning 
credit, which came out of the Clinton administration, so more 
people can get more dollars and go to school. Also the stimulus 
bill has in it a significant increase in Title I funding, a 
significant increase in IDEA funding, and a special new account 
for distressed States, which is really all of them now, to try 
to get at this problem long before someone goes into the 
workforce. So our chairman was quite vigorous in his advocacy 
of those positions.
    Mr. Bahr. There is another aspect we have to look at. About 
50 to 60 percent, if not higher, of the people in the workforce 
today, are the workforce of 2020. That includes the 
undereducated part of the workforce. We can't just write them 
off. Now, they are all working, and what we found out in the 
telecommunications industry, maybe because these companies had 
money and were able to do what we wanted to do, that we made 
the strides we did. But with the encouragement where there is a 
union, of the union and the employer, people who never thought 
about going on to higher education will do so.
    Just as an example in the role that government plays, 
employer-furnished education is taxable income, and Congress 
passes legislation, and it used to be, prior to 1994, 
Rostenkowski would hold it every 2 years and renew it 
automatically, nobody paid attention.
    Well, in 1994, when the power changed in the House, just 
because nobody did anything, it lapsed. At that time, in U.S. 
West, which is today Quest Communications, we had 17 percent of 
the workforce enrolled in college-level work. When the tax came 
out of their paychecks when the law lapsed, it dropped 
immediately to 7 percent.
    So there are two things, and this we managed to get working 
in both parties into the Bush tax cut bill which expires in 
2010, and we have to keep on the front burner to get that 
renewed next year or the same thing will happen.
    Mr. Andrews. I see my time has expired. Thank you very 
much, Mr. Chairman.
    I appreciate Mr. Bahr's point that we should have the Ways 
and Means Committee give us all of their jurisdiction. I 
completely agree with that.
    Chairman Hinojosa. I can say that anybody who wants to give 
additional answers to that may do it in writing, and we will 
see that the Members of Congress get that.
    I would like to now call on someone who is very special to 
me. He was one of my mentors when I got here back in 1996. He 
was on the Education Committee and was chairman of this 
particular committee, and I want to call on Congressman McKeon 
from California.
    Mr. McKeon. Thank you very much, Mr. Chairman, and thank 
you for the kind words. I am an old guy. I have been around 
here a long time, is what he was saying in a nice way.
    Mr. Camp, in your written testimony, you state that the 
current economic crisis calls into question the dominant 
political wisdom of the last 30 years that the bulk of 
decision-making about Federal programs are best made locally. I 
was one of the principal authors of WIA back in--well, we did 
in 1996, and we did it again in 1998 when it became law. But 
one of the things that I have championed my whole time here is 
local control.
    I served on a local school board. I served on a local city 
council and as mayor. And I just firmly believe that the closer 
you can get to the people who are involved, the better the 
decision. I think at a Federal level we should probably deal 
more in principles, not in details down to the local level.
    Did I misunderstand your point in that? Do you think that 
the bulk of decisions impacting local decisions should be made 
by the Federal Government, and why do you believe that a one-
size-fits-all system would be better?
    Mr. Camp. Mr. McKeon, you are a man I have a lot of respect 
for and we have talked about various issues in the past. But 
let me be clear about my point.
    In the State of California, among the workforce investment 
boards, some spend zero percent on training, and some spend 50 
percent. If we are not going to be training workers for the 
future, the Workforce Investment Act is failing the Nation.
    Now, do I believe in local control? Absolutely. I was a 
local school board member for 5 years. I ranted and raved 
against those guys telling us what to do when we thought we 
knew what was best. But you have to have serious guidelines. 
And the problem we have got now is we are all over the map. And 
when you go and look at all the workforce investment boards, 
and I share a point of view with the Chamber of Commerce, there 
is a huge disparity in what people do with a workforce 
investment board.
    We need to have clear expectations, and I think one of the 
most firm expectations is we have to set a standard about 
training. Because I have got workforce investment boards in 
California that place zero percent in training.
    Now, I think the other problem we have got is we have to be 
clear about what we think training is, because I have got 
people that says training is where I sat down and taught them 
how to make a phone call, and I don't think that is what I am 
thinking training is.
    But, on the other hand, there are some smart things that we 
have learned about training. And I will admit I was wrong when 
we first started this in Sacramento, where the Chamber of 
Commerce did a big survey of our employers and said, what are 
you looking for? What do you want workers to know? And they all 
came back with what I would call soft skills. And I was one of 
the labor guys saying, what is this soft skills? This is just 
hogwash. And that is not true.
    Our Los Rios Community College district designed a course 
which I think we ought to have every union person take. It was 
talking about joint decision-making. It was talking about 
independence. That was local control. But it was sophisticated 
local control, because we could demonstrate to you how much 
increase in salary people were going to make as a result of a 
successful completion of that course, because we could verify 
and validate to every member of the business community that 
when somebody graduated from that class, they had, I am not 
quite sure of the status, the acknowledgment of the Los Rios 
Community College district, of approval, Good Housekeeping 
Award I guess, in terms of soft skills. Those are important, 
and we developed that class so that, and I give credit to the 
community college that developed that class so that it was 
effective.
    Now, I absolutely believe in local control. I take pride 
the fact that what the mix of jobs and skills that we need in 
Sacramento is not what you need in New Jersey. So we need that 
sense of control. But we don't need to appropriate money for 
workforce investment and not require there be money in 
training. That is the concern I have got.
    Mr. McKeon. That was definitely not the intention.
    Mr. Camp. Well, I am not walking away from my fight that 
says there is a role that the public sector employees play in 
what we call the employment development department. They 
process the unemployment insurance claims. They should be doing 
something of that, not easy, that counseling job referral work. 
And we should take our workforce investment board, which is 
where the business community and the labor community come 
together, with the educational community, and say, what are the 
training needs that will make us the best region, that we will 
do better than San Diego or wherever.
    Mr. McKeon. You should be a Senator. Great job.
    But I would like to hear Ms. Johnson reply to that same 
question, if the chairman would indulge me.
    Chairman Hinojosa. I will give you 30 seconds.
    Ms. Johnson. Very briefly, every individual in our region 
that goes into training, goes into training for a high demand 
occupation within our labor market and our broader wired 
region. Pure and simple. There is no use of us putting people 
into training where it is a dead end situation. We make them do 
homework. We do our homework. We continue to look at the labor 
market on a daily basis. And if we don't, we are not doing that 
customer justice. Training needs to be the a the local level.
    Mr. McKeon. Sounds like we are in agreement. There are a 
few details we could chew on, but thank you very much.
    Chairman Hinojosa. I would like to now call on the 
gentleman from Massachusetts, Mr. John Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Let me thank you for 
putting special focus and priority on this particular issue at 
the outset of this session. I look forward to working with you 
on this, because I think you have hit it right on the head in 
these days, trying times. People need to have some security of 
knowing how they are going to get back into the labor force.
    Let me ask our panel members who are parts of the workforce 
investment board system on this. What are we going to do to 
entice people in emerging industries or sectors, whether it is 
energy efficiency, energy alternatives, nano science, things of 
that nature, to get on the boards? I see the most local boards 
are the local banker, your local insurance person, people that 
are terrific people and the ones that generally give up their 
time on that, but they are not always from the industry that is 
creating the new jobs. I think we need their expertise on those 
boards to help us identify what skills and education levels we 
need to get out there. So if I could quickly get an answer on 
that?
    Ms. Gonzalez. Thank you for the opportunity. I will say, 
from our perspective, it has been very difficult to encourage 
more so because of the credibility or lack thereof of this 
system, if you will. What we have found is that we have 
encouraged the successful business partners of ours and the 
successful board members who represent the private sector to be 
our ambassadors.
    The other thing that we have done is that, if an emerging 
industry is in our community and we engage this business, this 
company, this partner, one of the requests that we make is that 
they participate in what we call our industry sector task 
forces so they become familiar. It is almost like desensitizing 
them to the government.
    Mr. Tierney. So instead of directly putting them on the 
board, you put them on a task force and try to woo them in?
    Ms. Gonzalez. And move them in.
    Mr. Tierney. Ms. Johnson, what do you do?
    Ms. Johnson. We have been trying to focus on working with 
our economic development professionals so that they can engage 
the emerging sectors in their region. We have also started 
working with entrepreneurs. We think that that is an avenue for 
us to continue to grow and to look at emerging sectors down the 
line.
    Mr. Tierney. Are we doing enough? We have had a couple of 
good examples. One is reflected in the Green Jobs Act, which I 
had the privilege of authoring with Hilda Solis, our new 
Secretary of Labor. Another is a group called E-Team in 
Massachusetts, where we formed partnerships. Are we doing 
enough to encourage partnerships of a particular industry or 
company, community college or other educational institution, 
private industry, the business community and labor, to have a 
consortium to come in and get a grant to actually put together 
a program, and then part of the contribution from the business 
end, of course, can be either faculty or some other 
contribution towards teaching the courses or money on that.
    Do you think the current act does enough on that, or would 
you like to see something else done to try to encourage that 
kind of cooperation?
    Ms. Johnson. I think that is an excellent idea. And the 
more flexibility that we have to develop partnership 
relationships to meet the needs of both individuals and 
businesses, the better we are. We can be more responsive in a 
more timely manner.
    Mr. Tierney. Thank you.
    Mr. Camp, do you want to speak?
    Mr. Camp. Mr. Tierney, on our workforce investment board, 
we go out and do a survey of all of our green energy upstart 
companies. So we sit down with the CEOs and say, what are you 
looking for? We get them in a roundtable. And we don't take 
long, but get them in a room with six or eight of them and a 
facilitator and just talk about what their needs are. So we 
bring that back to the workforce investment board and say, you 
know, we have got eight people or eight different groups and 
said this is really what we want to kick start our solar energy 
program, and these are the kind of skills we are looking for 
and what our next level is.
    Because the critical issue for us is if, I am going to kick 
start a green energy program, I need to make sure I am 
responding to what they need today, not what I imagine they may 
need 10 years from now or next year or 2 years from now. But 
they are in a vulnerable position. They have got to have a 
responsive work preparation. So we do that. We come back. We 
have a very small pot of money that allows us to do innovation, 
and that is one of the key areas.
    Mr. Tierney. If I could quickly go from my right to your 
left on the board here, does anybody see any reason why we 
cannot device a Workforce Investment Act bill that also 
incorporates the transitional assistance aspect so that we have 
one channel? If you are unemployed for any reason at all, we 
can address your need as opposed to having two different 
programs of that nature. If I start to my right, yes or no?
    Ms. Elzey. We have no problem with that.
    Ms. Johnson. No problem.
    Mr. Camp. Are we talking about private industry doing this 
or talking about the public sector?
    Mr. Tierney. We are talking about getting it done within 
one silo instead of several silos here.
    Mr. Camp. Well, filing new claims and processing those 
claims and getting people back out from a regular traditional 
labor exchange program, I think it has got to be public sector 
just because that is the most efficient way to deliver that, 
and this it is the least conflict of interest problem. We have 
got people and I----
    Mr. Tierney. That wasn't really the focus of the question. 
It is basically, is there a need in your mind that we have a 
Transitional Assistance Program in one silo and other workforce 
investment program in other silos?
    Mr. Camp. I guess I don't have trouble with it. I have to 
think about it. I will respond to you.
    Mr. Wooderson. Mr. Tierney, from a disability community 
standpoint, I don't believe there would be any challenge for us 
there at all.
    Mr. Tierney. Thank you. Mr. Bahr?
    Mr. Bahr. Our committee recommends a single. I would also 
suggest that we ought to be looking for some adult ed people on 
the boards.
    Ms. Gonzalez. I absolutely do that. And we do have adult ed 
representatives on our board.
    Mr. Tierney. I wish we had more time to get into the 
literacy aspect of this, but I am glad it is part of this 
discussion, and I am sure we will get into it later.
    Thank you, again, Mr. Chairman.
    Chairman Hinojosa. At this time, I would like to call on 
the gentlewoman from California, Susan Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you all for 
being here. Nice to see you Mr. Camp after the California 
legislative days.
    I wanted to go back for just a second and check and see if 
there is anything that has been said in terms of the percentage 
that would go towards training. It is a little out of sync with 
what programs you do. I know that Mr. Camp mentioned at least 
40 percent. We have had mention of greater than that.
    Is there any problem particularly with calling that out as 
we move forward? Is there anything in that that didn't jive 
with something you work with?
    Mr. Camp. I think the key is making sure we have a good 
clear definition of training, because people will report as 
training something that you and I may not think about, 
preparing people for high-wage jobs. And I do think it is 
important to have a minimum, I didn't say a maximum, but a 
minimum that has to be spent on that kind of training. I think 
we are missing the boat if we let the local--as much as I honor 
the local decision-making, you have to put some guidelines on 
what we expect to come out of this money.
    Mrs. Davis. Thank you.
    Anything else?
    Ms. Gonzalez. I think, from my perspective or from our 
perspective, it is important that the training not only be 
clearly defined but that the training be tied to an absolute 
outcome. It is not good enough to have somebody sitting in a 
chair for the next month or 2 or 6, or 2 years or 6 years for 
that matter. It is clearly important that the training result 
in some type of credential or outcome.
    Mrs. Davis. Thank you. And when we talk about that, we are 
usually thinking of career paths that people will be able to 
move in. Let me ask you about this example in the health field. 
People caring for Alzheimer's patients, for example.
    I recall in San Diego there was a question of whether the 
salaries, the incoming salaries, were high enough to receive 
some of the workforce investment dollars at one point. I 
suspect this was worked out along the way.
    Are there areas where actually the employer does fall short 
and yet is in a high need area that should be addressed as we 
move forward? Are there exceptions within that? Certainly you 
talked about the self-sufficiency, the high demand jobs. We are 
not talking about 100 percent. So there is an area in health 
care. But is there a problem with that, and what would there be 
perhaps that you want to just caution us about?
    Mr. Camp. I would just caution you to establish a 
requirement that there be a sustainable wage, because what that 
allows the workforce local board to make decisions about, and 
in fact frees up this local decision-making issue, is to train 
people to move up and have their spot taken by somebody at a 
lower wage.
    We use EED data to determine what the wage rate, the income 
of that worker is 18 months down the road, and we talk about 
that at our board saying if you didn't meet the $12 an hour, 
don't fund this training program, because they are not meeting 
a sustainable wage.
    Now, do I think there is a magic self-sustaining number I 
can give you today? It is going to vary in each county, because 
what the rent and utilities are in one area is different than 
another. But there is data for every single county in the 
United States. So you can obtain good, hard data about what it 
takes to have a sustained, independent income, and then target 
that so it allows the workforce investment board to expand who 
it is providing an upgrade training to. And I think that 
creates the incentive for careers, or what we sometimes call 
ladders or sometimes call lattices. You may start out working 
for a nursing home and go to a hospital and go back to a local 
clinic, but you are still within that field and working your 
way up.
    Mrs. Davis. Great. Thank you.
    I actually had a question, I wanted to go to Mr. Wooderson 
really briefly in terms of the veterans programs you mentioned 
in particular, and how we can better coordinate that. Are there 
some suggestions? But is there something about all that that 
just makes you all crazy in terms of trying to adhere to both 
the letter and the spirit? What is it we should be thinking 
about?
    Mr. Wooderson. From the disability community standpoint, of 
course, title IV of the Workforce Investment Act is our 
rehabilitation agency. Probably the thing that challenges us 
the most is not so much physical access anymore to workforce 
one-stop centers. That seems to be improving across the 
country. We are greatly appreciative of that.
    What is really a challenge for us is programmatic access in 
the sense particularly for our consumers with sensory 
disabilities, visual disabilities, hearing disabilities, 
accessing the programs. So as we talk about the programs that 
we all serve through WIA, one of the things that really does 
drive us crazy, using your terms, if I may, is being able to 
access those in a way that is equally available for folks with 
disabilities just like anybody else that does not experience a 
disability.
    Mrs. Davis. Thank you.
    Anybody else very quickly that wants to weigh in on 
something that really makes you crazy that we should be 
thinking about?
    Thank you, Mr. Chairman.
    Chairman Hinojosa. At this time, I would like to call on 
the gentleman from Colorado, Jared Polis.
    Mr. Polis. Thank you, Mr. Chair.
    And thank you to all of you who help inform our process as 
we take on the very important task of hopefully leading to the 
reauthorization of and improvement in WIA.
    I have a few sets of questions. My constituents in Colorado 
care a lot about green jobs. In fact, 3 weeks ago, the Boulder-
based American Solar Energy Society released a report that said 
renewable energy and energy efficiency industries represent 
more than 9 million jobs as of 2007. The renewable energy 
industry grew three times as fast as the U.S. economy with the 
solar, thermal, photovoltaic, biodiesel and ethanol sectors 
leading the way, each with 25 percent-plus in annual growth.
    In my district alone, there are currently 2,405 green jobs, 
according to a survey, and according to the U.S. Conference of 
Mayors over the next two decades there could be 19,003 more 
jobs created in my district. Rather excitingly, more than $5 
billion in venture capital was invested in clean energy 
technology industries in 2007, which represents one-fifth of 
all venture capital investment in North America and Europe.
    President Obama focused much of his campaign on a new 
energy plan for America that would help create five million new 
jobs by strategically investing $150 billion over the next 10 
years to catalyze private efforts to building clean energy in 
the future.
    My question in this area for you both relates to green jobs 
as well as, more generally, what is being done or what should 
be done and can be done to effectively track the types of jobs 
that we are building capacity in and training people in to 
match the future needs of the economy and the workforce?
    To a certain extent, if we are training for just where 
there is demand today, we will always be chasing the present 
time. We need to prepare. When you are investing in education 
and investing in preparing somebody, even if they are 30 or 40 
years old, they are preparing for a 20-year career, 30-year 
career. If they are younger, it is even a longer career.
    So if any of you would care to address ideas about ways we 
can track the best estimates and scientific analysis of the 
future needs of the workforce to building capacity in our 
programs today?
    Mr. Camp. Well, Mr. Polis, one of the ways we do that in 
Sacramento is by creating what we call a jointly administered 
apprenticeship program. Let's take solar installations. So when 
the employer has 50 percent of the votes about who gets hired 
to teach the program, they are going to make damn sure that the 
right skills and insight and level of sophistication is 
obtained before they are going to hire somebody to do the job. 
The other half of the vote is held by the union, who wants to 
make sure it is somebody that is good at teaching these 
particular workers.
    So you end up with a program that is good at teaching the 
workforce, but is also cutting edge, because that is the only 
way you are going to compete in an emerging industry like solar 
installation. And that is going to change. There is no question 
about putting in tiles instead of panels will sweep through at 
some point, or maybe some other innovation, and the question 
is, do we have an established program in which the employer has 
the authority to dictate what the subject matter is.
    So we find that our jointly run programs provide us with 
that, and we are transferring doing that in medical care. Now, 
as medical care changes, it is not so much on target with 
regard to green energy, although there is a lot of need for 
green energy in the hospital system. So as we develop new jobs 
in the medical delivery system, there is a jointly run program 
that drives both the quality of the teaching and the quality of 
the technical knowledge that has to be obtained. I think that 
is the best system we have designed so far.
    Ms. Gonzalez. Mr. Polis, if I may, what you are really 
speaking to here is an issue of what we would call a business 
intelligence system that finds a way to meld both worker, 
worker information, worker skills, as well as business needs. 
Not only for today, but what kind of business need might I 
have, whether it be in a green job or any other for that 
matter, tomorrow, 5 years and 10 years down the road.
    Earlier we spoke to the point of career pathways and local 
control. The issue here is, how do we identify transferable, 
transportable skill sets that can then be matched not only to 
one particular sector, but to others? The Federal Department of 
Labor does not have a system, this is my understanding, does 
not have a true system in which they manage that kind of data 
nationally. So if you are speaking about a true business 
intelligence system where both the consumer, being the folks 
that use our end product, as well as our folks that we are 
training could learn, could access, could gather information 
from, that does not exist.
    The State of Texas has something that we have been working 
on called the WIT, Workforce Information System, and then some 
of us on different boards have developed our own business 
intelligence systems using a CRM model, a customer relations 
model.
    But nationally, sir, there is no database, and I am looking 
at my partners here on the panel, that identifies or that can 
meld, if you will, worker skill sets for each individual area 
as well as business needs.
    Chairman Hinojosa. The time has expired.
    I would like to at this time recognize the gentlewoman from 
Hawaii, Mazie Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    I thank Ms. Gonzalez. You really expressed that really well 
because we are in an environment now where the future workforce 
needs are changing. It doesn't make a lot of sense to me that 
we would be spending money to train people for very specific 
kinds of jobs that are not going to exist, so the 
interchangeability of skills, all of that I think is really 
important.
    Then Mr. Bahr, you talked about lifelong learning. I do 
think at the foundation of a lot of this is we need a trained 
workforce that begins to have the opportunity to have 
appropriate educational opportunities at a very young age, 
because as things are changing. If they have had the 
opportunity, for example, for a quality early education, that 
really sets the stage for success in school and in life. I 
think that is something that we ought to be looking at, and I 
am a big proponent of quality early education and the whole 
continuum of preparing our people for not just work but for 
success in life.
    I have had some experience with WIA money that came to 
Hawaii. I sat on a panel or a board for like a year or two, and 
I really was confused as to what they were doing, because there 
didn't seem to be any blueprint, standards. Some of you 
mentioned that. There didn't seem to be a way for us to report 
out. Then the big concern was what happens when the Federal 
grant money ends and this all comes to a screeching halt. So at 
the State level where all this money is going, and it is all 
supposed to be handled there, I really had serious questions 
about it. And to be sitting here at this end and listening to 
you, I see that that concern has still not been addressed.
    So this is a chunk of money. I am looking at over $5 
billion that goes in every fiscal year for WIA programs. I 
think we need some help from you all as to how it is that we 
get a handle on the reporting, the accountability, some kind of 
standard. Is that what we need to start with? Something that 
that provides a uniform way for States to figure out what they 
should be doing with this money, because otherwise it is just 
money down the drain.
    Anybody care to respond?
    Mr. Camp. What we use is the EDD data about their income, 
6, 12 and 18 months down the road. So if a worker comes in and 
gets training and is getting $8,000 a year more in income a 
year from now, something good happened, and we will take the 
credit for it. If the worker is not showing that kind of an 
increase, then let's don't do that anymore. Let's go to that 
service provider and say, your training program was no good, 
and we have had to do that.
    I think there is another issue, though, that I thought you 
were raising, which is, how do we prepare people for work at an 
earlier age? And what we have done is something that I believe 
is unique in Sacramento, that we call Careers GPS--we use the 
GPS out of the geographical positioning system--in which we 
have identified for the 75 largest industrial sectors 80 
percent of all the jobs that are going to be created in the 
next 10 years. And in fact, we can predict a lot of those jobs.
    Maybe I can't tell you exactly, but I can tell you for a 
six-county area how many engineers we are going to need pretty 
close, enough so it can give somebody some good guidance. So we 
have developed a computer base that, for our labor market area, 
what kind of training you have to have to apply for this job, 
the name, address and phone number for the person that provides 
it, how much money you are going to make when you get the job, 
what you are expected to do when you show up for work, and what 
kind of training you are going to get once you have been hired. 
So we want to drive this down into the seventh grade, as low as 
the seventh grade level, and I assuming the seventh graders can 
use computers better than an old guy like me, but we also make 
it available to all of our work-stop centers, all of our laid-
off workers. Because what we want to do is be able to say to 
people, if you live within 50 miles of this center, here is 
what is going to happen over the next 10 years. If you are 
thinking you are going to be a professional basketball player, 
and there is only be going to be 12, you better get a back-up. 
That is what the purpose of that is.
    Ms. Hirono. Yeah, I was getting at really preparing people 
very early on. It is not just for jobs. It is really 
attitudinal. It is that whole developmental part of an 
individual that we have to pay attention to, and as far as I am 
concerned, it starts in preschool and even before that. And I 
would like to see a lot more recognition of the importance of 
those foundational resources that we provide really early on as 
a way for us to prepare people for working and life. And by the 
time you all get these people that need retraining, maybe they 
will have a much better foundation on which you can train them. 
So that was my point. I think you all seem to be agreeing that 
that is important.
    Thank you, Mr. Chairman.
    Chairman Hinojosa. Thank you.
    At this time I would like to recognize the gentleman from 
Connecticut, Joe Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Again, I think the 
timing of this hearing could not be more critical, with the 
economic crisis we are going through and a vote to take place 
within hours in terms of the programs that these people are 
connected with.
    I want to compliment the chamber for stepping up and 
supporting the President in support of H.R. 1, because these 
programs obviously are desperately shorthanded.
    I was at the Connecticut WIA offices the last week or two. 
You really did sort of get the feeling you are at a Katrina-
level event in these unemployment offices and these one-stop 
offices with the volume that is sort of coming through. Again, 
they do a very good job of trying, as Ms. Elzey indicated, to 
tailor their training programs to what is going on out there in 
the Connecticut economy. But it does kind of feel like the 
moorings are coming loose with the storm that is out there 
right now.
    Mr. Bahr, I was wandering if you could, with a little bit 
of perspective having been at this awhile and seeing past 
recessions, just sort of give your sort of perspective about 
where we are right now, and really, are these programs that I 
think are sort of designed for a normal business cycle going to 
be overtaxed and overwhelmed by an economy that has lost almost 
4 million jobs in the last 13 months, and it doesn't seem like 
there is any light at the end of the tunnel right now?
    Mr. Bahr. It is one thing to talk about what we have to do 
with public education, and we need to do. If we look at 1983, 
the Nation at Risk told us if we don't fix our public education 
system, we will not be able to compete globally. Now it is 25 
years later, we have fallen further behind. So what you have 
said about working with the young people today and fixing 
public education so that when they go through high school they 
have a direction, that does not deal with today's problem and 
the problem of the next 10 years.
    President Obama hopes, and we all hope, that H.R. 1 is 
going to produce somewhere between 3 and 4 million jobs. Are we 
sure that we have trained workers to fill some of those jobs 
that hopefully will come out of the stimulus bill and the high-
tech end? I am not so sure.
    As I said earlier, a majority of the workforce in 2020 is 
already employed, and as the Baby Boomers start to leave and 
you still have part of this 88 million undereducated, the 
majority of the workforce would continue to grow with an 
average under-educated workforce.
    Now, adult ed has to be looked at as the third leg of the 
process, and we specifically call for it to be spoken about as 
adult education and skills development. They are one and the 
same. It is my experience that virtually every worker can be 
trained to do higher skilled work. They have got to be 
encouraged. All the systems have to be in place. There has to 
be a total collaboration at the local level with the city or 
county between business and labor. The community colleges play 
an enormous role, and there is no substitute, in my judgment--
when I go back, what the charge to the Commission for Lifelong 
Learning was, how do we change the culture of our Nation from 
K-12 to lifelong learning?
    As true as it was 10 years ago, and President Clinton put 
it, I think it was the 1999 State of the Union message, he 
addressed this, the more people we have educated in the arts 
will be the more people that have the flexibility to deal with 
oncoming technology, to deal with the high-performance 
workplace.
    We are not going to be successful with a low-skill/low-wage 
economy. A solution and our only salvation is a high-skill/
high-wage economy, and all of our education facilities have to 
be directed in that line. And I think we have the capability to 
do it. I am amazed with the work that our commission did over 2 
years.
    It is kind of interesting, you look at so many 
commissions--I served on them--adult ed became a footnote. I 
was on the Commission for the Upgrade of the Skills of the 
American Workforce. You look at the great report we put out in 
2007. It dealt 90 percent with the people that you are talking 
about at the lower education level. It only dealt with 10 
percent of the people in the workforce today. So it was Ray 
Marshall, former Secretary of Labor, at the very first meeting 
of this commission that said we have to make sure that we are 
not a footnote, but that we are zeroing in on adult education 
and what has to be done to reach these vast numbers. The 
numbers are not going to get better. We are only reaching 3 
million a year, and if half of that are dropouts from high 
school, it is like being on a treadmill going nowhere.
    Chairman Hinojosa. The gentleman's time has expired.
    I would like to now call on the gentlewoman from Nevada, 
Dina Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Members of the panel, I would like to address my question 
to Mr. Wooderson. As you can tell by the attention you have 
received on today's hearing, often the programs for the 
disabled get the short end of the stick. We have stuck it out 
though, so I could ask you this question.
    The statistics that you mentioned about the unemployment 
rates for the disabled are just striking. They are shameful 
really, but they are striking. And we know that a lot of people 
on those lists really want to go to work, and they could be 
successful if they were given the opportunity.
    I think that the waiting lists that are there now reflect 
that desire. They are long to start with, and they are going to 
get even longer, partly due to the Americans with Disabilities 
Act that focuses on immersion in the community as opposed to 
institutionalization, and also because now there is so much 
more competition from people who are unemployed who don't have 
disabilities. And we know how those prejudices work.
    I want to add to your list of accomplishments a program in 
Nevada called Opportunity Village. It is a program that is a 
public-private partnership. It is funded by all different 
levels of government. It has a very successful campaign going 
with big billboards with a little piece of paper that says, 
which one was shredded by the disabled person? And that kind of 
says it all. I think that is important.
    We know these programs work. You mentioned that they pay 
for themselves. They put more money on the tax roll. They get 
more people off of public assistance.
    What can we do better? Think outside the box. Besides just 
money, is it online courses? Is it better incentives for 
business to participate? What can we do to make these programs 
fill the increasing need?
    Mr. Wooderson. Well, thank you, Ms. Titus, for the 
acknowledgment, first of all, of the program. Specifically in 
the public VR program, in the last couple of years, we really 
have emphasized trying to link across State lines, because we 
have been working in silos for so long. The Council of State 
Administrators initiated a program that we call The Net where 
we are linking employers that have representation in a number 
of States providing them with information about the value added 
of employing individuals with disabilities, and we are seeing 
great success with that. It is in pockets around the country. 
We have actually been able to work with the Federal Government, 
been seeing a great response from like the Internal Revenue 
Service. We are working with companies like Walgreens, Safeway; 
companies that have an existence all over.
    So if we can continue that type of new initiatives to 
inform employers first of all that we do have people that can 
work, they want to go to work, we can include them in 
understanding that we can access services across State lines, I 
believe that is one of the biggest things that we can do in 
addition to increasing the dollars that are available, of 
course, to continue providing high-quality types of training 
for persons with disabilities.
    We know that folks with disabilities are often the last 
into the employment marketplace and the first out when times 
get tough. So we have got to push on the high wages, as Mr. 
Andrews was speaking earlier about. We have to identify access 
issues that allow individuals to get into those programs, and 
we believe that will make a great difference in being able to 
get folks to competitive, gainful employment.
    Ms. Titus. If there are some legislative changes that we 
need to make in the statute, would you get those to us so we 
can try to help you accommodate those things? Because not only 
does it make good economic sense, it is ethically the right 
thing to do, because we all benefit from everybody being able 
to reach their potential.
    Mr. Wooderson. Yes, ma'am. You can expect immediate follow 
up. Thank you.
    Ms. Titus. Thank you, Mr. Chairman.
    Chairman Hinojosa. Thank you.
    I am now going to call on the gentleman from Oregon, 
Congressman David Wu.
    Mr. Wu. Thank you very much, Mr. Chairman. I have spoken 
with the workforce investment folks at home and also with a 
number of the community colleges, both that I represent and 
that are in the other four congressional districts of Oregon, 
and it is no surprise that they all say in economic times like 
these that enrollment in your programs and in theirs goes up 
significantly.
    Can you, to the best of your efforts, try to quantify or 
give us percentages about how much additional demand you all 
experience and to the best of your ability estimate that for 
the community college programs also?
    Mr. Camp. I can give it to you later. I can't give it to 
you today.
    Ms. Gonzalez. Mr. Wu, let me tell you that we have a strong 
relationship with your workforce community in eastern Oregon. 
We are a mentor board to the eastern Oregon area.
    Mr. Wu. Would that be Blue Mountain Community College, or 
one of the others?
    Ms. Gonzalez. I knew you were going to ask that.
    Mr. Wu. That is all right. We can get that at a different 
time.
    Ms. Gonzalez. I will say to you, again, I will get that 
information to you. But more importantly, what we see as folks 
coming in to our workforce one-stop centers are absolutely 
incredible in numbers. I will also say to you that our 
community college has gone from 800 students to 22,000 students 
in the last 15 years, a huge increase in the last 3 years 
alone. I can get those numbers for you. The same is true for 
our 4-year institution, University of Texas at Pan American. So 
I can get that data for you.
    But I will say you are absolutely correct, both for 
workforce services as well as training services, support 
services, any kind of support services that our workforce board 
can offer. The need far surpasses what we currently have. Our 
workforce board alone lost $20 million in funding in the last 5 
years. Not because of any other reason except that cutbacks and 
rescission; $20 million, 46 percent of our dislocated worker 
funds, dislocated worker funds, was cut last year alone.
    Mr. Wu. Anybody else want to address this in terms of the 
percentage increase in demand as our unemployment goes up by 2, 
3, 4 or more percentage points?
    Mr. Camp. I have it for UI claims, the people going into 
the one-stop centers. We have a 61 percent increase in UI 
claims in will California. We have normally now 1 million 
visits annually to one-stop centers, and we think there will be 
a 60 percent increase over that 1 million visits over this next 
year.
    Mr. Wu. Anybody else?
    Ms. Johnson. I might add we have not seen the increase yet, 
and we don't think we have seen the increase because people are 
receiving extended unemployment insurance benefits. They have 
not hit at a point where semesters or terms are occurring to 
where they can get into school, and we have a limitation on how 
much we can pay based on the availability of funding. So if 
that person does not have extra income coming in, we have not 
seen the increase. It may happen, but at this point in time, 
the increase as far as the number of clients that we are seeing 
going into training to the community college is not occurring.
    Mr. Wu. So just as employment tends to be a lagging 
economic indicator, when unemployment occurs, for your centers, 
it pretty much lags the numbers by a significant period also?
    Ms. Johnson. It hasn't in previous high times of 
unemployment. But for the current situation, we have--I mean, 
our unemployment claims, they are out the door. We have 500 or 
600 people standing in line every day. But the number of people 
going into training at the community college is not increasing 
at this point in time. It may, but it has not yet.
    Mr. Wu. Do you have any other explanations or theories 
about why that might be?
    Ms. Johnson. Not yet. We are continuing to look at it, 
because we are concerned that we are not meeting the needs at 
this point in time. But it is not occurring.
    Mr. Wu. Mr. Chairman, I know my time has expired, but if I 
could ask one further question of the panel?
    Chairman Hinojosa. I will give you an additional minute.
    Mr. Wu. Thank you very much. Could you address the issue, 
as the demand goes up, what is your surge capacity with your 
current resources, both assets on the ground and money, and 
what do you need to accommodate the surge, the potential surge, 
if it does come?
    Mr. Wooderson. Mr. Wu, from the Vocational Rehabilitation 
Program standpoint, we find right now, as I was mentioning 
earlier, 36 of our programs already have a waiting list. And we 
know that over 35,000 individuals are waiting to get in the 
door.
    So what it really boils down to for us is it is not just 
the money itself; it is the capacity to serve those who come 
through the door. So, for us, it really does mean a matter of 
expanding our ability to have professionals on the front line 
being able to meet those needs and then accessing programs out 
in the community to be able to achieve those high-quality jobs.
    Mr. Camp. Mr. Wu, we have had, during the holiday period, 2 
million calls a day to our UI Claims Office. It takes people 
sometimes calling 20 times before they can ever get anybody to 
answer the phone. If you are not really good at waiting on the 
phone, you are not going to get your unemployment insurance.
    So the real answer is this phone system, it has created an 
enormous crisis. People are not getting their unemployment 
insurance because they call and call and call and call and 
nobody answers the phone because they are overwhelmed. And they 
can't go in; it is illegal. So they have to either go by 
computer--and everybody doesn't have a computer.
    So, in terms of the way the UI claims system works, it is 
an enormous failure. It is all automation.
    Mr. Wu. Thank you for that information. That is very 
helpful. And hopefully we can act on it and help the folks out 
there in need.
    I try to reach some folks by phone these days, and it just 
doesn't work. And then I have to ask my son for help in getting 
on the laptop.
    Chairman Hinojosa. Congressman Wu, you have asked some very 
good questions that hopefully our staff is going to continue to 
try to find answers to, because the numbers are continuing to 
grow at 500,000 to 600,000 jobless per month. So we definitely 
have to answer those.
    As we try to bring this to a close, I wanted to ask if each 
of the members of this panel would consider giving us in 
writing an answer to this question that I am going to give you. 
And that is: How can workforce centers work in conjunction with 
the community colleges nearest to them so as to be able to more 
effectively use the stimulus money that is in this $789 billion 
over 2 years that is going to be available, a good part of it 
going toward retraining those that are jobless?
    And I am of the opinion that the community colleges are 
great engines to help revitalize the regions with the highest 
unemployment rate. As we already learned, in some cities in 
California they are already at 20, 30 percent unemployment, and 
there are States that are already at 15 percent unemployment. 
So we have a very serious problem.
    And I think that you all have made some good points. I like 
what Mr. Bahr said about the importance of not just having 
training for what used to be a good job last century, but going 
into community colleges and, with some help, being able to get 
an associate degree that would pay livable wages.
    I am a strong proponent of community colleges, but I think 
that, in order for them to be successful, they need to have a 
closer relationship with your centers, because you have 
resources, both human and financial resources, that need to be 
leveraged with what we give the community colleges.
    So, with that, I want to request unanimous consent that two 
documents that I have in my hands be entered into the record of 
this hearing. And the first document is submitted by David 
Harvey, president and CEO of ProLiteracy, and it is the 
testimony regarding aspects of adult education. The second 
document in my hands is that from Ronald G. Congleton 
commissioner representing labor, and his testimony on the Texas 
Workforce Commission. Hearing no objection, it will become part 
of the record.
    [The information follows:]

  Prepared Statement of David C. Harvey, President & CEO, ProLiteracy

    Mr. Chairman and respected members of the Subcommittee, ProLiteracy 
submits this written testimony as part of the Subcommittee on Higher 
Education, Lifelong Learning, and Competitiveness hearing on New 
Innovations and Best Practices Under the Workforce Investment Act 
(WIA). We regard this as preliminary testimony and respectfully request 
an opportunity to testify and participate in future hearings and the 
drafting stages of a reauthorization bill, addressing the needs of 
lowest-level adult learners and community-based organizations.
    I would like to briefly introduce ProLiteracy, the problem of adult 
literacy in America, the role that community-based organizations play 
in educating low-level adult learners, and briefly mention some of 
ProLiteracy's highest-priority policy concerns related to WIA 
reauthorization.

ProLiteracy
    ProLiteracy Worldwide is the world's oldest and largest 
organization of adult literacy and basic education programs in the 
United States. ProLiteracy traces its roots to two premiere adult 
literacy organizations, Laubach Literacy International and Literacy 
Volunteers of America. Laubach Literacy International was founded by 
missionary and adult literacy pioneer Dr. Frank C. Laubach more than 70 
years ago. During his work with native Muslim tribes in the 
Philippines, Dr. Laubach pioneered literacy teaching methods--the 
ability to read, write, and perform basic math functions--as a way of 
helping to lift people out of poverty. His philosophy of ``each one, 
teach one'' is based on using former adult learners to tutor others in 
their community. When Ruth Johnson Colvin learned in the mid-1960s that 
a significant number of adults in her Syracuse, NY community could not 
read, she founded Literacy Volunteers of America. Her program used 
trained volunteers to tutor adults in one-on-one settings. In 2002, 
Laubach Literacy International and Literacy Volunteers of America 
merged to create ProLiteracy.
    ProLiteracy now represents over 1,200 community-based organizations 
and adult basic education programs in the United States, and we partner 
with literacy organizations in 53 developing countries. In communities 
across the United States, these organizations use trained volunteers, 
teachers, and instructors to provide one on one tutoring, classroom 
instruction, and specialized classes in reading, writing, math, 
technology, English language skills, job-training and workforce 
literacy skills, GED, and citizenship. Our members are located in all 
50 states and in the District of Columbia. Through education, training 
and advocacy, ProLiteracy supports the frontline work of these 
organizations through regional conferences and other training events, 
credentialing, and by publishing materials and products used in 
teaching adults basic literacy and English as a second language and 
preparing adults for the U.S. citizenship and GED exams. We gather and 
disseminate evidence-based practices in adult literacy instruction.

The Problem of Adult Literacy in America
    In 2003, the U.S. Department of Education conducted the National 
Assessment of Adult Literacy (NAAL) in order to gauge the English 
reading and comprehension skills of individuals in the United States 
over the age of 16 on daily literacy tasks such as reading a newspaper 
article, following a printed television guide, and completing a bank 
deposit slip. The results indicated that 30 million adults--14 percent 
of this country's adult population--had below basic literacy skills; 
that is, their ability to read was so poor, they could not complete a 
job application without help or follow the directions on a medicine 
bottle. An additional 63 million adults read only slightly better.
    The high percentage of low-literate adults can be connected to 
almost every socioeconomic problem this country faces. Adults who 
struggle to read are unhealthier than others, and they use hospitals 
more often. Low literacy adds an estimated $238 billion to this 
country's health care costs each year. An estimated 60 percent of 
federal and state prison inmates are barely literate. And struggling 
readers are more likely to be unemployed and require public assistance.
    These are people who, through no fault of their own, did not learn 
to read and write as children. They are people like Carl Solberg, a 
dyslexic who never learned to read until age 42. With the help of the 
tutors and staff at a ProLiteracy member program, Carl earned his high 
school diploma. He continued to work with his tutor and three years 
later, he earned state certification as a teacher's aide. He now works 
in the same high school from which he dropped out.
    And there's Melanie Abney, who grew up in a home where drugs were 
more important than education. She followed the family pattern--out of 
high school before graduation and into dealing drugs. She became 
involved in a literacy program while in jail and continued to be 
tutored after her release. She now is the office manager for the 
literacy program that helped her change her life.
    Amie Colley left high school in the ninth grade, unable to 
recognize all the letters of the alphabet. She entered a literacy 
program at a third grade reading level. Two tutors discovered a reading 
program that works for Amie, who now hopes to earn her GED and someday, 
go to college.

Community-Based Literacy & Basic Education
    In 2007--2008, ProLiteracy's member programs assisted nearly 
200,000 adults struggling to improve their literacy skills. More than 
half these individuals--62 percent--were tested at the beginning to low 
basic literacy skill level. This means that approximately 120,000 
students in ProLiteracy's member programs had reading, writing, and 
comprehension skills equal to those of first, second, third, and fourth 
graders. At these literacy levels, these individuals would not be 
eligible for the GED preparation classes offered by more traditional 
adult basic education programs. ProLiteracy member programs serve as an 
important entry point into the literacy and adult basic education 
system in the United States for lowest-level learners requiring 
intensive one-to-one and classroom instruction before graduating to 
more advanced programs.
    ProLiteracy member programs provided student instruction with the 
assistance of more than 117,000 trained volunteers. The seven million 
hours of time donated by these volunteers are vital to student success, 
as many of our programs cannot afford to pay full- or part-time 
professional teachers. Only 55 percent of ProLiteracy member programs 
access state and federal funding under Title II of the Workforce 
Investment Act--the Adult Education and Family Literacy Act.

The Workforce Investment Act
    In order for literacy and basic education programs to be eligible 
for WIA Title II funding, they must meet eligibility requirements as 
determined by the National Reporting System for Adult Education (NRS), 
developed by the U.S. Department of Education's Division of Adult 
Education and Literacy (DAEL). The NRS addresses such issues as the 
intensity and duration of instruction and the learner outcomes that 
must be achieved within specific time frames, outcomes such as finding 
a job and leaving welfare, getting a new job, earning a high school 
diploma or GED, or entering postsecondary training.
    ProLiteracy supports these goals and we support an accountability 
system for programs; however, revisions to the system are needed in 
order to adequately evaluate community-based organizations and the 
lowest-level learners they serve.
    Much of ProLiteracy's work with its member programs, in fact, deals 
with accountability and program improvement. Students enter our program 
with goals of finding jobs, getting better jobs, and earning a GED. 
When they enter with Level 2 ability, however, it is not likely that 
goal will be achieved within the frameworks of the NRS.
    As this subcommittee begins the work of updating and reauthorizing 
the Workforce Investment Act, ProLiteracy urges its members to consider 
all the needs of a diverse adult literacy and basic education system. 
The system is not just diverse in that the goals of the administering 
states differ; it is diverse in the needs of the people that it serves. 
Adults at the lowest level need the additional time and individualized 
instruction that volunteer-based programs can offer so that they will 
be ready for the higher-level instruction available in traditional ABE 
classes. The volunteer-based programs serve as a feeder system to the 
ABEs in the same way that the ABEs feed students into postsecondary 
education.
    Mr. Chairman, in any Workforce Investment Act reauthorization bill 
that is considered by Congress, we strongly recommend that the needs of 
America's lowest-level learners not be forgotten or abandoned. We owe 
the 1 in 7 adults in America who are in need of adult literacy and 
basic education the chance at a better future.

Preliminary Reauthorization Recommendations
    ProLiteracy supports the recommendations for changes to Title II 
made by the National Coalition for Literacy, and we support aspects of 
the work of the National Commission on Adult Literacy. In particular, 
we support the National Coalition for Literacy's call for a revision of 
the NRS as an effective means of measuring the outcome of programs 
working with adults at the lowest levels. These recommendations are 
initial steps in considering the unique needs and contributions of 
ProLiteracy's constituents. In addition to the Coalition's 
recommendations, ProLiteracy's specific priority concerns include:
    1) The standards by which student progress is measured and programs 
deemed effective must consider the variables of student literacy level 
upon entering a program, student learning styles, current abilities, 
and life challenges.
    2) That State Leadership Activities include appropriations for 
``professional capacity-building development for staff and tutors of 
adult basic education and volunteer- and community-based organizations 
* * *''
    3) That ``levels of performance measures for eligible providers 
must include consideration for the additional time and resources 
required by those providers serving adults * * * who have minimal 
literacy skills.''
    4) That wording regarding ``direct and equitable access'' to 
funding and ``intensity and duration'' of instruction be clarified and 
modified so as to be applicable to the unique services offered by 
community-based organizations.
    5) That local programs and adult learners have a strong role in 
determining how programs are planned, administered, and evaluated.
    In support of the issues identified above, ProLiteracy identified 
the following policy principles to guide reauthorization:
    1. Adult literacy and basic education are fundamental human rights.
    All adults in the United States who need adult literacy and basic 
education services should have access to instruction in the local 
communities where they live and work. Supporting these services will 
require a significant increase in federal, state, and local funding to 
support these educational services.
    2. Adult learners--new readers, those transitioning to higher 
education, and everyone in between--need access to a continuum of adult 
literacy and basic education services.
    Adult literacy and basic education comprise a comprehensive 
continuum that includes reading, writing, English language learning, 
using computers and other technology, numeracy, GED, and other 
instruction.
    3. Adult literacy and basic education programs and services should 
be learner centered.
    Adult literacy and basic education programs should be tailored to 
meet the needs and circumstances of the learners they serve. 
Instruction should support students' learning styles, challenges, and 
abilities. Programs should coordinate their services with the broad 
range of other services that adult learners may participate in, such as 
social, mental health, and disability services, including case 
management.
    4. The Adult Education and Family Literacy Act should ensure the 
widest-possible access to federal and state funding mechanisms by local 
volunteer and adult education programs in order to serve the diverse 
needs of adult learners.
    Program requirements and evaluation methods should be flexible to 
meet the varying capacities of local volunteer and adult basic 
education programs. If provisions related to ``direction and equitable 
access'' and ``duration and intensity of instruction'' continue in 
federal law, a broad-range of success indicators and outcome measures 
must be guaranteed so that programs have access to funding and are able 
to document the full range of literacy services that they provide.
    5. Local programs and adult learners should have a strong role in 
determining how programs are planned, administered, and evaluated.
    The Adult Education and Family Literacy Act is a partnership 
between federal, state, and local governments and local programs. 
Programs and services will be most successful when service providers 
and adult learners participate with government in planning and 
evaluating the adult literacy and basic education system.
    6. A federal adult literacy and basic education interagency council 
should be created to ensure coordination of literacy and adult basic 
education policy and programs within the federal agencies responsible 
for public health, immigration, disability, financial literacy, and 
other related programs. A similar requirement should be made for state-
level interagency coordination.
    Many federal agencies are involved in various aspects of adult 
literacy and basic education. Similarly, adults participating in 
literacy and basic education often have multiple needs and participate 
in other publicly funded services. Federal and state agencies 
responsible for these services must coordinate policy and programs to 
eliminate conflicting eligibility requirements and other barriers to a 
local comprehensive, seamless service systems for adult learners.
    7. Local programs that are successful in moving students through 
the system--from emergent to advanced levels--should get funding and 
other incentives, including direct federal funding to local programs to 
assure a variety of delivery systems to meet learner needs.
    Programs should create and be rewarded for efforts to create a 
seamless, learner-centered, local adult literacy and basic education 
system. This will make it possible for learners to move in and out of 
the system as their needs and circumstances dictate while they are 
acquiring the combination of skills and education they need to succeed 
at home, in the workplace, and in society. Direct federal funding of 
local programs is a strategy to assure that diverse programs are 
available to meet learner needs and circumstances.
    8. Training and technical assistance and research to identify best 
practices and program models must be supported.
    Local adult literacy and basic education programs need access to 
best practices for program design and instructional methods and to the 
technical assistance grants that will enable them to build their 
capacity, design innovative programs, support anti-stigma programs and 
campaigns for adult learners, and address other needs.
Conclusion
    Mr. Chairman and members of the committee, ProLiteracy looks 
forward to working with you and members of your staff to strengthen 
this vitally important piece of legislation to ensure that it addresses 
the needs of America's lowest-level learners and the unique needs of 
community-based organizations.
    Thank you for your consideration.
                                 ______
                                 

 Prepared Statement of Ronald G. Congleton, Commissioner Representing 
                   Labor, Texas Workforce Commission

    An unintended consequence of WIA has been an erosion of the 
relationship between unemployment insurance (UI) and the employment 
service (ES). Both funded from the same source, the two programs were 
designed to work together and have historically done so with great 
success. UI pays benefits to those with significant work histories who 
are temporarily unemployed while ES assists in finding them new work. 
Effective employment service reduces the amount of time it takes to 
find a new job, thus lessening the strain on unemployment trust funds 
and the taxes of employers who fund it. Working in tandem, the two 
programs effectively bridge rough spots in the economy for workers and 
communities.
    In Texas, the linkage between UI and ES was badly weakened by the 
simultaneous creation of One-Stop centers and withdrawal of UI staff 
from local communities to remote call centers. Any reauthorization of 
WIA should strive to rebuild the bridge between the programs. This can 
be done without large scale changes, simply by strengthening the role 
of ES in the One-Stops and coordinating policy with the UI program.
    In the early 1990's, Texas had the one most effective and efficient 
employment services in the country. Each town had an unemployment 
office run by the state's employment security agency where people who 
had lost jobs could file claims for unemployment benefits and get job 
search assistance. In addition to helping claimants find work, ES was 
able to verify that claimants were in fact searching for work, one of 
the core eligibility criteria for receiving unemployment benefits.
    ES performance decreased with the advent of WIA. While part of this 
was due to the removal of unemployment insurance staff to call centers, 
certain aspects of WIA administration in Texas have exacerbated the 
problem. Minor changes and fine-tuning of WIA could reverse this trend 
and improve services for the unemployed while saving taxpayer dollars.
    WIA created a network of local workforce boards overseeing One-Stop 
centers throughout Texas. The One-Stops provide information and 
services to impoverished adults and youth, dislocated workers and other 
classes of disadvantaged individuals. WIA, TANF and Food Stamp 
Employment and Training programs are collocated with ES in the One-
Stops, but UI is not. This has eliminated day to day interaction 
between UI and ES, with the latter now aligned more closely with WIA, 
TANF and Food Stamps.
    There has been a resulting shift in focus in the local employment 
offices, now renamed as One-Stops, from working people to welfare 
recipients. For all the success that the local boards have had in 
moving people off of welfare rolls and into entry level jobs, emphasis 
on those with a long attachment to the labor force, such as UI 
claimants, has decreased. The needs of those temporarily out of work 
are different from those with little or no work history, but once the 
unemployment insurance program was removed from the One-Stops, there 
was little impetus to focus on clients not tied to the funding streams 
supporting the centers.
    A change in the management model of ES accelerated the trend. 
Although ES is still nominally a state-run program in Texas, day-to-day 
direction and control has been ceded to the individual workforce boards 
and their contractors. As a practical matter, an ever-changing group of 
private contractors have had hiring and firing authority over the ES 
state workers in the One-Stops. In addition to creating instability in 
the ranks of ES workers, this has led to ES workers being directed more 
toward the programs funding the One-Stops: primarily WIA, TANF and Food 
Stamp Employment and Training.
    The Texas Workforce Commission has attempted to address the lack of 
focus on UI by imposing performance criteria on the local boards 
relating to reemployment of UI claimants. Lacking experience with UI 
claimants, the response of local boards has been to treat them as they 
do their other targeted populations, despite the differences inherent 
in these groups. Laid-off workers and unemployment claimants come with 
a variety of skills, experience and education; by definition they have 
a long-term attachment to the labor force. Unfortunately, the One-Stops 
tend to view them as just another disadvantaged client: rather than 
cultivate better job postings and concentrate on matching them with the 
particular and unique skills of each individual, the One-Stops have 
adopted a cookie cutter approach to placement. Arbitrary work search 
requirements are assigned without regard to experience, profession or 
job availability, and the quality of job placement has diminished.
    This blurring of the lines between WIA targeted groups and the 
general population is not the fault of the local workforce boards. 
After all, transitioning welfare clients and low-income people into 
work has been both their focus and their source of funding. Since the 
boards neither administer nor receive funding for UI, it is unfair to 
impose UI performance criteria on them.
    To rectify these problems, ES should be reoriented toward the 
general population and given the authority to resume its historical 
role as the public labor exchange. ES staff could then monitor the work 
search efforts of UI claimants, provide basic job matching services and 
handle all basic intake and evaluation functions of the One-Stop.
    Reemphasizing ES would also eliminate a design flaw of WIA, namely, 
the unnecessary replication of ES services under WIA. Title I of WIA 
created three levels of service delivery: core, intensive and training. 
Core services are such things as intake, evaluation, and job search 
assistance--precisely the same services historically performed by ES. 
Combining WIA core service with ES would eliminate this redundancy and 
allow WIA resources to be devoted entirely to intensive services and 
training. Intake and basic job-matching would be performed by ES 
uniformly across the state, but training and intensive services would 
be customized by the workforce boards as local conditions require.
    In order to achieve efficiency of scale and assure consistency of 
service, ES should once again be managed by the Texas Workforce 
Commission. As interdependent programs, ES and UI require a high level 
of coordination that is difficult to achieve when the one program is 
run by the state and the other by 28 different entities. Moreover, 
since both programs are required to be staffed by state merit system 
employees, delegating direction and control to private contractors is a 
complicated and unwieldy process. The simple solution is to reunite ES 
and UI as coordinated state-run programs.
    The results of a recent DOL evaluation support strengthening ES at 
the state level. DOL compared the traditional state-run ES with pilots 
in Colorado, Massachusetts and Michigan, where merit-system 
requirements were relaxed to allow alternative service delivery. There 
were large reductions in the numbers of job openings listed in the 
pilot sites, with the One-Stops concentrating on serving the 
disadvantaged by obtaining job listings tailored to the skills of low-
income job seekers. The traditional public labor exchange staffed by 
state merit-system employees was found to be significantly more cost 
effective.
    We should learn from this lesson in reauthorizing WIA. Local input 
and control in the design and implementation of job training and 
services for the disadvantaged is a critical piece of the puzzle, but 
so is maintaining a robust statewide labor exchange program. A job 
seeker should be able to receive the same high quality of service 
anywhere in the state, and ES should provide seamless, well integrated 
statewide services that can follow a job seeker who re-locates. 
Likewise, UI claimants should be held to the same standards regardless 
of the location in Texas where they reside. Uniformity, consistency and 
accountability will increase across the board if ES is strengthened and 
once again oriented toward the general population.
    The public still thinks of the One-Stop as the employment office. 
With the economic downturn, laid off workers are flooding the One-Stops 
looking to file unemployment claims. They are surely shocked to 
discover that these offices are no longer equipped to take their 
claims. At best, they can use a computer to attempt to file on-line; at 
worst, they are merely given a phone number to call, a phone number 
that may give them nothing but a busy signal. This is not a sustainable 
system. Strengthening ES, reestablishing its historical relationship 
with UI and orienting the One-Stops back toward the larger population 
of unemployed workers is critical in rebuilding the workforce. 
Reauthorization of WIA is an opportunity to achieve this, and I 
encourage the committee to consider these suggestions.

    Ronald Congleton, the Commissioner Representing Labor, is one of 
the three commissioners of the Texas Workforce Commission. He 
respectfully submits this statement on prospective changes in 
provisions of the Workforce Investment Act.
                                 ______
                                 
    Chairman Hinojosa. And I am going to give an opportunity to 
Ranking Member Guthrie to make his request.
    Mr. Guthrie. Thank you, Mr. Chairman.
    I ask unanimous consent to submit the Government 
Accountability Office's report, report number 071096, for the 
record.
    Chairman Hinojosa. No problem. It will be made part of the 
record.
    [The GAO report, ``Workforce Investment Act: One-Stop 
System Infrastructure Continues to Evolve, but Labor Should 
Take Action to Require That All Employment Service Offices Are 
Part of the System,'' submitted by Mr. Guthrie, may be accessed 
at the following Internet address:]

                http://www.gao.gov/new.items/d071096.pdf

                                 ______
                                 
    Chairman Hinojosa. And I want to thank each and every one 
of the presenters for coming this afternoon and being so 
generous with your time, allowing us to build up our record as 
we try to find ways in which we can try to make this 
reauthorization one that will be very effective and be able to 
give us the results that we need to be able to use the money 
effectively and make our country a better place to raise our 
families. Once again, I thank you.
    And any member who wishes to submit follow-up questions in 
writing to the witnesses should coordinate with majority staff 
within the requisite time.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Hinojosa, for holding this important hearing on 
best practices under the Workforce Investment Act (WIA).
    Since 2007, our country has lost more than 3.6 million jobs. We 
cannot ask American workers to wait any longer for an update to our 
country's workforce investment system. In one month, we shed almost 
600,000 jobs and the unemployment rate has surged to 7.6 percent. This 
week, Congress will send to the president an economic recovery package 
that will both stimulate our ailing economy in the short term as well 
as lay the groundwork for a stronger economy in the future. Included in 
the recovery package is a multi-billion dollar investment in job 
training to help place workers in emerging industries--a critical first 
step in getting our economy back on track.
    I look forward to working with the Chairman on the reauthorization 
of WIA this year. As he mentioned, it was last reauthorized in 1998 and 
is long overdue for reauthorization. It is my hope that over the next 
few months, we will have more hearings like this one so that we can 
hear from all points of view about what works and what we need to do to 
improve WIA to ensure that it is working.
    Thank you again, Chairman Hinojosa, for holding this hearing. I 
yield back the balance of my time.
                                 ______
                                 
    [Additional submission by Mr. Hinojosa follows:]

        Prepared Statement of National Council of State Agencies
                          for the Blind, Inc.

Reauthorization of the Rehabilitation Act core principles and 
        priorities
    1. Maintain the Rehabilitation Act as a distinct title within the 
Workforce Investment Act with a separate and distinct funding stream. 
Historically, individuals with disabilities have not fared well in 
generic service delivery systems. To allow diversion of funds 
appropriated to disability programs and intended to benefit disabled 
job seekers, to workforce programs not intended for people with 
disabilities would result in this population being more isolated and 
less involved in the mainstream of America's workforce.
    2. Create a separate funding stream to support infrastructure costs 
of operating the one-stops. At present vocational rehabilitation funds 
are severely limited. An increasing number of state agencies have 
established waiting lists of individuals in urgent need of vocational 
rehabilitation services. Diverting service dollars to pay the 
infrastructure costs of the one-stops will reduce the number of 
individuals served by the vocational rehabilitation program. As an 
alternative, we recommend that infrastructure funding be made a 
separate line item within The WIA rather than taxing service dollars 
from each of the partner programs.
    3. Maintain the Rehabilitation Services Administration (RSA) 
Commissioner as a presidential appointee requiring Senate confirmation. 
Any reduction in the status of the RSA Commissioner will further 
deemphasize the importance of the vocational rehabilitation program 
within the Department of Education and the Congress. Downgrading the 
Commissioner will reduce the ability for the designated head of the 
vocational rehabilitation program to advocate for the employment and 
independent living needs of adults with disabilities.
    4. Maintain the option for states to have a separate agency for the 
blind. Current research and performance standards indicate that people 
who are blind are more successful when served by vocational 
rehabilitation agencies for the blind. The ability of states to submit 
a state plan to specifically serve people who are blind through a 
distinct designated state unit for the provision of such services is an 
important element in the concept of consumer choice and flexibility.
    5. Most consumers who are blind would prefer to receive vocational 
rehabilitation services from professionals trained to work with persons 
who are blind and from agencies specializing in this service area. 
Additionally, the NCSAB urges the support for specialized services for 
the blind through expanded funding of innovative training programs in 
blindness rehabilitation.
    6. Homemakers should continue to be recognized as a successful 
vocational rehabilitation closure. Homemakers have been viewed as 
contributing members to society, often providing invaluable support 
within a household allowing other family members to pursue gainful 
employment. We believe that ``homemaker'' as a vocational goal should 
be better defined within the Act and regulations. Such a definition 
would increase the likelihood that persons choosing a vocational goal 
of homemaker would receive appropriate related services.
    7. Preserve the provision in the Act to provide independent living 
services to individuals who are blind over age 55 (Title VII, Chapter 
2) through the designated state unit for vocational rehabilitation. 
Title VI1, Chapter 2 must remain separate and distinct and not be 
included in the State Plan for Independent Living.
    8. Amend the formula for the distribution of funds under Title V11, 
Chapter 2. Our organization would like to see assurances in the 
Rehabilitation Act for minimal COLA increases to all states when 
additional funds are appropriated for Title VII, Chapter 2 and see the 
base award for each state raised to $350,000.
                                 ______
                                 
    [Question for the record and the subsequent responses 
follow:]

                                     U.S. Congress,
                                           [VIA FACSIMILE],
                                 Washington, DC, February 17, 2009.
Mr. Morton Bahr, President Emeritus,
Communications Workers of America, National Commission on Adult 
        Literacy, Washington DC.
    Dear Mr. Bahr: Thank you for testifying at the February 12, 2008 
hearing of the Committee on Education and Labor on ``New Innovations 
and Best Practices Under the Workforce Investment Act.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:
    1. How can the Workforce Investment Act partners work with the 
Community Colleges near them to use the newly designated economic 
recovery package funding for training programs?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
February 24, 2009--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

       Mr. Bahr's Supplemental Material Submitted for the Record

    1. The National Commission on Adult Literacy, in its final report, 
``Reach Higher, America,'' recommends serving 20 million adults by 
2020. How can we afford enough teachers and staff to serve so many 
people, and how can we expect so many to enroll in programs?
    Answer: The Commission recommends the use of technology on a 
dramatically increased scale. Along with a major infusion of new funds, 
both public and private, this is a significant part of the solution. 
Although the Commission's report made its technology recommendation in 
general terms, the Council for Advancement of Adult Literacy (CAAL), 
the follow-up agent for the Commission, has begun a project that will 
have precise recommendations by late summer. Until we have the results 
of that work, we can't provide specific advice, but we have made some 
preliminary suggestions, on request, to some House staffers. On the 
second part of the question, new kinds of public awareness activities 
will be needed to motivate students and the general public. CAAL will 
undertake a project in the coming months to begin the preliminary 
planning for the public awareness campaigns that will eventually be 
needed. In addition, in the new WIA legislation being drafted now in 
response to the Commission's report, the federal government would 
provide encouragements to the states to develop appropriate public 
awareness activities as part of their own comprehensive planning for 
adult education and workforce skills development.
    2. The commission recommends readiness for entering college and job 
training programs as the primary educational outcome of the new adult 
education system. How will we know when ``readiness'' has been 
achieved?
    Answer: The Commission recommends close partnerships with business 
as well as collaborations between all kinds of adult education and 
training providers, including community colleges and community-based 
organizations. These groups need to work in concert at national, state, 
and local levels to identify workforce needs, design programs to meet 
them, and assess whether workforce readiness has been achieved. In 
fact, the Commission recommends that, as a condition of financial 
support for low-skilled adult education programs, the new Adult 
Education and Economic Growth Act require the states to formulate plans 
to do this. Improved labor market research at the national level is 
also important. Also, some valuable tools are available to help assess 
``readiness.'' For example, Workforce Certifications are under 
development by the National Association of Manufacturers (in 
cooperation with ACT) and by the U.S. Chamber of Commerce (building on 
work begun at NIFL). The CASAS Workforce Skills Certification System is 
also coming into use. Further, the National Center for Education and 
the Economy, with which CAAL is doing some follow-up work and which is 
the base for the work of the New Commission on Skills of the American 
Workforce, will shortly release a ``down-in-the-weeds'' book on what 
state and local programs and planners need to know and do to implement 
readiness activities and standards. In addition, the new legislation in 
development, which the Commission hopes will fundamentally reform 
elements of WIA having to do with adult education and workforce skills, 
should make some provision for research and development in the 
workforce certification area.
    3. Many recent reports from leading research organizations stress 
the need to improve the skills of the American workforce. How do the 
recommendations of the National Commission on Adult Literacy differ?
    Answer: All of the major Commission studies on lifelong learning 
and human resource development for national economic purposes have 
recognized the importance of adult education, but it has not been a 
primary focus of their work. In fact, at the very first convening of 
the National Commission on Adult Literacy, one member, former Secretary 
of Labor Ray Marshall, commented that while adult education was in the 
footnote of all the important reports, the Commission needed to make it 
the main focus of OUR work and get it up out of the footnotes. The 
focus of most of the reports to date have been on improving the K-12 
and postsecondary systems, and linking the two. The Commission thinks 
these recommendations are high priorities, but we found that, even if 
implemented, they would not have a large impact on the skills of the 
American workforce for decades to come. This is because of the 
demographics: the vast majority of the American workforce in 2020 and 
well beyond will consist of today's adults who are beyond the reach of 
the schools and postsecondary education. A large percentage of them 
lack the skills to enter postsecondary education or job training. 
Hence, to create the competitive workforce that everyone believes we 
need, it's essential to invest in adult education programs that provide 
pathways to training and college. Our Commission's work has filled a 
gap that others have not filled, and we have assurances from many 
organizations across the country that they agree with our conclusions 
and support the direction of our recommendations. Incidentally, those 
recommendations have even greater urgency today, at a time when the 
recession has created millions of displaced workers--many in low-
skilled fields such as construction. In short, the Adult Education and 
Workforce Skills System we propose must be recognized as an essential 
partner in our national education reform efforts if we are not to leave 
behind many millions in our workforce.
    4. Is the skills gap really that important?
    Answer: The pervasive basic skills problem is critical to our 
economy and to workforce preparation, and we do not have an adequate 
system for dealing with this problem. In addition, the current WIA is 
not adequate in structure, funding, or implementation. The Commission 
has proposed legislation (and is working on it with House leaders now) 
that we hope will create an Adult Education and Workforce Skills System 
largely through major changes in WIA. The goals are to establish new 
educational outcomes for services; connect adult education, workforce 
skills, and other relevant entities in planning and service provision 
at all levels; and have verifiable performance outcomes geared to 
``readiness'' for postsecondary education and job training. [NOTE: 
There were reform aspects in the current WIA Title I and II programs, 
but they have not gone far enough or have often not been enforced. As 
currently structured and funded, WIA is not adequate to the job we need 
to do now because the times have changed profoundly since it was 
created. The Commission looked specifically at WIA Title II (which 
encompasses the entire Department of Education adult education 
program), and at the four adult education programs of WIA Title I: 
adult education, dislocated worker program, Trade Adjustment 
Assistance, and out-of-school youth. In this reform effort, it is 
highly important to overcome silo and fragmentation problems that 
plague current federal efforts by connecting relevant federal adult 
education programs, especially the WIA Title I and II programs, which 
provide most of the service.]
    5. Can we actually train low-skilled workers for high skilled jobs? 
How do we know?
    Answer: Yes. We know we can do it. Both the Commission and various 
resource organizations (such as CAAL, the Center for Law and Social 
Policy, and Jobs for the Future) have identified, studied, and profiled 
scores of programs in all parts of the country that do this effectively 
right now. For example, Washington State's I-Best program (one of those 
profiled by the Commission), provides community college-based dual 
instruction programs that teach basic and vocational skills 
concurrently. This program greatly reduces the time it takes to move 
adult learners up their career ladders. The common principles behind 
this and other programs are well understood--and about to be set forth 
in a new report from the National Center on Education and the Economy. 
The problem is that there are too few resources, and federal barriers 
stand in the way of taking these local efforts to scale. Also, both the 
federal government and the states must coordinate better the efforts of 
education and training programs (not just WIA Title I and II, but also 
TANF, corrections education, and others) and link them to needs of 
employers. The Commission's report proposes measures to overcome these 
problems.
    6. What explains the low number of adults currently enrolled in 
adult basic education and ESL programs?
    Answer: Given the limited resources available in most states, the 
adult education system has provided a significant level of service, 
especially for ESL populations. And there are long waiting lists for 
service on all fronts. However, most states have not fully implemented 
WIA Title II provisions for workplace basic skills instruction. The 
Adult Education and Workforce Skills System called for in Reach Higher, 
America will require much more attention to workforce skills needs and 
certification. The Commission believes that the demand for adult 
education and workforce skills services will skyrocket and that program 
outcomes will be greatly improved if federal and state policy creates 
clearer pathways to better jobs and results in higher incomes and 
family-sustaining wages.
    7. How will the commission's proposals create jobs?
    Answer: The Commission's recommendations are an essential pre-
condition to creating new jobs. New jobs can't be created if workers 
with appropriate basic skills aren't available. Many corporations are 
grappling with this problem. AT&T is one important, highly publicized 
example. Another is the Dollar General Corporation. The former CEO and 
chairman of Dollar General (lead funder of the Commission's work) spoke 
about this problem in that company several times during the 
Commission's deliberations. A comprehensive workplace skills program 
would be very supportive of workforce and economic development 
programs. Also, many more adult education jobs will be created by the 
new System, including instructors, counselors, program directors, and 
planners.
    8. In what Federal department are adult education and basic 
literacy programs most appropriately based?
    Answer: The Commission took no position on this issue. Members 
believe that the emphasis should be on interagency collaboration rather 
than moving boxes around on the federal organization chart, in the 
process creating unnecessary turf wars. The adult skills problems cut 
across the interests and domains of many federal departments. The 
Department of Education, under any scenario, has basic responsibility 
for community colleges, higher education generally, the schools, 
vocational training, Pell grants, and many other programs that must be 
coordinated to create effective career pathways. The Department of 
Labor has some adult education services, as identified by the 
Commission. The challenge is not to shift them elsewhere but to connect 
them in more productive ways with those of Education. The Department of 
Health and Human Services will continue to have responsibility for 
TANF, which must also be linked to career pathway programs. Joint 
planning and coordination should be the priority.
    9. The commission referred to the fastest growing occupations in 
its report. why is that important?
    Answer: The latest information available from the Bureau of Labor 
Statistics is from 2006. It needs updating and doesn't capture 
``green'' jobs and more recent trends. But, according to the BLS: By 
most accounts, even in the recession, there is still a growing demand 
for large numbers of workers in all aspects of healthcare, personal 
services, and education nationwide, as well as demand in a wide range 
of occupations within local labor markets. And the Economic Stimulus 
package intends to stimulate demand in construction and many sectors. 
At present it is difficult to forecast the long-term trends. But the 
essence of the Commission's recommendations is that a career pathway 
system should be created that can respond quickly and flexibly to 
whatever workforce demands emerge in local labor markets in the years 
to come.
    10. What is the commission's core Federal recommendation?
    Answer: The Adult Education and Economic Growth Act is at the core 
of the Commission's recommendations. This Act needs to focus on the 
unemployed; low-skilled incumbent workers; immigrants with limited or 
no English; parents or caregivers with low basic skills; incarcerated 
adults; high school dropouts; and high school graduates not ready for 
college. These people are our parents and family units, aspiring new 
citizens, our neighbors, and both future and incumbent workers. [NOTES: 
(1) In this period of economic emergency, many millions of displaced 
workers have low basic skills and must be retrained for today's 
available jobs and jobs of the future, such as ``green jobs.'' (2) We 
need to be careful how we apply the term ``training,'' which usually 
refers to people at higher educational levels rather than the millions 
at the center of the National Commission's concerns whose basic skills 
need upgrading. Retraining cannot alone be effective unless we 
recognize the importance of upgrading adults with low basic skills and 
unless we have the resources and system to improve the basic skills of 
displaced workers to the levels required.]
    11. How does the commission define basic skills?
    Answer: For purposes of the new Act, the Commission believes that 
the current definition of ``basic skills'' needs to be redefined. It 
will not be enough in the new Adult Education and Workforce Skills 
System we recommend to provide instruction in basic reading, writing, 
math, and ESL. Such basics as how to communicate, acquire information, 
think critically, solve problems, use technology, and work in teams 
need to be part of the equation to achieve ``readiness.'' This is one 
of the reasons that adult education groups (including community 
colleges) and workforce development groups must work more closely 
together.
    12. What is the state role in the commission's call for reform?
    Answer: For federal leadership to deliver, the Act must require 
states to connect all key state interests (adult education, community 
colleges and postsecondary education generally, workforce skills, youth 
policy, and others) in comprehensive planning so as to coordinate and 
align systems consistent with their postsecondary education, workforce, 
and economic development goals. It will be vital in many cases for 
governors' offices to be involved, and for authority for the required 
planning to actually be set into state legislation.
    13. In the commission's plan, what entites have responsibilities 
for delivering instructional services?
    Answer: Community colleges, which now provide about one-third of 
adult education services in the nation, must step more to the forefront 
and be funded to do so. But all types of provider organizations are 
essential to the combined effort, including community-based and 
voluntary organizations, school districts, higher education 
institutions generally, business and labor, correctional education 
programs, family literacy groups, student alliances, and others--and 
they also need new and better resources to fill their roles. The big 
challenge is to ``connect the dots'' among these groups. If the 
Commission's recommendations to break down the fragmentation and waste 
created by silos are acted on, these groups will necessarily have to 
work much more together. Beyond that, technology, including distance 
learning, must also be deployed on an unprecedented scale, for 
instructional purposes and also to help meet program management and 
data collection needs.
                                 ______
                                 
                                     U.S. Congress,
                                           [VIA FACSIMILE],
                                 Washington, DC, February 17, 2009.
Mr. Bill Camp, Executive Secretary,
Sacramento Central Labor Council, AFL-CIO, Sacramento, CA.
    Dear Mr. Camp: Thank you for testifying at the February 12, 2008 
hearing of the Committee on Education and Labor on ``New Innovations 
and Best Practices Under the Workforce Investment Act.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:
    1. How can the Workforce Investment Act partners work with the 
Community Colleges near them to use the newly designated economic 
recovery package funding for training programs?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
February 24, 2009--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

        Mr. Camp's Response to Question Submitted for the Record

    I am responding to the question raised at the committee and 
reiterated in your February 17, 2009 letter: ``How can the Workforce 
Investment Act partners work with the Community Colleges near them to 
use the newly designated economic recovery package funding for training 
programs?''
    In Sacramento we have already established close working 
relationships with the Los Rios Community College District which covers 
our entire WIB jurisdiction.
    Within the last 3 years, the employer community in response to the 
Sacramento WIB questionnaire stated specific ``soft'' skills which they 
considered of first importance in hiring new employees. The community 
college staff in coordination with the Sacramento WIB developed a 
course curriculum that when successfully completed would earn a ``Ready 
to Work'' certificate which the unemployed or underemployed worker 
could take to any employer when they applied for a job. When tracking 
the wages earned by these successful graduates of the ``Ready to Work'' 
classes showed an $8,000.00 annual increase in income. We are 
interested in broadening these classes into the high school system in 
preparation for those students who do not see themselves as 4 year 
college applicants.
    In addition, the Sacramento WIB is currently contracting with our 
community colleges for classes for utility workers who are needed by 
Pacific Gas and Electric and other utilities to replace a well paid 
unionized workforce that is currently retiring. We are currently 
training highway construction pre-apprenticeship workers who will be 
doing the highway construction work in the stimulus bill. In addition, 
we are training solar installers for the contractors who are working 
with our local public utility in installing solar panels. Lastly, the 
Sacramento WIB are training ``clean diesel mechanics'' who will be 
replacing retiring Union mechanics who work for the Sacramento Regional 
Transit Agency.
    The Sacramento WIB will scourer the stimulus plan for opportunities 
to work with our local community colleges in developing courses 
pertinent to applicants seeking opportunities in these stimulus funded 
activities. To the degree that the ``ARRA'' includes authorization for 
local WIB's to contract for training with community colleges, 
apprenticeship and other training providers, the Sacramento WIB will 
work for every opportunity to enroll unemployed job seekers needing 
skills and development.
    Thank you for the opportunity to respond. I would be glad to share 
any additional details that might interest you.
                                 ______
                                 
                                     U.S. Congress,
                                           [VIA FACSIMILE],
                                 Washington, DC, February 17, 2009.
Ms. Karen R. Elzey, Vice-President and Executive Director,
Institute for a Competitive Workforce, U.S. Chamber of Commerce, 
        Washington, DC.
    Dear Ms. Elzey: Thank you for testifying at the February 12, 2008 
hearing of the Committee on Education and Labor on ``New Innovations 
and Best Practices Under the Workforce Investment Act.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:
    1. How can the Workforce Investment Act partners work with the 
Community Colleges near them to use the newly designated economic 
recovery package funding for training programs?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
February 24, 2009--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

       Ms. Elzey's Response to Question Submitted for the Record

    Question posed by Rep. Ruben Hinojosa, Chairman, Subcommittee on 
Higher Education, Lifelong Learning, and Competitiveness of the House 
Committee on Education and Labor: How can the Workforce Investment Act 
partners work with the Community Colleges near them to use the newly 
designated economic recovery package funding for training programs?

    Over the past months, the United States has experienced a serious 
downturn in our economy and extraordinary turbulence in our financial 
markets. Millions of Americans are anxious about whether their skills 
are going to provide them with job opportunities in a volatile economic 
landscape. Community colleges play a crucial role in preparing workers 
with the skills demanded by employers in the evolving global economy. 
In the short term, meeting the needs of newly unemployed workers is the 
most urgent challenge.
    Community and technical colleges working in collaboration with the 
public workforce system and the business community, including chambers 
of commerce which represent hundreds of local businesses, are 
positioned to provide the most advanced, flexible, and market-driven 
education and training. There are several ways that Workforce 
Investment Act partners can strengthen their relationship with 
community colleges under the American Recovery and Reinvestment Act of 
2009 (ARRA):
    <bullet> Contract directly with community colleges for training: 
The American Recovery and Reinvestment Act of 2009 provides an 
additional $2.95 billion to the Workforce Investment Act. Specifically, 
the bill ``provides the authority for local Workforce Investment Boards 
(WIBs) to contract with institutions of higher education and other 
eligible training providers as long as the authority is not used to 
limit customer choice.'' This provides an excellent opportunity for 
local WIBs to expand workforce training opportunities with community 
colleges. However, it must be ensured that the WIBs do not limit other 
training providers such as career colleges from offering services.
    <bullet> Provide training for middle-skill jobs: Roughly half of 
all occupations in today's labor market are classified as middle skills 
jobs--those requiring more than a high school diploma but less than a 
bachelor's degree. Yet, a large percentage of the population doesn't 
possess the education and training to obtain these jobs. Additional 
funding in programs such as Adult Services and Dislocated Workers 
allows for community colleges to work in collaboration with the 
workforce investment system and the business community to retrain and 
upgrade the skills of the current workforce. The training should be 
targeted for occupations that are in demand or are expected to grow.
    <bullet> Support high growth industries and sector-based 
strategies: The American Recovery and Reinvestment Act of 2009 provides 
an additional $750 million in training for high growth industries. This 
initiative targets investments for public private sector partnerships 
to develop training programs in high demand occupations. As part of 
this program community colleges have and can continue to play a key 
role in both developing these programs and providing skills training.
    In a country as diverse and complex as ours, we must rely on a 
system of affordable, accessible community colleges to serve as 
gateways to further education and quality job opportunities.
                                 ______
                                 
                                     U.S. Congress,
                                           [VIA FACSIMILE],
                                 Washington, DC, February 17, 2009.
Ms. Bonnie Gonzalez, Chief Executive Officer,
Workforce Solutions, Inc., Lower Rio Grande Valley, McAllen, TX.
    Dear Ms. Gonzalez: Thank you for testifying at the February 12, 
2008 hearing of the Committee on Education and Labor on ``New 
Innovations and Best Practices Under the Workforce Investment Act.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:
    1. How can the Workforce Investment Act partners work with the 
Community Colleges near them to use the newly designated economic 
recovery package funding for training programs?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
February 24, 2009--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

      Ms. Gonzalez's Response to Question Submitted for the Record

    1. How can the Workforce Investment Act partners work with the 
Community Colleges near them to use the newly designated economic 
recovery package funding for training programs?
    As an ``early implementer'' of WIA in 1998-1999 the State of Texas 
quickly achieved consolidation of twenty-eight (28) separately funded 
employment and training programs under one (1) entity--the Local 
Workforce Investment Board (LWIB) and established the delivery of 
services through a One-Stop Service model. The major services 
consolidate include, Employer/Business, Employment and Re-Employment 
Services to unemployment insurance claimants. This consolidation 
included not only services but the wealth of data of each.
    As the only state approved provider of One-Stop Services through 
its Workforce Solutions Centers, Workforce Solutions, Inc. (the Lower 
Rio Grande Texas LWIB) connects employers with job seekers and through 
this connection and dialogue identifies the needs of both; our 
Community Colleges are our partners in providing solutions.
    As a LWIB we can work with our Community Colleges as follows:
    <bullet> Convene Industry Leaders--both those affected by the 
current economy and those in the emerging industries to identify 
training needs for Community College training development
    <bullet> Conduct analysis of the current unemployed labor force to 
identify transferrable skills for rapid re-training
    <bullet> Provide Community Colleges with educational levels and 
training needs of the identified population most able to complete 
training and proposed timelines for completion
    <bullet> Recruit the necessary number of the unemployed to fill 
classroom and on-site training
    <bullet> Utilize WIA funds and seek competitive grants to pay a 
portion of the training
    <bullet> Provide Assistance in applying for and obtaining maximum 
amounts of available financial aid through workshops on proper 
application completion and timely submission
    <bullet> Provide supportive service in the areas of child care, 
transportation and training related equipment to enroll and maintain 
enrollment in training
    <bullet> Provide ``income maintenance'' employment to trainees to 
fill income gaps during training
    <bullet> Provide intensive counseling in family finance/budgeting 
and motivational activities
    <bullet> Develop incentives for obtaining training performance 
benchmarks which can reduce training costs
    <bullet> Provide tracking of and assessments of training delivery
    <bullet> Provide tracking of and effectiveness of training upon 
employment
    <bullet> Provide employment retention services
    Workforce Solutions, Inc. can contribute the above, at minimum, to 
work with our Community Colleges and our employers to implement the 
necessary actions needed to rapidly provide skills training that will 
return our labor force to productivity.
                                 ______
                                 
    [Graph provided by Ms. Gonzalez follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                     U.S. Congress,
                                           [VIA FACSIMILE],
                                 Washington, DC, February 17, 2009.
Ms. Sherry L. Johnson, Associate Director,
Lincoln Trail Area Development District, Elizabethtown, KY.
    Dear Ms. Johnson: Thank you for testifying at the February 12, 2008 
hearing of the Committee on Education and Labor on ``New Innovations 
and Best Practices Under the Workforce Investment Act.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:
    1. How can the Workforce Investment Act partners work with the 
Community Colleges near them to use the newly designated economic 
recovery package funding for training programs?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
February 24, 2009--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

      Ms. Johnson's Response to Question Submitted for the Record

    How can the Workforce Investment Act partners work with the 
Community Colleges near them to use the newly designated economic 
recovery package funding for training programs?
    Practitioner Response: The Lincoln Trail Workforce Investment Area 
and the Elizabethtown Community and Technical College (ECTC) have a 
long history of partnership and collaboration for addressing employment 
needs of the region. The current economic crisis in America allows us 
to build upon this relationship to expand training opportunities, both 
long and short term, but to look at the possibility of developing 
``refresher'' courses in subjects such as math, writing skills, 
introduction to computers, entrepreneurial, etc. Discussions will be 
held to expand training opportunities in high demand sectors in the 
local labor market--i.e., healthcare, information technology (as it 
relates to Fort Knox demands/needs), and service related occupations. 
This might include purchasing class-size projects.
    Past examples of our strong relationship with the community 
college:
    <bullet> Establishment of a healthcare career pathways program that 
is promoted nationally as a successful model for replication.
    <bullet> Establishment of the ``Options Workshops'' for dislocated 
workers. These workshops are above and beyond our normal rapid response 
activities. Community partners have included--KY Society for Financial 
Planners, a local financial planner, United Way, local Ministerial 
Association, etc. The college has also offered dislocated workers two 
non-credit courses for free.
    <bullet> Development of a youth career pathways project in high 
demand occupations in the local labor market.
    <bullet> Development of career pathways project at the request of 
the U.S. Federal Highway and Safety Administration and Kentucky Cabinet 
for Transportation. Project was replicated in two other areas across 
the state.
    <bullet> Assisted in the WIRED grant application process.
    <bullet> Developing web-based curriculum in response to U.S. Army's 
Human Resource Command needs--``Military 101'' and ``Introduction to 
Military Personnel Management''. Scheduled for launch in Spring 2009.
    It is important to recognize that ``training'' is not necessary for 
everyone and should not be the sole focus of our efforts. We need to 
consider other alternatives as well. Workshops on resume writing; 
interviewing skills; budgeting your finances, retirement, savings, etc. 
are vital tools for individuals as well.
    Quite frankly, the Elizabethtown Community and Technical College is 
not just important to our local workforce response during the current 
crisis but a vital partner each and every day. The success of our 
workforce efforts in the region have been and will continue to be 
addressed through the partnership we have with the college. Any time we 
have a new initiative, a plant closure/layoff, or any workforce related 
project--the very first call we make is to the college right across the 
street.
                                 ______
                                 
                                     U.S. Congress,
                                           [VIA FACSIMILE],
                                 Washington, DC, February 17, 2009.
Mr. Stephen Wooderson, State Administrator,
Iowa Vocational Rehabilitation Services, Des Moines, IA
    Dear Mr. Wooderson: 
    Thank you for testifying at the February 12, 2008 hearing of the 
Committee on Education and Labor on ``New Innovations and Best 
Practices Under the Workforce Investment Act.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:
    1. How can the Workforce Investment Act partners work with the 
Community Colleges near them to use the newly designated economic 
recovery package funding for training programs?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
February 24, 2009--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

     Mr. Wooderson's Response to Question Submitted for the Record

    Responding to: ``How can the Workforce Investment Act partners work 
with the Community Colleges near them to use the newly designated 
economic recovery package funding for training programs?''
    In Iowa we work extensively with the 15 community colleges in our 
state. In addition to continuing to build training apprenticeships for 
high demand-high skilled trades, I encourage partnerships that foster 
employment outcomes. I offer the following suggestion.
    In the Des Moines, IA IVRS has partnered with the Community College 
and Workforce Partners and developed a project with the following 
Purpose and Goals:
    <bullet> Purpose: To organize individual agency efforts into 
collaborative, proactive customer-based activity that leverages 
resources of each organization to improve access for persons with 
disabilities to the local labor market.
    <bullet> Goal 1--To increase outreach to business and industry 
through the delivery of technical assistance, consultation and training 
by the community college, vocational rehabilitation and Veterans 
Administration staff.
    <bullet> Goal 2--To bring the employment life and academic 
experience for students with disabilities into balance through 
practical application of learning
    <bullet> Goal 3--To increase the numbers of persons with 
disabilities employed on all campuses.
    The strategies developed through such a project have resulted in:
    <bullet> New relationships with local business and industry
    <bullet> Consultation and technical assistance to encourage 
business and industry to become ``disability friendly''
    <bullet> Development of new apprenticeship models
    <bullet> Increase in employment of persons with disabilities on the 
community college campus
    Thank you for the opportunity to respond.
                                 ______
                                 
    Without objection, this hearing is adjourned.
    [Whereupon, at 4:43 p.m., the subcommittee was adjourned.]


 NEW INNOVATIONS AND BEST PRACTICES UNDER THE WORKFORCE INVESTMENT ACT

                              ----------                              


                      Thursday, February 26, 2009

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2175, Rayburn House Office Building, Hon. Ruben Hinojosa 
[chairman of the subcommittee] presiding.
    Present: Representatives Hinojosa, Bishop of New York, 
Andrews, Wu, Davis, Fudge, Polis, Guthrie, McKeon, Biggert, and 
Roe.
    Staff present: Tylease Alli, Hearing Clerk; Adrienne 
Dunbar, Education Policy Advisor; David Hartzler, Systems 
Administrator; Fred Jones, Staff Assistant, Education; Jessica 
Kahanek, Press Assistant; Brian Kennedy, General Counsel; 
Ricardo Martinez, Policy Advisor, Subcommittee on Higher 
Education, Lifelong Learning and Competitiveness; Joe Novotny, 
Chief Clerk; Michele Varnhagen, Labor Policy Director; Margaret 
Young, Staff Assistant, Education; Stephanie Arras, Minority 
Legislative Assistant; James Bergeron, Minority Deputy Director 
of Education and Human Services Policy; Cameron Coursen, 
Minority Assistant Communications Director; Kirsten Duncan, 
Minority Professional Staff Member; Chad Miller, Minority 
Professional Staff; Susan Ross, Minority Director of Education 
and Human Resources Policy; and Linda Stevens, Minority Chief 
Clerk/Assistant to the General Counsel.
    Chairman Hinojosa [presiding]. A quorum is present. The 
hearing of the subcommittee will come to order.
    Pursuant to the Committee Rule XII, any member may submit 
an opening statement in writing which will be made part of the 
permanent record. I now recognize myself, followed by Ranking 
Member Brett Guthrie, for an opening statement.
    I want to thank everyone who is here this morning. I 
welcome you to the Higher Education, Lifelong Learning and 
Competitiveness Subcommittee second hearing in preparation for 
the reauthorization of the Workforce Investment Act.
    As with our first hearing, we are going to focus on new 
innovations and best practices that will improve the workforce 
development system. Each day, our task to renew the Workforce 
Investment Act grows more urgent.
    On Tuesday, President Obama called on all Americans to 
commit themselves to one year of college or post-secondary 
training. Last week, the president signed the American Recovery 
and Reinvestment Act to save or create 3.5 million jobs.
    With a nearly $5 billion investment in our job-training 
programs by the Department of Labor, this law places a specific 
priority on assistance that will offer family-sustaining wages 
to workers who have the greatest barriers to finding 
employment.
    Yet from our last hearing, we know that an estimated 80 
million to 90 million adults lack the basic education and 
skills to answer the president's call or to qualify for the 
jobs that will be created by the stimulus plan. According to a 
recent analysis by Anthony Carnevale at Georgetown University 
Center on Education and the Workforce, 54 percent of these jobs 
will require at least some post-secondary education, and high 
school dropouts will be eligible for only about one-fourth of 
those jobs that will available.
    We will have to call upon our workforce development system 
that is supported through the Workforce Investment Act to 
bridge that gap. This will require innovation and new 
approaches to delivering job-training and education.
    In recent years, the trends have not been positive for low-
income, low-skilled workers in the WIA system. According to an 
analysis by the Center for Law and Social Policy, the share of 
low-income participants who received intensive and training 
services under WIA dropped from 84 percent in the year 2000 to 
53.7 percent in the year 2007.
    Likewise, the share of workers with low levels of 
educational attainment who received intensive or training 
services dropped from 77.9 percent to 68.7 percent. We need to 
reverse those trends.
    However, there are examples of innovation and best 
practices across the country where job-training, education, and 
support services have been integrated into a system of career 
pathways that has enabled workers to complete secondary school, 
learn English, and earn a post-secondary credential, 
facilitating their entry into higher-skilled, higher-paying 
jobs. We need to build on those successes.
    A similar approach has shown promise with our youth 
programs. Under a reauthorization WIA, we have an opportunity 
to strengthen our youth programs to not only connect youth to 
the workplace, but also help them to establish lasting bonds to 
education and lifelong learning.
    Our witnesses today will share with us what practices have 
been most successful in their experience with the workforce 
investment system.
    I thank you for joining us. And I am looking forward to 
your testimony.
    I now yield time to the ranking member, Mr. Brett Guthrie 
of Kentucky, for his opening statement.
    Brett?
    [The statement of Mr. Hinojosa follows:]

 Prepared Statement of Hon. Ruben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelong Learning, and Competitiveness

    Good Morning. Welcome to the Higher Education, Lifelong Learning, 
and Competitiveness Subcommittee's second hearing in preparation for 
the reauthorization of the Workforce Investment Act. As with our first 
hearing, we are going to focus on new innovations and best practices 
that will improve the workforce development system.
    Each day, our task to renew the Workforce Investment Act grows more 
urgent.
    On Tuesday, President Obama called on all Americans to commit 
themselves to one year of college or postsecondary training.
    Last week, the President signed the American Recovery and 
Reinvestment Act to save or create 3.5 million jobs. With a nearly $5 
billion investment in our job training programs by the Department of 
Labor, this law places a specific priority on assistance that will 
offer family sustaining wages to workers who have the greatest barriers 
to finding employment.
    Yet from our last hearing, we know that an estimated 80--90 million 
adults lack the basic education and skills to answer the President's 
call or qualify for the jobs that will be created.
    According to a recent analysis by Anthony Carnevale at Georgetown 
University's Center on Education and the Workforce, 54 percent of these 
jobs will require at least some postsecondary education and high school 
dropouts will be eligible for only about one-fourth of them.
    We will have to call upon our workforce development system that is 
supported through the Workforce Investment Act to bridge that gap. This 
will require innovation and new approaches to delivering job training 
and education.
    In recent years, the trends have not been positive for low-income, 
low-skilled workers in the WIA system. According to an analysis by the 
Center for Law and Social Policy, the share of low-income participants 
who received intensive and training services under WIA dropped from 84 
percent in 2000 to 53.7 percent in 2007. Likewise, the share of workers 
with low levels of educational attainment who received intensive or 
training services dropped from 77.9 percent to 68.7 percent. We need to 
reverse those trends.
    However, there are examples of innovation and best practices across 
the country where job training, education, and support services have 
been integrated into a system of career pathways that has enabled 
workers to complete secondary school, learn English, and earn a 
postsecondary credential, facilitating their entry into higher-skilled, 
higher-paying jobs. We need to build on those successes.
    A similar approach has shown promise with our youth programs. Under 
a reauthorized WIA, we have an opportunity to strengthen our youth 
programs to not only connect youth to the workplace but also help them 
establish lasting bonds to education and lifelong learning.
    Our witnesses today will share with us what practices have been 
most successful in their experience with the workforce investment 
system.
    Thank you for joining us. I am looking forward to your testimony.
    I now yield to the Ranking Member, Mr. Brett Guthrie of Kentucky, 
for his opening statement.
                                 ______
                                 
    Mr. Guthrie. Thank you, Mr. Chairman. And thank you for 
calling this hearing on this such an important package that we 
are going to be working on throughout the spring and summer.
    In the last month, we lost nearly 600,000 jobs, and the 
number of unemployed workers grows with each day, and the need 
to help them find news job has never been greater.
    It has been more than a decade since federal job-training 
initiatives have been updated. With a changing economy and 
growing unemployment rates, the time to renew this legislation 
is now.
    We must be committed to a dynamic, results-oriented job-
training system that can effectively serve those looking for a 
job and those workers in need of retraining. The one-stop shops 
under the Workforce Investment Act are the best resource to 
provide this type of job-training.
    I am reminded of a story from a local official in my 
district that stresses the importance of these one-stop shops. 
In 2006, Judge Dave Hourigan, the Marin County judge executive, 
or our county's chief executive--we call them judges in 
Kentucky--saw the need to create a one-stop shop in his county.
    He understood the importance of consolidating services and 
developing a central place where people could go to access job-
placement information, education, and training, and other 
assistance, so the judge decided to make this a reality for 
Marion County. He worked with business and community leaders to 
find donated space to open the center. Then he worked to 
connect the center to local businesses and industry so that it 
could be more effective.
    Because of Judge Hourigan's commitment, Marion Countians 
now have a responsive centralized system in their backyard to 
provide valuable resources for both employees and employers. It 
is this type of commitment we need to make sure our workforce 
remains competitive.
    It is critical that we continue using the one-stop shop 
model to develop a workforce that meets our economy's changing 
needs. These centers are working well, and they are the key to 
providing Americans with better jobs and better lives and, in 
turn, providing America with a stronger workforce.
    However, we must continue to keep local workforce 
investment boards, including representatives from the business 
community, at the center of this process. These local 
businesses will create the new jobs that the center will help 
fill, so they must be at the center of the workforce system.
    As a former small businessman, I, like Judge Hourigan, 
recognize the need for a collaborative effort that includes 
businesses working with the one-stop shop to provide the best 
services for workers who need them.
    I look forward to today's testimony and learning more about 
the best practices and innovative ideas from around the country 
as we work to reauthorize this important legislation.
    Thank you, Mr. Chairman.
    [The statement of Mr. Guthrie follows:]

  Prepared Statement of Hon. Brett Guthrie, Ranking Minority Member, 
 Subcommittee on Higher Education, Lifelong Learning, and Competiveness

    Thank you, Mr. Chairman, for calling this hearing and I welcome our 
distinguished witnesses.
    Last month, we lost nearly 600,000 jobs. The number of unemployed 
workers grows with each day, and the need to help them find new jobs 
has never been greater. It has been more than a decade since federal 
job training initiatives have been updated. With a changing economy and 
growing unemployment rate, the time to renew this legislation is now.
    We must be committed to a dynamic, results-oriented job training 
system that can effectively serve those looking for a job and those 
workers in need of retraining. The one-stop shops under the Workforce 
Investment Act are the best resource to provide this type of job 
training system.
    I am reminded of a story from a local official in my district that 
stresses the importance of these one-stop shops. In 2006, Dave 
Hourigan, the Marion County Judge/Executive or the county's chief 
executive officer, in my home state of Kentucky saw the need to create 
a one-stop shop in his county. He understood the importance of 
consolidating services and developing a central place where people 
could go to access job placement information, education and training, 
and other assistance. So, the Judge decided to make this a reality for 
Marion County. He worked with business and community leaders to find 
donated space to open the center. Then, he worked to connect the center 
to local businesses and industries so that it could be more effective. 
Because of Judge Hourigan's commitment, Marion Countians now have a 
responsive, centralized system in their backyard to provide valuable 
resources for both employees and employers.
    It is this type of commitment that we need in order to make sure 
our workforce remains competitive. It is critical that we continue 
using this one-stop shop model to develop a workforce that meets our 
economy's changing needs. While these centers are working well, 
providing Americans with better jobs and better lives, and in turn, 
providing America with a stronger workforce, there is still work to be 
done.
    In our hearing two weeks ago, witnesses testified about concerns 
over the size of local workforce boards and urged us to maintain the 
business majority on those boards. It is clear that we must continue to 
keep local workforce investment boards, including representatives from 
the business community, at the center of our workforce development 
system. Local businesses will create the new jobs that one-stop centers 
will help fill, which is what makes this system an essential component 
of our country's economic growth. As a former small businessman, I, 
like Judge Hourigan, recognize the need for a collaborative effort that 
includes businesses working with the local one-stop shop to provide the 
best services for the workers who need them.
    I look forward to today's testimony and learning more about the 
best practices and innovative ideas from around the country as we work 
to reauthorize this important legislation.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Chairman Hinojosa. Without objection, all members have 14 
days to submit additional materials or questions for the 
hearing record.
    I would like to introduce our very distinguished first 
panel of witnesses here with us this morning. Welcome to each 
and every one of you.
    I wish to explain the lighting system. For those of you who 
have not testified before this subcommittee, allow me to 
explain our lighting system and the 5-minute rule. Everyone, 
including members, is limited to 5 minutes of presentation or 
questioning.
    The green light is illuminated when you begin to speak. 
When you see the yellow light, it means you have 1 minute 
remaining. When you see the red light, it means your time has 
expired and you need to conclude your testimony.
    Please be certain, as you testify, to turn on and speak 
into the microphone in front of you so that everyone can hear 
you.
    We will now hear from our first witness.
    I am going to introduce all three members of this first 
panel, and then we will get started with Ms. Keenan.
    Cheryl is the Director of the U.S. Department of 
Education's Division of Adult Education and Literacy in the 
Office of Vocational and Adult Education. In her role as the 
national director, she oversees the office which funds almost 
$600 million in state and local grant programs to enable adults 
to become literate and complete high school so they can succeed 
as workers, as parents and citizens.
    Prior to her appointment to this department, she served as 
the Pennsylvania State Director of Adult Education and 
Literacy. Ms. Keenan holds undergraduate and graduate degrees 
in the field of education. We are aware that your office is 
extremely busy during the transition, but we really appreciate 
your willingness to visit with us today and share your 
knowledge.
    Mr. George Scott, George is the Director of Education and 
Workforce and Income Security Issues for the U.S. Government 
Accountability Office. George has been a familiar and frequent 
witness before our committee, as well as an important 
contributor for several of our field hearings. He is 
responsible for overseeing the high-quality work the agency 
provides for our reports across a number of areas in our 
committee jurisdiction.
    He is a graduate of the University of North Carolina at 
Chapel Hill and has received several GAO management awards. In 
2003, he was the 2003 nominee for the William A. Jump Memorial 
Award for exemplary achievement in public administration.
    Welcome, Mr. Scott. And it is always good to have you 
before our subcommittee today, and we look forward to your 
remarks.
    Mr. John Morales is the Executive Director of the Yuma 
County Workforce Investment Board in Yuma, Arizona. John has 
over 30 years of experience in working in employment and 
training in economic development and behavioral health 
programs. Over the years, he has chaired numerous professional 
associations on workforce and economic development. And in 
Arizona, he was named to the governor's P-20 Council on early 
education through post-secondary alignment.
    He is a firm believer in lifelong learning activities, and 
I can only say that he has selected the right subcommittee in 
which to come and discuss lifelong learning.
    We welcome you, sir. We welcome Mr. Morales. We are happy 
to have you with us.
    We will now start with Ms. Keenan.

 STATEMENT OF CHERYL KEENAN, DIRECTOR OF THE DIVISION OF ADULT 
      EDUCATION AND LITERACY, U.S DEPARTMENT OF EDUCATION

    Ms. Keenan. Chairman Hinojosa and members of the 
subcommittee, I appreciate the opportunity to talk with you 
today about the federally funded adult education programs that 
the Department of Education administers and the significant 
role they can play in supporting America's economic recovery.
    Adult education is an important part of the Workforce 
Investment Act, and we appreciate your recognition of its role 
in helping adults to increase their literacy skills, to learn 
English, to transition to post-secondary education, and obtain 
jobs that pay family-supporting wages.
    I would like to note that the Adult Education State Grant 
Program is one of only six department programs to achieve an 
effective rating under the OMB PART review, which is designed 
to assess and improve program performance and identify program 
strengths and weaknesses.
    So who does this program serve? Adults eligible for 
services are at least 16 years old, are beyond their state's 
age for compulsory school attendance, are not enrolled in high 
school, and lack sufficient mastery of basic education or 
English proficiency.
    More than 2.3 million students enrolled in the adult 
education programs nationwide last year. Forty-five percent of 
those students enrolled in English literacy classes to improve 
their English proficiency. Forty-one percent enrolled in adult 
basic ed programs, which provides instruction to adults in 
reading and math below the eighth-grade level. And 14 percent 
enrolled in adult secondary programs which provide instruction 
between the 9th-and 12th-grade levels.
    Hispanics comprise the largest ethnic group enrolled in 
adult education, at about 44 percent, followed by whites, 
African-Americans, and Asians. Adult education programs serve a 
significant youth population, primarily high-school dropouts. 
Last year, more than one-third of students--or 850,000--
enrolled in adult education were between the ages of 16 and 24. 
Nearly 500,000 of these young learners had math and reading 
skills below the eighth-grade level.
    More than 1 million adults enroll in programs to improve 
their English proficiency. Three-fourths of these adults have 
English literacy levels at low-beginning to low-intermediate, 
indicating a significant need to improve both spoken and 
written English-language skills.
    Appropriations for the Adult Education State Grant Program 
have remained at approximately $650 million annually for the 
last 5 years. Federal dollars appropriated under AEFLA support 
adult learning through more than 4,100 providers nationwide. 
Slightly more than half of these are local education agencies; 
16 percent are post-secondary institutions; 21 percent are 
community-based organizations; and about 3 percent are faith-
based organizations.
    The law requires states to establish outcome-based 
accountability systems to determine the effectiveness of local 
providers in continuously improving adult education activities. 
Student outcomes that states report are on educational gains, 
attainment of a high-school diploma, entry into post-secondary 
education or training, obtaining and retaining employment.
    In the last 5 years, over 3.9 million enrolled adults, or 
almost 40 percent, have improved reading, math and English 
proficiency as a result of their enrollment in adult education, 
and 51 percent of the people who came with the goal of getting 
a GED were successful in achieving that goal. The program also 
helped over 600,000 people to get jobs.
    But many challenges still exist in the job market, where 
the bar for literacy skills that are required for family-
supporting wages is constantly being raised. Our federal-state 
partnership serves only a very small portion of adults who need 
literacy instruction, and America's high-school dropout rate is 
significant, and students who leave high school frequently look 
to adult education to provide the education and support they 
need to earn the secondary credential required for even the 
most basic employment.
    Adults need post-secondary credentials to obtain jobs that 
will allow them to feed their families and pay their mortgages, 
and yet 65 percent of adults have no associate or higher 
degrees. Immigrants need to learn English for employment and to 
participate in civic functions that are necessary for life in 
our democracy, yet one-third of foreign-born persons in the 
United States do not have a high-school diploma, and nearly 18 
million are limited in their proficiency in English.
    How is the department addressing these challenges? We have 
created initiatives designed to address the challenges facing 
adult education programs nationwide by enhancing teacher 
quality and stimulating development and innovation.
    In recent years, Congress has appropriated between $7 
million and $9 million for national leadership activities, and 
we use these funds to help address our current economic 
challenges.
    One such effort, the Adult Basic Education Career 
Connections project is expanding the pipeline to post-secondary 
occupational training by preparing low-skilled adults for entry 
into and advancement in high-demand employment based on 
regional economic needs.
    Several states have launched large-scale efforts to realign 
their adult education systems with these pathway models. The 
state of Washington has developed its I-BEST model that 
delivers English-as-a-second-language instruction integrated 
with occupational skills training.
    And states are also using funds available to them under 
their incentive grant program, section 503 of WIA, to support 
these efforts. For instance, Oregon has invested incentive 
money to connect its adult basic skills program to its post-
secondary pathways, and Ohio is involved in a similar effort.
    Chairman Hinojosa [continuing]. Conclusion, I would ask you 
to please do so, and be assured that I will include the entire 
statement into the record.
    Ms. Keenan. We are proud of our support for adult 
education, and I hope it can contribute to the success of 
America's recovery, especially in bringing basic literacy and 
English-skills training to low-income adults.
    Thank you for this opportunity to testify about the 
department's adult ed program, and we look forward to working 
with you to support the needs of adult learners. I am happy to 
respond to any questions.
    [The statement of Ms. Keenan follows:]

 Prepared Statement of Cheryl Keenan, Director of Adult Education and 
Literacy, Office of Vocational and Adult Education, U.S. Department of 
                               Education

    Chairman Hinojosa and Members of the Subcommittee, the Department 
appreciates this opportunity to talk with you about the federally 
funded adult education programs that the Department of Education 
administers and the significant role they can play in supporting 
America's economic recovery. Adult education is an important part of 
the Workforce Investment Act (WIA), and we appreciate your recognition 
of its role in helping adults increase their literacy skills, learn 
English, transition to postsecondary education, and obtain jobs that 
pay family-supporting wages. The Department very much looks forward to 
working with you to ensure that adult education programs continue to 
effectively prepare participating adults for employment and further 
learning.
    I am the director of the Department's Division of Adult Education 
and Literacy. Our division is housed in the Office of Vocational and 
Adult Education (OVAE). The division is responsible for the Adult 
Education State Grant Program as well as national leadership 
initiatives to support State and local accountability, program 
improvement, and innovation authorized by the Adult Education and 
Family Literacy Act (AEFLA) in Title II of the WIA.
    Today, I will discuss the Department's adult education program and 
include some information on current learner demographics, program 
performance, and national initiatives that help adults in the United 
States obtain the literacy and employability skills they need to get 
and keep family-supporting jobs.
    We are proud that the Adult Education State Grant Program is rated 
``effective'' by the Office of Management and Budget (OMB). Our program 
participated in OMB's 2006 Program Assessment Rating Tool (PART) 
review, which is designed to assess and improve program performance, 
and identify program strengths and weaknesses. The Adult Education 
State Grant Program was one of five Department programs to achieve an 
``effective'' rating during the time the Executive Branch carried out 
PART reviews. The PART assessment findings, including the scoring and 
explanation for program design, program management, strategic planning, 
program management, and program accountability are available online at 
www.Expectmore.gov.

Who Does Adult Education Serve?
    Adults eligible for services funded by AEFLA are at least 16 years 
old, are beyond their State's age for compulsory school attendance, are 
not enrolled in high school, and lack sufficient mastery of basic 
educational skills. They do not have a secondary school diploma (or its 
equivalent) or are unable to read, speak, or write in English. More 
than 2.3 million students enrolled in adult education programs 
nationwide last year. Of those, 45 percent participated in English 
literacy programs (EL), 41 percent in adult basic education (ABE), 
which provides instruction to adults with reading and math below the 
eighth grade, and 14 percent in adult secondary education (ASE), which 
provides instruction between ninth and twelfth grade levels. Our most 
recent data show that Hispanics comprise the largest ethnic group 
enrolled in adult education programs at 44 percent, followed by White 
at 26 percent, African Americans at 20 percent, and Asians at 8 
percent.
    Adult education programs serve a varied and significant youth 
population, primarily high school drop-outs. Last year, more than one 
third of students (850,000) enrolled in adult education were between 
the ages of 16 and 24. Nearly one half million of these young learners 
had math and reading skills below the eighth-grade level. About one 
fifth of these learners were unable to read, write, or speak English 
well enough to function on the job or participate in civic functions.
    More than one million adults enrolled in programs assisted by AEFLA 
to improve their English proficiency. Three-fourths of these adults, 
when assessed, were found to have English literacy levels at ``low 
beginning'' to ``low intermediate,'' indicating a significant need to 
improve both spoken and written English-language skills to attain the 
proficiency necessary to allow them to advance in America and obtain 
family-supporting jobs.

How Is Adult Education Delivered?
    Appropriations for the Adult Education State Grant Program have 
remained at approximately $560 million annually for the last five 
years. Program funding is distributed by formula to a State agency 
designated by State law. Nationwide, we find that 33 States provide 
State Grant funds to State educational agencies (SEAs), 12 States 
provide them to their community college or technical college systems, 
two States provide them to State workforce agencies, and five States 
provide the funds to their State Labor Departments.
    The law requires that at least 25% of the total amount of funds 
expended for adult education and literacy activities in a State be from 
non-Federal contributions. Financial reports submitted to our Adult 
Education National Reporting System (NRS) show that on average every 
Federal dollar is matched by an impressive nationwide average of $3.50 
in non-Federal spending to educate adults who need to learn English or 
whose basic literacy skills are too low obtain family-supporting 
employment. Some States spend as much as $9 dollars for every Federal 
adult education dollar they receive. Florida is an example of a State 
that matches at that level. Other States spend only the minimum 
required.
    State agencies designated to receive AEFLA funds must, by law, 
distribute the funds competitively to eligible providers, including 
local school districts, postsecondary institutions, and community and 
faith-based organizations. Federal dollars appropriated under AEFLA 
support adult learning through more than 4,100 providers nationwide. 
Slightly more than half (51 percent) of these providers are local 
educational agencies; 16 percent are postsecondary institutions--
primarily community, junior, or technical colleges. Among smaller 
providers, 21 percent of the national total are community-based 
organizations, and about three percent are faith-based organizations. 
We also find that four percent of all providers are correctional 
institutions and two percent are libraries.

How Is the Quality and Transparency of Adult Education Services 
        Ensured?
    The Department is helping States ensure program quality as well as 
making performance accountability information transparent and easily 
available to Congress and the public. The Adult Education State Grant 
program is one of the first Federal education programs to build a 
publicly available system providing national data that can be used to 
evaluate State program effectiveness and ensure continuous improvement. 
Our Adult Education National Reporting System (NRS) collects and 
monitors data on adult education student outcomes, and State-level data 
are available to the public on line. The Department has assisted States 
and local programs in using the data they collect for the NRS to 
develop publicly available, easy-to-understand report cards 
demonstrating State and local performance on student achievement. 
Several States use report cards to provide performance data to State 
legislators, students, and the public.
    AEFLA requires States to establish outcome-based accountability 
systems to determine the effectiveness of local providers in 
continuously improving adult education activities. The national 
reporting system (NRS) identifies five core student outcomes that 
States report on to meet their accountability requirements under AEFLA, 
along with definitions of the measures, methodologies for collecting 
them, and reporting formats. The five core measures are: 1) educational 
gain, 2) attainment of a high school diploma, 3) entry into 
postsecondary education or training, 4) entered employment, and 5) job 
retention.
    States are adopting performance-based funding models to distribute 
both Federal and State adult education funds. These models provide 
incentives for local providers to improve the quality and effectiveness 
of their services. At least ten States use some form of performance-
based criteria in funding adult education service providers. The 
Department is supporting a national project to assist States in 
implementing performance-based funding by providing training and 
technical assistance on performance-based funding for States that want 
to create or improve such systems. Sixteen States recently participated 
in our national training workshop on performance-based funding 
supported by this AEFLA national leadership project.

What Results Does Adult Education Achieve?
    In the last five years, over 3.9 million enrolled adults have made 
``demonstrated improvements'', as measured on standardized assessments, 
in reading, math, and English proficiency. Highlights from our NRS 
five-year aggregate data show that:
    1) 615,828 learners or 42% who set a goal of obtaining a job found 
and entered employment after they exited the program.
    2) 813,367 learners or 51% who set a goal of obtaining a GED (or 
its State equivalent) received a GED.
    3) 231,691 learners or 37% who set a goal of enrolling in 
postsecondary education successfully entered postsecondary education or 
training after completing the program.
    4) 1.8 million adult learners or 38% succeeded in improving basic 
literacy skills.
    5) 2.1 million immigrants or 39% improved writing, reading, and 
oral proficiency in English.

What Challenges Face Adult Education?
    The Department's work in partnership with the States has produced 
significant accomplishments and helped many learners achieve their 
education and employment goals. Many challenges still exist, 
particularly in the job market, where the ``bar'' for literacy skills 
that are required for family-supporting employment is constantly being 
raised.
    1) Our Federal-State partnership serves only a small portion of the 
adults who need literacy instruction. The 2003 National Assessment of 
Adult Literacy (NAAL) found that over 30 million adults have below-
basic levels of literacy and another 63 million read English only at a 
very basic level. This finding indicates that 44 percent of adults 
living in the U.S. could benefit from English literacy instruction. In 
addition, our State partners are facing the worst fiscal crisis since 
World War II and must re-examine all their financial commitments, 
including appropriations for adult education.
    2) America's high school drop-out rate is significant, and students 
who leave high school frequently look to adult education to provide the 
education and support they need to earn the secondary credential 
required for even the most basic employment. Data from the Department's 
National Center for Education Statistics show that 73.2 percent of 
public school students graduate within four years of starting high 
school. Among young adults, ages 16 to 24, 9.3 percent are out of 
school and don't have a diploma.
    3) Adults need postsecondary credentials to obtain jobs that will 
allow them to feed their families and pay their mortgages. The Bureau 
of Labor Statistics estimates that almost 75 percent of jobs in 
occupations that are projected to experience above average employment 
growth through 2016 and had above average wages in 2006 typically 
require some level of postsecondary education. Currently, according to 
the U.S. Census Bureau's 2007 American Community Survey, 65 percent of 
adults have no associate or higher degree.
    4) Immigrants with lower educational skills and training need to 
learn English not only for employment but also to participate in civic 
functions that are necessary for life in our democracy. The U.S. Census 
indicates that the number of adults who are immigrants and/or who speak 
English less than ``very well'' is significant and growing. Assuming 
that today's levels of immigration remain constant, immigrants are 
expected to account for half of the U.S. population by 2015 (based on 
2007 Educational Testing Service report entitled America's Perfect 
Storm: Three Forces Changing Our Nation's Future, ETS, 2007). One-third 
of foreign-born persons in the U.S. do not have a high school diploma, 
and approximately 17.8 million adults are limited English proficient.
How Is the Department Addressing the Challenges?
    The Department has created initiatives designed to address the 
challenges facing adult education programs nationwide by enhancing 
program quality and stimulating development and innovation. Our 
leadership initiatives are carried out under the authority of section 
243 of the AEFLA, which authorizes the Secretary to establish and carry 
out a ``program of national leadership activities to enhance the 
quality of adult education and literacy programs nationwide.'' In 
recent years, Congress has appropriated between roughly $7 million and 
$9 million for these activities.
    The Department is using currently using national leadership funds 
to help address our current economic challenges. We are supporting 
projects to develop innovative models that should help to connect 
completion of basic skills and English proficiency instruction to 
acquisition of high-demand jobs. National leadership funds are 
expanding the ``pipeline'' to postsecondary occupational training by 
preparing low-skilled adults for entry into, and advancement in, high-
demand employment, based on regional economic needs.
    The Adult Basic Education (ABE) Career Connections project, 
supported by national activities funds, is working in six local 
demonstration sites to assist ABE students to obtain the education and 
training necessary to begin careers in high-demand fields. One local 
program participating in this project is Instituto del Progreso Latino 
in Illinois, which is extending its certified nursing assistant program 
and creating a certified medical assistant program in response to the 
local labor demands in healthcare. Career pathway programs like the one 
at Instituto del Progreso Latino link basic education funding under 
AEFLA with projects for academic postsecondary coursework, work-
specific instruction, hands-on classroom, and work site training 
supported by others.
    Several States have launched large-scale efforts to realign their 
adult education systems with these ``pathways'' models supported in 
part by State leadership funds made available to all States under 
section 223 of the AEFLA. The State of Washington has developed a model 
that delivers English as a Second Language instruction integrated with 
occupational skills training. States also are using incentive funds 
provided under section 503 of the WIA to support these efforts. Oregon 
has invested its incentive money to connect its adult basic-skills 
program with its postsecondary career pathways initiative. Ohio has 
used its incentive funds to build its ``stackable credential'' model so 
that the model extends to the adult basic education program.
    The Department also uses national leadership funds to support other 
projects linking low-skilled adults to the training they need for 
family-supporting employment. Our ``Ready for College'' discretionary 
grants help youths who have dropped out complete high school and 
prepare to succeed in college. The four States participating in this 
project (Kansas, New Jersey, Colorado and North Carolina) are 
demonstrating how to enhance adult secondary education to better 
prepare young adults for college success. The Kansas Board of Regents 
is working with seven community colleges to improve teacher quality in 
math, writing, and critical thinking instruction. Essex County College 
in New Jersey leveraged its work on this project to earn private sector 
funding through Walmart's Gateway to College National Network. These 
innovative projects link adult education with other funding sources 
that pay for a range of services that would not otherwise be provided 
by the adult education program.

How Is Collaboration Improving Adult Education Services?
    The Department uses AEFLA national leadership funds to promote 
increased collaboration between the WIA Title I One-Stop system and the 
Title II adult education system in order to improve outcomes for adults 
who have both basic skills and employment needs. For example, using 
those funds, Maryland's Montgomery College and Montgomery Works' One-
Stop Center collaborated to revise an English language customer-service 
training course developed by the National Retail Federation. The course 
integrates training on customer-service job skills with learning 
English. The State of Washington's Yakima Valley Community College and 
South Central Workforce Council worked together to enhance adult 
learners' basic literacy skills and their transition to employment. 
This project assessed clients who were receiving Temporary Assistance 
to Needy Families (TANF) benefits and referred those with appropriate 
skills and interest in allied health to a Nurses' Assistant 
Certification training program offered by the college. Adult basic 
education providers and One-Stop Career Centers in Springfield and St. 
Joseph, Missouri, developed a model for referring clients from a shared 
client database between adult education programs and the career 
centers.
    By supporting projects like these, the Department has used national 
leadership funds to design models that link adult basic-skills 
instruction with employment and ensured that adult education programs 
retain their mission as education programs. In providing assistance, 
our programs provide instruction in reading, writing, and math at a 
level appropriate to participants' needs. Reading skill is a gatekeeper 
for all other areas of education, and few adult education teachers 
currently have research-based training in how to teach reading 
effectively.
    Collaboration among the Department, the National Institute for 
Literacy, and the National Institute of Child Health and Development 
has been fruitful in identifying the evidence base for high-quality 
reading instruction. The Department is partnering with 18 States 
(California, Connecticut, Delaware, Florida, Georgia, Illinois, 
Louisiana, Maine, Minnesota, Mississippi, Missouri, New York, North 
Carolina, Ohio, Rhode Island, South Dakota, Texas, and Wisconsin) to 
put this knowledge to work in classrooms by providing intensive teacher 
training in evidence-based reading instruction.
    The Department assists States in improving the quality of English 
as a Second Language teachers so that they can better meet the 
education and employment needs of adults with limited English skills. 
Direct technical assistance supported by the Department's national 
leadership funds has been provided to 30 States in the last five years 
by the Department's Center for Adult English Language Acquisition 
(CAELA) and CAELA Network projects. In Texas, teams of staff, regional 
professional developers, and local program administrators and teachers 
have worked to develop teacher training to better integrate workplace 
skills into ESL instruction, and to effectively teach adults at 
beginning literacy levels.
In conclusion
    We are very proud of our support for adult education and hope it 
can contribute to the success of America's economic recovery, 
especially in bringing basic literacy and English skills training to 
low-income adults.
    Thank you for this opportunity to testify about the Department's 
adult education programs. We look forward to working with you to 
support the needs of adult education learners.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    Mr. Scott?

STATEMENT OF GEORGE A. SCOTT, DIRECTOR OF EDUCATION, WORKFORCE 
  AND INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Scott. Mr. Chairman, Ranking Member Guthrie, and 
members of the subcommittee, I am pleased to be here today to 
discuss the findings from our prior work on the workforce 
system under the Workforce Investment Act, WIA. As you know, 
WIA sought to transform a fragmented employment and training 
system into a single, one-stop system that serves the needs of 
all job-seekers and employers.
    In the current economic crisis, as increasing numbers of 
workers become unemployed, the system plays a central role in 
helping workers re-enter the workforce.
    My testimony today will discuss the progress the Department 
of Labor has made in addressing key areas of concerns and what 
steps Labor has taken to ensure an understanding of what works 
and for whom in addressing the needs of workers and employers.
    In summary, Labor has made progress in a number of areas, 
including addressing concerns regarding performance 
measurement. In 2005, Labor began requiring states to implement 
a common set of performance measures for its employment and 
training programs.
    The move to common measures helps provide a more complete 
picture of WIA services and may encourage one-stops to provide 
services to challenging clients. However, further action may be 
needed to help reduce the incentive to serve only those who 
help the one-stops meet their performance levels.
    Labor has also made strides in improving the accuracy of 
performance data and states' ability to share unemployment 
insurance wage records, the primary data source for tracking 
WIA performance. We previously noted that almost all state 
officials we surveyed reported that Labor's data validation 
requirements have helped increase awareness of data accuracy 
and reliability.
    Regarding the system for sharing wage records, when we last 
reported on this issue in 2007, only 30 states were 
participating, and it was unclear if and when the other states 
would enter into a data-sharing agreement because of 
confidentiality concerns.
    Labor has since developed an agreement that addresses those 
concerns. And currently, virtually all states participate in 
the data-sharing system.
    Ensuring that funding is consistent with the demand for 
services and reflects the funds states have available remains 
an issue. As a result of WIA's funding formulas, states' 
funding levels may not always be consistent with the actual 
demand for services. This occurs because formula factors are 
not aligned with the target populations for these programs.
    In addition, the allocation may not reflect current labor 
market conditions because there are time lags between when the 
data are collected and when the allocation becomes available to 
states.
    The formula for the dislocated worker program is especially 
problematic because it causes funding volatility unrelated to a 
state's actual layoff activity. Also, Labor's process for 
determining states' available funds considers only expenditures 
and does not consider obligations. As a result, Labor's 
estimate of expenditure rates suggests that states are not 
spending their funds as quickly as they actually are.
    Although Labor has taken steps to improve its outcome data, 
it has only recently begun to study WIA's impact. WIA required 
an impact evaluation by 2005, but Labor has not made this study 
a research priority. In an effort to fulfill the requirement, 
Labor has conducted one evaluation of WIA and has another 
underway.
    The study of the Adult and Dislocated Worker programs is 
now complete, and the agency expects to report on those 
findings in March 2009. Labor officials expect to begin 
implementation of the second, more comprehensive study of WIA 
programs in June 2009. However, the evaluation will not be 
completed until June 2015.
    Further, as we previously reported, Labor will also be 
challenged to evaluate the impact of its discretionary grant 
initiatives focused on the employment and training needs of 
high-growth, high-demand industries.
    In conclusion, Labor has made strides in its effort to 
improve the workforce system. However, further action is needed 
to address certain issues. For example, if Congress chooses not 
to make broader funding formula changes, relatively minor 
changes could improve funding stability in the dislocated 
worker program.
    Finally, little is known about what the workforce system is 
actually achieving. Consequently, Labor is not well positioned 
to help policymakers understand which employment and training 
approaches work best. Knowing what works and for whom is key to 
developing an effective and efficient workforce system.
    As Labor moves forward, it is imperative that it maximize 
the opportunities to conduct rigorous evaluations of its 
programs.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to respond to any questions you or other members of 
the subcommittee may have at this time.
    Thank you.
    [The statement of Mr. Scott may be accessed at the 
following Internet address:]

                http://www.gao.gov/new.items/d09396t.pdf

                                 ______
                                 
    Chairman Hinojosa. Thank you, Mr. Scott.
    Mr. Morales?

  STATEMENT OF JOHN MORALES, EXECUTIVE DIRECTOR, YUMA COUNTY 
                   WORKFORCE INVESTMENT BOARD

    Mr. Morales. Chairman Hinojosa, Mr. Guthrie, and 
distinguished members of the subcommittee, my name is John 
Morales, and I am the Executive Director of the local workforce 
investment board in Yuma, Arizona, and I also serve as the 
president of the National Workforce Association.
    I want to thank you for the invitation to testify today. 
You have my written testimony. However, I would like to share 
with you some good news, the fact that WIA is working.
    According to the U.S. Department of Labor, in program year 
2007, WIA served 3.5 million people. Three-quarters of the WIA 
participants and over 70 percent of the employers reported that 
they were satisfied with the assistance they received. Seven 
out of ten WIA adult and dislocated worker participants gained 
employment by utilizing WIA programs.
    These numbers rose to well over 80 percent when 
participants received training. These workers were retained at 
a level exceeding 85 percent. The Department of Labor's own 
data indicates that dislocated workers who enrolled in WIA 
programs actually experienced an earning gain over their 
previous employment.
    Now, in Yuma, Arizona, despite having a 15.9 percent 
unemployment rate for year 2008, WIA has been successful. A big 
contributor to our success is the local control that our board 
has enjoyed. This speaks to the need to maintain and reinforce 
local control and flexibility to address unique labor market 
conditions in different areas. And I think Yuma, Arizona, along 
the border has those unique labor market conditions.
    Another factor contributing to our success includes our 
collaboration with local stakeholders, including local elected 
officials.
    Now, a lot has changed since the law was enacted in 1998. 
In order for our workforce system to be more relevant to the 
changing needs of the 21st century economy, we would like to 
suggest several issues that need to be addressed in 
reauthorization to make WIA even stronger.
    We urge you to build upon a locally driven, private-sector-
led vision that Congress originally established in WIA. There 
are some areas that need to be streamlined and more clearly 
defined, such as the size and make-up of local boards.
    For instance, one of our mandated partners in the Job 
Corps. There are no Job Corps centers in Yuma, Arizona. There 
is one in Tucson, which is 250 miles away. So we have a member 
from Tucson, not even our own county, that drives 250 miles 
one-way to attend our monthly board meetings. That needs to be 
worked on, Mr. Chairman.
    NWA encourages the committee to include in any reauthorized 
version of WIA expenditure reporting based on accrued 
expenditures so that future reports to Congress by the 
Department of Labor will be consistent with those determined by 
previous Congresses. We are thankful that Congress has taken 
previous action to rectify any confusion related to this 
particular issue.
    Another important revision to WIA could be the streamlining 
of performance measures into meaningful, understandable and 
useful information both to local boards and to Congress. They 
should be refined to encourage closer integration of the 
workforce investment boards and one-stops with adult education, 
literacy, and English-proficiency training.
    We encourage greater flexibility for local areas to 
determine the level of services available to participants in 
order to facilitate more robust training activities. We suggest 
introducing greater flexibility at the local level in order to 
allow for different methods of procuring training, not just 
with individual training accounts. This will allow local boards 
to address issues such as the availability of providers and 
special labor market needs and emerging technologies, such as 
green jobs.
    Mr. Chairman, Mr. Guthrie, members of the committee, we 
thank you for the opportunity that you have given the National 
Workforce Association to testify today.
    [The statement of Mr. Morales follows:]

             Prepared Statement of John Morales, President,
                     National Workforce Association

    Chairman Ruben E. Hinojosa, Mr. Guthrie and the other distinguished 
members of this Subcommittee, my name is John Morales, and I am the 
Executive Director of the Yuma Private Industry Council in Yuma 
Arizona. I also currently serve as the president of the National 
Workforce Association (NWA), on behalf of whom I am testifying today.
    In my testimony, I will discuss very briefly, from NWA's 
perspective, why we believe it is critical to the country's 
competitiveness that the Workforce Investment Act be reauthorized this 
year. I will point out several notable areas in WIA that I believe we 
should build on as we go forward, and suggest several issues that need 
to be addressed in reauthorization to make the Workforce Investment Act 
stronger.
    I urge that you build upon the locally driven, private sector-led 
vision that Congress established in the Workforce Investment Act. While 
NWA represents the WIA system in cities, suburban areas, and rural 
America, my experiences on the border in Yuma with its 15.9% 
unemployment rate in 2008, reinforce the need for local control and 
flexibility to address unique labor market conditions in a wide variety 
of the country's communities, in collaboration with key local 
stakeholders including local elected officials.
    First, I'd like to point out a number of positive developments that 
have occurred since then-President Bill Clinton signed WIA into law on 
August 7, 1998. WIA's focus on two customers: jobseekers and businesses 
was a major change from 40 years of federal policy and it continues to 
be the right thing to do. Although there is much more to do in order to 
bring together the array of federally funded workforce development 
programs, significant progress has been made.
    The most recent PY 07 WIA annual reporting data indicates that 
nearly 3.5 million people received assistance from WIA, with three-
quarters of WIA program participants and over 70% of employers 
satisfied with the assistance they received. Seven out of ten WIA Adult 
and Dislocated Worker program participants gained employment by 
utilizing WIA programs, with these numbers rising to well over 80% when 
participants received training. These workers were retained in these 
new jobs--at an overall level exceeding 85%. In fact, DOL's data 
indicates that dislocated workers who enrolled in WIA programming 
actually have an earnings gain over their previous employment.
    Along with the strong performance data, WIA has fostered much 
stronger program integration between partner programs, particularly 
workforce development and economic development. One Stop Career Centers 
nationwide have become a tremendous resource for both workers and 
employers. Targeting a portion of funds to high wage/ high demand 
sectors has been a success and we continue to learn and expand on such 
efforts. The system's strategic use of Career Pathways grows stronger 
every year. Still none of us would argue that there is not a great deal 
more we need to do, and an urgency to do it.
    When Congress worked to enact WIA in the mid 1990's, the challenges 
facing our workforce were considerably different than they are today. 
Unemployment was much lower. Two weeks ago USDOL hosted a Reemployment 
Conference in Baltimore, Maryland. In one of the presentations, Dr. 
Paul Harrington, of the Center for Labor Market Studies at Northeastern 
University, pointed out that there are 11.2 million unemployed people 
looking for work today and currently 2.8 million job openings. So our 
approach to training and skill attainment as WIA is reauthorized must 
adapt to this new reality.
    Training-Some important stakeholders argue that there is not enough 
training taking place under WIA today. The National Workforce 
Association also believes that in order to fulfill the vision in WIA to 
build a world-class workforce and strengthen U. S. businesses, more 
training must be available to students, current workers, and those who 
have suffered the loss of their jobs. And while we recognize that you 
are an Authorizing Committee not the Appropriations Committee, we point 
out two significant factors that negatively affect the amount of 
training under WIA Title 1:
    1. Congress envisioned significant financial contributions to One 
Stop Career Center operations from all the federal partner workforce 
programs when WIA was being developed, but in reality the lion's share 
of these costs have been borne across the country by only WIA Title 1 
and the Employment Service; further
    2. Since 2000, adjusted for inflation, funding for the Workforce 
Investment Act and the Employment Service have been cut by 40% in 
inflation adjusted dollars.
    If Congress decides to require that a set percentage of a WIB's 
funds must be spent on training, then it is essential that skill 
enhancements and leveraged training count toward that requirement.
    Expenditures--There has been significant debate over the past few 
years about the accuracy of USDOL's calculation of state and local WIA 
system spending. NWA encourages the Committee to include in this 
version of WIA reauthorization, as it has in previous Congresses, a 
requirement to have USDOL calculate WIA spending based on ``accrued 
expenditures'' in determining the redistribution of ``unspent'' funds, 
in reports to Congress on spending levels, and in determining funding 
recommendations. This term must be clearly defined in the Act, and 
USDOL should be required to collect this information from states and 
local areas, and be required to utilize such data. Subsequently, 
technical assistance should be promptly provided to
    States and local workforce areas by USDOL. NWA's recommendations 
are consistent with recent GAO studies and findings on expenditures and 
obligations. OIG also concurs here.
    Performance Measures--Current performance measures need to be 
simplified and refined to reflect an outcome oriented workforce system. 
The current performance measures under-reward educational attainment, 
even though as Mort Bahr testified before this Subcommittee earlier 
this month, people with low basic skills are unlikely to be able to 
obtain and retain a high skill/ high wage job. NWA recommends that WIA 
Reauthorization should allow state and local areas to utilize a 
regression model in developing performance standards, as it was in 
WIA's previous iteration, the Job Training Partnership Act. The 
implementation of a regression model, which adjusts standards for 
serving participants with labor markets barriers, would ensure that 
cost calculations, educational attainment, and wage gain measures 
reflect the local economy and the characteristics of populations 
receiving services. Failure to reinstate this regression model risks 
under-serving those individuals with severe barriers to employment.
    Further, performance measures should be refined to encourage closer 
integration of the work of the WIBs and the One Stops with Adult 
Education, Literacy, and English Proficiency training should be 
enacted.
    In almost every employer focus group I have been a part of the 
urgent need for workers with foundation skills has been strongly 
expressed. These ``soft skills'' include: good attendance, punctuality, 
the ability to communicate effectively both orally and in writing, the 
ability to work in teams with a diverse group of people, and the 
ability to size up a problem and formulate solutions. While we might 
think these are values that should be instilled in the home, this 
articulated business need is so strong that addressing it must be part 
of the next generation of WIA.
    While increased education attainment is an allowable training 
activity today, it should be clearly spelled out as a goal and 
encouraged when training is defined in reauthorization. There are many 
activities today both jobseekers and employers would consider training 
but WIA often doesn't. An example is a three week course in Microsoft 
Office proficiency taken at a One Stop. Better defining what WIA 
considers to be training will get everyone on the same page.
    As a former Junior High School Social Studies teacher I am positive 
that the United States can't meet the long term workforce challenges we 
face until we achieve radically improved results in our P-20 system. 
But as a WIB director I also realize that 70% of our workers in the 
year 2020 are in the labor force today, and many of them lack the 
skills they need. For this reason, NWA recommends that Congress allow 
WIBs to spend up to 10% of their Adult and Dislocated Worker formula 
funds on incumbent worker training. This flexibility is needed to both 
target key industry clusters, as well as to help move low wage workers 
up the career ladder. Performance measures will need to be adjusted, 
since earnings will increase less for an existing low wage worker than 
an unemployed worker who receives training and is then placed into a 
job.
    In 2009, the Yuma PIC I lead is providing the tuition for the 
latest iteration of incumbent worker training for the YMA as part of 
Innovation Frontier Arizona, a 4 county WIRED grantee consisting of the 
four contiguous counties located on the border with Mexico. Labor 
markets are either local or regional and the workforce system needs the 
same flexibility and tools in either instance.
    It is clear that the workforce challenges the country faces are so 
serious that no single entity can solve them all. Since in this 21st 
Century economy high school graduation alone is no longer enough, a 
reauthorized WIA must find ways for WIBs to better interact with Adult
    Education providers to help a person get a GED. And since only 5% 
to 10% of GED recipients ever complete even one year of Community 
College, successful strategies like Washington State's ``I Best'' 
program must be replicated.
    While ITAs have been the predominant delivery vehicle since WIA 
began, sectoral strategies, including career ladder approaches to help 
people move toward self sufficiency, have shown great promise under 
WIA. NWA believes that in order to help workers quickly enroll in the 
training they desire for high demand sector initiatives and basic skill 
acquisition, ITA requirements should be relaxed to allow local 
contracting for training. We think this would lead to increased 
utilization of WIA training resources by Community Colleges and 
providers of Adult Education and Carl Perkins VATEA funds. 
Additionally, successful best practices leveraging WIA funds with other 
training/ skill acquisition resources like Pell Grants should be 
disseminated by DOE and DOL.
    In terms of helping economically disadvantaged young people obtain 
the skills they need to succeed in this economy, NWA:
    <bullet> Endorses raising the upper Youth age to 24 will allow 
services to disconnected youth who face a particularly difficult time 
in today's economy
    <bullet> Recommends that a separate Year-round Summer Youth 
Employment Program should be authorized because SYEP is a critical 
means of getting urban and rural young people to understand why their 
school work is relevant and essential. On the governance side of the 
legislation, NWA agrees with other testifiers who said WIB Boards are 
too large. While they must remain private sector led, public sector 
representatives should not be on the WIB Board itself, but should have 
a legislated role on a Partner's table. That Partners' Table would meet 
regularly and its mission would be to work toward seamless, coordinated 
service delivery, not policy and oversight, which should remain with 
the WIB. Local WIBs should be appointed by local elected officials.
    In closing, I'd like to suggest two other technical issues that may 
require working with other House Committees but would stretch WIA 
dollars and increase efficiency if they can be addressed.
    1. Access to wage data. While this is not an issue in some states, 
in many states WIBs are barred because of confidentiality laws from 
accessing this data, which would give them a cost effective tool to 
assess medium and long term effects of different types of training on 
future income to participants who complete training.
    2. Dueling Data Systems. Most states not only do not have a common 
report card system, but front line workers from different workforce 
programs who might be providing services to the same customer often 
need to enter data into four discrete data systems-for One Stop 
Services; for Vocational Rehabilitation services; for Adult Education 
services; and for welfare to work services. This can't be fixed 
locally, and would require a federal investment, but that would be 
quickly recouped since it would free up funds and staff time to 
increase training and case management services.

Conclusion
    Having a high skilled workforce is a goal all Americans agree we 
must achieve. The National Workforce Association believes that the 
services provided by the local workforce system will benefit in your 
efforts at WIA Reauthorization.
    Thank you Chairman Hinojosa for allowing me to testify, and for 
holding these hearings. You can be assured of the National Workforce 
Association's assistance as you move forward with WIA reauthorization.
                                 ______
                                 
    Chairman Hinojosa. I thank you, Mr. Morales.
    At this time, I think we are going to start our questions 
and hope that other members of the committee will take 
advantage of this opportunity, because I think that this is a 
hearing that is going to be very helpful as we try to come up 
with the final legislation for WIA.
    And I am going to start with my first question. My time 
begins now.
    Ms. Keenan, we consider reading and literacy skills as 
basic to allowing adults having job-related opportunities. I 
come from a family-owned business that has operated for over 60 
years. And when I joined my family in operating that business, 
it was a small company with about 28 employees.
    And I remember that, in trying to grow that business, I 
suggested to my father that we have some type of training 
program, because the area that I come from is 80 percent 
Hispanic, and a large majority of our employees were limited-
English-proficient.
    And so I can relate to employers who have those challenges 
and are trying to grow a business, trying to get their 
employees to be computer-literate, and especially to have those 
literacy skills.
    At the same time, we view adults who need training in math 
and basic financial skills. So my question to you is, do your 
programs emphasize these skills? And if so, how?
    Ms. Keenan. Just a clarification question. Do the programs 
emphasize occupational skills or reading----
    Chairman Hinojosa. The reading and literacy and math----
    Ms. Keenan. Okay, thank you.
    Chairman Hinojosa [continuing]. Which are very basic for 
employees working in any kind of a business, because they have 
to read labels, they have to read statements, invoices. Also, 
they have to do basic math.
    Ms. Keenan. Right.
    Chairman Hinojosa. And so those are very important. And I 
want to know how you handle that.
    Ms. Keenan. Thank you. That is an excellent question, and I 
appreciate you asking it. The adult basic ed program is an 
educational program, and the purpose of that program is to 
improve reading, and math, and English proficiency, and 
problem-solving, and the skills that we need people to have in 
the workplace.
    The program does concentrate mainly on those academic 
skills. And in addition to that, there are great demands on our 
programs to also meet the needs of employers in the workplace.
    So we are seeing the development of different kind of 
models out in the local communities. With English proficiency, 
for instance, there are models that combine vocational English-
language training that can meet the demands of the workforce, 
yet increase the English proficiency.
    Programs are experimenting with ways to be able to provide 
very high-quality instruction in reading and high-quality 
instruction in math, while they are also trying to meet the 
demands of the workplace.
    Chairman Hinojosa. I want to ask Mr. Scott, is there a way 
to make minor changes to the funding formulas and reduce 
funding volatility?
    Mr. Scott. Mr. Chairman, as we have previously reported, 
volatility in the funding formulas could be mitigated by 
inserting a couple what we consider minor changes to the 
formula, including having a hold harmless provision, as well as 
a stop-gain provision, so that the wide fluctuations that are 
sometimes experienced would not occur from year to year. So 
that is something we have recommended a couple different times, 
actually, in terms of an option to address some of the wide 
volatility in the funding formula.
    Chairman Hinojosa. Mr. Morales, you spoke about our 
committee taking a look and possibly looking at the size of 
boards. What has been your experience? Which are the sizes that 
do not work because they are too small or underrepresented or 
possibly too large and unwieldy? What are the sizes? And what 
would be ideal? And why?
    Mr. Morales. Well, of course, this is only my opinion, Mr. 
Chairman. And I appreciate the question.
    Chairman Hinojosa. It is a valuable opinion.
    Mr. Morales. Under the old Job Training Partnership Act, I 
had a board that, under the amendments in 1992, moved our board 
membership up to 17. I thought that was a manageable board. My 
current board is 27. And there are other boards that are much 
larger than that in metropolitan areas.
    And part of the issue, Mr. Chairman, was the language that 
came out of the original law that said representatives--with 
the ``s''--and I think that was interpreted very literally by 
everything. And what causes the problem, Mr. Chairman, is if 
you have 17 mandated partners with representatives, you have to 
have a majority of business, which I support, but that means 
that you have those 17, plus you have to have more business 
people to have that 50 percent or 51 percent majority.
    So I would say anywhere, if you could keep it under 20, I 
think would be a manageable board. I think that, when I work 
with nonprofit boards--I do a lot of training with nonprofit 
boards--I think that, once you start getting beyond 20, it 
becomes unwieldy. And then it becomes difficult, Mr. Chairman, 
especially in rural areas to get the attendance that you need.
    And you are asking busy people from nonprofit agencies, 
from faith-based organizations, from public agencies, and from 
businesses to give something valuable, which you can't give 
back, which is their time. And so I think if you could keep it 
somewhere under 20, Mr. Chairman, that is my opinion.
    Chairman Hinojosa. Well, Mr. Morales, don't you believe 
that there are counties and regions that are larger in 
population, particularly in the urban counties, that could 
possibly deal with 20 or 25, whereas possibly small areas, like 
those that I represent in some of my counties, possibly might 
be able to work with 20 or maybe, plus or minus, 17. Do you 
think that that would be flexible enough?
    Mr. Morales. Yes, sir, if we had that flexibility. The 
particular problem we had when the original act was rolled out 
was, there was a fervor, an ardent fervor on the part of the 
states--and the state of Arizona was no exception--that we were 
going to have those representatives from those----
    Chairman Hinojosa. Yes, we have had some other hearings 
where they had 40. My time is up.
    And I wish to yield now to my ranking member.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you.
    And, first, Ms. Keenan, not really a question, but a 
statement. In my experience in manufacturing--I worked for a 
family business, as well--excuse me--and learned--we started a 
GED program in our school--in our factory, and we learned there 
were some people that we had to go to and basic literacy. And 
that became a passion of mine in the state legislature and 
started a program on basic literacy.
    So we would go all the way back to people who can't read a 
menu and try to find ways to get them into the system once they 
learned. And we have seen them progress into GED and, 
hopefully, even higher ed. As the president said the other 
night, you are going to need at least one year of some kind of 
post-high-school training--and I have seen it in tool and die 
makers and industrial maintenance--to earn a 21st-century 
living that we want everybody to earn.
    So you are right where it needs to be to start getting 
people into that system and move them forward. Thanks.
    And I have a question for Mr. Morales. The one-stop--I 
talked about the one-stop centers in my opening remarks that 
happened in Marion County. And I think they are a tremendous 
resource. I have experienced that.
    And I just wondered, can you give me some sense of the 
number of dislocated workers you have seen this year, as 
opposed to last year? And what type of services are they 
looking for? So the number between--comparison between now and 
then or last year and the number--what they are looking for.
    Mr. Morales. Well, Mr. Guthrie, I come from an area that is 
very isolated. And until recently--the last 7 or 8 years--we 
really had difficulty using our dislocated worker funding, 
because we didn't have very many layoffs.
    I will say that we have had an unprecedented number of 
layoffs this year in Yuma County. We have lost, according to 
our Arizona Department of Commerce, about 4,500 jobs----
    Mr. Guthrie. Did you lose a couple of major employers? I 
have seen that, where one 900-person plant goes out. Or is it 
just systemic throughout the region? I mean, what has caused 
that unemployment, going from--you said you didn't have hardly 
any unemployment to 15 percent?
    Mr. Morales. We have a couple of situations in our labor 
market that are very unique. Since our major industry is 
agriculture, we have a seasonal economy, and it is a $3 billion 
industry. It is probably--if you get lettuce in the wintertime, 
it probably comes from the Yuma area.
    And so you have kind of dual labor markets. And in the 
wintertime, when it is our highest activity, you will have 
between--about 40,000 migrant and seasonal farm workers in the 
Yuma area at the same time that everything else is going. And 
then when they leave, there is an unprecedented number of 
unemployment insurance claims. So those are a couple of the 
factors.
    But what happened over the last about 7 or 8 years, we were 
one of the fastest-growing metropolitan areas, mid-range 
metropolitan areas in the country. And with all that growth, 
with the housing bubble and construction, everything--we 
experienced the greater drop.
    And we have a burgeoning light manufacturing area there. 
And we helped establish, along with our economic development 
partners and partners from the chamber, a manufacturing 
association. And we are helping incumbent worker training 
there, but they are laying off because the demand is not there.
    So that--we are getting--but if you go to the metro Phoenix 
area, you are having major reductions in employment in volatile 
industries, such as construction.
    Mr. Guthrie. Well, thanks. And in your testimony, you state 
that current performance measures need to be simplified and 
refined to focus on outcomes and reward state and local 
workforce investment awards for serving low-income workers.
    And I think there is some consensus in most state and local 
areas that performance indicators are too numerous and 
burdensome. And GAO talked about how the Department of Labor 
now requires local boards to focus on the average earnings, 
which may help serve some job-seekers, but that other factors 
should be considered.
    Personally, I think that the programs should focus on place 
and participants in the private sector. We need to look at 
measuring unsubsidized employment.
    In your opinion, what are the most--those common 
measurements that you think that all programs under the WIA 
should adhere to? What do you think the measurement should be?
    Mr. Morales. Well, Mr. Chairman, currently, I have no 
problem with the common measures, because there are only about 
six of them. But the problem is that, when you add the common 
measures to the regular measures that we are under law still 
have to report on, there are 17 of those.
    So you have 17 plus the common, which is about 24. We think 
those should be reduced. And we think that some of the most 
important ones that I think are significant, according to labor 
market economists, are any increases in earned income. If you 
can show over time an increase in earned income, then I think 
the workforce system is doing their jobs.
    And if we are placing people in private-sector employment, 
I think that is great. You have to be careful, in places like 
Yuma, Arizona, where you have a lot of government employment. 
And so in Yuma, Arizona, if we can get somebody a job in the 
Border Patrol or at the city of Yuma or at the county of Yuma 
or in a school district, we think we are doing our job.
    There is not as much of a private-sector presence in some 
of the rural areas. So I think we have to be careful about how 
we mandate those kinds of things, but I think that you are 
right on with the private-sector placement.
    Mr. Guthrie. Thank you. My time is up.
    Chairman Hinojosa. Thank you very much, Ranking Member 
Guthrie.
    I now want to call on one of our newest members of our 
committee, a Congresswoman from the area of Cleveland, Ohio, 
who has a very challenging situation, and I call on her for 
questions.
    Ms. Fudge. Thank you, Mr. Chairman.
    My first question is to Mr. Scott. Mr. Scott, can you 
propose an avenue where funds are really distributed to the 
most impacted communities, where job loss and plant closing are 
the highest?
    Mr. Scott. As we have previously stated, we think this is 
an important issue, especially as it relates to the dislocated 
worker program. Back in 2003, for example, we reported that the 
funding formula for the dislocated worker program was actually 
three--as much as three times more volatile than for the youth 
or the adult programs.
    We believe that is why it is important that as Congress, 
you know, considers reauthorization that it look for options to 
build in some flexibility there so that the dislocated worker 
formula actually provides states some cushion, in terms of from 
the volatility that can occur from year to year with changes in 
various factors, including unemployment.
    We found, for example, that in 2003 that there are 
significant time lags, in terms of receiving some of the data 
related to unemployment. At that time, we reported it can range 
between 9 to 18 months. And so if you have a formula that is 
based on data that could be in some cases up to a year-and-a-
half old, it may not accurately reflect the actual on-the-
ground economic conditions at the time. And therefore, states 
are in a sense being penalized because of the lag in the data.
    And so, as I have stated before, we do think that is a 
scenario that the Congress should consider making some changes.
    Ms. Fudge. Thank you.
    Ms. Keenan, are there any programs within your adult 
education and literacy programs that actually address the 
issues of financial literacy? As we look at this economy 
right--I am certain that many of the people who you provide 
service to are having difficulty just being able to buy 
groceries, to pay health care, to just live day to day. How do 
you educate these people about financial literacy?
    Ms. Keenan. That is a very good question. That is a very 
good question. The department has been concentrating the past 
years on helping to improve teachers' training in the area of 
reading. And we are just now beginning to try to launch some 
large-scale initiatives around the area of adult numeracy.
    In the adult classroom, it is very common for teachers to 
be able to focus on the basic skills in the context of adult 
life. And for our adults, we have many adults who do come to 
our programs with specific needs around balancing their 
checkbooks or understanding banking statements. And our 
programs have a long history of trying to deliver services that 
meet those individuals' needs.
    There are some places in the country that are developing 
some curriculum for financial literacy. I could gather some 
more of that information and submit it to you. I don't have 
those examples right off the record. But basically the program 
has taught financial literacy in many forms throughout the 
years, and there are many people who are working to try to 
develop more comprehensive curriculum in that area. And I would 
be happy to share that with you.
    Ms. Fudge. Thank you very much.
    And thank you, Mr. Chairman.
    Chairman Hinojosa. At this time, I want to thank Ms. Keenan 
for having participated on the first panel. I realize that you 
are short on time and are trying to make the other event. And 
we are going to excuse you, but please know that we appreciate 
very much that you were here and that you gave us such good 
information as we will make part of the record. And may you 
return sometime soon.
    I would now like to recognize the gentleman from 
California, the gentleman--is Buck McKeon still here?
    Okay. I thought that Buck was here. I want to recognize the 
gentleman, Congressman from Tennessee, Mr. Roe.
    Dr. Roe. Thank you, Mr. Chairman.
    Just a couple of quick comments and then questions. My 
background also is small business, and my last job before I got 
here was the mayor of my local city.
    And, Mr. Morales, when you talked about local control and 
private-sector partnerships, I wanted to jump across the 
counter and hug you, because I think no one knows better than 
the people on the ground. And all of my experience in 
government has been local. So I applaud you for what you said. 
And you are absolutely dead-on straight.
    Education, this Workforce Investment Act is something that 
is not a cost. It is an investment. And we have to start 
looking at education as an investment.
    And when I talk to students, I present to them--if you are 
in high school, I will say, ``Let me explain to you how you can 
earn $1 million in the next 4 years.'' And I said, ``Who wants 
to do that?'' And I will have them hold their hand up. And it 
is to get a college education, because a college graduate in 
their lifetime will earn a million dollars more than a non-
college graduate. A high school graduate will earn $500,000 
more than someone who does not have an education.
    And as mayor of our city, one of the primary focuses we had 
was to get folks who had jobs into jobs--I mean, that didn't 
have jobs into jobs. And your comment is correct, Mr. Morales. 
It doesn't matter whether it is a job with the Border Patrol or 
whomever. A job for that people is a job, and they can help 
feed their family and raise their family, so any place we can 
place them is extremely important, I think.
    We have some huge challenges right now, and this particular 
act--I know I participated in this program. I am a physician, 
and we helped train licensed practical nurses and other people. 
And it was truly a joy. I have hired people out of this in my 
own office. And it is truly a joy to see someone's face light 
up when they know they have a job.
    And so thank you all for what you do. And I can promise 
you, you will have my support in this program.
    A couple of questions I have. Actually, one was for Ms. 
Keenan, who left, but you all can address is--my concern is not 
the folks who we have trained to jobs we need, whether it is 
education, health care, whatever. What do we do for the folks 
who fail?
    And, Mr. Morales, I will toss that tough one--you know, 
when you walk in, she gave the percentage who got their GEDs 
and so forth, but what about the folks who fall through the 
cracks? What do we do with them?
    Mr. Morales. Well, I think that is the beauty of having a 
one-stop system that is focused on business needs and the needs 
of the clients. When we do customized training and we have for 
licensed--well, for medical assistants and those kinds of--we 
work with medical groups and try to bring people in.
    But we also say that, if the student doesn't succeed with 
the employer, then we route them back into the one-stop and see 
what we can do, see if we can address those issues, whether 
they are basic skill issues, whether they are interviewing 
issues, whether they are pre-employment work maturity skills, 
we try to address those issues.
    And there are a lot of people, say, in my labor market that 
are almost prevocational, that is why, Mr. Chairman, we asked 
for ways to link up the literacy, the English proficiency to 
WIA and a little closer, and to incentivize these 
collaborations. There are great collaborations going on all 
over the country, but it would be nice if we could incentivize 
people to want to work together, because I think collaboration 
is an unnatural act between two or more consenting adults. You 
know, it is not something we do normally.
    So we are fortunate in Yuma County that we are so isolated 
from everybody else that, if we didn't collaborate, we know we 
would fail. So it is a survival strategy for us.
    So we have to concentrate on those people so they don't get 
left behind. And that means that the workshops that we offer, 
whether they are in financial literacy with--we have credit 
unions and folks that we invite in to do those kinds of 
educational activities, because we know we can't do it all 
ourselves, that is where the collaborations come in.
    If there are special groups, nonprofit groups, faith-based 
groups out there that can do the job that we can't do, that we 
are restricted from in some way, shape or form through WIA, 
then we try to build those collaborations with other 
organizations in the community, because we know that there 
isn't enough money in WIA to solve the language literacy 
issues. There isn't enough money in adult education, especially 
along the border.
    So we have to work together. In our area, in Yuma County, 
Arizona--and I am sure it is that way along the border, Mr. 
Chairman--collaboration is a survival issue.
    Dr. Roe. Well, the other question I have, I guess--and, Mr. 
Scott, I will toss this one your way--I mean, we can't afford 
to fail. And, plus, I think this particular program is not a 
cost. I think if you can show enough--and that is what I want 
to ask, are we spending our dollars wisely? Because if you do, 
this program pays for itself. There is no question in my mind 
you have people who are not on the tax rolls who go on the tax 
rolls. I absolutely believe that it will.
    Do we have accountability to show that the money we are 
spending--in other words, are we getting the bang for our buck? 
Are we putting the folks out there, they are getting the jobs? 
Do we have that data?
    Mr. Scott. Mr. Roe, as we have previously reported, based 
on our survey of employers, most medium and large employers are 
aware of the one-stop system, use the system, are satisfied 
with the services. We know that.
    You know, one of the concerns--generally, they use the one-
stops to fill their needs for low-skilled workers. In terms of 
your question as to whether we know we are getting the bang for 
our buck, that is actually one of the concerns we have at GAO.
    Despite the billions of dollars that have been spent on 
this program, we still don't know what works and what doesn't 
work. And it is incumbent upon the Department of Labor going 
forward to make sure, as it rolls out new initiatives, as it 
rolls out new programs, it continues to foster innovation and 
flexibility, that they build in accountability and they build 
in rigorous impact evaluations of the initiatives, so that at 
the end of the day we will know what works and what doesn't.
    And that could also help inform, for those who might fall 
through the cracks, what alternatives we should consider. But a 
key concern for the Government Accountability Office at this 
point is, we still don't know which of these programs work and 
for whom and why.
    Dr. Roe. Well, the reason that is important is what Mr. 
Morales just said. He has to stretch his dollar at the local 
level as far as he possibly can. So you want the most effective 
dollar that you can have.
    Mr. Chairman, thank you. I yield back my time.
    Chairman Hinojosa. Thank you.
    At this time, I would like to call on a member who has 
served this committee very well. He is very knowledgeable and 
certainly a contributing member of the Education and Labor 
Committee, Congressman Tim Bishop from New York.
    Mr. Bishop. Mr. Chairman, thank you for holding this 
hearing. And to the panel, thank you very much for your 
testimony.
    I had hoped to ask this question of Ms. Keenan, but, Mr. 
Scott, I am going to see what light you might be able to shed 
on this.
    Ms. Keenan said that approximately 16 percent of the WIA 
programs were administered through post-secondary education 
sites. And I am particularly interested in the linkages between 
WIA programs and college campuses.
    And so my question is, in your assessment of WIA programs, 
have you noticed any difference in outcomes between those 
programs that are administered by local education agencies as 
opposed to those programs that are administered by post-
secondary education agencies?
    Mr. Scott. Mr. Bishop, as far as I know, we have not taken 
a look at the programs in that light, so I can't answer that 
question directly. However, we did issue a report last year 
that looked at the connection between the workforce investment 
system and community colleges. And there, for example, we found 
some very innovative practices, in terms linkages between the 
workforce boards and the community colleges and employers. And 
so that is some information we can provide to you.
    Mr. Bishop. If you could, because--and that is essentially 
where I am going is to the community colleges. I guess I have 
this--I was a college administrator. And so I have this bias 
that, if you get a young man or a young woman on a college 
campus and expose them to a good experience, they are going to 
get turned on to learning and so that they may be able to use 
the Workforce Investment Act program as a springboard to a 
degree-granting post-secondary program.
    I guess the other question I have--and, again, perhaps 
better for Ms. Keenan--is an enormous number of the clientele 
of these programs are high-school dropouts. Have we learned 
anything about the characteristics of those young men and women 
that we can then funnel back to the high schools to help them 
deal with dropout prevention?
    Mr. Scott. I know previously we have reported on some of 
the challenges under WIA and dealing with the youth population. 
In terms of your specific question, I am not aware of any work 
we have done looking at that, but that--we will get back to you 
on that.
    Mr. Bishop. All right.
    Mr. Morales, in your experience, I mean, how much of the 
dropout--high-school dropout phenomena is due to, in effect, 
lack of language attainment? Or is--you know, what are the 
characteristics of the population that you have worked with 
that we might be able to learn from to help the K-12 system do 
a better job of retaining people through to graduation?
    Mr. Morales. We are working with our K-12 system, the Yuma 
Union High School District particularly. Some of the 
characteristics that seem to be affecting the dropout rates, 
according to the school superintendent there, she indicates 
that there is a high mobility rate problem. These young 
people--and we thought it was tied to the migrant and seasonal 
farm worker community, but what we found over the years is that 
those families are settling more in the community. And the 
parents or one of the parents is going to other places, like in 
California.
    But there is just a tremendous mobility issue that we are 
seeing. And it is not just in Yuma. We are also aware of it in 
some of the programs in the Phoenix Union High School District, 
for instance.
    The other challenge is, how do we keep kids interested in 
education? How do we challenge them? How do we make education 
relevant to those children?
    And that is a big problem we have. And we are working right 
now with a--the high school districts and other elementary 
districts and the private sector in what we call a Yuma 
business education collaboration to try to start identifying 
what kind of things turn these kids on, because they are having 
a real problem, especially now in this economy, when their 
parents aren't working, they are going to work, and they don't 
see the relevance of going to their classes when they could be 
earning money and putting food on the table.
    Mr. Bishop. That is the key. I know more about college 
dropout than I know about high school dropouts, but there is a 
significant body of evidence that says that a college dropout 
is a young man or a woman who is unable to connect what he or 
she is doing at that moment with what their future goals might 
be.
    And so the--finding the--the synergy, if you will, between 
goals and between activities associated with achieving those 
goals works on a college campus. I would presume it would work 
in high school, as well.
    Mr. Chairman, thank you very much.
    If I just may, Mr. Scott, if you could get us that material 
that you referenced with respect to innovative activities on 
community college campuses, I would appreciate it.
    Thank you, Mr. Chairman.
    Mr. Scott. Yes, we will provide that information.
    Chairman Hinojosa. It is my pleasure now to ask another 
very valuable member of this Education and Labor Committee, a 
friend of mine from the great state of Illinois, Judy Biggert. 
And after her questioning, we are going to stop this first 
panel and move into the second panel, which has four 
representatives of WIA.
    And at this time, Congresswoman Biggert, it is your time.
    Mrs. Biggert. Thank you very much, Mr. Chairman. And I will 
be brief.
    Mr. Scott, you mentioned the one-stop shopping centers, and 
you talked about the sequence of services and the tiers of 
services offered through these one-stop shops. And I have heard 
from some of my local WIAs about this and having some concerns 
about the fact that all of those that come through have to go 
through each tier to complete what they are doing. And in some 
cases, they--you know, they think that they really don't need 
the services, let's say, in tier one or all of the services in 
tier two to get to tier three.
    Do you think that, based on your research, do you think 
that there should be an elimination of the sequential nature of 
the services that you describe or realigning the tiers of 
service? Or do you think that it is the most beneficial the way 
that it is?
    Mr. Scott. GAO has not taken a position on the approach of 
the providing the tiered services. But, once again, I will 
point back to the need to understand how each of those tier 
services work and what the results we are seeing from that 
approach, in terms of having the necessary information to make 
an informed decision about that.
    In particular, you know, I would suggest that that be one 
of the issues, for example, the Department of Labor could 
include in its evaluation of the program, whether this current 
approach, you know, actually is providing the result and 
meeting the needs of employers and workers.
    That, once again, goes to the fact, though, that at this 
point we don't really know what works and what doesn't. So 
sorry to not be able to directly answer your question, but I 
think this is an opportunity for the Department of Labor to 
study such an approach.
    Mrs. Biggert. Okay. Thank you.
    Well, I will yield back and ask the question of the next 
panel then. Thank you.
    Chairman Hinojosa. Thank you.
    I want to thank the members of the first panel. You all did 
a fine job, and we thank you very much for your generosity of 
your time and valuable information that you have shared with 
us. We invite you to stay and hear the second panel.
    At this time, I invite the members to please come forward 
and take your seat, your place in the second panel.
    If you are ready, we are going to move on and hope that we 
can spend as much time as possible with the panelists that have 
just been seated.
    We are going to start by introducing Ms. Sandi Vito. Sandi 
is testifying today on behalf of the National Governors 
Association. She was appointed last year by Governor Edward 
Rendell of Pennsylvania. Sandi was appointed as the Acting 
Secretary of the Department of Labor and Industry.
    Welcome. Sandi heads the fifth-largest agency of the state 
government, overseeing 6,000 employees in 200 offices 
statewide. Her offices administer programs such as workers 
compensation, unemployment compensation, job re-training, and 
vocational rehabilitation.
    She previously worked in legislative, public policy, and 
political organizations and holds a bachelor's degree in 
economics from Stockton State University and studied community 
and regional planning and urban studies at Temple University. 
Welcome.
    Ms. Charissa Raynor is the Executive Director of the SEIU 
Healthcare Northwest Training Partnership. SEIU is the Service 
Employees International Union, for those not familiar with that 
acronym. The partnership is a new nonprofit health care worker 
training organization, which in the year 2010 will become the 
primary training provider for long-term care workers in 
Washington State.
    Charissa is well prepared for this effort, since she holds 
a bachelor of science in nursing from the University of North 
Carolina at Charlotte. She also earned a master's of health 
services administration, health policy concentration from the 
George Washington University in our city.
    Welcome, Charissa, and thank you for dedicating yourself to 
such an important service for our country.
    The next panelist will be introduced by Congressman Bishop 
from New York.
    Mr. Bishop. Mr. Chairman, I thank you for the courtesy.
    I am pleased to welcome both to our committee and to 
Washington Kevin Smith, who is the Executive Director of 
Literacy New York. Mr. Smith is a 1975 graduate of SUNY 
Fredonia. He has worked for 5 years for the New York State 
Bureau of Migrant Education and also as the Executive Director 
of Literacy New York.
    Throughout his career, Mr. Smith has provided innovative 
program response to the needs of adult learners and strong 
leadership in literacy and in to our state and to our nation.
    His accomplishments include being a delegate to the 1991 
White House Conference on Library Information and Services. He 
served as a member of New York State Board of Regents Literacy 
Planning Committee. He was the chair of the state Literacy 
Council, a member of the Adult Learning Services Council under 
two commissioners of education, secretary of the National 
Commission on Adult Basic Education, and the past president of 
the New York Association of Continuing and Community Education.
    Mr. Smith, thank you very much for your service, and 
welcome to our committee.
    Chairman Hinojosa. Thank you.
    At this time, I would like to recognize and introduce Mr. 
Bob Lanter. Bob is the Executive Director of the Contra Costa 
County Workforce Investment Board in Concord, California. He 
has served in his current position for the past 7 years, but 
has over 18 years of experience in workforce development.
    Bob also spent 6 years as the Assistant Director of the 
California Workforce Association. His areas of research include 
one-stop systems, particularly partnerships, and business and 
universal services.
    Thank you, Bob, for joining the rest of our talented 
witnesses today. And we look forward to your comments.
    Now, I would like to ask the acting secretary, Vito, if she 
would like to start.

STATEMENT OF SANDI VITO, ACTING SECRETARY, DEPARTMENT OF LABOR 
              AND INDUSTRY, STATE OF PENNSYLVANIA

    Ms. Vito. Chairman Hinojosa, Ranking Member Guthrie, and 
members of the subcommittee, I want to thank you for inviting 
the National Governors Association to testify today.
    I am pleased to be here on behalf of the nation's 
governors, and I want to first thank you and your colleagues in 
Congress for the American Recovery and Reinvestment Act and the 
critical investments in workforce systems and including the 
reauthorization of the Trade Act that were part of that act. 
You have signaled to the nation's workforce system that you are 
counting on us to help our nation's unemployed and job seekers 
find work and family-sustaining careers.
    The governors take that challenge very seriously, and I can 
tell you, all are working very diligently. As you know, the 
governors met this past weekend. They met with President Obama 
and the cabinet members to discuss implementation of the act.
    They also met this weekend and approved a new workforce 
policy entitled ``Governors Principles to Ensure Workforce 
Excellence.'' And so the focus of my testimony is going to be 
on those high-level guiding principles.
    States--it originated, I think, with Woodrow Wilson--but 
states like to say that they are the laboratories of democracy. 
I would like to make the point today that states are, in fact, 
the incubators of innovation, particularly when it comes to 
workforce policy.
    The new policy statement in particular supports those 
governor-led innovations. And while I think that there is no 
one clear and single path to reauthorization of the act, the 
nation's governors outlined some key priorities that we think 
make sense in terms of considering reauthorization.
    We hope that you will build off the innovations that have 
come from both the regional levels and through the governors' 
initiatives to make our nation competitive in the 21st-century 
economy. So I want to first highlight some of the state-led 
innovations.
    Critical, as many of the members said earlier today, and 
President Obama mentioned in his recent State of the Union or 
state--recent speech to the joint Congress, is improving in the 
skills and the access to training. Ensuring that all Americans 
have access to one year of training, I think, is critical to 
developing a skilled workforce.
    Governors have led the effort to increase training and, 
more importantly, to ensure that the training is geared towards 
the appropriate needs of the individual, so leveraging dollars 
from different systems to make sure that the intervention for 
individuals and regions is appropriate.
    The second key innovation by governors is the development 
of skills credentials, which signal to businesses and are 
universally understood that the people coming to apply to them 
have a set of recognized credentials and help improve the 
earnings capabilities of the job-seekers themselves.
    Additional innovations have come in the form of green jobs. 
We need to continue to equip workers with skills and 
technologies required for emerging occupations in clean and 
renewable energy, and many governors throughout the nation have 
already taken a leadership role on doing that--on just that.
    One national trend among the governors is the creation of 
what is in the research literature called workforce 
intermediaries. These intermediaries make the labor market more 
transparent. In Pennsylvania, we call them industry 
partnerships. And essentially they are partnerships of 
businesses, where appropriate labor unions, training providers, 
and community organizations on a regional basis or at the labor 
market level, and they focus in on a specific industry and what 
the skill needs are of that industry so that we can create 
career pathways, training programs that create increased 
economic opportunity, as well as meet the demands of the 
industry in the region.
    In Pennsylvania, we have had more than 6,300 businesses 
involved in 80 partnerships and, since 2005, have trained 
70,000 workers. While our original results showed initially a 
12 percent gain in increase in income for the individuals who 
went through that training, because of the recent events, the 
average is about 6 percent, still incredibly good increase in 
income after the first year of training.
    Governors are also leading less glamorous reforms, but 
these are also essential reforms. And they include improvements 
in the service delivery system, accountability, and overall 
program efficiencies, all the while trying to reduce 
administrative costs and duplication of efforts.
    As preparation begins for reauthorization of the Workforce 
Investment Act, I want to outline the Governors Association's 
six key policy areas.
    The first is--and it was already mentioned, but I want to 
re-emphasize the National Governors Association position on 
that--to streamline access to training opportunities and 
eliminate the mandates that dictate sequence of services.
    Second is increasing coordination and integration of 
workforce education and economic development to meet the unique 
needs of states and their regions. We hope to see greater 
alignment of the federal programs, which was mentioned earlier, 
between the agencies that fund workforce development programs 
in labor, education, and the other federal agencies.
    We would like to see and advocate for building state-led 
regional economies by giving the governors the authority to 
designate for the purposes of delivery of services regions that 
reflect labor markets and don't narrowly reflect city or county 
or other arbitrary boundaries.
    And, finally, two critical issues are focus on the emerging 
industries, such as green jobs--as I talked about earlier--and 
supporting common measures to improve accountability. As we 
heard earlier, the importance of transparency in the system is 
important to governors. The National Governors Association and 
the National Association of State Workforce Agencies has a 
specific proposal related to common measures that it would like 
to see considered. And they are happy to provide that in 
detail.
    In conclusion, the nation's governors stand ready to work 
with this subcommittee and all the members of Congress to craft 
what we hope will be significant improvements to the Workforce 
Investment Act and to provide whatever information the 
committee needs from us.
    [The statement of Ms. Vito follows:]

 Prepared Statement of Sandi Vito, on Behalf of the National Governors 
                              Association

    Chairman Hinojosa, Ranking Member Guthrie, and members of the 
Subcommittee, thank you for inviting the National Governors Association 
to testify today.
    My name is Sandi Vito and I am honored to be here on behalf of the 
nation's governors to discuss governor-led innovations. I also serve as 
the Secretary of the Department of Labor and Industry for Governor 
Rendell in Pennsylvania. Governor Rendell is the chair of the National 
Governors Association.

Governors Focus on Transforming the Workforce System and Upskilling 
        Workers
    This past weekend, the nation's governors convened in Washington, 
DC for their winter meeting and met with President Obama and Cabinet 
members to discuss the state economic crisis and implementation of the 
American Recovery and Reinvestment Act. Governors also met in the NGA 
Education, Early Childhood, and Workforce Committee to discuss 
transforming the workforce system and up skilling American workers. 
During the Committee's deliberations, the governors also approved a new 
workforce policy titled ``Governors' Principles to Ensure Workforce 
Excellence''.
    The new policy supports governor-led workforce innovations, and 
establishes the nation's governors' key priorities for a world-class 
workforce. It also makes recommendations to Congress and the 
Administration for long needed transformations to the workforce system. 
Before I discuss the governors' new policy recommendations for the 
workforce system, let me first set the stage with the current economic 
forces and highlight several successful governor-led innovations.

Federal Workforce Law Outdated
    In 1998, when the Workforce Investment Act became law, it was 
groundbreaking. WIA gave governors the authority to initiate broad 
structural reforms in their workforce development systems. With this 
authority, governors made significant progress to restructure these 
systems and strengthen the essential partnerships between federal, 
state, and local governments and the private sector. Yet state-by-state 
experiences reveal that many challenges remain, such as providing 
comprehensive, highly integrated education, training, and employment 
services for workers. In addition, governors need help aligning 
education, workforce and economic development, coping with inflexible 
mandates, and fully engaging the business community as partners.
    The current economic picture is evidence that business as usual 
will no longer do. The current unemployment rate in America is 7.6 
percent and more than 3.6 million jobs have been lost since the 
beginning of this economic downturn. This is the highest number of job 
losses since the end of World War II.
    Yet, even in today's economy, businesses are struggling to find the 
qualified workers they need. A survey by the National Association of 
Manufacturers revealed that more than eight out of 10 manufacturers 
experienced an overall shortage of qualified workers. And, in a recent 
Society for Human Resource Management survey, respondents indicated a 
shortage of qualified candidates in science, technology, engineering, 
and mathematics. As a result, 29 percent of human resource directors 
have hired foreign nationals because qualified U.S. workers were not 
available.
    These two forces--the rising unemployment rate and the increased 
need for skilled workers--have placed unprecedented demands on 
America's workforce. It will take bold reforms at the federal, state, 
and local levels to transform the workforce system and up skill 
workers. This transformation should begin and build off the work of 
governors to initiate bold, structural reforms that will keep our great 
nation competitive in the 21st century.

Governor-led Innovations
    Governors are tackling the challenges of unemployment and a lack of 
skilled workers and leading new strategies to improve job seeker 
outcomes. While governors are initiating reforms all across the 
country, their efforts can be broadly characterized and grouped in the 
following key areas:
    Increase access to training: All across the country, governors are 
implementing creative initiatives to focus and expand training 
opportunities for unemployed and employed workers. By leveraging WIA 
funds with a mix of other federal employment and training funds, 
federal and state financial aid, and business partnerships, governors 
are working to improve the skills of workers in their states.
    Provide workers with credentials: To help employers better find and 
match job seekers' skill level with the requirements of a job, 
governors implemented skills credentialing programs. The credentials 
are easily and universally understood and valued by employers and 
certificate recipients alike, and are nationally recognized by 
industry.
    Develop specialized skills training for limited-English speakers: 
Under governors' leadership, states are also creating new integrated 
approaches to serving non-native English speaking students enrolled in 
workforce training programs. The programs provide simultaneous 
instruction in a technical field and in basic skills such as English, 
reading, and math to accelerate achievement and prepare students for 
employment.
    Invest in green jobs: A growing and relatively new area of 
governor-led reform is in emerging industries for clean, green, and 
renewable energy jobs. To equip workers with the skills and 
technologies required for green jobs, governors worked with community 
and technical colleges to create career pathways and certificate 
programs to ensure a pipeline of workers for new jobs in this emerging 
field.
    Build industry partnerships: Governors are also leading and 
creating new industry partnerships between employers, labor, training 
providers, community organizations, and other key stakeholders around 
specific industries within a region. Industry partnerships address the 
workforce needs of employers and the training, employment and career 
advancement needs of workers. The partnerships bring together workforce 
development and education systems and align them with the economic 
development and competitiveness strategies of the state.
    Across the country, industry partnership initiatives have led to 
equally positive results. Industries fulfill their human capital needs 
and increase the quality of their products and services, while trainees 
receive higher wages, healthcare benefits, pension plans, and paid 
leave, and additionally trainees see brighter prospects for future 
skill attainment and career opportunities.
    Because industry partnerships involve aligning strategies across 
many agencies, systems, and programs, gubernatorial leadership is 
critical. Governors can galvanize the leadership of industry and labor 
to ensure their voices are at the center of regional industry 
initiatives. Governors are also uniquely situated to influence public 
agency leadership and bring the work of public institutions into 
alignment with the needs of industry partnerships.
    Focus on Accountability and Improve Data: Governors are leading 
less glamorous, yet essential reforms to enhance service delivery, 
accountability, and improve overall program efficiencies, while 
reducing administrative costs, duplication, and layers of needless 
bureaucracy. These reforms are exciting, require the leading force of 
governors, cut across agencies and funding silos, and may prove the 
best promise to realize the vision of Congress to create ``one-stop 
shops'' for any job seeker to access services and training. One element 
of this reform is a move to common cross-cutting data that focus on the 
customer. But I'll speak more about that in a moment.

Governor Rendell: Leading Workforce Reform in Pennsylvania
    The national trends in governor-led workforce initiatives are 
evident in my state of Pennsylvania. Pennsylvania was one of the first 
states to develop industry partnerships and extend training and career 
building efforts beyond individual companies to networks of companies 
in specific industries. Governor Rendell understands that a lack of 
industry collaboration in workforce training can result in a skills gap 
for businesses, a loss of opportunity for working families, and a 
shortfall of innovation for industries. Building strong industry 
partnerships can fill those gaps, laying the foundation for prosperity 
that is broadly shared.
    The results of Pennsylvania's Industry Partnership's are 
impressive. More than 6,300 businesses are involved in nearly 80 
industry partnerships across the state. Since the initiatives inception 
in 2005, more than 70,000 workers have been trained, increasing their 
wages on average of more than 6 percent within the first year since 
receiving the training.

Governors' Recommendations for a World-class Workforce System
    Governors are taking action in their states to up skill workers, 
create jobs, and get America back to work for a more prosperous future. 
But to do this, governors also need your help to modernize the 
workforce system and move governor-led initiatives to scale nationwide. 
As preparation begins for reauthorization of the Workforce Investment 
Act of 1998, let me outline six specific recommendations governors make 
in their new workforce policy that can break down breakdown the 
roadblocks and support governor-led innovations.
    <bullet> Streamline Access to Training: With the unprecedented 
demands on workers for higher levels of education and new, cutting-edge 
skill sets, quick access to training and education is essential. Both 
employed and unemployed workers must have training opportunities 
throughout the span of their work life in order to get good jobs, 
advance in their careers and stay competitive. Congress should 
eliminate mandates that dictate the flow of services for workers.
    <bullet> Increase Funding Agility: Economic necessity requires 
Governors and local leaders to cobble together funds to provide 
enhanced training and education to workers. The existing barriers must 
be removed to make it more effective and cost efficient to do so. 
Congress should acknowledge the role of Governors by providing enhanced 
flexibility to coordinate and, when necessary at a state or local 
level, integrate workforce, education and economic development funding 
to meet the unique needs of their states and communities.
    <bullet> Align Federal Programs: As many as twelve different 
executive departments fund a variety of workforce programs, including 
the departments of Labor, Education, Commerce, Health and Human 
Services, Housing and Urban Development, Justice, Veterans, Defense, 
and Agriculture. This myriad of agencies, funding sources, regulations, 
and responsibilities needlessly complicate, and very often prohibit, 
the kinds of true alliances and collaboration that are necessary to 
streamline the workforce system. Congress should direct federal 
agencies to develop a joint initiative that will align federal 
programs, coordinate oversight and regulations, consolidate redundant 
and conflicting regulations, and establish transparent levels of 
responsibility and accountability.
    <bullet> Build Globally Competitive State-Led Regional Economies: 
State economies don't stop at the boarder and local economies don't 
stop at the city limits. Economies are regional in scope, crossing 
arbitrary and jurisdictional boundaries. Integrating economic and 
workforce development initiatives through a governor-led state-regional 
framework offers the greatest potential for economic expansion and 
industry competitiveness, while providing job growth, stability and 
career advancement opportunities for workers. Congress should provide 
governors the authority to design a delivery system that reflects the 
economy of the state and neighboring communities including the unique 
dynamics of industries and the workforce.
    <bullet> Focus On Emerging Industries. Globalization has increased 
the world demand for energy. To respond to national concerns, governors 
are proactively involved in establishing broad new energy 
collaborations and industry partnerships in clean and domestic energy 
and green jobs. Governors have also taken the lead in developing 
industry partnerships to address critical skills shortages in other key 
sectors like healthcare and technology. Congress should support strong 
public/private
    <bullet> Support Common Measures to Improve Accountability and 
Transparency: There has been a longstanding challenge and frustration 
caused by multiple and inconsistent federal performance measures for 
workforce programs. The nearly 100 complex and incomparable measures 
impede collaboration in both planning and service delivery and are not 
a sufficient tool for officials and stakeholders to understand system 
performance. Without common-sense performance measures, it is difficult 
to demonstrate the true difference these programs make in the lives of 
Americans. To respond to the challenge, the NGA joined with the 
National Association of State Workforce Agencies to develop common 
measures that increase system-wide accountability and transparency, 
while significantly decreasing administrative costs and inefficiencies. 
Congress should support the joint NGA/NASWA Common Measures Proposal 
which streamlines the existing performance measures into four critical 
measures that can be applied across all workforce programs.

Conclusion
    At this time, our states and citizens are experiencing 
unprecedented fiscal challenges. Governors are facing these challenges 
and united in unwavering belief that the United States' economy is 
resilient and the true strength of our nation remains the ingenuity, 
perseverance, and hard work of the American people. Americans want to 
work and Governors are leading reform to make this possible.
    To do so, however, it is time for the laws and policies of this 
country to catch up with the realities and possibilities of the 21st 
century. Reauthorization of the Workforce Investment Act must embody a 
new federal-state workforce vision; a partnership that equips governors 
with the tools to initiate bold, structural reforms that will keep our 
great nation competitive.
    Across the country, governors stand ready to work with Congress to 
ensure that every American has the opportunity for a good paying job 
and the ability to advance their career through lifelong learning. 
Governors know that better days lie ahead; the work you do now, in this 
Subcommittee, will enable or constrain our collective fate to meet the 
workforce challenges of tomorrow.

                              ATTACHMENTS

    1. National Governors Association Policy: Governors' Principles to 
Ensure Workforce Excellence
    2. Joint NGA/NASWA Common Measure Proposal for Reauthorization of 
the Workforce Investment Act
    3. State Sector Strategies: Regional Solutions to Worker and 
Employer Needs
    4. Accelerating State Adoption of Sector Strategies: An Eleven-
State Project to Promote Regional Solutions to Worker and Employer 
Needs
    5. Aligning State Workforce Development and Economic Development 
Initiatives
                                 ______
                                 
    Chairman Hinojosa. We thank you. And you can relay to the 
Governors Association that we will take their recommendations 
very seriously and definitely see how we can work them into the 
reauthorization of WIA.
    At this time, I would like to call on Ms. Raynor.

    STATEMENT OF CHARISSA RAYNOR, EXECUTIVE DIRECTOR, SEIU 
               HEALTHCARE NW TRAINING PARTNERSHIP

    Ms. Raynor. Good morning.
    Chairman Hinojosa. We can hear you better now.
    Ms. Raynor. Thank you, Chairman Hinojosa and Ranking Member 
Guthrie, for the opportunity to testify before the subcommittee 
today. I am Charissa Raynor, Executive Director of the Service 
Employees International Union Healthcare Northwest Training 
Partnership. The training partnership is a joint training 
effort by employers and SEIU. SEIU is the largest and fastest-
growing union in the nation, representing 2 million members in 
the public, health care, and property service sectors.
    I would like to focus my remarks today on the work of the 
SEIU Healthcare Northwest Training Partnership and have 
submitted the remainder of my testimony for the record.
    SEIU supports programs that prepare workers for a 21st-
century economy, with the opportunity to enhance both skills 
and earnings throughout their work life. Representing members 
in the high-growth, high-demand occupations, including home 
care, registered nurses, food service workers, janitors and 
childcare workers, SEIU has a proven track record of delivering 
job-training and education, placement, and career development 
to diverse workers in a variety of settings.
    SEIU often partners with employers, and we believe that 
this provides a good model for strengthening training 
partnerships under the Workforce Investment Act.
    In operation since July 2008, the training partnership is a 
nonprofit labor-management organization in Washington State 
dedicated to modernizing training and workforce development for 
long-term care workers and supporting career pathways for those 
workers who are ready to advance into hospital jobs, for 
example.
    By 2010, the training partnership will be the primary 
training provider for long-term care workers in Washington. We 
will be providing training to over 30,000 long-term care 
workers annually, and our programs will include entry-level 
homecare aid training, advanced homecare aid training, a peer 
mentorship program, and continuing education.
    We are predominantly funded by employer contributions and 
governed by a diverse board. Our programs are tuition-free for 
workers, and workers are paid to attend training by partner 
employers.
    Long-term care and hospital employers in Washington State 
are experiencing very serious workforce shortages and at the 
same time increasing demand for health care services related to 
the aging baby boomers. The state also has many poor and low-
income individuals, often women of color, who are interested in 
a career in health care. Matching these individuals with entry-
level career track jobs would benefit the economic status of 
these individuals and support access to high-quality care in 
their communities, turning crisis into an opportunity.
    Unfortunately, this opportunity is not often realized, 
because most entry-level jobs are dead-end, with little room 
for advancement. Our goal, then, is to reposition these jobs as 
stepping stones to a meaningful career in health care.
    We are in the early stages of developing a 21st-century 
platform that will link at scale these individuals to career 
tracks in health care and support them as they move up a career 
ladder. Specifically, we are working with partners to design 
modern, adult-learner-centered training programs for long-term 
care workers and plugging these programs into an accessible 
career track, statewide career track.
    Our focus is to link a series of high-demand health care 
operations across a fast track. Fast tracks credit these entry-
level homecare aides for their previous training and experience 
toward an end-goal degree, such as nursing and other high 
demand health degrees and certifications.
    As part of this fast track, we have established an 
intermediate step: advanced homecare aid under the 
apprenticeship model. And once implemented in 2010, this will 
be the first apprenticeship program for long-term care workers 
in Washington State and the largest apprenticeship program of 
any kind in Washington State.
    Second, the training partnership is working to develop a 
Web-based community network tool, a virtual entry point, if you 
will, helping community-based organizations help job-seekers to 
access a customized career track in health care.
    Features include a career track calculator that can be used 
to map different career track options in health care, depending 
upon the job-seeker's individual needs and goals, and a real-
time employment hub that can be used to identify and apply for 
job openings with partner employers.
    [The statement of Ms. Raynor follows:]

    Prepared Statement of Charissa Raynor, Executive Director, SEIU 
Healthcare NW Training Partnership, on Behalf of the Service Employees 
                       International Union (SEIU)

    Good morning. Thank you, Chairman Hinojosa and Ranking Member 
Guthrie for the opportunity to testify before the Subcommittee today. I 
am Charissa Raynor, Executive Director of the Service Employees 
International Union Healthcare Northwest Training Partnership. The 
Partnership is a joint training effort by employers and SEIU. SEIU is 
the largest and fastest-growing union in the nation, representing 2 
million members in the public, healthcare, and property services 
sectors.

SEIU's Vision for WIA and Workforce Development
    SEIU believes that the mission of WIA should be to prepare workers 
for a 21st century economy and to offer them opportunities throughout 
their work lives to enhance their skills and their earnings. According 
to U.S. Bureau of Labor Statistics projections, the top 15 fastest-
growing occupations over the next decade include home care aides, 
registered nurses, food service workers, janitors, and child care 
workers. However, these rapidly growing occupations, with the exception 
of registered nurses, pay, on average, wages that are below the median 
average wage for all occupations. As a union dedicated to lifting 
service workers into the middle class and to promoting the delivery of 
high-quality services, SEIU has a strong interest in working with the 
Subcommittee to reauthorize WIA to promote a comprehensive workforce 
development strategy to:
    1. Alleviate projected shortage occupations in such sectors as: 
healthcare, child care and early education, and property services;
    2. Offer low-literacy, low-skill workers intensive supports and 
learning strategies to fit their needs; and
    3. Create career paths that allow low-wage workers to rise to the 
middle class.
    SEIU has a proven track record delivering job training and 
education, job placement, and career development to home care, child 
care, property services and hospital and health system workers across 
the country. They have created ongoing training and education efforts 
in their larger local unions--often in partnership with their 
employers; and SEIU believes these efforts can serve as models to 
strengthen the Workforce Investment Act.

Innovations and Best Practices in Washington
    The work of the SEIU Healthcare NW Training Partnership, a joint 
labor-management program in Washington, is such an example. In 
operation since July 2008, the Training Partnership is a nonprofit, 
labor-management organization dedicated to modernizing training and 
workforce development for long term care workers and supporting career 
track programs for workers ready to advance into hospital employment. 
By 2010, the Training Partnership will be the primary training provider 
for long term care workers in Washington. We are primarily funded by 
employer contributions and governed by a diverse board including labor 
and employer representatives. Tuition for all training is paid and 
workers are paid for work time missed to attend training.
    Long term care and hospital employers across Washington are 
experiencing serious workforce shortages that are expected to worsen as 
baby boomers age--simultaneously reducing workforce supply and 
increasing demands on our healthcare systems--from entry-level, career 
track long term care jobs to high demand hospital jobs. At the same 
time, many poor and low-income individuals--often women of color--have 
an interest in healthcare as a career. Matching these individuals with 
entry-level, career track healthcare jobs in their communities would 
benefit both the economic status of these job seekers and support high 
quality care for people living in those same communities.
    More often than not though, these workers never access the career 
track because it is not visible or because it is not supportive. For 
example, very few entry-level long term care workers participate in a 
healthcare career track. In fact, most of these are dead-end jobs with 
no room for advancement at all. Our goal is to improve the attachment 
of poor and low-income individuals, especially people of color and 
women, across Washington to a meaningful healthcare career track. 
Especially in today's economic climate, the joint labor-management 
Training Partnership plays a critical role in Washington's overall 
strategy for economic stabilization and the benefits are three-fold: 1) 
building human capital; 2) meeting the current demand for trained 
healthcare professionals; and 3) responding to structural changes in 
the economy.
    Broadly, the SEIU Healthcare NW Training Partnership and partner 
organizations are in the early stages of developing a 21st century 
training platform that will link, at scale, these individuals to career 
tracks in healthcare and support them as they advance up the career 
ladder, providing a suite of career track training to more than 30,000 
long term care workers across Washington. This includes entry-level 
Home Care Aide training, advanced Home Care Aide training, Peer 
Mentorship for new workers, and continuing education for Home Care 
Aides.
    Specifically, the Training Partnership is working with partners to:
    1. Design a modernized, adult learner centered training program--
this includes developing an accessible statewide career track for home 
care aides. Our focus is to link a series of high demand healthcare 
occupations together in a ``fast track'' program for home care aides. 
This ``fast track'' ``credits'' the entry-level home care aide's 
training and experience toward their ultimate healthcare degree or 
certificate. We have also established an intermediate step for home 
care aides, Advanced Home Care Aide, under the Apprenticeship model. 
This Apprenticeship program will be the first for long term care 
workers in Washington. It is expected to be the largest Apprenticeship 
program of any kind and possibly the largest healthcare apprenticeship 
program in the country. In sum, we are creating targeted opportunities 
for career mobility in the high demand healthcare sector--from entry-
level career track home care aide to Advanced Home Care Aide to nursing 
and other high demand hospital jobs;
    2. Develop a Web-based Community Network Tool--a virtual entry 
point for community-based organizations to help job seekers access a 
customized career track and employment. Features include: a) a Career 
Track Calculator that can be used to map different career track options 
depending on individual goals and needs; and b) a Real Time Employment 
Hub that can be used to identify job openings among partner employers 
and being the application process.
    The joint labor-management training model, such as the SEIU 
Healthcare NW Training Partnership, maintains progress in difficult 
times and responds to the cyclical nature of economic downturns by 
sustaining public-private partnerships. Programs under the training 
partnership model are informed by a culturally and linguistically 
diverse set of stakeholders through two advisory structures: the 
College Consortium for college representatives and the Community 
Network for community-based organizations, including workforce 
development, consumer advocacy, and government agencies.
    While we have an excellent relationship with the WIB and many other 
community organizations, the Training Partnership has yet to receive 
WIA funding. Expanding the purpose of the Workforce Investment Act to 
include labor-management training programs would add value to the WIA 
funding system, as well as greatly enhance our ability to train 
unemployed and incumbent workers of all skill levels.

WIA Successes
    SEIU members play a dual role in worforce training and development. 
SEIU is a training provider in some industries and localities, and SEIU 
public employees in many states deliver services in One Stop Centers, 
proving crucial employment services for the unemployed. These members 
have assisted unemployed workers to receive unemployment benefits, 
trained job-seekers, guided them through their job search, helped them 
acquire work-related skills, and brokered the hiring process with 
employers. SEIU members know that strong workforce programs can help 
the country emerge from this economic downturn by helping job seekers 
gain the skills they need to find good jobs and earn a living wage. But 
in order to bolster the current system of workforce development, 
Congress must ensure adequate federal funding as well as preserve the 
successful delivery of employment services by the public sector, where 
there is an emphasis on universal access to services.
    Privatization of employment services short-changes those clients 
who face the greatest barriers as private contractors tend to focus on 
those workers easiest to place. A private institution may fail to 
deliver services locally or fail to provide individualized services 
based on a client's unique needs--or may charge a premium to provide 
comprehensive services. Job seekers with significant employment 
barriers, including seasonal workers, those with disabilities, those in 
need of special accommodations, or those in rural areas; are likely to 
be given short shrift under a privatized model.
    In this time of economic crisis, the preservation of public sector 
delivery of employment services and the federal requirement that 
Wagner-Peyser Employment Services be delivered by civil service 
employees is crucial to WIA's continued success. The reauthorization of 
WIA offers an opportunity to codify this longstanding regulatory 
requirement in legislative language.

Reforms to WIA
    Based on these innovations and successes of WIA, SEIU recommends 
these reforms which will strengthen WIA to create the robust workforce 
development system the country needs to combat the record levels of 
unemployment and underemployment and to support workers to succeed in a 
dynamic economy.
    First, SEIU recommends fostering more partnerships at every level, 
and include labor and other community advocates in the planning and 
delivery of services. When workers belong to a union, they have the 
opportunity to bargain for additional on-the-job training and other 
educational and advancement opportunities. SEIU has formed many 
partnerships with employers to invest additional resources in training, 
yet WIA does not reward these partnerships and employers who invest in 
incumbent workers. These collaborations result in career ladders that 
provide opportunities for noncollege educated workers to increase their 
skills and their paychecks, and they open up entry-level positions for 
disadvantaged or unemployed workers. In contrast to many training 
programs currently funded by WIA, SEIU labor-management training 
programs almost always result in a real job at the end of successful 
completion of training.
    Specifically, SEIU recommends that you amend WIA to allow state and 
local boards to contract with labor-management training funds to 
provide occupational skills training, on-thejob training and workplace 
training with related instruction, and/or skill upgrading and 
retraining. This can be accomplished by amending the eligible criteria 
for training partners and by allowing the governor to add labor-
management training funds to the list of eligible entities that are 
submitted for his approval by local boards.
    Second, SEIU recommends that training resources be more focused on 
high-growth, high-demand sectors. SEIU supports sectoral strategies 
where WIA resources are used to target identified needs and shortages 
in sectors that are growing and creating good jobs. For example, our 
healthcare system suffers from chronic workforce shortages and employs 
too few workers dedicated to prevention and primary care. Priority 
sectors should include healthcare and long term care, child care and 
early education, and green jobs. WIA funding can be used not just to 
alleviate a nursing shortage, but to grow a more diverse nursing 
profession and promote more nurses working in underserved areas.
    Third, SEIU recommends increased use of grants to fund training and 
educational entities. The WIA system should not continue to rely on 
Individual Training Accounts as the primary mechanism to deliver 
services to eligible workers. Individual Training Accounts, for 
example, are too small to support a nurse's aide who has the motivation 
and opportunity to go to nursing school. The Trade Adjustment 
Assistance Act, by contrast, offers workers displaced by trade 
significantly more federal support than other displaced workers are 
eligible for under WIA. ITAs also do not promote proven learning 
strategies, such as cohort training. ITAs were created to offer 
additional choice, but they only offer the illusion of choice and 
generate high administrative costs. Low-wage incumbent workers who have 
demonstrated a strong attachment to the workforce but need additional 
skills to access career ladders cannot easily qualify for ITAs.
    Fourth, SEIU recommends increasing the percentage of funding 
allocated to statewide activities. WIA currently allocates 15 percent 
of a state's WIA funding to statewide activities. Increasing this by 5 
percent would allow governors to develop strategic plans for workforce 
development and have more authority to create larger initiatives and 
target funding to accomplish initiatives that address wage inequality 
and that can further sector strategies, such as a statewide initiative 
to upgrade the early childhood education workforce or an initiative to 
address the nursing shortage. Additionally, some incumbent workers are 
at risk of job loss due to changing technology or industry 
restructuring, and it may be more cost-effective to intervene before 
they become unemployed.
    Fifth, SEIU suggests requiring greater coordination among other 
education and training programs. Training dollars should be an integral 
component of broader strategies to promote economic development and 
alleviate poverty. SEIU supports a broader vision of education and 
lifelong skills building that can leverage student loans and Pell 
grants with WIA dollars and community college resources, for example. 
Federal child care subsidies should also be made available to workers 
who would otherwise be unable to continue their education and training. 
This kind of coordination is more feasible at the state level than at 
the level of local WIBs.
    Finally, SEIU recommends that the Committee reform the structure of 
local WIBs as it reauthorizes WIA. Many local WIBs lack a broad vision 
and real community representation, including unions and other advocates 
for workers and distressed communities.

Conclusion
    SEIU appreciates the significant resources the Congress provided in 
the American Recovery and Reinvestment Act to modernize unemployment 
benefits, increase support for state employees to serve unemployed 
workers, and increase WIA funding and competitive training grants 
during this extremely difficult economic time. SEIU looks forward to 
working with the Subcommittee, as well as the full Education and Labor 
Committee, to devise a workforce development system that works for all 
workers.
    Thank you and I look forward to your questions.
                                 ______
                                 
    Chairman Hinojosa. I am going to interrupt you and say that 
we love the information that you are sharing with us. I am 
going to make sure that the entire statement is put into the 
record.
    Votes have been called, two of them, and I am going to 
request of members who wish to stay that we have enough time to 
listen to the presentation by Mr. Smith and the presentation by 
Mr. Lanter. After your 5 minutes each, we will then run to vote 
and return to have the question session with each one of you.
    So with that, I would like to proceed to listen to Mr. 
Smith's presentation.

 STATEMENT OF KEVIN G. SMITH, EXECUTIVE DIRECTOR, LITERACY NEW 
                           YORK, INC.

    Mr. Smith. Chairman Hinojosa, Mr. Guthrie, members of the 
subcommittee, current economic conditions notwithstanding, 
America's supply of adequately skilled workers does not meet 
its demand. It is essential to consider what skills are 
available versus those needed to support and sustain national, 
state and local economic development strategies.
    As the nation succeeds in building an economic recovery, 
including job creation, the skills gap will impede progress. 
Simply, citizens who lack basic literacy and language skills 
will continue to draw from, rather than contribute to, efforts 
to create economic stability and growth. We must invest in our 
nation's human infrastructure, as we do the nation's capital 
infrastructure.
    When discussing the issue of adult literacy, advocates 
point to studies indicating millions who function below basic 
levels. The 2003 National Assessment of Adult Literacy and more 
recent National Center for Education Statistics reports 
chronicle the issue, indicating that more than 30 million, or 
14 percent of adults, possess skills below basic.
    In my home state of New York, that number is 22 percent, 
although in Congressman Bishop's district, it is the same as 
the national figure, where 1 in 7, more than 160,000 working-
age individuals, have below basic skills. The simplest 
information processing tasks are challenging.
    Another 63 million, or 29 percent of adults, function at 
levels considered to be at basic. These adults may become 
challenged as accessing, understanding and utilizing 
information at work or elsewhere becomes more complex.
    In many cases, these are native-born adults who have 
attended public school, but for a variety of reasons not gained 
the desired abilities. For many others, they are immigrants who 
have come to the United States with varying levels of academic 
exposure and success, but do not speak English well enough to 
fully engage in social and economic activities.
    It is very important for the committee to consider the wide 
scope of adults that may benefit by improved literacy and 
language skills to support their training and employment goals 
when crafting legislation that better supports the development 
of a more highly and appropriately skilled workforce.
    My written comments go into greater detail on the condition 
of the two systems operating under Title I and Title II of the 
Workforce Investment Act. Suffice to say that each has been 
severely limited by the level or loss of funding and the scope 
of the need and expectation of service. Neither system is able 
to provide the services to meet the current demand, and both 
are challenged to respond to the emerging increase in programs 
needed to meet the nation's economic recovery and development 
plans.
    The need for adult education services far exceeds the 
capacity of the current system to deliver. There is no doubt 
that we will need to enhance efforts to serve more, better, not 
just to help people to help themselves, but to maximize the 
country's investment in economic recovery.
    However, before we consider how much it would cost to serve 
3 million or 5 million or 17 million more adults, it is 
important to consider re-engineering the current system into 
one that can and will efficiently and effectively assess the 
compatibility of skills available in the nation, state, 
community and individual to specifically meet the demands for 
skills in these current and future economies.
    Obviously, difficult decisions will have to be made 
regarding how many may be served how well in order to expedite 
development of skills needed to fill jobs available and being 
created.
    Analogous to plans to focus on sector employment, we should 
consider literacy and language skills needed to fill jobs in 
those sectors and concentrate and coordinate our efforts 
accordingly.
    Adults seek education services due to a very wide range of 
learning needs and goals. Native-born adults with reading 
abilities ranging from the 1st-grade level all the way to the 
12th seek support to advance to the next level. Immigrants who 
are not literate in their native language, as well as highly 
educated professionals, seek help to improve their English-
language skills.
    The system responding to this continuum of need include 
secondary, post-secondary, community-based, faith-based, 
library, and volunteer-based sectors. These programs are all 
competing for scant resources needed to serve the learning 
needs of this large, complex population. Very limited resources 
are spread very thin.
    State and local contributions vary widely. The level of 
investment from program to program varies dramatically, as does 
the quantity and quality of service.
    Community colleges seeking to serve higher-level students 
compete with community-based programs better suited to serving 
those with less skill. State education agencies, compelled to 
fund secondary or post-secondary institutions, finesse the 
competitive process, despite direct inequitable statutory 
language.
    Programs are pitted against each other, rather than 
creating a greater sum, because there is such great need and so 
few resources and strategic planning.
    [The statement of Mr. Smith follows:]

       Prepared Statement of Kevin G. Smith, Executive Director,
                        Literacy New York, Inc.

    Current economic conditions not withstanding, America's supply of 
adequately skilled workers does not meet its demand. It is essential to 
consider what skills are available versus those needed to support and 
sustain national, state and local economic development strategies. As 
the nation succeeds in building an economic recovery, including job 
creation, the skills gap will impede progress. Simply, citizens who 
lack basic literacy and language skills will continue to draw from 
rather than contribute to efforts to create economic stability and 
growth. We must invest in the nation's human infrastructure, as we do 
the nation's capital infrastructure.
    When discussing the issue of adult literacy, advocates point to 
studies indicating the millions who function below basic levels. The 
2003 National Assessment of Adult Literacy (NAAL) and more recent 
National Center for Education Statistics (NCES) reports chronicle the 
issue indicating that 30 million or 14% of adults possess below basic 
skills. In my home state of New York that number is 22%, although in 
Congressman Bishop's district it is the same as the national figure--
where one in seven or 160,034 working age individuals have below basic 
skills. The simplest information processing tasks are challenging. 
Another 63 million or 29% of adults function at levels consider to be 
basic. These adults may become challenged as accessing, understanding 
and utilizing information at work becomes more sophisticated. In many 
cases, these are native born people who have attended public school 
but, for a variety of reasons, not gained the desired abilities. For 
many others, they are immigrants who have come to the United States 
with varying level of academic exposure and success but do not speak 
English well enough to fully engage in social and economic activities. 
It is very important for the Committee to consider the wide scope of 
adults that may benefit by improved literacy and language skills to 
support their training and employment goals when crafting legislation 
that facilitates the development of a more highly and appropriately 
skilled workforce.
    The Workforce Investment Act of 1998 correctly tied the adult 
training and education systems together. The law suggests levels of 
coordination and cooperation. Many in the adult education community 
remain concerned about dedicating our work strictly on workforce 
development. Nonetheless, it is clear that supporting incumbent and 
unemployed workers with the skills they need to acquire and retain 
employment is critical. Honestly, while there are examples of 
successful local initiatives, much more needs to be done to research 
and implement more efficient and effective practices that seamlessly 
merge WIA Title I and Title II functions.
    As has already been testified, the need for adult education 
services far exceeds the capacity of the current system to deliver. You 
know that of the 88 to 93 million Americans who have basic or below 
basic skills fewer than 3 million are getting help. Some, notably the 
National Commission on Adult Literacy (NCAL) have called for a new 
approach and investment supporting a massive expansion of the adult 
education system. There is no doubt that we will need to enhance 
efforts to serve more, better; not just to help people to help 
themselves but to maximize the country's investment in economic 
recovery as well.
    However, before we consider how much it would cost to serve 3 or 5 
or 17 million more adults, it is important to consider reengineering 
the current system in to one that can and will efficiently and 
effectively assess the compatibility of the skills available in the 
nation, state, community and individual to specifically meet the demand 
for skills in these respective current and future economies. Obviously, 
difficult decisions will have to be made regarding how many may be 
served how well in order to expedite development of the skills needed 
to fill the jobs available and being created. Analogous to plans to 
focus on sector employment we should consider the literacy and language 
skills needed to fill jobs in those sectors and concentrate and 
coordinate our efforts accordingly. The current system does not 
function in that manner. Why? * * * because it lacks the capacity to do 
so, capacity that includes human and fiscal resources, flexibility, 
local authority and relative parity. The result is two distinct systems 
still operating as if they had no related purpose when, in fact, a 
large percentage of Title II students have employment goals and Title I 
customers need literacy or language improvement in order to avail and 
benefit by One-Stop services.
    In order to further explain the problems faced by adults seeking 
skill development as needed to become and remain employed it may be 
useful to consider further the range of learning needs that the adult 
education system is expected to address and then, therefore, why 
coordination is so difficult. As you may know, the National Reporting 
System (NRS), WIA Title II reporting matrix has categorizes learners as 
Basic Literacy or English for Speakers of Other Languages (ESOL). 
Further, these two populations are divided into six levels each. A 
Level I Basic Literacy student tests in at reading below the second 
grade reading level while a Level 6 student demonstrates abilities 
between grade 11 and 12. For the ESOL population the six levels also 
create a scale of English language competency that is an equally broad 
spectrum of abilities. Simply, the adult education system accommodates 
learners the equivalent of a K-12 system for Basic Literacy students 
and a K-12 system for ESOL students. However, it must be considered, 
that the adult education system is working, for the most part, with the 
students who have not achieved success as school-aged learners and who 
present with multiple literacy-related issues including poverty, 
unemployment, incarceration, substance & alcohol abuse, chronic health 
problems and so on.
    The system responding to this continuum of need includes secondary, 
post-secondary, community-based, faith-based, library and volunteer-
based sectors. These programs are all competing for scant resources 
needed to serve the learning needs of this large, complex population. 
The very limited resources are spread very thin. State and local 
contributions vary widely. The level of investment from program to 
program varies dramatically as does the quantity and quality of 
service. Community colleges seeking to serve Level 5&6 students compete 
with community-based programs better suited to serving Level 1&2. State 
Education Agencies (SEAs) compelled to get funds to secondary or post-
secondary institutions finesse the competitive process despite `direct 
& equitable' statutory language. Programs are pitted against each other 
rather than creating a greater sum because there is such great need and 
so few resources and strategic planning.
    On the WIA Title 1 side of the equation, years of deep funding cuts 
have diminished services and capacity. As in any economy, less is 
managed by reduction of costs. Fewer are served and, all things being 
equal, those who cost the least to serve are targeted. Programs that do 
not have fully developed partnerships are relegated to selecting those 
closest to job placement. Others have created structures and 
partnership that facilitate the disparity of readiness to work and 
availability of employment. This capacity should not be a local anomaly 
based on governmental structure or leadership. Rather, it must be 
systematic.
    Despite the problems very good work is being accomplished within 
and between the WIA Title I and Title II systems. Here are few examples 
of what is or could be happening to improve the effort:

Suffolk County, New York
    In Suffolk County, New York the Workforce Investment Board (WIB) 
and One-Stop have been structured in a way that allows for public 
assistance recipients lacking the skill needed for employment to be 
served accordingly and avoiding inappropriate placement and rating for 
the One-Stop operator. They have developed a strong referral system 
with the Long Island Regional Adult Education Network (RAEN) that 
brokers services to a range of all sectors of adult education programs 
by learning need and service availability.
    Despite this strong local solution to the structural and funding 
issues they face, they recognize that things could work better. 
Statutory authority to seek and secure the literacy and language skill 
development required to place customers in the jobs that are available 
would be greatly facilitated by making placement into educational 
services a positive outcome. Reinstituting the multiple variable 
regression model from the Job Training Partnership Act (JTPA) would 
allow One-Stop Career Centers to address more difficult-to-serve 
populations without sacrificing their performance and accompanying 
incentive funding in this difficult fiscal climate. Veteran operators 
report that under the old system a weighted--scale permitted them to 
identify and serve adults with more serious and difficult employment 
barriers.

Allegany County, New York
    In Allegany County, New York, a rural county in the western part of 
the state, a partnership between the WIB, the two major employers and 
the local volunteer literacy program has found great success. Dresser 
Rand, one of the largest global suppliers of rotating equipment 
solutions and a large regional Dairy, which together employ a 
significant percentage of the working population, have each established 
minimum skill levels for employment consideration. If a perspective 
employee enters the system lacking the skills needed to pass the 
employer-administered test, they are referred to Literacy West for a 
six-week course that has produced results highly satisfactory to both 
employers. The CEO of Dresser Rand has indicated that this flow of 
skilled workers and the support of the workforce and adult education 
communities has figured prominently in their decision to remain and 
continue to invest in upstate New York.
    Again, improvements can and should be considered. As in Suffolk 
County, New York there is a lack of clarity regarding protocol and 
procedure in referring customers from the One-Stop to the adult 
education provider. Two distinct data systems that do not communicate 
or share information further hinder efficiency. The inability to obtain 
read only, much less limited data entry access, clearance for the adult 
education partner in Title Is data system forces multiple and more 
expensive steps.
    The One Stops data system provides Literacy West with the 
employment status they need to complete their NRS data reporting 
required by New York State for all adult education funding. This is the 
only adult education program in the state that I am aware of that has 
this access. All others have used less reliable, more costly post-
program survey strategies to track the employment outcome they are 
responsible to report. This cooperation and capacity, coupled with the 
exemplary educational gain results they produced, made them the most 
highly ranked adult education program in the state last year.

Conflicting Outcome Expectations
    Another concept for consideration is retooling our adult education 
system to specifically deliver workplace skills. Currently, there is a 
growing conflict between demonstrating educational gain outcomes as 
indicated by norm-referenced tests and soft skill instruction and job 
protocols. Employers consistently report wanting employees who show up 
on time and work well with others but adult education is forced to 
focus on academic services to realize educational gain outcomes. There 
has simply got to be a way to modify service outcome expectations to 
support and report the delivery of services that effectively produce 
job acquisition and retention results and that encourage the 
continuation of literacy and language development while workers are 
employed.

The Volunteer Asset
    The adult education system is unique for its significant volunteer-
based service response. The nation should be proud of this history and 
heritage, yet many view it as evidence of the system's relative 
insignificance and value. I encourage this Committee to consider, 
especially with the renewed Presidential call to voluntary services, 
the worth and role of the volunteer sector. Currently relegated to 
serving the most in need with the least resources, the volunteer-based 
programs have persisted in organizing fundamental neighbor-helping-
neighbor efforts across the country. Better supported and utilized as 
additional support to group instruction services or as job coach/ 
community mentors to high risk new hires are a couple of ways of 
considering to better utilize the rich volunteer resource already 
serving in adult education.
    The nation and states need to sort out how many adults can be 
served how well with the resources made available under WIA Title II. 
In Policies to Promote Adult Education and Postsecondary Alignment 
Julie Strawn, CLASP Senior Policy Analyst, reported that the national 
average investment from all sources per student, per year is only $645. 
Not surprisingly, she went on to report that few adult education 
students go on to postsecondary education and a very high percentage of 
those who do not complete. This analysis speaks clearly for the need to 
create a continuum of adult education services in each state and as 
required in law. The nation must strategically engage the assets it has 
available to serve the full spectrum of Basic Literacy and ESOL 
learning needs, and use the resources made available to develop and 
coordinate the same.
    Both WIA systems have atrophied significantly in recent years and 
are in desperate need of reengineering and rebuilding. Together they 
represent an essential aspect of our country's infrastructure and 
capacity to close the skills gap between our nation's workforce and 
business needs to compete in this 21st Century global economy.
                                 ______
                                 
    Chairman Hinojosa. Mr. Smith, we are going to make your 
entire presentation part of this hearing.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Hinojosa. And we are going to call on Mr. Lanter.

   STATEMENT OF BOB LANTER, EXECUTIVE DIRECTOR, CONTRA COSTA 
               COUNTY WORKFORCE INVESTMENT BOARD

    Mr. Lanter. Good morning, Mr. Chairman, members of the 
subcommittee. On behalf of the California Workforce Association 
and our membership, I am pleased to be here today to share our 
best thinking on workforce investment in our country.
    I am also pleased to point out that I am a constituent from 
Chairman George Miller's district and want to acknowledge how 
grateful we are that he has been a champion both nationally and 
back at home.
    I want to take a second to thank and recognize members Buck 
McKeon and Susan Davis, who have both been strong supporters in 
California.
    There are three essential ingredients to the Workforce 
Investment Act which serve as common themes that run throughout 
our local roles and regional focus.
    First, WIA provides an infrastructure of workforce 
investment boards, led by the private sector. These WIBs are 
the only places in local communities that serve as a table, 
where key stakeholders come together to develop solutions to 
local and regional workforce issues.
    This structure is not perfect--our boards are too big and 
sometimes unwieldy--but the concept is a smart one. Make sure 
the private sector is in the lead, they know where the jobs 
are, they understand the skills that are needed, and they 
demand accountability.
    Second, WIA gives authority to a partnership of local 
elected officials and workforce investment boards to design and 
deliver solutions that meet their local communities' needs. 
Economist strategists throughout the world call for regional 
approaches in building global competitiveness and exhort us to 
devolve state and national approaches in favor of regional 
strategies.
    Industry sectors, skill development, economic prosperity 
cannot be delivered at a state level through a state system. 
One size does not fit all.
    Another key reason that this local design is so important 
is that millions of dollars are being leveraged through local 
funding streams. Research conducted in California showed that, 
by combining smaller WIBs into regional bodies, we would have 
lost a million dollars to the system. Mayors and county 
supervisors are just not able nor willing to give up their 
local funding to larger regional jurisdictions or state 
governments.
    Thirdly, WIA established one-stop career centers, where in 
theory many resources would be targeted and leveraged. In 
reality, this occurs in wildly uneven examples across the 
country.
    This is mainly due to the fact that the Workforce 
Investment Act requires other systems to invest in our one-
stops. However, none of the corresponding federal law requires 
this investment.
    This lack of investment has meant that WIA funding that 
would otherwise go to training is going to keep our one-stops 
running, and we must keep our one-stops running. In California, 
these career centers have been inundated with customers, some 
seeing 100 percent increase over the last year. In San Diego 
alone, since July 2008, 88,000 customers have went through 
their doors.
    A word on innovation. California has been engaged for many 
years in focusing on industry sectors. They vary by design and 
activities and outcomes because they are customized to meet the 
needs of a certain industry. They all use labor market 
information to determine their industry of choice. They are 
driven by local demand from the business sector and are 
partners with diverse and public-private stakeholders. They are 
fantastic examples of what can be done with WIA funding.
    In Contra Costa, we are faced with a shortage of process 
technicians in the petrochemical industry. We partnered with 
the region's refineries, with Dow Chemical and other large 
manufacturers, along with the United Steelworkers and community 
colleges, to develop a 20-week training program targeted to 
dislocated construction and airline workers and returning 
veterans. The program has been so successful, it is now offered 
as part of a normal semester-based system within the community 
college programs.
    Lastly, Workforce Investment Act. CWA has spent a 
considerable amount of time developing suggestions for 
reauthorization. We are happy to provide this committee with 
specific examples, but I would like to highlight three quick 
points.
    First of all, private-sector-led boards make sense. We need 
to adjust the requirement so that they are not too big to 
conduct business. Give local areas more autonomy under the law 
to appoint their key stakeholders. Give them their own title 
and their own budget authority so that they can serve as the 
very important intermediary and convening role.
    One-stop career centers, as was quoted recently in the New 
York Times, are emergency rooms of the economic crisis. We must 
continue to innovate and create more flexibility in terms of 
requirements about who gets served and when, create more 
incentives for other community resources to locate and fund 
their staff within our centers, and, lastly, we need to 
continue to innovate youth programs providing opportunities for 
career pathways, work experience, and contextualized vocational 
education.
    Let us all participate in constructive dialogue so that we 
can identify what needs to be fixed and the new elements that 
are required for the new economy. Thank you for the opportunity 
to provide testimony today. The California Workforce 
Association is pleased to be a resource to your committee and 
to other policymakers as we move forward with Workforce 
Investment Act reauthorization and continue the work to 
revitalize our nation's economy.
    Thank you.
    [The statement of Mr. Lanter follows:]

 Prepared Statement of Bob Lanter, Legislative Committee Chairman, CWA 
      Executive Director, Contra Costa Workforce Development Board

    Good Morning, Mr. Chairman, and members of the Subcommittee. My 
name is Bob Lanter, and I serve as the Legislative Committee Director 
for the California Workforce Association (CWA), as well as the 
Executive Director for the Contra Costa Workforce Investment Board. On 
behalf of CWA, and our membership, I am pleased to be here today to 
share our best thinking on what innovations have already been initiated 
through the Workforce Investment Act, and provide you with suggestions 
on how to further strengthen the workforce investment system.
    I want to recognize members of the Subcommittee for your 
outstanding leadership in the area of workforce development, and thank 
members Susan Davis and Duncan Hunter, who have been strong supporters 
in California. Of course, we are also very thankful for Buck McKeon's 
on-going commitment to the workforce system. And I am pleased to point 
out that I am a constituent from Chairman George Miller's district, and 
want to acknowledge how much we appreciate that he has been a champion, 
both nationally, and in his district, for workforce programs.
    California's economy, as one of the largest in the world, has 
withstood booms and busts over its history, but now faces a unique set 
of challenging conditions: an unprecedented state budget gap, a 
statewide unemployment rate nearing 10%, increased housing 
foreclosures, and a widening achievement gap among students. The 
recession is disproportionately hitting low-skill workers, while at the 
same time some industries are still facing skill and/or labor shortages 
in higher-skill occupations.
    Last year approximately three million customers were served through 
California's One-Stop Career Centers. We are hearing that in some 
areas, the number of customers walking through the door has doubled. In 
San Diego alone, more than 88,000 people have visited the One-Stops 
since July 2008. Confounding our ability to respond is the fact that 
the funding for our programs has been decimated in the last 8 years--
California has lost almost 50 percent of our WIA funding.
    Even with all of these challenges, we believe the economic crisis 
may prove to spur creativity and innovation and pave the way for a more 
optimistic future. We also believe there is a great opportunity for 
using the stimulus funding provided through the American Recovery and 
Reinvestment Act (ARRA) to build and repair this nation's human capital 
infrastructure and assist in getting Californians back to work.
    In the 1930s, we were a nation with an economic engine fueled by 
the capacity of our physical infrastructure. Thus, when the need came 
to stimulate the economy, our country created millions of jobs for a 
nation of manual laborers to strengthen that physical infrastructure.
    Today's economy is much more dependent on a skilled, knowledge-
based workforce. If this human capital is the most important component 
of our economic infrastructure, then we must be building a skilled 
workforce. With help from Congress, America's public workforce system 
is poised to leverage this difficult moment to prepare our workers for 
the skills we need to once again be most prosperous and productive 
nation.

Context

            What is the Workforce Investment Act?

    One of the difficulties of providing testimony to Congress about 
the Workforce Investment Act (WIA) is that it means very different 
things to different people. To some, it is a job training program for 
the unemployed, and in particular, those with barriers to employment. 
For others, it is a system of One-Stop Career Centers, there to provide 
information to all of a community's residents about jobs, training 
opportunities and other community resources; and to help people get 
jobs. To many, it is an infrastructure of Workforce Investment Boards--
stewards of the WIA funds, but equally important, groups of community 
leaders who understand the needs of businesses in their region and who 
work to ensure that there is a skilled workforce to meet those needs. 
And to others, WIA is a set of programs specifically designed to meet 
the needs of unemployed adults, dislocated workers, and youth 
unconnected to school and work. Last (and probably not least) there are 
those who expect WIA funds to help businesses recruit and retain their 
workers, grow their businesses, increase productivity, and increase the 
overall competitiveness of economic regions.
    The truth is that the Workforce Investment Act is all of these 
things. Different WIBs focus on different roles, largely to meet the 
needs of their local communities. The strength and the weakness of the 
locally-driven nature of the system is that it is tailored to meet 
local demand, but hard to classify and brand as one thing. These 
differing expectations of the workforce system have created 
misunderstandings about what is working and what isn't. For example, 
many One-Stop Career Centers have done what the federal law 
encourages--they have leveraged their resources with other funds in the 
community, and use Pell Grants and community college funding to pay for 
training. When you look at their statistics, you will see that they 
have spent virtually no WIA funding on training--but when you look at 
the total investment in the services being delivered through the One-
Stop, you see that hundreds of people have received training and other 
services funded by other systems.
    There are three essential ingredients, if you will, of the 
Workforce Investment Act, which serve as common themes throughout the 
differences in roles and regional focus.
            Private Sector led WIBs
    First, WIA provides an infrastructure of WIBs, led by the private 
sector, which are the only places in local communities that serve as a 
``table'' where all are invited. The WIB includes business, organized 
labor, state and local government, education, and community 
organizations. This structure is not perfect--the boards are too big, 
sometimes unwieldy, and sometimes ineffective. We can provide 
suggestions on how to improve this problem, but the concept behind them 
is smart. Make sure the private sector is in the lead--they know where 
the jobs are, they understand the skills that are needed, and it is 
their job to be impatient with public sector bureaucracy and make sure 
that things get done.
            Partnership of Local Elected Officials and WIBs
    Second, WIA gives authority to a partnership of local elected 
officials and WIBs to design and deliver strategies that meet the needs 
of their communities and regions. Economic strategists throughout the 
world call for regional approaches to building global competitiveness 
and exhort us to devolve state and national approaches in favor of 
regional strategy. Although there is often disagreement about how many 
WIBs there should be, and whether regional governance and regional 
strategy are the same thing, strategies around industry sectors, skill 
development, and economic prosperity cannot be delivered at a state 
level through a state system.
    The other key reason that this local design is so important is that 
millions of dollars are being leveraged through other local funding 
streams. In many parts of the country, TANF, Community Development 
Block Grants, Community Services Block Grants, economic development and 
other resources are contributed through the leadership of local elected 
officials. In California, we did research on these investments early in 
the Schwarzenegger administration, when there was an effort to reduce 
the number of WIBs in California. What we found surprised even us--by 
combining smaller WIBs into larger regional bodies, we would have lost 
millions of dollars--mayors and county supervisors are willing and able 
to contribute other funds when they are being managed through the local 
partnership, but unwilling and unable if they are offering up funds to 
a larger region or state government.
            One-Stop Career Centers
    Third, WIA established One-Stop Career Centers, where in theory, 
many community resources are invested so that much of the funding 
targeted towards the unemployed could be leveraged. No one can argue 
that this makes great sense. In reality, since WIA required other 
systems to invest in One-Stops but none of the federal laws governing 
other systems required this same investment, there has been wildly 
uneven around the country.
    In California, where the State Workforce Investment Board 
commissioned a study on how much services cost in a One-Stop, the 
Employment Service is the largest investor outside of WIA, and then it 
is actually agencies that are not mandated by law to participate that 
bring in the most resources. In other states, such as Texas and 
Michigan, because of laws passed at the state level, WIBs receive 
funding such as TANF, food stamps, child care and adult education. In 
demonstrations currently taking place around the country, One-Stops are 
providing supports for the working poor, including welfare, food 
stamps, earned income tax credits.
    In most states, certainly in California, the lack of investment of 
other funds has meant that funding that would otherwise go to training 
is going to keeping the One-Stops running. And the problem is, One-
Stops are successful community resources. In the last six months, 
California's One-Stops have been inundated with customers. Many of 
these customers are coming to the One-Stop for the first time; many 
One-Stops have seen a 100 percent increase in customers looking to get 
help in getting back to work. Again, One-Stops are not perfect, and the 
leveraging of funds is not working all over the country, but the 
concept of One-Stop services makes perfect sense.
            New innovations and best practice
    WIBs throughout the entire State have collectively worked together 
on a number of initiatives, and have started even more in response to 
the economic downturn. Through our Association, California's 49 WIBs 
have launched a website, backtowork.org, which provides information 
``in English'' to those who have lost their jobs and want to upgrade 
their skills, file for unemployment, and look for work. We have 
established a Recovery Act Task Force, and are meeting with statewide 
associations representing economic development, community college 
Career Technical Education programs, foster youth and TANF, organized 
labor, mental health programs, and those working on infrastructure and 
energy. We are also meeting regularly with our State and Federal 
partners. Last week, WIB staff from 40 WIBs met to develop a Summer 
Youth template that all WIBs can use to help ensure high quality 
programs throughout the State.
            Community Leadership
    At the local and regional level, California WIBs have increasingly 
taken on a community leadership role and serve to catalyze change in 
their communities. This work ranges from regional strategic planning, 
labor market research, aligning resources across systems, brokering 
services and training, to in-depth industry sector work. WIBs right now 
are quickly moving forward to develop plans for how best to respond to 
the current economic crisis, leveraging the funding that will be 
distributed under the ARRA, and have positioned themselves well to use 
the larger workforce system to ensure success.
    We have also been working on developing the capacity of WIB staff 
across the State to operate in a transparent and participatory fashion. 
We are pleased to see President Obama's Executive Order that requires 
this form of governance. WIBs have invested in the capacity of their 
staff to develop relationships, collaborate with other systems, and 
codesign programs and initiatives with a broad range of public and 
private sector partners, rather than ``going it alone.''
            Regional Strategic Planning
    California has developed a new methodology for understanding 
regional economies, Clusters of Opportunity, which has allowed WIBs to 
gain new insights into the current and future jobs and occupations, and 
the skills required to become employed in those jobs. Developed by the 
Economic Strategy Panel and California Workforce Investment Board's 
California Regional Economies Project, this methodology is being used 
by WIBs and their economic development and education partners around 
the State. In Humboldt County, for example, even though there was a 
belief that there were no industry sectors with sufficient scale to 
launch training programs, using this methodology, they discovered 500 
niche manufacturers within the region. This allowed the WIB to 
collaborate with the community college to develop a curriculum that 
would meet employers' needs, and provide training for residents who 
might otherwise have moved out of the region to pursue jobs in other 
counties.
    In Tulare County, the WIB and local educational agencies--both K-12 
and community colleges started to look at the assets and services in 
the region, and realized that there were a number of employer advisory 
groups, all established under different funding, that were all in 
essence providing the same function. They have collectively agreed that 
the WIB, in collaboration with the schools and colleges, will establish 
single advisory groups within targeted industries, and all of the 
agencies will use the same groups to advise them on training, education 
and strategy.
    In the San Joaquin Valley, with funding from the State, 8 WIBs have 
agreed on the same target industries, the same assessment tools, and 
the same protocols with community colleges. The California Workforce 
Association has recently been given a grant from the California 
Endowment, which will allow 4 or 5 consortia of WIBs throughout 
California to develop regional plans related to the healthcare 
workforce.
            Sector Strategies
    California has been engaged for many years in focusing on industry 
sector strategies; they vary by design, activities and outcomes because 
they are customized to the needs of a specific industry in a specific 
region. They all use labor market information to determine their 
industry and region of focus; are driven by employers in that industry; 
are partnerships of diverse public and private stakeholders; and are 
models for systems change. What is important to note is that building a 
pipeline for workers, and providing opportunities for low income 
individuals and youth to enter good jobs with sustainable wages often 
requires investment of time and money in activities other than 
training. Some industries, for example, need robust marketing and 
information dissemination about career pathways for youth in Middle 
School.
    When a financial crisis forced the Los Angeles County Department of 
Health Services to lay off 2,500 entry-level employees, the local 
Service Employees International Union worked with the LA County WIB and 
local colleges to establish a coordinated effort to advance low-skilled 
workers into the allied health field. The partners established a 
nonprofit, the Worker Education and Resource Center (WERC) to 
coordinate solutions, including articulating career pathways within 
allied health, designing and implementing new courses with credentials. 
Since 2002, over 9,300 L.A.County DHS employees took courses; over 
1,000 obtained new credentials or degrees; and graduates increased 
wages by an average of 20%.
    The San Bernardino County WIB catalyzed the establishment of the 
Alliance for Education, an organization that links business to youth 
through the K-12 education system. The Alliance brings information 
about industry sectors growing in the county and career ladders in 
those sectors, bringing hands on learning environments to the campus. 
Twenty-seven businesses now have whole curriculum case studies and/or 
semester long class projects where a curriculum is based on a direct 
industry problem and how to solve it. For example, sheriffs taught 
students about how to solve a murder crime using algebra, Kelly Space 
Systems has walked through the algebraic equations with students who 
figure out how and launch their own rocket. An engineering company has 
run an environmental curriculum.
    Faced with a shortage of skilled Process Technicians within the 
Petrochemical and Manufacturing sectors, the Workforce Development 
Board of Contra Costa partnered with the regions refineries and large 
manufacturers, including Shell Oil, Chevron, Tesoro and Dow Chemical, 
along with the United Steel Workers, Los Medanos College and Mt. Diablo 
Adult School to create a sector initiative. The program targeted 
dislocated construction, airline and returning veterans and put them 
through a 20 week intensive Process Technician certificate program 
(PTECH.) At the conclusion of this 18-month grant, a two semester 
course was integrated into the course offerings at the college. 
Currently the classes are at capacity and the majority of the graduates 
are successful in finding employment.
            Talent Development Learning Labs
    In an attempt to better serve our customers in the manner 
envisioned in WIA, California is piloting a Talent Development model, 
which includes the integration of State Employment Service staff and 
local WIB staff in a new service delivery model. Twelve WIBs began 
implementing an integrated services delivery model, on July 1, 2008. 
The delivery model includes a common set of services available to all 
customers in the pool through a common customer flow, and an integrated 
staff, sharing resources among WIA, Employment Service and TAA 
staffing.
    The integrated services strategy is intended to shift service 
priority to an emphasis on worker skills, assisting workers to gain the 
skills leading to self-sufficiency and responding to employer demand. 
We also are increasing service levels and quality to improve 
performance.
    At the end of the first year of the pilots, an evaluation will help 
determine the effectiveness of the model and assist WIB directors in 
making informed decisions about whether or not they want to adopt this 
model and/or implement successful components.
            Green Jobs
    With the passage of the California Global Warming Solutions Act, 
and many following implementation vehicles, California has positioned 
itself as a leader in the areas of renewable energy, energy efficiency, 
and environmental sustainability across many sectors of the economy. As 
a result, California WIBs are actively engaged in partnerships to 
support the growing demand in the area of green jobs.
    The California Workforce Investment Board recently restructured its 
committees to focus on developing and encouraging sector strategies, 
and has established a Green Collar Jobs Council. The Green Collar Jobs 
Council has already begun a valuable effort to develop a data-driven 
action strategy about how California can grow a greener economy and 
facilitate the creation of green jobs. The Council has an opportunity 
with the passage of the stimulus package to significantly accelerate 
that work.
    Activities are diverse as the areas of the state. In Southern and 
Northern California, for example, several WIBs, and counties, have come 
together to plan and implement regional strategies and programs. In the 
Los Angeles area, under the auspices of the South Bay WIB, the WIBs are 
working together with the community colleges and labor unions to 
develop regional strategies.
    The Richmond BUILD Pre-Apprenticeship Construction Skills & Solar 
Installation Training program is recognized as a national ``best 
practice'' for Green Collar job training. This innovative program has 
helped create a pathway out of poverty, addressing a primary cause of 
youth violence in the community. To date, 35 program graduates have 
obtained Green Collar jobs and are making a livable wage. This program 
includes a solar installation, solar thermal, and energy efficiency 
components that were developed and implemented in partnership with 
Solar Richmond, Solar Living Institute, GRID Alternatives, & Rising Sun 
Energy Center. The program received the 2008 FBI Director's Community 
Leadership award and has been selected as a semi-finalist for the 2009 
Harvard Innovations in Government award.
What's next for the Workforce Investment Act?
    CWA has spent a considerable amount of time developing suggestions 
for the reauthorization of the Workforce Investment Act. We would be 
happy to provide specific recommendations to the Committee. In this 
testimony, we want to outline some directions to move forward, and 
directions to move away from.
Directions to move toward
    We believe that there are many features of the current system that 
work, and that we should build on these. Private sector led boards make 
sense, and we should adjust requirements so that they are not big and 
unwieldy, and give them more autonomy on the law, with their own title 
and budget authority, so that they can truly serve an intermediary 
convening role. The voice of the private sector, and their ``honest 
broker'' role on a WIB, provides the kind of leadership that public 
agencies look for.
    One-Stop Career Centers are, as was quoted recently in the New York 
Times, ``emergency rooms of the economic crisis.'' We must continue to 
innovate, create more flexibility in terms of requirements about who 
gets served when, and create more incentives for other community 
resources to locate and fund staff. One-Stops can still be what was 
envisioned in the original WIA, which was a true integration of 
employment and training services. They must also have enough 
flexibility so that they can respond to different economic conditions, 
sometimes more focused on helping business retain workers, sometimes on 
investing in longer term training for the economically disadvantaged, 
and at other times helping people quickly return to work.
    Sector strategies provide many pathways to work with employers, 
economic development and education. We should codify these approaches 
in the law, and provide infrastructure and performance measures that 
allow us to do more of this work, and do it better. We should create 
incentives for WIBs to move to sector strategies, as have been done in 
Pennsylvania, Washington and other states.
    Our youth programs provide critical services and supports for 
thousands of young people who are not connected to school or work, or 
who are in danger of dropping out. In Los Angeles, 1 in 5 young people 
between the age of 16 and 24 is not in school and not working. We need 
to continue to innovate with our youth programs, providing career 
pathway opportunities, and opportunities for work experience. We are 
very pleased that ARRA allows us to offer Summer Youth employment, and 
believe that this should be included in reauthorization.
Directions to move away from
    You heard testimony several weeks ago, which recommended providing 
a stronger role for the Employment Service (ES) and it's role in labor 
exchange. ES was designed to help people find jobs starting in the 
1930s. At that time, finding a job meant reading classifieds in the 
newspaper, through word of mouth, and once the labor exchange was 
developed, by going into an Employment Service office. Just as in the 
past we needed travel agents to buy airplane tickets, unemployed people 
needed ES staff to help them look for work. Today, most people still 
find jobs through word of mouth, but the other predominant way is 
through on-line labor exchange. Using the Job Service purely as a labor 
exchange appears anachronistic and unnecessary. [Note: We are not 
suggesting that staff who belong to merit systems do not have a place--
most of the staff who work for WIBs in California, for example, are 
members of labor unions and work in city and county government.]
    In California, and a number of other states around the country, as 
mentioned above, we are piloting ways of using both ES and WIA staff in 
teams to provide these services to our customers. We believe that this 
integrated approach provides the best service to the people that need 
our help, and that isolating ES to deliver labor exchange, as has been 
proposed by others, is a step backward, and will not best meet the 
needs of the unemployed.
    We are concerned about more restrictions on the use of WIA funding 
at the local level, such as a minimum percentage spent on training, for 
two reasons. First, the law requires WIBs to use Individual Training 
Accounts and the Eligible Training Provider List. Requiring a 
percentage expenditure on training may actually reduce leveraged 
resources, and force WIBs to pay for higher cost training. In 
California, as in other states because of State funding pressures, 
community colleges are at cap. This means that they can no longer take 
students. If we were required to spend a certain percentage of our 
funds on training, we would have to turn solely to the private schools 
(many of which offer high quality training, but do not leverage public 
funding) in order to ``make our expenditure levels.'' Second, in places 
where they have done a good job leveraging resources, using Pell Grants 
and public education funding, resources that now go to support services 
and intensive services would go to training, and we would essentially 
be supplanting other funds.

Summary
    In summary, we believe that there are many important and innovative 
strategies that are allowable in current law. Changes to WIA to make it 
even more effective, more responsive to local communities and to our 
customers are needed--let us all participate in constructive dialogue 
such as this so that we can identify what needs to be fixed, and what 
new elements are required in this new economy.
    Thank you for the opportunity to provide testimony today. The 
California Workforce Association is pleased to serve as a resource to 
you and other policy makers as we move forward with WIA Reauthorization 
and working toward revitalizing our nation's economy.
                                 ______
                                 
    Chairman Hinojosa. We thank you, Mr. Lanter, for sharing 
with us what is happening in California and how you all are 
working.
    We will be gone for just a few minutes. There are only two 
votes. Those who wish to turn your head to the back, there is a 
big screen that shows you the voting going on in the House of 
Representatives. And only two votes are going to be called, so 
we should see you in just a few minutes.
    I thank all the members. And we will be back.
    [Recess.]
    Chairman Hinojosa. We are ready to reconvene. Members will 
be coming back from the Capitol in just a few minutes, but I 
will start with my first 5 minutes and direct my first question 
to Ms. Sandi Vito.
    The governors would like Congress to align federal 
programs, since you mentioned 12 different executive 
departments fund a variety of workforce programs. Do they have 
a proposal for such a joint initiative that they would like to 
see us consider in the reauthorization?
    Ms. Vito. What the National Governors Association is 
proposing is an alignment that looks at regulations, creating 
potentially an interagency team to streamline, coordinate and 
integrate regulations, policy, et cetera, so that the messages 
and indicators are clearer to both the states and local 
regions, and make it easier to coordinate, as well as 
eliminating any barriers to coordination.
    We can get you the specific proposal, but I think the 
larger issue is that we would be happy to continue to engage in 
dialogue, in terms of what the specifics of----
    Chairman Hinojosa. We would like to see the drafts that you 
have in writing. And then we can certainly have our staff meet 
with you and your staff so that we can have a clear 
understanding. And then, if I have questions, I will be glad to 
call you.
    Also, another question to you, Sandi. Can you speak on any 
new energy collaborations for green jobs, which was in your 
remarks? Or would you--or would the governors send us some of 
the examples in the recommendations you made?
    And I ask that because I saw the amount of money that is in 
the--that is in the stimulus plan, and it is a sizable amount 
of money. So I would like to see what the Governors Association 
is thinking.
    Ms. Vito. We can send you the list of innovative projects 
from throughout the states. I can talk specifically about some 
of the initiatives in my own state of Pennsylvania.
    We have what we call energy partnerships which focus on 
energy conservation technologies. So we are training in 
weatherization, solar installation, where we actually have 
labor force shortages. In western P.A., we are actually 
training in retrofitting of building. And in a few areas 
throughout the state, we are doing training in energy auditing 
and assessment.
    So there has been good work begun. More of it needs to be 
done. And, again, I will ask the staff at NGA to forward you 
examples from other states.
    Chairman Hinojosa. Good. We would love to see that.
    My next question is to Charissa Raynor. The training 
partnership features fast-track credits for the entry-level 
homecare aides. How do these credits get accepted by higher 
education institutions, like our community colleges? How do 
they handle them? And do they have different accreditation 
systems?
    Ms. Raynor. Well, that is an excellent question. We believe 
that to have a meaningful career ladder for homecare workers, 
we have to first make sure that homecare workers are a part of 
the fast-track, part of a career track.
    And so we are in the development stage right now, working 
with community colleges all across Washington to design this 
fast-track. The notion is that the community colleges would 
apply credit based upon the credential. So it is a statewide 
credential, certified homecare aide, and so this streamlines 
the process for each community college to apply that credit for 
previous training and experience, based upon the credential 
that any worker can access.
    If they have that certification, they go to a college with 
the program, the fast track in place, and they can access it 
based upon their credential.
    Chairman Hinojosa. I think that that could be a very useful 
program. And I had an experience back in the beginning of my 
first term in Congress where NAFTA had been approved. And many 
of the textile companies in my region moved to Mexico and to 
China and elsewhere, Central America.
    And so we had a workforce of very loyal, good workers, 
working for Hagars, Dickies, Fruit of the Loom, Levi's, and 
they were displaced, 20 years, some 25 years. And we had to re-
train them for new jobs, and that was most challenging. So this 
would be something that I would be very interested in.
    My time has expired. And I would like to yield to Ranking 
Member Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman.
    And thank you, panel, for this very informative session.
    Mr. Lanter, I want to ask you one on--you mentioned that--
or in your testimony that private-sector-led boards you thought 
was important to be maintained in the Workforce Investment Act, 
and you talked about challenges working sometimes with the 
public sector, just using private-sector people to push or 
push, prompt along the public sector.
    You said you needed--boards needed to be smaller, but you 
needed to still maintain the private-sector lead. Could you 
give just some concrete examples of issues you have had with 
the public sector that, because it is private-sector-led or 
business people trying to get things done, have tried to shape 
a situation? Or any examples?
    Mr. Lanter. Sure. And I will speak on behalf of my own 
local workforce area, as opposed to the entire membership of 
the workforce association.
    I think for us the issues are that the private-sector folks 
have knowledge on what they need in terms of a workforce. They 
don't necessarily have knowledge, nor should they understand 
the inner working of all of our public sector's laws and 
regulations.
    And I think there are times when the public-sector folks 
are, for a variety of reasons, using the intricacies of our 
laws to sway a vote one way or another or ensure that dollars 
are targeted to a certain area.
    And I think the private-sector folks kind of cut through 
that very quickly and are able to say, you know, what is best 
for our local community? What is best for industry? What is 
best for our competitive advantage, in terms of our economy? 
And I think that gets people to kind of listen and straighten 
up very quickly.
    Mr. Guthrie. Okay, thank you. And for Mr. Smith, in your 
testimony, you talked about the fact that many citizens lack 
basic literacy--maybe I am having a hard time--kind of 
allergies are bothering me right now--and language skills, I 
guess I am having--in a serious way, though, I mean, basic 
literacy and language, I know that is so important. I have 
worked on that in state government.
    And my question, how do you ensure these adult programs are 
addressing those needs? And how do we ensure that we are 
preparing for that? Because kind of my experience was that I 
would see people kind of combing for people that were higher-
level literacy, not fully literate by any imagination, but 
would not focus on the lower level, because it was just too 
difficult.
    And so you could find somebody that read at maybe a junior 
high level and get them into a GED program. If they didn't read 
at all, it was difficult and they seemed to be kind of looked 
over. So how do we ensure that we are teaching that, is my 
question?
    Mr. Smith. It is a very good question. I think what has 
happened under the Workforce Investment Act, for the most part 
unintentionally, is we have reached out to the higher-level 
students and adults who can benefit by workforce training, 
because they have the literacy and language skill and ability 
to do so.
    Those who lack those basic skills who cannot benefit by 
training have been relegated to being served by other programs 
that have received, at least in my experience, less resource 
and less funding. Those same adults who present with those 
lower skills come to us with learning disabilities, other 
literacy-related issues that, in fact, should take more time, 
cost more money, and command a greater investment, rather than 
a lesser investment.
    But they don't get it. And eventually I believe that they 
will, because, as we do move the, if you will, as you suggest, 
the higher-level adults forward, as we must, then we will have 
to bring the other adults forward in a one-step-up kind of an 
approach. So----
    Mr. Guthrie [continuing]. Higher-level adults. I guess I 
should have said higher-level readers, instead of adults. Yes, 
that is exactly right, because we do need--I mean, if you can 
find somebody with a high-school diploma and get them into 
workforce training and move them up, I mean, we should move 
those people through.
    Mr. Smith. Yes.
    Mr. Guthrie. Exactly. And we have debated this in Kentucky. 
And I have always said that is great; I am not criticizing that 
program at all. We need to get these people through. Well, we 
just can't forget that there are people that are going to take 
a little more investment, a little more time to get them to the 
level where we can get them through.
    So we don't need to overlook the mass of people who are 
ready to go into workforce investment. We can't overlook the 
people at the lower level of reading.
    Mr. Smith. If I may, just to follow up, we must create a 
continuum of service for an adult education system in each 
state. There must be an entry point for adults with the lowest 
level, the middle-skill levels, and the higher levels.
    We must coordinate with the workforce investment system, 
understand the skills that are needed by the workforce system 
to support training and employment, and identify those adults 
who need the additional adult education, literacy and language 
skill to move them forward on that track in parallel.
    Mr. Guthrie. Well, you are working a noble cause, I can 
tell you that. That is for sure. It is a very noble cause. 
Thanks.
    Mr. Smith. Thank you, sir.
    Mr. Guthrie. I yield back.
    Chairman Hinojosa. Thank you.
    At this time, I would like to call on my friend from 
Illinois, Congresswoman Judy Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman.
    I had a question to the previous panel, and I wanted to 
direct it here, about the sequence of services and the three-
tier approach that has been used and was wondering if there 
would be greater flexibility if those that were in those tiers 
did not have to go through the sequence.
    And maybe start with Mr. Lanter, and I know that Secretary 
Vito has talked about the flow of services.
    Mr. Lanter. Thank you. The short answer is, yes, there 
would be greater flexibility if the tiers of services were 
eased, in terms of how we have to move people through our 
career centers.
    When you have 88,000 people, close to 2 million in 
California going through our career centers, doing it through a 
tiered process is very difficult and slow at times.
    Some people come in to our career centers just to need 
quick retool. They want to get their resumes done. They want to 
know how to look for work, because they have been in the job 
market for 15 years, and it is a new way of looking for work, 
and we can do that without having to put them into core, and 
intensive, and then training.
    The other thing, in California, we are working on an 
integrated service delivery model that would allow us to move 
people quickly into talent development, rather than having to 
go through universal services, then staff-assisted, core, and 
then into intensive.
    Everybody that comes in meets with the job coach 
immediately. The pilots are being run in 12 local areas around 
the state, and we are waiting for the results at the end of 
this program year.
    Mrs. Biggert. Why was that put into the three tier, that 
they had to go through? I mean, what would be the pros for 
keeping that?
    Mr. Lanter. I am not sure what the pros would be. At the 
time that the law was written, my understanding is that it was 
not meant to be--it was meant to be a work-first model and not 
a training model. And then, as we got into this, we kind of 
realized, hey, people need to be trained as job change and 
industries change.
    Mrs. Biggert. Okay. Because it seems like it wastes a lot 
of time, because when people really need to get back into the 
workforce, they have to spend the time with that.
    Secretary Vito?
    Ms. Vito. I am not sure I have much to add that hasn't 
already been said, expect that the National Governors 
Association strongly endorses the concept of removing the 
sequence of service. It is clearly important, in terms of 
creating the intervention that is most appropriate to the 
individual coming through the workforce system. So we are in 
favor----
    Mrs. Biggert. Would that also allow, then, more people to 
be in the system, that----
    Ms. Vito. That is correct. I think that is true. I mean, if 
we do an upfront assessment of individuals, for some 
individuals, the core and intensive services are not going to 
be appropriate because they really need to be in literacy and 
occupational training right from the start.
    Mrs. Biggert. Thank you.
    Then, Mr. Lanter, one of the other issues that came up in 
the previous panel was the size of the board. And it has been 
suggested or I had heard from my community colleges that they 
would like very much to have a representation on the WIA board. 
Do you have community colleges on your boards?
    Mr. Lanter. Yes. In Contra Costa County, we do have 
community colleges. Every board has an educational 
representative on it. The California Workforce Association 
would support allowing local areas to be able to define their 
own key stakeholders. How that occurs, we would have to work 
through.
    But currently, many boards in California have community 
colleges. We also have started over the last month a meeting 
between the State Association of Workforce Development and the 
California Community College Association of Occupational 
Educators, which is a community college state association, to 
work to see how we can really leverage the vocational training 
that the community college system provides and the one-stop 
career centers.
    Mrs. Biggert. Do you think that the boards are too big?
    Mr. Lanter. I do think the boards are too big.
    Mrs. Biggert. Thank you.
    Anybody else like to comment on that?
    Ms. Raynor [continuing]. We don't have a specific 
recommendation on the number, but would recommend that there be 
balance in the composition of the board, especially balance 
between business and labor.
    Mrs. Biggert. Okay, thank you.
    And I yield back.
    Chairman Hinojosa. Thank you.
    I want to ask my first question to Kevin Smith. Do you 
think the Department of Education and Department of Labor 
should coordinate on sponsoring some of the pilot projects 
specifically designed to merge literacy and workforce training?
    Mr. Smith. Absolutely. As you know, the Title II of the 
Workforce Investment Act did not benefit by the economic 
recovery stimulus bill. That means, Mr. Chairman, that the 
capacity of the adult education system to respond to the 
recovery WIA Title II--or Title I recovery program is even more 
stretched.
    So I would strongly recommend and encourage that Labor and 
Education coordinate their plans and their programs. And Labor 
has the money, with--for Title I adult dislocated workers, and 
I think there already is, in just the few days I have spent 
here in D.C. with the Workforce Alliance, there is a sense of 
need for the workforce system to align with the Title II, the 
adult education providers to coordinate those programs at the 
ground level.
    It is clearly the departments, both at the federal and 
state levels, have to have conversations, as well, to 
coordinate.
    Chairman Hinojosa. Well, I am looking forward to possibly 
having a joint committee hearing by Department of Labor and 
Department of Education coming before us and that we can have 
those experts and possibly the secretaries address all of this, 
because it is so important that we have a very strong 
reauthorization of WIA that will carry us the next 6 years, 
that I like the response that you gave.
    I want to yield the balance--I mean, I want to yield back 
my time and recognize for 5 minutes the gentleman from 
Colorado, Congressman Jared Polis.
    Mr. Polis. Thank you, Mr. Chairman.
    This question is primarily addressed to Mr. Smith. If 
anybody else would like to comment, I would love to have a 
discussion.
    The share of individuals who are English-language limited 
proficiency that received training services has decreased 
significantly in the last decade. Ten percent of exiters from 
the adult program in 2000 were limited English proficiency, 3.8 
percent in 2008.
    Clearly, this is not in relation to the need. I mean, the 
need has not gone down 60 percent for English-language 
services. So what are the barriers that are in getting in the 
way of blending occupational training with adult programs and 
ESL? Clearly, adult literacy and ESL are allowed uses through 
AEFLA of WIA.
    How can, through reauthorization, can we support the 
development of more programs that integrate adult education and 
ESL with occupational training?
    Mr. Smith. Thank you, Mr. Polis.
    It is simply an issue of capacity. Our organization, 40-
affiliate-program strong, serving all of upstate New York and 
Long Island, are constantly dealing with the dynamic between 
the need of native-born adults with low literacy skills and 
adults with English--for speakers of other language.
    Right now--and I have watched over the 26 years that I have 
been doing this in my program, that the ESOL population, at 
least for our network, is now up to 60 percent of our service. 
So, in fact, they have increased in percentage of service, but 
the overall number of people served has dramatically decreased.
    So when you look at the large numbers of people over time, 
we decreased our capacity to serve, but I think we have 
increased, at least from my perspective, the service to ESOL. 
It is a capacity issue.
    Mr. Polis. And how can we ensure that there is access to 
WIA Title II state grants for community-based organizations 
that might specialize within that area of adult literacy and 
ESL, be they libraries or literacy programs run by nonprofits 
or churches, et cetera?
    Mr. Smith. Well, thank you, also, for that question. And as 
I have--that is specifically my area of concern and where I 
have--where we have struggled.
    We have been successful in New York, ever since the Adult 
Education Act was amended way back in 1978 by our senior 
senator, in accessing funds in terms of to community-based 
organizations that allowed--that amendment allowed that.
    We have watched our federal support go up and go down over 
time. We are in New York State, one of the few states that has 
received consistently federal dollars, until very recently 
changes in the law, how the distribution of funds----
    Mr. Polis. So I think what you are saying--the framework 
works. It is just the funding--it is just a matter of funding?
    Mr. Smith. I think it is. I think, again, it is a capacity 
issue. As there are fewer dollars available, LEA school 
districts, community colleges get the lion's share of the 
money, and the rest trickles down. And if there is no trickle-
down, we don't get it.
    Mr. Polis. So there is--so you are saying that the 
current--the way that it has been run effectively allowed 
community partnerships, libraries, churches, et cetera, you 
partnered in some of that----
    Mr. Smith. There was specific direct and equitable access 
to all of those sector providers. How direct is pretty simple 
and operating well. Equitable, we need some work on defining 
what that means.
    Mr. Polis. Thank you.
    I yield back the balance of my time.
    Chairman Hinojosa. Thank you.
    I am going to try to bring this to a close and ask this 
question of Ms. Raynor. In your remarks, you recommend WIA fund 
job priority sectors, but for how long, in terms of years? And 
who will agree on those sectors as being more important than 
others?
    Ms. Raynor. That is an excellent question. Perhaps I will 
answer the second part of the question first.
    Chairman Hinojosa. Okay.
    Ms. Raynor. It seems to me that decisions concerning 
training priorities, sector prioritization are best made at the 
local level, because that is where folks really have a handle 
on the economic landscapes, what the job demand looks like now, 
what it will look like in the future.
    So, for example, in Washington State we know that we 
currently have 60,000 homecare aid aides working in Washington 
State, all across Washington State, and we know that that 
demand is going to increase, of course, as the baby boomers 
age.
    We also know we have a nursing shortage all across 
Washington State. If even 5 percent of homecare aides advanced 
along a career pathway into nursing, we would really make a 
dent in our nursing shortage in Washington. So I think those 
decisions are best prioritized at the local level.
    And for how long? I don't know if I have an answer for how 
long, except that it seems that the sectors approach is a smart 
way to match training to jobs at the end of the line.
    Chairman Hinojosa. I have to agree with you. The acute 
shortage of nurses is throughout the land. Deep south Texas was 
spending--we saw where hospitals were spending millions of 
dollars going out to different countries, Canada, Philippines, 
India, many, many countries trying to recruit nurses.
    And we have made a concerted effort to try to get those 
programs funded and taking folks who have possibly--who are 
what we call underemployed, making below the national poverty 
level, and taking them out of those jobs and training them to 
become 2-year associate degree nurses. And still we have not 
been able to fill that acute shortage.
    So these programs that you are referring to are extremely 
important. And being that we have, again, so many different 
nationalities, individuals who are working here and have 
limited English proficiency makes it that much more 
challenging.
    So we want to continue talking to your organizations, 
getting all the recommendations that you all can provide us, 
and allow me to try to bring this to a conclusion.
    I have to say that this has been very informative, and I 
can assure you that we are going to make a strong effort to go 
outside of Washington and have field hearings so that we can 
get more folks who can't come to Washington to give us their 
recommendations that we can do the best job we can to 
reauthorize WIA.
    Again, I wish to thank everyone on the second panel, as I 
did the first panel, for coming to join us in this hearing. And 
I want to thank the members of the subcommittee who 
participated in this very informative session.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with majority staff within the 
requisite time, without objection.
    And this hearing is adjourned.
    [Additional materials submitted by Mr. Miller follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                


Prepared Statement of Hon. John Baldacci, Chairman, Jobs for America's 
                      Graduates Board of Directors

    First, let me thank you for your continuing interest in the work of 
Jobs for America's Graduates as one of the nation's largest and most 
successful programs for helping very high-risk youth succeed both in 
school and on the job.
    We very much appreciated the time you took to meet with Ken Smith, 
President for Jobs for America's Graduates, and myself several months 
ago, when there was consideration for the reauthorization of the 
Workforce Investment Act, to learn more about the 28 year track record 
of success having served over 600,000 of our nation's most at risk and 
disadvantaged young people.
    As you may recall, the results have been most consistent and 
compelling. The latest across the 30-state JAG National Network 
include:
    <bullet> Graduation Rate: 93.6 percent
    <bullet> Positive Outcome Rate: 82.7 percent (12 months after 
leaving school)
    <bullet> Job Placement Rate: 60.0 percent
    <bullet> Full-time Jobs Rate: 67.4 percent
    <bullet> Full-time Placement Rate: 89.8 percent (jobs, colleges, 
the military or some combination)
    <bullet> Higher Education Rate: 45% (the highest ever)
    Here in Maine, the JAG program is, by far, the most effective and 
most valuable program we have for serving this high-risk population. 
Despite the very difficult economic issues we face, we continue to 
expand the program because it makes such an enormous impact, both 
educationally and economically, in our state.
    The Workforce Investment Act provides approximately one-third of 
all the funding that finances the JAG program across the 30-state JAG 
National Network.
    State and local Workforce Investment Boards invest in JAG because, 
in almost every case, JAG programs exceed the performance standards for 
youth by convincing margins. It is also one of the cost effective uses 
of WIA funds.
    As you consider the reauthorization of the Workforce Investment Act 
we urge your consideration of these key issues from our standpoint.
    1. Eligibility: One of the most costly aspects in utilizing WIA 
funds is the often massive amount of paperwork, time, and energy 
required to try to prove that young people are poor in order to qualify 
for JAG programs. As you well know, WIA today has a separate 
eligibility compared to other programs that seek to determine the same 
economic standing. Easily, 10 percent--or in some cases as much as 20 
percent--of the costs of the program are tied up in trying to ``prove 
poverty''. We believe that a far better use of the resources would be 
in serving more young people and by utilizing the same eligibility 
requirements for the free or reduced-priced lunch program satisfactory 
for WIA eligibility. A significant increase in the investment in young 
people through WIA will occur with this simple change.
    2. In-school versus out-of-school youth: It is our understanding 
that a significant issue is the amount of WIA funds that would be set 
aside for ``in-school'' versus ``out-of-school'' youth. This is not an 
easy decision, since both populations urgently need the kinds of 
services that WIA--and JAG--can provide. We believe that, in the end, 
prevention is far more effective and less costly than the remediation 
of a high school dropout while one who is unemployed.
    Therefore, we urge that the majority of the funds be made available 
for serving high-risk, academically disadvantaged youth in school, 
while still investing a significant amount in serving high school 
dropouts.
    3. Long-term funding: We strongly support the inclusion of much 
larger scale funding for at risk and disadvantaged youth at levels 
similar to those in the Stimulus Package. We understand the stimulus 
funding will expire in two years. Given the enormous impact that the 
recession is having on our young people--unemployed by a factor of 
three times more than that of the general population--we urge that the 
higher level of sustaining funding be included in the reauthorization. 
WIA is one of the only sources of funding at either the federal or 
state level to serve this rapidly growing part of our population. A 
population that, if we intervene now with the kinds of results that 
Jobs for America's Graduates is able to achieve, we will dramatically 
change the long term costs while equally dramatically increasing the 
lives and futures of our young people.
    The reauthorization of the Workforce Investment Act is a vitally 
important piece of legislation that will drive programs, and state and 
local policies, for years to come. We stand ready to help in any way 
that we can in the consideration of this legislation. Please don't 
hesitate to contact me directly with any questions you may have, given 
the critical importance of WIA to our organization and to my own state 
of Maine.
    I know that my colleagues on our Board of Directors, including five 
other Governors, two Chief State School Officers, and leaders from some 
of America's best-known businesses (listed on our letterhead) would be 
more than pleased to join in the discussions.
    Ken Smith, the President of Jobs for America's Graduates, and our 
staff will be in touch with yours to answer any questions and to offer 
the lessons we have learned over the past 28 years on how to most 
effectively serve this at-risk population.
                                 ______
                                 
    [Additional submissions of Mr. Guthrie follow:]

      CWA Priorities for Workforce Investment Act Reauthorization

    Workforce investment is a critical policy issue for California and 
the nation. It is perhaps the only policy area that directly links the 
ability of California companies to compete, the ability of communities 
and regions to retain and grow key industries, and the opportunity for 
working people to develop the skills needed to prosper in a changing 
economy. California's future depends on the development of 
comprehensive workforce investment systems, appropriately aligned at 
the federal, state, and local levels and flexible enough to reflect the 
diversity of each Workforce Investment Area's social, ethnic, and 
economic conditions.
    The federal Workforce Investment Act (WIA) was enacted and 
implemented during a period of relative economic growth, allowing 
California's 50 local Workforce Investment Boards (WIBs) to invest in 
building the infrastructure for a comprehensive ``One-Stop'' delivery 
system. Local areas progressed significantly toward strengthening 
private-sector leadership; streamlining multiple programs; setting 
long-term, proactive policy that enhances the competitiveness of local 
and regional industries; and developing unique local initiatives, 
programs, and partnerships.
    California now faces a new set of economic challenges in crisis 
proportions, challenges that have already strained this new 
infrastructure. With adequate WIA resources and strategic statutory 
fine-tuning through the reauthorization of WIA, many of these 
challenges can be addressed and California's economy strengthened.
    It is no surprise that surveys of California's business leaders 
continue to cite the lack of a trained workforce among the most 
significant cost drivers for California businesses.\1\ At the same 
time, business investment in skills training is declining in California 
and is nearly nonexistent among small businesses, which employ over 50% 
of the state's workforce. Finally, reports show that 90% of job growth 
in California over the next 5 years will occur in industries where 
ongoing skills training will be critical for maintaining 
competitiveness.
---------------------------------------------------------------------------
    \1\ 12th Annual Business Climate Survey, California Business 
Roundtable, California Chamber of Commerce
---------------------------------------------------------------------------
    The Workforce Investment Act provides the foundation through its 
system of Workforce Investment Boards and One-Stop career centers to 
fully address the workforce needs of all companies, both large and 
small. After four years of implementing the 1998 law in local 
communities, much has been learned about what works and also about what 
can be done statutorily to better focus the system envisioned by 
Congress. Reauthorization of WIA presents an important opportunity to 
make strategic adjustments
    Over 1,000 businesses on 50 local Workforce Investment Boards 
throughout California have spoken. Their thoughts and those of their 
One-Stop partners are reflected in the following recommendations for 
Congress and the Administration to consider for reauthorization of the 
Workforce Investment Act of 1998. Through the California Workforce 
Association, these 50 WIBs represent 10% of this country's workforce 
investment system funding in a state that represents 13% of the 
national economy. Our recommendations fall within three broad 
categories:
    <bullet> Strengthen Business as Customer and Business Leadership
    <bullet> Align Resources and Accountability to the Needs of 
Customers and the Goals of WIA
    <bullet> Clarify and Strengthen Federal, State, and Local Roles

Strengthen Business as Customer and Business Leadership
    Why is this important? Both the message and promise of the 
Workforce Investment Act (WIA) is that business is a primary customer. 
As the economy continues to evolve, and a trained, high skilled 
workforce becomes more critical to the success of business, it is 
essential that the public workforce investment system has the capacity 
to provide the product businesses need. In order to do this, local 
Workforce Investment Boards and their One-Stop system networks need 
guidance, tools, support, and incentives in the law.
    Current Status: California's network of local Workforce Investment 
Boards (WIBs) and its One-Stop service delivery system have progressed 
significantly in establishing products and services for the business 
community throughout the State. Much of this has been done as a result 
of urging by the private sector leadership of WIBs and encouragement of 
state and federal agencies. Unfortunately, there are a number of 
impediments within the Workforce Investment Act that hamper working 
with business in the community and engaging private sector leadership 
on the WIBs.
    What we have learned:
    <bullet> WIA's performance measures have a strong tendency to drive 
the activities and direct the limited resources. Without performance 
standards specifically focused on services to business, local One-Stops 
have little incentive to develop those services.
    <bullet> Most local WIBs cobble together funding for business 
services through a combination of adult, dislocated worker, and rapid 
response funding. Services to businesses are needed for these programs, 
as well as for youth programs. Specific allowable activities written 
into WIA and the ability to use any funding stream for business 
services would substantially increase those services in California.
    <bullet> Even in recessionary times, over 90 percent of the 
workforce is employed; to be relevant to business, the workforce 
development system must target skill acquisition and career advancement 
for those workers.
    <bullet> Businesses value employed worker training for skill 
acquisition and customized training as two of the most critical and 
important services. These services should be better defined, more 
broadly allowed, and encouraged in the law.
    <bullet> Sequence of services (also described as ``work first''), 
as mandated in the law, require training opportunities to be some of 
last services provided, and, therefore, limit employer access to WIA 
trained workers. Greater flexibility in the sequence of services will 
provide greater opportunity to train workers.
    <bullet> When properly engaged, business participates and 
influences the development of the local workforce, as envisioned by the 
authors of WIA. However, the mandated minimum size of local boards is 
often counter-productive to fostering private sector participation that 
focuses on outcomes and systems change. Greater flexibility in 
membership and responsibility will allow for much greater local 
business participation.
    <bullet> Business members of local WIBs seek integrated business 
solutions as well as integrated approaches to community needs, not just 
targeted services as provided through WIA Title I. The effectiveness of 
business leadership in local workforce investment would be enhanced if 
local WIBs had planning and oversight authority over all WIA Titles, in 
addition to Title I.
    Recommended Changes and Amendments to WIA:
    <bullet> States, in consultation with WIBs and local elected 
officials, shall develop performance measures for services to business. 
Incentives for performance will be established.
    <bullet> Business services activities are allowable and encouraged 
under Adult, Dislocated Worker and Youth funding.
    <bullet> Employed worker training is allowable and encouraged under 
Adult, and Dislocated Worker funding.
    <bullet> The following is a list of allowable activities for 
services to business. Allowable activities may include (but are not 
limited to):
    <bullet> All phases of recruitment services, from general open 
postings to referring prescreened candidates
    <bullet> Business seminars and classes offered in partnership with 
Small Business Development Centers, Economic Development Organizations, 
Chambers of Commerce and other business organizations
    <bullet> Interview and meeting facilities
    <bullet> Rapid Response Services
    <bullet> On-the-Job and Customized Training opportunities
    <bullet> Training for incumbent workers
    <bullet> Job Fairs
    <bullet> Information brokers providing information on HR Issues, 
labor laws, licensing, permitting and economic development
    <bullet> Linkages with economic development
    <bullet> Business to business referrals
    <bullet> Labor Market Information
    <bullet> Assessment for job preparedness
    <bullet> Work Readiness Certificates--designed by the local WIB and 
industry
    <bullet> Performance consultation
    <bullet> Business services marketing
    <bullet> Economic development data preparation
    <bullet> Business incubation services
    <bullet> Other business services not inconsistent with this Act
    <bullet> Every WIB must have a private sector majority and be 
chaired by a private sector member. WIBs, in negotiation with Local 
Elected Officials, shall have discretion over the additional membership 
of the WIB.

Align Resources and Accountability to Needs of Customers and Goals of 
        WIA
    Why is this important? The common needs and interests of our two 
sets of customers--businesses and job seekers--are employment 
opportunities, skill acquisition, and career advancement. With the 
current economy, business requires a higher level of service with a 
broader range of solutions for their workforce needs. Jobseekers, too, 
are demanding higher levels of services. Although the spirit and intent 
of WIA focus on the capacity of the system to deliver these sets of 
products and services, certain provisions of the law impede One-Stop 

Career centers and WIBs from fully meeting our customers' requirements.
            Current Status:
    Employment. In California, thousands of businesses recruiting 
workers and millions of job seekers have used One-Stop centers. Despite 
the fact that clients of most One-Stop partners benefit from the 
provision of core (universal) services, these services have largely 
been provided through WIA Title I funding.
    Skill Acquisition. The transition from a limited/targeted client 
base under the former Job Training Partnership Act (JTPA) to 
``universal access'' for core services to all citizens under WIA has 
been a success. But providing these core services to virtually anyone 
who wants them is costly and has reduced the resources available for 
funding training for those who need it. The simple fact is that within 
WIA Title I, there is insufficient funding to both provide universal 
service and provide training for those in need. In addition, the 
requirements of the system are so restrictive that many other training 
funds are not being used. Finally, given the current, narrowly focused 
WIA language, skill acquisition for employed workers, an increasingly 
important business-driven service, is difficult to provide.
    Career Development. WIBs and their partners throughout California 
are beginning to focus efforts on sectoral approaches to the needs of 
industry sectors, working with partners to understand and define career 
ladders and paths of progression through a set of occupations. A set of 
allowable activities and funding resources would encourage and 
strengthen this important work, thereby increasing our business 
effectiveness.
            What we have learned:
    <bullet> WIA legislation significantly increased the adult 
population to be served from economically disadvantaged and/or 
dislocated workers under the JTPA program to the nation's entire labor 
force. However, the funding levels for WIA are comparable to JTPA. The 
assumption implicit in WIA that One-Stops would be funded through 
multiple funding streams would have meant that additional resources 
would be brought into the system. A One-Stop survey conducted by the 
State EDD found that less than 30% of the resources supporting the One-
Stops come from required partners.\2\ Because there has not been 
significant additional funding, and due to their own funding 
restrictions, many One-Stop partner agencies simply cannot finance or 
support core services. With the greatest share of funding coming from 
WIA Title I to support the One-Stop system, WIA training resources have 
all but been eliminated.
---------------------------------------------------------------------------
    \2\ The One-Stop Career Center System Survey, California Employment 
Development Department, December 2001
---------------------------------------------------------------------------
    <bullet> The ``work first'' sequence of services prescribed in WIA 
limits customer choice for both job seekers and employers. Particularly 
in a weak economy, it is clear that many people seeking work need skill 
enhancement. Requiring a sequence of services limits One-Stops' ability 
to appropriately target services to individuals.
    <bullet> Current income-based eligibility requirements in youth 
programs arbitrarily exclude at-risk youth who would most benefit from 
services. This exclusion impedes establishment of comprehensive systems 
for all youth, such as the All Youth--One System approach as adopted by 
the California Workforce Investment Board (CWIB) and many of the 50 
WIBs' Youth Councils. Additionally, the requirement that 30% of the 
Youth funds be spent on Out of School Youth is too prescriptive for 
every area in a state as diverse as California.
    <bullet> Current WIA performance measures do not capture the 
relevant information needed to aid strategic planning and continuous 
improvement for the workforce development system. They are not easily 
understood by business, don't align with business needs, are not 
timely, and do not measure service to business. The measures do not 
capture all of the participants, and focus too much on job placement 
and too little on progress toward self-sufficiency.
    <bullet> The variations among different agencies' performance 
measures and requirements, including the multiple reporting 
requirements and inconsistent definitions of success among partners, 
and the need to measure both system-wide success as well as good 
performance in WIA Title I funded programs, present serious obstacles 
to aligning local service delivery among partners. In addition, the 
administrative difficulty of collecting performance data undermines 
access to and delivery of services and discourages partner 
participation in WIA.

            Recommended Changes and Amendments to WIA:

    <bullet> Workforce Investment Boards may transfer funds from one 
title to another--Adult, Dislocated Worker and Youth--based on needs 
identified in the local labor market.
    <bullet> Individuals may be enrolled into core, intensive or 
training services depending on the needs of the customer and the local 
labor market.
    <bullet> WIBs have the authority to waive income eligibility 
requirements for youth based on local needs and priorities, including 
for youth with barriers to employment or at risk of dropping out of 
school.
    <bullet> If funding other than WIA Title I is made available to the 
local One-Stop systems for core, intensive or training services, 
requirements for the use of those funds are to be waived, and the 
requirements of Title I shall be applied.
    <bullet> Performance standards should be streamlined to a minimum 
of relevant, timely, and meaningful measures.
    <bullet> Authorizing legislation of each federally mandated partner 
program should include specific language adding funding, over and above 
their existing funding levels, for financial contribution to the One-
Stops.
    <bullet> Additional mandated activities, including but not limited 
to the assumption of the WIA 167 program, will not be required without 
appropriate funding.
    <bullet> A Local Innovation Fund shall be created and used at the 
discretion of Local WIBs for such purposes as innovative business 
outreach, local marketing, labor market and economic research, 
community audits, and coordinated local planning. Funds shall be 
earmarked from each federal required partner's funding stream and 
formula-allocated to local Workforce Investment Areas for the purposes 
of the Local Innovation Fund.

Clarify and Strengthen Federal, State, and Local Roles
    Why is this important? To meet the challenges mentioned above, 
California needs a comprehensive workforce development system, aligned 
at the federal, state, and local levels, one that leverages the 
resources, missions, and capacities of currently disparate programs and 
services. No single program, agency, or level or government can do it 
alone. If effective coordination is to occur and duplication of efforts 
is to be avoided, local, state, and federal roles must be clearly and 
appropriately defined.
            Current Status:
    Local areas have made significant progress over the last few years 
in building local partnerships and aligning systems and resources. 
Unfortunately, existing federal and state administrative restrictions 
have limited the success of this effort. California's system of 
workforce investment would be better served and substantially improved 
if there was greater coordination at the state level among the state 
departments and agencies that administer federal workforce development 
funds.
    State, federal and local partnerships have been important for the 
success of WIA to date. As an example, many statewide workforce 
development efforts have been effective in addressing key needs such as 
the state's nursing shortage, moving teachers into classrooms, and 
building the capacity of the state's youth councils through its Youth 
Council Institute. However, greater coordination and consultation with 
the 50 WIBs is needed to align statewide initiatives with local 
economic and workforce investment planning and the local infrastructure 
of service delivery.
            What we have learned:
    <bullet> Business members of WIBs value and contribute to locally 
driven workforce investment efforts tied to local economic development 
efforts. More state or federal control would threaten private sector 
engagement in the workforce development system. Private sector WIB 
members believe that they need even more authority, resources and 
discretion to establish and nurture on-going relationships with 
economic development activities in local communities.
    <bullet> Discretionary funds used to address statewide workforce 
development issues would be more effective if the local workforce 
systems were always used as the local coordinating and planning 
mechanism for statewide efforts. In California, Governor's 
discretionary funding has been allocated to local agencies without 
coordination with or even notification to the WIB. This approach is not 
the best strategy to encourage WIB engagement in workforce systems 
building and in fostering collaboration.
    <bullet> Better utilization by states of the waiver authority 
provided in WIA could have greatly enhanced the ability of local 
workforce areas to serve clients.
            Recommendations:
    Below are the appropriate roles for each level of government.
                                federal
    <bullet> Provide clear and timely guidance
    <bullet> Provide training, technical assistance, and general 
capacity building for the national system
    <bullet> Fund research on national and international workforce 
development issues
    <bullet> Collect and demonstrate innovative practices around the 
nation
    <bullet> Fund innovative initiatives
    <bullet> Make federal partner funding work together in the One-
Stops
    <bullet> Coordinate the various training and employment program 
efforts through the WIA One-Stop delivery system

                                 STATE

    <bullet> Earmark funds for building capacity in the One-Stops and 
incentives for innovative initiatives
    <bullet> Make other state funded programs support One-Stops
    <bullet> Utilize existing waiver authority to remove barriers to 
improve local service delivery to business and job seekers
    <bullet> Institute a bottom-up approach through local WIBs for 
understanding local needs and the disbursement of Governor's 
Discretionary funds
    <bullet> Invest in real-time labor market information
    <bullet> Develop statewide plans
    <bullet> Develop common reporting systems across state partner 
programs
    <bullet> Encourage local and regional initiatives that that support 
the strategic growth of industry clusters
    <bullet> Certify local WIB composition

                                 LOCAL

    <bullet> Appoint membership to WIBs
    <bullet> Certify One-Stops
    <bullet> Engage the local community in developing local plans
    <bullet> Approve all grant recipients
    <bullet> Manage fiscal resources
    <bullet> Oversee and evaluate all programs
    <bullet> Certify proposals for Governor's Discretionary WIA 
projects
    <bullet> Determine priority of service
    <bullet> Advocate for/with business
    <bullet> Create local performance measures that make sense for 
desired outcomes
    <bullet> Provide LMI intelligence
                                 ______
                                 
    [Additional submission of Mr. Scott follows:]

                         Why GAO Did This Study

    Since the Workforce Investment Act's (WIA) enactment in 1998, GAO 
has issued numerous reports that included recommendations regarding 
many aspects of WIA. These aspects include performance measures and 
accountability, funding formulas and spending, one-stop centers, and 
training, as well as services provided to specific populations, such as 
dislocated workers, youth, and employers. Collectively, GAO studies 
employed an array of data collection techniques, including surveys to 
state and local workforce officials and private sector employers; site 
visits; interviews with local, state, and Department of Labor (Labor) 
officials; and analyses of Labor data and documents. This testimony 
draws upon the results of these reports, issued between 2002 and 2008, 
and discusses issues raised and recommendations made. Specifically, 
this testimony addresses (1) progress made by Labor in addressing areas 
of concern, particularly related to GAO recommendations for action, and 
(2) what steps Labor has taken to ensure an understanding of what works 
and for whom in addressing the needs of workers and employers.

                        Workforce Investment Act

Labor Has Made Progress in Addressing Areas of Concern, but More Focus 
          Needed on Understanding What Works and What Doesn't

                             What GAO Found

    Labor has made some progress addressing earlier concerns regarding 
performance measurement and the accuracy of performance data, but 
issues with funding remain.[0] The move to common measures helps 
provide a more complete picture of WIA services and may encourage 
services to challenging clients. With regard to such clients, Labor has 
chosen not to systematically adjust expected performance levels to 
account for different populations and local economic conditions, as 
recommended.[0] Labor has made strides in improving the accuracy of 
performance data by requiring states to conduct data validation 
efforts. And, it has made progress in states' ability to share data for 
tracking WIA performance, securing the participation of all but one 
state in the Wage Record Interchange System.[0] Labor is also moving 
ahead with plans to implement an enhanced data reporting system that 
would, for the first time, allow Labor and states to track an 
individual's progress through the one-stop system.[0] While progress 
has been made with regard to performance data, ensuring that funding is 
consistent with the demand for services and reflects funds states have 
available remains an issue.[0] Statutory formulas have caused wide 
fluctuations in the funding states receive, particularly under the 
Dislocated Worker program. In addition, Labor has chosen not to 
consider states' obligations when estimating their available funds, as 
recommended.
    To date, Labor has been slow to comply with the requirement to 
conduct impact evaluations of its programs and activities carried out 
under WIA. In 2004 and 2007, we recommended that Labor comply with the 
requirements of the law and conduct an impact evaluation of WIA 
services to better understand what services are most effective for 
improving outcomes. In its fiscal year 2008 budget, Labor identified a 
WIA assessment as an effort the agency would begin, and it has since 
initiated two studies. One, a nonexperimental study, is now complete, 
and officials expect to publish the results in March 2009. The other 
uses a random assignment experimental design, and will not be completed 
until June 2015. To address what Labor perceived as shortcomings in the 
one-stop service delivery system, Labor developed three separate 
discretionary grant initiatives to focus on the employment and training 
needs of high-growth, high-demand industries and awarded almost $900 
million for these initiatives. However, Labor will be challenged to 
assess their impact given methodological issues related to outcome 
data. Moreover, Labor does not plan to include them in the assessment 
of the impact of WIA services because the initiatives have their own 
evaluations.
                                 ______
                                 
    [Additional submissions of Ms. Vito follow:]

            Social, Economic and Workforce Programs Division

     Aligning State Workforce Development and Economic Development 
                              Initiatives*

                           Executive Summary

    Driven by the rapidly changing, highly competitive global economy 
that puts a premium on skilled workers, many states are taking steps to 
better align their workforce and economic development programs. When 
these programs are well-aligned, economic development officials work 
closely with their counterparts in workforce development to ensure that 
both long-term planning and current recruitment and expansion efforts 
take into account the skills of the region's workforce and the 
workforce development systems capacity to train additional workers. 
Similarly, workforce development professionals work closely with 
economic development officials and employers to ensure that their 
training and job placement efforts are designed to meet the skill needs 
of regional industries--especially those viewed as key to future 
economic growth.
---------------------------------------------------------------------------
    *This Issue Brief was written by Mark Troppe, National Center on 
Education and the Economy, with Stephen Crawford and Martin Simon, NGA 
Center for Best Practices.
---------------------------------------------------------------------------
    In pursuing this alignment, states are confronted with the 
challenge of two systems that operate very differently, with workforce 
programs historically targeted to individuals and funded primarily 
through federal funds, and economic development focused on business 
with state and local funding. The different funding streams add a level 
of complexity to differences among governance and planning structures, 
performance and reporting requirements, and geographic focus areas. 
Complicating matters are very distinct institutional cultures: people 
in the workforce system are trained in the helping professions, while 
economic developers see themselves as ``deal makers.'' Overcoming these 
challenges is not easy; it requires persistent leadership from 
officials at all levels, but particularly the governor.
    This issue brief examines the reasons governors undertake such 
efforts, the challenges involved, and several promising state practices 
that highlight the critical role of governors. Some governors have 
merged agencies or created new coordinating bodies. Others have 
established common missions, goals, and performance measures. Still 
others have pursued economic and workforce development strategies, such 
as cluster-based initiatives and regional skill alliances, that by 
their nature promote collaboration. Their efforts point to several 
basic lessons for states that are considering the alignment of 
workforce and economic development.
    <bullet> Complete a candid assessment of the status quo as the 
essential first step in determining appropriate actions.
    <bullet> Evaluate the positive and negative aspects of each reform 
option (including restructuring versus other alternatives) and create a 
sequence of decisions based on the current state of affairs.
    <bullet> Strengthen the quality of the economic and workforce 
information available to decisionmakers by revamping the data 
collection, analysis, and dissemination systems.
    <bullet> Organize economic and workforce development activities 
around regions and groupings of firms to improve labor market 
performance.
    <bullet> Use financial incentives and administrative actions to 
resolve the administrative and jurisdictional differences between 
economic and workforce development.
    <bullet> Set broad performance measures across multiple workforce 
programs so they align with state economic goals.
Background
    Traditionally, economic and workforce development agencies, and the 
professionals who staff them, have gone their separate ways. Economic 
development agencies focused on mobilizing the state and local 
resources needed to achieve business recruitment or expansion deals. 
Workforce development agencies focused on administering a ``second-
chance'' system of federal employment and training programs. With the 
emergence of a knowledge-based economy, however, it became evident that 
economic development requires a skilled, innovative, and flexible 
workforce. The severe ``skill gaps'' that appeared in the 1990s showed 
that workforce development is about much more than assisting the 
unemployed and disadvantaged; it also is about producing a workforce 
with the skills that employers need if they are to succeed in a rapidly 
changing and highly competitive global economy. It became clear that 
economic development and workforce development are two sides of the 
same coin, and therefore their strategies and activities needed to be 
aligned.
    When economic and workforce development are well-aligned, economic 
development officials work closely with their counterparts in workforce 
development to ensure that both long-term planning and current 
recruitment and expansion efforts take into account the skills of the 
region's workforce and its capacity to train additional workers. 
Similarly, workforce development professionals work closely with 
economic development officials and employers to ensure that their 
training and job placement efforts are designed to meet the skill needs 
of regional industries--especially those viewed as key to future 
economic growth.
    Such collaboration requires a level of mutual trust that takes time 
to develop. Trust can be nourished through committed leadership, shared 
missions, joint planning and reporting, and shared performance 
measures. Building a trusting relationship can include other 
approaches, such as joint staffing of governance bodies and merged 
research teams, jurisdictional alignments, and regional and sectoral 
strategies.
    Yet, genuine alignment goes further than mutual consideration and 
assistance. When their agencies are fully aligned, economic and 
workforce development officials work together to create a common vision 
for the regional economy and its various parts that transcends 
employment to include innovation and entrepreneurship. They develop a 
unified set of goals spelling out this vision and an integrated 
strategy--with common performance measures and shared incentives--for 
achieving them.
    Such advanced alignment is rare, especially at the state level, in 
part because states are just beginning to work at alignment and in part 
because it is not easy to accomplish. The quip that ``economic 
developers are from Mars and workforce developers are from Venus'' 
speaks to real differences in occupational cultures and institutional 
settings that complicate alignment efforts. A growing number of 
governors are taking steps to overcome the obstacles because they are 
concerned about their states' ability to compete in a knowledge-based 
global economy, increasingly aware that workforce quality is critical 
for economic development and job creation, and committed to making 
better use of resources in tight fiscal times.
Obstacles and Challenges
    For economic and workforce developers to collaborate effectively, 
each party must understand the very different operational contexts in 
which they operate. For several decades, the publicly funded workforce 
system operated under strict eligibility requirements that provided 
services almost exclusively to economically disadvantaged and 
unemployed persons. This severely limited the programs' usefulness to 
economic developers. Although the Workforce Investment Act has provided 
more flexibility for working with different customers, including 
employed workers and employers, it takes time to change long-engrained 
habits, and longer yet to change the program's reputation.
    Complicating matters are two very different institutional cultures. 
Economic developers frequently have a business background and view 
themselves as ``deal makers.'' They tend to focus on companies as their 
primary customer, helping them with real-estate development, financing, 
and water or sewer infrastructure issues. They excel in putting 
together funding packages using multiple local, state, federal, and 
private resources from a variety of programs and agencies.
    In contrast, workforce system staffs typically were trained in the 
helping professions and saw individuals as their primary client. Only 
in recent years have they taken a more demand-driven approach that 
addresses individual needs in the context of the needs of a company, 
industry, or regional economy.
    Another ongoing difference between most economic and workforce 
developers is the source of their funding. While workforce agencies 
depend on the federal government for the vast majority of their 
funding, most economic development activities are funded by state and 
local governments. Differences among funding streams create tensions 
because each funding source has its own policy, reporting, and 
performance requirements.
    To fulfill diverse and varied missions, workforce and economic 
development organizations typically seek to meet these requirements 
based on guidance from different governance boards or councils, which 
use different tools and engage in different planning processes that 
cover different geographic areas and adhere to different schedules. The 
responsible program officials collect data on different performance 
indicators that are submitted to different oversight authorities via 
different reporting processes. This ``silo'' approach occurs despite 
the often considerable overlap among the issues addressed and 
strategies outlined in the individual plans and initiatives.
Governance Solutions to Alignment
    Overcoming the alignment barriers--both structural and cultural--
does not happen naturally or easily. It takes creative and persistent 
leadership from officials at many levels, and most critically the 
governor. Only governors have the authority and influence to reorganize 
departments, redefine missions, undertake major strategic initiatives, 
or reallocate state government's resources. Only governors are in a 
position to bargain with the legislature if necessary. Once governors 
decide to act, the key question is how best to achieve the desired 
results.
    One governance approach to promoting greater alignment of economic 
and workforce development is to consolidate multiple workforce and 
economic development agencies and programs into one department under a 
single commissioner or secretary. Another approach uses mechanisms, 
such as mini-cabinets, that facilitate ``structured coordination'' 
among existing agencies.
Consolidation
    In theory, consolidation is a fairly straightforward way to align 
workforce and economic development. It typically involves merging 
similar agencies and programs into a single existing department or 
creating a new department with programs pulled from other agencies. In 
practice, it is usually more challenging. It can consume a great deal 
of time and energy due to the resistance and maneuvering of those 
affected. Legislators and advocacy groups may get involved, causing the 
governor to expend political capital in the process.
    In addition, the results of reorganization often are quite 
disappointing. Employees sometimes spend considerable time figuring out 
their new roles and responsibilities, old habits can persist under new 
arrangements, and long-lamented silos may continue, only now within the 
same department. This is especially likely when the agencies opposed 
the consolidation and are as culturally different as economic and 
workforce development.\i\
---------------------------------------------------------------------------
    \i\ In The Price of Government, David Osborne and Peter Hutchinson 
go further, suggesting that ``simply moving boxes on an organization 
chart can actually make matters worse, increasing costs while sowing 
confusion that hampers performance.'' They recommend ``consolidat[ing] 
funding streams and `steering' authority, so steering (policy) 
organizations can purchase results from any `rowing' organizations--
public or private--that can best produce them. See The Price of 
Government:Getting the Results We Need in an Age of Permanent Fiscal 
Crisis (Basic Books, 2004), p.13-14.
---------------------------------------------------------------------------
    Despite these challenges, organizational consolidation can produce 
many benefits and lasting change that justify the effort, such as 
unified authority and its potential for ensuring more coordinated 
planning, implementation, and evaluation. In addition, consolidating 
agencies can break up dysfunctional bureaucracies and send strong 
signals about new directions and expectations. The difficulty of 
achieving consolidation discourages subsequent political leaders from 
reversing direction. Because it makes intuitive sense, it is difficult 
to justify returning to agencies reflecting programmatic silos.
    Several states have consolidated agencies and departments, usually 
by executive order. As far back as 1995, Texas consolidated 24 
workforce programs scattered across 10 agencies into one new agency, 
the Texas Workforce Commission (TWC). Within this framework, the Texas 
Workforce Solutions emerged, a partnership among TWC, 28 local 
Workforce Development Boards (WDBs), service providers, and other 
stakeholders.
    TWC allocates federal funds through annual contracts with the WDBs 
to provide services in five programs: Temporary Assistance to Needy 
Families (TANF), Workforce Investment Act (WIA), Food Stamp Employment 
and Training, Child Care and Development Fund, and Welfare to Work. TWC 
also contracts with local boards to operate the Trade Adjustment 
Assistance program and Project RIO (Re-integration of Offenders) and to 
locally manage Wagner Peyser staff, who remain state merit staff. This 
gives WDBs the opportunity to manage a broader set of funding streams 
and program requirements. Later, an Office of Employer Initiatives was 
established in the TWC to coordinate with the Governor's Office of 
Economic Development and ensure that the training needs of industry 
sectors are served. Coordination between workforce and economic 
development was further strengthened when the Department of Economic 
Development was moved to the Governor's Office through legislation 
enacted by the legislature and signed by Governor Rick Perry.
    Former Missouri Gov. Mel Carnahan and Oklahoma Gov. Brad Henry also 
consolidated their states' various employment and job-training programs 
and moved them into the economic development agency. In Missouri, Gov. 
Carnahan placed the resulting division of workforce development in the 
Department of Economic Development and Commerce under a sub-cabinet 
appointee.
    Gov. Henry moved the Oklahoma Employment Security Commission 
(OESC)--the primary agency responsible for administering WIA programs--
under the Cabinet of the Secretary of Commerce to work more closely 
with the business recruitment team. In part, this realignment involved 
local one-stop centers and employment offices and personnel who serve 
as initial contact points and action agents for the state's economic 
development efforts. A newly appointed deputy secretary of commerce for 
workforce development oversees the effort and reports directly to the 
DOC Secretary. The deputy secretary also directs the Governor's Council 
for Workforce and Economic Development, established by Gov. Henry to 
serve as the state's reconstituted WIB. The council is supported by the 
Workforce Solutions Staff Team, created when the Governor asked 
workforce department heads to designate senior executives to support 
the council and align department objectives and resources with economic 
development.
    Other states have gone still further, including several that 
created new, consolidated departments. In 2003, after four years of 
restructuring efforts that included a governor's mini-cabinet and a 
transition team that managed the final merger, Minnesota Gov. Tim 
Pawlenty established a single Department of Employment and Economic 
Development. That same year, Michigan Gov. Jennifer Granholm created by 
executive order a consolidated Department of Labor and Economic Growth, 
and saw to it that the state's workforce investment and economic 
development boards shared members.
    In 2004, the Idaho legislature passed and Gov. Dirk Kempthorne 
signed legislation creating a combined workforce and economic 
development agency, the Department of Commerce and Labor. As an 
outgrowth of the merger, the state held a joint meeting of economic and 
workforce development leaders to refine goals for better integration of 
economic and workforce development services. In addition, the one-stop 
and former job service offices added the full spectrum of economic 
development, community development, and related services to the menu of 
services in the new agency's service centers.
    Kansas Gov. Kathleen Sebelius included higher education in the 
alignment of workforce and economic development. In January 2004, she 
issued an executive order that transferred WIA, Wagner Peyser, and 
adult education funds for employment and training from the Department 
of Labor to the Department of Commerce (DOC). The connection with 
community colleges was strengthened through a partnership with the 
Kansas Board of Regents, which cofunded an executive position with DOC 
to oversee the partnership.

Structured Coordination
    Some governors are tackling the governance challenge by developing 
mechanisms to improve coordination among economic and workforce 
development agencies. For example, jobs cabinets are mini-cabinets that 
coordinate and focus state efforts to attract and retain good jobs. 
Typically they operate within the existing agency structures and are 
charged with bringing focus and resources from across agency lines to 
achieve some common objectives. Tennessee's Department of Economic and 
Community Development administers a Jobs Cabinet and Gov. Phil Bredesen 
chairs its meetings. In Ohio, Gov. Bob Taft's policy director has 
hosted monthly meetings of the relevant cabinet directors to promote 
mutual understanding.
    Other states have developed additional mechanisms for promoting the 
desired alignment. Virginia former Gov. James Gilmore moved the state's 
WIA programs from the Department of Health and Human Services to the 
Department of Commerce and Trade, and current Gov. Mark Warner 
appointed a Governor's Special Advisor for Workforce Development to 
forge a system that meets the needs of workers and employers. Florida 
created Workforce Florida, Inc. (WFI), a corporate entity that oversees 
the Florida Agency for Workforce Innovation, with strong leadership 
from the legislature. Representatives from WFI sit on the state 
economic development board, Enterprise Florida, Inc., and the board's 
representatives sit on WFI.
    In Florida, WIBs control not only WIA funding, but TANF and Wagner 
Peyser funds as well. Each local board has signed a memorandum of 
understanding with the state. The state employs career service 
employees and Veterans Reps, who are paid with Wagner Peyser funds but 
work under the day-to-day supervision of local WIB managers. Funding 
for salaries and benefits stays at the state level, where payroll is 
managed, but all other funding comes down to the regional WIBs.
    In Pennsylvania, Gov. Edward Rendell appointed a deputy secretary 
of workforce development in the state's Department of Labor and 
Industry to oversee alignment issues among five agencies: Aging, 
Education, Community and Economic Development, Labor and Industry, and 
Public Welfare. In Massachusetts, Gov. Mitt Romney's cabinet-level 
Executive Office of Economic Development (EED) oversees four 
departments: business and technology, workforce development, labor, and 
consumer affairs and business regulation. The directors of all four 
departments within the EED are members of the Governor's cabinet.
    Missouri merged its workforce development agencies into the 
Department of Economic Development, but also formed a team among the 
departments of Economic Development, Labor and Industrial Relations, 
and Social Services that led to the creation of nine task forces to 
examine specific issues and make recommendations for better aligning 
and coordinating their activities. State officials point to impressive 
results, including significant savings in administrative costs and 
substantially higher rates of job placement and retention. Sometimes 
such planning is part of a more comprehensive assessment of the state's 
economic and social policies.
    It is important to note that such structured coordination can 
complement as well as substitute for consolidating programs and 
agencies. No organizational structure is sufficient to efficiently 
address the multitude of issues and populations that come and go 
without effective coordination across agencies. Governors need to 
promote such coordination, whether through ad hoc and temporary bodies 
or more permanent ones.

Strategies and Tactics to Achieve Greater Alignment
    To align economic and workforce development, reorganizing 
governance structures is often helpful, but it is neither necessary nor 
sufficient. Strategies and tactics are needed to align the everyday 
activities of state and local economic and workforce development 
officials, one-stop career center operators, community college leaders, 
and other key personnel. Three strategic approaches show special 
promise: focusing on specific industries and occupations, joint 
planning and information management, and integrated performance 
management.

Segmenting the Market by Industry and Occupation
    A common criticism of job training programs has been that they did 
not train workers to meet the real needs of local employers. Often as a 
result, workers lack the skills they need to qualify for existing jobs, 
while employers have difficulty filling vacant positions, especially in 
high-skill, high-growth occupations and industries.
    A growing body of research suggests that the most practical way to 
match supply and demand is to organize communications between skill 
providers and skill consumers according to some subsegment of the 
broader universe of employers. Some of this segmentation happens 
anyway, but states are finding that they can promote improved labor 
market performance by organizing their own economic and workforce 
development efforts around particular occupations, industry sectors, or 
clusters of employers with common characteristics (e.g., members of a 
supply chain or companies in a specific stage of growth, such as start-
up firms or at-risk companies). The National Network of Sector Partners 
recently published a paper\ii\ on sector-responsive state policy models 
that identifies the following common elements.
---------------------------------------------------------------------------
    \ii\ Marano, Cindy and Dexter Ligot-Gordon. From food Processing to 
Fabricating Metals: a Profile of Manufacturing Sector Initiatives 
Across the Country, Oakland, CA: National Network of Sector Partners, 
2004.
---------------------------------------------------------------------------
    <bullet> Combining economic development goals with workforce 
development goals by targeting specific industries that are critical to 
the state or regional economy, and analyzing the workforce needs in 
those industries.
    <bullet> Encouraging and sometimes providing incentives for the 
development of partnerships among multiple stakeholders such as 
employers, education and training providers, workforce boards, 
philanthropic organizations, and organized labor.
    <bullet> Investing in helping employers within those industries to 
prepare their workforce to become more skilled and productive, and also 
in preparing new, dislocated, or disadvantaged workers for jobs in 
those industries.
    <bullet> Supporting a variety of solutions to meet employer and 
worker needs, in addition to traditional workforce training, such as 
business services, supervisory training, and supportive services or ESL 
training for disadvantaged clients.
    <bullet> Encouraging regional collaborations that cross traditional 
workforce and economic development boundaries or link traditional 
education and training systems.
    <bullet> Including accountability measures that enable the state to 
ensure that the investments are producing the intended outcomes.
    Several states have launched initiatives that exemplify this 
sectoral approach. Typically, these efforts are regional in geographic 
scope rather than statewide or local, reflecting the regional nature of 
labor markets. Indeed, one of the helpful steps that state leaders can 
take is to align economic and workforce development jurisdictions 
around the same regional labor markets.
    Michigan's Regional Skills Alliances are public-private 
partnerships that convene key stakeholders in a particular industry to 
address the employers' workforce needs. The conveners of such 
partnerships can come from various institutions, including industry 
associations, labor unions, workforce boards, and community colleges. 
They mobilize the various stakeholders and facilitate the needs 
assessment, planning, and implementation of the sector initiative. 
Activities include examining, designing, and implementing improvements 
to the sector's human-resource practices; realigning training 
curricula; and addressing such nonworkplace issues as transportation. 
In 2004, the state invested $1.05 million to foster the development of 
12 alliances, with no single grant exceeding $100,000. The state also 
offers direct technical assistance to each alliance.
    Washington's Skill Panels, initiated by the Governor and State 
Legislature, are public-private partnerships of business, labor, and 
education working together through regional alliances to improve the 
skills of workers in industries vital to Washington. Industries see the 
skill panels approach as a successful model, providing leadership, 
innovation, and solutions to grow and keep a competitive workforce. The 
state workforce investment board provides funding to each skill panel, 
which leverages additional financial support from other public and 
private sources.
    The industry skill panels continuously examine the workforce needs 
of the industries they serve. Panels push for change and recommend new 
training programs where none existed before. They demand more training 
capacity when there are not enough graduates to meet the industry's 
needs. They press for modernized training for the industry's current 
workforce. They demand that public training budgets are strategically 
used. They support economic development initiatives aimed at building 
industry competitiveness.
    Industry skill panels increasingly influence Washington's workforce 
development system. Effective industry skill panels allow private 
enterprise to contribute intellectual and financial resources to ensure 
both workers and employers stay competitive. Community colleges are 
responding to employer needs with more flexible, higher quality 
training. They are expanding and creating more modular courseware 
options, providing additional weekend and evening classes, offering 
greater numbers of distance learning opportunities, and improving their 
systems in numerous other ways. As a result, participants in the 
workforce development system are better trained and prepared for 
industries' skill demands.
    New York State officials decided five years ago to invest WIA 
discretionary funding in helping local areas meet specific business 
needs in important industry sectors. They launched a series of 
initiatives incrementally, building on lessons learned in each step. 
The state funded projects to understand and support career ladders, 
targeting key industries that use developing technologies such as 
information technology, biotechnology, and nanotechnology.
    New York created Building Skills in New York State (BUSINYS) to 
provide process-improvement training that helps employees reduce 
production costs and increase efficiencies through processes such as 
lean manufacturing and six sigma. More than $20 million has been 
awarded to businesses of all sizes, with a significant number of awards 
going to small and emerging businesses. The state also initiated 
Accelerate New York to help companies in key industries with business 
planning--after state economic development officials observed that 
businesses' incumbent-worker training funding requests often did not 
demonstrate a strategic approach to training or take advantage of the 
opportunity to use the training to advance overall company objectives.
    Oregon Governor Ted Kulongoski, as part of his initiatives to 
create and maintain jobs in the state, implemented an incumbent worker 
training project, the Employer Workforce Training Fund. The fund was 
specifically designed to increase the coordination among workforce, 
education and economic development entities at the local level.
    Funds are awarded directly to employers for training their 
workforce. Projects are selected and managed by a Workforce Response 
Team (WRT) in each of Oregon's fifteen regions. Required membership on 
the WRTs includes the WIA Title IB provider, the state employment 
department, the community college, and local and state economic 
development entities. Besides assisting local employers in creating and 
maintaining jobs, the funds have provided an incentive for economic 
development, workforce development and education to work together on 
real projects. This has resulted in a growing awareness among economic 
development practitioners on the importance of workforce development 
and education and more demand-side thinking on the part of the 
workforce development and education partners.

Joint Planning and Information Management
    Because of the myriad sources of federal and state funds, the 
varied planning requirements that accompany the funds, and the 
different agencies, elected officials, and jurisdictions responsible 
for them, planning efforts often occur independently from one another. 
Aligning planning efforts provides a practical opportunity for states 
to focus multiple resources on priorities agreed upon by the Governor 
and other state leaders.
    Illinois Gov. Rod Blagojevich designated 10 Economic Development 
Regions to develop individual ``Opportunity Returns'' economic 
development plans. As part of Opportunity Returns, the Critical Skills 
Shortage Initiative is designed to establish local WIB-led coalitions 
that identify key industry sectors, collect and analyze information 
about shortages in key occupations, determine root causes and 
solutions, and develop proposals to test and implement solutions that 
leverage existing resources.
    Using WIA discretionary funds, the Illinois Department of Commerce 
and Economic Opportunity awards $3 million in planning grants to these 
coalitions on a noncompetitive basis and $15 million in total training 
grants on a competitive basis to those that submit the best plans. In 
the first year, the training grant funds 100 percent of the cost of 
activities authorized under WIA. Grants are renewable for a second year 
to fund up to 50 percent of costs, with each region expected to secure 
funds from other sources to make up the difference and continue without 
any state funds in subsequent years.
    Indiana Gov. Mitch Daniels is pursuing a strategy similar to the 
Illinois approach, with the major exception of asking the U.S. 
Department of Labor for a waiver to create a single state-designated 
WIB (plus an Indianapolis WIB). Under this single state WIB, Indiana 
will designate regional workforce boards with greater flexibility and 
accountability. In the process, the state proposed consolidating 16 
local WIB areas into 11 regions that correspond with economic 
development and community college boundaries.
    Missouri took a different approach, merging its economic and 
workforce development research units, along with the Missouri 
Occupational Information Coordinating Committee staff, to create the 
Missouri Economic Research and Information Center (MERIC). In 2004, the 
center began to provide comprehensive services to local WIBs. In 
addition, Missouri developed a performance scorecard that includes 
measures in three major categories: workforce development, education, 
and the economy. MERIC collects and analyzes the data across the three 
categories of indicators and reports the results to the Missouri 
Training and Employment Council. The combination of MERIC and the 
scorecard provide management with valuable information to clarify 
policy direction and priorities and direct their investments toward 
desired results.
    New Jersey initiated a demand-side skills assessment project to 
strengthen the relationship between workforce and economic development 
and better inform the planning processes across these systems. As a 
first step, the state identified key growth industries in the state. 
Then, working with local WIBs in four regions of the state with a 
concentration of these industries, the state gathered data on the 
skills required by specific industry clusters.
    During the project, the four participating WIBs formed industry 
advisory groups composed of local employers, educational providers, 
economic developers, and training specialists. These groups helped the 
local WIBs identify key demand occupations in their regions and the 
skills employers needed in these occupations. Information gathered 
through this process was made available to state agencies, one-stop 
centers, and institutions of higher education to better align the 
services and occupational training available through the education and 
workforce systems with the demands of employers in the regional 
economies. The effort has expanded to other regions of the state, with 
information on this initiative available online (see 
www.NJNextStop.org).

Integrated Performance Information
    The multiple programs that invest in workforce development have 
dozens of different measures with numerous definitions that make it 
difficult for policymakers to accurately assess their collective 
benefits and contributions to statewide economic competitiveness. 
Because workforce development is recognized as a critical factor in 
state and regional economic development strategies, a clear 
understanding of its results is increasingly important to governors and 
other state policymakers.
    Many states have taken on the challenge of aligning the measures 
and integrating the performance information across workforce programs, 
and several have made significant progress, including Florida, Oregon, 
Texas, and Washington. In 2004, these states joined with two other 
states, Michigan and Montana, in the Integrated Performance Information 
project funded by the U.S. Department of Labor and led by the 
Washington State Workforce Training and Coordinating Board. The project 
aimed to develop a guide for states interested in creating or further 
developing integrated performance information to better align workforce 
development programs and provide policymakers with the information 
necessary to make strategic investment decisions.
    The project produced a ``blueprint'' \iii\ or state guide for 
simplifying measures and developing integrated performance information, 
drawing heavily on the experiences of the participating states--
particularly Florida, Oregon, Texas, and Washington. Each of these 
states took a separate path to integrated performance information, but 
they all experienced a journey that took many years and multiple steps.
---------------------------------------------------------------------------
    \iii\ Washington State Workforce Training and Education 
Coordinating Board, Integrated Performance Information for Workforce 
Development: A Blueprint for States, Olympia, WA: Washington State 
Workforce Training and Education Coordinating Board, 2005.
---------------------------------------------------------------------------
    Florida's journey, spanning more than 20 years, involved close 
collaboration between the Governor's office and the State Legislature 
to create the Florida Education and Training Placement Information 
Program (FETPIP). Today FETPIP is the primary tool for informing 
policymakers about the performance of education and workforce programs 
and how these investments contribute to Florida's economic 
competitiveness.
    The path to creating FETIP started in 1982 when the Governor's 
office sought to use unemployment wage records to analyze the labor-
market outcomes of vocational education students. This led to 
legislation in 1984 to create the Occupational Identifier Project, 
which used unemployment wage records to measure post-program 
employment. The legislation also enacted performance requirements for 
secondary and post-secondary education that tied funding to outcomes. 
Building on this effort, in 1988 the legislature created FETPIP within 
the education agency. Since then, the program scope has broadened to 
include most education programs and a variety of employment and 
training programs. Its functions have broadened as well to include 
program evaluation, performance-based funding, consumer information, 
and research.
    Oregon tied the development of its integrated performance 
information to building a vital state economy and a competitive 
workforce. Today the state has a culture of shared accountability, 
focused on outcomes and imbedded in programs, agencies, and sectors at 
all levels. The Governor initiated this effort in 1988 in response to a 
severe economic recession. It started with a strategic-planning 
process, ``Oregon Shines,'' with the goal of creating the most 
competent workforce in America by 2000 and in the world by 2010.
    Oregon's process involved leaders from business, labor, education, 
and government and led to the formation of the Progress Board, chaired 
by the Governor. It also resulted in the Oregon Benchmarks: 259 
measures that crossed multiple programs, agencies, levels of 
government, and the public and private sectors, with shared 
responsibility for achieving the benchmark goals. The Progress Board 
issued ``Oregon Shines II'' in 1997, which updated the benchmarks, 
reduced the number of measures from 259 to 100, and recognized the 
importance of workforce training and academic skills to jobs and the 
economy. Oregon's system of cross-system workforce performance 
indicators has evolved into three tiers of measures: the broadest 
measures or benchmarks, systemwide measures, and program-specific 
measures.
    Texas took the governance path to creating a system of integrated 
performance information by creating Texas Workforce Investment Council 
to assist the Governor and Legislature with strategic planning and 
evaluation of the Texas workforce system. Today, the council is the 
state's primary source of information on building a competitive 
workforce.
    The Texas Legislature established the council in 1993 and gave it 
broad strategic planning authority and oversight of the state's 
workforce programs. With its majority private sector and cross-agency 
membership, the council also serves as a vehicle for linking workforce 
and economic development programs. The 1995 legislation that 
consolidated 24 workforce programs under the Texas Workforce Commission 
enhanced the council's role by giving it responsibility for 
establishing systemwide performance measures for all workforce programs 
and moving it to the Governor's office. Subsequent legislation has 
reinforced the council's role in establishing systemwide performance 
measures.
    Washington also took the governance path to integrated performance 
information, creating the Workforce Training and Education Coordinating 
Board as an independent agency responsible for policy planning and 
performance accountability. Today, both business and labor view the 
board's performance information system as a key source of information 
on the performance of workforce programs and their impact on the 
state's economic competitiveness.
    Legislation enacted in 1991 created the board with strong support 
from the business community, which was concerned that the state lacked 
a good system for tracking the results of its workforce investments. 
With a majority of private-sector members and no responsibility for 
program operation, the board is seen as a neutral third party in 
establishing common measures and evaluating program performance across 
state agencies. The board led a two-year process of developing and 
adopting a performance accountability system with common performance 
measures. After using the system for several years, the board refined 
the measures to a core set of indicators.

Conclusions and Recommendations
    The emergence of regional knowledge economies and evolution of 
federal workforce-development programs have created new opportunities 
for fruitful collaboration among economic and workforce development 
agencies. Where that collaboration works well, the resulting 
partnerships facilitate progress in several areas. Most notably, they 
help establish combined regional entities and identities that create a 
climate for seeking region wide solutions to competitiveness challenges 
and opportunities--including those of marketing and of improving the 
skills and agility of the workforce.
    Governors are in an ideal position to promote such alignment. They 
can define a vision that will win support from a wide variety of key 
individuals and organizations. They can use the bully pulpit to amplify 
the message. They can use discretionary funding to encourage 
collaboration in desired areas, including planning, research, staff 
cross-training and collocating, and even the merging of agencies or 
aligning of agency missions and funding streams.
    There is no single right way to do any of this. Rather, the chosen 
path--whether it involves agency consolidation, pooled funding, joint 
research shops, unified regional districts and entities, or other 
methods--should reflect each state's economic, political, and 
institutional realities and be designed to achieve intended outcomes.
    Nevertheless, universal lessons emerge from the experiences 
summarized in this Issue Brief. First, governors can play a critical 
role in promoting alignment. Although many economic development 
decisions are made at the regional or local level, governors can define 
the vision, use the bully pulpit to promote change, and advance 
specific strategies for aligning economic and workforce development 
activities at all levels of government. In addition, states that are 
successfully moving toward alignment have incorporated many of the 
following practices or lessons.
    <bullet> Complete a candid assessment of the status quo as the 
essential first step in determining appropriate actions. The assessment 
can identify areas of misalignment and illuminate their nature and 
implications, relevant actors and stakeholders, the history of any 
previous attempts to address it, and the potential costs and benefits 
of reform.
    <bullet> Evaluate the positive and negative aspects of each reform 
option (including restructuring versus other alternatives) and create a 
sequence of decisions based on the current state of affairs. With a 
clear understanding of the status quo, state leadership can begin to 
assess the relative merits of various approaches, from changes in 
governance structures to less dramatic reform options. Good decisions 
about consolidating economic and workforce development agencies versus 
alternative methods for eliciting the needed collaboration--such as 
jobs cabinets and other forms of structured coordination--are made with 
careful consideration of the political and economic contexts, history 
of relationships among relevant agencies, and other such variables.
    <bullet> Strengthen the quality of the economic and workforce 
information available to decision makers by revamping the data 
collection, analysis, and dissemination systems. Accurate assessments 
and effective plans both depend on access to quality, real-time data 
about practices and economic conditions. Many states have improved the 
quality of relevant data available to key decision makers by revamping 
the mechanisms for data definition, collection, analysis, packaging, 
and dissemination. Some states have required regional and local 
entities to incorporate the use of this data into plans and proposed 
initiatives in order to compete for discretionary funding.
    <bullet> Organize economic and workforce development activities 
around regions and groupings of firms to improve labor-market 
performance. Increasingly, states are using various levers at their 
disposal to encourage regional and local entities to segment the 
marketplace into groups of employers that have a more meaningful 
economic context. This includes customizing targeted economic and 
workforce development activities to the needs of specific industries or 
economic sectors, clusters, start-up companies--whatever groupings make 
sense--to improve labor market performance.
    <bullet> Use financial incentives and administrative actions to 
resolve the administrative and jurisdictional differences between 
economic and workforce development. The state can help regional and 
local entities sort out the confusing array of administrative and 
jurisdictional differences (e.g., different agencies, counties, cities, 
regional authorities, etc.) when studying trends or organizing 
responses. State leaders can use discretionary funds, reporting 
guidance or administrative measures such as jobs cabinets to promote 
the creation of aligned economic and workforce development 
jurisdictions and joint planning within them.
    <bullet> Set broad performance measures across multiple workforce 
programs so they align with state economic goals. Because ``you get 
what you measure,'' many states are establishing broad performance 
metrics that encourage collaboration and alignment across programs and 
funding streams. Innovative performance strategies such as an 
integrated performance information systems, system wide performance 
measures, and cross-system performance scorecards can advance these 
efforts.
                                 ______
                                 

              Answers for the Record Submitted by Ms. Vito

    On behalf of the nation's governors, thank you for the opportunity 
to testify before the U.S. House Education and Labor, Subcommittee on 
Higher Education, Lifelong Learning, and Competitiveness on February 
26, 2009 regarding the reauthorization of the Workforce Investment Act 
(WIA). Included below are the National Governors Association's 
responses to Chairman Hinojosa's questions asked during the hearing, 
which supplement the testimony given by Sandi Vito on behalf of NGA.

    What can be done to align workforce programs across federal 
agencies?

    Governors and state leaders are transforming state workforce 
systems by merging and consolidating state agencies and bringing 
missions, goals and objectives into alignment with one another to 
better respond to job seekers' needs, reduce fragmentation, promote 
accountability, and create shared responsibility. However, governors 
will be unable to achieve the kind of true alliances and collaborations 
that are necessary to streamline the state-led workforce system without 
integration and alignment of workforce programs at the federal level.
    To address this need, governors recommend a joint federal 
initiative to align workforce programs and services across executive 
agencies. The joint initiative must work in consultation with state 
leaders who understand the effect of national policies and programs on 
the delivery of services to our citizens and can help shape federal 
support. The joint initiative should develop a shared purpose, possess 
high-level technical and programmatic expertise, and be given 
sufficient authority to decide and enact necessary changes.
    The components of a joint initiative should, at a minimum, address:
    Federal regulations: The process of integrating and streamlining 
workforce education and training regulations will provide a needed 
opportunity for federal agencies to jointly examine and eliminate 
conflicting regulations and expose the potential for collaborative 
guidance that facilitates seamless service delivery mechanisms at the 
state and local levels.
    Reporting requirements: Jointly aligned federal data reporting 
requirements will support state data systems, simplify data collection 
and data validation, and reduce costs and duplication. It will also 
produce federal data sets that are comparable to one another and 
thereby better able to inform planning and evaluation.
    Performance measurements: As set forth in NGA's written testimony, 
NGA and the National Association of State Workforce Agencies propose 
common performance measurements applied across federally funded 
workforce education, training and employment related programs to 
replace all performance measures and other indicators. The proposal 
streamlines the current complex system and will provide comparable and 
meaningful outcome measures across workforce programs.
    Oversight: Consistent and coordinated federal oversight that 
focuses on helping states improve their practices and effectiveness 
across all workforce programs will foster a stronger federal-state 
relationship and will result in better program performance and 
outcomes.
    Service integration: Federal agencies must work together to make a 
paradigm shift that embodies and prioritizes integrated service 
delivery for citizens and supports mechanisms that maximize the concept 
of ``one-stop shopping.''

    What new energy collaborations for green jobs have governors 
created?

    Emerging and growing industries are dynamic and often distinct, 
evolving differently within states and regions. Governors are uniquely 
positioned to integrate and align economic development, education and 
workforce resources to respond to the needs of emerging industries like 
clean, renewable energy and also for growing industries like healthcare 
and education. Governors can set public policy agenda, influence agency 
leadership and bring the work of public institutions into alignment 
with the needs of emerging and growing industries to support job 
creation and drive regional economies. Governors are leading reforms to 
prepare individuals for today's emerging fields, as well as jobs of the 
future. Our nation's economic interests require a nimble, flexible, 
forward looking workforce system. While green jobs are an exciting, 
promising and growing field today, the needs of our nation will 
continue to shift.
    To ensure our nation's ability to compete in an evolving global 
economy and respond to crucial energy and environmental challenges, 
governors across the nation are making significant investments in 
establishing new and broad clean and renewable energy collaborations 
and designing and implementing initiatives to train and prepare workers 
for green jobs.
    It is important that Congress recognize that each state is unique 
and that practices in one state may not necessarily result in the same 
outcomes in another state. To that end, NGA provides the following as a 
small sample of the wide variety of Governors' green jobs innovations 
being implemented across the country. While governors are leading a 
broad array of green initiatives through changes in state tax laws, 
economic incentives, and infrastructure modernizations, the examples 
below highlight the use of ``workforce'' levers to achieve change.
    California Governor Schwarzenegger enacted new law to expand career 
and technical education programs (CTE) in the state by connecting CTE 
to postsecondary and career options, thus making the CTE courses more 
meaningful for students. One program within the initiative will 
establish partnership academies in green technology in each of the 
state's nine economic regions. Partnership academies are schools within 
a high school that integrate academic and career technical education. 
Green technology partnership academies will train young people in 
emerging environmentally sound technologies.
    In Connecticut, Governor Rell established guidelines to train and 
develop Connecticut's green collar workforce to meet the needs of the 
growing clean energy business sector. The Connecticut Employment and 
Training Commission will create a Green Collar Jobs Council that will 
bring together representatives from business and industry and the 
Departments of Education, Higher Education, Environmental Protection, 
Labor and Economic and Community Development, and the Energy Workforce 
Development Consortium. Additionally, the Labor Commissioner will 
establish a 21st Century Green Jobs Training Initiative which will 
provide training to meet the needs of the energy industry and other 
green industry workforce needs as identified by the Energy Workforce 
Development Consortium.
    As part of Governor Crist's commitment to reduce Florida's 
dependence on foreign oil, lower greenhouse emissions and develop 
renewable energy resources, he recently released a study ``GreenForce 
Florida, An Alternative Energy Workforce Profile.'' Based on direction 
from the report, the Department of Education is working collaboratively 
with a group of stakeholders to fast-track the development of the 
career pathways, standards, benchmarks and frameworks for several solar 
industry occupations. By utilizing the existing Workforce Education 
Career Clusters Pathways as a platform, Florida will be able to rapidly 
create a green-collar workforce that will be prepared to serve 
Florida's growing alternative energy industries.
    Governor Granholm expanded Michigan's No Worker Left Behind program 
to include a Green Jobs Initiative. The No Worker Left Behind program, 
which the Governor launched in August 2007, provides up to two years of 
free tuition at any Michigan community college, university or other 
approved training program. The Green Jobs Initiative expands the 
program to include a focus on creating training programs needed to help 
green companies succeed.
    The Green Jobs Initiative invests in training for jobs in 
alternative energy industries, including wind, solar, biofuels and 
geothermal energy. The main goal of the initiative is to ensure that 
Michiganders are prepared to enter the new jobs that emerge as 
employers expand operations or add new components to their workforce in 
response to a changing energy market. A website will facilitate 
collaborative partnerships between businesses, educational 
institutions, and government to better link research and development in 
renewable energy with education and training.
    Governor Paterson of New York created a Renewable Energy Task Force 
to identify a means of attracting clean energy industries and promoting 
renewable energy technologies. One of the 16 specific recommendations 
made by the Task Force was a green jobs pilot program to examine 
existing training programs in the state and identify the skill sets and 
specific job titles in the efficiency, solar and offshore wind sectors. 
Unemployment data collected by the Department of Labor and temporary 
disability assistance data collected from Department of Housing and 
Community Renewal is then used to match displaced workers, particularly 
those who are disadvantaged and living in low-income communities, with 
job training such as certified weatherization installation and solar 
energy technician.
    In Oregon, Governor Kulongoski utilized federal Workforce 
Investment Act resources to develop a statewide Strategic Training Fund 
Grant program. One of the grants provided funding to build an 
Alternative Energy Career Pathway to support the skilled workforce 
needed to maintain and operate wind turbines, with transferable skills 
for hydro, solar, and biofuel occupations. The funds were used to 
expand lab curriculum and create an on-line and distance learning 
program for the Wind Turbine Technician Training program at Columbia 
Gorge Community College.
    Vermont Governor Douglas supports four innovative statewide 
training initiatives in renewable energy and energy efficiency. One 
program through the Center for Sustainable Practices trains new and 
incumbent workers in six different modules of weatherization 
certificate training. Trainees are recruited through Workforce 
Investment Act programs. WIA eligible trainees and TANF recipients 
typically complete more than one module in the progressive series of 
skill training to secure green jobs. The project is a partnership of 
the Division of Economic Services, the Vermont Technical College, the 
Office of Economic Opportunity and the Vermont Department of Labor.
    In Washington, Governor Gregoire created statewide goals to reduce 
Washington's global-warming pollution and increase the number of green 
jobs. One component of this initiative is the Green-Collar Job Training 
Fund that trains workers for high-wage occupations, or occupations that 
are part of career pathways in high-demand industries related to clean 
energy. Competitive grants are awarded to partnerships that draw on 
labor market analysis and work in collaboration with a range of 
stakeholders to leverage and align other public and private resources, 
link basic education with skills training, involve employers and unions 
in the development and validation of career pathways, and integrate 
support services. Targeted populations include low-income adults and 
youth, entry-level and incumbent workers, and dislocated workers in 
declining industries who can be re-trained for high-wage occupations in 
high-demand green industries.
    Thank you for the opportunity to make additional comments on the 
reauthorization of WIA. If you have any additional questions, please do 
not hesitate to contact Linda Lawson, Legislative Director, Education, 
Early Childhood, and Workforce Committee at (202) 624-5369 or via email 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6baba9781859998b6989197d8998491">[email&#160;protected]</a>; or Joan Wodiska, Committee Director, Education, 
Early Childhood, and Workforce Committee at (202)624-5361 or via email 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="09637e666d607a626849676e6827667b6e27">[email&#160;protected]</a>
                                 ______
                                 

Common Measure Proposal Reauthorization of the Workforce Investment Act

    A critical element of the Workforce Investment Act (WIA) 
reauthorization is the development and use of common measures to 
increase system-wide accountability, while significantly decreasing 
administrative costs and inefficiencies. The NGA-NASWA WIA Common 
Measure Proposal streamlines the complex system of nearly 100 varying 
and incomparable performance measures into four critical measures 
focused on customer outcomes, including short-term and long-term 
employment rates, earnings, and credential completion.
    The intent of the NGA-NASWA proposed legislative language is to 
replace all performance measures and additional indicators across all 
programs directly or indirectly authorized under WIA, including WIA 
Dislocated Worker, Wagner-Peyser, WIA Adult, WIA Youth, Job Corp, 
Veterans' programs, and related programs authorized at the U.S. 
Department of Education, including Adult Education and Rehabilitative 
Services.
                           proposed language
  (b) STATE PERFORMANCE MEASURES.----
          (1) IN GENERAL.--For each State, the State performance 
        measures shall consist of
                  (A)(i) the core indicators of performance described 
                in paragraph (2)(A); and (ii) additional measures of 
                performance (if any) identified by the State under 
                paragraph (2)(B); and
                  (B) a State adjusted level of performance for each 
                measure described in subparagraph (A).
          (2) INDICATORS OF PERFORMANCE
                  (A) CORE INDICATORS OF PERFORMANCE.----
                          (i) IN GENERAL.--The core indicators of 
                        performance for employment and training 
                        activities authorized under the Workforce 
                        Investment Act [insert section references, as 
                        applicable] (except for informational 
                        activities) shall consist of----
                                  (I) the percentage of program 
                                participants who are employed during 
                                the second quarter after exit;
                                  (II) the percentage of program 
                                participants who are employed during 
                                the fourth quarter after exit;
                                  (III) the median earnings of program 
                                participants during the second quarter 
                                after exit;
                                  (IV) the percentage of program 
                                participants who obtain an education or 
                                training credential during 
                                participation or within one year of 
                                exit;
                          (ii) CORE INDICATORS FOR ELIGIBLE YOUTH.--The 
                        core indicators of performance (for 
                        participants who are eligible youth age 14 
                        through 18) for youth activities authorized 
                        under WIA Youth [insert section reference, as 
                        applicable], shall include----
                                  (I) the percentage of program 
                                participants who are in education or 
                                training, or employed during the second 
                                quarter after exit;
                                  (II) the percentage of program 
                                participants who are in education or 
                                training, or employed during the fourth 
                                quarter after exit;
                                  (III) the median earnings of program 
                                participants during the second quarter 
                                after exit among participants not 
                                enrolled in education or training;
                                  (IV) the percentage of program 
                                participants who obtain an education or 
                                training credential during 
                                participation or within one year of 
                                exit;
                  (B) ADDITIONAL INDICATORS.--Additional indicators of 
                performance shall consist of
                          (i) A State may identify in the State plan 
                        additional performance measures for workforce 
                        investment activities authorized under this 
                        subtitle.

    For more information, please contact Joan Wodiska with the National 
Governors Association (NGA) at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86ecf1e9e2eff5ede7c6e8e1e7a8e9f4e1">[email&#160;protected]</a> or 624-5361 or Curt 
Harris with the National Association of State Workforce Agencies 
(NASWA) at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afccc7ceddddc6dcefc1cedcd8ce81c0ddc8">[email&#160;protected]</a> or 434-8023. Last updated: May 2, 2007
                                 ______
                                 

      ECW-1.--Governors' Principles to Ensure Workforce Excellence

1.1 Preamble
    The strength of America is our citizens--their innovation, 
creativity, and hard work. In the 21st century's rapidly advancing 
global economy, the foundation and economic prosperity of this nation 
will depend on a responsive workforce that has specialized and advanced 
training, cutting-edge skill sets, and higher levels of education. It 
also will depend on a workforce system that can anticipate the business 
needs of the future and rapidly align the necessary resources to stay 
ahead of the emerging demands.
    Competitive economies include aligned economic, educational and 
workforce development systems that address the needs of workers, 
regardless of the worker's skill level, age or circumstance. Through a 
comprehensive, integrated, and flexible workforce system, the nation 
will be equipped to swiftly respond to the changing needs of its 
workers and businesses to keep them competitive.
    Globalization demands a bold transformation of our nation's 
federal-state-local workforce system. Since enactment of the Workforce 
Investment Act of 1998, the nation's governors made significant 
progress and led innovative new strategies to restructure workforce 
development systems, forge new alliances with federal, state, and local 
governments and the private sector, and ultimately, upgrade the skills 
and knowledge of America's workforce. To accelerate these 
transformations and help ensure that every job seeker remains 
competitive for work in a global economy, governors need new 
flexibilities to create a nimble, flexible, market-driven and supply-
focused workforce system.
    The time is ripe for the laws and policies of this country to catch 
up with the realities and possibilities of the 21st century. Governors 
call on Congress and the Administration to enact transformative 
legislation that will authorize governors to proactively implement 
innovations, build broad and inclusive partnerships, and activate 
structural reforms across education, workforce, and economic 
development systems.

1.2 Governors' Priorities for a World-Class Workforce
    Governors recommend the following key priorities for a world-class 
workforce.
    Nimble state systems that can anticipate and respond to the current 
and emerging demands of workers and business require that governors 
have flexibility and discretion over funding and the authority to 
rapidly implement innovations.
    Every worker must have access to training and lifelong learning 
opportunities that will improve their employability and earning 
potential through education, training, and career advancement.
    Education and training must align to the current and future needs 
of business.
    Emerging entrepreneurs and small business owners must be cultivated 
to accelerate the capacity for innovations that will lead to new 
knowledge, new technologies, and new jobs.
    Workforce development strategies must produce broad and prosperous 
regional benefits for residents and businesses and result in high-
quality job growth and business attraction and retention.
    The business community should engage with the workforce development 
system in mutually beneficial joint ventures that will increase the 
education, training, and employment capacity for workers, strengthen 
business, and stimulate regional economies.
    Responsibility for governance of the state workforce system should 
reside with the governor. The governor can deploy resources based on 
regional economies rather than geopolitical boundaries.
    Meaningful collaborations between federal agencies should support 
and help to streamline workforce, education, and economic development 
programs at the state and local levels.
    National investments in workforce must provide substantial, 
reliable, and flexible funding and support commensurate with their 
importance and contribution to the economic success of our nation.
    System-wide accountability and transparency with decreased 
administrative costs can be achieved with common, customer-centric, 
state-driven performance measures.
    Governors need additional flexibility in regard to workforce 
policy, funding and federal regulations to allow for workforce services 
integration across the workforce system at the state and local levels, 
to reduce administrative costs, and to streamline and integrate 
workforce policy and services for business, workers and job seekers.

1.3 Recommendations for Transforming the Workforce System
    Governors urge Congress and the Administration to adopt the 
following recommendations to transform the workforce system.
    1.3.1 Governor-Led, Business-Guided Workforce System. The new 
challenges confronting our nation and economic position in the world 
emphasize the need for a comprehensive and flexible state-based 
workforce system focused on the needs of local regions and communities 
that is led by governors and guided by business leaders. To be 
effective agents of systemic state change, Congress must recognize the 
authority of governors in state-led workforce systems and eliminate the 
rigid, one-size-fits-all laws and regulations, federally-mandated 
governance, and prescribed service delivery structures that get in the 
way of state and local innovations.
    1.3.2 Globally Competitive State-Led Regional Economies. Economies 
are regional in scope. Integrating economic and workforce development 
initiatives through a governor-led state-regional framework offers the 
greatest potential for economic expansion and industry competitiveness, 
while providing job growth and stability for workers and opening career 
advancement opportunities. State-regional approaches and sector 
strategies often include and cross several jurisdictional boundaries 
including city, county and even state lines. National policy should be 
designed to support governor-led state-regional initiatives and sector 
strategies, particularly state efforts to build broad partnerships with 
business and industry. Federal policy also should support strong 
public/private partnerships and provide governors with the authority to 
cultivate these partnerships to attract and retain high-growth 
industries and high-wage occupations.
    1.3.3 Focus On Emerging Industries. Globalization has increased the 
world demand for energy. To address a number of national concerns, 
clean and domestic energy has become one of the governors' top 
priorities. Governors are proactively involved in establishing new and 
broad energy collaborations and designing and implementing ``green 
job'' and ``green economy'' initiatives. Governors also have taken the 
lead in developing collaborations and initiatives to address critical 
skills shortages in the health care, technology, and industry sectors 
experiencing skill shortages. To further expand these and other 
regional efforts, governors need the discretion to identify targeted 
and emerging industries and the flexibility to expend workforce, 
education, and economic development assets and available resources 
accordingly.
    1.3.4 Responsive Assistance for Businesses in Transition and 
Affected Workers. As the economy ebbs and flows, business and workers 
have to adapt. In times of business downsize or closure, employers turn 
to states to help laid-off workers find new employment. Often, this 
first means helping workers upgrade their skills or learn new skills. 
Federal initiatives and funding targeted at this population must be 
immediately available and flexible so that appropriate services are 
responsive to the unique circumstances within each state and are 
readily accessible to workers. In addition, workers affected by federal 
policy decisions should receive adequate Trade Adjustment Assistance, 
incorporated into the overall state workforce system, in a timely and 
efficient manner. All federal assistance should be provided through 
state-based networks and initiatives, and final authority to implement 
the provision of assistance should be determined by the governor.
    1.3.5 Increased and Agile Funding. Federal funding has not kept 
pace with the growing training and education needs of workers to stay 
competitive and for states and localities to provide those services. 
Governors support an adequate and consistent federal investment for 
workforce development and should be given the authority to determine 
how federal funds are allocated within their states as demands dictate. 
Economic necessity already requires governors and local leaders to 
cobble together funds to provide enhanced training and education to 
workers and the existing barriers must be removed to make it more 
effective and cost efficient. Furthermore, Congress should acknowledge 
the role of governors by providing enhanced flexibility to coordinate 
and, when necessary at a state or local level, integrate workforce, 
education and economic development funding to meet the unique needs of 
their states and communities. Additionally, governors should be given 
the option to pool federal funds for various employment, economic 
development, education, and training programs at the state level to 
respond to the needs of workers and businesses.
    1.3.6 Alignment of Federal Programs. Portions of the workforce 
system span across many agencies within the federal government, 
including the U.S. Departments of Labor, Education, Commerce, Health 
and Human Services, Justice, Veterans Affairs, and Defense. These 
myriad administrations, agencies, funding sources, regulations, and 
responsibilities needlessly complicate, and in some cases prohibit, the 
kind of true alliances and collaborations that are necessary to 
streamline the workforce development system and to provide seamless 
services at the state and local levels.
    To that end, governors recommend that Congress and the 
Administration direct federal partner agencies to develop a joint 
initiative to align federal programs, oversight, and regulations, 
consolidating redundancy and conflicting regulations where possible, 
and to establish transparent levels of responsibility and 
accountability. The initiative also should be tasked to identify and 
eliminate obvious and hidden barriers to program alignment that are 
embedded in standard operating procedures within the federal 
government.
    1.3.7 Accountability and Reporting. Accountability and workforce 
system performance outcomes should be addressed separately from 
reporting. A set of common performance measures applied across the 
workforce system will increase accountability and transparency, while 
significantly decreasing data collection inefficiencies. Governors urge 
Congress to adopt a performance measurement system applied across the 
system and developed by the states to streamline varying and 
incomparable performance measures into four critical areas focused on 
customer outcomes, including short-term and long-term employment rates, 
earnings and credential completion.
    1.3.8 Incentivize Innovations. To foster invention and sustain a 
culture of innovation, states must be incentivized and rewarded for 
their efforts to build a world-class workforce system. Governors 
support incentivizing states with additional federal funds and 
flexibilities for initiatives including comprehensive system building, 
anticipating and addressing emerging education and training needs, and 
developing regional economies.
    1.3.9 Maximize Advanced Technologies. Every aspect of the workforce 
system can be improved upon by technological advances to help 
streamline service delivery, modernize data collection and validation 
investments, and simplify reporting efforts. Initial investments will 
marginalize costs over time, and produce better outcomes for workers 
and businesses and for system accountability. Congress should provide 
transitional financial support that will give states and localities the 
ability to utilize technological advances to achieve greater system 
efficiencies.
    1.3.10 Vital Role of Community and Technical Colleges. Community 
and technical colleges have an important and broad role in America's 
workforce system. Community and technical colleges are responsive to 
the demands of the labor market and provide customized career and 
technical training programs, adult basic education and English Language 
Training to meet the specific needs of industry sectors and individual 
employers, including training for incumbent workers. Governors 
acknowledge the vital role of community and technical colleges in 
workforce education and training and in state-led regional and sector 
initiatives, and support including these entities in funding and 
collaborative opportunities that align the necessary resources to meet 
the emerging needs of a highly-skilled workforce.
    1.3.11 Preparing Youth for Work. The varying challenges facing 
youth in our country today require programs that are designed to help 
them acquire foundational skills and progress through the education 
continuum regardless of the point of entry and needed supports, and to 
prepare them for future employment and life-long learning. Governors 
must be given the flexibility to coordinate funding streams and to 
utilize funding where appropriate given the unique needs of youth and 
the available resources within each community. Governors are leading 
efforts to increase high school completion rates and keep more students 
in school. The workforce system needs to build upon this work and help 
empower youth to succeed.
    Time limited (effective Winter Meeting 2009--Winter Meeting 2011). 
Adopted Winter Meeting 1993; reaffirmed Winter Meeting 1995; revised 
and reaffirmed Winter Meeting 1997; revised Winter Meeting 1998, Winter 
Meeting 2000, Winter Meeting 2002, Annual Meeting 2003, and Winter 
Meeting 2005; reaffirmed Winter Meeting 2007; revised Winter Meeting 
2009 (formerly Policy HR-1).
                                 ______
                                 
    [Other submissions of Ms. Vito may be accessed at the 
following Internet addresses:]

             http://www.sectorstrategies.org/system/files/
             AcceleratingSectorStrategies-Phase1Report.pdf

             http://www.nga.org/Files/pdf/06STATESECREG.PDF

                                 ______
                                 
    [Question for the record submitted to Ms. Keenan follow:]

                                     U.S. Congress,
                                           [Via Facsimile],
                                     Washington, DC, March 3, 2009.
Ms. Cheryl Keenan, Director,
Division of Adult Education & Literacy, U.S. Department of Education, 
        Washington, DC.
    Dear Ms. Keenan: Thank you for testifying at the February 26, 2009 
hearing of the Committee on Education and Labor on ``New Innovations 
and Best Practices Under the Workforce Investment Act.''
    Representative Marcia L. Fudge (D-OH), member of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Health, Employment, Labor, and Pensions Subcommittee, has 
asked that you respond in writing to the following question:
    1. Are there any programs that you know of that focus on financial 
literacy within your division of adult education and literacy? I know 
many people are strapped for money due to the fact that the costs for 
many sectors, from health care to education, are increasing. How do we 
effectively educate adults about saving and being prepared for 
unexpected economic situations?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, March 
10, 2009--the date on which the hearing record will close. If you have 
any questions, please do not hesitate to contact us.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

             Answer for the Record Submitted by Ms. Keenan

    Question: Are there any programs that you know of that focus on 
financial literacy within your division of adult education and 
literacy? I know many people are strapped for money due to the fact 
that the costs for many sectors, from health care to education, are 
increasing. How do we effectively educate adults about saving and being 
prepared for unexpected economic situations?

    The ability to comprehend and analyze information to make sound, 
informed financial decisions is an important skill and necessary to 
ensuring the financial well being of families. The Office of Vocational 
and Adult Education has identified the following financial literacy 
programs and resources that can help adults with low literacy manage 
their money:
    <bullet> The Adult Literacy Media Alliance (ALMA) has enriched 
literacy and community outreach programs nationwide since 1998. 
Building on a shared interest in improving the financial literacy of 
some 70 million undereducated adults in America, ALMA and the Federal 
Deposit Insurance Corporation (FDIC) joined forces to develop 
multimedia financial literacy workshops targeted to adults who read 
between a 5th and 8th grade level. ALMA's multimedia tools offer web-
based, paper and video-based curriculum to help learners become smart 
about their money. The curriculum can be used by adult education 
instructors to provide simple math and reading instruction to help 
learners develop the skills they need to start budgeting, saving, 
control their debts, and investing. Additional information on ALMA can 
be found on TV 14's website at http://www.tv411.org
    <bullet> The Howard County Library system in Maryland is another 
good example of how adult education programs typically integrate or 
contextualize financial literacy within the content of a broader adult 
education program. Additional information can be found on the Howard 
County Library's website at http://hclibrary.org
    <bullet> The National Center for Family Literacy, through a 
partnership with the National Endowment for Financial Education, 
developed the complete Financial Opportunity: Family Progress 
curriculum. The adult student workbook is aimed at parents who read on 
a fourth grade reading level. Additional information can be found on 
the National Center for Family Literacy's website.
    <bullet> Lastly, the Massachusetts Community and Banking Council in 
June 2008 published Expanding Financial Skills in Low-Income 
Communities. This framework is presented as a guide for non-profit 
executive directors, trainers, financial institutions, and others to 
provide financial education training for adults.
                                 ______
                                 
    [Whereupon, at 12:42 p.m., the subcommittee was adjourned.]


 NEW INNOVATIONS AND BEST PRACTICES UNDER THE WORKFORCE INVESTMENT ACT

                              ----------                              


                         Monday, March 23, 2009

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:10 a.m., in 
the auditorium of the New York State Department of Education 
Building, 89 Washington Avenue, Albany, New York, Hon. Ruben 
Hinojosa [chairman of the subcommittee] presiding.
    Present: Representatives Hinojosa, Tonko, and Polis.
    Staff Present: Ricardo Martinez, Policy Advisor; and 
Paulette Acevedo, Legislative Fellow, Education.
    Chairman Hinojosa. A quorum is present. The hearing of the 
subcommittee will come to order.
    Pursuant to committee rule 12, any member may submit an 
opening statement in writing, which will be made part of the 
permanent record. Without objection, all members will have 14 
days to submit additional materials or questions for the 
hearing record.
    Good morning to everyone in the audience. Welcome to the 
Higher Education, Lifelong Learning, and Competitiveness 
Subcommittee's third hearing in preparation for the 
reauthorization of the Workforce Investment Act.
    This is also the first field hearing for the 111th 
Congress, and I would like to personally thank our good friend 
and colleague, Congressman Paul Tonko, and the New York State 
Department of Education for hosting us.
    The last reauthorization of the Workforce Investment Act 
was in 1998. I came to Congress in the class of 1996 and I had 
the distinct pleasure of going through the process in 1997 and 
1998 to get that job done.
    I wish to divert a moment from my prepared remarks and say 
that I came from the world of business, a family business that 
my father and mother started back in 1947, 61 years ago. And I 
happen to have been the first of seven brothers to graduate 
from the University of Texas in Austin, and I came back to the 
family business at the request of my father. I had actually 
been given a real nice offer by IBM and he talked me into 
coming back and helping the family grow this family business.
    So, in 1976, when he passed away, the board of directors 
elected me as the president and chief financial officer of this 
food processing company, which at that time had exactly 28 
employees; and I put to use the training that I had gotten. 
Over a period of time, in the 20 years that I was in that 
position, I helped grow that family business with a strategic 
plan that called for investing in training for our employees to 
make them computer literate and be able to bring in, through 
loans guarantees by the Small Business Administration, 
equipment that made us a little bit more competitive.
    We grew our business to $50 million, over a 20-year period, 
to over 300 employees. And one of the things that I remember 
was that the board that ran what we used to call PIC, the 
Private Industry Council board, were of different thinking. I 
thought they were antiquated, and when I saw the opportunity to 
have input into changes in what is now WIA, I thought that was 
the best thing that could ever happen.
    However, it has been long overdue that we reauthorize WIA. 
And that is why I am so pleased that the leadership from Nancy 
Pelosi all the way down to our committee, agreed that we come 
to Albany, New York, because there is a great, great brain 
trust here that we want to tap into and listen to the 
recommendations of employers and trainers of the workforce so 
that we can work that into the reauthorization act of, 
hopefully, 2009.
    I am an optimist; I always have been, thanks to my mother. 
And that is that if all goes well and we have at least three or 
four congressional hearings in Washington and two to four field 
hearings from the East Coast to the West Coast, we are going 
to--we have a goal, a time line that will help us bring it to 
the House floor before the August recess. That means we have to 
work rapidly, smart, and very convincingly so that other 435 
Members of Congress will also support our proposal.
    Having said that, I want to say that times have changed. To 
say that times have changed would be an understatement. In 
1997, our economy generated 3 million new jobs; since the start 
of this recession in December of 2007, we have lost over 7 
million jobs. In 1998, our unemployment rate was only 4.5 
percent; in February of this year, it hit 8.1 percent.
    We need to be much smarter and more innovative in our 
workforce investment system if we are going to turn these 
numbers around. And that is why today's congressional field 
hearing is entitled Subcommittee on Higher Education Lifelong 
Learning and Competitiveness--Subcommittee that is looking for 
creative ideas that will increase the amount of money that is 
available for retraining instead of the 40 percent that seems 
to have been the rule of thumb in the last 6 to 8 years. We 
need to be much smarter, innovative with our workforce 
investment system if we are going to turn these numbers around.
    We have taken bold and swift action with the passage of the 
American Recovery and Reinvestment Act, which will infuse 
approximately $4 billion into our workforce investment system. 
This is an opportunity, as well as a challenge, for all of the 
stakeholders. The opportunity comes with the unprecedented 
increases in resources. There is also some new flexibility in 
being able to develop contracts for training to meet the 
community workforce needs rather than relying solely on 
individual training accounts.
    Additionally, we will be able to provide youth 
opportunities on a much larger scale. Most exciting is the 
major commitment to green jobs in high-growth areas such as 
allied health.
    The challenge is handling the dramatically increased number 
of individuals seeking services while scaling up best practices 
and testing innovative new ones. We need to do a much better 
job of putting youth and low-skilled adults on career pathways 
that will enable them to answer President Obama's call to 
commit to 1 year of college or career training.
    I believe that we are up to the challenge. The testimony of 
today's witnesses shows that we have ideas and tested practices 
that work. We just need the resources and the sustained 
commitment to have a world-class workforce development system 
that works for those starting at the bottom rung of the career 
ladder, as well as for those racing to the top.
    I would like to thank our witnesses today for joining us. 
It is invaluable for our subcommittee to have the opportunity 
to get outside of Washington, D.C., and visit the communities 
that our Federal policies and programs are intended to serve.
    I thank you for hosting us and thank you for your testimony 
today.
    In closing, I would like to yield to my good friend, a 
valuable new member of the subcommittee, Representative Paul 
Tonko, for an opening statement.
    [The statement of Mr. Hinojosa follows:]

 Prepared Statement of Hon. Ruben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelong Learning, and Competitiveness

    Good Morning. Welcome to the Higher Education, Lifelong Learning, 
and Competitiveness Subcommittee's third hearing in preparation for the 
reauthorization of the Workforce Investment Act. This is also our first 
field hearing for the 111th Congress, and I would like to personally 
thank Congressman Paul Tonko and the New York State Department of 
Education for hosting us.
    The last reauthorization of the Workforce Investment Act was in 
1998. To say that times have changed would be an understatement. In 
1997, our economy generated 3 million new jobs. Since the start of this 
recession in December of 2007, we have lost over 4 million jobs. In 
1998, our unemployment rate was 4.5 percent. In February of this year, 
it hit 8.1 percent. We need to be much smarter and more innovative with 
our workforce investment system if we are going to turn these numbers 
around.
    We have taken bold and swift action with the passage of the 
American Recovery and Reinvestment Act, which will infuse approximately 
$4 billion into our workforce investment system. This is an opportunity 
and a challenge for all of the stakeholders.
    The opportunity comes with the unprecedented increase in resources. 
There is also some new flexibility in being able to develop contracts 
for training to meet the community workforce needs rather than relying 
solely on individual training accounts. Additionally, we will be able 
to provide youth opportunities on a much larger scale. Most exciting is 
the major commitment to Green Jobs and high growth areas such as allied 
health.
    The challenge is handling the dramatically increased number of 
individuals seeking services while scaling up best practices and 
testing innovative new ones. We need to do a much better job of putting 
youth and low-skilled adults on career pathways that will enable them 
to answer President Obama's call to commit to one year of college or 
career training.
    I believe that we are up to the challenge.
    The testimony of today's witnesses shows that we have ideas and 
tested practices that work. We just need the resources and the 
sustained commitment to have a world-class workforce development system 
that works for those starting at the bottom rung of the career ladder 
as well as for those racing to the top.
    I would like to thank our witnesses today for joining us. It is 
invaluable for our Subcommittee to have the opportunity to get outside 
of Washington and visit the communities that our federal policies and 
programs are intended to serve.
    Thank you for hosting us and thank you for your testimony.
    I would now like to yield to my good friend, a valuable new member 
of the Subcommittee, Rep. Paul Tonko, for an opening statement.
                                 ______
                                 
    Mr. Tonko. Thank you, Chair.
    First, I would like to thank our chairman, Ruben Hinojosa, 
for calling this hearing. And it is a hearing on such an 
important subject at such an important time. In addition, I 
would like to thank both the Chair and Congressman Polis for 
their efforts to join us today on what will be a very busy day 
for us on the Hill.
    I would like to thank the witnesses, certainly, for their 
testimony and their continued efforts on workforce development 
in the State of New York, which is indeed incredibly important 
to all sectors of our economy.
    This hearing commences at a time of historic economic 
uncertainty. While the current recession may have started at 
the end of 2007, many American workers have been facing 
significant economic challenges for years. The decline of 
manufacturing, for instance, across the country has left 
millions out of work with few opportunities to earn the 
salaries that they and their families require.
    In addition, millions more Americans face tremendous 
barriers to employment, either through lack of education or the 
skill sets necessary to advance and attain living-wage 
employment. The Workforce Investment Act reauthorization offers 
a unique opportunity for all of us to address these issues and 
transition millions of Americans into careers that will allow 
them to support their families and build this Nation's economy.
    I believe that one particular area of work where WIA can be 
effective is by training workers for jobs in what will be and 
is now this emerging green energy industry. As demand for 
renewable sources for energy will grow, this industry will need 
those skilled workers to install new high-tech equipment 
ranging from wind turbines to photovoltaic systems to 
geothermal and other emerging technologies. The demand for 
workers to manufacture and to install and to maintain these 
equipments will provide an opportunity for millions of 
Americans to have access to middle-class careers.
    Chairman, I am happy to note that you recognize the brain 
trust in this area. We have placed a major investment in 
emerging technologies of all sorts from transmission and 
generation in the energy field. This area is blossoming with 
all sorts of opportunity, with nanotechnology, with 
superconductive cable, with work done at the Wind Institute at 
GE--and we are going to, I am certain, hear of that issue from 
Tom.
    But all of this is now growing a need for advancing the 
workforce agenda. We will need those quality workers in order 
to make this all work. The alarms on these issues have been 
sounding for quite some time now, and I believe getting this 
right is critical to ensuring our energy independence, our 
economic stability, and to guaranteeing a future for 
hardworking Americans.
    Certainly, when you talk about the resources being 
committed, I couldn't agree more. But that commitment will be 
most effective and most efficient if it is engaged with a 
synergy of planning with laser-sharp focus that will put 
together the plan that will guide us.
    The traditional blueprint for the structuring and guiding 
of all of us to reach our goals, I believe, will now become our 
``green print'' for our innovation economy. And all of us here 
working will have a cornerstone of development in the workforce 
development that will build that green print to be the 
strongest that we can have for the innovation economy.
    Thank you very much, Mr. Chairman.
    Chairman Hinojosa. Thank you.
    Before introducing our distinguished witnesses and 
panelists, I want to say how pleased I was to meet each one of 
you before we started this program and to say to the audience 
that yesterday I had a windshield tour of some of the 
facilities here. And I was so impressed with the nanotechnology 
investment that is here. To see a billion dollars invested by 
the State and another $4 billion by private industry is a sign 
of the commitment that there is for this type of technology, 
which is extremely important in today's times, something that--
in the State of Texas, I wish we had that kind of a facility.
    But we will partner with you, universities like Rice 
University and others that have great talent pools, working 
with some of your organizations out here; I am sure we will 
come up with great ideas on energy and discoveries of 
nanotechnology.
    Lastly, I want to say that when I met Joe Sarubbi from 
Hudson Valley Community College, it reminded me of the 
investment that we have made in deep south Texas with South 
Texas Community College, 23,000 students. And when we heard of 
the passage of the stimulus plan and the $787 billion that will 
be available, our President, Dr. Shirley Reed, and I talked 
about bringing stakeholders together with the workforce 
investment boards from Laredo, from McAllen, Edinburgh and 
Brownsville, and all of our community colleges and universities 
so that we could write up applications to compete for some of 
that money.
    I am sure you all have already done that and know that the 
money is going to go fast, and we hope that your congressional 
district here is going to get its fair share.
    Mr. Tonko. We will be in line.
    Chairman Hinojosa. With that, we will start the 
introductions.
    It is my pleasure to introduce Mr. Mario Musolino, 
Executive Deputy Commissioner, New York State Department of 
Labor. Mario has served in his position since March of 2007, 
supervising all executive staff members on behalf of the 
commissioner and developing policies and procedures that have 
had an impact on millions of New Yorkers.
    He oversees the day-to-day operations of agencies 
responsible for the unemployment insurance program, workforce 
development funds, as well as a variety of worker protection 
programs.
    Mr. Musolino also serves as the Labor Department's liaison 
to the New York State Insurance Fund and Governor Paterson's 
Recovery and Reinvestment Cabinet. He holds an associate's 
degree in criminal justice from Hudson Valley Community College 
and has a bachelor's degree in political science from the State 
University of New York.
    Welcome to our hearing this morning.
    The second participant is Ms. Gail Breen, Executive 
Director, Fulton, Montgomery and Schoharie Counties Workforce 
Development Board in Amsterdam, New York. Gail has 25 years of 
experience in workforce development, including nearly 20 years 
as a national trainer and as a presenter at State and national 
conferences. She has served as Executive Director since July of 
2000. Gail is currently serving as President of the Board of 
the New York Association of Training and Employment 
Professionals.
    She holds a master's degree in social work management from 
the University of Albany, State University of New York. And it 
is a pleasure to have you with us today.
    The third presenter is Mr. Thomas Quick, Senior Human 
Resources Manager for GE Energy Infrastructure--Power and 
Water. Mr. Quick represents GE Power and Water's business 
headquartered in Schenectady.
    Boy, that is as hard as saying ``Hinojosa.''
    The business is a world-leading provider of traditional and 
renewable power generation technology. He has been in his 
current role for several years, and previously worked as a 
Senior Vice President of Human Resources, NBC Universal for 
Television Stations Divisions, Telemundo and Media Works. In 
addition, he has held human resources positions in 
manufacturing, in engine assembly, engineering and finance, and 
information technology as well as in legal and business 
development.
    He is as native of Amsterdam, New York, and holds a 
bachelor's degree from Le Moyne College in industrial and labor 
relations and has earned an MBA from Syracuse University.
    It sounds like we really need to listen to you, and 
welcome.
    The next presenter will be Joseph Sarubbi, Executive 
Director of Tech-Smart, which is a training and education 
center for semiconductor manufacturing, alternative and 
renewable energy, at Hudson Valley Community College. Joe has 
35 years' experience in education in the electrical 
construction and maintenance industry.
    He has garnered a national reputation for the design and 
delivery of RE training programs. He was responsible for the 
design and delivery of photovoltaic installers programs at the 
college, that is nationally recognized as the model program for 
other institutions to emulate. The programs include credit and 
noncredit courses, and a State University of New York 
certificate program. He is a member of Governor Paterson's 
Green Collar Workforce Development Task Force subcommittee. Joe 
has a bachelor of science in vocational technical education 
from SUNY Institute of Technology, and earned a master of 
science in education administration and policy studies from the 
University of Albany, as well as a journeyman's certificate 
from the International Brotherhood of Electrical Workers.
    We look forward to your comments.
    And last but not least, Ms. Nanine Meikljohn, Senior 
Legislative Representative for the American Federation of 
State, County and Municipal Employees, Washington, D.C. Nanine 
has over 25 years of experience in congressional relations, 
intergovernmental affairs, and political organizing. She has 
been with the union since 1973 and is currently the Senior 
Representative specializing in job training, unemployment 
insurance, social services and welfare, employee protections, 
and privatization of public services.
    Prior to coming to AFSCME she spent 4 years working on 
employment and training and poverty issues at the U.S. 
Conference of Mayors and the National League of Cities.
    We have an excellent panel. Welcome. And let's begin.
    I want to give some rules, though, that we abide by; and 
that is the lighting system that you are going to see being 
utilized here. Those of you who have not testified before our 
subcommittee, please let me explain our lighting system and the 
5-minute rule. Everyone--including our members--is limited to 5 
minutes of presentation or questioning.
    The green light is illuminated when you begin to speak. 
When you see the yellow light, it means you have 1 minute 
remaining. When you see the red light, it means your time has 
expired, and you need to conclude your testimony.
    I will be a bit lax with that rule, but do try to stay 
within that time of 5 to 6 minutes. Please be certain, as you 
testify, to turn on and speak into the microphone that you will 
share, because there are only two mics there on the table. We 
are trying to save some money, I believe.
    We will now hear from our first witness. Mario.

STATEMENT OF MARIO MUSOLINO, EXECUTIVE DEPUTY COMMISSIONER, NEW 
                 YORK STATE DEPARTMENT OF LABOR

    Mr. Musolino. Thank you, Mr. Chairman. And thank you, 
Congressman Tonko, as well.
    On behalf of Governor Paterson and Commissioner Smith, I 
really appreciate the opportunity here to spend a few minutes 
talking about the Workforce Investment Act, as well as the area 
of green job training.
    In 1998, under the Workforce Investment Act, a new system 
was set in motion with the goal of making worker training both 
locally driven and responsive to the demands of the private 
sector. If we fast-forward a decade from there, upon her 
swearing in as Labor Secretary, our new Labor Secretary Hilda 
Solis said, ``In a time of economic crisis, giving Americans 
the tools they need to find and keep a job must be our 
priority.''
    Here at the New York State Department of Labor, we have 
been working with every region of the State to tap into 
potential high-growth industries. We realize that our State is 
not just one economy, but a compilation of regional economies, 
each with its own needs.
    Here in the State there are 33 local Workforce Investment 
Boards across the entire State, and sometimes, even in the 
respective regions, communication and coordination of common 
issues can be problematic. This is one of the reasons why the 
State requires local Workforce Investment Boards to partner 
together to apply for regional, sector-based partnership 
grants.
    This type of regional economic focus needs to be a 
foundation of any WIA reauthorization effort. In addition to 
encouraging the development of regional partnerships, we are 
cultivating sector-based approaches that align with our State's 
overall economic goals and policies. An industry-specific 
approach helps a region bolster its economic competitiveness by 
engaging partners to align education, economic and workforce 
planning, and targeting public resources more wisely in sectors 
with growth potential. The green area is one, of course, that 
we see as really part of the future of the State.
    It is clear from established practices that the WIA program 
requires comprehensive and strategic overhaul. To put this in 
some context, 33 local Workforce Investment Boards operate 
independently across New York State, each with its own 
governing body and established policies for program 
implementation. This sometimes can create confusion for the 
customers we serve.
    For example, WIB-established maximum levels for individual 
training accounts, or ITAs, vary from local area to local area 
and can be substantially different even among adjacent 
counties. We recommend that program goals and guidelines be 
based on policies determined by the State in consultation with 
the State Workforce Investment Board and consistently applied 
throughout the State.
    In New York, we are looking for more flexible alternatives 
to getting training funds to community colleges. We are 
exploring possibility of funding entire classrooms in priority 
demand occupations that can serve multiple individuals on the 
basis of a single payment.
    We also know that one of the biggest challenges facing 
community colleges is in the field of health care, such as the 
demand for registered nurses. The cost of hiring faculty to 
train nurses, who earn substantially more through practice than 
teaching, and the cost of purchasing equipment and laboratories 
makes the cost of delivering and expanding training programs in 
nursing prohibitive. WIA funding should have the flexibility to 
address these issues along with the cost of per participant 
training.
    New York State currently operates the same service delivery 
system it did when WIA was first signed into law, but with only 
half the funding. In New York services once funded with $305 
million are now restricted to about $159 million, while user 
demand has increased dramatically. Consider that 30 years ago, 
in 1978, the Federal Government spent $9.5 billion on job 
training. Adjusting for inflation, the GAO has calculated we 
would have to spend $30 billion today to provide the same level 
of training that was provided with that funding in 1978.
    To support the ongoing needs of the program, we ask that 
the WIA funding levels be established, at a minimum, to program 
year 2000 levels, when New York received $3.5 million in WIA 
funds.
    In addition to funding, Congress should review WIA 
obligations and spending provisions, giving consideration to 
the time frame of the receipt of the current year WIA Federal 
resources. We also recommend consideration of continued use of 
obligation requirements that are in existing legislation, 
rather than impose restrictive spending requirements which may 
pressure States to place individuals in short-term training 
opportunities which may not be the best fit for the local 
economy or for the individual.
    As mentioned earlier, there is hope in Washington in the 
form of the new administration and the American Recovery and 
Reinvestment Act, supported by you, Mr. Chairman, and 
Congressman Tonko. We are very thankful for the resources that 
will be coming into the State under the ARRA package. We also 
support the expansion of the Trade Adjustment Assistance 
program that was in the ARRA package, and we think that there 
are some lessons there for WIA as well.
    Previously, TAA was only available to workers in industries 
whose production was affected by import competition. The new 
provisions of TAA improve on the existing benefits available to 
workers and increase eligibility to include communities, firms, 
and service sector employees affected by trade.
    In a perfect world, we would like to see the same 
flexibility that is in TAA, which includes 1 to 2 years of 
training and income support made available to all dislocated 
works under WIA reauthorization.
    Regarding WIA youth, as you know, current legislation for 
youth eligibility requires that individuals meet the age 
criteria of 21, have multiple barriers to employment; we 
request that WIA reauthorization eliminate the need for these 
multiple barriers and we recommend that the age be increased to 
24, as it was done in the ARRA.
    Chairman Hinojosa. The gentleman's time has expired.
    I want to assure you, Mario, that all of your statement in 
its entirety will be made a part of the record of today's 
hearing, and I thank you.
    [The statement of Mr. Musolino follows:]

 Prepared Statement of Mario Musolino, Executive Deputy Commissioner, 
                   New York State Department of Labor

    Good morning. Mr. Chairman, Congressman Tonko, and invited guests. 
My name is Mario Musolino and I serve as Executive Deputy Commissioner 
of Labor for the State of New York. On behalf of Governor David 
Paterson and Labor Commissioner Patricia Smith, I am pleased to offer 
testimony today on the federal Workforce Investment Act (WIA), as well 
as on related work in areas such as green job training, and more 
importantly, how we can work together at the local, State and Federal 
levels to improve the current service delivery system on behalf of New 
York's current and emerging workforce.
    In 1998, under the Workforce Investment Act, a new system was set 
in motion with the goal of making worker training both locally driven 
and responsive to the demands of the private sector. Since 1998, 
however, our world has drastically changed, and with it the workforce 
needs of both business and industry.
    Upon her swearing-in as Secretary of Labor, Hilda Solis, said, ``In 
a time of economic crisis, giving Americans the tools they need to find 
and keep a job must be our priority.'' The Secretary went on to 
emphasize the need for more training in high-growth industries such as 
green collar jobs. Here in New York we are taking the steps necessary 
to meet this national priority and our Department of Labor is a key 
part of Governor Paterson's Economic Recovery and Reinvestment Cabinet, 
which is expediting employment and training activities using stimulus 
funding.
    The following are improvements we would recommend including in WIA 
reauthorization.

Sector-based strategies/Regional-based system
    At the Department of Labor, we are working with every region of the 
state to tap into these potential high-growth industries. We realize 
that our state is not just one economy, but a compilation of regional 
economies, each with their own needs. Sometimes, these regional 
economies affect workers in other states as well. Earlier this year, 
New York, New Jersey and Connecticut were awarded a $22 million 
National Emergency Grant to help workers affected by the recent 
downturn in the financial sector. Each state recognized this as an 
issue that translated beyond borders--an issue that required a regional 
solution.
    We are going to continue this approach with our neighboring states 
in the coming months. As neighbors, oftentimes we share the same media 
markets, weather and geographic conditions, and very often, similar 
economic conditions and interests. One has to look no further than the 
Southern Tier of New York State, which shares a border with the 
Northern Tier of Pennsylvania. Southern Tier issues and Northern Tier 
issues are intertwined, and in this current economic climate, we need 
to explore every possible way to work with our neighboring states to 
overcome this crisis together.
    There are 33 local Workforce Investment Boards (WIBs) across the 
state, and sometimes even in their respective regions, communication, 
and coordination of common issues, is problematic. This is one of the 
reasons why the state requires local WIBs to partner together to apply 
for our regional sector-based partnership grants. In the future we will 
be looking at more ways that we can better align our WIB structure to 
best suit our regional economies. Strategic investment of employment 
and training funds, based on regional collaboration and dialogue, can 
not only build on a region's strengths but maximize its ability to 
address weaknesses. This type of regional economic focus needs to be a 
foundation of any WIA reauthorization effort.
    In addition to encouraging the development of regional 
partnerships, we're cultivating sector-based approaches that align with 
our state's overall economic development goals and policies. The sector 
approach builds strategic partnerships with key stakeholders around 
specific industries to address the workforce needs of business, as well 
as the training, employment and career advancement needs of workers, 
particularly career pathways or ladders, which have shown great promise 
under WIA, and should be expanded in the upcoming reauthorization.
    An industry-specific approach helps a region bolster its economic 
competitiveness by engaging partners to align education, economic and 
workforce planning and targeting public resources more wisely in 
sectors with growth potential. This, in turn, brings about systemic 
change. Take renewable energy--if we can focus on specific career 
pathways within areas such as wind or solar, we can develop and provide 
training for entry-level jobs as well as skills development to sustain 
and grow higher-skilled jobs within those high-growth industries.

Individual Training Accounts
    It is clear from established practices that the WIA program 
requires a comprehensive and strategic overhaul, since program design 
and delivery capabilities fall far short of the goals intended by the 
original legislation. To put this into context, 33 WIBs operate 
independently across New York State, each with its own governing body 
and established policies for program implementation. Oftentimes, this 
can create confusion for the customers we serve. For example, 
Individual Training Account (ITA) practices vary by locality. The WIB 
established maximum levels for ITAs vary from local area to local area 
and can be substantially different even among adjacent counties. As a 
fundamental component of WIA reauthorization, we recommend that program 
goals and guidelines be based on policies determined by the state, in 
consultation with the Statewide Workforce Investment Board, and 
consistently applied throughout the state. In this way, the state can 
effectively compile data for monitoring and report out a common set of 
services and standards.
    In regard to Individual Training Accounts, in New York we are 
looking for more flexible alternatives to getting training funds to 
community colleges. As mentioned, ITAs are processed on an individual 
basis. We're exploring the possibility of funding entire classrooms in 
priority demand occupations that can serve multiple individuals on the 
basis of a single payment.
    We also know that one of the biggest challenges facing community 
colleges is in the field of health care, such as the demand for 
registered nurses, which exceeds the supply. As of last year, there are 
approximately 5,300 openings for registered nurses annually in New 
York. Community colleges, our largest provider of trained nurses, 
supply about 2,000 graduates each year. While other colleges have 
nursing programs, the demand is not being met. The cost of hiring 
faculty to train nurses, who earn substantially more through practice 
than in teaching, and the cost of purchasing equipment and laboratories 
makes the cost of delivering and expanding training programs in nursing 
prohibitive. WIA funding should have the flexibility to address these 
issues along with the cost of per participant training. What if WIA 
could be used for these additional costs of training? Imagine the 
possibilities and the positive impact on the economy.

Current resources
    To do this, the current system as we know it would require 
significant change. Over the last year, our state has undergone the 
most severe economic downturn since the Great Depression. Our local 
communities, large and small, are feeling the effects of this 
recession, and in turn this has put tremendous strain on our current 
service delivery system. In New York State, we anticipate serving in 
excess of 700,000 individuals through our WIA programs this year, which 
are especially vital in today's job market, where currently there is 
only one job opening for every three unemployed workers.
    At present, New York State currently operates the same service 
delivery system it did when WIA was first signed into law, but with 
only half the funding. In New York, services once funded with $305 
million are now restricted to $159 million while user demand increased 
exponentially. Reductions in the Wagner-Peyser Employment Service staff 
have added to this strain. WIA Reauthorization must ensure that 
adequate resources are appropriated to support its goals.
    It's clear that the time to change business as usual is now. 
Consider that 30 years ago, in 1978, the federal government spent $9.5 
billion on job training. Adjusting for inflation, the GAO has 
calculated we would have to spend $30 billion today to provide the same 
level of funding.
    To support the ongoing needs of the program, we ask that the WIA 
funding levels be established at a minimum, the PY 2000 levels when New 
York received $305 million in WIA funds. While we are aware ARRA 
funding is currently available to support services, we expect that the 
funds will be primarily used within a year.
    We're certainly hopeful the ARRA or stimulus package will help the 
country slowly begin to emerge from the recession, but we anticipate 
that when we do finally emerge there will still be many workers in the 
pipeline looking for our services. Without increased funding for normal 
program operations, it will be difficult for local areas to address the 
ongoing program needs. In fact, without an increase in normal program 
appropriations, there will likely be a downward ripple effect in 
funding and subsequent employment and training services which could be 
devastating to New Yorkers.
    In addition to the funding, Congress should review WIA obligation 
and spending provisions giving consideration to the timeframe of 
receipt of the current year WIA federal resources. The majority of the 
current year funds are received in October, not the onset of the year 
which occurs in July each year. In addition, consideration should be 
given to the time necessary to procure training and the fact that 
spending will occur throughout the duration of the training contract 
against existing obligation requirements. We recommend consideration of 
continued use of the obligation requirements that are in existing 
legislation rather than impose restrictive spending requirements which 
may pressure states to place individuals in short term training 
opportunities which may not be the best fit for the local economy and/
or the individual.

ARRA Package
    As mentioned, there is hope in Washington in the form of a new 
Administration and the American Recovery and Reinvestment Act (ARRA), 
supported by you and Congressman Tonko and other members of this 
Committee, to guide us on a path to renewal. Once again, we thank you 
for your support. Earlier this year, Governor Paterson wrote to the 
President and the New York Congressional Delegation strongly urging the 
passage of this package, detailing our state's goals of creating new 
jobs for a green economy with an ambitious clean energy agenda. The 
ARRA aims to save or create 3.5 million jobs nationwide, including 
215,000 here in New York State, while making investments in worker 
training for emerging industries such as green, health care and 
advanced manufacturing.
    The ARRA authorizes $3.95 billion to be spent on training and 
employment services nationwide. Of this amount, New York will receive 
nearly $170 million in training funds for adults, youths, and 
dislocated workers and an additional $22 million in employment 
services, including re-employment services for current unemployment 
insurance claimants. Most of the WIA funds will go directly to the 33 
Local Workforce Investment Areas across the state where New Yorkers can 
access a variety of training programs and connect with employers and 
potential job opportunities at their local One-Stop Centers. We're 
working to get this money to the local workforce areas as soon as 
possible, and will be out doing press events in the coming weeks in 
local communities to make certain that individuals know where to go to 
tap into these training funds.
    We were also actively supportive of the expansion of the Trade 
Adjustment Assistance program in the ARRA package. Previously, TAA was 
only available to workers in industries whose production was affected 
by import competition. The new provisions of TAA improve upon the 
existing benefits available to workers, and increase eligibility to 
include communities, firms, and service sector employees affected by 
trade. In a perfect world, we would like to see the same flexibility 
that is in TAA, which includes one to two years of training and income 
support, made available to all dislocated workers under WIA 
reauthorization. Like TAA, WIA reauthorization should recognize that 
workers now face a dramatic break from one industry or career to an 
entirely new industry or career and require significant training and 
education. As some regions are hit harder by trade than others, the 
inception of Trade Impacted Regions would also ensure that more workers 
are covered by TAA provisions.

Ways to improve the current system
    I've run a couple of ``perfect world'' scenarios by you today and 
with WIA reauthorization we have the ability to make ``real world'' 
solutions to strengthening the workforce system of tomorrow.
    Underpinning the entire workforce development system is the issue 
of adequate resources. Simply, without appropriate funding levels, the 
system will not work for a large majority of its customers. Restoring 
previous funding levels will make the system more relevant at a time of 
economic crisis when people really need it and as ARRA funds spend out, 
will ensure continuity of services.
    WIA should explicitly address the issue of regional and sector 
based approaches. These strategies are crucial for making the locally 
based workforce system relevant to the communities they serve by 
training and connecting workers for viable employment opportunities in 
their region.
    The state should be in a position to establish policies that 
reinforce coordination amongst the WIBs and ensure a consistent set of 
statewide services. The reauthorization should address Individual 
Training Accounts, and allow them to be used more flexibly in order to 
purchase services and equipment to assist in areas of high demand, like 
the green economy and health care, that can serve a wider array of 
customers.
    Regarding WIA Youth, as you know, current legislation for youth 
eligibility requires that the individual meet the age criteria of 21, 
be considered low-income and meet one of six barriers to employment. We 
request that the reauthorization remove these additional eligibility 
barriers to employment, and allow the state the flexibility to do 
summer or year round programs. We recommended to Congressman Rangel and 
former Senator Clinton to expand the WIA Youth age criteria up through 
24 in the ARRA package, and we strongly recommend the age change be 
made permanent. Additionally, we recommend the income criteria be 
expanded to allow the use of School Lunch eligibility to be used as the 
poverty criteria.
    Further, in New York, we require that those receiving Unemployment 
Insurance come into the WIA system. We believe in connecting those on 
UI into the WIA system early to receive value added services in our 
one-stop system, and recommend this be replicated in any national 
legislation and resourced accordingly.
Conclusion
    I hope I have shared with you my vision for the future WIA system 
to better meet the needs of the New Yorkers. On behalf of Governor 
Paterson and Commissioner Smith, we would welcome continuing to be a 
part of this critical national conversation.
    Thank you again for this opportunity to testify, and I welcome any 
questions you may have.
                                 ______
                                 
    Chairman Hinojosa. At this time, I want to welcome another 
friend and colleague from the great State of Colorado. Jared 
Polis who has just arrived. He serves on the Education and 
Labor Committee and is a valued member who makes great 
contributions as we are going through this process. Welcome 
this morning.
    Mr. Polis. Thank you.
    Chairman Hinojosa. I now call on the second presenter, 
Gail.

    STATEMENT OF GAIL B. BREEN, EXECUTIVE DIRECTOR, FULTON, 
   MONTGOMERY, AND SCHOHARIE COUNTIES, WORKFORCE DEVELOPMENT 
                          BOARD, INC.

    Ms. Breen. Good morning, Mr. Chairman. Good morning, 
Congressmen. It is my pleasure to be here today; I was really 
delighted and honored to be invited.
    I particularly would like to acknowledge Congressman Paul 
Tonko. I have known him for many, many years and he is going to 
be a great asset to the committee as you go forward.
    Mr. Tonko. Thank you.
    Ms. Breen. You are welcome.
    I am going to talk quickly today about some best practices 
and innovations from the local level. When Congress established 
the Workforce Investment Act of 1998, it envisioned a locally 
driven, business-sector-led program that would bring together 
the resources of 19 workforce partners to provide quality 
services to both job seekers and businesses.
    In 2000, FMS--Fulton, Montgomery, and Schoharie, where I am 
the WIB director--began to move to an integrated service 
delivery system, which has since become a statewide requirement 
by the New York State Department of Labor. Our One-Stop Center 
staff and supervisors work in teams that are based on job 
functions rather than funding organizations.
    Our local Workforce Investment Board took WIA partnership 
seriously right from the beginning, as did our local partners. 
And with reduced funding across all workforce agencies, 
functional alignment of staff has become critical. We simply do 
not have the resources for agencies to provide quality 
workforce services through program silos.
    Our customers don't need to know and they don't really care 
where an individual staff person's paycheck comes from. What 
they are interested is in receiving quality services. And 
although I believe that the best systems are those that are 
locally driven, we all need opportunities to identify and work 
with regional partners on projects of mutual interest and 
benefit.
    FMS has been working with Saratoga-Warren-Washington and 
the Capital District and Columbia-Greene since 2002 on joint 
workforce summits and on workforce reports. We are a natural 
region that is based on common interests, common industries, 
commutation patterns, common workforce needs and collaborations 
of local colleges and other organizations.
    Now, through a regional grant from the New York State 
Department of Labor, the Capital Region Workforce Coalition is 
developing a sector strategy that is regional, skill focused, 
systemic and collaborative. We are focusing on advanced 
manufacturing careers, including energy, nanotech, biotech and 
green initiatives. Our coalition encompasses four local 
Workforce Investment Boards, 11 counties, and includes partners 
from K-through-12 education, community colleges, 4-year 
colleges, training providers, economic development 
organizations, organized labor, and industry.
    The American Recovery and Reinvestment Act of 2009 offers 
tremendous opportunities for our workforce programs. There has 
been a decrease in WIA funding of almost 50 percent since 2000, 
and local workforce areas have struggled to maintain quality 
services. Thanks to the stimulus bill, however, for at least 1 
year we will be back at 2000-level funding and we will be able 
to train many, many more people for the jobs of the future.
    Additionally, with significant increases in youth funds, we 
will be able to provide stronger year-round youth services. 
Looking towards the summer where we will see many dislocated 
workers competing for the same jobs that our summer youth have 
had in the past, if we don't have a summer youth program, we 
are going to have young people that will have no opportunity 
for a job.
    Other opportunities under the stimulus include the ability 
to buy an entire classroom customized to meet the needs of our 
participants in their preparation for the jobs of the future. 
This will allow us to spend stimulus funds quickly and wisely 
and encourage community colleges and WIBs to strengthen our 
relationships.
    I also believe that we will be building on and creating new 
relationships with organized labor, focusing on the skills 
necessary for the workforce of the future. But we will continue 
to have challenges. Our potential workforce is shrinking and it 
is growing older; there are fewer workers in the pipeline and 
many have outdated skills. If we are going to be successful in 
our region in attracting emerging industries and retaining 
those we currently have, we need to have a globally competitive 
workforce. We have an untapped and underutilized segment of the 
greater workforce pool: older workers, individuals with 
disabilities, dislocated workers, the disadvantaged, disengaged 
youth, and the formerly incarcerated. We must engage them all.
    Finally, I can't recommend too strongly that we continue to 
build on locally driven, business-sector control boards with 
local control and the flexibility to customize our services to 
meet our customers' needs. One-size policies do not always fit 
everyone.
    While I know you are the authorizing committee and not the 
Appropriations Committee, our challenge is the need for ongoing 
financial support for these critical programs. We need this 
financial support if we are going to continue to provide the 
quality services that our dislocated workers and other job 
seekers so desperately need and deserve.
    And finally I would like to highlight the importance of 
funding opportunities for regional partnerships, partnerships 
that are skill focused, collaborative, and reflect the common 
workforce needs of the natural region.
    So again thank you for allowing me to provide testimony 
today. If I can continue to give you input as a local WIB 
director and as the partner of a regional sectoral strategies 
grant, or as the President of the Board of the New York 
Association of Training and Employment Professionals, I would 
be delighted to do that. Thank you very much.
    [The statement of Ms. Breen follows:]

   Prepared Statement of Gail B. Breen, Executive Director, Fulton, 
  Montgomery, and Schoharie Counties Workforce Development Board, Inc.

    Good Morning Congressman Hinojosa and Congressman Tonko. My name is 
Gail Breen, and I am Executive Director of the Fulton, Montgomery, and 
Schoharie Counties Workforce Development Board, Inc. in upstate New 
York. I also currently serve as President of the Board of the New York 
Association of Training and Employment Professionals (NYATEP), New York 
State's workforce association, and am the grant recipient for a four-
Workforce Investment Board regional coalition initiative addressing 
sector strategies. I am delighted to be here with you today to share 
information on best practices and innovations, as well as ideas on how 
we might continue to build on our successes while identifying and 
acting on opportunities for further growth and success. Although I am 
here representing the FMS Workforce Investment Area, I will also be 
speaking to regional activities and issues and the thoughts of other 
local WIB directors as they relate to my positions in our Greater 
Capital Region Workforce Coalition and NYATEP.
    I appreciate very much the invitation to testify at this field 
hearing today, and I would like to particularly acknowledge Congressman 
Paul Tonko, in whose district I both reside and work. I've known Paul 
for many years, and I believe he will be a great asset to the 
Committee.

The Workforce Investment Act of 1998
    When Congress established the Workforce Investment Act of 1998 
(WIA), it envisioned a locally driven, private sector led program that 
would bring together the resources of up to 19 mandatory partners to 
provide quality workforce services to jobseekers and businesses. This 
sounds very straightforward, but the ``workforce services'' is defined 
very differently by different people. Some interpret WIA as a straight 
forward jobs training for the unemployed who are primarily 
disadvantaged. Others see it as a system of One-Stop Career Centers 
with services for a universal population of jobseekers, while still 
others see it as a set of workforce programs that would meet the needs 
of unemployed adults, dislocated workers, and disadvantaged youth with 
few if any connections to school or work. Finally, still others see WIA 
as a way to provide business with a quality workforce so that 
businesses and the local economy can flourish.
    Although different WIBs concentrate their efforts based on their 
own local needs, the fact remains that locally and nationally this is a 
very successful program. According to PY 07 WIA annual reporting data, 
nearly 3.5 million people received assistance from WIA funding. And 75% 
of WIA program participants and over 70% of employers indicated they 
were satisfied with the assistance they received. Seven out of ten WIA 
Adult and Dislocated Worker program participants gained employment by 
utilizing WIA programs, with these numbers exceeding 80% when 
participants received training. These workers also have a retention 
rate of 85%, and DOL's own data indicates that dislocated workers who 
are enrolled in WIA programming have an earnings gain over their 
previous employment. I believe that these successes can be attributed 
to a locally-driven system where local WIBs use their expertise to 
develop policies and implement programs targeted to their areas and 
those adjacent to them. One size simply does not fit all.

Fulton, Montgomery, and Schoharie Counties LWIA--the Demographics
    The Fulton, Montgomery, and Schoharie Counties Workforce Investment 
Area lies 30 miles to the west of Albany, NY and is bisected by the 
Mohawk River and the NYS Thruway, creating a major east/west 
transportation system through the region. Fulton and Montgomery 
Counties have a long tradition of manufacturing particularly in 
textiles and leather. Over the last 50 years, however, manufacturing 
has declined dramatically as leather mills have closed their doors and 
textile mills have moved first to the southern states and then off 
shore. Schoharie County, which is primary agricultural, lost its only 
textile manufacturer in 2001, dislocating over 500 workers.
    As traditional manufacturing companies have closed or moved abroad 
they have left behind an older population that still wants and needs to 
work but is lacking in education and skills to find jobs in other 
industries that have moved into our area or the adjacent capital 
region. In addition, fewer young people are staying in the area, which 
adds to a skewing of population percentage to the older end. Most of 
the young people who go away to college do not return. The young people 
who stay are predominantly those with a high school education or less. 
The 2000 census shows that 21% of the workforce in FMS does not even 
have a high school diploma, let alone post-secondary training.
    Currently our area is experiencing some of the highest unemployment 
rates in the state. Schoharie County was at the top of list in January 
with an unemployment rate of ll.3%. Fulton and Montgomery followed 
closely with 10.5% and 10.7% respectively. Traffic in our Amsterdam One 
Stop Career Center is up by 45% in the first six months of this year as 
compared with the same time period of the previous year. Center traffic 
is also up significantly in our One Stop Career Centers in Cobleskill 
and Gloversville, as are repeat visits by jobseekers.
    In spite of the current economic climate, we still have our 
successes. We offer youth GED programs in all three counties. Our GED 
students have a passing rate of well over 80%. Our youth programs also 
have a soft skills/work readiness component that has our local Board 
certification. We are using Adult and Dislocated Worker WIA dollars to 
assess current skills and abilities and then train people in emerging 
and expanding fields such as health and medical, advanced 
manufacturing, the trades, and now green jobs. Our private sector Board 
membership reflects these industries and lends their expertise to our 
workforce initiatives. We also work hard to help businesses keep a 
trained workforce by providing employed worker and customized training. 
This training, similar to Ireland's One-Step Up Program, provides 
additional training to incumbent workers to enable them to stay 
competitive in their current jobs. In FMS, and in the majority of the 
local workforce areas across the state, we consistently meet and exceed 
state and federal expectations and measures. As I stated earlier, I 
believe that these successes can be attributed to a locally-driven 
system where each local workforce investment area has the flexibility 
to focus on different activities, at different times, depending on the 
current economic climate as well as to develop policies to meet the 
attendant needs.

Best practices
    In 2006, One-Stop Centers across New York State moved to an 
integrated service delivery approach called Functional Alignment. 
Center staff work in teams based on job function rather than funding 
organization. We also utilize functional supervision for these teams. 
In other words, the day-to-day supervisor of a team may or may not be 
employed by the same organization. In the FMS Workforce Solutions 
Centers we have functional teams for our front desks, resource rooms, 
workforce advisors, business services representatives and youth. Teams 
are made up of staff funded through WIA, DOL Employment Services, 
Experience Works, local TANF and other programs. Functional Alignment 
is not as easy and straightforward as it sounds, however. Functional 
Alignment brings together staff with different job cultures, different 
organization and agencies, with vastly uneven pay scales, and expects 
them to learn and take on additional duties, while sharing skills and 
duties and identities with others that they may have invested years in 
attaining.
    FMS is very fortunate, because we have been practicing the concept 
without knowing the name, since WIA was enacted in New York State in 
2000. We developed this concept early on because our local workforce 
investment board took the WIA partner collaboration seriously--as did 
our local partners. In many local workforce investment areas, WIA and 
ES carry most, if not all, of the load for infrastructure costs for the 
One-Stop Centers. In FMS, all partners in our three Centers contribute 
to the infrastructure costs. Although WIA is still the primary funder, 
our Center partners include the Employment Service, VESID (Vocational 
Rehabilitation), local TANF programs, Experience Works, Literacy 
Volunteers, a community action program, and a local educational 
institution providing secondary and post second education. Even before 
2000, the JTPA program (the predecessor of WIA) and ES were co-located.
    In just a few steps, we moved from co-location to sharing costs, to 
sharing duties. And with reduced funding--we have lost nearly 50% of 
our WIA funding over the last 8 years--functional alignment of staff 
has become critical. We simply do not have enough staff from any one 
agency to provide workforce services through program silos. Staff all 
wear nametags with the FMS Workforce Solutions System logo--there is no 
reference to partner organization identities. This is an evolutionary 
process however, and each local workforce area moves forward at a 
different rate. At FMS, we still have improvements that we can make. As 
I talk with other WIB Directors across the state, I hear many different 
stories about why functional alignment is struggling; sometimes because 
some staff are reluctant to assume duties that are not in their job 
description, sometimes because other staff don't want to share control 
of duties, and other times because long time supervisors and managers 
of different programs just can't seem to change. By focusing on what we 
have in common, and by supervisors and managers of all organizations 
embracing and not just tolerating functional alignment, I believe we 
will be hearing more and more stories about differences being put aside 
and staff working together to provide quality services.
    The customers don't need to know--and don't care--where the 
individual staff's paycheck comes from, customers only care that they 
are receiving quality services.

Innovations
    Although I believe that the best systems are those that are locally 
driven, we all need opportunities to identify and work with regional 
partners on projects of mutual interest and benefit. Industries and 
commutation patterns cannot be defined--or confined--by political 
boundaries. Industries and jobseekers do not stop at the county line.
    In 2007, NYS Department of Labor provided funding for local 
workforce areas to develop projects along regional lines. Fulton, 
Montgomery, and Schoharie had been working with Saratoga-Warren-
Washington, Columbia-Greene, and the Capital Region WIBs on joint 
workforce summits and state of the workforce reports since 2002 but 
without the support and encouragement of significant additional 
funding. We are a ``natural'' region based on common industries, 
emerging industries, commutation patterns, common workforce needs, and 
collaborations of local colleges. We are not a region defined by 
political boundaries.
    With FMS as the grant recipient, the four LWIBs, identifying 
ourselves as the Greater Capital Region Workforce Coalition, submitted 
a proposal to develop a sector strategy that is regional, skill 
focused, systemic, and collaborative, the goal of which is to play a 
significant role in helping the region develop a highly skilled, 
technology-capable workforce. The Coalition encompasses 4 LWIBs, 11 
counties, and includes partners from K-12 education, community 
colleges, 4-year colleges, training providers, economic development 
organizations, organized labor, industry, chambers of commerce, and 
local government.
    Working closely with partners, in Year 1 the Coalition is:
    <bullet> Completing a talent pipeline to be used in addressing 
current and emerging needs of regional industries, particularly those 
in green and high technology areas;
    <bullet> Promoting Advanced Manufacturing careers including energy, 
nanotech, biotech, green, and construction to all segments of the 
worker pipeline; including dislocated workers, youth, career changers, 
mature workers, individuals with disabilities, and formerly 
incarcerated individuals;
    <bullet> Providing training opportunities in STEM skills (science, 
technology, engineering and math) dependent jobs;
    <bullet> Adopting a regional consensus on the definition and 
measurement of work readiness skills;
    <bullet> Developing a Technical Career Awareness Program directed 
to parents, youth, guidance counselors, teachers, and school 
administrators.
    Year 2 proposed activities include:
    <bullet> Working with local community colleges and organized labor 
to develop training programs around clean room technology and green 
technology;
    <bullet> Supporting apprenticeship programs in emerging regional 
technologies;
    <bullet> Developing innovative training methodologies including 
virtual training;
    <bullet> Providing training opportunities to address gaps 
identified through the talent pipeline activity of Year 1; and
    <bullet> Rolling out the marketing products of the Technical Career 
Awareness Program developed in year 1.
    The Greater Capital Region Coalition Regional Sector Strategies 
Grant is just one of a number of regional workforce efforts currently 
funded by NYS Department of Labor. Although all are in various stages 
of implementation, all are reporting successes.

Opportunities and challenges to the success of our work
    There are both opportunities and challenges to the success of our 
work. The American Recovery and Reinvestment Act of 2009 brings 
tremendous opportunities on many levels. In terms of workforce 
programs, this stimulus is critical in providing the funding levels of 
WIA programs to meet the challenge. In New York State, WIA was funded 
at $304,953,605 in 2000. By 2008, New York State's allocation was 
$159,224,210. This is a decrease of $145,729,395 or -47.79%. In FMS, 
our 2000 allocation was $2,072,033. In 2008 our allocation was 
$1,092,730. Again, there has been a decrease of almost 50%, and it has 
weakened us as the country entered this deep recession.
    Local workforce areas have struggled to reduce costs while 
maintaining quality services. This is especially difficult in rural 
multi-county areas that are lacking in public transportation. We have 
been forced to feel that we must choose between closing workforce 
centers (depriving many of those most in need to ready access of our 
services such as skills assessment and career counseling) or reducing 
the amount of funds we spend on training (which also deprives people of 
financial support in attaining new and necessary skills).
    There has been no good choice. Many of us have chosen to reduce 
staff and to maintain funds available for participation in training by 
reducing the amount of training funds available for each individual 
going. Reducing the amount of training funds per participant has 
allowed us to maintain participant training numbers, but more people 
are now being trained for lower level jobs on the career ladder. We 
have found ourselves in the position of training people for lower 
level, career ladder jobs, but not always jobs that help people 
immediately become self-sufficient. These jobs do, however, start at a 
higher wage than our area's entry level wage for a total of all 
occupations. Thanks to our stimulus package allocation, FMS will once 
again be able to train people for the jobs of the future, including 
health care and green initiatives, without reducing the number of 
people we serve in training.
    Additionally, with significant increases in youth funds, we will be 
able to provide stronger year-round youth services and work experience. 
Looking towards a summer where we will find many dislocated workers 
competing with young people for traditionally summer youth jobs, a WIA 
summer youth program may be the only opportunity for a young person to 
have a summer job.
    Other opportunities include a renewed interest in partnership 
between organizations providing workforce and related services. We are 
all in real need of designing new training programs for the jobs of the 
future. The stimulus funding will provide us with the opportunity to 
buy an entire classroom customized to meet the needs of our 
participants in their preparation for the jobs of the future. This will 
allow us to spend stimulus funds quickly and wisely and will encourage 
community colleges and WIBs to re-new and strengthen our relationships. 
I also believe we will be building on and creating new relationships 
with organized labor. Together, we will focus on skills necessary for a 
technologically competent workforce that will attract emerging 
industries to our region.
    We will continue to have challenges. Our potential workforce is 
shrinking--and growing older. There are fewer workers in the pipeline 
and many have out-dated skills. If we are to be successful in our 
region in attracting emerging industries, and retaining those we 
currently have, we need to have a globally competitive workforce. For 
that we must be ready to look beyond the traditional pool of emerging 
workers--young people with high school and post secondary school 
educations. We have untapped and underutilized segments in the greater 
workforce pool; older workers, individuals with disabilities, 
dislocated workers, the disadvantaged, disengaged youth, and the 
formerly incarcerated.
    While I know you are the Authorizing Committee, not the 
Appropriations Committee, our final challenge is on-going financial 
support of these critical workforce programs--or the lack of it. We 
have all done more with less for many years now. But there comes a time 
when no one can do more with less, and worse--no one can continue to 
provide the quality services that our dislocated workers and other 
jobseekers so desperately need and deserve. Between 1990 and 2007, New 
York State lost 44% of its traditional manufacturing jobs. In 2008 and 
into 2009, the continued downward spiral of lost jobs--and companies--
in New York State, and the nation, has been dizzying. Many of us firmly 
believe that we can turn this around. The economy will improve. Jobs 
will return. But they will not necessarily be the jobs that we have 
lost. And without continued and consistent funding of workforce 
programs, we cannot train the workforce of the future.

WIA reauthorization--where do we go from here?
    I cannot recommend too strongly that we continue to build upon 
locally driven, private sector-led local workforce boards. Local 
Workforce Investment Areas will only be able to provide quality 
services to jobseekers and businesses alike if we have the local 
control and the flexibility to customize our services to meet local 
needs, while utilizing the knowledge and expertise of our private 
sector members.
    We need to further strengthen our youth programs. In FMS, as in 
many workforce areas across the state, we believe in spending more than 
the required 30% of our youth funds on out-of-school youth. These are 
young people, many times young single parents, who have been given up 
on by their schools and their families. We are their last best hope. We 
need to continue to provide GED services and soft skills training, 
while increasing career pathway opportunities and opportunities for 
work experience.
    We also need increased and consistent funding at a level that will 
allow us to invest in our future workforce by providing quality 
training opportunities, while continuing to fund the One-Stop Career 
Centers that provide the skills assessment and career counseling 
critical for jobseekers to make informed decisions for future careers.
    Finally, I would like to again highlight the importance of 
opportunities for regional partnerships--partnerships that are skill-
focused, systemic, collaborative, and reflect the workforce needs of a 
region. These also require funding--funding specifically targeted to 
regional efforts where local workforce areas come together to address 
common workforce and economic needs.
Conclusion
    Thank you again for the opportunity to provide testimony today. I 
would be pleased and honored to continue to be a resource to this 
committee, as an executive director of a local workforce board, a 
partner in a regional sector strategy initiative, and as president of a 
statewide workforce membership organization. Please do not hesitate to 
call on me again as you move forward with WIA Reauthorization.
                                 ______
                                 
    Chairman Hinojosa. Thank you, Gail. In your closing 
remarks, you said that you realize that we are not 
appropriators that we are authorizers. The question comes up 
what is first, the chicken or the egg? And without us, the 
appropriators are worthless; they can't do a thing. We are very 
important, too.
    We are pleased now to introduce from General Electric, Tom 
Quick.

STATEMENT OF TOM QUICK, HUMAN RESOURCES LEADER, POWER & WATER, 
                    GE ENERGY INFRASTRUCTURE

    Mr. Quick. I appreciate the opportunity to come here this 
morning and discuss green collar skills training in the United 
States.
    The GE Power & Water business offers a diverse portfolio of 
products and services such as wind and solar renewable energy. 
The record-setting growth of wind energy is a bright spot in 
the U.S. economy. According to the American Wind Energy 
Association, AWEA, the U.S. Installed 8,358 megawatts of wind 
power in 2008. Currently, wind power in the U.S. Is enough to 
power 7 million homes.
    The U.S. is now the global leader in wind power, having 
surpassed Germany in both wind generation and installed 
capacity. AWEA estimates that the wind industry employs over 
85,000 people directly and indirectly, with 13,000 
manufacturing jobs created in 2008 alone.
    At GE, we now have installed over 10,000 1.5 megawatt wind 
turbines worldwide and one out of two wind turbines installed 
in the U.S. is a GE turbine. We have wind turbine assembly 
locations in Florida, South Carolina, Virginia, Pennsylvania, 
and California. The headquarters of our renewable business is 
located locally, here in Schenectady, New York.
    The installed base of wind power in the U.S. has spurred a 
demand for skilled workers who can operate and maintain wind 
turbines. As the U.S.-installed base continues to grow, there 
is a growing demand for skilled wind technicians. A report from 
the Department of Energy states that if wind power supplied 20 
percent of the U.S. electricity by 2030, this would result in 
over 160,000 direct jobs. The total direct and indirect jobs 
supported by the wind industry could exceed 500,000 by 2030, 
according to the DOE report.
    The ability to train skilled turbine technicians--wind 
turbine technicians is a collective challenge faced by the 
business community and educational institutions, with the 
Federal Government playing a key role. At GE, we hire wind 
technicians with associate degrees in electrical or electronic 
repair and 3-plus years of work experience in the electrical or 
electronics repair industry. There are currently a number of 
community and technical colleges with programs to address these 
training needs, yet these represent only the beginning of the 
training effort required to support the wind industry growth.
    Community and technical colleges with programs that 
emphasize a technical curriculum are good candidates to 
consider expanding their course offerings to include such 
courses as wind turbine mechanical systems or wind turbine site 
construction.
    The business community has to expand their own job skills 
training as well. GE has expanded our Energy Learning Center 
located in Niskayuna, New York, to include a wind training 
program and facility. The wind training facility has eight 
classrooms, 11,000 square feet of lab space, and dedicated 
control room to train wind technicians. We provide training to 
our own employees and employees of 200 customers in the United 
States.
    Partnerships between the wind industry manufacturers, site 
operators, with local educational institutions are good for 
everyone. A recent example of such partnership is the one 
between GE and Hudson Valley Community College to create the 
machinist training program in 2006. This partnership results in 
students receiving 2-year associate degrees, and GE enrolls 
employees into the program.
    The Capital District Workforce Investment Board encourages 
job training and skills development partnerships in our local 
area. The Federal Government can provide critical leadership to 
ensure these partnerships extend to the renewables industry. 
Through the Workforce Investment Act and the creation of 
regional Workforce Investment Boards across the U.S., the 
Federal Government can ensure that money is spent on 
educational programs today that can be leveraged to provide the 
green collar skills required for tomorrow.
    The Federal Government can ensure that public education and 
private business partnerships are encouraged to prepare 
interested students for jobs in the green economy. A trained 
workforce able to meet the demands of this expanding green 
economy benefits all of us in United States, and GE welcomes 
the Federal Government's leadership to provide the necessary 
skills for workers to have rewarding careers in the renewable 
energy industry.
    Thank you for the opportunity to speak to the subcommittee 
this morning on this very important topic.
    Chairman Hinojosa. Thank you, Tom.
    [The statement of Mr. Quick follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Sarubbi. Now I call on Joe Sarubbi.

STATEMENT OF JOSEPH T. SARUBBI, EXECUTIVE DIRECTOR, TEC-SMART, 
                HUDSON VALLEY COMMUNITY COLLEGE

    Mr. Sarubbi. Mr. Chairman, Congressman Tonko, Congressman 
Polis, it is a pleasure to provide testimony to you providing 
regarding new innovations and best practices under the 
Workforce Investment Act.
    I have spent the last 30 years of my life in higher 
education at the community college level, and I can say with 
confidence that regarding workforce development, there is no 
better place to develop a national agenda for green collar 
jobs. Community colleges are our Nation's best bet for 
retooling America.
    I believe community colleges can be looked upon as the SWAT 
team for workforce development because of their ability to 
provide rapid development of customized courses to meet the 
needs of the workforce, green collar and otherwise.
    One of the missions of community colleges is to be 
responsive to the educational needs of adult learners, 
displaced workers, returning veterans, and disadvantaged 
youths. Currently, there are 1,166 community colleges in the 
Nation and most offer workforce development type training.
    I believe that the Workforce Investment Act should ensure 
that local Workforce Investment Boards provide for community 
college representation to strengthen their relationships. And 
as our Nation continues to advance renewable energy and energy 
efficiency programs with ambitious goals, there is a great 
urgency to create a green collar workforce; and community 
colleges, as the Nation's best bet, have been rallying to that 
cause. That could not be any more evident than right near in 
the Capital Region of New York State as Hudson Valley Community 
College has been providing nationally recognized PV training 
programs for 3 years and is considered by many in the business 
to be the model program, and it also offers geothermal training 
as well.
    In fact, Hudson Valley Community College's multipronged 
approach could be a prototype for the renewable energy 
discipline and other community colleges nationwide, utilizing a 
combination of noncredit and credit courses and certificate and 
degree programs to meet the needs of all constituents. HVCC's 
program has been so successful that the college partnered with 
NYSERDA to expand its programs across New York State. 
Congressman Tonko is quite familiar with this initiative and, 
as former president of NYSERDA, supported the cause.
    NYSERDA and Hudson Valley Community College also partnered 
to establish a statewide network of community colleges for 
energy efficiency training, and by 2010, will have trained a 
few thousand people. Such collaborations have provided a 
geographic blanket of green collar training across New York 
State in both the renewable energy and energy efficiency 
environments.
    But NYSERDA and HVCC didn't stop there. They also partnered 
with the Interstate Renewable Energy Council and the 
Partnership For Environmental Technology Education to organize 
a Renewable Energy and Energy Efficiency Workforce Education 
Conference, which was held at Hudson Valley Community College. 
Educators from 34 States and 6 countries came together to learn 
and share best practices and effective approaches to teaching 
green collar workforce skills. We are now on our third 
conference, which will be held in November 2009.
    The Workforce Investment Act should help support such 
endeavors to encourage stronger connections between workforce 
investment and green collar jobs training.
    Hudson Valley Community College is now taking green collar 
training to another level as it will be constructing a state-
of-the-art training facility dedicated to green collar jobs. 
With the creation of TEC-SMART, Hudson Valley Community College 
will have a facility with dedicated laboratories to specific 
green technologies: photovoltaic, geothermal, large and small 
wind, alternative fuels, and semiconductor manufacturing.
    Through TEC-SMART, the college will seek to work with local 
Workforce Investment Boards to offer training for the adult 
learners, displaced workers, returning veterans and 
disadvantaged youth I mentioned earlier. Through TEC-SMART, the 
college will be able to offer train-the-trainer programs to 
help other colleges ratchet up their green collar training 
programs, as well as partner with 4-year institutions to 
continue to develop green collar skills.
    And it is also important to continue to support blue collar 
training programs, as many of these act as feeders to green 
collar jobs training.
    In conclusion, community colleges can and are providing the 
backbone for green collar jobs. It is critical that the 
reauthorization of the Workforce Investment Act recognizes the 
role that community colleges play in workforce development 
training and will provide the necessary resources to support 
this training.
    Thank you for allowing me the opportunity to testify and 
share these observations and opinions with you.
    Chairman Hinojosa. Thank you.
    [The statement of Mr. Sarubbi follows:]

 Prepared Statement of Joseph T. Sarubbi, Executive Director, Training 
 and Education Center for Semiconductor Manufacturing and Alternative 
and Renewable Technologies (TEC-SMART), Hudson Valley Community College

    Mr. Chairman, Congressman Tonko, Members of the Committee, it is a 
pleasure to provide testimony to you regarding ``New Innovations and 
Best Practices Under the Workforce Investment Act.''
    The timing couldn't be better to talk about what's happening at the 
higher education level regarding ``Green Collar'' jobs and the role 
Community College's can play (and are playing) in support of the 
Workforce Investment Act.

The Case for Workforce Training at Community Colleges
    As a former Journeyman Electrician who was trained through the 
International Brotherhood of Electrical Workers, I've devoted the last 
three decades of my life to workforce training at Hudson Valley 
Community College; first as a Professor, then as a Department Chair, 
and now as the Executive Director of the College's renewable energy 
training center. I feel strongly about the positive impact our college 
alone has had on the Capital Region community regarding job placement, 
and I've witnessed other community college's having a similar impact 
within their respective regions.
    One of the main objectives of a community college is to be 
responsive to the educational needs of adult learners, displaced 
workers, returning veterans, and disadvantaged youths. This is achieved 
by providing services and vocational training that will develop 
independent and confident learners, as well as life skills. There's no 
question that community colleges are best suited to serve this mission. 
In fact, community colleges could be viewed as the ``Swat Team'' for 
workforce training because of their ability to provide rapid deployment 
of customized courses and services to address the employment needs of 
the community.
    As our national economy continues to experience a major 
transformation, the need to aggressively re-tool our workforce has 
never been more paramount, and community colleges should be the 
epicenters for making this happen. Currently, there are 1,166 community 
colleges nationwide, and most offer workforce development type 
training. Moreover, numerous community colleges have a Workforce 
Development ``Center'' that often provides a one-stop system for easy 
access. With the ability to offer flexible training schedules, on-line 
courses, credit and non-credit courses, workshops, certificate 
programs, and degree programs, community colleges can quickly manage 
the challenges ahead and respond to learner needs in a rapidly changing 
environment. The Workforce Investment Act should ensure that local 
Workforce Investment Boards provide for community college 
representation.
    As a Department Chair with oversight of numerous vocational 
training programs I've had the opportunity to work with Workforce 
Investment Boards for the purpose of retraining displaced workers. I've 
witnessed first-hand the value of the Workforce Investment Act (WIA) 
and the role it's played in improving the lives of many. Yet, I've also 
found that the administrative complexities associated with aligning 
training programs and individual benefits to be challenging. Depending 
on individual needs, effective, high quality job training and education 
can take anywhere from two weeks to upwards of two years. Aligning 
flexibility in benefits to mirror training programs will greatly 
improve completion of training and a better chance of leading to a 
``living wage.'' For example: if a displaced unskilled worker needs a 
two-year vocational training program to become successful, and was 
displaced at a time of the year where such training was offered, but 
the training program already started, it precluded the worker from 
starting. Often benefits would ``run-out'' before the worker could 
complete the training since the worker had to wait until the next 
training cycle. The Workforce Investment Act should focus on helping 
workers through the entire training process.

Green Collar Jobs and the Community College
    As our nation continues to advance Clean Energy and Energy 
Efficiency programs with ambitious goals, the need to develop a Green 
Collar workforce has brought about a new sense of urgency, and 
community colleges have been rallying to the cause. Hudson Valley 
Community College, for example, has been providing photovoltaic (PV) 
training for three years, and is recently training students in 
geothermal technology as well. In fact, it should be noted that Hudson 
Valley Community College's model for photovoltaic training has received 
national attention for its three-pronged delivery that meets the needs 
of all constituents. So much so that Jane M. Weissman, Executive 
Director, Interstate Renewable Energy Council and Vice-Chair, North 
America Board of Certified Energy Practitioners, has stated, ``The 
photovoltaic course programs at Hudson Valley Community College are 
national models for other educational providers across the country. 
Combining class-room instruction based on strong electrical curriculum, 
coupled with an extensive laboratory plus on-site training 
opportunities, have positioned Hudson valley as a leader in 
photovoltaic training. They have clearly demonstrated their ability to 
produce high-end instruction for a strong renewable energy workforce.'' 
Furthermore, Jerry Ventre, Engineering Consultant and Former Director 
of the Photovoltaics and Distributed Generation Division of the Florida 
Solar Energy Center stated: ``In a relatively short time, Hudson Valley 
Community College has established itself as a clear leader in 
photovoltaic training in the U.S. They have extremely well designed 
course offerings, highly qualified faculty, excellent relationships 
with industry, outstanding facilities, and strong institutional 
support. And, most importantly, they provide their students with the 
proper combination of classroom activities, hands-on training in the 
laboratory and on-the-job experience with actual photovoltaic system 
installations in the field.'' While Hudson Valley Community College is 
a forerunner in Clean Energy and Energy Efficiency training, many other 
community colleges have demonstrated their ability to ``ratchet-up'' 
their training programs and offer similar ``green'' technology skills. 
All across the country community colleges are beginning to re-tool 
their trainers who can provide the green collar workforce training that 
would be supported under the Workforce Investment Act.

Best Practices
    The success of Hudson Valley Community College's (PV) programs lies 
in the multi-pronged approach to training, ensuring access to any and 
all who seek such skills: (1) the 40 hour introduction to photovoltaic 
installation non-credit course offers access to those who demonstrate 
some existing construction and/or manufacturing skills and want to 
enter the PV installer industry. This could be a displaced worker, or 
someone seeking to enhance their skills in preparation for 
transitioning into renewable energy workforce. Upon completion of this 
course, students are eligible to take the Entry Level Certificate of 
Knowledge exam, which upon passing, awards them an entry level 
credential that is recognized by photovoltaic contractors, (2) the 19 
credit Photovoltaic Installation Certificate program offers training to 
those who do not have any prior knowledge or skills, but seek to become 
a PV installer. This one year certificate can be completed in the 
evenings and weekend to provide flexibility to students, (3) Hudson 
Valley Community College also offers two credit courses in photovoltaic 
design and installation that is offered to students of the electrical 
Construction and Maintenance two-year degree program. Upon training 
completion, students will have multiple career paths thus ensuring that 
the size of the workforce does not out pace market demands, and visa-
versa. Lastly, students of all three paths can enroll in the 40 hour 
non-credit ``advanced PV installer training'' course that prepares 
students to take the North American Board of Certified Energy 
Practitioners exam, which can lead to becoming a ``Certified'' PV 
Installer.
    Hudson Valley Community College has partnered with the New York 
State Energy Research and Development Authority (NYSERDA) to expand 
such programs across New York State. In fact, I've had the pleasure of 
working with Congressman Tonko, who at the time was President of 
NYSERDA and understood the value of this training, which he supported 
100%. With a combined vision to expand such training, Hudson Valley 
Community College and NYSERDA collaborated to provide a geographic 
``blanket'' of green collar training across New York State by 
networking with other community colleges eager to provide similar 
training at their institutions. This training model is an offshoot of 
NYSERDA's New York Energy $mart Residential Program that, again, with 
Hudson Valley Community College serving as the lead institution, 
established a statewide network of community colleges for energy 
efficiency training programs as well. By 2010 the energy efficient 
training programs will have trained a few thousand people across New 
York State. Hudson Valley Community College has created a paradigm for 
green collar training that, with the right resources, can be replicated 
across the country.
    To further facilitate best practices in green collar job 
environment a: Renewable Energy & Energy Efficiency Workforce Education 
National Conference was sponsored by NYSERDA and organized by the 
Interstate Renewable Energy Council (IREC), Partnership for 
Environmental Technology Education (PETE) and Hudson Valley Community 
College was held in November 2006 at Hudson Valley Community College. 
It was the first national conference on workforce education for the 
renewable energy and energy efficiency trades and industries. The event 
was an opportunity for educational providers and faculty at Technical 
High Schools, Community Colleges, four-year Schools and other training 
programs to learn about best practices and effective approaches to 
teaching renewable energy and energy efficiency workforce skills. The 
conference attracted over 250 educators from 34 states and six 
countries, and was held over a three day period. The second national 
conference was again held at Hudson Valley Community College and 
attracted over 350 people from across the country and world. The 
audience again was community colleges, technical high schools, labor 
and apprenticeship programs, industry, government agencies and others 
who are planning to start or are providing practitioner training for 
the renewable energy and energy efficiency industries.
    Sessions focused on some of the critical workforce topics such as 
jobs and how to prepare for workforce needs; how to create Vocational 
High School Trade Program to Community College to four-year College 
articulation agreements; model solar energy, wind energy, energy 
efficiency, geothermal curricula and programs; and how to integrate 
energy efficiency and renewable energy into other trades on campus. 
Other important areas covered included industry-based task analysis 
certification and training standards; establishing successful business 
and industry advisory committees; conducting local job market 
assessments; and creating hands-on renewable energy laboratories. The 
third national conference, being held in November 2009 in Albany, New 
York, will offer the most current information on instructional 
strategies, curricula development, and best practices for training in 
the renewable energy and energy efficiency fields. It will address many 
of the jobs outlined in the green jobs initiatives being launched 
nationwide. Most of the attendees are from community colleges seeking 
new and innovative ways to grow and improve their green collar 
practitioner training. The Workforce Investment Act should seek to 
become a partner for the National Conference to encourage stronger 
connections between workforce investment and green collar job training. 
The Workforce Investment Act should help local WIBs become more active 
in training programs by helping to facilitate articulation agreements 
that allow for seamless education from secondary and adult education to 
post-secondary education.

Innovative Ideas
    Hudson Valley Community College is committed to training a green 
collar workforce and has taken a giant step towards enhancing its 
practitioner training initiatives. With the support of state funding, 
the College will be constructing a state-of-the-art training facility 
dedicated to green collar jobs. TEC-SMART (Training and Education 
Center for Semiconductor Training, and Alternative and Renewable 
Technologies) will have individual laboratories each dedicated to a 
specific green technology: photovoltaic, geothermal, large and small 
wind, alternative fuels, and semiconductor manufacturing. This facility 
will support many of the training initiatives mentioned earlier and 
serve the region, state and nation as the premiere resource for green 
collar training and education.
    Through the TEC-SMART facility, Hudson Valley Community College 
will seek to work closely with local Workforce Investment Boards to 
offer training in myriad ways. For example, with the necessary WIA 
resources, the College would focus its energies by turning its 
attention to the returning veteran. The number of returning veterans 
continues to grow well past the half-million mark, and providing green 
collar job training to many makes sense in today's competitive economy. 
Through TEC-SMART, Hudson Valley Community College will also seek to 
provide ``Train-the Trainer'' programs to other community colleges to 
help accelerate the availability of green collar training programs 
whereby local WIBs across the Country can provide the necessary 
services returning veterans anticipate. Furthermore, by collaborating 
with four-year institutions such as SUNY Stony Brook, the college could 
establish 2 + 2 programs that WIBs could support with a focus on 
higher-skilled, higher-wage green collar jobs.
    Through TEC-SMART, and with the necessary WIA resources, Hudson 
Valley Community College will be able to provide upgraded training to 
low-income workers who seek to advance to a higher skilled green collar 
job. By working closely with local WIBs, the college can develop 
customized green collar training programs to meet the needs of the low-
wage earner. In fact, another strength of a community college is its 
ability to effectively assess the academic skills of those seeking to 
upgrade their employment status and provide the services necessary to 
access training. Most community colleges have Learning Assistance 
Centers that help each worker's ability to succeed in training, and 
improve worker retention. There is nothing more daunting to a low-wage 
worker than to take up the practice of life-long learning, and there's 
no better place for them to have a feeling of accomplishment and 
achieve success than a community college. The Workforce Investment Act 
could help bridge that ``disconnect.''

Non-Green Collar Jobs
    Many community colleges offer tremendous technology programs that 
have continued to provide training for ``blue collar'' jobs for 
decades. The importance of the WIA to continue to support these 
programs cannot be overstated. In fact, many of these ``blue collar'' 
programs provide a feeder system to green collar jobs. For example, 
most PV installers and wind technicians who hold the higher skilled 
positions within those respective ``green collar'' fields first 
received training in the electrical/electronic environment. Similarly, 
those seeking employment as a geothermal technician first gained 
valuable training in the HVAC/R environment. As the green technology 
job market continues to ebb and flow, those who are cross trained are 
most like to retain ``living wage'' jobs. The same could be said about 
alternative fuels.

In Conclusion
    Community Colleges can and are providing the backbone for green 
collar jobs. It's critical that the reauthorization of the Workforce 
Investment Act recognizes the role Community Colleges play in workforce 
development training. The best practices I shared today can be 
implemented across the country with the right resources. Facilities 
like TEC-SMART can be instrumental in Train-the Trainer programs for 
other colleges and technical schools to ensure rapid deployment of 
training programs. Colleges like Hudson Valley Community College, who 
have learned to walk-the-walk regarding green collar training, can be 
active in helping other schools address the green collar work force 
needs of our nation.
    Thank you Mr. Chairman, and Members of the Committee, for allowing 
me the opportunity to testify and share these observations and opinions 
with you.
                                 ______
                                 
    Chairman Hinojosa. And now we call on Nanine.

      STATEMENT OF NANINE MEIKLEJOHN, SENIOR LEGISLATIVE 
   REPRESENTATIVE, AMERICAN FEDERATION OF STATE, COUNTY AND 
                  MUNICIPAL EMPLOYEES (AFSCME)

    Ms. Meiklejohn. Mr. Chairman, Congressman Tonko, and 
Congress Polis, thank you for the opportunity to present 
AFSCME's views on reauthorization of WIA. AFSCME represents 1.6 
million members around the country, many of whom work in State 
and local workforce programs.
    The daunting economic challenges we are facing have 
revealed some underlying weaknesses and call into question some 
of the assumptions in Federal workforce policy over the last 10 
years. We believe it is time for a new direction that expands 
on and strengthens all of the components of the workforce 
system.
    WIA was enacted during a period of economic growth and amid 
pressures to block grant, decentralize and reduce funding for 
Federal workforce programs, it was an uneasy compromise that 
caused tensions between the publicly operated State programs 
and the local, more privatized WIA-funded programs. For our 
members and the State agencies, WIA came to represent a way to 
weaken or privatize the services they provide.
    Difficult issues emerged, such as how to finance one-stop 
operations and how much control local boards would have over 
the work of the State agency employees. Declining funding 
exacerbated these tensions. Organizational structures, 
policies, and services vary widely and the sequence-of-services 
rule focused resources on core services instead of training.
    As local WIA providers increasingly duplicated some of the 
Wagner-Peyser Employment Service functions, the previous Labor 
Department tried to eliminate it, contending it was 
unnecessary. In fact, though, the employment service is much 
more than another job matching program. It is a crucial partner 
in the unemployment insurance system, conducts foreign labor 
certifications, helps administer the Trade Adjustment 
Assistance Act, and the Targeted Jobs Tax Credit. It also 
maintains statewide job banks and a comprehensive system of 
labor market information in each State.
    The close relationship of the employment service to the UI 
system is especially important. Traditionally, States maintain 
flexible staffing patterns between the two that were undermined 
as they centralized their UI operations into call centers and 
ES staff moved into local one-stop centers. As a result, UI 
claimants rarely get the early reemployment services they need, 
and one-stop centers are ill-equipped to help jobless workers 
get through overburdened UI application systems. This situation 
and the role of the employment service in the broader workforce 
system requires more attention.
    Typically, when the Nation has faced extraordinary 
challenges, we have turned to the Federal Government for 
leadership. This is true today. Already the economic recovery 
program asserts a stronger Federal role in workforce policy, 
limits local flexibility to modify Federal funding priorities, 
and calls for more balance between the needs of workers and 
employers.
    We hope WIA reauthorization will continue this new 
direction. We specifically recommend the following: The 
sequence-of-service policy should be abandoned; WIA programs 
should have to devote more resources to training; training 
should focus on high-growth fields, while local areas retain 
flexibility to run programs specifically suited to their local 
needs.
    We need a stronger, more comprehensive capacity to provide 
labor exchange services and counseling to an increasingly 
diverse group of disadvantaged and dislocated experienced 
workers seeking help.
    A strong statewide employment service can complement the 
work of local WIA programs. Strengthening its ability to 
provide comprehensive job-matching tools and good labor market 
information will benefit the entire system because it will 
attract more employers, improve job matching for all workers, 
and support regional sector and labor management training 
initiatives which extend beyond local one-stop boundaries. 
Without the sequence-of-services rule, more effective and 
professional career planning and assessment will be needed to 
carefully match workers' skills and interests with the right 
services at the front end.
    A computer is not enough. Just as real estate agents help 
house hunters, even though there are many real estate Web 
sites, knowledgeable counselors can help job seekers and 
employers achieve good matches. The State agency can establish 
a level of consistency for these functions statewide through 
its policy-setting authority.
    The fact that State employment service employees are in 
merit-based personnel systems is a benefit. Merit system 
principles of personnel administration were originally adopted 
to ensure government accountability, fairness, and 
transparency. When applied well, they lead to quality services 
by a staff accountable to the public, not individual private 
interests. These principles currently in regulation should be 
codified in law.
    Mr. Chairman, you are considering WIA reauthorization at an 
unusual point in time. We look forward to working with you as 
you begin this process and again thank you for the opportunity 
to testify.
    Chairman Hinojosa. Thank you for your presentation.
    [The statement of Ms. Meiklejohn follows:]

      Prepared Statement of Nanine Meiklejohn, Senior Legislative 
  Representative, American Federation of State, County and Municipal 
                           Employees (AFSCME)

    Chairman Hinojosa and Congressman Tonko, my name is Nanine 
Meiklejohn, and I am a Senior Legislative Representative for the 
American Federation of State, County and Municipal Employees (AFSCME).
    AFSCME's 1.6 million members work in state and local government 
agencies, health care institutions, and nonprofit agencies across the 
country. They include the employees in state employment security and 
workforce agencies and in local one-stop operations. We appreciate this 
opportunity to present AFSCME's views on reauthorization of the 
Workforce Investment Act (WIA).
    We face a starkly different economic situation now than when WIA 
was enacted and when Congress last considered legislation to 
reauthorize WIA. The accelerating pace of job loss is breathtaking. In 
February, unemployment surged to 8.1 percent as non-farm payroll 
employment fell sharply. Over the past year the number of unemployed 
persons jumped by five million as the unemployment rate rose by 3.3 
percentage points. The number of workers receiving unemployment 
benefits has risen by 54 percent in the last 12 months to over five 
million people, and 2.9 million workers still had not found jobs after 
26 weeks of unemployment in February--a 55% increase over last year.
    This extraordinary situation is creating extraordinary demands on 
our workforce system. The unemployment insurance system, which relies 
on telephone call centers and electronic applications, is under 
enormous strain and in some states, including here in New York, has 
experienced temporary breakdowns. Long lines of unemployed workers have 
formed at overwhelmed local one-stop centers--the only physically 
available place they can go for help.
    These challenges have revealed some underlying weaknesses and call 
into question some of the assumptions in federal workforce policy over 
the last 10 years. Since WIA was enacted, and especially during the 
last eight years, workforce funding declined; federal leadership 
continued to shrink; efforts were made to collapse workforce programs 
into each other despite their unique roles; training activities have 
been extremely limited; the voice of workers in the system was almost 
silenced; and publicly administered systems were neglected in favor of 
publicly-funded but privately-provided services.
    This is not to imply that there have not been important innovative 
programs during that time. Indeed, many are operating in local areas. 
They include sector and regional training initiatives, labor-management 
partnerships, such as the longstanding health care training partnership 
conducted by AFSCME's affiliate, District 1199 (c) in Philadelphia, 
career pathways initiatives for young people, and closer linkages 
between the workforce system and economic development strategies. The 
testimony of Bill Camp, on behalf of the AFL-CIO on February 12, 2009, 
described a number of important and exciting policies and initiatives 
taking place in California. They should be strengthened and encouraged 
during WIA reauthorization.
    However, more is needed to enable our workforce system to meet 
today's challenges. We believe now is the time to guide federal 
workforce policy in a new direction that expands on and strengthens all 
of the components of the workforce system so that it can provide the 
highest level of services for workers and employers possible. We 
support all of the recommendations made by the AFL-CIO at the February 
hearing, but in this statement, I will focus specifically on key 
aspects of the delivery system.

WIA's Place in the Workforce System
    WIA was enacted during a period of relative economic stability and 
amid pressures to block grant, decentralize and reduce funding for 
federal workforce programs. It established a one-stop center system 
with the laudable goal of facilitating access to a wide range of 
related services, including the WIA adult, dislocated worker and youth 
programs, Unemployment Insurance (UI), Employment Services (ES), Trade 
Adjustment Assistance (TAA), Vocational Rehabilitation and Adult 
Education.
    As originally conceived, these programs would be coordinated by 
locating WIA services and other workforce programs in local one-stop 
centers and by linking them electronically. As much as possible, the 
programs were to be integrated with each other; a term that has been 
interpreted in different ways in different states and local areas and 
which has represented an uneasy compromise between block granting and 
coordination.
    In moving in this direction, WIA created significant tensions 
between the publicly operated state programs, such as Vocational 
Rehabilitation and Wagner-Peyser Employment Services, and the local 
more privatized WIA programs, particularly where local workforce boards 
attempted to assert control over the large state public agency 
operations. For our members in the state agency programs, WIA came to 
represent a mechanism to weaken or privatize the programs in which they 
work and the services they provide.
    Difficult issues emerged, such as how to finance one-stop 
operations (because WIA did not provide operational funding for the 
one-stop centers) and the extent to which local boards and one-stop 
operators, some of them private companies, would control the work of 
the state agency employees. As a result, considerable energy has been 
spent on governance, financing and process issues, and significant WIA 
resources have been spent building an operational infrastructure of 
one-stop centers. Declining WIA funding and stagnating Wagner-Peyser 
funding greatly exacerbated these tensions.
    Because of the highly decentralized nature of the program, 
organizational structures, policies and services vary widely among, and 
even within, states. This has made it virtually impossible to paint a 
clear picture of the way the system operates from a national 
perspective.
    At the same time, WIA's effectiveness as a source of meaningful 
training services was weakened by a mandate to provide universal 
services through a sequence of core, intensive and training service 
with no effective job quality criteria and heavy reliance on self-
service. As a result, WIA providers increasingly focused primarily on 
general labor exchange services and on placements with low-wage 
employers at the expense of a consistent policy of providing value 
added quality services for job seekers and employers.

Wagner-Peyser's Role in the Workforce System
    As local WIA providers increasingly duplicated some of the labor 
exchange services historically provided by the state Wagner-Peyser 
Employment Service, the previous Labor Department pursued an aggressive 
effort to defund and eliminate the state Employment Service. Department 
officials based their case primarily on the claim that the state 
Employment Service is essentially like other local job matching 
activities funded by WIA, a view shared broadly among those providing 
local WIA funded services.
    In fact, though, the Employment Service is much more than another 
job matching program. It is a crucial partner of the Unemployment 
Insurance program, conducts labor certifications, and helps administer 
the Trade Adjustment Assistance program and the targeted jobs tax 
credit. In addition, it maintains statewide job banks and a 
comprehensive system of labor market information in each state, both of 
which are valuable resources that support state and local economic 
development strategies and regional and sector partnerships.
    Maintaining this flexible state agency workforce can provide both 
efficiencies and flexibility. For example, Ohio state staff is trained 
in ES, UI, TAA, labor market information and outreach services to 
employers, which allows the state to provide more universal services 
that can respond to emerging and changing local needs.
    The relationship of the Wagner-Peyser Employment Service to the 
Unemployment Insurance program is especially important. In 
administering the Unemployment Insurance program, the states also must 
ensure that UI claimants are looking for and securing employment.
    Traditionally, ES and UI staff worked closely together in providing 
benefits and employment services to help UI claimants find jobs. They 
often were cross trained so that they could shift between the more 
technical functions of processing unemployment benefit applications and 
matching job seekers with employers. This flexibility to adjust 
staffing patterns was substantially undermined as states centralized 
their UI operations into call centers and ES staff moved into local 
one-stop centers.
    Separating the ES and UI operations has had several consequences. 
In any state that does not require it, and most states don't, 
Unemployment Insurance recipients have no obligation to go to a one-
stop center at all. Even if they do go, they rarely get early 
reemployment services that can shorten their time without work or help 
move them to a new career. In addition, local one-stop centers are ill-
equipped to help jobless workers get through the overburdened UI 
application system other than offering them a telephone connection.
    However, the severity of the economic downturn has led some states 
to seek ways to rebuild the connection between the two programs. 
Connecticut and Ohio are moving to assign some of their ES staff 
situated in local one-stop centers to help workers with their UI 
claims. This ability to adjust duties and functions as economic 
circumstances change is possible only because the states retain 
authority over the ES staff.
    Although the transition of ES staff into local one-stop centers 
appears almost complete, its role in the centers requires more 
attention both in terms of its relationship to the UI program and as 
part of the overall workforce system.

Moving Forward--A New Balance
    Typically, when the nation has faced extraordinary challenges, we 
have turned to the federal government to achieve important national 
objectives and priorities. This is true today. The American Recovery 
and Reinvestment Act (ARRA) asserts a stronger federal policy in the 
workforce system.
    The law provides specific guidance on how some funds are to be 
used. In particular, it requires that states use $250 million of the 
$400 million appropriated for the Employment Service specifically to 
provide reemployment services for UI claimants. Our hope is that the 
U.S. Department of Labor will consider a requirement for all 
contractors receiving ARRA funds to list new jobs on the state job 
banks to facilitate matches for all job seekers. The program also 
directs training resources to high priority areas, in particular green 
jobs and health care, through a grant process that will be managed by 
the Secretary of Labor.
    A subsequent March 4, 2009 notice from the Labor Department further 
asserts federal policy and calls for more balance between the needs of 
workers and employers. It urges alignment with economic and community 
development strategies and close alignment of education and training 
with jobs and industries that are important to local and regional 
economies. The Department also has determined that several waivers will 
not apply to Recovery Act funds on the grounds that they are contrary 
to congressional intent, including a waiver providing authority for 
full transfer of funds between the Adult and Dislocated Worker 
Programs. In addition, services and training are to be maximized and 
administrative costs minimized.
    AFSCME applauds this new direction and hopes that WIA 
reauthorization will continue to foster it. In particular, we hope to 
see more balanced membership on workforce boards, including stronger 
participation by organized labor, and increased support for labor-
management partnerships in industry and sector training initiatives. We 
also hope to see more balance among available services and a new 
stronger partnership among the public and private agencies and state 
and local governments. In addition, we hope greater attention is given 
to reemployment services for UI claimants by the Employment Service.

Training and Services
    The sequence of services policy has caused local WIA programs to 
emphasize core services at the expense of other services and training. 
As demands on the local centers escalate though, it is becoming 
apparent, at least in some states, that there are important gaps in the 
services available for job seekers.
    In order to ensure that WIA programs provide more intensive 
services and training, the sequence of service policy should be 
explicitly abandoned. WIA programs should have to devote a certain 
percentage of their funding for training as previous job training laws 
required.
    In addition, federal law should place a priority on training in 
high growth fields, such as alternative energy, broadband, advanced 
manufacturing, child care, and health care that are of a high national 
priority. The recently enacted Higher Education Act embraced a similar 
concept of high national need in the loan forgiveness program. Guiding, 
but not requiring, states and localities to direct services and 
training in such areas can help ensure a meaningful role for the 
workforce system in a new economy without stifling other initiatives 
specifically suitable to local economic conditions and populations.

Expanding the Scope of the One-Stop System
    As more experienced jobless workers seek help at local one-stop 
centers, the demands on the system are expanding and changing. While 
WIA may have been largely a last resort for low-income and 
disadvantaged persons, increasingly others with different experiences, 
but perhaps similar skill development needs, are lining up at local 
centers. It is not clear yet whether this is a temporary phenomenon due 
to the downturn or a more fundamental shift. Some analysts predict that 
many of the lost jobs will never return.
    In either case, this development means that the workforce system 
needs to strengthen both its labor exchange--or core services--capacity 
and its ability to guide and provide services to workers with 
increasingly disparate needs. It also needs to be able to help them 
acquire new skills in a changing economy.
    The statewide and public character of the Employment Service makes 
it a potentially valuable asset in achieving this objective. A study of 
six states conducted by WESTAT for the U.S. Department of Labor, 
``Evaluation of Labor Exchange Services in a One-Stop Delivery System 
Environment'', which was completed in 2004 but suppressed by the 
Department for four years, is instructive. It noted that by virtue of 
its statewide character the state Employment Service overcomes a 
tendency of local workforce areas to engage in more targeted job 
development and job matching at a time when job seekers are more 
willing to look for opportunities beyond their immediate communities.
    The WESTAT study further observed that ``Effective job-matching 
systems linked high-quality technology with well-trained staff 
dedicated both to ensuring that employers were appropriately listing 
their jobs and job seekers were able to effectively use the 
technology.'' Achieving both involves staff outreach and a concerted 
effort to attract and hold employers as well as the staffing capacity 
to make good matches.
    This is an important finding. The broader the scope of information 
available to local one-stop centers, the more effective all of the 
partner programs can be. Strengthening the ability of the state 
employment services to provide comprehensive job matching tools and 
good labor market information will benefit the entire system because it 
will attract more employers, improve job matching, and support regional 
and sector training initiatives. It can be a rich resource for all job 
seekers, experienced and disadvantaged alike, particularly helping to 
open up opportunities for disadvantaged job seekers they might not 
otherwise have.
    Eliminating the sequence of services rule will have important 
consequences for the system. It will create more flexibility to provide 
a broader range of services, but it also will create a new need for 
effective and professional career planning and assessment in order to 
carefully match workers' skills and interests with the right services, 
training and jobs. It will open up new ways to align services 
functionally and perhaps in teams of staff from different programs, 
even as dedicated funding continues to be provided for specific groups 
of workers.
    A skilled and professional state Employment Service staff that 
competently advises workers and employers will become even more 
necessary. An analogy with the real estate industry helps make this 
point. Although there are many websites that list homes for sale, house 
hunters still seek out real estate agents to help them narrow their 
search and make the best decision.
    The state Employment Service staff already conducts assessment and 
career planning functions when they provide reemployment services to UI 
claimants and counsel TAA enrollees. The state can control the quality 
and consistency of these services statewide through its policy setting 
authority, the ability to set high standards for job counselors, and, 
if resources are available, professional training and upgrading. 
Because it is not limited to the local boundaries of one-stop systems 
it is well positioned to perform such functions to support both sector 
and regional training and skill development partnerships.
    WIA reauthorization should strengthen the state Employment Service 
capacity by, among other measures, providing resources for staff 
development. We note that New York state is moving to upgrade its 
Wagner-Peyser staff by hiring labor service representatives with 
masters degrees in counseling.
    A strong statewide Employment Service can compliment, rather than 
compete with, the work currently being done by local WIA programs which 
focus on the more intensive work involved in serving populations with 
significant barriers to employment.
    The fact that state Employment Service employees are in merit based 
personnel (civil service) systems is an additional benefit despite 
claims of the previous administration which tried to eliminate this 
longstanding regulatory requirement. It did so because the merit 
staffing rule stood in the way of its effort to dismantle the 
Employment Service, devolve it to local WIA boards, and contract out 
the funds to private contractors.
    The merit staffing rule was characterized erroneously as a ``labor 
protection'', but the reality is that merit system principles of 
personnel administration were originally adopted in the interests of 
government accountability, fairness and transparency. They require 
adherence to the following principles to insure improvement of public 
service:
    a) Recruiting, selecting, and advancing employees on the basis of 
their relative ability, knowledge, and skills, including open 
consideration of qualified applicants for initial appointment.
    b) Providing equitable and adequate compensation.
    c) Training employees, as needed, to assure high quality 
performance.
    d) Retaining employees on the basis of the adequacy of their 
performance, correcting inadequate performance, and separating 
employees whose inadequate performance cannot be corrected.
    e) Assuring fair treatment of applicants and employees in all 
aspects of personnel administration without regard to political 
affiliation, race, color, national origin, sex, religious creed, age or 
handicap and with proper regard for their privacy and constitutional 
rights as citizens. This ``fair treatment'' principle includes 
compliance with the Federal equal employment opportunity and 
nondiscrimination laws.
    f) Assuring that employees are protected against coercion for 
partisan political purposes and are prohibited from using their 
official authority for the purpose of interfering with or affecting the 
result of an election or a nomination for office.
    These principles should be codified in the Wagner-Peyser Act to 
establish them more firmly in the law. In fact, we suggest that the 
substance of these principles is unassailable and that they also are 
appropriate for the operators of the one-stop centers as well.
    Mr. Chairman, you are considering WIA reauthorization at an unusual 
point in time. Our economic circumstances present both unique 
challenges and opportunities for the workforce system. If reformed by 
building new partnerships and creating a new balance, we believe WIA 
along with its workforce program partners will be well positioned to 
play a much more expansive and meaningful role in the economic life of 
our country. AFSCME looks forward to working with you as you begin this 
process. Thank you again for this opportunity to testify here today.
                                 ______
                                 
    Chairman Hinojosa. I liked everything I heard, and I am 
sure that my colleagues are going to have some questions that 
will be directed to one or more of the presenters.
    I would like to start myself. I will be limited to 5 
minutes also by the rules, and if necessary, we will have a 
second round.
    I believe that your contributions will be very valuable to 
us as we move forward in the reauthorization of this WIA 
reauthorization act of 2009, so my first question is going to 
be directed to the Hudson Valley Community College. And let me 
look at the one that I think was engraved in my mind, because 
you talked about even partnering with high schools. And I think 
that stakeholders include our schools, our community colleges, 
our workforce boards, and of course, our 4-year universities.
    So I would like to ask you, Joe, you mentioned that there 
are some challenges in the administrative complexities related 
to the alignment of training programs and the individual 
benefits. So would you elaborate on how the reauthorization of 
WIA should consider these issues?
    Mr. Sarubbi. Certainly, some of the concerns we have seen 
at the community college level:
    Nobody can predict exactly when they anticipate getting 
laid off from a job. So if we were to take a particular 
displaced worker, for example, the way most community colleges 
are set up in our Nation is on a semester-by-semester basis. 
Courses usually start around the 1st of September, finish at 
the end of December, pick up in January, end in May. If a 
particular worker gets displaced in October and that is the 
starting point for them to start to earn their actual funding, 
part of the problem is they can't get into training until 
either January or the following September of the next year 
because of the sequence of actual course work that they would 
have to complete, knowing that they have to start out with the 
simpler courses.
    Chairman Hinojosa. If I may interrupt you, have you seen 
the model of the Maricopa County Community College system in 
Phoenix, Arizona, which is the open entry and open exit for 
community colleges?
    Mr. Sarubbi. No.
    I have heard about that, and other community colleges are 
looking at that particular model. A lot of it has to do with 
when we talk about the type of green collar jobs, you still 
need a certain level of on-the-job, you know, hands-on training 
that needs to be done at specific institutions.
    So if you have got the type of technologies where you can 
offer that training in a way that--again, knowing the size of 
the actual classes that you would be able to have coming 
through, sometimes it works good, sometimes it doesn't.
    I have heard mixed reviews about it right now, and I have 
not had a chance to research it at the highest level.
    Chairman Hinojosa. I think there are some advantages and 
disadvantages of that model, but it was listed by Newsweek as 
one of the largest and best community college systems in the 
country, so there must be some good qualities to that.
    Mr. Sarubbi. Certainly.
    Chairman Hinojosa. You said one of the factors leading to 
the successful efforts between Hudson Community College and 
local entities was the investment of the New York State Energy 
Research and Development Authority.
    Is this a model that we should consider for other areas in 
the Nation?
    Mr. Sarubbi. Without a doubt. NYSERDA has been a fantastic 
partner in helping us to get to the level where we are. They 
have the resources and the skill sets to allow a technical 
school like Hudson Valley to gear for the Green Collar Jobs 
Initiative that we have been able to get to the level that we 
have. Without NYSERDA, we would not have been able to pull that 
off.
    Chairman Hinojosa. My area has about 30 percent of its 
population in my congressional district below the national 
poverty level.
    What efforts are being made by your community college to 
recruit a diverse and typically underserved population?
    Mr. Sarubbi. Right now, we have worked closely--I am 
drawing a blank at the name of the organization that we have 
been working with right now, with youth programs that are 
bringing disadvantaged youths to Hudson Valley to help them 
earn their GED. And once they finish that, they can continue on 
with actual skills within the technology----
    Chairman Hinojosa. Could it be HEP-CAMP?
    Mr. Sarubbi. No, it is--Youth Skills of America is the 
actual organization, and we have been working with Albany, 
Schenectady and Troy to do that. They helped us build homes for 
disadvantaged people, too, and--to be able to get us to that 
next level. So that has been successful so far.
    Chairman Hinojosa. I thank you for your responses, and it 
looks like I am running out of time. But I would like to call 
on my colleagues; and we will start out with Paul and see what 
questions he would like to ask.
    Mr. Tonko. Thank you, Mr. Chairman. A question to all of 
you.
    I hear this whole concern with structure and focus. And 
maybe just hearing from each of you, from your varying 
perspectives: If you could structure the best response 
programmatically to the needs of underskilled or those needing 
training in new skills, how would it work?
    I am hearing these regional boards, I am hearing the 
regional concepts, I am hearing an employee service sector, 
training sector to the side, and allowing some of our agencies 
to do more of the routine work.
    What is the best way for--from an industry perspective and 
a governmental perspective and education perspective, what is 
the best way you could structure it? In an ideal sense, what 
would it be in order to really maximize training opportunities?
    Mr. Musolino. There is a lot in that question, Congressman, 
needless to say.
    Mr. Tonko. I am not looking to make enemies.
    Mr. Musolino. I think there are probably two different 
structural issues that we certainly struggle with at the State 
level, both equally important.
    One of the structural issues is the geography of the State. 
New York State is a large State as is Texas--Colorado. So when 
we are thinking about the State, we are thinking in terms of 
various regional economies that exist. And in New York State we 
have placed some bets, as it were, in different areas of the 
State. State policy is invested in photonics in the Rochester 
area, nanotechnology here in Albany, and health sciences, 
biotechnology in the Buffalo area. And trying to create an 
employment and training system that is flexible enough to be 
able to deal with those different regional economies, knowing 
that even though those are target areas, they are not the only 
jobs and industries that exist in those large swaths of the 
State.
    We have 33 local Workforce Investment Boards. It is an 
interesting geographic question whether there should be fewer 
or more. But ultimately the need for on-the-ground, local-level 
input matters a lot. We have to know what the businesses in the 
areas of the State need.
    Mr. Tonko. So do these boards--as established, do they get 
to that issue? Are they the best outreach?
    Mr. Musolino. Some do and some don't, and that is one of 
the issues.
    We have--you are fortunate, you have Gail Breen here who is 
really one of the best in the State. Other areas of the State 
aren't often as sensitive to the needs of the business 
community. They don't have the same level of active business 
participation.
    We have tried to incentivize the Workforce Investment 
Boards from the State by doing regional grants that require 
Workforce Investment Boards to apply as a partner with their 
neighboring Workforce Investment Boards; and we think you get 
more strength from doing that. So there is the local geographic 
area that is tricky to deal with. I think business 
participation is a big help with that.
    The other structural issue that I think is important is how 
we use Workforce Investment Act funds in the State government 
agencies, within the world where there is an awful lot of other 
public money in the system--and, in fact, Workforce Investment 
Act funds are dwarfed by educational funds that come into the 
State--but using this as a coordinating mechanism and as a 
lever to be able to keep our policies unified.
    We have been looking at different ways to deal with 
community colleges in the State. We agree that community 
colleges are a great delivery mechanism, and they are publicly 
funded and they have great penetration across the State. But 
things don't always align so well, so I think you have to deal 
with those structural things in both ways.
    Mr. Tonko. Let me go across quickly--I don't want to go 
beyond my 5 minutes, but I think it is a fundamental question.
    Ms. Breen. I will try go quickly because I see the orange 
light on.
    From the perspective of our own level Workforce Investment 
Board, we have taken the business sector perspective very 
seriously on our board. And if you look at the people to sit on 
our board now, as opposed to the people who were on the board 
in 2000, it is a different board. It reflects the industries, 
health care, manufacturing, distribution centers, service 
industries that are there now that might not have been there 8 
years ago. So we have tried to repopulate the board, looking at 
what do people need locally.
    But beyond that, we have looked at our natural regional 
area. And when I say ``natural,'' it is very difficult to draw 
boundaries in New York State because they don't work for 
everyone. When we look at Fulton, Montgomery and Schoharie, we 
are in the Mohawk Valley region, according to the State; but 
when you look at our commutation patterns and where people go 
to work and school every day, they go east, they do not go 
west.
    Schoharie County has 40 percent of the working population 
leaving the county every day, 70 percent go to the Capital 
Region. Montgomery and Fulton Counties are not far behind that. 
That is why we talk about natural partnerships between our 
regions. And that is why I think that working with Fulton, 
Montgomery and Schoharie, Saratoga-Washington-Warren, the 
Capital Region and Columbia-Greene, we have wonderful 
relationships with community colleges, with industries. That is 
a natural fit for us, and I would like to see that continue.
    Chairman Hinojosa. The gentleman's time has expired.
    Before I call on my colleague from Colorado, Congressman 
Polis, I want to take advantage of something you said, Gail.
    Is it possible for workforce boards like yours to help us 
increase the percentage of the Federal dollars that go towards 
retraining folks who are jobless? The rule of thumb has been in 
our hearings that only 40 percent of every dollar goes towards 
retraining; so it seems to me that the administration and 
profits for the subcontractors is just too high.
    Is it possible to increase that 40 percent? And if so, 
quickly tell me how to do it.
    Ms. Breen. First of all, we have to talk about 40 percent 
of what?
    Chairman Hinojosa. Of a dollar.
    Ms. Breen. Of whatever the dollar is?
    Chairman Hinojosa. Federal money that we send down to you.
    Ms. Breen. I think that we can meet that goal and exceed 
it, if we go back to--the original funding level was 2,000 or 
higher, but at the current funding level--you look at Fulton, 
Montgomery, and Schoharie, we get an allocation of a million 
dollars a year. In 2000, we got an allocation of 2 million a 
years. You can't cut funding like that and expect people to be 
able to keep centers open that are critical for the workforce, 
particularly in rural areas.
    Chairman Hinojosa. Thank you.
    At this time, I would like to call on Congressman Polis 
from Colorado.
    Mr. Polis. Thank you, Mr. Chairman.
    I would like to thank Chairman Hinojosa for helping to 
arrange this hearing today, and Representative Tonko for making 
sure that our colleagues on this subcommittee are aware of the 
best practices here in New York.
    One of the important things for us to take into account as 
we work to reauthorize WIA is regional diversity, and we can 
learn from programs that work in Colorado, New York, and other 
States and try to incorporate and scale best practices; and 
this is a particularly valued hearing for that.
    I would also like to thank the New York Department of 
Education, I served 6 years on the Colorado Department of 
Education and I am jealous of this venue. We would have loved 
to have had such a wonderful venue. I thank the New York 
Department of Education for opening up their building to us.
    My first question is to Ms. Breen. I would like you to 
elaborate on the manner in which you map the needs of the 
private sector to your workforce training programs and how you 
incorporate evaluating trends and making sure that your 
programs are geared towards the growth areas and areas that 
jobs will be needed in.
    Ms. Breen. Excellent question. Not to give too much to 
other organizations and not enough to the actual board, but we 
rely very heavily on New York State Department of Labor, our 
regional analysts, to provide us with the initial information. 
But then we have a business services team that works closely 
with us and our board members to look at what are the declining 
industries, where are the industries expanding?
    And then we look at the dislocated workers, the people who 
are being laid off and do some skills assessment on them, 
because what we are finding, at least in our area, the 
dislocated workers are generally an older population and they 
have fewer skills. They have worked in manufacturing where 
maybe a high school education is the best they have had.
    And in emerging industries and advanced manufacturing, you 
need those STEM skills, you need science, technology, 
engineering, and math to make it work. So how do we get those 
dislocated workers who are older to come back in and take an 
interest in getting the additional skills they need so that 
they will be successful in health care, so they will be 
successful in advanced manufacturing?
    Mr. Polis. Just to follow that up, does your State 
Department of Labor give you regional job things? Is it broken 
out regionally, or is it just a State assessment?
    Ms. Breen. Not only will it break it out regionally, but we 
have regional analysts that will work with us by county. So we 
can look at not just my three-county region, but we have an 11-
county coalition that I talked about before.
    Mr. Polis. Mr. Musolino, first of all, it sounds like you 
provide some excellent information to the regional centers. But 
my question is about the age restrictions, and I am wondering 
if you have any indication of interest of what level of 
interest there is in the 22-to-24-year-old demographic for the 
youth services?
    Mr. Musolino. Well, certainly as we have begun to talk to 
providers around the State--I was in Harlem last week meeting 
with a number of community-based organizations--they see being 
able to deal with the older youth population as pretty critical 
to what they are doing. A lot of kids, young people, dropped 
out of school and maybe aren't thinking about getting back in 
until later on. And so there is anecdotal evidence that they 
think this would be a valuable change.
    Mr. Polis. Mr. Quick, the wind training facility that you 
mentioned, is that strictly a privately run facility or is that 
also a private-public venture?
    Mr. Quick. It is a privately run facility, run by General 
Electric.
    Mr. Polis. And you have public partnerships working with 
the community colleges?
    Mr. Quick. Yes.
    As a matter of fact, in the example with Hudson Valley 
Community College with our machinist apprentice program, 
certainly one of those kind of private and public partnerships 
that have happened.
    You know, as we look and continue to expand in the wind 
industry, I would expect with the Workforce Investment Boards 
and the demand for green collar jobs that it is only going to 
increase, the partnership that is going to be needed in our 
wind facility with the local community colleges and educational 
institutions.
    Mr. Polis. Do these public-private partnerships, like with 
the community college, help justify your corporation to have 
this wind training facility?
    Mr. Quick. I believe so. In order for us to meet certainly 
the demand of our customers who are requiring our wind 
turbines, we have to make certain that we have not only our own 
skilled employees, but the customers having to skill their own 
employees as well.
    Coming to General Electric in our facilities in concert 
with local communities here from an educational perspective, or 
community colleges around the country, I think is the way to 
go, quite frankly.
    Mr. Polis. Thank you.
    Chairman Hinojosa. We have time for a second round of 
questions, and I would like to start that second round and 
continue with the line of thinking of Congressman Polis. My 
question is to Tom Quick.
    There is a lack of skilled labor, and you said that that 
was a major obstacle to the expansion of the wind industry. 
But--obviously it may be easier to work with college graduates, 
but what contributions should come from the high schools, the 
community colleges, and technical schools so that we can help 
those jobless individuals get a job?
    Mr. Quick. Well, I believe it is a critical component, 
Congressman. I think that, you know, it is the folks with the 
2-year associate degrees in a technical discipline that will be 
the wind turbine technicians that we will need going forward, 
not necessarily the 4-year degreed individual.
    I think that the Workforce Investment Act needs to consider 
where it spends its money. If it spends its money across all 
community colleges or technical colleges across the U.S., it 
may not getting it biggest bang for the dollars spent. I think 
current educational institutions that already have a technical 
degree program are probably best prepared at this point in time 
to augment that program with training that would be involved in 
the renewables industry.
    Chairman Hinojosa. I want to say that we in Texas have some 
regions along the Gulf of Mexico that are ideal for setting up 
windmills. And I think that Kleberg County and Refugio County 
and those areas there are, as we speak, some of those windmills 
being put up. We have some technical colleges in Harlingen, 
South Texas Technical College, that would be ideal after 
listening to your answer.
    How would they be able to partner with you here in Albany 
so that they could get that 2-year associate degree program for 
this specific trait?
    Mr. Quick. Thinking about that specific location, 
Congressman, I think the question would be, what would be one 
of our customers who would want to take that area of the 
country where the wind is blowing and like to create a wind 
farm? Once that potential customer is identified, obviously not 
only are they purchasing our wind turbines, but they have staff 
and skill their own wind technicians to be able to stay on 
these wind farms. There becomes the local labor connected with 
the local community colleges and where our wind training 
facility can help train those specific employees to return back 
to Texas to really have a career, quite frankly, in that wind 
farm.
    Chairman Hinojosa. I will put their president in contact 
with you and see if we can take advantage of that offer.
    My next question would be to the last presenter, and 
Nanine, you mentioned that local one-stop centers are ill-
equipped to help jobless workers get through the overburdened 
application system. How can we get more cooperation from all of 
the workforce training partners to expedite services during 
this period of severe national unemployment problems where our 
Nation's jobless rate is over 8 percent?
    Ms. Meiklejohn. Well, it is not an easy answer.
    Before WIA was established, the employment service and the 
unemployment insurance workforce sat in the same location and 
often were cross-trained so that they could do each other's 
jobs; and when the economy changed, they could be shifted 
around to meet the existing need.
    Now, there are a couple of States that have actually 
started to make an effort to get their employment service 
staff, who are sitting in the local one-stop offices now, to 
help process unemployment claims again as workers come into 
those local offices. At the moment, most one-stop centers only 
have a telephone link to the UI call center, but both 
Connecticut and, now, Ohio are moving to shift some of their 
employment staff who are sitting there over to doing UI claims 
again.
    So they are trying to knit back together a connection that 
has frayed very badly over the last 8 years or so.
    I wanted, if I might, just to supplement what some of the 
other panelists have said about training and partnerships and 
sectoral initiatives. And I would like to call your attention 
to a program that our affiliate in Philadelphia, 1199 C, has 
had actually for 35 years.
    It is a very strong partnership with hospital employers in 
the Philadelphia area. There are over 40 employers in that 
partnership, and it is a labor-management partnership which 
brings--they train--half of the people that they bring into the 
training program are from the local low-income communities and 
half are incumbent workers in the health care sector; and they 
have created career pathways so that they can move people who 
are unemployed and unskilled into jobs and move them up.
    They have trained about 1,300 workers in the last year. And 
they also partner with the Philadelphia school board and Youth 
Build and the Philadelphia Youth Network. It is a very 
expansive program which also receives WIA funding from the 
State. So it is a really good model for a sectoral partnership 
approach which involves strong participation by the local 
union.
    And I just want to also make the observation that WIA--one 
of the, I think, unfortunate effects of WIA was that the role 
of organized labor was sidelined pretty significantly by the 
law and the extent to which it exists in local programs now is 
very hit or miss.
    Chairman Hinojosa. I like your recommendation, and after we 
close this session, I would like to talk to you a little bit 
more. Because we have a program in McAllen, Texas, that has 
been very successful in increasing the number of students that 
were underemployed and then trained in an associate degree 
program that is allied health and nursing that has been very 
successful. But we need to increase it even more, so I would 
like it talk to you.
    With that, I yield to Congressman Paul Tonko.
    Mr. Tonko. Thank you, Mr. Chair.
    Joe Sarubbi, you mentioned that there are some challenges 
in the administrative complexities in your testimony that 
relate to the alignment of training programs. Can you just 
elaborate on that, please?
    Mr. Sarubbi. Again, when you look at the great job that the 
Department of Labor is doing as far as pulling together 
statistics and what is happening with the Workforce Investment 
Board, sometimes there is a disconnect when it gets to the 
level of the training, you know, within, for example, at a 
community college, of kind of pulling that all together.
    I don't believe we have enough business representation 
involved with this creating that consortium of companies with 
the Department of Labor, with Workforce Investment Boards and 
community colleges together to figure out the best way to get 
this training off the ground.
    When I see students come to Hudson Valley, it is a daunting 
task for most of them to be able to say, if I am a 40- or 50-
year-old person who has been laid off, ``I need to be 
retrained; how do we make this happen?'' And they are brought 
to Hudson Valley or any community college; we are trying to 
give them the best services. What we need is a stronger 
connection between the Department of Labor and the Workforce 
Investment Boards and the colleges to make that happen, so that 
we can be more successful with these students. I am starting to 
see that kind of disconnect right now.
    Mr. Tonko. Is there something in the reauthorization of the 
act that you would recommend to this panel? Would there be a 
specific improvement that would be required?
    Mr. Sarubbi. I would like to see more employers invested in 
some type of consortium that involves the Workforce Investment 
Act that would allow employers to help us--working with the 
Department of Labor and Workforce Investment Boards, help us 
understand their employment needs and how they could also 
participate in this particular process, whether it is on-the-
job training or supporting students who are coming out of high 
school who need to get to that next level, displaced workers, 
and/or the returning veterans.
    If it is incentivized in a way that employers are willing 
to take on these types of candidates in a way that would allow 
them to grow within the job, I think we would have a strong 
chance for them to succeed within the program while they are 
gaining their training. So I see a stronger connection bringing 
some of the employers into this act to make it happen more 
successfully.
    Mr. Tonko. And, Tom, when you talk about the 500,000 
projected jobs by the Department of Energy----
    Mr. Quick. Right.
    Mr. Tonko [continuing]. In the wind industry?
    Mr. Quick. Correct.
    Mr. Tonko. I am going to make an assumption here that if an 
underskilled, displaced worker or a student who comes to you 
wants this training, might have an interest in an across-the-
board renewable opportunity, are we at risk of maybe siloing 
what we train someone for?
    Is there a way, once you capture that individual, to 
provide PV training, the geothermal and wind? Is there an 
across-the-board introduction, or do we channel that into the 
site operators or wind technicians?
    Mr. Quick. That is a good question. I think that there is 
certainly a unique skill set for each part of the renewable 
industry. It would be nice if one brush touches everyone who 
had an interest in a career in the renewable industry.
    I think there is a need to go deep inside of these 
technical skill sets. Someone, for example, who goes deep with 
the skills to be a wind technician may not be necessarily 
trained to immediately go in and set up a solar farm. That is a 
different type of a skill set.
    I think we have got to work in concert with private 
employers, with the Federal Government, and the educational 
institutes to watch as we move forward with the Department of 
Energy goal of 2030 to have 20 percent of electricity be wind 
power, to determine where best do we need to train the workers 
of tomorrow.
    Mr. Tonko. Does the training focus come through your 
training program that you described, or do you reach to a 
program like Gail's that might have that traditional regional 
aspect going, or to Nanine, where she might be able to provide 
for, like, what use is there of apprenticeship programs for the 
labor community?
    Mr. Quick. I think you can really touch, quite frankly, all 
three. We can sort of hire students who have gone through the 
community college or technical colleges immediately to be 
placed, for example, around the U.S. on wind farms.
    But I think we can take that student, bring them then to 
our wind training facility and train them specifically on 
General Electric wind turbines so that they are in the best 
position, quite frankly, to service our own manufactured wind 
turbines across the U.S.
    Mr. Tonko. Does anyone else on the panel have a response to 
that? Anything you would add?
    Mr. Musolino. I have a quick point I would make.
    At the department we are actually trying to deconstruct 
various jobs in the green area now to understand what the 
common skill sets might be. Because a lot of what we have to 
think about in WIA and all the training programs is really 
about career ladders. And you might bring a young person in or 
someone in with maybe not a high school education, maybe just a 
GED, to start thinking about things like weatherization, which 
is a fairly low level of skill. It requires some training, 
short training courses, 40 hours to be able to do the building 
envelope analysis.
    But we would like to see how you move people up to higher 
and higher skill levels, so they get more family-sustaining 
wages and a better career path for that. We are doing that work 
at the department now, and we are seeing that there are cross-
skill sets that we will be able to deal with.
    Mr. Tonko. Do I still have time, Mr. Chairman?
    With the concern for resources, that a couple of you have 
made mention of, and the fact that the 2000 level is double 
what you are working on right now, when you have that sort of 
economic fiscal pressure, what gives?
    Do you serve fewer people? Do you have less intense 
training? Just how do you absorb that sort of shortfall?
    Ms. Breen. I will take that one from a local level.
    What we looked at, because obviously when you lose 50 
percent of your funding, you are losing a tremendous amount of 
money. Being three rural counties and people not have having 
the computer skills that they might need to access our programs 
by computers, the first decision we made that was that we need 
to have a center in every county, and that was reinforced by 
chief elected officials that said, You can do anything you 
want, but don't take my resource room away from me.
    After that, we looked at staffing. How much staffing could 
we lose and still provide quality services? And again that goes 
back to having an integrated service delivery system. If we had 
to rely on just WIA staff or just employment service staff or 
just VocRehab staff, we would never be able to continue to 
operate our programs, but by having integrated services 
delivery with functional supervision of those teams we have 
done very, very well.
    When you get down to the training aspect, you want to 
continue to train at least at many people as you did before, if 
not more. What that means then is, you have to train people for 
shorter periods of time for lower level jobs. Where for years 
we trained registered nurses, we have gone back to LPNs and 
certified nurse assistants. Even a certified nurse assistant 
still makes more money than an entry level wage than our actual 
average level wage across the three counties.
    Another thing we have started to do is going to the 
community colleges and look at student who are in their second 
year, who in trouble financially and might not be able to 
complete the radiology technology programs, the 
histotechnology, the RN, and bring them in and serve them too. 
We don't serve less people; in fact, we serve more. But we 
serve them with newer resources, and it means that we have to 
serve at a different level.
    Mr. Tonko. And for a facility like yourself, if someone has 
an interest or finds that their makeup perhaps is such that 
they are suited for a green collar opportunity, would you then 
integrate them into a program like that at Hudson Valley?
    Ms. Breen. Absolutely. And Fulton-Montgomery Community 
College is currently working with HVCC in conjunction with 
them. They might start out at FMCC.
    Absolutely, we are looking at green jobs not just for 
dislocated workers, but also for young people coming out of 
high school or our GED programs. And we have GED programs in 
each of our three counties and we have a pass rate of over 80 
percent for our students.
    Chairman Hinojosa. The gentleman's time has expired.
    We are about to bring this to a closing, and I wanted to 
ask the gentleman from Colorado, Congressman Jared Polis, if he 
would like to have any closing remarks.
    Mr. Polis. Yes, thank you. Closing remarks or questions for 
the panel, as well?
    Chairman Hinojosa. I will allow you to ask one or two 
questions, then a closing remark.
    Mr. Polis. Thank you, Mr. Chairman.
    A question for Mr. Sarubbi: What efforts are being made by 
your institution to recruit and remain a diverse and typically 
underserved population, including women, in nontraditional 
fields and minorities?
    Mr. Sarubbi. That is a great question. We have reached out 
into the inner cities. We have traveled to--faculty have 
traveled even towards New York City, trying to attract inner 
city youth about the value of technology programs.
    Again, working with Youth Build programs, trying to get 
students who are disadvantaged or are struggling just to finish 
high school right now, we brought them to Hudson Valley 
Community College. We actually get them through special program 
that allows them to finish their GED and, while doing that, 
pick up real trade technical skills in a construction industry. 
And we have employers who are happy to pick them up.
    We are reaching out to the female population as well. We 
are starting to see an increase in the number of women in our 
program, so much so that we highlight them on our marketing 
materials to attract more women; and we move those publications 
towards places where you would see more women actually interact 
with those types of publications with the idea of attracting 
females in that regard. And it has been successful so far.
    Typically, most of the construction industries, as we know, 
has been nontraditional for females, but we are doing our best 
to try to publicize that as much as possible.
    Mr. Polis. Thank you.
    Final question for Mr. Musolino: Your State requires the 33 
WIB boards to apply for regional, sector-based partnership 
grants. My question is, are all of them participating and do 
you recommend this model for consideration on a national basis?
    Mr. Musolino. All of them are not participating. Those are 
optional. That is additional funding that they can apply for.
    I believe we have nine that have received those grants, 
nine consortia across the State. Not all Workforce Investment 
Boards are involved in it.
    We do highly recommend it. It is a way to use incentive 
dollars to get people to think in regional terms and cooperate 
across our traditional Workforce Investment Board lots.
    Mr. Polis. I would like to thank Mr. Tonko, in particular, 
for helping to arrange this hearing, as well as highlighting 
some of the wonderful work that upstate New York is doing in 
this area that will help inform our own discussions as we work 
towards the reauthorization of WIA. And again I express my 
gratitude to Chairman Hinojosa for his efforts in leading the 
WIA reauthorization efforts and making sure that we learn from 
best practices across the country.
    In my district, as well, there are many green collar jobs. 
In addition to wind, we also have solar--a strong solar 
industry. In fact, some of the turbines that Mr. Quick's lab 
teaches people to use were tested in my district at the wind 
farm of the National Renewable Energy Laboratory in Golden, 
where they apply stress testing to wind turbines to see how 
they will hold up over time, usually at the prototype stage 
before they are rolled out.
    Due to the excellent geophysical characteristics for solar 
power in Colorado, we have also had tremendous growth in that 
area, including both distributed solar installations on homes 
as well as primary and applied research and development, some 
of which is related to the Federal lab, the National Renewable 
Energy Laboratory, others which now occur in the private 
sector.
    The testimony that you have given today will help all of us 
on our committee, both those of us who are here and those of 
who us can read the written testimony back in Washington, to 
better formulate a national WIA Act that will truly take into 
account our regional differences, as well as best practices 
nationally, including some of the wonderful accomplishments you 
have had here in upstate New York.
    Thank you.
    Chairman Hinojosa. Now I would like to ask our host, 
Congressman Tonko, if you would like to make any closing 
remarks.
    Mr. Tonko. Thank you, Chair.
    Certainly, I thank all of you for the focus that you 
provide with the essential work that is done in training the 
workforce of the future.
    But an added thank you, and probably the most sincere I can 
offer, is for the hope that you provide to individual workers 
and their families. The despair of not having work opportunity 
and the opportunity that you provide for individuals to know 
that they have these capabilities and can develop even more is 
a great bit of hope that you can instill, and I thank you for 
that.
    What I take from this is the need to continue to provide, 
somehow with the reauthorization, enhanced flexibility so that 
you can have that opportunity to strike those regional 
strategies or partnerships that will best get the dollars to 
most effective use.
    And then the collaboration--if you can advise us into the 
future, as we work on this mission, to best understand how we 
can strike that collaboration amongst the States, working with 
the Federal dollars, in our academic settings, our community 
colleges and others, the apprenticeship programs and the 
private sector needs and the private investments that are being 
made--if we can strike a strongest bit of collaboration there, 
with your guidance, it would be most useful.
    And then I heard the message clearly about resources, and 
whether we are dealing with the appropriators or the 
authorizers, it is the amount of money that you have to invest 
locally that is most telling. And to be able to address that in 
meaningful measure, as we did in a down payment in the stimulus 
package, certainly should be our goal.
    So I thank you for your advice and the sage wisdom you have 
imparted.
    Chairman Hinojosa. As I come to my concluding remarks I 
want to say that the American Recovery and Reinvestment Act 
signed in mid-February by our President Obama included over $4 
billion in funding for WIA programs; and now that the stimulus 
plan has been approved with the $787 billion, it is our 
responsibility to bring all the stakeholders who can work 
together in different programs and take advantage of this 
Federal investment to create jobs, good-paying jobs.
    And so I want to say that, once again, I would like to 
thank the witnesses and the members of the subcommittee for a 
very informative session. As previously ordered, members will 
have 14 days to submit additional materials for the hearing 
record. Any member who wishes to submit follow-up questions in 
writing to these witnesses should coordinate with our majority 
staff within the requisite time.
    And without objection, this hearing is adjourned. Thank 
you.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]


 NEW INNOVATIONS AND BEST PRACTICES UNDER THE WORKFORCE INVESTMENT ACT

                              ----------                              


                          Tuesday, May 5, 2009

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                Lifelong Learning, and Competitiveness,

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:12 a.m., in 
room 2175, Rayburn, Hon. Ruben Hinojosa [chairman of the 
subcommittee] presiding.
    Present: Representatives Hinojosa, Bishop, Tonko, Titus, 
Andrews, Tierney, Wu, Davis, Fudge, Polis, Pierluisi, Guthrie, 
McKeon, Castle, Ehlers, Biggert, and Roe.
    Staff Present: Tylease Alli, Hearing Clerk; Alice Cain, 
Senior Education Policy Advisor (K-12); Fran-Victoria Cox, 
Staff Attorney; Adrienne Dunbar, Education Policy Advisor; 
David Hartzler, Systems Administrator; Jessica Kahanek, Press 
Assistant; Mike Kruger, Online Outreach Specialist; Ricardo 
Martinez, Policy Advisor, Subcommittee on Higher Education, 
Lifelong Learning, and Competitiveness; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Melissa Salmanowitz, Press 
Secretary; Margaret Young, Staff Assistant, Education; 
Stephanie Arras, Minority Legislative Assistant; Robert Borden, 
Minority General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Chad Miller, Minority Professional 
Staff; Susan Ross, Minority Director of Education and Human 
Services Policy; Linda Stevens, Minority Chief Clerk/Assistant 
to the General Counsel; and Sally Stroup, Minority Staff 
Director.
    Chairman Hinojosa. A quorum is present. The hearing of the 
committee will come to order.
    Pursuant to the committee rules, any member may submit an 
opening statement in writing, which will be made part of the 
permanent record; And I will recognize myself, followed by the 
ranking member, Congressman Brett Guthrie, for an opening 
statement.
    Welcome to the Higher Education, Lifelong Learning, and 
Competitiveness Subcommittee's fourth congressional hearing in 
preparation for the reauthorization of the Workforce Investment 
Act, better known as WIA. As with our previous hearings, we are 
going to focus on new innovations and best practices that will 
improve the workforce development system. Today, we will turn 
our attention to the adult education and family literacy 
programs that are authorized under Title II of the Act.
    We are facing the greatest world economic crisis since the 
Great Depression. We need to retool our economy, and that 
starts with investing in our people. The President made clear 
his commitment when he set the goal of returning the United 
States to number one in the world in producing college 
graduates. He also issued a challenge to every American to 
commit to at least 1 year of college or advanced training.
    Adult education programs provide us the bridge to achieving 
the President's goals. Unfortunately, today, this bridge does 
not have the capacity to do the job. According to the national 
assessment of adult literacy, an estimated 93 million adults 
lack sufficient literacy skills to enroll in postsecondary 
education or training.
    Funding for adult education has actually declined. Today, 
the adult education State grant program is funded at $554 
million, roughly $20 million less than the funding level for 
fiscal year 2004. These low levels of funding mean that we are 
only able to reach an estimated 2 to 4 percent of the 
population that needs adult education services.
    In 2008, 2.3 million adults participated in federally 
supported education programs. Of this total, roughly 1 million 
participated in English as a second language programs. Nearly 
another million enrolled in basic education programs for adults 
with reading and math levels below the 8th grade, and the rest 
were enrolled in secondary education programs that lead to a 
GED.
    The adult education programs have also played a critical 
role in helping adult immigrants learn English and learn about 
American society and American government. $68 million of the 
adult State grant formula is dedicated to integrated English as 
a second language and civics programs.
    There are long wait lists for all of the adult education 
services. Our challenge for the reauthorization of the 
Workforce Investment Act is to develop innovative models that 
will significantly expand our capacity to deliver adult 
education. We need to fully develop the talents of our entire 
population. We cannot afford to write off the other 93 million 
adults. Therefore, we need a targeted, we need a focused 
strategy to build a bridge to postsecondary education advanced 
training and a better quality of life for adults.
    This is where you panelists come in. We want to hear from 
you, your recommendations and how we can make this a 
reauthorization act that is going to take us the next 6 years 
and get over this economic crisis and put more people to work.
    Today's panel brings together experts in the field of adult 
education, including the most important experts of all, adult 
learners who have been able to achieve their goals through 
adult education programs. I would like to thank you witnesses 
for joining us today. I am looking forward to your testimony.
    And now I yield to the ranking member, my friend 
Congressman Brett Guthrie of Kentucky, for his opening 
statement.
    [The statement of Mr. Hinojosa follows:]

 Prepared Statement of Hon. Ruben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelong Learning, and Competitiveness

    Good Morning. Welcome to the Higher Education, Lifelong Learning, 
and Competitiveness Subcommittee's fourth hearing in preparation for 
the reauthorization of the Workforce Investment Act. As with our 
previous hearings, we are going to focus on new innovations and best 
practices that will improve the workforce development system. Today, we 
will turn our attention to the adult education and family literacy 
programs that are authorized under Title II of the Act.
    We are facing the greatest world economic crisis since the Great 
Depression. We need to re-tool our economy and that starts with 
investing in our people. The President made clear his commitment when 
he set the goal of returning the United States to number one in the 
world in producing college graduates. He also issued a challenge to 
every American to commit to at least one year of college or advanced 
training.
    Adult education programs provide us the bridge to achieving the 
President's goals. Unfortunately, today, this bridge does not have the 
capacity to do the job. According to the National Assessment of Adult 
Literacy, an estimated 93 million adults lack sufficient literacy 
skills to enroll in postsecondary education or training.
    Funding for adult education has actually declined. Today, the adult 
education state grant program is funded at $554 million, roughly $20 
million less than funding level for fiscal year 2004. These low levels 
of funding mean that we are only able to reach an estimated 2 to 4 
percent of the population that needs adult education services.
    In 2008, 2.3 million adults participated in federally supported 
adult education programs. Of this total, roughly 1 million participated 
in English as a second language programs; nearly another million 
enrolled in basic education programs for adults with reading and math 
levels below the eighth grade; and the rest were enrolled in secondary 
education programs that lead to a GED. The adult education programs 
have also played a critical role in helping adult immigrants learn 
English and learn about American society and government. $68 million of 
the adult state grant formula is dedicated to integrated English as a 
second language and civics programs. There are long wait lists for all 
of the adult education services.
    Our challenge for the reauthorization of the Workforce Investment 
Act is to develop innovative models that will significantly expand our 
capacity to deliver adult education. We need to fully develop the 
talents of our entire population. We cannot afford to write off 93 
million adults. Therefore, we need a targeted and focused strategy to 
build a bridge to postsecondary education, advanced training and a 
better quality of life for adults.
    Today's panel brings together experts in the field of adult 
education--including the most important experts of all--adult learners 
who have been able to achieve their goals through adult education 
programs. I would like to thank you witnesses for joining us today. I 
am looking forward to your testimony.
    I now yield to the Ranking Member, Mr. Brett Guthrie of Kentucky, 
for his opening statement.
                                 ______
                                 
    Mr. Guthrie. Thank you, Mr. Chairman, for calling this 
hearing; and I welcome our distinguished witnesses, a great 
Kentucky company here with us today, founded right near my 
district.
    Our country continues to face tough economic challenges. We 
face complex and difficult problems as we work to restore 
economic growth. Investing in our workforce is important to 
ensure that workers are adequately prepared to meet the 
changing demands of our economy. With proper investment, our 
workforce can be strengthened and maintain its competitive 
advantage.
    When I first began in politics, I was running for the State 
legislature in Kentucky and in the State Senate, and people 
talked to me. What are you focused on? K-12? Secondary? Adult? 
I said, really, it is K-R, kindergarten through retirement. It 
became my mantra.
    And several witnesses here that fit the mold is that some 
people were not educated at the level they should have been 
when they were younger and need education to get back in the 
workforce. Because it is difficult to work without it. My 
father went to work for Ford Motor Company, thought he would 
work there until he retired. They shut the plant down, and he 
had use his education to become a businessperson to find a job 
for himself. And there are people who are working within 
companies that see other opportunities and need to continue to 
move forward.
    Another thing I learned in Kentucky, we had a lot of people 
that were functionally illiterate and then illiterate 
completely and worked on those issues because you couldn't even 
read a menu or a book to their grandchild. And we created 
programs to get them into the system for higher education.
    So it is an important thing that we are doing here, and our 
economy depends on it. For us to have opportunities for people 
absolutely depends on what we are doing on this committee, and 
what you are sharing with us is going to help us do a better 
job because of your life stories. We have some great life 
stories. I am familiar with one, just being a fan; and I know 
what your companies are doing with others.
    Today, there are 5,000 federally sponsored adult education 
centers across the country; and these centers are located in 
schools, community centers, libraries, public housing, 
community colleges, and volunteer organizations. In Kentucky, 
Dollar General is one that we are working with in some 
counties, because we realized people weren't going to school 
because they had bad experience in a school. So let us go find 
them where they are. And Dollar General has been a great, great 
partner with us in moving forward with that.
    And as we work to improve the Adult Education Family 
Literacy Act of this Workforce Investment Act, we must remain 
focused on improving the quality of instruction, promoting the 
use of technologies, encouraging the business community to 
invest. I look forward to today's testimony and learning more 
of the best practices and innovative ideas around the country 
as we work to improve the Workforce Investment Act.
    Again, thank you all for coming to Washington today. It is 
going to be great and informative, and I appreciate the 
chairman calling this meeting, and I yield back.
    [The statement of Mr. Guthrie follows:]

  Prepared Statement of Hon. Brett Guthrie, Ranking Minority Member, 
 Subcommittee on Higher Education, Lifelong Learning, and Competiveness

    Thank you, Mr. Chairman, for calling this hearing and I welcome our 
distinguished witnesses.
    Our country continues to face tough economic challenges. We face 
complex and difficult problems as we work to restore economic growth. 
Investing in our workforce is important to ensure that workers are 
adequately prepared to meet the changing demands of our economy. With 
the proper investment, our workforce can be strengthened and maintain 
its competitive advantage.
    Education, including adult education and family literacy programs, 
will be a critical component of ensuring that individuals have the 
basic skills needed to move up the economic ladder to better paying 
jobs or a higher education.
    Today, there are some 5,000 federally-sponsored adult education 
centers across the country. These centers are located in schools, 
community centers, libraries, public housing, community colleges, and 
volunteer organizations, both public and private, for-profit and non-
profit.
    As we work to improve the Adult Education and Family Literacy Act 
of the Workforce Investment Act, we must remain focused on improving 
the quality of instruction, promoting the use of new technologies, and 
encouraging the business community to co-invest in the skills of the 
local workforce.
    I look forward to today's testimony and learning more of the best 
practices and innovative ideas from around the country as we work to 
improve this aspect of the Workforce Investment Act.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    Without objection, all members will have 14 days to submit 
additional materials or additional questions for the hearing 
record.
    Before we start, I want to talk a little bit about the 
lighting system that we use for our congressional hearing. For 
those of you who have not testified before this subcommittee, 
please let me explain that lighting system and the 5-minute 
rule. Everyone, including Members of Congress, are limited to 5 
minutes of presentation or questioning.
    The green light is illuminated when you begin to speak. 
When you see the yellow light, it means you have 1 minute 
remaining. When you see the red light, it means your time has 
expired and you need to conclude your testimony.
    Please be certain as you testify to turn on and speak into 
the microphone in front of you.
    We will now hear from our first witness, and I wish to 
recognize Representative Phil Roe of Tennessee to make our 
first introduction. Congressman.
    Mr. Roe. I thank the chairman for yielding.
    I would like to take this time to introduce a fellow 
Tennessean to the committee, Ms. Gretchen Wilson. Ms. Wilson is 
a multi-platinum recording country music singer and songwriter. 
Her work has won numerous awards, including Female Vocalist of 
the Year from both the Country Music Association and the 
Academy of Country Music and the Grammy Award for the best 
female country vocal performance. Right before this briefing, 
members of the Tennessee delegation heard firsthand about Ms. 
Wilson's passion for promoting and improving adult education.
    Until last year, like so many Americans, she hadn't 
completed her high school education. As she told us, it was 
important for her to earn her diploma, not only for herself but 
to show her 8-year-old daughter the importance of education. At 
the age of 34, she received her GED on May 15, 2008, through 
the Adult Learning Center of Wilson County in Lebanon, 
Tennessee. We are not sure they didn't name the county after 
her, too.
    This perseverance helped make her a role model, and I am 
pleased she chose to come to Washington to share her 
experiences and insight to create a stronger adult education 
system. She is very busy. She didn't have time to--did take the 
time, due to a very busy and hectic schedule, to do this; and 
we appreciate you spending your valuable time and passion with 
us today. You are making a difference. Welcome to this 
committee.
    Mr. Chairman, I yield back.
    Chairman Hinojosa. Thank you very much for your 
introduction.
    The next person I wish to introduce is Mr. Marty 
Finsterbusch. Marty was appointed VALUE's first Executive 
Director in 2001. VALUE is the only national nonprofit adult 
literacy organization in the United States governed and 
operated by current and former literacy students.
    Since 2000, Marty has served on Pennsylvania's Adult Basic 
and Literacy Education Interagency Coordinating Council, having 
been appointed by three different governors. During his 
National Institute for Literacy Fellowship in 2000, Marty 
studied adult learner involvement in all 50 States. He has also 
served on the governing boards of several national and State 
organizations, including SCALE, including Laubach Literacy 
Action, which became ProLiteracy, and has also served on 
Pennsylvania's State Coalition for Literacy. Welcome.
    The next person will be Mr. David Bere, who is President 
and Chief Strategy Officer of Dollar General. David joined the 
company in December, 2006, after serving as a Director since 
2002. Bere served from December of 2003 until June 2005 as the 
Corporate Vice President of Ralcorp Holdings, Incorporated and 
as the President and CEO of Bakery Chef, Incorporated. From 
1996 to 1998, Bere served as President and CEO of McCain Foods, 
U.S.A., a manufacturer and marketer of frozen foods and a 
subsidiary of McCain Foods Limited. He spent 17 years at the 
Quaker Oats Company, where he served as the President of the 
Breakfast Division and the Golden Grain Division. In 1983, he 
was appointed White House Fellow by President Ronald Reagan. 
Bere earned both his bachelor degree and his master's of 
business administration degree from Indiana University, and we 
welcome you.
    Ms. Kathy Cooper serves as Policy Associate for the Adult 
Basic Education Office, Washington State Board for Community 
and Technical Colleges, with an emphasis on external 
relationships and new initiatives. She provides primary support 
to the State's governor-appointed Advisory Council and has 
served as a member of the subcabinet team that implemented 
welfare reform. She acts as one of the leaders in developing 
the integrated basic skills and professional technical 
instructional model known as I-BEST.
    Kathy started her career in education as a middle school 
reading specialist in the State of Idaho. During her tenure, 
she became department head at her school and eventually the 
coordinator of secondary reading services for that district.
    Mr. Stephen Reder is a university professor and chairman of 
the Department of Applied Linguistics at Portland State 
University. Dr. Reder's interests focus on adult education and 
literacy and language development during adulthood. He was the 
principal investigator of two recently completed major projects 
in adult education, the National Lab Site for Adult ESOL and 
the Longitudinal Study of Adult Learning, which followed a 
random sample of about 1,000 high school dropouts for nearly 10 
years, focusing on the way youths and adults failed or succeed 
in reconnecting with learning, education, and work. A new 
project directed by Dr. Reder is applying the findings of this 
study to design an innovative learning support system called 
the Learner Web.
    Professor Reder is the author of numerous publications 
about adult literacy, including the forthcoming book, Dropping 
Out and Moving on: Life, Literacy and Development Among School 
Dropouts, which will be published by Harvard University Press.
    Also with us is Ms. Donna Kinerney. She is the 
Instructional Dean for Adult ESOL and Literacy Programs, the 
workforce development and continuing education unit for 
Montgomery College. As Instructional Dean, Dr. Kinerney 
provides administrative and instructional leadership for grant-
funded adult educational programs, including the Adult ESOL and 
Literacy GED Program and Refugee Training Program, which serve 
approximately 12,000 learners in need of English language or 
literacy skills development per year.
    Dr. Kinerney serves on the board of the Maryland 
Association for Adult Community and Continuing Education and 
was the chairwoman of the adult education interest section for 
Teachers of English to Speakers of Other Languages.
    Also with us is Roberta Lanterman. Ms. Lanterman has been 
working in the field of family literacy for over 15 years and 
currently serves as Director of the Long Beach Family Literacy 
Program in the Long Beach Unified School District. She also 
serves as the Southern California training coordinator for the 
McDonald's Family Mealtime Literacy Nights.
    Ms. Lanterman has a bachelor's degree from the University 
of California at Santa Barbara, a California multiple subject 
teaching credential, and she is a certified trainer for the 
National Center for Family Literacy.
    I welcome each and every one of you, and I look forward to 
your testimony.
    At this time, we are ready to start with Ms. Wilson.

 STATEMENT OF GRETCHEN WILSON, GRAMMY WINNING RECORDING ARTIST 
                        AND GED GRADUATE

    Ms. Wilson. My name is Gretchen Wilson. I came here today 
to share my story of what adult education has meant to me and 
to my family.
    I, like many other young children, Americans, lived in a 
household that was sort of volatile, wasn't the kind of place 
where I really wanted to be or that my mother wanted me to be, 
either. And at a young age, 14, my mother helped me to sign out 
of school, and I moved out on to my own and started to support 
myself. And I think what happens with a lot of young people is 
that life just starts, and it takes over, and education gets 
put on a back burner. You have to start worrying about more 
adult things, like paying your bills and where your next meal 
is going to come from. So I think that happens to a lot of 
young people, as it did with me.
    Life kind of got away from me, and I found myself in my 20s 
uneducated and still not sure if this incredible dream that I 
was chasing was ever going to come true. I was one of the lucky 
ones, and the impossible did happen for me. I am incredibly 
lucky, living a life that most people can only dream of.
    I am a single mother of a beautiful child, and I also have 
a musical career. But I found myself in my early 30s still 
missing something, still feeling like there was a piece of me 
that I had not completed. The first time I thought about going 
back and getting my GED was almost immediately. And I feel like 
that a lot of people feel that they would like to go back and 
do something more, but it is not there for them. It is not easy 
to find. It is not financially feasible.
    In fact, if this dream hadn't happened for me, I don't 
think I would have been able to go back and afford to finish my 
education. This was something that I didn't have to do, but I 
did for myself, for my daughter, for my family. I feel that I 
am a better mother, a better person, a better human and a 
better American because of this education. And I hope and I am 
here to help other people's dreams come true, and hopefully we 
can make other people feel as complete as I do.
    Thank you.
    Chairman Hinojosa. Thank you.
    [The statement of Ms. Wilson follows:]

Prepared Statement of Gretchen Wilson, Grammy Winning Recording Artist, 
                              GED Graduate

    Hi. My name is Gretchen Wilson, and I'm here to tell you about how 
important the adult education program has been to me.
    I was one of many teenagers who was forced to leave home and school 
at a very young age. And for most people, education takes a back seat 
to work and financial commitment almost immediately. I know this 
because I was one of those people. I struggled financially until I was 
almost thirty years old, and the impossible dream came true. I became a 
mommy * * * and a major recording artist for Sony Records. After having 
been blessed with a life that most people only dream of, there was 
still something missing, a piece of me that was incomplete. I chose to 
continue my education not only for myself, but also for my daughter, 
Grace. She's in second grade now, and she's getting ready to start 
doing long division.
    I realized that, as she got older, I would have to address 
important issues with her, including the educational needs that had not 
been met in my own life. I knew that she would be curious about things 
that I valued, such as an education, and that she would ask me probing 
questions like, if school is that important, then why didn't you 
graduate? I also knew that she would need to ask me to help her with 
much more difficult math problems than long division, and I wanted to 
be ready to meet the challenge. I wanted to set a good example for her. 
I was determined to complete my high school education by finding a 
local adult education program and earning a GED, and I am proud to 
stand before you today and say that I did. I'm not only blessed, but 
also relieved that I'll be able to help her with her homework next 
year.
    Going back to school was an eye-opener for me in many ways. After 
talking with others who had gone back to school, I realized that I was 
only one person out of many people in need of a GED credential. Not 
only was I among nearly 6,500 \1\ adults in Wilson County that lack 
basic education skills, but also among 577,000 adults in Tennessee and 
93 million adults in America with basic skills deficiencies.\2\ 
Additionally, one in five adults have not completed high school,\3\ and 
nearly 7,000 high school students drop out every school day.\4\
---------------------------------------------------------------------------
    \1\ NAAL State and County Estimates: http://nces.ed.gov/naal/
estimates/StateEstimates.aspx
    \2\ National Assessment of Adult Literacy: http://nces.ed.gov/naal/
    \3\ U.S. Census: http://factfinder.census.gov/home/saff/
main.html?--lang=en
    \4\ Alliance for Excellent Education: http://www.all4ed.org/files/
NCLB--HighSchools.pdf
---------------------------------------------------------------------------
    Why do young people leave school in your Congressional districts? 
For many reasons, and the reasons may surprise you. Perhaps a family 
member was sick, or they had to quit school to work for their family's 
survival. Some had to travel with their parents who were in the 
military or who were otherwise mobile because of job requirements. 
Their education, as a result, was fractured. Credits that counted in 
one school system would not count in another. They realized they did 
not have enough credits to graduate, and they felt they had no 
alternative but to quit. These are only a few examples out of the many 
diverse reasons why young people leave.
    In talking to people, my heart began to ache. There are so many 
people struggling to make ends meet and they cannot because they do not 
have high school diplomas. Their parenting skills are lacking. Many do 
not have the basic education skills themselves nor do they understand 
that they need to nurture and encourage their children to become well 
educated. They do not have the social skills needed to navigate the 
workplace, they feel inferior to their cohorts, and they often just 
give up. People need the tools to succeed in America, and, at the very 
minimum, a major tool on the road to success is a high school diploma 
or GED. All Americans deserve a basic education so that they can take 
advantage of opportunities otherwise not open to them.
    Adult education and literacy is a silent epidemic that has been 
growing for years. It isn't easily recognized like poor health or 
hunger, although it can alleviate both. For example, nearly half of all 
American adults-90 million people-have difficulty understanding and 
using health information.\5\ In order to get good health care and to 
raise healthy families, adults need to be able to understand the health 
information available to them. That understanding increases as adult 
literacy increases.\6\
---------------------------------------------------------------------------
    \5\ Institute of Medicine of the National Academies: http://
www.iom.edu/?id=19723&redirect=0
    \6\ National Assessment of Adult Literacy: http://nces.ed.gov/naal/
---------------------------------------------------------------------------
    Educated parents help children succeed and break the cycle of 
educational deficiencies in families. Adult education and literacy 
issues are invisible to America because most people who suffer are 
ashamed of it, try to hide it, and will not speak out. Adult education 
and literacy is not a priority for our country, but if you have had 
your eyes opened like I have, then you see that it should be.
    The sad truth is, if my dream hadn't come true, I probably wouldn't 
have been able to afford to take off work in order to get my GED. A lot 
of Americans out there who really want and need to continue their 
education can't afford it, either.
    Those who do go back to school, in between work and family 
responsibilities, may be put on waiting lists. In a recent survey,\7\ 
80,000 adults (in 41 of 46 states reporting) confirmed students on 
waiting lists in their state, not counting waiting lists with 
community-based organizations that do not receive federal funds. There 
is no excuse to wait list people. What would parents say if they were 
told their child had to wait three months, six months, a year or more 
to enroll their child in school? Americans would be in an uproar! 
Parents would not tolerate it. Why do we tolerate it for adults?
---------------------------------------------------------------------------
    \7\ National Council of State Directors of Adult Education. 2007-
2008 Adult Student Waiting List Survey: www.ncsdae.org
---------------------------------------------------------------------------
    Adults are wait listed for adult education and literacy programs 
because these programs are severely underfunded. We invest heavily in 
K-12, Head Start, and Early Head Start but the amount spent on adult 
education and literacy is significantly less. Invest more in educating 
the parent, and you'll educate the child and break the cycle of 
illiteracy for generations to come. The reality is, you wait list 
people, turn them away, and they're probably not coming back. You've 
just added more undereducated adults to the statistics. The cycle 
continues.
    Talking to adult educators, every year they are under a cloud of 
threats for closure or diminished funds. I can only imagine how 
difficult it would be to work under that type of stress. These highly 
educated and very dedicated men and women already work on a dime and 
get more bang for their buck with the dollars spent on their programs 
than on most federally-funded education programs. I challenge you to 
show me another program out there anywhere in America that does so much 
for its people with so little.
    Less than an hour ago, I delivered thousands of letters from 
Tennesseans to Tennessee Congressmen requesting additional funding for 
adult education. Many of those who wrote are students, sharing their 
educational goals and aspirations. Here are just a few examples of why 
adult education is important to them (refers to stack of letters, reads 
a sentence or two from them):
    <bullet> I lost my job after nine years because my plant moved to 
Mexico, and I need to get my GED.
    <bullet> I'm the son of military parents who were constantly on the 
move which kept me from receiving many credits, and I'd like to 
complete my high school education.
    <bullet> I'm a single dad with two young boys. I come from a bad 
side of the city where drugs and gangs run the streets. I want to turn 
my life around through adult education.
    <bullet> I went from a person who could not read or write to an 
operation's manager for a major company thanks to this program.
    <bullet> I came to America to get my education; I would like to 
open a business here and help my community.
    <bullet> I had a traumatic head injury and lost my ability to read 
and write.
    These are just a few examples of hundreds of thousands of stories 
told to Congress yearly about adult education and literacy. Why does 
Congress seem to pay so little attention to this issue, when year after 
year it is raised?
    Last, I have been amazed at the numbers of lives I have personally 
touched as a result of achieving my own GED. You have no idea how many 
people approach me at my concerts to say that I have inspired them to 
continue their own education. That knowledge inspires me, invigorates 
me, and compels me to ask you to join me in championing adult education 
and literacy. Begin now by urgently funding services to help adults 
increase their skills and reduce waiting lists. Shape legislation that 
truly meets the need. Raise this issue on every front. Advocate for it 
in every hall. Be the pioneer that brings this silent epidemic to 
light.
                                 ______
                                 
    Chairman Hinojosa. I now call Mr. Finsterbusch.

 STATEMENT OF MARTIN FINSTERBUSCH, EXECUTIVE DIRECTOR, VALUE, 
        INC. (VOICE OF ADULT LEARNERS UNITED TO EDUCATE)

    Mr. Finsterbusch. Thank you, chairman and committee 
members, for allowing me to speak today.
    My name is Marty Finsterbusch. And, yes, I am a director of 
a national organization, but I am an adult learner. I went into 
a literacy program in 1984 as a student. I was in special ed 
and came out with only a 4th grade reading level. How do you 
survive with that?
    I found the literacy program. It got me up to a level, and 
I finally got into community college, but it took 10 years to 
get through community college with all the things that were 
going on.
    But what I really want to talk about and share with you is 
that it is not just me. A lot of adult learners across the 
country are coming into programs, getting some help, and they 
are giving back, and they are getting involved. And we, the 
students, have gotten together; and we have come up with 
recommendations that we believe that will help us, our 
families, our communities, and strengthen the United States. 
Here are some of these recommendations that I would like to 
share with you:
    One is technology, investment in technology for adult 
education. For a lot of us, we do have learning disabilities. I 
cannot spell. Regardless of how long you sit me in a class, I 
cannot spell. I can comprehend. I can do a lot of stuff. I can 
plan a lot of things. But I can't spell. With the new 
technologies out there for the blind and deaf, my workload 
would double. I could do--if these technologies were introduced 
into adult education for a lot of people.
    Also, another issue that would help a lot of us is case 
management for adult education. As I was going through the 
system and wanted to move from ABE literacy programs into 
community college, there is no direct path for us. How do we 
maneuver this system? This system has a lot of silos in it. How 
do we, if we don't know, if we want to go to college, who is 
telling us about Pell grants? We don't have counselors like in 
high school saying these are what you are going to face; these 
are the requirements you need. So we are left trying to figure 
out the system.
    And what would help the whole entire system is case 
management and introducing that to adult education. That would 
help us navigate and help us more be successful in getting 
through this.
    The other issue that we came up with is soft skills. 
Reading and writing and math is critical for our society, but 
also critical in our society's survival is critical thinking, 
organizing skills, diversity training. What we are hearing--and 
this is what business is saying they need about people, but 
this is what we are saying. And we are asking adult education 
to look at what labor classifies as soft skills and allow that 
into adult basic education.
    We need these other skills besides. We can't wait until we 
finally have 3 or 4 years in reading and writing if we have 
don't learning disabilities or other issues before we can be 
able to access these other--before somebody teaches these other 
skills. We need them before we hit higher education or job 
training.
    And so these are just some of the recommendations that we 
really believe that--let me just--I am getting nervous. I 
apologize. Slow down. All right.
    In summing up this, that adult education has helped 
millions, and it helped me personally, and I cannot thank them 
enough. But if we are going to help multimillions of Americans 
who need help right now, we need to do a couple of things; and 
that is, one, invest in adult basic education. We need to 
upgrade it. And that is bringing in the technology and all the 
other stuff that is out there into adult education.
    And then the third is connect adult education to what is 
going on in our society now, what is all the things that we are 
facing. Higher education needs to be realistic. It is not here 
is a book and here is a thing and it has no relationship to our 
life. Project learning. We can get information as we are doing 
something for ourselves, our family, and our community.
    These are the recommendations that we are asking you to 
consider; and in closing of this, we would like to thank you 
for your support for our recommendations. We really do believe, 
if we work together, we can make the American dream for 
millions of men and women in this country.
    Again, we would like to thank you for giving us this 
opportunity to say this to you.
    Chairman Hinojosa. Thank you.
    [The statement of Mr. Finsterbusch follows:]

  Prepared Statement of Martin C. Finsterbusch, Executive Director of 
                              VALUE, Inc.

    Thank you Mr. Chairman and members of the Committee for this 
opportunity to speak to you about the need for innovation to improve 
our nation's adult education and literacy system.
    My name is Marty Finsterbusch. I am the Executive Director of 
VALUE, Voice of Adult Learners United to Educate. VALUE is the only 
national nonprofit organization in the U.S. governed and operated by 
current and former adult literacy students. VALUE's mission is to 
improve our nation's education system and empower adults with low 
literacy skills to realize their human potential. VALUE asserts that 
almost all successful for-profit companies systematically use consumer 
input and feedback to improve their products and services. VALUE helps 
adult learner leaders, literacy professionals, and policy-makers do 
this too. In addition to policy advocacy, we help state-level agencies 
and organizations develop the capacity to train and support adult 
learner leaders. We also conduct biennial national adult learner 
leadership institutes and operate a national resource center on adult 
learner involvement and leadership.
    Ninety million adults in our nation have low literacy skills 
according to the 2004 National Assessment of Adult Literacy. The 
current adult basic education system is serving fewer than 3 million of 
them. That means, 87 million aren't being served at all. The vast 
majority of them don't want to seek help from a system that looks like 
the schools that failed them in the past--a system that by its design 
continues to reinforce the stigma of adult low-literacy. Many who do 
seek help drop out because they can't achieve their own real goals in a 
timely manner within a system that uses outdated methods. I come to you 
today to plead for extensive changes to the current adult basic 
education system authorized under Title II of the Workforce Investment 
Act (WIA). If ever there was a system that cried out for reform and 
innovation, the current approach to adult literacy in this country is 
one such system.
    But before I make specific recommendations on reform, let me give 
you a bit more background on who we low-literate adults are and the 
very real threats we face daily. First, I need you to put out of your 
mind the unfortunate stereotypical image of the person with low-
literacy as being homeless and of low intelligence. For many, adult 
literacy issues can be traced to undiagnosed learning disabilities, 
failing schools, and family issues--all having more to do with class, 
race, gender, and cultural bias than intelligence. As one of our 
members stated:
    ``We are your family-members; we are your neighbors; we are your 
co-workers. We are small-business owners; we are first-responders. We 
are among the working poor and some of us are even millionaires. Few 
around us ever know our truth. Because of shame and stigma, we keep it 
hidden.''
    And let me add, we are among the millions of people who worked for 
decades in the industries of America that no longer exist or whose jobs 
are being relocated to other countries.
    When adults with low literacy skills publicly admit this 
deficiency, some lose their jobs--jobs for which they received good 
performance appraisals up until their secret was revealed; they lose 
the chance at promotion; some lose the respect of their family, 
friends, and co-workers. As another member stated:
    ``When we loose jobs, we are unable to transfer to new jobs and new 
industries, not for lack of desire, but lack of literacy skills. We are 
people who can't get into job training programs or off of welfare, not 
for lack of desire, but because of a lack of literacy skills. We are 
also people who want to learn English as the language of our new 
country, but we can't because of the learning skills we failed to get 
in our nations of origin.''
    Far too few adults with low literacy skills are going to seek help 
when faced with these very real threats. Especially, they will not seek 
help from the current system.
    My personal experience provides an example of what some low-
literate adults experience in our nation's educational system. As a 
small child, I suffered from a serious ear infection that caused me to 
miss-hear certain sounds. In the course of testing, my family 
discovered that I have a learning disability. I started out going to 
public school, but had to stay after school almost every day. I wasn't 
learning to read, but my teachers would have promoted me anyway because 
I was a good kid who tried hard. Instead, my parents sent me to a semi-
private special education school where there were no grade levels and 
few challenges. The kids in my neighborhood asked, ``Why do you go to 
that retard school?'' I graduated in 1982 with a 4th grade reading 
level and a poor self-image.
    After working for two years, I decided I wanted to go to college. I 
knew I needed to improve my reading so I went back to my former school. 
They said they couldn't help me because I already had my high school 
diploma. They referred me to a community-based volunteer program. 
There, I improved my reading 6 grade-levels in 14 months. I began 
taking courses at the community college. Despite getting A's and B's in 
all of my other courses, I kept failing English composition. 
Documentation of my learning disability didn't excuse my inability to 
spell. I was told I could never graduate until I passed my English 
courses. With this obstacle on top of job and family responsibilities, 
it took me 10 years to earn my Associates Degree.
    During that time period, I dedicated the rest of my life to adult 
literacy. I started by organizing a student support group in the 
program that had helped me so much. I became a part-time staff member 
there before moving to serve on its Board of Directors. Beginning in 
1986, I organized a state student network; conducted workshops and 
conferences at state and national levels; and served on the boards of 
several national literacy organizations. I have been appointed to the 
Pennsylvania State Interagency Coordinating Council under three 
different Governors. In 1999, I was a National Institute for Literacy 
Fellow, after which I became the Executive Director of VALUE, the 
national adult leaner organization I helped create.
    I talk with adult learners from around the country continually. 
They share with me their insights, their frustrations, and promising 
practices. I continually talk with my colleagues from state and 
national literacy organizations too. I feel I am able to share with you 
a good sense of what works and what doesn't work in our system--from 
the consumer perspective.
    VALUE believes it is unacceptable for the current adult basic 
education system to serve less than 3 million adults each year using 
19th Century methods, requiring 3-5 years on average for an adult to 
achieve ``functional literacy.'' It is no wonder that perhaps as many 
as 20% of learners drop out of adult literacy programs before 
completing ten hours of instruction and less than 3% reach their 
primary goal of earning their GED in 3-5 years. The system is simply 
not designed to meet the self-identified and evolving needs of today's 
learners and employers in a realistic timeframe--needs that should 
redefine adult basic education.
    VALUE's Social Change Initiative calls for a consumer-driven 
redesign of the current adult basic education system in this country. 
It must be redesigned to help many times more learners achieve their 
personal goals faster using 21st Century approaches. Funding must be 
dramatically increased to pay for this system modernization and 
expansion. And finally, adult literacy policy must not be dealt with in 
isolation; it must be integrated with other federal policies and 
programs.
    The Model T car, silent movies, and vaudeville have long been 
outdated, yet the approach to adult literacy we use in this country 
today is still based on assumptions and practices created before the 
first Model T rolled off the assembly line, and long before the advent 
of silent movies. We need to modernize this system. Many of the 
recommendations that follow are based on the promising practices of 
exceptional providers in the adult education and vocational 
rehabilitation fields that VALUE asserts should be implemented 
throughout a modern, innovative system.
    First, adult learners should be taught to use modern technology for 
reading and writing.
    The adult basic education system must take advantage of tremendous 
advances in technology. The current system uses the computer mostly as 
a tool for drill and practice and largely ignores its potential to 
speed up the process of meeting learner goals. Technology that reads, 
writes, and translates exists today for the blind, the deaf, diplomats 
and international business people. With widespread access to knowledge 
through technology, adult learners can more rapidly gain the skills and 
knowledge needed to be productive members of the global workforce.
    UNESCO, the United Nations Educational, Scientific, and Cultural 
Organization defines literacy as:

          ``the ability to identify, understand, interpret, create, 
        communicate, compute and use printed and written materials 
        associated with varying contexts. Literacy involves a continuum 
        of learning to enable an individual to achieve his or her 
        goals, to develop his or her knowledge and potential, and to 
        participate fully in the wider society.''

    The focus of the current system in the U.S. is on reading and 
writing. The focus should be on accessing and processing information 
independently, as stated in the UNESCO definition of literacy. The Act 
should require the use of technology, such as what is currently used in 
the blind and low-vision community to enable adult learners to access 
and process information independently much sooner than they are able to 
in the current system.
    Using modern technology to help them read and write, adult learners 
could turn their attention to employment and training information much 
sooner than if they had to first master reading and writing. It can 
take three to five years for an adult learner to reach the point of 
being able to access information by first learning to read. Using 
technology, an adult leaner can learn to access information in three to 
five months.
    VALUE is not asserting that learning to read and write is no longer 
important. We're simply saying that it doesn't have to hold back adult 
learners from employment-related information and training when modern 
technology provides access. Essentially, what we're suggesting is 
replacing the current adult education and literacy approach with one 
that looks much more like the vocational rehabilitation model. This 
would shorten the time required for WIA Title II activities and make it 
fit better with the Title I timeframe.
    Those of us in the field promoting this new approach have coined 
the term ``virtual literacy'' to describe it. Virtual literacy merely 
is attempting to allow for the literacy assistive technologies 
currently being used successfully in the disability community be used 
throughout the adult literacy and job training communities. Because of 
the major technological breakthroughs, the ability to make almost 
anyone ``virtually literate'' is currently available, affordable, and 
gaining wide acceptability in the general public. In fact, Congress 
recently added a free software download to their website to enable 
anyone with limited literacy capacity to be able to be ``read''--
through hearing--all Congressional materials.
    Text-to-speech and speech-to-text dictation software is widely 
available for personal computers. There are even very good software 
programs available for free. And continually, new and improved handheld 
devices are being introduced that make virtual literacy an increasingly 
viable mobile option. With us here today we have representatives from 
virtual literacy pilot programs at Drake and Michigan State 
Universities who will be doing a hands-on demonstration this afternoon 
for Senate HELP Committee staff.
    Let me just add that with my learning disability, it is still a 
tortuous exercise for me to write. Consequently, I dictate messages to 
my interns. For longer documents like this testimony, I discuss with 
writers what I want to say and then edit what they draft for me. I have 
not yet learned to use the technology that I'm telling you about. 
However, I am confident that when I do learn to use it, my productivity 
will increase significantly because I will be able to do the writing 
myself.
    The adoption of this ``virtual literacy'' approach will require a 
significant investment, as much or more in professional development as 
in hardware and software. However, while data does not yet exist to 
back me up, I think the cost/benefit ratio will be compelling as the 
significantly reduced time required per student will make it possible 
for many, many more adult learners to get the help they need.
    Second, make case management a core service.
    Currently the Act does not require the provision of case 
management. Due to the complexity of the lives of adult learners, case 
management should be required as a core activity. Case managers should 
help adult learners deal with problems in their lives that prevent them 
from pursuing their education and provide career guidance, making it 
possible for them to make informed decisions and prepare for future 
education, a job and/or job training.
    Case managers are needed both in adult literacy programs and in 
One-Stop centers. In OneStops, many adults with low literacy skills 
find it very difficult, even intimidating, to navigate the one-stop 
system of job, education, and training services. In some cases, low-
literate adults get bumped around from program to program, not knowing 
how to describe their situation in a way that will help someone 
determine what services they really need and in what order. Skilled 
case managers could help them understand what is available and 
successfully get the services they need and get them in the order they 
need them. This would not only improve the customer experience, it 
would also increase the overall efficiency of the system.
    The situation is similar in adult literacy programs. Many adult 
learners have personal difficulties, sometimes related to their low-
literacy skills, but sometimes unrelated, which distract or prevent 
them from focusing on their adult basic education. Literacy-related low 
self-esteem tends to make a bad situation worse. This is one of the 
prime reasons adult learners drop out of a program. A case manager 
could help learners get the help they need so they don't have to drop 
out.
    In some exemplary programs, having a current or former adult 
learner take on this role enhances the rapport between client and 
staff.
    Adult learners' transition from the literacy program to further 
education, employment, or job training is another area in which a case 
manager is essential. Figuring out what your options are, what the 
requirements are for each option, what next steps to take, and how to 
prepare yourself for the transition can be a bewildering set of tasks; 
I know it was for me at one point. In exemplary programs, a case 
manager makes this process less intimidating and enhances the chances 
for success. The critical policy point here is that the Act must permit 
and encourage case management as a core service, not relegate it to an 
ancillary or administrative function.
    Third, adult education instruction should include workplace 
essential skills.
    Currently the Act doesn't address the much needed soft skills 
including customer/client service; critical thinking/problem solving; 
cultural sensitivity; leadership; negotiation; personal responsibility; 
teamwork; and time-management are essential for the success of all 
workers. Teaching these skills should be a core responsibility of all 
adult literacy providers.
    These skills are needed by those of us who pursue higher education 
as well as those who take part in job training. The adult literacy 
program is the place to teach them because many of us work one or more 
jobs while we are in a literacy program or we get a job without taking 
part in job training. These skills help us do better in our literacy 
programs too.
    Fourth, measure performance differently.
    Learner goal achievement must be the primary measure of success for 
a redesigned adult basic education system. The current system uses 
standardized test scores as a primary measure of success and 
consequently, the program focus is on successful test-taking rather 
than goal attainment. Adult learners want to focus on their own goals, 
not on artificial goals generated for local programs by ``experts.'' 
The use of measures such as standardized test scores are inconsistent 
with a consumer-driven system.
    The current system treats learners not as adults with time-
sensitive real-life goals, with job and family responsibilities, with 
knowledge and experience acquired over a lifetime, and with the burden 
of shame and stigma associated with low literacy, but it subjects them 
to a traditional fixed drill-and-practice classroom model more 
appropriate for working with children. So few seek help and many that 
do drop out because this approach is completely inappropriate given the 
complexities of adult lives in the 21st Century.
    Adult education instruction should be customized to help individual 
adult learners meet their self-defined personal goals. One size does 
not fit all. Learners stay in programs as long as they see the 
connection between instruction and their personal goals. Adult 
education instruction should be based on a ``wealth model'' rather on a 
``deficit model.'' The wealth model, which is more appropriate for 
adults, helps learners realize their own strengths and knowledge and 
use them as a basis for further learning; this builds better self-
esteem. Zeroing in and focusing on what adult learners can't do may be 
appropriate in child education, but in adults it reinforces already low 
self-esteem.
    Fifth, share leadership with adult learners.
    One of VALUE's core beliefs is that most successful for-profit 
companies rely on consumer input and feedback to improve their products 
and services; the adult literacy system should do this too. Adult 
learners should be part of the planning, delivery, and supervision of 
adult education services and research at every level. As recipients of 
adult education services, adult learners have a unique, important, and 
all-too-often overlooked perspective regarding what does and does not 
work.
    The consumer, the adult learner, isn't asked for input or feedback 
about adult literacy policies and programs in any systematic way. Low-
literate adults are sometimes viewed as ignorant--at best, people to be 
pitied and taken care of; at worst, people to be looked down on and 
dismissed. As one of our members stated:
    ``When people find out we have low literacy skills, some suddenly 
start to treat us differently--they talk down to us and show less 
respect for our opinions, knowledge, and experience than they did 
before they found out.''
    Currently, the Act does not require that adult learners be 
specifically included in program operation and governance at local, 
state, and national levels. The system should be much more consumer-
driven. The Act should specifically require the integration adult 
learners into program operation and governance at all levels; our 
perspective is as important as that of literacy professionals and 
bureaucrats and must be heard.
    During the upcoming intergovernmental conference on adult education 
to be held later this month in Brazil, UNESCO will consider an 
International Adult Learners' Charter. In addition to affirming adult 
literacy as a human right, this charter states that adult learners have 
the right to a central role in policy development for adult and 
lifelong learning systems. UNESCO officials anticipate approval of this 
charter.
    I should add that by and large the community-based program sector 
of the adult literacy field has been the most willing to embrace an 
advisory role, and in many programs a governance role for adult 
learners.
    Sixth, change participation requirements.
    The adult education system should take into consideration that 
adult learners have job and family responsibilities that limit their 
ability to participate in adult literacy activities. The adult 
education system must be flexible so learners can fit instruction into 
their busy lives. Because research shows that learners make greater 
learning gains with increased participation, participation requirements 
were established for publicly funded programs. While they may be fine 
for adults without significant job or family responsibilities, they are 
unrealistic and inappropriate for many others.
    Consequently, these participation requirements serve as a barrier 
to some who seek help and cause others to drop out when they find they 
just can't fit the required level of participation into their busy 
lives. In such cases, dropping out or opting not to participate is a 
choice they shouldn't have to make, especially since it is based on 
research that fails to take into consideration the real-life demands of 
adults. Additionally, a significant number of community-based adult 
literacy programs forego public funding because they primarily serve 
adult learners who can't meet the participation requirements. The Act 
should expressly permit the flexibility needed so these programs don't 
have to forego public funding in order to serve adult learners with one 
or more jobs and family responsibilities.
    Personal shame and societal stigma of low-literacy also present 
significant barriers to participation in adult literacy programs. Adult 
education policy and outreach efforts should be designed to address 
these barriers.
    Lastly, encourage adult basic education and job training activities 
to be done together.
    For many low-literate adults, the amount of time required to master 
reading and writing skills under WIA Title II doesn't fit well with the 
employment and training timeframe under WIA Title I or under TANF, 
Temporary Assistance to Needy Families. This incompatibility has 
resulted in far too few opportunities for adults with low literacy 
skills to participate in job training and literacy instruction at the 
same time.
    Research shows that learners can make gains more rapidly if 
education and training are done together. In his 1997 book entitled 
Functional Context Education: Making Learning Relevant, Dr. Thomas G. 
Sticht wrote:
    ``Functional Context Education is designed to generate swift gains 
in reading and math skills by teaching academics in the context of 
learning and performing a given task. For instance, an electrician in 
training may learn math concepts while she fixes a malfunctioning 
device. Or a maintenance worker may improve his reading skills while 
learning to use job-specific manuals, specifications, and forms. 
Military researchers have found that compared with general literacy 
instruction, this kind of learning-to-do instruction generates robust 
and rapid gains in job-related literacy that endure over time.''
    By having the adult basic education system adopt a ``virtual 
literacy'' approach, the incompatibility between Title I and Title II 
timeframes can be minimized. As a result, more bridge programs 
combining adult literacy and job training can be offered, which 
benefits both adult learners and the system as a whole.
    In conclusion, the adult basic education system must not be viewed 
as a second chance system for people who failed earlier in life. For 
many like me, it was the inadequacies of the K-12 system that failed 
us. Rather, a strong adult basic education system must be viewed as an 
essential part of the prescription for our nation's economic health and 
prosperity. Adult literacy is an essential public policy concern; it 
must not be dealt with in isolation, but rather integrated with other 
policies and programs. The success of policies and programs dealing 
with early childhood education, health care, welfare, retraining the 
American workforce, and maintaining a strong military with capable 
recruits are all linked to having an adult population with better 
literacy skills. We cannot continue to waste the potential of the 
current adult population by devoting so little attention and resource 
to the adult basic education system. With all federal and state funding 
combined, less than 4% of adults with low literacy skills are in adult 
basic education programs and many programs have long waiting lists. And 
we can not well serve the current adult population by attempting to 
simply replicate the existing traditional fixed drill-and-practice 
classroom model.
    Thank you for this opportunity to talk with you today. I look 
forward to working closely with you and your staff in creating a modern 
and appropriate adult literacy system that is truly designed to meet 
the 21st century needs of adult learners.
                                 ______
                                 
    Chairman Hinojosa. The next presenter is Mr. David Bere.

STATEMENT OF DAVID BERE, PRESIDENT AND CHIEF STRATEGY OFFICER, 
                      DOLLAR GENERAL CORP.

    Mr. Bere. Mr. Chairman, respected members of the committee, 
thank you for the opportunity to speak.
    As you mentioned earlier, my name is Dave Bere; and I am 
the President and Chief Strategy Officer of Dollar General 
Corporation. I am here today to talk as a businessperson that 
views this topic as one of the most important issues facing our 
country.
    Chairman Hinojosa. Would you please turn on your 
microphone?
    Mr. Bere. It is on. Does that help?
    Chairman Hinojosa. Much better.
    Mr. Bere. As a way of background, Dollar General is the 
largest discount retailer in the United States by number of 
stores, with more than 8,400 stores in 35 States. We are a 70-
year-old company in the Fortune 300, $10 billion in sales, with 
more than 72,000 employees.
    Adult literacy is important to Dollar General for a number 
of reasons. Our cofounder, J. L. Turner, was functionally 
illiterate, with only a third grade education. His family's 
recognition of that tremendous burden formed the beginning of 
the company's long legacy of support for adult learners.
    But, today, we see more than ever the pressures that low 
literacy skills can put on business success and productivity. 
Importantly, adult literacy challenges in this country impact 
our customers and our employees in particular. We see the 
hardships they face every day, and we want to help them.
    And indeed we are helping. In the last 15 years, Dollar 
General has donated more than $33 million to literacy and basic 
educational efforts that have helped more than 1.6 million 
adults improve their literacy skills. We underwrote the work of 
the National Commission on Adult Literacy, which released its 
findings and recommendations last June in a report entitled, 
Reach Higher America: Overcoming Crisis in the U.S. Workforce.
    As members of this subcommittee, I know you are aware the 
tremendous need to improve the literacy skills of our adult 
labor pool goes beyond the reach of the public K-12 school 
systems. We live in the most powerful nation in the world, and 
yet one-third of our adult population cannot read well enough 
to succeed in most work environments. And, at the same time, a 
large majority of the new jobs created over the next 5 years 
will require a bachelor's degree or some secondary education or 
training.
    Let me put it to what it means to Dollar General. Simply 
put, if we continue our current track, over time Dollar General 
and other businesses across America will not have the skilled 
workers required for growth and competitiveness. Even worse, we 
will continue to grow economically apart as a nation; and key 
segments of our population will be left out of the new 
workforce.
    During the 2009 fiscal year, Dollar General will expand our 
workforce with the creation of more than 4,000 new jobs in our 
stores and distribution centers as we open at least 450 stores 
in neighborhoods across the country. Many of these jobs provide 
a great point of entry into the workforce. However, because of 
the evolution of the retail industry and the increased use of 
technology, even those entry level jobs require competent 
literacy and basic technology skills.
    Now, to help increase the skill set of our employees, we 
have on-site GED classes and ESOL classes at our distribution 
centers. We offer a GED reimbursement program for full-time 
employees; and through the partnership of ProLiteracy, we offer 
a literacy and basic educational referral program for employees 
and customers that generates more than 6,000 referrals 
annually.
    We recognize the value of incumbent worker training, tax 
credits, incentives to encourage businesses to hire and invest 
in professional development and basic skills of lower skilled 
workers. However, as we all know, the business community cannot 
tackle all the challenges. We need your partnership and that of 
the States and nonprofit sector to effectively address this 
need.
    As we address this important issue, we highly recommend 
that together that we keep adult literacy high on the national 
agenda. Specifically, we ask the following:
    We ask for the committee's consideration of the 
recommendations presented by the National Commission on Adult 
Literacy.
    Two, we ask that the committee evaluate the funding sources 
for literacy and ensure there is an open dialogue between 
funding streams. We need to build strategic collaborations 
between and among government agencies and between those 
agencies and the private sector.
    Three, we ask the committee to recognize the valuable role 
and increased support for community based organizations that 
help adults at the lowest levels of literacy so that they can 
receive the personal instruction that they need.
    Thank you very much for your time and attention.
    Chairman Hinojosa. Thank you.
    [The statement of Mr. Bere follows:]

Prepared Statement of David Bere, President and Chief Strategy Officer, 
                          Dollar General Corp.

    Mr. Chairman and respected members of the Committee, thank you for 
the opportunity to speak with you today. My name is David Bere. I am 
President and Chief Strategy Officer of Dollar General Corporation. 
Dollar General is the largest discount retailer in the United States by 
number of stores with more than 8,400 neighborhood stores located in 35 
states. We are headquartered in Goodlettsville, Tennessee and employ 
more than 72,000 workers. As a large employer, we have a vested 
interest in ensuring that this country has a workforce that is prepared 
to meet the challenges of doing business in the 21st century.
Dollar General's History with Adult Literacy
    Dollar General's history of supporting literacy dates back to 1939. 
Our co-founder, J.L. Turner, was functionally illiterate. He had to 
drop out of school in the third grade when his father was killed in an 
accident. As the oldest child in the family, he never had the 
opportunity to return to school. However, with hard work and 
determination he started the Fortune 300 company we recognize today as 
Dollar General.
    Dollar General is committed to supporting literacy, not only 
because of our founder's legacy, but also because of our commitment to 
meeting the basic needs of our customers and employees. Since 1994, we 
have donated more than $33.4 million to nonprofit literacy efforts. We 
have helped more than 1.6 million adults receive basic education 
assistance and provided more than 50,000 literacy referrals to 
individuals who would like to learn to read, prepare for the GED or 
learn the English language. Dollar General also underwrote the work of 
the National Commission on Literacy, which released its findings and 
recommendations last June in a report titled, Reach Higher America: 
Overcoming Crisis in the U.S. Workforce. This report shows the 
connection between our country's global competitiveness and the need 
for a workforce that can read, write, do math, speak English, and use 
technology.
    While we are proud of our investments in literacy and basic 
education, we recognize that the staggering number of adults in need of 
basic literacy and education assistance continues to grow. It will take 
the federal government, state governments and an increased awareness 
across the nation to initiate the tide of change needed to give back 
the American Dream to the American people and to those arriving in our 
country looking for opportunities to improve their lives.
Adult Education in the United States
    According to the National Assessment of Adult Literacy, 93 million 
adults in the United States--or roughly 30 percent of our nation's 
total population--read at the two lowest levels of literacy.
    Unfortunately, we have become a society that is desensitized to 
numbers and statistics. So, I would like to put this statistic into 
context. According to the U.S. Census Bureau, 93 million exceeds the 
total population of the following states combined:
    <bullet> New York;
    <bullet> Texas;
    <bullet> Pennsylvania;
    <bullet> Tennessee;
    <bullet> Ohio;
    <bullet> Delaware;
    <bullet> Indiana; and
    <bullet> Michigan.\i\
---------------------------------------------------------------------------
    \i\ US Census Bureau, Population Finder
---------------------------------------------------------------------------
Impact on Business
    According to the Bureau of Labor Statistics, 63 percent of the 18.9 
million new jobs created during the 2004--2014 period are projected to 
be filled by those with at least a bachelor's degree.\ii\
---------------------------------------------------------------------------
    \ii\ United States Department of Labor, Employment and Training 
Administration, Why America Needs an Educated and Prepared Workforce
---------------------------------------------------------------------------
    According to the Employment and Training Administration's report on 
Why America Needs an Educated and Prepared Workforce, 90 percent of the 
fastest growing jobs in the United States require some level of post-
secondary education or training.\iii\
---------------------------------------------------------------------------
    \iii\ United States Department of Labor, Employment and Training 
Administration, Why America Needs an Educated and Prepared Workforce
---------------------------------------------------------------------------
    We live in the most powerful nation in the world, and yet one third 
of our population cannot read well enough to succeed in most work 
environments.\iv\
    The National Center on Educational Quality of the Workforce 
estimates that literacy deficiencies result in an estimated $60 billion 
loss in productivity in the United States annually.\v\
---------------------------------------------------------------------------
    \iv\ US Department of Education, Institute of Education Sciences, 
National Center for Education Statistics, 1992 National Adult Literacy 
Survey and 2003 National Assessment of Adult Literacy
    \v\ Policy Brief, The Working Poor Families Project: Strengthening 
State Policies for America's Working Poor;
---------------------------------------------------------------------------
    There are more than 150 million people in the US work force.\vi\ 
While there is great need for support of K-12 programs, only two 
percent of the annual workforce will come from the current year's high 
school graduating class.\vii\ Therefore, there is a great need to 
invest in the adults that are already in the workforce to maintain our 
global competitiveness and increase the employability of the current 
labor pool.
---------------------------------------------------------------------------
    \vi\ Bureau of Labor Statistics, Employment Situation Summary, 
March 2009
    \vii\ Bureau of Labor Statistics, Economic News Release, College 
Enrollment and Work Activity of High School Graduates, 2008
---------------------------------------------------------------------------
    What does this mean to business?
    To maintain the United States' ability to compete globally, we must 
address the issue of adult literacy and basic education in our nation. 
We can no longer allow this silent epidemic to cripple our productivity 
and diminish our standing in the world's economy. The inability of so 
many of our adult citizens to read, write, speak English, and to 
perform other vital basic work and life tasks at a proficient level 
threatens the social fabric of our nation as well as the vibrancy of 
our local and national economies.
    What does this mean to Dollar General?
    Dollar General employs more than 72,000 people across 35 states at 
our stores, distribution centers and corporate office. Despite the 
tough economic times, we are creating more than 4,000 new jobs this 
year and opening at least 450 stores in communities across the country.
    Retail jobs are a great entry point into the workforce for many 
individuals. Through the retail experience, individuals learn basic 
business skills, customer service and technology skills that can help 
them transition into higher paying management positions within retail 
or transition to other sectors.
    While retail is a great point of entry into the workforce, the 
evolution of the retail industry has necessitated that Dollar General 
and many other retailers require a higher level of basic skills for 
entry-level workers. This is true at our neighborhood stores and in our 
distribution centers.
    To meet the educational needs of our workforce, we have on-site GED 
classes and ESOL classes at our distribution centers. We offer a GED 
reimbursement program for full-time employees. Through a partnership 
with ProLiteracy, we offer a literacy and basic education referral 
program for employees and customers across our 35 state market area. 
That program, which we are very proud of, generates more than 6,000 
referrals annually.
    We recognize the value of incumbent worker training and are 
developing plans to expand and strengthen our training programs for 
lower skilled workers. We support training programs that are designed 
to increase productivity and the potential for company growth while 
increasing an employee's basic education, work skills, earnings 
potential and potential for upward mobility. Other companies support 
and provide similar programs. However, for a variety of reasons, 
businesses alone cannot tackle all the needs of incumbent workers. The 
cost of training and lost or delayed productivity can present 
challenges for businesses. Additionally, because individuals have 
different preferences in terms of where and how they want to receive 
instruction, it is difficult for a company like Dollar General to meet 
the needs of all of its workers who want to improve their literacy 
skills. To meet those critical needs, we need continued support from 
and partnership with federal and state governments. Therefore, we 
encourage and ask for your continued support of tax credits and 
incentives to encourage businesses to hire and invest in the 
professional development and basic skills of lower skilled workers.
    We also need to increase access to programs for employees outside 
of the work environment. Entering a classroom for an adult learner can 
be intimidating. For matters of privacy and pride, some employees do 
not want to take classes on-site or in a setting with their peers. We 
understand and respect our employees' desire for confidentiality. 
Therefore, in those circumstances, we make every effort to refer them 
to a local program to receive the assistance they need. When making 
outside referrals, we are challenged by access to instruction due to a 
waiting list or the absence of programs in rural markets for learners 
at all levels. Therefore, we ask for your continued support in 
increasing access for learners.
    With increased funding for incumbent worker training programs and 
more parity in funding for community-based and institutional-sponsored 
programs, we can help resolve some of the challenges noted above.
    Dollar General remains steadfast in our commitment to literacy. Our 
support for adult education will not waiver. Today, we extend our hand 
in partnership and hope that you will join us in expanding 
opportunities for adult learners across the nation.
Conclusion
    Winston Churchill once said, ``It is no use saying, we are doing 
our best. You have got to succeed in doing what is necessary.''
    As you address this important issue, we ask that you help ensure 
that adult literacy is high on the national agenda and that you 
consider these four specific things.
    1. We ask for the Committee's consideration of the recommendations 
presented by the National Commission on Adult Literacy in its report 
titled, Reach Higher America: Overcoming Crisis in the U.S. Workforce.
    2. We ask that the Committee evaluate the funding sources for 
literacy and ensure that there is open dialogue between funding 
streams. We need to build strategic collaborations between and among 
government agencies and between those agencies and the private sector 
to ensure that we are working toward a common goal and strategically 
focusing funding efforts.
    3. We ask the Committee to continue to support employment tax 
credits such as the Work Opportunities Tax Credit, the Welfare-to-Work 
Tax Credit and also incentives for Incumbent Worker Training Programs 
across the United States.
    4. We ask the Committee to recognize the valuable role and increase 
support for community-based organizations that help adults at the 
lowest level of literacy receive the personalized instruction they need 
to increase their employability and advance to traditional Adult Basic 
Education programs.
    Thank you for the opportunity to present this testimony and for 
your work in this area of critical importance to our country.
                                 ______
                                 
    Chairman Hinojosa. At this time, I would like to call on 
Kathy Cooper.

 STATEMENT OF KATHY COOPER, POLICY ASSOCIATE, OFFICE OF ADULT 
   BASIC EDUCATION, WASHINGTON STATE BOARD FOR COMMUNITY AND 
                       TECHNICAL COLLEGES

    Ms. Cooper. Thank you for the opportunity to talk with you 
this morning about innovation by adult basic education programs 
and community and technical colleges in Washington State.
    I would like to start by telling you what caused us to 
innovate. Simply put, we looked at what was happening in our 
State and compared that with the outcomes of our efforts. 
Despite good work, we fell short of meeting the accelerating 
needs of our students and State. We were serving well less than 
10 percent of the people that needed our services, with serious 
implications, because these underprepared and underserved 
adults are our fastest growing population and will make up all 
of the growth in our State's workforce.
    Second, our students were not succeeding. Joint research by 
the State Board and the Community College Research Center at 
Columbia University found that too few adult learners reach 
what the study called the tipping point. That is enough 
education to significantly impact their own self-sufficiency 
and move students into the talent pipeline.
    Finally, our employers couldn't find the workers that they 
needed.
    This combination of factors caused us to look at change.
    So what are we doing that is different? Our flagship effort 
is I-BEST, Integrated Basic Education and Skills Training. I-
BEST puts an adult basic education and professional technical 
instructor in the same classroom at the same time. They offer 
instruction that integrates job-specific and basic skills for 
students ready to succeed. That instruction leads to a real 
certificate recognized by local employers in a demand field 
with a living wage job. It is the same certificate earned by 
traditional college students, and it earns college credit. And 
this instruction prepares students not only for the first step 
on an education career pathway, but it gives them the skills 
and knowledge they need to continue. You add to that a full 
range of student support, and you have I-BEST.
    So how then do we know that it is working? One measure of 
I-BEST's success is the growth of our programs. In 3 years, we 
have gone from 10 pilots to 138 approved programs at all 34 
community and technical colleges in our State.
    Another measure is how I-BEST students perform. For 
example, Tacoma Community College has an I-BEST accounting 
program that includes adult basic education and traditional 
students. But there is a difference in the performance of these 
two groups. One hundred percent of I-BEST students are retained 
in this program. Their average grade point average is a 3.5, 
and all of them pass the courses.
    We also have independent evidence of our success. The 
Community College Research Center just released a working paper 
that documents that I-BEST students on average earn not only 52 
credits more than needed to reach the tipping point, but they 
also increase their basic skills faster than students enrolled 
in traditional classes. The data confirmed that I-BEST works.
    Finally, what can we ask you to do to support these kinds 
of efforts as you reauthorize WIA Title II?
    First, we would ask you to redefine the purpose of Title II 
as students success in postsecondary programs and progress 
along career pathways.
    Second, we would ask you to reform the data and 
accountability system to reflect that new purpose and to make 
sure that the data we report is useful for teaching and 
learning as well as accountability.
    Finally, we would ask you to link a clear purpose for adult 
basic education and reformed accountability with increased 
funding. It makes no sense to acknowledge the exponential 
increases in underfilled populations in our country, as well as 
the continually increasing levels of skill required for a 
recovering economy, and then starve the solution for both of 
those issues. At a specific level, we recommend that new 
legislation include a $75 million appropriation for seeding and 
scaling up approaches like I-BEST.
    We are proud of the innovative efforts at community and 
technical colleges in Washington State. As you reauthorize WIA 
Title II, you can make it possible for us to expand those 
efforts and to be joined in innovation by colleagues across our 
country.
    Thank you.
    Chairman Hinojosa. Thank you.
    [The statement of Ms. Cooper follows:]

Prepared Statement of Kathy Cooper, Policy Associate, Washington State 
               Board for Community and Technical Colleges

    Mr. Chairman, members of the committee, my name is Kathy Cooper, 
representing the Office of Adult Basic Education for the Washington 
State Board for Community and Technical Colleges in Olympia, 
Washington.
    Thank you for the opportunity to address the innovative efforts of 
adult basic education programs at Washington state's community and 
technical colleges. I'm going to do that by answering four questions:
    ``Why innovate? Why isn't the way we've always done adult education 
good enough?''
    The short answer is that we looked at what was happening in our 
state and compared that to the outcomes of our efforts. Despite good 
work, the data showed that our efforts fell short of meeting the 
continually accelerating needs of our students and our state. 
Specifically we learned three important things:
    First, we were serving less than 10% of those that needed our 
services. This had serious implications for our state's future because 
these under-prepared and under-served adult workers are from our 
fastest growing populations and will account for all of the net growth 
in our state's workforce for at least the next two generations.
    Second, not enough of our students were succeeding. Joint research 
by our state board and the Community College Research Center at 
Columbia University found that too few low-income adult learners in our 
colleges ever reach what the study called the ``Tipping Point,'' that 
is, enough education to make a significant difference in economic self-
sufficiency and to enter into the talent pipeline needed by our state's 
employers to compete.
    Third, our employers, in the midst of the last recession and at the 
height of our economic boom, couldn't find enough qualified workers. In 
fact, the number of Washington employers who identify lack of basic and 
English language skills among workers as a barrier to their success 
tripled in two years.
    This combination of changing demographics, accelerating skill 
requirements, students' goals, and our determination to help every 
student move forward further and faster toward the Tipping Point is 
what spurred us to innovate.

What are we doing that's different?''
    The flagship effort among our innovative practices is I-BEST--
Integrated Basic Education and Skills Training. (See the I-BEST 
summary.)
    At its core, I-BEST tosses to one side traditional assumptions 
about educational scope, sequence, and readiness to learn. I-BEST puts 
an adult basic education and a professional-technical instructor in the 
same classroom at the same time. They offer instruction that integrates 
jobspecific and basic skills for any student that is ready to succeed, 
whether or not they have a GED or high school diploma. That instruction 
leads to a real certificate recognized by local employers in a demand 
field that pays a living wage. It's the same certificate earned by 
traditional college students and it carries college credit. And that 
instruction prepares students not only for that first step on their 
education and career pathways, but it gives them the skills and 
knowledge they need for the next step. Change your mental image from 
the picture of a career ladder with rungs spread too far apart for some 
of us to reach into the image of a chain with links that interlock. 
That's IBEST.
    Beyond integrating basic skills and professional-technical 
education, I-BEST students also receive a full range of student 
supports, including advising, counseling, case management and financial 
aid. This blend of enhanced student services with innovative 
instruction is also I-BEST.

``How do we know it's working?''
    This question has the same answer as the first question: We listen 
to what our data are telling us.
    One measure of I-BEST success is the growth of the program. I-BEST 
has expanded from pilots at 10 colleges to 138 approved programs at all 
34 community and technical colleges in our state. (See the Program 
Inventory)
    Another measure of success is how much better I-BEST students 
perform. For example, Tacoma Community College has an I-BEST accounting 
program that includes adult basic education and ESL students along with 
the adults you would expect to see in a community college classroom. 
But there is a difference in the performance of these two student 
groups. 100% of I-BEST students are retained in the program. Their 
average GPA is a 3.5. Finally, all of the I-BEST students pass the 
courses. In short, their outcomes outpace traditional students.
    We have independent evidence of I-BEST success as well. Columbia 
University's Community College Research Center just released a working 
paper at the end of April that documents IBEST's positive outcomes. The 
paper notes that I-BEST students, on average, not only earn 52 
credits--more credits than needed to reach the Tipping Point, but they 
also increase their basic skills more than students enrolled in 
traditional ABE classes. With the same hours of instruction, 62% of I-
BEST students make significant gains compared to 45% of traditional ABE 
students.
    The data just confirms what our students tell us all the time: I-
BEST works.

What can Congress do to support these kinds of efforts, especially as 
        you consider reauthorization of WIA, Title II?
    From the perspective of Washington state we need three changes in 
order for us to continue to innovate and bring to scale successful 
practices.
    Redefine the purpose of Title II as student success in post-
secondary education and progress along career pathways. 86% of the 
students who come to adult basic education in Washington state come to 
get and keep a good job. And we know that they must progress at least 
as far as the Tipping Point to achieve that dream. Surely the focus of 
our national system should reach as far as the vision of our students.
    Reform the data and accountability system to reflect the new 
purpose and make the data useful for teaching and learning, as well as 
accountability. We embrace accountability that is objective, 
measurable, and evidence-based and we want it to be useful. The data 
must tell us if students are making progress toward the skills and 
credentials that have meaning in the labor market and their own lives. 
And it must tell us which program activities are most effective. And we 
need it in real time so that we are able to improve outcomes.
    Link a clear purpose for adult basic education and a reformed 
accountability system with an increase in funding so that adult basic 
education programs can expand services to the growing numbers of adults 
that needs them. It makes no sense to acknowledge exponential increases 
in under-skilled population groups as well as continuously increasingly 
levels of skills required by a recovering economy and then starve the 
solution to them both.
    On a specific level, we recommend that new legislation target $75 
million in new Title II state grant appropriations for seeding and 
scaling up approaches that integrate basic skills and postsecondary 
education and training or which dually or concurrently enroll students 
in basic skills and post-secondary education and training.
    We also recommend that the Secretary of Education conduct an 
evaluation of the impact of integrated programs on the rate at which 
students attain career and post-secondary success.
    We are proud of the innovative efforts of adult basic education 
providers at community and technical colleges in Washington state. As 
you reauthorize WIA Title II, you have the opportunity to create a 
fresh vision and new opportunities that will make it possible for us to 
expand those efforts and be joined in innovation by our colleagues 
across the nation.
    Thank you for your time this morning. We believe that better skills 
lead to better jobs, leading to better lives. And that is still the 
American dream.
    I am happy to take your questions.
                                 ______
                                 
    Chairman Hinojosa. Now I would like to call on Stephen 
Reder.

  STATEMENT OF STEPHEN REDER, PH.D., UNIVERSITY PROFESSOR AND 
   CHAIR, DEPARTMENT OF APPLIED LINGUISTICS, PORTLAND STATE 
                           UNIVERSITY

    Mr. Reder. Thank you.
    Mr. Chairman and subcommittee members, I am Steve Reder, 
University Professor and Chair of the Department of Applied 
Linguistics at Portland State University and a board member of 
ProLiteracy. Thank you very much for the opportunity to speak 
this morning.
    Like you, I am moved by Gretchen's and Marty's compelling 
stories.
    With my colleagues, I have been conducting the Longitudinal 
Study of----
    Chairman Hinojosa. Would you please turn on your 
microphone? Move it closer to you.
    Mr. Reder. Thank you.
    With my colleagues, I have been conducting the Longitudinal 
Study of Adult Learning in which we have followed a random 
sample of about 1,000 high school dropouts for nearly 10 years. 
Even though I am formally representing only myself in this 
hearing, I am humbled by the opportunity to speak for the 
thousand adults whose stories we have been listening to and 
learning from and the millions more just like them across the 
country.
    America likes to celebrate people such as Gretchen and 
Marty who have beat the odds. What I have learned is that, 
through adult education, we can do something even better. We 
can change the odds.
    The population we followed includes adults who have 
attended literacy programs and ones who haven't. Careful 
comparison of their experiences over a long period of time 
reveals the impact of programs on literacy development, 
continuing education, and family wage employment.
    The bottom line is that programs make a difference. So I 
urge Congress to reauthorize WIA Title II programs to 
contribute to our economic recovery. The research shows that 
many adults work independently to improve their basic skills or 
prepare for the GED, including many who never attend a basic 
skills program. This, along with the long waiting lists found 
at many programs, tells us that there is much more demand for 
services than the system can supply. So I urge Congress to 
expand Title II programs to meet the needs.
    If we really do want to change the odds, this increased 
funding should not be used only to do more of exactly the same 
things. We need to increase the capacity and effectiveness of 
the adult education system, especially for those most in need.
    Here are four priorities my research suggests we pursue:
    One, build persistence in adult learners. The road to many 
adult learners' goals is long, requiring great motivation and 
persistence of learning. Programs need to engage students for 
much longer periods, especially those coming in at the lowest 
skill levels. As the poet William Butler Yates put it, 
education is not filling a bucket but lighting a fire. We need 
an adult literacy system that not only lights the fire but 
keeps it burning.
    Two, improve the National Reporting System, or the NRS. 
Although I strongly support program accountability, we need to 
improve the accountability system being used in adult 
education. The NRS misses important program impacts by focusing 
on short-term outcomes and narrow measures of literacy 
development. It uses too short a follow-up period for the 
literacy measures it employs and thus may not help programs put 
their best foot forward or support their improvement efforts.
    Three, develop learning support systems. To increase 
persistence, adults need learning support systems that provide 
portable, personalized learning plans they can follow. These 
plans might include periods of time in attending programs or 
working independently with tutors or receiving support services 
from community based organizations or volunteer programs. 
Grants could assist communities to develop local learning 
support systems, perhaps utilizing technology to facilitate 
collaboration and information sharing among the various 
organizations working with the same learners.
    Four, utilize technology to increase system capacity. Many 
adults engage in periods of self-study before or after periods 
of program participation. Programs could increase their 
outreach and enrollment and increase their students' 
persistence by using technology to connect these self-directed 
learning activities with traditional classes. This would 
broaden the role of technology from offering distance education 
to connecting different learning modalities and activities over 
time.
    To pursue these and other priorities, the adult literacy 
field needs an independent, comprehensive research and 
development center. Although the Department of Education 
established R&D centers for adult literacy that operated 
successfully for 15 years, funding for such a center has been 
discontinued. On behalf of the many adults who would benefit 
from a higher capacity and more effective system, I ask 
Congress to establish an independent center to support an adult 
literacy system that will light the fire and change the odds 
for millions of Americans.
    Thank you.
    Chairman Hinojosa. Thank you.
    [The statement of Mr. Reder follows:]

   Prepared Statement of Dr. Stephen Reder, University Professor and 
  Chair, Department of Applied Linguistics, Portland State University

    Mr. Chairman and Subcommittee members, I am Dr. Stephen Reder, 
University Professor and Chair of the Department of Applied Linguistics 
at Portland State University. The Department is involved in teaching, 
research and service activities related to language and literacy issues 
in education, work and community settings. My research is focused on 
adult education and literacy and language development in adults. I was 
the Principal Investigator of two recently completed major projects in 
adult education: the National Labsite for Adult ESOL, a classroom-based 
video laboratory for studying second language teaching and learning, 
and the Longitudinal Study of Adult Learning , in which I followed a 
random sample of about 1,000 high school dropouts for nearly ten years, 
to study how youths and adults fail or succeed in reconnecting with 
learning, education and work. I am a member of the Board of Directors 
of ProLiteracy Worldwide and have served on numerous state and national 
advisory boards concerned with adult education.
    I am here to speak with you today about the need for independent 
research that would help millions of adults develop the skills they 
need to be successful in today's information and technology age. You 
have heard about the scope of the adult literacy issue in this 
country--nearly one-half the adult population of the United States 
stands to improve their financial health, their physical health, and 
the well-being of their families by improving their reading, writing, 
math, computer technology, and English skills. Yet we spend relatively 
little on research given the size and importance of the adult education 
mission. Think of the many millions of dollars we would save through 
better utilization of health care services and the economic prosperity 
that would be generated from increased levels of employment and a more 
highly skilled workforce--and research suggests that all of these 
outcomes will result from appropriate investments in adult education. 
My own research illustrates, for example, how adults whose literacy 
skills improve over time experience increasing levels of employment and 
earnings, whereas those who skills decrease experience reduced levels 
of employment and earnings.

The issues to research
    Research has a vital role to play in helping shape and deliver 
adult education more effectively. My longitudinal study of about 1,000 
adults who had dropped out of high school brought to light many issues 
that affect their participation in adult education and identified 
obstacles to their successful learning. I found, for example, that many 
adults work independently to improve their basic skills or prepare for 
the GED. This includes many adults who never attend a basic skills 
program. This, along with the long waiting lists that potential 
students find at many programs, tells us that there is much more demand 
for services than the system can supply.
    The research further shows that many adults engage in periods of 
``self study'' between periods of program participation. This suggests 
that programs could increase their outreach and enrollment and increase 
their students' persistence by connecting self-directed learning 
activities with traditional classes. This indicates an important 
potential role for technology, not only in offering distance education, 
but in connecting different learning modalities and activities over 
time.
    Studies of only those students in programs teaches us little about 
effective outreach methods and student retention problems, however. We 
need more longitudinal research that follows both youth and adults who 
participate in literacy programs and those who do not. We need to 
discover how to provide services to adults so they participate in 
learning with sufficient engagement, intensity and duration to reach 
their goals. We also need to learn much more about how to help the 
hardest-to-serve learners--those who are at the lowest literacy levels, 
those for whom English is a second language and who are illiterate in 
their native language, and those who have learning disabilities. Many 
of these individuals will require years of instruction in order to 
reach their learning and employment goals. We must be able to help them 
stay the course as they cope with learning setbacks as well as 
successes, family concerns, and work issues. Building the persistence 
of learning in adults facing such long trajectories must be a research 
priority. We need to learn how to build locally connected and 
integrated delivery systems that allow community-based programs to feed 
low-level learners into higher-level institutionally-based ESL and 
adult education programs. And how to help adult education students 
transition successfully into post-secondary education and training 
programs. At the same time, we need much more information about how to 
reconnect dropouts with both education and family-supporting work.
    Most literacy and adult basic education programs retain learners 
for relatively short periods of time. Therefore, we need to develop new 
types of learning support systems that provide persistent structures 
for adults to follow. These structures might combine periods in which 
adults attend programs, use online materials to work independently or 
with tutors, or receive support services from local community-based 
organizations (CBOs) and volunteer programs, for example. Grants could 
encourage and assist local communities to develop cross-sector, long-
term adult learning support systems, perhaps utilizing technology to 
provide learners and a range of providers and agencies working with 
them shareable information that can be used to foster more learner-
centered integration of services.
    We need research to improve the National Reporting System (NRS), 
the accountability system used in adult education. I support program 
accountability; however, my own research indicates that important 
program impacts are missed by a system that focuses on short-term 
outcomes and narrow measures of literacy and skills development. When 
we compared program participants and non-participants over time, the 
evidence of program impact on learner outcomes depended on the literacy 
measure used and the time period involved. According to these findings, 
the NRS uses too short a follow-up time period for the literacy 
measures it uses; therefore, the NRS may not help programs put their 
best foot forward. Perhaps even more problematic, the NRS may not be as 
useful as it could be for program improvement. A review of the NRS 
could determine whether changing either the type of literacy measure or 
lengthening the time period would better support programmatic 
improvement efforts. Other issues could be examined as well, such as 
making sure that the accountability system gives due credit to programs 
for assisting the lowest-level and hardest-to-serve students. In 
supporting adults and the programs that serve them, we must keep in 
mind the words of William Butler Yeats: ``Education is not filling a 
bucket, but lighting a fire.''
    To assure translation of research into improved educational 
practice, increased support is needed for adult education teacher 
training and professional development. Federal funding once available 
for State Literacy Resource Centers, for example, is no longer 
available and the resources for professional development are highly 
uneven across states. Research can help us determine the role that 
technology should play in providing such teacher training and 
professional development in a cost-effective manner.

Increasing the capacity of the adult education delivery system
    The goal of all this research is to increase both the quantity and 
quality of programs and services, not just so that programs can serve 
more adults--although we certainly need to do that--but also so that we 
increase the persistence of their learning. We want more adults to stay 
in programs long enough to reach their education, job-training, and 
family-supporting employment goals. Better coordination of WIA Title I 
and Title II programs can play an important part in this as long as we 
do not lose the basic educational focus of the Title II programs. The 
stimulus legislation that allows Title I WIBs to fund Title II adult 
literacy providers is an excellent step in this direction, one which I 
hope the Committee will include in the reauthorization. The knowledge 
gained through research can help us develop programs that offer a 
continuum of services across skill levels and life contexts, and engage 
the full range of resources and capacities in learners' communities, 
including full-time and part-time teachers and volunteers, whether 
working in institutionally-based programs or CBOs. Research can also 
help us assess the extent to which adult learners are availing 
themselves of such links to the job training available in their 
communities. Such service continuum is vital to addressing the complex 
issues of adult literacy.

Increasing our research capacity
    In addition to pursuing a systematic research agenda through 
targeted grant competitions, the adult literacy field needs a 
comprehensive research and development center focused specifically on 
adult literacy and learning. Legislation establishing the Institute of 
Educational Sciences (IES) requires the Department of Education to 
operate one or more Centers that address adult literacy issues. 
Although the Department of Education established R&D centers for adult 
literacy that operated successfully for 15 years, first at the 
University of Pennsylvania and then in a collaborative of universities 
led by Harvard University, funding for such a Center has recently been 
discontinued. If the leadership at IES is not interested in recompeting 
a center for adult literacy and education, it is important for other 
legislation to establish one.
    Such a center could be competed and placed at any university or 
network of universities. It should work closely with literacy and adult 
education providers and focus on conducting basic and applied research, 
distilling practitioner knowledge, and disseminating results so that 
practitioners can understand, respond to, and translate research into 
practical programs.
    Wherever such a Center is established, it is essential that it 
conduct research about how programs can best support the learning of 
diverse adult learners to help them meet their long-term educational 
and employment goals. It is critical that the Center be managed in a 
way that keeps it free from political interference and pressures 
unrelated to the needs of the adult education system. It needs the 
independence, with guidance from a suitable advisory board and peer-
review processes, to construct and pursue a long-term research agenda 
using an appropriate mix of exploratory and confirmatory research 
methods.

Summary
    While there are occasional notable research projects, by and large, 
the United States invests little money in research and development that 
would help us increase capacity and improve the quality and 
effectiveness of our adult education system. Considering the importance 
of these services to success in higher education, lifelong learning and 
economic competitiveness, Congress must commit to supporting systematic 
research designed to identify effective ways to increase program 
capacity and effectiveness. I recommend:
    <bullet> Immediately reauthorize WIA Title II to contribute to our 
economic recovery, with a central focus on adults who are not 
functionally literate
    <bullet> Recompete and fund an independent research center for 
adult literacy and education
    <bullet> Focus research on building student persistence, 
reconnecting dropouts, helping the hardest-to-reach learners, and 
supporting successful transitions of adult education students into 
family-wage employment and postsecondary education and training
    <bullet> Develop learning support systems that provide persistent 
structures for adults to follow over relatively long periods of time
    <bullet> Explore uses of technology to increase delivery system 
capacity through online and blended instructional programs and to 
coordinate employment, education and social services
    <bullet> Review and modify the National Reporting System for better 
accountability and program improvement
    Thank you for the opportunity to speak with you. I offer my 
services to the Committee as it continues its work in adult literacy.
                                 ______
                                 
    Chairman Hinojosa. Now I would like to call on Dr. Donna 
Kinerney.

 STATEMENT OF DONNA KINERNEY, PH.D., INSTRUCTIONAL DEAN, ADULT 
         ESOL AND LITERACY PROGRAMS, MONTGOMERY COLLEGE

    Ms. Kinerney. Mr. Chairman and members of the committee, 
thank you for allowing me to share my thoughts with you today.
    My name is Dr. Donna Kinerney, and I am the Instructional 
Dean for Adult English for Speakers of Other Languages--that is 
ESOL--and Literacy to GED Programs at Montgomery College in 
Maryland. As a teacher and program administrator for adult 
English language programs for many years, I will focus my 
remarks on my own experiences, research, and insights gathered 
as a leader in the adult education interest section of our 
professional organization, the Teachers of English for Speakers 
of Other Languages.
    One of the most challenging aspects of serving adult 
English language learners is bringing appropriate services to 
the broad needs of our students.
    For example, there is Maria from El Salvador who wants to 
read to her grandchildren in English, but she is one of the 19 
percent of all immigrants who never made it to high school in 
her country and who struggles with basic English literacy. 
There is Lan from Vietnam, who wants desperately to become a 
nurse but is like the 2.4 million immigrants ages 17 to 24 who 
need more English in order to begin postsecondary education. 
And there is Tekle from Ethiopia, who works as a parking lot 
attendant but would give anything to become an engineer again 
as he was in his country, just like the more than 1.3 million 
other college-educated immigrants who are unemployed or working 
in unskilled jobs, many because of their limited English.
    Like these students, 5.8 million legal permanent residents 
in the U.S. need additional English if they are to fully 
participate in U.S. life. Learning English takes time, an 
estimated 85 to 150 hours of instruction to advance a single 
level. Unsurprisingly, 44 percent of participants in federally 
funded adult ed programs are in ESOL classes. That represents 
just over a million students, a mere drop in the bucket in 
terms of need.
    In my program at Montgomery College, which is the largest 
in Maryland, we offer life skills, ESOL, English literacy and 
civics, and adult basic education-GED. In fiscal year 2008, in 
these programs, we provided over 10,000 seats to almost 5,00 
learners, with 82 percent participating in ESOL or civics 
instruction. English language learners also represent 57 
percent of our ABE-GED students, a traditionally native English 
speaking population in other regions.
    We share in the need for expanded services. We are in a 
suburb of Washington, D.C., not in a State with an enormous 
immigrant population like California and Texas; and yet our 
current wait list for ESOL classes is well over a thousand.
    We have partnered with our local one-stop to provide ESOL 
for a customer service job program that incorporates advising 
and job search support because most adult ESOL learners have 
only a limited understanding of employment and training 
services in the U.S. We have learned much about interagency 
partnerships, workforce training, vocational assessments, and 
case management services along the way and have used that 
knowledge to pilot new conceptualized ESOL and vocational 
training for building trades and health care career pathways.
    There are many promising practices across the U.S., career 
pathways that provide ways for adults to learn English and 
receive workforce training, bridge instruction to move ESOL 
learners to adult basic education GED programs and beyond. 
Ongoing advising and social service supports, like Mr. 
Finsterbusch noted, and extensive professional development are 
all among them.
    I would like to then propose three areas of recommendations 
on ways to improve WIA:
    First, authorize the EL/civics funding program and expand 
the scope of Title II to acknowledge the diverse and specific 
training needs and employment needs of English language 
learners. The current Title II funding formula does not take 
into account the English language learner population, yet ESOL 
services are a primary function under this statute. 
Instructions should support adult ESOL learners with career 
pathways and transitions to postsecondary programs. We must 
include advising and case management services and social 
service supports. To maintain an increased accountability, we 
should create more relevant performance measures supported by 
improved vocational and academic assessments, as my peers here 
today have said.
    Second, increase State leadership funds under Title II and 
encourage States to provide training for adult ESOL 
instructors, administrators, and curriculum designers and 
support adult ESOL teacher credentialing and certification. 
Adult education is chronically underfunded, and issues of 
quality are of constant concern. If we don't want to leave 
children behind, then we shouldn't leave adults behind either.
    Particularly in States that are experiencing increases in 
immigration, teachers may not have had extensive training or 
experience. It is a challenge to find qualified and skilled 
instructors and curriculum developers, particularly for 
vocational ESOL instruction, even for a program like mine that 
is in a major metropolitan area.
    Third, create a research center dedicated to adult 
education that specifically includes a focus on English 
language and literacy acquisition and instruction. Given the 
piecemeal nature of research on adult English language and 
literacy learners, we desperately need a comprehensive research 
center. We lack an in-depth understanding of how to best teach 
English literacy to students who have limited literacy skills 
in their native languages. We do not yet have complete 
information on how to help learners persist or transition to 
other training, yet we are called on every day to implement 
programs that do just these things, and we must do so without 
solid research.
    And, for the record, I would also like to add to support 
the National Coalition for Literacy's request to have a 
professional adult educator on the State and local workforce 
investment boards to strengthen the relationship between 
education and labor.
    I appreciate the opportunity here to talk with you today. 
Thank you.
    Chairman Hinojosa. Thank you.
    [The statement of Ms. Kinerney follows:]

Prepared Statement of Donna Kinerney, Ph.D., Instructional Dean, Adult 
           ESOL & Literacy--GED Programs, Montgomery College

    Mr. Chairman and Members of the Committee, thank you for allowing 
me to share my thoughts on the reauthorization of Title II of the 
Workforce Investment Act (WIA). My name is Dr. Donna Kinerney and I am 
the Instructional Dean for Adult English for Speakers of Other 
Languages (ESOL) & Literacy--GED Programs at Montgomery College in 
Maryland. As a teacher and program administrator for adult English 
language programs since 1989, I will focus my remarks on my own 
experiences, research, and insights gathered as a leader in the adult 
education interest section of Teachers of English for Speakers of Other 
Languages (TESOL), the global professional association for English 
language educators. You've heard of these English programs referred to 
adult English as a Second Language (ESL) or adult English for Speakers 
of Other Languages (ESOL) programs.
    You have undoubtedly met some of our adult ESOL students in your 
travels. One of the most challenging and fulfilling aspects of serving 
adult English language learners is bringing appropriate services to the 
broad needs of our students. For example there is, Maria from El 
Salvador, who wants to read to her grandchildren in English, but she's 
one of the 19% of all immigrants who never made it to high school in 
her country and who struggles with basic English literacy here in the 
U.S. (U.S. Department of Education, 2009). There is also Lan from 
Vietnam, who wants desperately to go to college and become a nurse but 
is like the 2.4 million immigrants, ages 17 to 24, who need more 
English in order to begin postsecondary education (McHugh, Gelatt & 
Fix, 2007). And there is Tekle, from Ethiopia, who works as a parking 
lot attendant, but would give anything to become an engineer again as 
he was in his native country, just like the more than 1.3 million other 
college-educated immigrants who are unemployed or working in unskilled 
jobs many because of their limited English (Batalova & Fix, 2008).
    Like these students, 5.8 million legal permanent residents in the 
U.S. need additional English if they are to fully participate in U.S. 
civic life and/or pass the U.S. citizenship test (McHugh, Gelatt & Fix, 
2007). Learning English takes time; it takes an estimated 85-150 hours 
of instruction to advance a single level under the National Reporting 
System, the framework used by federally funded programs (McHugh, et 
al., 2007). Unsurprisingly, as indicated by the most recent available 
data, 44% of participants in federally funded adult education programs 
are in ESOL classes. That represents just over a million students, a 
mere drop in the bucket in terms of need (U.S. Department of Education, 
2007). It's no surprise that waitlists for adult ESOL have exploded 
across the country--a 2006 survey by the National Association of Latino 
Elected and Appointed Officials found numerous programs reporting 
waitlists from a few weeks to more than three years. And in fact, 
Massachusetts reported a waitlist of over 16,000 for ESOL across the 
state (Tucker, 2006).
    My program at Montgomery College is like many others. We offer life 
skills ESOL, English Literacy and Civics, and Adult Basic Education-GED 
and assist with family literacy programming.
    In FY 08, we provided over 10,000 seats to almost 5000 learners, 
with 82% participating in ESOL or Civics instruction. However, English 
language learners are not only in ESOL programs, as they make up the 
largest demographic in our program and represent 57% of our ABE-GED 
students, a traditionally native English speaking population in other 
geographic regions. We share in the national need for expanded 
services--we are in a suburb of Washington DC, not in a state with 
enormous immigrant population like California or Texas, and yet our 
current waitlist for ESOL classes is well over 1000. As is the trend in 
some regions, our program was administered for many years by the local 
public school system, but in 2005, as part of a local effort to better 
serve the education and workforce training needs of adult learners, our 
program moved to the community college where we are housed under the 
College's Workforce Development and Continuing Education Unit. In our 
new home at Montgomery College, we have partnered with Montgomery 
Works, our local one-stop, to provide an ESOL for Customer Service Jobs 
program that incorporates extensive advising and job search support 
because most adult ESOL learners have only a limited understanding of 
employment and training services in the U.S. We have learned much about 
interagency partnerships, workforce training, vocational assessments, 
and case management services along the way and have used that knowledge 
to pilot new contextualized ESOL and vocational training for building 
trades and healthcare career pathways that will transition our learners 
into other noncredit vocational training programs at the College. In 
need of highly qualified teachers, we are currently piloting our TESOL 
Training Institute, a series of four intensive courses, to help new 
teachers enter the field and veteran teachers improve their skills. In 
addition, to further extend our hand to the community, we work closely 
with the Montgomery Coalition for Adult English Literacy, a nonprofit 
for community-based ESOL service providers to professional development 
opportunities and guidance for programs that are outside of the 
federally funded system. But we could not begin to offer this level of 
service without the hard work of a group of highly qualified and 
enormously skilled full-time staff and part-time teachers.
    From around the country, I hear of programs too numerous to mention 
here that are meeting the needs of adult ESOL learners by developing 
many promising practices. Increasing numbers of programs like those in 
Oregon and Washington are creating career pathways and models that 
provide streamlined ways for adults to learn English and receive 
workforce training. Programs like Yakima Valley Community College are 
creating bridge instruction to move ESOL learners to adult basic 
education and GED programs and beyond. Other programs such as AVANCE 
family literacy programs in Texas and Dorcas Place Family Literacy 
Center in Rhode Island along with affiliates of the National College 
Transition Network have learned, as have we, that ongoing advising and 
social service supports are critical to for learners and their families 
to succeed at all levels including the transition to postsecondary 
education and training. Finally, many programs nationwide, including 
the City College of San Francisco and the College of Lake County in 
Illinois, find, as do we, that ongoing professional development for 
teachers and administrators is absolutely critical in order to 
implement quality programs and develop new curricula.
    Given these experiences, I would like to propose three broad areas 
of recommendations on ways to improve WIA:
    1. Authorize the EL/Civics funding program, and expand the scope of 
Title II to acknowledge the diverse and specific training and 
employment needs of English language learners.
    The current Title II funding formula does not take into account the 
English language learner population yet ESOL services are a primary 
function under this statute. Instructional programming should support 
adult ESOL earners with career pathways and transitions to 
postsecondary programs. To do this well, we must include in Title II 
advising and case management services because adult ESOL learners are 
unfamiliar with education and employment systems in the U.S. and often 
have social service needs that limit their participation. To maintain 
and increase our accountability for this expanded version of Title II, 
we should create more relevant performance measures supported by 
improved vocational and academic assessments that better monitor the 
progress of ESOL programs and learners.
    2. Increase state leadership funds under Title II and encourage 
states to provide training for adult ESOL instructors, administrators, 
and curriculum designers and support adult ESOL teacher credentialing 
and certification.
    Adult education is chronically underfunded and issues of quality 
are of constant concern. In 2003-2004, only 36% of adult ESOL learners 
moved up to the next proficiency level (McHugh, Gelatt, & Fix, 2007), 
and in any year, it is estimated that only 10% of adult ESOL learners 
transfer to certificate or degree programs (Chisman & Crandall, 2007). 
If we don't want to leave children behind, then we shouldn't leave 
adult students behind either. Particularly in states that are 
experiencing increases in immigration, teachers may not have had 
extensive training or experience in working with English language 
learners (Crandall, Ingersoll, & Lopez, 2008; Schaetzel, Peyton, & 
Burt, 2007). With limited budgets and most classes meeting in the 
evenings, full-time instructional positions are rare and so are career 
pathways for adult ESOL teachers. All of this means that is a challenge 
to find and retain qualified and skilled adult ESOL instructors and 
curriculum developers, particularly for vocational ESOL instruction, 
even for a program like mine that is in a major metropolitan area.
    3. Create a research center dedicated to adult education that 
specifically includes a focus on adult English language and literacy 
acquisition and instruction.
    Given the piecemeal nature of existing research on adult English 
language and literacy learners, we desperately need a comprehensive 
center that will undertake these efforts if we are to meet learner 
needs. We lack, for example, an in-depth understanding of how to best 
teach English literacy to adult ESOL students who have limited literacy 
skills in their native languages. We do not yet have complete 
information on how to help adult ESOL learners persist or transition to 
other training. And yet, we are called everyday to implement programs 
that do just these things and we must do so without the benefit of a 
solid research base.
    Thank you again for the invitation to speak today. We in adult ESOL 
programs hope to participate at every table where adult education and 
workforce training are being discussed. We look forward to an even 
brighter future serving our students, Maria, Lan, and Tekle, and the 
millions of others waiting to learn English.

                               REFERENCES

Batalova, J. & Fix, M. (2008). Uneven progress: The employment pathways 
        of skilled immigrants in the United States. Washington, DC: 
        Migration Policy Institute. Retrieved May 1, 2009 from http://
        www.migrationpolicy.org/pubs/BrainWasteOct08.pdf.
Chisman, F. & Crandall, J. (2007). Passing the torch: Strategies for 
        innovation in community college ESL. Executive summary. New 
        York: Council for the Advancement of Adult Literacy. Retrieved 
        May 1, 2009 from http://caalusa.org/eslpassingtorch226.pdf.
Crandall, J., Ingersoll, G., & Lopez, J. (2008). Adult ESL 
        credentialing and certification. Washington, DC: Center for 
        Applied Linguistics. Retrieved May 1, 2009 from http://
        www.cal.org/caela/esl--resources/briefs/tchrcred.html.
McHugh, M., Gelatt, J. & Fix, M. (2007). Adult English language 
        instruction in the United States: Determining need and 
        investing wisely. Washington, DC: Migration Policy Institute. 
        Retrieved May 1, 2009 from http://www.migrationpolicy.org/pubs/
        NCIIP--English--Instruction073107.pdf.
Schaetzel, K., Peyton, J.K., & Burt, M. (2007). Professional 
        development for adult ESL practitioners: Building capacity. 
        Washington, DC: Center for Applied Linguistics. Retrieved May 
        1, 2009 from www.cal.org/caela/esl--resources/briefs/
        profdev.html
Tucker, J. T. (2006). The ESL logjam. Waiting times for adult ESL 
        classes and the impact on English learners. National 
        Association of Latino Elected and Appointed Officials 
        Educational Fund. Retrieved May 1, 2009 from http://
        www.naleo.org/downloads/ESLReportLoRes.pdf.
U.S. Department of Education, National Center for Education Statistics 
        (2009). Issue Brief. English Literacy of Foreign-Born Adults in 
        the United States: 2003. Washington D.C.: U.S. Department of 
        Education. Retrieved May 1, 2009 from http://nces.ed.gov/
        pubs2009/2009034.pdf.
U.S. Department of Education, Office of Vocational and Adult Education 
        (2007). Adult education annual report to Congress 2004-2005. 
        Washington D.C.: U.S. Department of Education. Retrieved May 1, 
        2009 from http://www.ed.gov/about/offices/list/ovae/pi/AdultEd/
        congressionalreport04-05.pdf.
                                 ______
                                 
    Chairman Hinojosa. At this time, I would like to call on 
Dr. Roberta Lanterman.

 STATEMENT OF ROBERTA LANTERMAN, PROGRAM DIRECTOR, LONG BEACH 
                        FAMILY LITERACY

    Ms. Lanterman. Good morning. My name is Roberta Lanterman, 
and it is a privilege to be with you here this morning.
    I have worked for the cause of literacy for more than 25 
years. Currently, I am the Director of the Long Beach Family 
Literacy Program in Long Beach, California.
    I would like to talk to you today about education 
partnerships that work--between parents and children, between 
the public sector and the private sector, between programs 
serving generations of learners.
    In my early days as an educator, we made incremental 
progress, but there were barriers we could not overcome because 
parents were not literate. They could not help even if they 
wanted to. It was then that I saw the light. The problem is 
systemic, and the solution was to reach both generations 
simultaneously, helping adults while helping our youngest 
learners side by side.
    All too often, we compartmentalize education: early 
childhood, adolescent, adult ed, workforce training. We take 
limited aim at our problems by running from issue to issue, 
program to program, without remaining focused on the systemic 
issues that are causing our education and workforce problems.
    Studies show there is a direct correlation between the 
education of a parent, the poverty status at the home and the 
likeliness of the child's success in school. Addressing the 
needs of the entire family is a powerful community strategy for 
raising educational levels, improving workforce skills, and 
breaking the cycle of poverty.
    Consider Margarita, one woman who made the decision to join 
our family literacy program and not only changed her life but 
also the lives of her three daughters. Her dream was to become 
a teacher, but obstacles got in the way. She was orphaned. She 
became pregnant and moved to a country where she didn't know 
the language and had to sleep in the water heater room instead 
of a bedroom. Her husband's drinking problem was endangering 
the children, and she worked two very low-wage jobs.
    Through family literacy, she learned English, became 
involved in her children's education and revived her dream of 
becoming a teacher. Today I am proud to say that Margarita is a 
U.S. citizen. She will soon graduate from college and has 
become a certified preschool teacher for the Long Beach Unified 
School District.
    But the effects of family literacy reach beyond Margarita. 
Her oldest daughter graduated from college and started her own 
business. Another one is studying to become a paralegal, and 
her third is enrolled in the gifted program in the high school.
    So let me tell you about Long Beach Family Literacy. We 
have been in operation since 1992. We serve as a model for 
other literacy efforts and have been lauded as a national 
example by the Annie E. Casey Foundation.
    Our program includes four components: adult education, 
parent education, parent and child time together, and early 
childhood education. We provide adults and their children with 
the skills and resources necessary to be successful in their 
education, financially secure and productive members of their 
communities. They become lifelong learners, which has never 
been more important than this global, high-tech economy. 
Seventy-three percent of our participants are at or below the 
Federal poverty level, and 61 percent have not gone beyond the 
9th grade.
    By addressing the needs of parents and children 
simultaneously, we are outperforming stand-alone programs. We 
exceed State benchmarks year after year. Our most recent adult 
outcomes show that parents made gains that are more than double 
the State reading proficiency benchmarks. Our children who 
entered kindergarten increased their English language skills at 
a rate of 2.5 more than the Federal benchmark. Children in our 
program leave preschool possessing the skills to succeed in 
kindergarten and beyond, and their parents simultaneously gain 
the language and literacy skills to support them. Our program 
also ranks in the 90th percentile for attendance and retention.
    We continue to implement new measures that ensure 
innovation and success. In 1998, we joined forces with the 
Pacific Gateway Workforce Investment Network to integrate 
family literacy and welfare-to-work programming. The model is 
still in place. The partnership with our local Workforce 
Investment Act employment entity is invaluable in bridging the 
gaps between education and employment for families in need.
    Last year, we were awarded a grant from Toyota to bring our 
program to Hispanic families, to expand to three elementary 
school sites. The Toyota program, created by the National 
Center for Family Literacy, brings parents and children 
together in classrooms and includes culturally relevant 
programming.
    The need is great in Long Beach. Forty-two percent of the 
population is low income, and the unemployment rate exceeds 10 
percent. The good news is that our entire community is 
responding to our success. Small businesses support our 
efforts. They know that educated community members make better 
employees and consumers. Local McDonald's operators are opening 
their doors for Family Mealtime Literacy Nights to provide 
workshops and meals to help families improve their literacy 
skills.
    Family literacy is essential to supplying a 21st century 
workforce. The Toyota/NCFL model doesn't only just work in Long 
Beach but in both urban and rural settings. That is why it is 
crucial for the Workforce Investment Act initiatives to support 
our family literacy efforts. Parents pass along more than just 
eye color and other genetic traits to their children. They 
instill values and attitudes towards learning and education. 
Stronger literacy skills across multiple generations benefit 
family, communities, and the national economy. It is simply too 
urgent to address only one generation at a time, one 
programmatic element at a time.
    So I strongly encourage Congress to continue to support 
family literacy programs as an important delivery model in the 
provision of the adult education services.
    Thank you.
    Chairman Hinojosa. Thank you very much.
    [The statement of Ms. Lanterman follows:]

        Prepared Statement of Roberta Lanterman, Family Literacy

    Good morning. My name is Roberta Lanterman. It is a privilege to be 
with you this morning.
    I have worked for the cause of literacy for more than 25 years. 
Currently, I am the director of the Long Beach Family Literacy Program 
in Long Beach, California and the training coordinator for the 
McDonald's Family Mealtime Literacy Nights. Previously a kindergarten 
and preschool teacher, I also have been a certified trainer for the 
National Center for Family Literacy for more than 10 years. That 
experience has allowed me to tap into national best practices and 
research for the benefit of the children and parents I serve.
    I would like to talk to you today about education partnerships that 
work--between parents and their children, between the public sector and 
private businesses, and between programs serving generations of 
learners.
    In my early days as an educator, we made incremental progress, but 
there were barriers we could not overcome because parents were not 
literate. They could not help even if they wanted to. It was then that 
I saw the light. The problem is systemic, and the solution was to reach 
both generations simultaneously--helping adults while helping our 
youngest learners side-by-side.
    All too often, we compartmentalize education--early childhood 
education, adolescent education, adult education, workforce training. 
We take limited aim at our problems by running from issue to issue, 
program to program, without remaining focused on the systemic issues 
that are causing our education and workforce problems.
    We must focus on the interconnectedness of the problem, which will 
lead us to a real, longlasting solution--educating the entire family. 
Studies show there is a direct correlation between the education of the 
parent, the poverty status of the home and the likelihood of the 
child's success in school. RAND Corporation research, ``Are L.A.'s 
Children Ready for School,'' conducted in 2004, is one such study.
    Addressing the needs of the entire family is a powerful community 
strategy for raising educational levels, improving workforce skills and 
breaking the cycle of poverty.
    Consider Margarita--one woman who made the decision to participate 
in our family literacy program, and not only changed her life, but also 
the lives of her three daughters.
    Her dream was to become a teacher. But obstacles got in the way. 
She was orphaned. She became pregnant and moved to a country where she 
did not know the language and had to sleep in the water heater room 
instead of a bedroom. Her husband's drinking problem was endangering 
the children, and she worked two low-wage jobs.
    Through family literacy, she learned English, became involved in 
her children's education and revived her dream of becoming a teacher. 
Margarita has become a U.S. citizen, will soon graduate from college at 
California State University and has become a certified preschool 
teacher. But the effects of family literacy reach beyond Margarita. One 
daughter graduated from college and has started her own business. 
Another is studying to become a paralegal, and a third is enrolled in a 
gifted program in high school with an emphasis on international 
business.
    In 2007, Education Week issued a report that underscores family 
literacy's philosophy, ``From Cradle to Career: Connecting American 
Education from Birth to Adulthood.'' Importantly, more than half of the 
13 categories used to predict children's future success dealt with 
issues surrounding parents and other adults. Another category 
(preschool enrollment) is directly related to parents' actions and 
value of education. Family income, parental educational attainment and 
parental employment were the three leading categories. Successful 
states had strong results in those categories, which served as a 
springboard for success in the remaining measures related to children's 
education.
    One of the reasons the home environment is so important is that 
students spend five times as much time in communities and with their 
families as they do at school, so educators cannot conquer this 
challenge alone. Parents must be educated.
    Let me tell you a little bit about the Long Beach Family Literacy 
Program that has been in operation since 1992. It serves as a model for 
other literacy efforts and has been lauded as a national example by the 
Annie E. Casey Foundation.
    My program includes four components: adult education, parent 
education, parent and child together time, and early childhood 
education.
    We provide adults and their children with the skills and resources 
necessary to be successful in their education, financially secure and 
productive members of their communities. They become lifelong learners, 
which has never been more important in this global, high-tech economy.
    Seventy-three percent of our participants are at or below the 
federal poverty level, and 61 percent have not gone beyond the ninth 
grade.
    By addressing the needs of parents and children simultaneously, we 
are outperforming stand-alone programs. We exceed state benchmarks year 
after year in adult education proficiency, preschool vocabulary and 
preschool alphabet knowledge.
    Our most recent adult outcomes show that parents made gains that 
were more than double the state reading proficiency benchmarks. Our 
children who entered kindergarten increased their English-language 
skills at rate of 2.5 times more than the federal benchmark. Children 
in our program leave preschool possessing the skills to succeed in 
kindergarten and beyond, and their parents simultaneously gain the 
language and literacy skills to support them.
    Our program ranks in the 90th percentile for attendance and 
retention because we do not let families fall through the cracks. We 
know if they come to our program consistently, they will reach their 
goals. It is that simple, but at the same time, it is that complicated.
    For example, Cecilia was coming to the Toyota Family Literacy 
Program with her young daughter. But, after leaving her abusive 
husband, she moved into a domestic violence shelter 30 miles away. The 
shelter staff wanted her to quit the family literacy program and find 
immediate employment, but Cecilia daughter persevered--knowing the 
commitment would lead to long-term stability. She and her daughter took 
a train 30 miles to the program. As a result, she received her high 
school diploma with honors and is attending Long Beach City College to 
become an art teacher instead of being stuck in a low-wage job. Cecilia 
still comes to our program--taking two buses just to get here. She 
turned a nightmare into a personal triumph.
    Our efforts address the educational needs of children and their 
parents to create literate home environments and prepare adults to 
enter the workforce.
    We continue to implement new measures that ensure innovation and 
success. In 1998, we joined forces with the Pacific Gateway Workforce 
Investment Network to integrate family literacy and welfare-to-work 
programming. The model is still in place. The partnership with our 
local Workforce Investment Act employment entity is invaluable in 
bridging the gaps between education and employment for families in 
need.
    Last year, we were awarded a grant from Toyota to bring our program 
to Hispanic families and expand our program to three local elementary 
school campuses. Of nearly 200 national applicants, Long Beach was 
among the top five in nation. The Toyota program, created by the 
National Center for Family Literacy, brings parents and children 
together in classrooms and includes culturally relevant programming.
    Core services are provided through funding from First 5 Los Angeles 
and Toyota. But part of the key to sustainability is that we don't rely 
on just one or two funding streams. We hold fund-raisers with vendors 
and apply for grants from community foundations. We also request in-
kind services and resources from our award-winning school district and 
our Workforce Investment Act partner.
    The need is great in Long Beach--42 percent of the population is 
low-income, and the unemployment rate exceeds 10 percent.
    The good news is the entire community is responding to the success 
they see. Small business owners realize that educated community members 
make better employees and consumers. Local McDonald's operators are 
opening their doors for Family Mealtime Literacy Nights to provide 
workshops and meals to help families improve their literacy skills 
together.
    Family literacy is crucial to supplying a 21st century workforce. 
The Toyota/NCFL model has been successfully implemented in both urban 
and rural settings--from New York, Chicago and right here in D.C. to 
Shelby County, Alabama; Wichita, Kansas; and Springdale, Arkansas. The 
Springdale program was featured in a recent issue of PARADE Magazine.
    Results from the Toyota programs already implemented include:
    <bullet> Significant literacy gains by adults with 54 percent 
improving literacy scores by at least one level. This has contributed 
to an improved understanding of basic oral and written instructions in 
English, reading a note from a teacher, setting up a doctor's 
appointment, and displaying basic computer literacy skills (word 
processing and sending e-mail);
    <bullet> Children in the program exceeded peers in such areas as 
academic performance (79 percent), motivation to learn (86 percent), 
attendance (96 percent), classroom behavior (91 percent), and 
involvement in classroom activities (88 percent);
    <bullet> 92 percent of parents stating they are better able to help 
their child with homework; and
    <bullet> 91 percent of parents stating their child's grades have 
improved.
    The needs of New York City are obviously different from the needs 
in Springdale, Arkansas, but the flexibility of family literacy 
programming yields success for all communities.
    That's why it is crucial for Workforce Investment Act initiatives 
to support family literacy efforts.
    Parents pass along more than just eye color and other genetic 
traits to their children. They instill values and attitudes toward 
learning and education. Stronger literacy skills across multiple 
generations benefit families, communities, and the national economy. 
It's simply too urgent to address only one generation at a time, one 
programmatic element at a time.
    I strongly encourage Congress to continue to support family 
literacy programs as an important delivery model in the provision of 
adult education services.
                                 ______
                                 
    Chairman Hinojosa. Now we are going to move into the heart 
of this hearing on questions, and I am going to recognize 
myself for 5 minutes.
    The first question would go to Ms. Gretchen Wilson. Do you 
have suggestions on how awareness of adult literacy resources 
and programs can be raised in both the rural and the urban 
communities across our country?
    Ms. Wilson. Suggestions on how we can raise awareness. 
Without funding? I mean, I am a businesswoman myself, and you 
have to spend money to get any kind of a message out. So other 
than--I mean, I think we are all doing what we can do on our 
own levels.
    I myself, I am on tour. I have shows that I perform in 
front of, you know, sometimes a few hundred, sometimes a few 
thousand people; and I am preparing to educate people on my 
screens, on tour, to let people know how easy it actually was 
to find the adult education center.
    I didn't have any idea how to do it. I went to the local 
high school and said, how do I get a diploma? I didn't even 
know where the building was. It is not a very large town that I 
am from. So I am not sure if I have any answers on that.
    I think what I am here to do and I think what I am willing 
to do is any suggestions that anybody else has. I think we are 
all willing to do everything we can, no matter what it is.
    Chairman Hinojosa. Gretchen, thank you. I can assure you we 
are going to do everything we can to raise the amount in the 
appropriations so that there will be the resources necessary to 
raise that level of awareness, and I thank you for making us 
realize that we have got to have money to be able to do that 
kind of a marketing program and thus raise the level of 
awareness. So we thank you for your suggestion.
    My next question will go to Martin Finsterbusch. Why do you 
think adults drop out of literacy programs so frequently before 
completing their learning goals?
    Mr. Finsterbusch. Why they drop out? There is a lot of 
reasons why people drop out. I will try to explain this the 
best I can. There is a lot--relax, Marty. I am sorry.
    Chairman Hinojosa. Take your time.
    Mr. Finsterbusch. All right. The reason why people come in 
the program I tried to describe is that there is more reason 
why people come into a program than there are leaves on a tree. 
We all have different reasons why we come in. But then again in 
our society, why we fail out, sometimes it could be the 
requirements, the sitting in a classroom. You have family 
obligations. Where is that program? And then when you come into 
a program, you found your program at that library someone told 
you. So coming into the system, it all depends on the program 
you hit.
    And then there is that program meeting the needs that you 
want. For example, if you just lost your spouse who then did 
your checkbook for you and paid your bills for you and you now 
have to do with that and you go to a program and say, I need 
help how to read, well, I will help you how to read, but it 
will going to take us 2 to 3 years to help you. But I need to 
learn how to do my checkbook now. If a program can't meet that 
person's needs, they are going to go.
    If another person comes in and said, look, my job just got 
transferred over to another country. I need to learn how to 
fill out this application now. And the program says, okay, 
well, we are going to have you read, teach you how to read but 
don't address how to fill out that application now, they are 
going to leave.
    So immediate needs have to be addressed by adult education 
if you don't want us to leave. And that is one I think of the 
biggest reasons.
    Chairman Hinojosa. Thank you.
    My next question I want to direct to David Bere. What are 
some of the barriers that small- and medium-sized businesses 
face in helping employees improve their literacy skills?
    Mr. Bere. I think there are two things we need to think 
about. You mentioned----
    Chairman Hinojosa. I don't think your speaker is on.
    Mr. Bere. Sorry. Two things for--I think one of the biggest 
barriers right now is just awareness, what you mentioned 
before. As I have gotten into this in the last 18 months to 24 
months, I have been stunned by the statistics; and it has been 
a real concern going forward for our business and other 
businesses.
    I think the other big barrier--so I think awareness, 
understanding, and then a third thing is funding. Small 
businesses--you know, we are a large corporation. We have a lot 
of passion for this. We can afford a lot of the training that 
we are doing and a lot of the programs that we are doing. But 
from a small business standpoint, I think it is difficult for 
them. So any type of tax incentives and things of that nature I 
think would be very beneficial to them.
    Chairman Hinojosa. I agree with you that resources are 
necessary; and assuming what I said earlier, that the 
appropriations will be increased, how can we leverage both the 
private sector investment in money and timed resources with the 
Federal investment so that there would be greater success?
    Mr. Bere. That is a great question, and I don't know if I 
have the answer to that other than what you just said. I think 
it is extremely important. We have found in the programs that 
we have been involved with when there is partnership between 
the private sector and there is--and the not for profit and the 
company, you get a lot better success. So the examples that we 
have had is we have been able to either get the cooperation of 
a State or funding from a State. You combine that funding from 
our resources.
    And then the other thing that is really important from a 
best practices standpoint, we have been very clear on the goals 
that we want, we are trying to accomplish. It is usually around 
a specific area. It could be region and specific goals against 
an educational goal. I think it is very important that we are 
clear on the outcomes that we are trying to get, and I think it 
is very important that we continue to measure those things.
    And then the fourth thing is the partnership. So we have to 
figure out exactly what you just said.
    Chairman Hinojosa. We will work on that. I think you are 
very thorough, and I appreciate that.
    I would like to call on Congressman Guthrie for his 
questions.
    Mr. Guthrie. Thank you very much. My first one will be for 
Ms. Wilson.
    I worked in a manufacturing plant before I came here, and 
there was a lady who is a little older now, but was 19. She had 
got married, had a baby and didn't go to college, and she 
obviously had the talent and opportunity. So we really 
encouraged her. She kind of rose up through the ranks, and 
wanted to be a supervisor, so we wanted her to get some 
background and sent her to school and tutored her.
    And she came to me afterwards. I said, how was it? She 
said, you know what, it really impressed upon me how much it 
affected my children. I mean, my children seeing me study made 
them want to study more.
    And there is a lady at Vanderbilt in Nashville that wrote a 
book, and the quote I will take out of the book is if you want 
to educate a child, educate its mother. And there is a lot of 
research that shows that. And so I met your daughter just 
earlier, and I--just the experience of you, if you could share 
that, if you wouldn't mind, the sense of you going to school 
and what it did for her in school.
    Ms. Wilson. I really don't think that I had any idea when I 
made the decision, because I really made the decision to go 
back and finish my education for me. It was something that was 
a desire that I had, and it was something that was missing for 
me. I really didn't actually think about it, you know, how it 
would affect my daughter until I got involved in it.
    You know, she was proud of me, and that, I think, maybe is 
the first time that I have seen that look in her eye. You know, 
to have my daughter there at graduation with me was--I know it 
wasn't the way it was supposed to work, but I wouldn't have 
changed it for anything now.
    I think--like I said earlier, my mother, my mother dropped 
out. She didn't finish school, and I am almost positive that 
that is the reason why I found it unimportant to myself.
    And I know that I am setting a good example by doing this, 
and I know that by finishing this and--you know, I am also--I 
am interested in having a college education. Musical careers 
don't last forever. So I know now that my education will 
continue, and I will go on, and hopefully I will continue to be 
inspiring to her. I don't want her to think that these sort of 
things that happened for me happen for everybody. They are very 
few and far between.
    So we have to make sure that parents out there are 
educating their children on, you know, hey, you are not going 
to be Mr. Basketball U.S.A., you might not be a country music 
mama over here; you might have to really, really work and have 
an education. And I think it is important for people like me, 
and that is why I am here today, to show that to everyone else. 
This doesn't happen to everyone. It may have not happened for 
me, and I should have had a backup plan, and I didn't, but now 
I do.
    Mr. Guthrie. Well, I think you said when we were talking 
earlier, too, and I just want to comment that, you know, you 
are a star, and you are now getting your degree, but it was 
hard work. You just didn't all of the sudden become a famous 
person. You worked hard, and people who work hard at it can get 
there. We need to have the opportunity for people willing to 
work hard and want to work hard to get there. I think that is 
what we need to be focused on in this.
    Mr. Reder, I am working on something in Kentucky. We have 
an estimated 20 percent that are functionally illiterate when 
we were doing some studies. We were looking at trying to bring 
technology, because just the numbers to have tutors--you should 
have the numbers. You couldn't tutor enough people to get the 
level of education, the level they need and the people in the 
college.
    And so we were doing some experiments with technology and 
talked with Dollar General on that, as I mentioned earlier. Are 
you seeing--I know you are using technology to teach teachers. 
Are you seeing that technology--because my first impression of 
that was people would be kind of scared of technology if they 
were functionally illiterate, but we haven't really seen that. 
They have actually been able to use technology to try to get--
we want to find something that is replicable, that we can put 
it everywhere and people can have access to it, because the 
one-on-one, just the numbers are too big. Could you comment on 
what you have done with technology in that respect?
    Mr. Reder. Well, technology is one of the areas I was 
suggesting. I offered great potential for increasing the 
capacity and effectiveness of our programs. We need to do 
research and development to actually, you know, develop those 
technologies to the point where I can really answer your 
question. That is one of the reasons I am calling for a 
research center that can look at that question.
    Mr. Guthrie. We set up a program in Kentucky. It's called--
the group that is doing this is CCLD, the Collaborative Center 
for Literacy Development, at University of Kentucky, and we are 
trying to see how can we adapt technology just to get to the 
masses that way. So maybe there is an opportunity to look at 
that further.
    Mr. Reder. I think, you know, using it for distance 
delivery, you know, letting adults study, you know, with 
technology on line and so forth, and increasingly the younger 
adults coming through the system are very comfortable with 
technology, unlike when I went through the system.
    But I think there are other ways technology can be very 
valuable, too, trying to create sort of an anywhere, anytime 
learning plan that goes with the adult when they stop in and 
out of a program. As Gretchen said, life often makes it very 
difficult to, you know, stick in a program. So if we had these 
more transportable, you know, systems that lots of service 
providers could interact with, I think it would really build 
the kind of persistence that we see as being essential to 
adults reaching their dreams.
    Mr. Guthrie. I see my yellow light real quick, and I just 
want to comment, because I am not going to be able to ask a 
question, on the ESL. If the mother's education level 
correlates, then if you have a mother that is not educated in 
her native language and doesn't speak English as a first 
language, that is an area we definitely have to address, and 
hopefully we will do that this summer.
    And then on the tipping point, and I won't ask--I have got 
a red light--but how do you determine what is enough? Is there 
some standard you say that they have reached enough education? 
I think that was in the comment.
    Ms. Cooper. The tipping point research indicated that 
enough to get to that bottom rung is essentially 1 year of 
college. In our State, that would be 45 credits and a 
recognized credential or certificate.
    Chairman Hinojosa. Very good.
    I would like to now call on our friend, Congressman Andrews 
from New Jersey.
    Mr. Andrews. Thank you, Mr. Chairman. Thank you for this 
series of hearings that you are holding. I find them to be very 
edifying, and I appreciate your efforts. I thank the panelists 
for excellent testimony.
    Ms. Wilson, your testimony was powerful, and it just 
beautifully captured the reason we care so much about this 
issue, and I congratulate you for what you have accomplished in 
your life. It is very impressive. It is really great.
    One of the things I am hearing from the panel is that 
research really needs to drive what we do on this law and in 
this program. Dr. Reder, in particular, I was interested in the 
longitudinal study in which you engaged, and I want to ask you 
some more questions about it. My understanding is you tracked 
1,000 high school dropouts for 10 years; is that right?
    Mr. Reder. Close to 10 years; 9 years plus, yes.
    Mr. Andrews. How many of those 1,000 people were low 
literacy, at the two lowest levels of literacy?
    Mr. Reder. We had a broad spectrum of skills. There were 
individuals--among the dropouts we followed, some actually had 
very high levels of skill; others had very low levels of skill. 
I would say it was a broad distribution. About a third of them 
over that 10-year period went on to get a GED.
    Mr. Andrews. Well, the question I asked, though, is we have 
had testimony this morning that roughly 30 percent of the 
population is at the two lowest levels of literacy. Was that 30 
percent tracked in your 1,000 sample, or was it higher than 
that?
    Mr. Reder. I would say in Oregon, where we drew our sample, 
literacy levels are a little higher than they are in the rest 
of the country, but we have the full--we had the full range in 
our study.
    Mr. Andrews. Of the subset of the 1,000 that had low 
literacy skills, how many of them accessed a literacy program 
during the 10 years?
    Mr. Reder. I would say it was about 20 percent. That is a 
rough guess. I would have to go look.
    Now, one of the things that is different in our population 
is that it was restricted in age, so people were 18 to 44 years 
old at the beginning of our study. So we didn't have the older 
population who tends not to participate. That is why that 
number is a little higher. We also did not have--we had 
nonnative speakers of English, but not low levels of English 
proficiency.
    Mr. Andrews. Now, is it correct that the 20 percent or so 
that accessed literacy programs had a better success rate in 
terms of employment and earnings than the 80 percent who did 
not?
    Mr. Reder. When you look over a long time period, that is 
correct. That is one of the events I said we need to really 
follow people over long periods of time.
    Mr. Andrews. By what order of magnitude did they have 
greater success? Did 20 percent more have jobs and make 30 
percent more money? What order of magnitude of that success?
    Mr. Reder. I am going to have to actually, you know, 
provide more information. I don't have that----
    Mr. Andrews. I tell you why I ask these questions. This is 
not a Jeopardy round here.
    The argument that we will always hear when we try to fund a 
program like we are talking about today is, well, everybody 
wants funded and everything is desirable. This strikes me as a 
particularly great example of how a dollar invested can 
multiply many, many, many times over.
    I suspect that the cost of literacy services for those 20 
percent that access the program wasn't very much at all, but 
the taxes that they paid because of the income they made far, 
far exceeded the amount that was invested. It would be very 
helpful for the Chairman and the rest of us, as we try to 
increase the money for this program, to be able to master those 
facts and be able to commend. So you would be a big help to us 
in that regard.
    The final question I want to ask was about distance 
learning. Is anybody aware of any data that would show the 
differences, if any, in the performance for distance-learning 
services versus traditional services? In other words, one of 
the things people sometimes suspect about distance learning is 
it is not as effective as in-person learning. I don't accept 
that premise at all, and I would be interested if anybody has 
any data about the quality of performance in literacy programs 
for distance learning as opposed to traditional.
    Mr. Reder. I don't have that data, but I know where you can 
get it. The State of California, that has a very extensive 
distance education component in their adult education program, 
has quite a bit of data on the effectiveness of traditional 
classes, on-line classes and blended classes; that is, classes 
where students both go to traditional classrooms as well as use 
on line.
    Mr. Andrews. One of the reasons that I raise this issue is 
it has both cost and equity implications. A lot of our 
individuals we are trying to help here live in rural areas that 
are not easily accessible to schools and other institutions. 
And then, frankly, those who live in urban areas have 
transportation issues and child-rearing issues. It just isn't 
very easy to get where you need to get at a given time.
    And I am interested in whether distance learning helps to 
solve those problems, whether it is effective or not. I suspect 
that it is.
    Ms. Wilson, did you want to say something about that?
    Ms. Wilson. I just wanted to say that I didn't have time. I 
wanted to be at this program.
    Mr. Andrews. How old is your daughter, by the way?
    Ms. Wilson. She is eight.
    Mr. Andrews. Is she here?
    Ms. Wilson. Yeah.
    Mr. Andrews. Well, that is great. She should be very proud 
of her mom, and someday she will be up here testifying. That is 
great.
    Ms. Wilson. But I didn't have the time that I know that 
they really wanted me to have to be able to sit in there and be 
one on one and be in that classroom. I had to take the books 
and learn and go on tour and to study out there and to soak up 
everything I could. It seemed to work just fine for me because 
I wanted it. And I really think it would solve a lot of the 
people's financial problems: Well, I can't go in there and work 
on this education because I have to be at work; they can study 
away from a classroom. They can actually do it on their own 
time.
    Mr. Andrews. I suspect that you probably do a lot of things 
at 2:00 and 3:00 in the morning, because that is the only time 
you had to do them as a mom, as a working mom, but if some of 
that could be your coursework, I assume it would work very 
well.
    Ms. Wilson. Yes.
    Mr. Andrews. I am very interested in whatever we can do, 
Mr. Chairman, to validate that interest in distance learning.
    Chairman Hinojosa. If any of the panelists can give us 
answers to Mr. Andrews' questions, we would appreciate it.
    [The information, submitted by Mr. Reder, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Mr. Andrews. Thank you, Mr. Chairman. I thank the panel.
    Chairman Hinojosa. At this time I would like to call on 
Congressman Roe and have him ask his questions.
    Mr. Roe. Thank you, Mr. Chairman. I must have gone the 
other way. I overdosed on education. I was in school for 24 
years, so--but thank you, Gretchen, for being here today, and 
it is Grace that is back here. We didn't introduce her earlier, 
and I apologize for that.
    I think that you weren't lucky. I think you are very 
talented and worked very hard, and I think that is--I think 
that is the impression that you have given everybody, and that 
is what you want to do to motivate people to get them to do 
what you did. You can do it if you want to. Just what you said, 
how busy you were--and you are incredibly busy--to be able to 
take the time, you place the importance on it. I think that is 
one of the problems that we have in education is that we don't 
value it. It is an investment, not a cost.
    And as we were talking in our meeting before here, if you 
get a high school education, you will earn a half million 
dollars more in your lifetime; and if you have a college 
education, you will earn a million dollars more on average in 
your lifetime, which changes not only your life, but your 
family and those around you and your friends.
    Mr. Andrews asked an excellent question. He had to leave. 
But in Tennessee I supplied some data where 14,000 or so GEDs 
were issued in 2007 and 2008, and this was at a cost of only 
$275.19 per student. If there is not a better investment in the 
world, I don't know it, and I have seen any number of programs 
come through where we spend $5-, $10-, $15,000 per participant. 
In the State of Tennessee, $275.19, and that improved that 
person's who got that GED, their income, by over $9,000 a year. 
And you multiply that times 14,000, and you get how much more 
tax dollars came in, not going out.
    So I think that answers the question. And I am sure this 
same data is available in every State in the Union.
    Workforce development is a huge issue, and, Dave, I want to 
ask you if you could expound on if the education level makes it 
difficult for you to find qualified employees for your 
business.
    Mr. Bere. Yes, there is no question. As I said in my 
testimony, when I first got into this, I was really astounded 
by the statistics and worried about our own growth plans as we 
were going forward. And I think another big awareness of the 
issue is we have got to get the business community to really 
understand that this is a big issue, and that we are going to 
be in trouble as a business community if we don't solve this 
relatively quickly.
    It really comes down to, you know, every job that we have 
at Dollar General or any company, whether it be in the 
distribution center, whether it be in the stores, there is 
certain basic skills that you need, and some people don't even 
have the chance to even get to that level. But once you get to 
that level, then you have to keep growing your skill set. So 
having on-site training programs is something that is extremely 
important.
    And then the other piece is it changes. The technology 
changes. Every year in our distribution system we are putting 
in new capital that require new skills to run that capital. We 
have new POS systems that go into our stores. So it is a 
constant building of skills over time, and your great 
companies, if they figure out how to do this constantly, do 
that. The issue we have here is that there are some basic 
skills that they can't get to second, third and fourth level.
    Mr. Roe. I recall one of my anatomy professors in medical 
school said, I can teach you to practice medicine 1 year 25 
times, or I can teach you to practice 25 years. And what you 
are saying is that is a lifelong learning, and I think what we 
have heard today, we have the No Child Left Behind Act. We 
should have the No Adult Left Behind Act.
    As mayor of our city, Johnson City, Tennessee, before I 
came here, that was one of the great challenges I discovered 
was how do we get the folks out there who are talented and 
bright, how do we get them educated, and that is a real 
challenge. And I think one of the greatest challenges we have 
in this country, as we spoke before, there are more honor 
students in China than we have students in America. So we have 
got to get with it, and this is an opportunity, I think. It is 
a huge opportunity to spend a little bit of money and get a 
humongous result.
    My light is on. I thank all of you, and I yield back my 
time.
    Chairman Hinojosa. Thank you.
    At this time, I would like to call on the gentleman from 
Colorado, Congressman Jared Polis.
    Mr. Polis. Thank you so much, Mr. Chairman.
    The percentage of exiters from the adult program with 
limited English proficiency who received intensive training has 
dropped considerably from a high of 8 percent in 2002 to 3.8 
percent in 2007, by more than half. I think we all know and 
suspect that that is not because of a lack of demand or a 
reduction in the need for these services.
    In addition, the share of exiters who are coenrolled in 
Title I and Title II decreased from 2.5 percent in 2001 to .2 
percent in 2002. In my home State of Colorado, Title II serves 
only an estimated 3 percent of the target population.
    My first question is for Dr. Kinerney, and it is about what 
changes do you recommend in the reauthorization of WIA to help 
reverse these trends? Not the obvious one of increasing 
funding, but sort of taking that one aside, what structural 
changes can, in fact, reverse this trend of what has happened, 
which is, in fact, these services have moved away from serving 
limited-English-language proficiency people, which seem to be 
one of the--in fact, in Colorado, my home State, one of the 
biggest growth needs and markets. And what ideas do you have 
absent outside of just resources in terms of collaboration 
between Title I and Title II, other ideas?
    Ms. Kinerney. I think there is an opportunity here for 
technology. I would share that with my colleagues here.
    We don't really know, and we need to understand better, who 
has access to computers. In our program, for example, we take 
all of our EL/civics students, we take them to the libraries, 
we show them computer labs, and we want to make sure that 
people have access to that. But yet I am hearing now that 
students at our refugee training programs are bringing 
computers with them, laptops with them, from refugee camps. So 
I think there is really an unexplored opportunity here to 
utilize that technology and come up with some new ways to 
perhaps serve these folks.
    Mr. Polis. If I could follow up on that. You know, it is 
unlikely that the new technology would be a requirement or kind 
of top down. How do we create an environment that allows for 
on-line, new technology to effectively compete for these funds 
from the bottom up, and does the current way that we spend 
these funds prevent the type of use of technology that you are 
referring to?
    Ms. Kinerney. I wish I had a solution for all of this. I 
think that----
    Mr. Polis. And I would open that up if anybody else would 
care to comment.
    Ms. Kinerney. When we use technology for language learning, 
I think we also have to be really cognizant that communication 
and language learning is a very human activity. So, we do have 
to build in opportunities for people to connect on multiple 
levels. It is not just simply that I can sit there at a 
computer with a piece of software or on a Web site and hope to 
learn English. I need to have real connection with other 
people, because there is no way a piece of software is going to 
be able to predict what other people do.
    So I don't know exactly what the solution is going to be, 
but I would say, too, that the technology, if we could wrap 
that in with that human piece where people have the opportunity 
to either go into class for short periods, perhaps work with 
volunteers, utilize--like with the Learner Web, I know they 
have volunteers from across the U.S. that can help with folks 
who are in a classroom maybe in a very different geographic 
region. And so looking at different ways that we can interface 
with those programs might work.
    Mr. Polis. I want to open that up, but before I do, I also 
want to add I think another important aspect is predictability. 
And one of the difficulties in planning around these funds is 
the lack of this reauthorization and for several years a 
continuation.
    So, I mean, whenever you are talking technology, you are 
generally talking some capital investment. I think providers 
want to know if this is something that is going to be here in 2 
or 3 years, what is the revenue stream going to be like for 3 
years as it applied in the use of technology, and that has been 
very, very, very difficult, impossible really, in this 
environment in the last few years.
    Any other ideas about either how we can better open up to 
technology or other ways to serve more lab people?
    Mr. Finsterbusch. What I allude to in here is don't just 
think of technology as the on-line technology in the classroom. 
Think about your cell phone. That is the lessons.
    What we are hearing, talk to texts. You know, I am hearing, 
for instance, if you are texting, you will be able to talk in 
English, and it comes out in another language. Or a workplace, 
where a manager has employees that speak in another language, 
boom.
    These are the kind of skills, technology, that I think we 
need to look into to get the adult learners the tools on their 
jobs and in their communities; not just think of technology for 
the classroom, but what technologies that corporations are 
developing, that we are using every day, and give the adult 
learners the tools in their hands that goes with them.
    So I think we need to look in investing in that kind of 
technology, speech to text, so people can pump out writing 
materials or get that writing material back to them if they 
don't have the skills. So if you have employees that can't read 
that text, there is a pen that will scan a page and will read 
it to them. The employee just got all the information they 
needed without sitting in a classroom that particular month, or 
3 years, or whatever.
    So when you think of technology, I really think, stop just 
thinking on line technology, long distance. Think about what 
the person has in their pockets.
    Mr. Polis. Thank you, Mr. Chairman.
    Chairman Hinojosa. At this time, I would like to call on 
Congressman Castle from Delaware.
    Mr. Castle. Thank you very much, Mr. Chairman, and I don't 
disagree with anything that I have heard here today from the 
panelists or from those asking questions, but I certainly would 
like to shift gears a little bit if I could.
    And I will start, I think, with Ms. Wilson and Mr. 
Finsterbusch and their own personal experiences. But my concern 
is, how did we get in the position that we are in? Why do 
people drop out of school, whatever it may be? And we have 
these sessions here, and we read these high-falutin' reports or 
whatever it may, but maybe we all have a fairly good idea of 
all this.
    But I am worried about the common culture; that is, I am 
worried about television, perhaps the people Ms. Wilson sings 
to, whatever it may be. I mean, how can we make sure the people 
grasp the fact that they need to be educated? I think it was 
Dr. Roe who indicated the earnings numbers: If you graduate 
from high school, it is another half-million dollars, and from 
college it is another million dollars.
    I am not sure people really understand that, or if they do, 
it is sort of a fact. But how can we take this culture into 
television shows, into the performers in our country who--
LeBron James is somebody who can say, maybe you are not going 
to be as good as I am, but you have got to get educated, or 
whatever it may be.
    I worry about it being too much on an intellectual plain 
and not hitting home with people, and I am talking about folks 
staying in school. And we have lot of other problems with that 
in early education and everything else, but I am also talking 
about going back with the programs we are talking about today, 
the adult literacy, more than just us talking about it, but 
making sure the people grasp the significance of this and how 
it can help them.
    Any answers anybody has?
    Ms. Wilson. I mean, the first part of your question, why do 
people drop out of school, it is people like me. I am a trailer 
park girl. I mean, I ate peanut butter and jelly and hot dogs 
every day. I was one of those people. I dropped out of school 
because my household was horrible. Mostly people I knew dropped 
out of school because they needed to go to work. They needed 
three people in the family working, not one.
    There is so many different--some people--I moved. My 
parents had me in--I went to a different school every 3 months, 
I think. I was constantly being introduced to new people and 
new teachers, and really, if I had stayed in school, I don't 
think I would have made it through anyway, because some schools 
had different credit programs than other schools have, and I 
would have ended up not having what I needed to graduate.
    I think there is lots and lots of different reasons why 
people don't stay in school.
    Mr. Castle. Is there anything that would have kept you in 
school in retrospect, looking back now?
    Ms. Wilson. Not in the house that I was in, but you know--
and I hate to say it, but I think there is a lot of that that 
we don't see, too, that doesn't get discussed.
    But as far as how we can get people like me to recognize 
the importance--and I, myself, there is lots of things I can do 
just being a celebrity and being in the public eye. There are 
things that I am already doing. I am doing interviews with 
anybody I can about it. I am talking to radio stations all over 
the United States, which reaches millions of people, and 
discussing the importance and what it has done for me, and how 
it wasn't something I had to do, but how much it has affected 
my life and my family's life and so many other people around 
me, made them feel better about themselves. It is making us a 
stronger America.
    Mr. Castle. Are your fellow entertainers doing what you are 
doing do you think?
    Ms. Wilson. I am sorry?
    Mr. Castle. Are your fellow entertainers doing what you are 
doing do you think?
    Ms. Wilson. I think everybody that I know in the 
entertainment industry has a passion. This is my passion. I can 
tell you----
    Mr. Castle. Your passion for educating?
    Ms. Wilson. Well, I know a few of them. I know a few of 
them. I know a couple of them that came to me as soon as this 
was finished and asked me how hard it was, because they are not 
capable of reading themselves.
    Mr. Castle. Okay. Mr. Finsterbusch.
    Mr. Finsterbusch. I can share why people don't come into 
programs. One, we haven't addressed it here. There is a real 
stigma, a fear for people coming forward and saying, I need 
help. People do--when you say--and there is a lot of adult 
learners in this audience today, and I bet you almost every one 
of them had experienced, when they declared, I am an adult 
learner, people treat them differently. People that treated--
talked to us as an equal, and all of a sudden they do talk to 
us differently or down to us. And so there is a fear of coming 
forward and saying, I need help. And there is not enough 
champions out there saying, I am an adult learner.
    And so programs need to work on this. There is that out 
there. It is not talked much about in our society, that we do 
look down on people that have less education. We might lack 
education, but we now as adults have a lot of life experience 
and other skills. But that is not what--and then the other 
issue is--and I just lost my thought, and I apologize--is--I 
had it, and I lost it because I got nervous again. I have to 
calm down.
    So it is the stigma issue, and I will--it will come back to 
me. I am going to have to pass on, but there is a piece to 
that, I am sorry. She took me on--I am sorry--it is not fear of 
failing, as someone just mentioned. It is that a lot of people 
in our society don't really know they have a literacy problem. 
It really doesn't hit them until a crisis or something else 
happens, like the loss of a job or like the spouse that I said 
earlier, because they got their education many years ago, or 
they were able to get through the system so we have a high 
school diploma. I had a high school diploma, but that wouldn't 
translate to a good job if they tested me coming into that job 
now.
    So a lot of people don't realize it until something 
happens, and then it is immediate need. And so I think when 
they did a test on who had reading levels, a lot of people 
didn't think they had a literacy problem, but when they got 
tested, they needed literacy help. So that is a problem why 
people don't come in to getting help for literacy.
    Mr. Castle. If the Chairman will allow?
    Chairman Hinojosa. I will give you another minute, and then 
I have to move forward.
    Mr. Castle. Okay. Thank you.
    Mr. Bere, did you want to say something?
    Mr. Bere. I was going to say maybe another issue here is 
the job landscape is changing. So there was a time where you 
didn't need a high school education, and you could still be 
assured of a job. Now the requirements are so changing that 
there is now that gap, and I think people are waking up and 
saying, my goodness, I don't have the skill set, and so that 
could be another reason.
    Mr. Castle. Exactly. Thank you.
    Chairman Hinojosa. At this time, I would like to call on 
Congressman John Tierney from Massachusetts.
    Mr. Tierney. Thank you, Mr. Chairman. Thank you for putting 
together such a great panel on this subject today.
    It is about a dozen years ago we were still dealing with 
this issue. In Massachusetts, we had over 20,000 people in a 
waiting line to get any services, and unfortunately that hasn't 
shrunk at all.
    Mr. Finsterbusch, you are a great example out here, and we 
want to thank you for coming forward. I think your presence 
here today will do a lot, as will Ms. Wilson's. And Ms. Wilson, 
you are not such a ``Redneck Woman'' after all. You have really 
just proven that and probably ruined your whole career just by 
coming forward here today.
    Mr. Finsterbusch, we are told that some of the community-
based organizations are having trouble accessing Title II 
funds, that the States are hoarding them. Do you have any 
comments on that or anything you think we can do in 
reauthorization that might free that up a little bit? I didn't 
say it was going to be easy.
    Mr. Finsterbusch. A lot of community-based programs really 
try to meet the needs of the adult learners in their 
communities. The moneys coming through the departments have 
rules. You have to have a student that will meet a certain 
amount of hours. They have to have this, they have to--you 
know, right now they don't count on record if you don't do 14 
hours, so that student is not counted on the books. And so some 
programs choose not to opt, and others, because of the way the 
funding flows, it goes to the community colleges, and the 
community colleges decide how the money goes out. And so the 
CBOs sometimes get left out of that money flow.
    There is somehow--the community-based programs are in the 
community, and a lot of people are able to find them. They are 
having problems navigating that fragmented system.
    Mr. Tierney. So some flexibility and some assistance on 
that?
    Mr. Finsterbusch. Yes.
    Mr. Tierney. Access is one thing that I think, Mr. Bere, I 
want to address a question to you on this. I think businesses 
have responsibility, and I thank you for Dollar General 
stepping forward on that.
    We had some great ideas in our community about trying to 
get businesses to partner without trying to bribe them in the 
Tax Code, whatever; get them to understand their own self-
interest. We had companies that would provide their site and 
some of their personnel for a half-hour and hour before work, 
and then let the people stay on for a half-hour or hour into 
work on their dime. And we had tremendous participation from 
people in that.
    A large company came in, bought them out, nixed the 
program, gave a small check to a community organization, 
thought they were doing just as well.
    When you talk about access to the program, it seems to me 
the workplace is a great place for people to access it. How do 
we entice businesses to participate in a program like that and 
get more involved without feeling the need to be bribed in?
    Mr. Bere. Well, I, first of all, agree with you that the 
business community needs to step up. We are clearly part of the 
solution here, and as I mentioned earlier, I think it really is 
about partnership.
    I think there are two things. One is the business 
community, and I said this earlier, needs to become aware. I 
really don't think they understand the long-term implications 
of this and the implications to themselves as this is going on, 
and they have to treat this as an investment.
    I think the second piece, it is a cultural thing. There are 
just some companies who care, and they are worried about this; 
you know, companies like McDonald's, what they have done with 
their own McDonald House and things like that. So I think the 
best thing we can do is increase awareness, realize that this 
is really a national problem, and that we have got to work 
together, and only by working through partnerships is this 
thing going to get done. You can't solve it alone, we can't 
solve it alone, the States can't solve it alone.
    Mr. Tierney. Ms. Cooper, Ms. Lanterman, you both talked 
about good programs that you are running. We need to bring them 
up to scale.
    I assume neither one of you wants to relinquish your 
program and adopt the other's in full bore on that, and we want 
to allow both or some innovation in different ways for 
different areas on that, but we need to bring them up to scale. 
We have done that a little bit with I-BEST. We have gone, I 
think, from 10 to 130-odd programs, but that is still not 
serving all of your State's population, never mind the rest of 
the country.
    Give us some ideas on what we could do on reauthorization 
that would allow good programs to be acknowledged and then be 
brought up to scale.
    Ms. Cooper. I think I referred to that a bit earlier when I 
talked about the importance of what it is that we measure and 
what it is that we allow to be counted as instruction for 
goals. So I think looking at the accountability system and 
being really clear about what it is that we look for as we move 
people forward. I think that that would be helpful.
    As well, I think the think the law is not clear about 
allowing a very richly contextual instruction that focuses on 
work, and I think it has been interpreted as well more rigidly 
than it might be. So I think those are places we might look.
    Mr. Tierney. Thank you.
    Ms. Lanterman. I would just like to add about the family 
literacy model and really highlighting that as a way to remove 
the barriers that we have been talking about.
    Every adult in our program talks about they would not be 
able to do this, go back to school, without the care for their 
children. And the motivation behind learning in the classroom 
with their children is very powerful not only for themselves, 
when they see themselves as growing and learning, but to help 
their children.
    So, again, just highlighting the family literacy model 
which brings the partnerships in place that we have been 
talking about here, as well as the private sector and the 
public sector.
    Mr. Tierney. Thank you. Thank you, Mr. Chairman.
    Chairman Hinojosa. Thank you.
    I now would like to call on my friend Congresswoman 
Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I have got just a couple of questions.
    Ms. Cooper, have you seen an increase in the demand for 
your educational services change since the current recession 
began?
    Ms. Cooper. Yes. I would say this was--this fall was one of 
the largest enrollments for adult basic education in the 
history of our State, and that was before the effects of the 
recession. Since the recession began, our State, like many 
others, has experienced significant layoffs, and that is a time 
when adult workers often look for more education. So at the 
very time that we are seeing reduction in funds, it has been 
very difficult for our programs to expand their doors to let 
even more people come in in a very purposeful way, so that as 
the economy recovers, these workers will be prepared to move 
into those good-paying jobs.
    Mrs. Biggert. Have you put in any special programs for 
returning veterans who want to upgrade their skills? Are they a 
part of this mix that is coming in?
    Ms. Cooper. They are part of that mix, and they are part of 
this mix that is well-recognized in Washington State as an 
important population.
    Mrs. Biggert. Okay. Then, Ms. Lanterman, how--can your 
family program be used in traditional schools, a classroom 
setting?
    Ms. Lanterman. Absolutely. We just expanded to three 
elementary school sites, and it has been so exciting to see how 
that works with kindergarten, first, second-grade children. 
Parents are in their child's classroom for 2 hours a week, 
watching the teacher strategies, the reading instruction piece. 
They go back into their adult ed classroom. They are able to 
work with their teacher on what the strategies are, how can 
they work and help with their children's homework. So they are 
learning again side by side with their children. The results so 
far have just been fantastic to watch.
    Mrs. Biggert. It sounds like a great program, and I think 
you said in your testimony that you got this grant, and there 
were 200 other groups competing for this grant. So it sounds 
like people are really looking for something like this.
    Ms. Lanterman. We are addressing the parent needs as well, 
because as adult reentry students, they are not just adults, 
they are--the majority of them are parents. So they get to 
address those needs, relieve those barriers, become involved in 
their children's education. They are leaders at their school 
sites. They are PTA presidents. They are all on the school site 
councils.
    The teachers see them now as true partners. I had one 
teacher say, this parent said that she didn't think I was going 
to fit as her child's teacher--be a teacher best, and she said 
this was going to be a problem parent, and since she joined the 
Toyota Family Literacy Program, they have a true relationship 
now, and they can work side by side. She saw this parent as a 
problem parent, and the parent saw it as a problem teacher, but 
now the child benefits.
    Mrs. Biggert. I would suspect, too, that, you know, one 
thing is all of us who have been parents have been involved in 
this, are the homework----
    Ms. Lanterman. Yes.
    Mrs. Biggert [continuing]. That our children bring home, 
and I would imagine that that would really be a help for the 
parents to be much more engaged in helping.
    Ms. Lanterman. It is essential. I am an educator and 
educated, and my kindergartner comes home or my sixth grader 
comes home, and I can't understand sometimes, and I am thinking 
here are these parents that don't have those skills, and we are 
giving them those skills, and they are learning again for 
themselves, but able to help their children.
    Mrs. Biggert. Well, you see it wanting to expand in your 
area. Do you think that this is going to be something that will 
really take place, or how can we encourage other places or--I 
guess it is the funding that is going to drive this issue; is 
that correct?
    Ms. Lanterman. Yes. The support and the funding and just 
what you are doing here today, sharing best practices, 
innovations, what partnerships that can be formed, because this 
is a partnership. I don't get lots of money. The money that we 
receive is just enough to coordinate those pieces. I don't pay 
for the adult ed. I don't pay for the early childhood. It is 
just the coordination of that so that we are really 
strengthening the family and all the learners in the family.
    Mrs. Biggert. What about the children, like zero to three, 
is that part of this, too?
    Ms. Lanterman. Yes. We have a toddler program. So it is, 
again, parents going into that toddler classroom, learning the 
importance of brain development, what they can do with their 
children. We have parents saying, I didn't know I could read to 
them at that age. I didn't think they could learn the alphabet. 
We have one family that wouldn't even allow their 1-year-old to 
walk, so they were afraid she was going to fall.
    So much child development is in place, but again, the 
literacy skills and, again, for them to be able to work with 
their children in their home, and that goes--that is critical 
right--for both zero to 3, we are not reaching them at that 
preschool or beyond. It is right in the beginning of their 
learning years.
    Mrs. Biggert. Thank you. Thank you for all you do. I yield 
back.
    Chairman Hinojosa. Thank you, Congresswoman Biggert. I 
think that your questions bring validity to the literacy 
recommendations that have been given by several of today's 
witnesses, and I want to commend you, Ms. Lanterman, in 
bringing up the success of the Toyota National Center for 
Family Literacy, because the area that I represent in deep 
south Texas has a very high percentage of families below the 
national poverty level.
    So a couple of years ago we started an effort, an 
initiative that would focus on children from age 1 to sixth 
grade, which is age 12, and we invited the RIF program, which 
is Reading Is Fundamental, because they have the textbooks for 
children of all ages. And we also invited Toyota to see if they 
would bring this model of NCFL and help us, because we found 
that unless there is family participation and parental 
involvement in reading to a child, 1-year old, 2-year-old, 3-
year-old, we can't possibly be successful in teaching them the 
art of learning. And it works for all ages, just like we have 
learned here from several panelists.
    But Toyota has been especially generous in the deep south 
Texas program in helping us with funding so that we can have 
that parental involvement. So I certainly recommend that to 
you.
    I would like to call on the Congresswoman from the State of 
Nevada, Congresswoman Titus, who has had a very difficult time 
with the jobless rate in the State of Nevada and has 
volunteered to host our next congressional field hearing in her 
State. It is going to be on Friday, May 29th, and that is 
another step that will get us closer and closer to be able to 
write the legislation that will reauthorize the WIA Act for 
2009. So I would like to call on her for her questions.
    Ms. Titus. Thank you very much, Mr. Chairman, and thank you 
for coming to Las Vegas. We do have the worst unemployment that 
we have had in 25 years, and it is very important to us to look 
at this legislation, and your work on that is most appreciated. 
So thank you.
    If I could just kind of sum up, we heard from all of you 
that adult literacy programs are needed, they are wanted, they 
can change lives, they should be continued, but with greater 
funding and some reforms, and, I think, make them more 
accessible, more relevant, more timely, more accountable and 
more technologically up to date. That is kind of what I have 
been hearing.
    But I would like to step back a little further and ask you, 
if we were to do all that, and I think there is a feeling that 
we need to do, a general consensus about those things, are we 
really ready to move forward? Do we have the providers, the 
equipment, the infrastructure, the teachers to take advantage 
of these changes? For example, are there enough ESL teachers 
available? Are there mechanisms in place for public outreach to 
bring people into the program? Do we have that in place, or do 
we need to do a little backfilling before we can move forward 
with these reforms? And anybody can answer. I would just 
address it generally.
    Ms. Kinerney. I will take a shot at that one.
    Yes, we absolutely are not ready for--well, no, we are not 
ready to ramp up. We have a significant need for trained 
teachers regardless of the program level. We need significant 
more technology support and data systems to be able to pull 
this off. We need commitment from employers, more commitment 
from communities. There is a whole host of activities that we 
are going to need to undertake.
    My personal concern is with making sure that we have a 
sufficient number of teachers who are well qualified and well 
trained and get those folks in the classrooms, because we just 
simply don't have them now, and even in my area it is difficult 
to find qualified and skilled folks, and in rural areas it is 
all that much more difficult.
    Ms. Cooper. I would answer that question a little 
differently saying that we are absolutely ready to ramp up, but 
that there would be some areas in which the availability of 
planning money, money to produce more tailored and specific 
professional development for both existing part-time 
instructors and tutors, as well as recruitment of new people, 
would be very helpful.
    Mr. Reder. I also think we are ready to ramp up. I think 
the committee needs to think very carefully in drafting the 
legislation about how to include all of the relevant players 
and providers in a community-by-community fashion so that we 
don't wind up with sort of top-down imposed systems that don't 
fit community needs, which we sometimes see in the current 
system. So I would urge you to, you know, craft the legislation 
in a way that will allow appropriate partnerships, that we have 
heard everyone, I think, talk about this morning, have their 
natural place in receiving the funding and in doing local 
planning collaboratively to really meet the needs of the adults 
and make sure we get them into family wage employment.
    Ms. Titus. Along these same lines, one of my concerns is 
that States won't pick up their end of the bargain. States 
especially that are so economically strapped like Nevada are 
States that this may not be a priority when you have a very 
small pie to divide up into a lot of pieces. Can you suggest 
any teeth that we might put in there to be sure that that 
doesn't happen and that we do see these kind of programs put in 
place where they are needed?
    Mr. Reder. Well, I am not an expert on those types of 
things, but it seems to me that we may need to have multiple 
funding streams that can reach service providers perhaps in 
different ways, and perhaps there can be different incentives 
in the legislation for, you know, mixing streams and putting, 
you know, comprehensive programs into place.
    Ms. Cooper. I would also say that we both have a great deal 
of support at the State level in Washington State. So I am 
grateful to come from a State with that sort of record. But I 
will tell you our experience would be that one of the ways you 
sort of both level the playing field and also really incent the 
kind of behavior that you like is to give people adequate time 
and money to plan, and then make some kinds of money available 
by application so that people meet certain criteria. And that 
is the kind of model that we used with I-BEST in the beginning, 
and it has worked well for us in other ventures.
    Mr. Finsterbusch. I would have to say the field is ready. 
We want to do it, but we are not ready because we haven't dealt 
with the issues of the silos of adult education. From our 
viewpoint, you can say, let us do this, but until there is a 
clear navigation to help people navigate this, it is not going 
to succeed. People are going to drop out because they can't get 
through. And so we really do need to look at all the funding 
flows, and how do they relate to each other, and how do they 
support each other.
    Right now we have got too many pockets all over the place 
and the coordination. So if you want to ramp up, it is the 
coordination that you are really going to need to look at and 
then look at we, the customers, needing part of this, and can 
we understand it, and can we navigate it, because if we can't, 
it won't succeed.
    And so that is what I am going to recommend. There is a 
will. There is a will, but someone needs to sit down and say 
coordination, and get these silos start working with each 
other.
    Ms. Titus. Thank you very much, Mr. Chairman.
    Chairman Hinojosa. Thank you very much for your thoughtful 
questions.
    I am coming to a close, and I want to take this opportunity 
in sharing with you that when the year started, we decided that 
we needed to hear from different regions of the country, both 
rural and urban and suburban areas. We were in Albany, New 
York, having a congressional field hearing and got their 
perspective. Now we are going to Nevada, and we have had people 
here in Washington representing different sectors.
    And one thing that comes to mind is that having been a part 
of the reauthorization of WIA in 1998, I recall that we found 
difficulty in putting into the act some type of a cap on how 
much money could be spent with subcontractors and with those in 
administration, and the end result is that after looking back 
from 1998 to now, we see that there are regions where only 30 
to 40 percent of the Federal money that came down for training 
individuals was all that was available.
    The profit made by the subcontractors, the wasteful use of 
Federal and State money, some heavy administration costs, that 
has to be addressed. That needs to be addressed because I 
personally would like to see a minimum of 60 percent used for 
training our participants, adults. And if we don't address it, 
then I think you are going to have another 6 or 8 years of what 
we experienced the last 10.
    Talk about it. Give us your ideas on how you are going to 
support legislation that would cap how much profit those 
subcontractors can make, and also the workforce development 
boards have controls so that administrative costs don't get out 
of hand. All of that is extremely important as we go into these 
next few months, and I can tell you that there are members of 
this committee who are very seriously considering how we can 
address this problem that I am laying on your lap.
    Once again, I would like to thank each and every one of the 
witnesses and the members of the subcommittee for a very 
informative session. As previously ordered, Members will have 
14 days to submit additional materials for the hearing record.
    [Additional submissions of Mr. Hinojosa follow:]

  [Research Report No. 06-2, Washington State Board for Community and 
                    Technical Colleges, April 2005]

Building Pathways to Success for Low-Skill Adult Students: Lessons for 
   Community College Policy and Practice from a Longitudinal Student 
                             Tracking Study

                    (The ``Tipping Point'' Research)

    According to the U.S. Census (2000), 42 percent of adults in the 
United States between the ages of 25 and 64 have no more than a high 
school education (authors' calculations). Unfortunately, however, most 
new jobs and the vast majority of jobs that pay wages sufficient to 
support a family require at least some education beyond high school 
(Carnevale & Derochers, 2003), and low educational attainment is 
associated with high rates of unemployment and poverty.
    Community colleges are an important entry point to postsecondary 
education for adults with no previous college education or even a high 
school diploma. In fall 2002, for example, adults between the ages of 
25 and 64 represented 35 percent of fulltime equivalent (FTE) 
enrollments at two-year public colleges, compared with only 15 percent 
of FTE undergraduate enrollments at four-year public institutions 
(authors' calculations, based on U.S. Department of Education, 2001). 
Moreover, more than two-thirds of the community college students who 
entered postsecondary education at age 25 or older were low income 
(authors' calculations based on
    ``Beginning Postsecondary Students Longitudinal Study'' [BPS:96/
01], 2003). The potential of community colleges to serve as a 
``pathway'' for lowskill adults to college and career-path employment, 
therefore, is evident. Across the nation, several major projects are 
underway whose goal is to develop policies and practices supportive of 
this role. Funded by national foundations, these initiatives include 
the Ford Foundation's Bridges to Opportunity initiative and the 
National Governor's Association's Pathways to Advancement project, 
funded by Lumina Foundation for Education.
    Despite this interest, relatively little is known about the unique 
experiences and the educational and employment outcomes of adults who 
enter community college with limited education. We do know that their 
experiences and outcomes differ from those of traditional college-aged 
students. Compared with community college students who enrolled soon 
after high school (at ages 18-24), those who start later (at ages 25-
64) are more likely to earn a certificate and less likely to earn an 
associate degree. The late starters are also far less likely to 
transfer to a four-year institution and earn a bachelor's degree. 
Indeed, among students who entered a community college for the first 
time in 1995-96, 60 percent of older first-time students did not earn 
any credential or transfer to a baccalaureate program after six years, 
compared with 40 percent of younger, first-time students (authors' 
calculations, based on BPS:96/01, 2003).
    This Brief summarizes findings from a new study that seeks to fill 
information gaps about older community college students. Researchers 
used student record information from the Washington State Community and 
Technical College system to examine the educational experience and 
attainment as well as the employment and earnings of a sample of adult 
students, five years after first enrolling. The students in the sample 
were age 25 or older with, at most, a high school education. The study 
was conducted by staff at the Washington State Board for Community and 
Technical Colleges (SBCTC), with assistance from the Community College 
Research Center, as part of Ford's Bridges to Opportunity initiative. 
Its goal was to provide educators throughout Washington's community and 
technical college system with a detailed profile of their low-skill 
adult students, who make up about one-third of the approximately 
300,000 students served by the system annually. The study also sought 
to identify the critical points where adult students drop out or fail 
to advance to the next level in order to help SBCTC staff stimulate 
thinking among educators throughout the system about how to bridge 
those gaps and thereby facilitate student advancement.

Study Sample
    The study's data source was the system that the Washington State 
Board for Community and Technical Colleges uses to track students in 
its 34 colleges. The database contains complete transcript information 
on every student who enrolls in college credit or non-credit courses.
    The study sample consisted of two SBCTC cohorts: first-time college 
students who were adults age 25 or older with a high school education 
or less and who started in 1996-97 or in 1997-98. Also included in the 
cohorts were 18- to 24-year-old, first time students who lacked a high 
school diploma or GED. These younger students were included because by 
not graduating from high school and enrolling at a community college, 
they had in effect entered the adult labor market, whether or not they 
were employed. The sample included students who enrolled in college-
credit (including college remedial or ``developmental '') or adult 
basic skills programs, which include adult basic education (ABE), 
English as a second language (ESL), and GED preparation. In Washington 
State, adult basic skills programs are provided through the community 
and technical colleges. Together the two cohorts totaled 34,956 
students, or about one-third of all students who entered a community or 
technical college for the first time in Washington State in the two 
baseline years.
    Females comprised the largest share of the student sample, 
reflecting a common pattern among students in community colleges. 
Whites made up more than half of the sample, and Latinos onequarter. 
Students between the ages of 25 and 29 comprised the largest group. 
Over 70 percent had children; nearly one-quarter were single parents. 
Most of the students were working or seeking work. A little more than 
one-third were not in the labor force. The majority of the low-skill 
adults were low income.
    The starting education level of the students also varied. Nearly 
one-third enrolled in an ESL program. Slightly more than one-third did 
not have a high school diploma and enrolled in adult basic education or 
GED programs. Approximately one-third of the students already had 
either a diploma or a GED.
    Three-quarters of the high school diploma holders, and nearly 80 
percent of GED holders, enrolled in occupational degree programs, 
reflecting the high interest of adult students in occupational 
programs. Forty percent of the students with a high school diploma or 
GED also took at least one developmental course. The majority of both 
GED and diploma holders who enrolled in academic transfer programs had 
to take at least one remedial course.

Study Findings
    For both cohorts we used the transcript information in the SBCTC 
student database to track the educational progress of the different 
subgroups (defined in terms of the students' starting education levels) 
five years after they entered a community or technical college. We used 
Unemployment Insurance wage record data from the Washington State 
Employment Security Department to examine the annual earnings of 
students five years after they started.

Student Educational Attainment and Earnings after Five Years
    Only 13 percent of the students who started in ESL programs went on 
to earn at least some college credits. Less than one-third (30 percent) 
of adult basic education (ABE/GED) students made the transition to 
college-level courses. Only four to six percent of either group ended 
up getting 45 or more college credits or earning a certificate or 
degree within five years. (Washington's community and technical 
colleges are on the quarter system, so 45 credits is equivalent to two 
full-time semesters of coursework, or 30 credits in semester systems.)
    Nearly 30 percent of the students who started with a GED, and 35 
percent of those who started with a high school diploma, earned at 
least 45 credits or a credential in five years. Fourteen percent of the 
students who started with a GED, and 18 percent of students who started 
with a high school diploma, earned an advanced certificate or an 
associate degree in five years.
    Not surprisingly, the higher students' educational attainment after 
five years, the higher the wages they earned on average. Compared with 
students who earned fewer than ten college credits, those who took at 
least one year's worth of college-credit courses and earned a 
credential had an average annual earnings advantage: $7,000 for 
students who started in ESL; $8,500 for those who started in ABE or 
GED; and $2,700 and $1,700 for those entering with a GED or high school 
diploma, respectively.
    These findings are consistent with previous research on the 
economic returns to a subbaccalaureate education. These studies show 
that earning an occupational certificate (equivalent to two semesters 
of full-time study) provides individuals with a significant earnings 
advantage compared with individuals with just some college but no 
degree, although the magnitude of the advantage varies by student 
gender and field of study (Bailey, Kienzl, & Marcotte, in press; Grubb, 
2002; Kienzl, 2004). These studies have also found that the wage gains 
associated with postsecondary education of less than a year are 
negligible.

Advancement beyond English as a Second Language and Adult Basic 
        Education
    Only one percent of ESL students who started with less than a high 
school education earned a GED or high school diploma in five years. In 
all, 12 percent went beyond ESL and enrolled in college-credit courses. 
Of these, two-thirds had a high school credential when they started in 
ESL. A much larger group of ESL students had a high school credential 
upon enrollment but went no further than ESL. Latino ESL students with 
a high school diploma were less than half as likely as other students 
to advance beyond basic skills. Males who earned a GED (particularly 
Latinos) were less likely than women to go further in their education. 
Part of this gender difference may result from the fact that, on 
average, men earn more than women, and thus forgo more wages when they 
attend school.
    Thirty-one percent of the students who started in ABE or GED 
courses went on to enroll in at least one college-level course. Of this 
group, 70 percent, or 2,543 students, already had a high school 
credential. A larger group (3,245) also had a high school credential 
but went no further than basic skills, including 1,147 students who 
earned their GED or diploma at the college and left.
    A number of factors seem to be associated with a greater likelihood 
that students who start in ESL or ABE/GED will go on to succeed in 
college-level courses. A higher percentage of students who succeeded in 
earning a credential or completing at least 45 credits received 
financial aid than did students who did not do either. In addition, 
students who took developmental education after taking ESL or ABE/GED 
were more likely to earn a credential or at least 45 credits than were 
those who did not. Students who expected up-front that they would 
attend college a year or longer were more successful than were students 
who did not know upon enrollment how long they would attend or those 
for whom information on their expectations for college was not 
available.
    Although financial aid and developmental education were associated 
with higher chances of success, many students who went beyond ESL or 
ABE/GED did not receive these supports. Only about 23 percent of 
students who transitioned from ESL, and 35 percent of those who 
transitioned from ABE, received financial aid when they enrolled in 
collegelevel courses. Only 28 percent of ESL students who transitioned, 
and 33 percent of transitioning ABE students, enrolled in developmental 
courses. Moreover, less than one-third of ESL and ABE/GED students 
expected to attend college for a year or more. About half (54 percent) 
of ESL students, and 47 percent of ABE/GED students, did not have clear 
plans or their intent was not ascertained.

Implications for Policy and Practice
    This study of students in the Washington State Community and 
Technical College system finds evidence that attending college for at 
least one year and earning a credential provides a substantial boost in 
earnings for adults with a high school diploma or less who enter higher 
education through a community college. These findings are consistent 
with studies that have used nationally representative samples of 
community college students.
    Short-term training, such as the type often provided to welfare 
recipients seeking to enter the workforce, may help individuals get 
into the labor market, but it usually does not help them advance beyond 
low-paying jobs. Neither does an adult basic skills education by itself 
nor a limited number of college-level courses provide much benefit in 
terms of either employment or earnings. Another recent study of 
Washington State community college students (Hollenbeck & Huang, 2003) 
found that adult basic skills programs had no impact on wages and had 
only a modest impact on average rates of employment in the long term 
(but not the short term). In contrast, individuals who went through 
community college occupational degree programs were eight percent more 
likely to be employed, and they earned over $4,400 per year more on 
average than did similar individuals in Washington's labor force who 
did not enroll in any training program. Only individuals who took basic 
skills courses concurrently with vocational training enjoyed a 
significant benefit in average rates of employment and quarterly 
earnings.
    Another study (Workforce Training and Education Coordinating Board 
[WTECB], 2004), drawing on occupational forecasts by Washington State's 
Employment Security Department, shows that not only do workers with at 
least a year of college and a credential earn substantially more than 
do those with just some or no college, but that they are in higher 
demand among employers, at least in Washington State.
    The findings from all of these studies of Washington State indicate 
that community and technical colleges should consider making at least 
one year of college-level courses and earning a credential a minimum 
goal for the many low-skill adults they serve. While hundreds of low-
skill adult students in our sample were able to achieve this threshold 
level of attainment in five years, many more did not. Eight out of ten 
students in ABE or ESL were able to make modest skill gains, at best 
earning a GED, but did not advance to college-level courses. Seven out 
of ten students who had a GED and took college-credit courses left with 
less (and often a lot less) than a year of college credit and no 
credential. This is also true for the more than two out of three 
students who had a high school diploma and took college courses.
    To enable low-skill adults to achieve the threshold level of one 
year of college plus a credential or more, community colleges in 
Washington State and elsewhere should rethink their programs and 
services. For example, the study summarized here found that there are 
students--the 69 percent of ABE and ESL students who make the 
transition to college-level work with a high school diploma or GED in 
hand--who are eligible to receive financial aid and developmental 
education. These supports would make it two to three times more likely 
that they would earn a credential, but, at best, only one-third of 
these students receive them. Therefore, it would be useful for basic 
skills and developmental education faculty to work together to 
encourage students to take advantage of developmental courses and to 
work with counseling and student services staff to ensure that eligible 
students apply for financial aid.
    In addition, support should be given to the far larger group of 
students who have or earn a high school diploma or GED but never go 
beyond basic skills in community college. More aggressive efforts to 
educate them about their college education opportunities, combined with 
``bridge programs'' that ease their transition to college, might 
increase their enrollment and success in college-level programs.
    Finally, since short-term training that is focused on getting low-
skilled adults a job generally does not result in earnings gains over 
time when students do not continue their education, colleges could help 
students avoid dead-end starts by ensuring that short-term training 
options lead to real educational attainment in the long term.
    A commuter transit system that is run on the schedule of working 
adults and that can accommodate on-and-off traffic, but still makes 
connections to long-term destinations, may be an apt metaphor for an 
education system effective in serving low-skill adults. Such a system 
would provide a clear map of the educational pathways that students can 
follow to advance in their jobs and pursue further education, 
indicating where they can ``stop out'' of education for a time and 
reenter as they are able. The system would give students a lot of 
guidance and support so they do not get lost as they leave and reenter 
college, and would allow adults to go farther and faster than they do 
in the conventional college system.
    Rethinking existing community college programs to create more of an 
educational transit system has to be done collaboratively, involving 
faculty and staff from across the academic and administrative divisions 
or ``silos'' that characterize most community colleges and higher 
education institutions generally. The Washington State Community and 
Technical College system is taking steps to break down those silos by 
sharing the results of this study widely among its faculty, staff, and 
administrators. Member colleges interested in improving outcomes for 
lowskill adult students have been invited to organize teams from across 
their various divisions--basic skills, academic transfer (where 
developmental education is typically housed), workforce education, and 
student services--to reflect on the state-level data from this study 
and on similar data from their own colleges. The aim is to encourage 
these crossdivisional teams to eliminate roadblocks to advancement and 
create pathways to educational and economic success for their many low-
skill adult students.

                               REFERENCES

Bailey, T., Kienzl, G. S., & Marcotte, D. E. (in press). The return to 
        sub-baccalaureate education: The effects of schooling, 
        credentials, and program of study on economic outcomes. New 
        York: Columbia University, Teachers College, Community College 
        Research Center.
Beginning postsecondary students longitudinal study second follow-up 
        data analysis system BPS:96/01 (2003) [Data CD-ROM]. 
        Washington, DC: U.S. Department of Education, National Center 
        for Education Statistics.
Carnevale, A. P., & Derochers, D. M. (2003). Standards for what? The 
        economic roots of K-16 reform. Princeton, NJ: Educational 
        Testing Service.
Grubb, W. N. (2002). Learning and earning in the middle, Part I: 
        National studies of pre-baccalaureate education. Economics of 
        Education Review, 21, 299-321.
Hollenbeck, K. M., & Huang, W. J. (2003, July). Net impact and benefit-
        cost estimates of the workforce development system in 
        Washington state (Technical Report No. TR03-018). Kalamazoo, 
        MI: W. E. Upjohn Institute for Employment Research.
Kienzl, G. S. (2004). The triple helix of education and earnings: The 
        effect of schooling, work and pathways on the economic outcomes 
        of community college students. Unpublished doctoral 
        dissertation, Columbia University. U.S. Census Bureau. (2000). 
        Public use microdata sample: 2000 [Data file]. Available from 
        United States Census 2000 Web site, http://www.census.gov/main/
        www/cen2000.html
U.S. Census Bureau. (2002). The big payoff: Educational attainment and 
        synthetic estimates of work-life earnings (Current Population 
        Reports P23-210). Washington, DC: U.S. Department of Commerce, 
        Economics and Statistics Administration.
U.S. Department of Education, National Center for Education Statistics. 
        (2001). Integrated postsecondary education data system--Fall 
        enrollment survey: 2001--[Data File]. Available from Integrated 
        Postsecondary Education Data System Web site, http://
        nces.ed.gov/ipeds/
Washington State Workforce Training and Education Coordinating Board. 
        (2004). High skills, high wages: Washington's strategic plan 
        for workforce development. Olympia, WA: Author.

    This Brief was developed at the Community College Research Center 
(CCRC), Teachers College, Columbia University. It was drawn from a 
longer report entitled Building Pathways to Success for Low-Skill Adult 
Students: Lessons for Community College Policy and Practice from a 
Statewide Longitudinal Tracking Study, which may be ordered from CCRC. 
Funding for this research was generously provided by the Ford 
Foundation through grants to the Washington State Board for Community 
and Technical Colleges for the Bridges to Opportunity initiative and to 
the Community College Research Center for research on the role of 
community colleges in improving access and attainment by low-income and 
minority students.
                                 ______
                                 
              College of Liberal Arts and Sciences,
    Department of Applied Linguistics, Post Office Box 751,
                                        Portland, OR, May 14, 2009.
Hon. Ruben Hinojosa, Chair; Hon. Brett Guthrie, Ranking Member,
Subcommittee on Higher Education, Lifelong Learning, and 
        Competitiveness, House Committee on Education and Labor, 
        Washington, DC.
    Dear Representatives Hinojosa and Guthrie: Thank you for the 
opportunity to testify before your Subcommittee on May 5, 2009 and 
share my views about the importance of research in making WIA maximally 
effective. I am writing to share some specific suggestions for the 
Subcommittee to consider about the need for WIA to establish a strong, 
independent research and development center for adult literacy.
    To support the goals of WIA more effectively, the field of adult 
literacy needs a strong, independent R&D center. Although the 
Department of Education (OERI and later IES) funded such a center at 
the University of Pennsylvania from 1991-1996 and at Harvard University 
from 1996-2007, OERI/IES staff were consistently indifferent and 
sometimes antagonistic towards the field. Funding for such a center has 
been discontinued for more than two years.
    To be effective, the R&D center needs to be independent of 
political and agency pressures that would repeatedly try to redefine 
its priorities and agenda from year-to-year. The Center should be 
housed within a university or network of collaborating universities 
having expertise and experience in the field. The Center must be able 
to pursue a stable, long-term R&D agenda that has been carefully 
crafted by researchers, practitioners, policy-makers and other experts 
and stakeholders in the field. Its work should be guided by an advisory 
board (whose role is only advisory) and use research designs and 
produce publications that benefit from peer-review processes.
    The work of the R&D center will have practical implications for a 
number of federal departments--including Education, Labor, Health and 
Human Services, in particular, but also Justice, Defense and Homeland 
Security among others. Administering the center within a multi-agency 
setting such as the National Institute for Literacy would thus seem to 
make sense. Although NIFL has accomplished some worthwhile things, it 
does not have the size, capacity or structure in its current form to 
effectively manage a strong, independent R&D center. (The President has 
recently proposed to disband NIFL. If the President and the Congress 
decide to refocus NIFL on adults, redesign its structure to be more 
cost-effective, and provide it with qualified leadership and staff, 
then it might be a proper place to administer a new adult literacy R&D 
center grant.)
    I recommend placing the Center in either Education or Labor. 
Wherever it is placed, it must be seen as serving a mission broader 
than that of any one Department. All Departments should be able to add 
funds, without having to engage in competitive bidding, to enhance the 
work funded by a base budget of at least $10 million per year. The 
Center should not be placed in OVAE (the program branch of adult 
education) because the R&D agenda needs to be free from pressures to 
conform with services currently being implemented. If it were placed in 
Labor, which has the capacity to manage such a center effectively, it 
is important to make clear that the Center's R&D agenda should address 
the needs of all adult literacy learners, including those at the lowest 
skill levels. The Employment and Training Administration (ETA) might be 
a logical management agency for the R&D Center grant.
    The Center should have a mandate to:
    <bullet> provide advice to the field that is based on the best 
available empirical research and professional wisdom
    <bullet> pursue new research and experiment with new ways of 
supporting learning and delivering services
    <bullet> support professional development through technical 
assistance and training
    <bullet> build a knowledge and communications infrastructure for 
the field
    Thank you again for the opportunity to share my views with the 
Subcommittee. Please do not hesitate to contact me if I can provide 
additional information, answer questions, or otherwise assist you.
            Sincerely,
      Stephen Reder, Ph.D., University Professor and Chair,
                                 Department of Applied Linguistics.
                                 ______
                                 
    Chairman Hinojosa. If any Member who wishes to submit 
follow-up questions in writing to the witnesses should 
coordinate with Majority staff within the requisite time, and 
without objection, this congressional hearing is adjourned, and 
we thank you.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]


 NEW INNOVATIONS AND BEST PRACTICES UNDER THE WORKFORCE INVESTMENT ACT

                              ----------                              


                          Friday, May 29, 2009

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                Lifelong Learning, and Competitiveness,

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:15 a.m. at 
the Nevada State College, Dawson Building, 1021 East Paradise 
Hills Drive, Henderson, Nevada, Hon. Ruben Hinojosa [Chairman 
of the Subcommittee] presiding.
    Members Present: Representatives Hinojosa and Titus.
    Staff Present: Paulette M. Acevedo; Ricardo Martinez, 
Policy Advisor.
    Chairman Hinojosa. A quorum is present. The hearing of the 
Subcommittee on Higher Education will come to order.
    Pursuant to the committee rules, any member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    I now recognize myself, followed by my colleague, who will 
make opening statements. Without objection, all members will 
have 14 days to submit additional materials or questions for 
the hearing record. I would like to make my statement and then 
make some privileged statements.

STATEMENT OF HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Chairman Hinojosa. Good morning. Welcome to the Higher 
Education Lifelong Learning and Competitiveness Subcommittee's 
fifth hearing, in preparation for the reauthorization of the 
Workforce Investment Act, known as WIA.
    This is also our second field hearing for the 111th 
Congress and I would like to personally thank Congresswoman 
Dina Titus and the Nevada State College for hosting us.
    These hearings are of critical importance. The last time we 
reauthorized the Workforce Investment Act was in 1998. The 
Workforce Investment Act was designed to streamline and 
coordinate our job training programs. It was supposed to 
provide a one stop system of workforce development that would 
serve workers and employers alike.
    After 11 years the system is long overdue for an upgrade. 
Time is of the essence. Last month our economy shed another 
539,000 jobs, bringing the total to 5.7 million jobs lost since 
the beginning of the rescission in December 2007.
    Never in my lifetime have we needed a workforce investment 
system to deliver more for our economy than right now.
    We have taken bold and swift action with the passage of the 
American Recovery and Reinvestment Act, which will infuse 
approximately four billion--yes, B as in boy--$4 billion into 
our workforce investment systems. It is imperative that our 
workforce investment system be up to the challenge.
    We have much to learn from Nevada. As one of the fastest 
growing regions in the entire country, Nevada has seen its 
demand for many adult services, such as English as a second 
language and job training, skyrocket. As one of the hardest hit 
by the foreclosure crisis, Nevada is on the front lines of the 
economic crisis.
    Today we will hear from experts on the ground. These are 
the people who are working to reconnect disconnected youth, who 
are preparing individuals for green jobs, who are addressing 
our workforce needs in high growth areas, such as health care, 
and who are insuring that individuals with disabilities are 
getting the vocational and rehabilitative support they need to 
work and live independently.
    I would like to thank our witnesses today for joining us, 
and for the work you do every day to strengthen our workforce. 
It is invaluable for our subcommittee to have the opportunity 
to get outside of Washington, D.C. and visit the communities 
that our federal policy and programs are intended to serve.
    Thank you to the hosts for having us and thank you for your 
testimony to the witnesses.
    I would like to yield to my good friend, a valuable member 
of the subcommittee, Congresswoman Dina Titus, for an opening 
statement.
    [The statement of Mr. Hinojosa follows:]

 Prepared Statement of Hon. Ruben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelong Learning and Competitiveness

    Good Morning. Welcome to the Higher Education, Lifelong Learning, 
and Competitiveness Subcommittee's fifth hearing in preparation for the 
reauthorization of the Workforce Investment Act. This is also our 
second field hearing for the 111th Congress, and I would like to 
personally thank Congresswoman Dina Titus and the Nevada State College 
for hosting us.
    These hearings are of critical importance. The last time we 
reauthorized the Workforce Investment Act was in 1998.
    The Workforce Investment Act was designed to streamline and 
coordinate our job training programs. It was supposed to provide a one-
stop system of workforce development that would serve workers and 
employers alike.
    After 11 years, the system is long overdue for an upgrade, and time 
is of the essence. Last month, our economy shed another 539,000 jobs, 
bringing the total to 5.7 million jobs lost since the beginning of the 
recession in December 2007. Never in my lifetime, have we needed our 
workforce investment system to deliver more for our economy than right 
now.
    We have taken bold and swift action with the passage of the 
American Recovery and Reinvestment Act, which will infuse approximately 
$4 billion into our workforce investment system. It is imperative that 
our workforce investment system be up to the challenge.
    We have much to learn from Nevada. As one of the fastest growing 
regions in the country, Nevada has seen its demand for many adult 
services, such as English as a Second language and job training, 
skyrocket. As one of the hardest hit by the foreclosure crisis, Nevada 
is on the frontlines of the economic crisis.
    Today, we will hear from experts on the ground. These are the 
people who are working to re-connect disconnected youth, who preparing 
individuals for green jobs, who are addressing our workforce needs in 
high growth areas such as health care, and who are ensuring that 
individuals with disabilities are getting the vocational and 
rehabilitative support they need to work and live independently.
    I would like to thank our witnesses today for joining us and for 
the work you do every day to strengthen our workforce. It is invaluable 
for our Subcommittee to have the opportunity to get outside of 
Washington and visit the communities that our federal policies and 
programs are intended to serve.
    Thank you for hosting us and thank you for your testimony.
    I would now like to yield to my good friend, a valuable new member 
of the Subcommittee, Rep. Dina Titus, for an opening statement.
                                 ______
                                 

STATEMENT OF HON. DINA TITUS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF NEVADA

    Ms. Titus. Well, thank you very much, Mr. Chairman, for 
calling for today's Congressional hearing to look at 
innovations and best practices for the renewal of the Workforce 
Investment Act. It is an honor to have the committee meet here 
at Nevada State College in District Three, that I represent, 
especially on a topic that is so critical to Nevada.
    Since the economic recession began in December of 2007 
Nevada has endured a number of foreclosures. This district is 
one of the highest in the country for foreclosures, and the 
unemployment rate has soared to the highest that it's been in 
25 years.
    This Congress inherited a deep economic crisis that will 
not turn around overnight. But I'm proud of the fact that as 
the Chairman pointed out, we have taken some dramatic steps to 
put our nation on the path to recovery, when we passed the 
stimulus package that will save or create millions of jobs, 
including 34,000 here in Nevada.
    Now recent statistics show a glimmer of hope that perhaps 
we've at least reached the bottom of this recession, but we 
know that our work is far from over. Creating more jobs in 
Southern Nevada remains one of my top priorities and I know 
that Congress must take bold action to help put Americans and 
Nevadans back to work.
    That's why I'm really encouraged by the enthusiasm of the 
Education and Labor Committee with the emphasis that the 
Chairman has put on the hearings and reauthorization of the 
Workforce Investment Act.
    It is a very important part of our efforts to fix the 
economy and I stand committed to working with the Chairman and 
across the aisle to have a spirit of bipartisanship as we move 
forward in this with this new legislation.
    The WIA, or Workforce Investment Act, is designed to 
coordinate and consolidate and improve employment and training 
and literacy and just opportunities for the future, and that's 
why it is so critical that we move forward with this today. And 
I think our panel reflects just a wide sweep of the kinds of 
things that can be included as we look at restructuring this 
act.
    We're going to hear about training for health care 
professionals, youth activities, so we don't lose those young 
people, vocational rehabilitation and placement for individuals 
with disabilities, whom I've worked with a long time in the 
Legislature, and of course green jobs. That is the new economy, 
the economy of the future, and Nevada needs to be ready to 
harness it.
    So I want to thank all of you who have come out to attend 
today, this important hearing. It's an honor to represent you 
and have you here.
    I also want to point out that unlike many legislative 
hearings where they take public comment, we in our 
Congressional hearings, we're not able to take public comment. 
But for us to be successful as we move forward, we need to hear 
from all of you who are in this room, and that would include a 
broad range of voices and ideas in addition to those who are 
the official witnesses.
    So, although you can't provide public comment here, I would 
greatly appreciate it if you would submit your comments for the 
record, and we can put them in the record, and you can send 
them to me. There are several ways that you can do that, either 
with the form you find on the back of the room to submit notes, 
anything you want to submit, or you can do it on the website. 
And so I thank you for that feedback.
    Also, thank you again, Mr. Chairman, for bringing your 
committee to Las Vegas. This is a very important topic for 
Southern Nevada, and we are looking forward to sharing some of 
the things that are going on here with you.
    So thank you very much, and I look forward to an insightful 
and thought provoking hearing today.
    Chairman Hinojosa. Thank you. It is a pleasure to work with 
Dina. As Congresswoman of this area she is your voice, she is 
your representative, and works hard. I'm delighted to have her 
on my subcommittee because she is not afraid of hard work, long 
hours, and the horrible trip back and forth every week or every 
two weeks from Washington to her home district.
    So I thank you and I look forward to this hearing. You 
should know that after five Congressional hearings, one in 
Albany, New York, and the others in Washington, D.C., and today 
here in Nevada, we believe that we are gathering information 
that is very necessary for us to be able to start writing the 
legislation and hopefully be able to debate in our committee in 
July, be able to take it to the House floor and debate among 
the 435 members that compose the U.S. Congress.
    I can say that we have heard from witnesses through 
previous hearings that have given us hope that in this rewrite 
of the reauthorization of WIA that we will be able to find the 
way in which to restructure workforce development boards so 
that the greater amount of money will be going towards training 
students, young, middle-aged, and senior adults.
    The reason is that at least the last 11 years we found that 
there wasn't enough regulation to try to hold the amount of 
money that was being given to the subcontractors in profits and 
the cost of operating so many offices and centers that were 
being utilized so that 40 percent or less of the money coming 
from Washington went towards training students.
    We want to turn that around. We would like to see 60 
percent or more of the federal money going towards training and 
the balance for what I mentioned earlier.
    Having said that, I am proud to be in my 13th year in 
Congress serving on this committee, and Chairman of the 
Subcommittee on Higher Education, which I think is this campus 
here is a good example of what I fight for.
    We know that the average lifetime earnings of a student who 
graduates from high school is $500,000. But those who graduate 
from college can expect a lifetime income of $1 million. So 
that would certainly improve the quality of life for their 
families, the region that they live in, and certainly paying 
taxes to help us with what is required and that is 
infrastructure, to be able to keep expanding.
    You are the envy of many states as one of the fastest 
growing regions in the country. The area that I represent in 
deep south Texas was trailing just behind you. So it gives me 
great pleasure to come and see it for myself what is it that 
y'all have done, and of course downtown Las Vegas and all the 
expansion going on there is proof of the success that you have 
had. Only in Dubai, and Abu Dhabi and those areas that are rich 
with oil have we seen something that even comes close to what I 
saw downtown yesterday when I came in.
    So today's hearing is going to be directed at having a 
trained workforce, and I also was delighted to meet so many 
people prior to getting started, and one particular that caught 
my attention was Kenneth LoBene, director for U.S. Department 
of Housing and Urban Development here in this area, and working 
with the youth council.
    I believe that the group that y'all are working with, ages 
of 15 to 25, have so much potential. But unfortunately, 
materials that I read indicate that we have a very high dropout 
rate and are not finishing high school, but that's not just 
here in Nevada, that's throughout the country. If you were at 
one of our last hearings, the people who testified from 
Detroit, Michigan told us that there are some pockets of 70 
percent dropout rate from their high schools.
    That's why it's so important that we listen to these 
witnesses and others who are in the audience because I honestly 
believe that there are solutions.
    With a new president with the Obama administration making 
the kind of commitment of $787 billion in the stimulus plan, 
monies that go out throughout the country for so many different 
ways of in which we can create jobs, and infrastructure, I 
believe there is hope.
    The folks that I hear on CNN and other stations on TV tell 
us that there's reason to believe that we are somewhere close 
to finishing and ending this recession that has been one of the 
longest we've had in the last 50 years.
    So we're going to proceed and I'm going to start by 
introducing the panelists. The first one that I will present is 
Brian Patchett, president and CEO Easter Seals Southern Nevada.
    Our first witness has been an advocate for over 20 years 
for people with disabilities and improving quality of life and 
promoting independence. He has worked for the Utah Assistive 
Technology program, training people to implement the Americans 
with Disabilities Act, which is extremely important to us in 
our country.
    Mr. Patchett graduated from Utah State University with 
degrees in political science in 1992, and then went on to study 
at Syracuse University and earned master's degrees in public 
administration and rehabilitation counseling.
    He is one of 49 million Americans classified as disabled, 
but this has not hindered his education or professional goals. 
He has worked for Eastern Seals in Washington and Arizona and 
in Southern Nevada, where he has served as the president and 
CEO since 2004.
    Mr. Patchett has received many awards in his career and he 
and his wife, Stacy, are the proud parents of six children, and 
we are very happy to welcome you this morning.
    The next panelist will be Chris Brooks, Director, Bombard 
Renewable Energy. Mr. Brooks has been a journeyman, wireman in 
the State of Nevada for the past 17 years and is a certified 
master electrician. He is certified by the North American Board 
of Certified Energy Practitioners and also has the state 
required OSHA PV installers license.
    Mr. Brooks is the founding member of Solar Nevada, the 
local chapter of the American Solar Energy Society, where he 
currently serves as their vice president. Mr. Brooks is also 
been appointed to the Nevada Renewable Energy and Energy 
Efficiency task force. Welcome this morning and you have all of 
our attention regarding your certifications.
    The next person, next witness, Ms. Chanda Cook, Nevada 
Public Education Foundation. As director of community 
initiatives, Ms. Cook has taken an active leadership role for 
the foundation in reducing high school dropout rates and 
graduating students that are prepared for the workforce and 
higher education priorities.
    Prior to her current position she spent more than a decade 
in corporate community relations with Nevada Power, focusing on 
programs that supported energy education, as well as math, 
science and technology.
    Ms. Cook has been active on education issues at the local, 
and the state and national levels. Locally she has a long 
history of involvement with the Clark County School District, 
which is the fifth largest in the entire nation.
    She also has been appointed by the governor to serve as the 
parent representative to the Nevada Commission on Educational 
Excellence and will be sharing her thoughts with us today on 
Nevada youth, as well as sharing her concerns for our youth 
nationally.
    Ms. Cook has a bachelor of arts degree in social work from 
the University of Nevada Las Vegas, and has continued her 
education with participation in the Harwood Institute for 
Public Leadership. Welcome.
    Next presenter is Ms. Rebecca Metty-Burns. She is the 
Interim Director, Division for Workforce and Economic 
Development, College of Southern Nevada in Las Vegas.
    Ms. Metty-Burns is responsible for overseeing the industry 
workforce programs in the division, as well as community and 
personal enrichment courses, grant funded GED, and English as a 
second language courses in the prison program.
    The Division provides industry courses in health care, in 
manufacturing, in hospitality, and operates an OSHA training 
institute education center.
    Before joining CSN, Ms. Metty-Burns had 16 years experience 
as a human resources leader directing employee training and 
human resources projects. She holds a BA in economics from the 
University of Alaska in Anchorage, and she holds an MBA from 
the University of Nevada Las Vegas.
    This morning we look forward to her comments regarding the 
training of individuals for the health care industry. Welcome 
to you and all the other witnesses and now we are ready to hear 
from everyone, and we will start with you, Mr. Patchett--excuse 
me, let me take this opportunity to say something about the 
lights that you are going to see operating here in front of 
you.
    For those of you who have not testified before this 
subcommittee, let me explain our lighting system and the five-
minute rule.
    Everyone, including members, is limited to five minutes of 
presentation or questioning. The green light is illuminated 
when you begin to speak. When you see the yellow light, it 
means you have one minute remaining. When you see the red 
light, it means your time has expired and you need to try to 
conclude your testimony.
    Please be certain as you testify to turn on and speak into 
the microphone in front of you so that we can have all of the 
participants and the audience hear you clearly.
    Now we'll hear from our first witness, Mr. Patchett.

STATEMENT OF BRIAN PATCHETT, PRESIDENT AND CEO, EASTER SEALS OF 
                        SOUTHERN NEVADA

    Mr. Patchett. Thank you very much, Chairman Hinojosa and 
Congresswoman Titus. It's a pleasure to be here to speak with 
you this morning and I also want to recognize Erin Fox next to 
me. Her job is to tell me when the lights are properly colored 
because I don't see the lights from here.
    What I would like to talk about today is people with 
disabilities and employment. I think as we look at the 
rehabilitation act, which is now the fourth, or is also part of 
the WIA Act that we have, there are a couple of things I want 
to emphasize and that is universal design, and I want to talk 
about transition and I want to talk about assistive technology 
and a couple of things.
    But first I think it's important to understand, we talk 
about the challenges we have with the economy today. We talk 
about unemployment, and Mr. Chairman, you mentioned some of 
those statistics and the things that are going on. And it is 
very concerning and even more concerning is the impact on 
people with disabilities.
    As we think about individuals generally throughout the 
country and here in Nevada we look at roughly 71 percent of 
people that could be employed are employed. When you look at 
people with disabilities, that number is 23 percent. 23 percent 
of individuals with disabilities are employed. And when we talk 
about unemployment statistics right now, we talk about roughly 
nine percent, maybe ten percent of people with, in general 
being unemployed in this economic downturn that we are in. 
Among people with disabilities who are employed, that 23 
percent we talked about, we are talking about a number closer 
to 15 percent, roughly 14.5 percent. Very significant.
    So that impact is definitely felt by individuals with 
disabilities, and as you mentioned, I am a person with a 
disability. I've had the opportunity to be a person who went 
through the vocational rehabilitation system, was very much 
helped through that system. It changed my life. I was able to 
pursue my graduation and I am where I am today.
    Unfortunately, many still are not. And I think that's what 
the key is, as I'm talking, is how we get to that, that issue.
    I also want to recognize a couple people that are here and 
thank them. We have Director Mosley of DETR, which is the 
Department of Employment and Rehabilitation Training. His 
leadership is amazing right now, in trying to change and turn 
things around in Nevada.
    Also Debra Brown, from vocational rehabilitation and so 
many of the staff are there. Things they are doing, especially 
over the last year, have been wonderful and thank you 
Congresswoman Titus for all of the efforts you made over the 
years and worked at the Legislature to help persons with 
disabilities.
    Let's talk about universal design and I think the easiest 
way to think about this is when you think about a WIA place or 
a work site place for training or for information about jobs. 
Here we call them the Job Connect sites.
    A person goes there to get information about jobs, maybe 
get some training related to jobs, and to find jobs. And I 
think about, we think about that related to people without 
disabilities or people with disabilities, what we need to be 
able to get to is thinking about all people together.
    One of the challenges we have right now is that if a person 
walks into one of these sites and they have a disability, or 
they come in using a wheelchair or whatever, that site may not 
be accessible to them, programatically or also technologically. 
They may not be able to access the computers at that site, they 
may not be able to--the individuals working there may not be 
able to help them to be able to build their resumes to be able 
to search for jobs.
    We need to start thinking about people with disabilities 
and people without disabilities together under the Workforce 
Investment Act. In 1973 the Rehabilitation Act was passed. It 
became part of WIA 11 years ago, as has been mentioned. We need 
to somehow figure out how to further blur the lines so that 
whenever somebody needs services for employment, regardless of 
ability, they can receive those services.
    Second, I want to talk about transition services. One of 
the things that makes a significant difference is the kind of 
services a person gets as they are coming through school, are 
they being prepared for employment, are they getting adequate 
career counseling, adequate education, adequate job experience.
    One of the challenges we have still within the act is how 
do we get at preparing students, high school students to make 
that transition from school to work. And quite often in both 
these areas one of the challenges is assistive technology. 
Assistive technology are devices that help someone with a 
disability to be able to get a job or to be able to keep a job. 
And certainly that becomes a challenge as it relates to 
employment for some of us with disabilities.
    I'd also add that sometimes the 90 days that when someone 
is employed through voc rehab, that that employment, once that 
person has been employed for 90 days, the case is closed.
    I argue, I think in my written testimony, and I would argue 
here that that's not long enough. We need to be able to spend 
more time following up with individuals with disabilities. 
Maybe it's six months, I don't know, maybe it's longer than 
that. And I'd go ahead and close there.
    Chairman Hinojosa. Mr. Patchett, I want to yield an extra 
minute to you to complete your thoughts.
    Mr. Patchett. Thank you so much, Mr. Chairman.
    And yet, as we look at trying to create this system that's 
more friendly to helping persons with disabilities, and trying 
to get from transition from school to work or through that 
process, again back to the 90 days, that I think about when I 
got my first job, and even when I got this job as CEO, it took 
a lot longer than 90 days to become used to this job.
    We need to be able to follow along, as vocational rehab 
professionals, longer than 90 days. If we can do that, we can 
guarantee employment to last longer. A good percentage of 
people who become employed as persons with disabilities, at 90 
days the case is closed. A good percentage of those people 
within 20 days of that 90 days, so basically 110 days, then 
lose that job. So we need to extend that, and my recommendation 
is to go six months and that would----
    Chairman Hinojosa. I assure you that your entire record, 
written record statement, rather your entire statement will be 
part of the record of today's hearing.
    [The statement of Mr. Patchett follows:]

        Prepared Statement of Brian Patchett, President and CEO,
                    Easter Seals of Southern Nevada

    Mr. Chairman and members of the Subcommittee on Higher Education, 
Lifelong Learning and Competitiveness, my name is Brian Patchett. I am 
currently the President/CEO of Easter Seals Southern Nevada, a non-
profit organization serving children and adults with disabilities. I 
have spent much of my life working with the Vocational Rehabilitation 
system. I was first a client of these services as a young man and later 
a professional in the field of rehabilitation. Today, I would like to 
share with you some of my personal experiences in conjunction with 
addressing some of the key issues that need attention when looking at 
the reauthorization of the Workforce Investment Act (WIA), specifically 
in the area of Vocational Rehabilitation. Within that context I will 
identify important improvements that can be made that will provide 
greater access to employment for people with disabilities.
    Some of the areas where improvements can be made include: universal 
design, supported employment, school to work transition, and access to 
assistive technology. I would also like to discuss our proposal related 
to employment opportunity for people with disabilities in the field 
weatherization and green jobs.
    As I said above, my experience with Voc Rehab has been both as a 
client and as a professional. I became legally blind at age seven when 
blood vessels burst across the macula leaving a residue of scar tissue 
that impaired my vision. As a child after my vision loss, it became 
very important to me to not be perceived as having a disability. I did 
everything I could to prove I was a typical boy from playing sports 
including soccer, football and track and field to attending public 
school with my peers. I discovered I could do many things well and also 
found my limitations. For example, I found I couldn't play baseball.
    When I turned 18, I had my first experience with Vocational 
Rehabilitation services. I was asked to sit in a room and put together 
nuts and bolts. I was then given an IQ test. This path would have led 
me to a sheltered workshop. Thankfully, I left that situation, went to 
college and eventually earned Masters' Degrees in Rehabilitation 
Counseling and Public Administration from Syracuse University.
    My professional career related to disability services began when I 
started working as an undergraduate through a university affiliated 
program with the Tech Act Grant in the field of Assistive Technology. I 
became an expert in assistive technology and legislation regarding 
persons with disabilities. In addition to working on disability 
innovation at the state level, I also got a world wide view of 
disability issues when I traveled with Mobility International USA to 
the former Soviet Union. The two summers I spent as a student 
ambassador in Russia becoming fluent in the language and promoting 
disability awareness were remarkable and deeply impacted my philosophy 
and understanding of disability on a global scale.
    When I reached graduate school, I was prepared to continue my 
expertise in assistive technology and co-taught the course on assistive 
technology to my peers. Upon graduation from Syracuse University and 
the Maxwell School of Citizenship and Public Affairs, I became a 
Certified Rehabilitation Counselor (CRC). I was hired by Easter Seals 
Washington as their Eastern Washington Regional Director and Director 
of Assistive Technology and have continued, for the past 13 years, to 
work for positive change and greater independence for persons with 
disabilities within the framework of Easter Seals. I left Easter Seals 
Washington to take the position of Vice-President of Programs for 
Easter Seals Arizona. And for the last five years, I have served as 
President/CEO for Easter Seals Southern Nevada.
    During all these years, as a student and professional, I have 
worked closely with Vocational Rehabilitation programs in several 
states. I have watched the evolution of the Rehab Act to today when it 
has been reauthorized as WIA Title IV or the Rehab Act. And, I have 
been directly involved in serving thousands of people with 
disabilities.
    I know what it is for a person with a disability to run into 
barriers in finding employment and even in barricades within the Voc 
Rehab system. My undergraduate studies were in Political Science and 
International Studies and, at one point; I was applying for a job as a 
congressional intern in Washington D.C. During my interview, the hirer 
from the congressman's office asked me about my disability. When I 
explained my disability, the individual then asked how I ever thought I 
could work in a congressional office given my disability, and even 
wondered out loud why I had even applied for the job. This experience 
was a powerful and personal representation of discrimination and has 
motivated me to want to change the perceptions people with disabilities 
endure and help create more effective service delivery for persons with 
disabilities.
Easter Seals Southern Nevada
    Easter Seals Southern Nevada (ESSN) is a non-profit Nevada 
corporation dedicated to providing the highest quality services to 
persons with disabilities and their families. Easter Seals nationally 
believes in full participation of persons with disabilities in our 
communities and throughout society. Our mission and vision are 
specific: To create solutions that help people with disabilities become 
self sufficient through education, community partnerships and direct 
services. Our services include the following:
            Early intervention:
    We offer services for children with special needs, ages birth to 
three, in their natural family environment. Our goal is to help them 
develop and learn so they can reach developmental milestones and become 
more successful when entering school.
            Wonders of our World Child Development Center:
    We offer child care for children of all abilities, ages 6 weeks to 
8 years of age. Our child care uses Creative Curriculum, develops 
family plans for all children, and focuses on the strengths in every 
child to create a fun place to learn and grow.
            Autism services:
    We provide in-home ABA instruction and social skills training to 
children with autism, ages 3 to 8. We also offer parent training and 
support to help families learn about autism, accept the challenges 
ahead and become more educated and independent advocates for their 
child.
            Family respite:
    We provide qualified families with a voucher each month to help 
assist with the cost of obtaining respite services for their child with 
a disability. Parents choose a provider they know and trust and Easter 
Seals assists with voucher reimbursement to help cover the cost.
            Adult day services:
    We give adults with significant disabilities the opportunity to 
experience community activities that maximize their self help, 
socialization and daily living skills in a safe, age appropriate daily 
program.
            Supported living assistance:
    We provide support to people with disabilities in all aspects of 
independent living to ensure they can remain active, contributing 
members of their community. Our goal is to assist each person in 
reaching the highest level of independence that they are able to 
achieve, while living in their own home.
            Assistive technology:
    We provide evaluations, workplace assessments, training and any 
other tool necessary to assist people with disabilities to be 
successful in employment, education, recreation and independent living. 
We provide services in the home and also in our state of the art 
assistive technology lab.
            Employment and rehabilitation:
    We offer a full employment program for adults with disabilities, 
providing work skills training and pre-employment assessment. 
Individuals work within our warehouse facility or at one of our 
community worksites, doing real work and earning a paycheck which 
furthers their ultimate goal of independence.
Employment and the Rehab Act
    This year, the United States Bureau of Labor Statistics reported 
that the official unemployment rate for people with disabilities, 
meaning those who have lost their jobs and those who are actively 
seeking employment, for the first quarter of 2009 was hovered between 
13 and 14%, 5 to 6 percentage points higher than the non-disabled 
population. While this statistic is alarming, even more troubling is 
the lack of labor force participation by people with disabilities. BLS 
reported that for the same time period only 23% of all adults with 
disabilities participated in the labor force as compared with 71% of 
the non-disabled population. Further, those individuals with 
disabilities who can find jobs are more likely to have less job 
experience and are more likely to earn lower incomes than individuals 
without disabilities.
    In Nevada, we have historically not provided adequate 
rehabilitation services for many reasons. Our challenges have ranged 
from leaving federal money on the table because of our unwillingness to 
match the dollars and now our inability to do so because of the 
economic situation. There are too few rehabilitation counselors to meet 
the needs in Nevada. Recruiting qualified rehabilitation counselors has 
been difficult especially with the state not having a university 
program which prepares individuals to sit for the CRC Exam. 
Additionally, the state is not adequately able to contract out for job 
development and assistive technology services, leaving potential 
workers in the ranks of the unemployed..
    These challenges along with those I will outline in the next 
sections are what continue to keep individuals with disabilities from 
employment at the same level as their non-disabled peers. Furthermore, 
many rehabilitation programs across the country lack appropriate 
philosophical leadership, in other words, the leadership may not be 
people with disabilities or people who truly understand the challenges 
facing those of us with disabilities.
Universal Design
    Creating universally designed systems for access to jobs, job 
information, career planning, and general person-centered services is 
one of the greatest challenges facing persons with disabilities in 
Nevada and throughout the country. Imagine a person who has significant 
physical disabilities and uses a wheelchair. He or she is unable to 
access a standard computer work station including standard keyboard, 
mouse at a workforce development site, (called Job Connects in Nevada). 
Not only is the computer station inaccessible but the staff members who 
are there help the individual in finding employment have not received 
proper training on how to assist a person with a disability. Success 
for this individual at Job Connects is all but impossible and he or she 
leaves the site frustrated, deflated, and unable to pursue employment.
    Unfortunately, this example is the case too many times and even 
though WIA seems to address this issue, it has not been addressed 
strongly enough. A workforce development site should be required to 
meet the standards of universal design. The term ``universal design for 
the workforce development system'' means the design of environments, 
products and communication practices as well as the delivery of 
programs, services and activities to meet the needs of all customers of 
the workforce development system.
    Staff should be adequately trained to work with individuals with 
disabilities as a facet of any professional development activity. A 
work station or stations should contain appropriate assistive 
technology hardware and software such as the work stations Easter Seals 
Southern Nevada has designed for libraries. The technology would be 
there to serve virtually every individual with a disability and 
available staff would be trained on how to assist those who need to 
access these assistive technologies. Such technologies would benefit 
not only job seekers with disabilities, but also individuals who may 
have age related vision impairments or hearing loss as well as any 
number of other challenges to using computers.
    I have attached supporting documents that outline of what we at 
Easter Seals Southern Nevada can do to assist in creating universal 
design. Additionally, every WIA Jobs Connects or workforce development 
site should be required to meet the standards of universal design. Any 
vendor operating such a site would be expected to make sure their site 
is programmatically and physically accessible to persons with 
disabilities and their contract would indicate that they would be 
audited on an annual basis to ensure that they meet the standards of 
universal design.
Supported Employment
    After a person is determined to be eligible for Vocational 
Rehabilitation, he or she develops an Individualized Plan for 
Employment or an IPE. This IPE is to be person-center which means the 
person with the disability determines the career path and together with 
the rehabilitation counselor outlines goals and supports needed to 
achieve the employment outcomes desired. These supports might include: 
career counseling, job training, education, job shadowing, job 
coaching, and career exploration accessing assistive technology 
services and devices.
    Unfortunately, my experience has been that this doesn't always 
occur. In fact, many who become employed often are not adequately 
prepared for that employment and do not receive all of the supports 
needed to be successful long term. Job coaching and especially 
assistive technology are areas that are usually lacking in this 
process--both of which are critical components of job maintenance.
    Additionally, the VR system counts a person as having a successful 
outcome if they have been placed into a job and continue at that job 
for ninety days. At that point services from Voc Rehab stop. This has 
often been referred to as ``the 26'' or case closure. Unfortunately, 
evidence shows that many people end up losing that job within 20 days 
of that closure because supports have ended. I ask the question: ``How 
many of us, after three months of a job really have a grasp of what we 
are doing?'' I think most of us would say that it takes at least six 
months to a year for us to become comfortable with a new position. 
Thus, I believe we should change the Voc Rehab system to allow for 
longer supports.
Access to Assistive Technology
    ``John'' is a 35 year old. He has cerebral palsy and uses a wheel 
chair for mobility. He was able to find a job as a Customer Service 
representative in a call center, but John's rehabilitation counselor 
did not authorize assistive technology services prior to employment and 
as John was nearing the end of his probationary 90 days at work--his 
employer expressed concerns regarding his productivity level. Easter 
Seals was contacted to respond to the crisis and identify technology 
that could save John's job. After completing the evaluation, voice 
input software and adaptations to his work station were recommended. 
However, prior to the authorizations and approvals being completed, 
John lost his job.
    This true story demonstrates challenges faced by the vast majority 
of persons with significant disabilities in the Voc Rehab system. 
Receiving adequate assistive technology services and devices is 
consistently the place Voc Rehab here in NV falls down the most. Voc 
Rehab is intended to be a system designed to help persons with 
disabilities find employment. But the fact is that many states limit 
those they serve to the most significantly disabled because of funding 
restraints. And, persons with the most significant disabilities are 
most likely to need assistive technology devices in order to perform 
the essential functions of a job.
    Assistive technology is a device or service which helps a person to 
access some part of life. Assistive technology may be an adapted 
keyboard for someone who has difficultly typing or voice input for 
someone who is unable to type at all; software that enlarges characters 
and images on a screen for an individual who is visually impaired; 
Braille output for persons who are blind; adjustable desks for persons 
using mobility devices such as a wheelchair; and, augmentative 
communication devices that allow a person who is non-verbal to 
communicate.
    To be a successful user of assistive technology, one must be given 
access to the evaluation and exploration process which includes 
learning about and selecting appropriate technology which will help one 
to be successful. In the case of employment, it is necessary to become 
successful at using assistive technology in order to perform the 
essential functions of a job.
    The assistive technology evaluation should take place as early as 
possible. Once the IPE is established, this should be one of the first 
priorities. The person should then receive the technology recommended 
in the assistive technology evaluation and sufficient training should 
follow on the device or devices.
    With this preparation, the person will then be able to confidently 
talk with employers about how they can perform the essentials functions 
of a job and be confident in performing that job with their assistive 
technology. In fact, the individual would then become the expert on the 
technology they use.
    Using screen enlargement and voice output software has completely 
changed my life and made it possible for me to be successful 
academically and in my career as a CEO of a significant non-profit 
organization.
    The following outline again the important components of any 
successful assistive technology process:
    1. Person center assistive technology evaluation, including 
exploration and hands on trying the technology.
    2. Acquisition of assistive technology.
    3. Adequate training on use of assistive technology.
    4. Follow-up and assistance in implementation at job site (this may 
also include a through jobsite analysis).
    If this process is followed, the person may be expected to be more 
successful in their career. I do want to emphasis that a person needs 
to have adequate time prior to job interviewing and actual employment 
to be come expert on their technology. Just like being proficient on a 
computer or having appropriate education before entering a job, a 
person must have expertise, experience and confidence in using their 
assistive technology before they become employed.
School to Work Transition
    Preparing high school students with disabilities for the world of 
work has been one of the great challenges for the Voc Rehab system. My 
experience as a consumer of VR services and as a program partner in 
several states, including here in NV, has led me to conclude that few 
states provide this service in any meaningful way.
    Four years ago, I had the opportunity of working with Karla Macomb, 
a wonderful disability advocate and leader in Nevada for many years, on 
a proposal to the Voc Rehab system four years ago for transition 
services. This proposal was initially accepted and Easter Seals 
Southern Nevada was asked to begin the process to provide services in 
Nevada. Unfortunately, the program we envisioned was watered down 
significantly and Easter Seals no longer provides these services. The 
state continues to provide some transition services in conjunction with 
the schools, but some of the critical components are completely non-
existent.
    According to the Rehab Act, transition from school to work should 
begin at age sixteen and may begin as early as age fourteen. To be 
successful, Voc Rehab and the schools should work together to create a 
system that begins the transition process for students with 
disabilities by age sixteen. Ideally, these students would receive the 
following services:
    Career exploration
    Career counseling
    Assistive technology
    Job shadowing
    Summer employment
    Mobility training (i.e. access to buses, etc.)
    Resume building
    College exploration
    Eventual employment
    Most of us growing up, held summer jobs and had our first 
experience with work while in high school. Some of us even received 
work experience at an earlier age. I personally began delivering 
newspapers when I was 8 years old and continued this job into my teens. 
I subsequently held other valuable summer jobs that prepared me for the 
adult work force. If WIA Title IV could focus more on transition and 
helping teenagers with disabilities in conjunction with the school to 
have positive job shadowing and work experiences, I believe we would 
see more than the 23% of persons with disabilities in the work force.
Weatherization and Green Jobs and People with Disabilities
    Easter Seals Southern Nevada is proposing to utilize persons from 
the vocational rehabilitation system and individuals with intellectual 
disabilities to provide weatherization of homes and manufacturing of 
solar panels. This is a wonderful win-win opportunity where we can 
combine the desire to create a green economy along with entering 
persons with disabilities into green jobs at the outset and creation of 
these new markets. Thus we have proposed the following:
    Easter Seals Southern Nevada (ESSN) has proposed developing 
partnerships with companies that manufacture ``green'' products, 
establishing a weatherization program, and allowing workers to be 
trained in skills that will be valuable in emerging markets. For 
example, Sea Group Ltd. is a manufacturing company specializing in 
solar energy applications and is interested in working with people with 
disabilities through Easter Seals Southern Nevada to assemble, package, 
ship/deliver and install energy-saving products.
    In partnership with Sea Group, ESSN is in negotiations with the 
City of Las Vegas to provide homes with a pressurized water heater 
system, including installation, via government subsidization funding to 
homeowners. In addition, the City of Las Vegas has an interest in 
implementing cost saving energy heating consumption at its community 
pools and other buildings under their jurisdiction with the products 
provided via Easter Seals from Sea Group. Sea Group Ltd. specializes in 
solar energy applications and will provide the raw materials for 
individuals with disabilities to assemble, package, ship/deliver, and 
install solar thermal panels and other energy saving products. Through 
Sea Group, ESSN is proposing to provide 1,000 homes, via government 
subsidies, with pressurized water heater systems, including 
installation. In addition, the City of Las Vegas in interested in 
implementing cost saving by reducing energy heating consumption at its 
municipal pools and buildings through products provided by ESSN via Sea 
Group Ltd. This project will involve a partnership with the State Use 
Program (Preferred Purchase) to contract directly with ESSN to purchase 
these products.
    This ``green'' job initiative is among the many projects we have 
developed that will allow us to train dislocated workers for 
opportunities and careers.
    As mentioned above, Easter Seals already has excellent partnerships 
with BVR, DETR, DRC, BSB, and Mental Health as a pool from which 
dislocated workers can be referred to our services. Easter Seals also 
has established relationships with other local businesses that provide 
work opportunities to individuals in our warehouse setting, such as 
Berry Plastics and Caesar's Palace. Individuals are trained on and paid 
for completed specific warehouse related tasks for these large 
companies, such as assembly, packaging and forklift operation.
Conclusion
    With a 10.4% unemployment rate in Nevada, the highest in two 
decades, higher than the 8.9% national average, Easter Seals is 
positioned to be instrumental in skills training and job placement to 
address the needs of both dislocated workers and Nevada's economy.
    U.S. soldiers deployed in Iraq and Afghanistan who have returned to 
civilian life face an unemployment rate three (3) times the national 
average--with 1 in every 5 returning Operation Enduring Freedom and 
Operation Iraqi Freedom service members expressing indicators for 
posttraumatic stress disorder and 1 in every 5 had some level of 
traumatic brain injury. For those receiving Temporary Assistance for 
Needy Families, research has shown that over half of the current 
caseload today can be assumed to have learning disabilities, mental 
retardation, psychiatric or addictive disorders, or a combination 
thereof.
    We strongly advocate for system wide supports to be in place that 
address these core issues for clients and wrap them with the supports 
and services they need to be successful. For us, the link between 
poverty, unemployment, unsuccessful job placements, and hidden 
disabilities is clear and compelling. We are uniquely positioned to 
respond to the needs of the vast number of dislocated workers that have 
such hidden disabilities as listed above, which are at the root of 
poverty, unemployment, and homelessness.
    Easter Seals workforce development services provide an 
individualized approach to assisting dislocated workers to make 
informed choices and attain their employment aspirations. Easter Seals' 
approach includes an array of services and supports that ultimately 
lead to employment. This approach is designed to identify goals, 
objectives, and planning needs, and providing the supports a person 
needs to achieve and maintain employment.
    Rehabilitation services have greatly improved since the Rehab Act 
was first passed into law in 1973. However, there continue to be 
significant challenges of access to employment as I have outline and as 
we move into the future, these challenges will become greater 
especially in the areas of technology and mobility. With more and more 
reliance on technology and increasing mobility between jobs and the 
complete changing of the traditional work place, we will need to 
emphasize universal design for services, long-term supports, assistive 
technology and transition services in order to prepare those of us with 
disabilities for the future.
                                 ______
                                 
    [Additional submissions of Mr. Patchett follow:]

                           Executive Summary

       Organization Name: Crossroads Rehabilitation Center, Inc.

          d.b.a. Easter Seals Crossroads Rehabilitation Center

    Overview of proposal:
    In response to the June 2, 2003 request for proposal from Career 
Choices, Incorporated:
    Easter Seals Crossroads Rehabilitation Center proposes to provide 
adaptive equipment and software that will increase the accessibility of 
WorkOne Evansville and the five WorkOne Express Sites, for the disabled 
in the five county Workforce Services Area. This equipment and services 
correspond to Phases Two and Three of this project. Phase One has been 
completed and Easter Seals Crossroads proposed to provide services 
under both Phase Two and Phase Three.
    Based on a 3 year history of partnering with Marion County 
(Indianapolis) Indiana agencies, Easter Seals Crossroads Rehabilitation 
Center (Easter Seals Crossroads) has developed X-tations (accessible 
workstations) that address the needs of individuals with disabilities 
as they utilize the services of WorkOne facilities. These workstations 
include adaptive hardware and software, a comprehensive training 
program for WorkOne staff and on-going technical support. In working 
with the Department of Workforce Development, Easter Seals Crossroads 
has exclusively developed specialized software that allows the 
assistive technology included with the X-tation to be compatible with 
Indiana's CS3 system.
    In response to the needs set forth in the request for proposals, 
Easter Seals Crossroads proposes that two X-tations be implemented in 
the Evansville WorkOne center and one X-tation be implemented in each 
of the five WorkOne express sites.
    A comprehensive training program (including custom training manuals 
and quick reference guides) will be implemented so that the staff in 
the WorkOne centers are able to appropriately utilize the X-tations to 
serve the needs of individuals with disabilities.
    Easter Seals Crossroads is looking forward to an opportunity to 
build on the success of the Marion County WorkOne project in 
implementing accessible technology in Southwestern Indiana.

Applicant organization
    Mission: Easter Seals Crossroads is a community resource working 
with children and adults with disabilities and special needs and their 
families to promote growth, dignity and independence.
            Agency and Department
    Easter Seals Crossroads Rehabilitation Center, a not-for-profit 
organization, has been serving individuals with disabilities in Indiana 
for over 65 years. The Ruth Lilly Assistive Technology Center was 
founded in 1988 with the specific purpose of utilizing computer-based 
technology to assist individuals with disabilities in achieving their 
vocational goals. Since its inception, this program has grown to 
provide job accommodation, adaptive computer access, ergonomic 
consultation and other rehabilitation technology services to 
individuals with all types of disabilities throughout the state of 
Indiana.
    The Ruth Lilly Assistive Technology Center is the only CARF-
accredited assistive technology program in the state on Indiana. All 
work performed by the center is supervised by a RESNA-certified 
Assistive Technology Practitioner (ATP).
    Recently, the Ruth Lilly Assistive Technology Center opened its 
doors to the west coast by establishing two technology centers in Las 
Vegas, Nevada.
            References
    Please find letters of recommendation attached from the following 
entities:
    <bullet> Indianapolis Private Industry Council (Attachment one)
    <bullet> Indiana Department of Work Force Development (Attachment 
two)
    <bullet> Disability Resource Specialists from the Indianapolis 
WorkOne centers (Attachment three)
    <bullet> Mayor of Indianapolis, Office of Disability Services 
(Attachment four)
            Statement of Need
    In order to adequately address the needs of individuals with 
disabilities as the utilize the WorkOne centers, specialized technology 
must be implemented. The technology proposed (X-tation) has been 
designed specifically for this purpose.
    Easter Seals Crossroads proposes that two X-tation workstations be 
implemented at the WorkOne center in Evansville. One X-tation should be 
implemented at each of the WorkOne express sites in Posey County, 
Warrick County, Spencer County and Perry County.
    Hardware and software:
    (Please see Time Line section below for a schedule of equipment 
procurement, delivery and setup.)
    Through experience in working with the Indianapolis WorkOne 
centers, a great deal of experience has been obtained. Based on this 
experience, a set of hardware and software has been developed and 
tested to ensure that the adaptive technology needs of most individuals 
accessing a WorkOne center will be met.
    It is recommended that X-tations be implemented at the WorkOne 
center as well as at the express sites.
    The X-tation includes the following technology designed to meet the 
needs of individuals with the following disabilities:
    Low Vision:
    <bullet> Screen Magnification Software (MAGic)
    <bullet> MAGic has been developed by Freedom Scientific, the 
leading manufacturer of technology to assist individuals with vision 
impairment. This application provides varying levels of screen 
magnification, cursor enhancements and color inversion to meet the 
needs of individuals with a wide variety of vision impairment.
    <bullet> This software has been developed to be compatible with 
other Freedom Scientific products, which are recommended in this 
report.
    <bullet> Large Screen Monitor:
    <bullet> During the bidders meeting on 6-10-03, it was indicated 
that computers and 19'' monitors are being furnished by another vendor. 
Easter Seals Crossroads Rehabilitation Center will not furnish computer 
systems or monitors as part of this project.
    <bullet> Large print keyboard labels:
    <bullet> The X-tation is equipped with a standard keyboard with 
large print labels. For those with declining vision, it is often 
difficult to decipher some keys on the keyboard. This system of labels 
alleviates the difficulty with those tasks.
    <bullet> Video Magnifier (CCTV)
    <bullet> The X-tation includes a color video magnifier which is 
supported by a wheeled stand. This color magnifier can be moved toward 
and away from the workstation and allows users with limited vision the 
ability to read and write on employment-related materials while using 
the X-tation.
    <bullet> Compatibility with CS3:
    <bullet> These items have been tested with the CS3 system, are in 
use in the Indianapolis WorkOne centers, and are compatible.
    Blind:
    <bullet> Screen Reading Software (JAWS):
    <bullet> JAWS has also been developed by Freedom Scientific, the 
leading manufacturer of technology to assist individuals who are 
completely blind. This application ``reads'' the information on the 
computer's screen (via speakers or headphones). This software is highly 
adjustable to ensure that the user is able to listen to information at 
the rate and tone of their choosing.
    <bullet> The staff of the Ruth Lilly Assistive Technology Center 
has developed specialized computer software to allow the user to 
operate the CS3 system with JAWS. This software includes user 
keystrokes specifically for CS3 functions, as well as a custom help 
system designed to allow the user to understand better each screen 
within CS3 and how it applies to the user's activities. This custom 
software is included in our proposal at no additional charge.
    <bullet> Document Scanning system (Openbook):
    <bullet> Openbook has also been developed by Freedom Scientific, 
the leading manufacturer of technology to assist individuals who are 
completely blind. This document scanning and reading system works with 
the X-tation's document scanner to scan printed materials into the 
station and ``read'' them aloud to the user via speakers or a headset. 
This system provides adjustable fonts, rates of reading, and 
compatibility with the other components of the X-tation.
    <bullet> Compatibility with CS3:
    <bullet> These items have been tested with the CS3 system are in 
use in the Indianapolis WorkOne centers, and are compatible.
    Physical:
    The X-tation includes hardware and software designed to meet the 
needs of individuals with many types of physical disabilities, 
including:
    <bullet> Spinal cord injury/paralysis
    <bullet> Cerebral palsy
    <bullet> CVA/Stroke
    <bullet> Head injury
    <bullet> Repetitive stress injury/Carpal tunnel syndrome
    <bullet> Multiple Sclerosis
    <bullet> Muscular Dystrophy
    <bullet> Ataxia
    <bullet> Amputation
    <bullet> ALS
    <bullet> Spina Bifida
    <bullet> Arthrogryposis
    <bullet> Reflex sympathetic dystrophy
    <bullet> Various other physical disabilities
    <bullet> Voice Input (Dragon Naturally Speaking)
    <bullet> Dragon Naturally Speaking is a voice input system that 
allows users with learning or physical difficulties to input 
information into a computer system. This system utilizes a headset 
microphone that allows the user to speak information, which is 
converted to text and commands within computer applications. Web-based 
voice commands fully support CS3 navigation.
    <bullet> Switch input (Switch Click, Screen Doors)
    <bullet> Users with the physical ability to simply ``push a 
button'' utilize the X-tation's single switch input system. This system 
utilizes one of two switches included in the system, or is compatible 
with most switches that users may bring to the workstation, to allow 
the user to control a ``virtual keyboard'' to navigate the system and 
input information into the workstation.
    <bullet> Adaptive pointing input/on-screen keyboard (Programmable 
trackball, Screen Doors, Magic Cursor)
    <bullet> Users who have the ability to operate a mouse or 
programmable trackball may choose to operate the system by pointing to 
keys on the ``virtual keyboard'' to navigate the system and input 
information into the workstation.
    <bullet> Miniature keyboard (Datalux)
    <bullet> Users who type with a single hand, a single finger or who 
utilize a head pointer, may operate the system with the miniature 
keyboard. The Datalux spacesaver keyboard is smaller than a typical 
keyboard and reduces the effort required by the user while typing.
    <bullet> Over-sized, programmable keyboard (Intellikeys)
    <bullet> Users with tremors or users with limited ability to target 
keys on a standard keyboard may utilize one of the several overlays on 
the Intellikeys keyboard to access the X-tation.
    <bullet> Document scanning system (WYNN)
    <bullet> Although primarily a tool for individuals with learning 
disabilities, the WYNN (What You Need Now) document scanning system has 
been used to provide individuals with physical disabilities access to 
printed materials that cannot be physically handled.
    <bullet> Articulating arm supports and typing aids:
    <bullet> In order to provide support for users with limited arm 
strength and fine motor control of the upper extremities, the X-tation 
includes two adjustable, articulating arm supports and slip-on typing 
aids.
    <bullet> Electric dual height adjustable workstation
    <bullet> The X-tation is built around a dual height adjustable 
workstation that is adjusted by electric motors with easy-access 
switches. The workstation consists of two work areas: one that supports 
the keyboard/mouse area of the workstation and another that supports 
the display and scanner area. Each of these surfaces can be adjusted, 
independently, from a minimum seated height of 24 inches to a maximum 
standing height of 44 inches.
    <bullet> Articulating mounting arms:
    <bullet> The X-tation includes two articulating mounting arms. 
These arms are designed to position the keyboards, pointing devices and 
switches within easy reach of individuals with limited mobility.
    <bullet> Compatibility with CS3:
    <bullet> These items have been tested with the CS3 system, are in 
use in the Indianapolis WorkOne centers, and are compatible.
    Deaf:
    Traditionally, individuals who are deaf or hard of hearing have 
minimal adaptive technology needs as it pertains to computer access. 
The following items are included in the X-tation to address those 
needs:
    <bullet> Sound Sentry:
    <bullet> This software is integral to the Windows operating system 
and generates a visual indicator when the computer makes an audible 
sound.
    <bullet> Show Sounds:
    <bullet> This software allows the display of captions of 
applications that are designed to include captions.
    <bullet> TTY:
    <bullet> The X-tation includes a basic TTY unit to allow the 
placement and reception of TTY calls.
    Learning:
    The X-tation includes a variety of systems to enhance access by 
individuals with learning disabilities:
    <bullet> Voice Input (Dragon Naturally Speaking)
    <bullet> Dragon Naturally Speaking is a voice input system that 
allows users with learning or reading difficulties to input information 
into a computer system. This system utilizes a headset microphone that 
allows the user to speak information, which is converted to text within 
computer applications. This functionality has proven to reduce 
misspelled words and increase a learning disabled user's capacity to 
read and generate written documents.
    <bullet> Document scanning reading/literacy software (WYNN):
    <bullet> WYNN (What You Need Now) has been developed by Freedom 
Scientific's Learning Systems Group. This system provides the user 
alternative access to materials in any of the following formats: Web-
based, Computer-based (Word or text documents) or scanned printed 
materials.
    <bullet> WYNN provides multimodal feedback in the following 
formats:
    <bullet> speech output
    <bullet> color-coded reading
    <bullet> various font sizes, types and spacing
    <bullet> Additionally, WYNN allows the user to create bookmarks and 
notes in either voice or written format.
    <bullet> Compatibility with CS3:
    <bullet> These items have been tested with the CS3 system, are in 
use in the Indianapolis WorkOne centers, and are compatible.
    Staff Training:
    Training is a critical component of any assistive technology 
solution. In terms of the WorkOne centers, this is especially true. 
Many end-users come to the center with existing assistive technology 
experience. Others have not had the opportunity to utilize this type of 
assistance. In either situation, it is critical that the staff of the 
WorkOne centers be familiar with the assistive technology and able to 
provide end-users basic instruction in its use.
    Type of training:
    Training will be provided by two experienced trainers in the 
following manners:
    1. Lecture style training:
    In order to ensure that staff have knowledge of various disability 
types and how those disabilities affect access to the Work One's 
computer systems, an overview of the disability types (above) will be 
covered. Additionally, lecture-style instruction will be provided 
regarding each of the adaptive technologies included in the X-tation.
    2. Hands-on practice:
    Immediately following the lecture-style portion of the training, 
staff will have an opportunity to put their knowledge into practice by 
participating in a series of exercises designed to increase practical 
knowledge of workstation utilization. These exercises will include 
practice on tasks specifically related to the CS3 system as well as 
role-playing exercises designed to increase empathy toward end-users 
with disabilities.
    Location of Training:
    Training will be conducted at the WorkOne center in Evansville and 
each of the express sites. Experience has dictated that the working 
environment is the best training environment. Our trainers have 
experience in working with staff to overcome the distractions that will 
occur.
    Levels of Training:
    Three specific groups of staff have been identified:
    Level One:
    The most intensive training will be provided to those who work with 
the X-tation on a day-to-day basis. Individuals in this group will be 
trained on basic, intermediate and some advanced aspects of the 
technology included in the X-tation. Additionally, this group will be 
trained in adjusting the workstation to meet the needs of a variety of 
individuals with disabilities as well as how to provide rudimentary 
training to those end users who might not have experience with 
assistive technology. This group also will be trained to perform level 
three training so that new staff can be trained without the expense of 
additional training from the Ruth Lilly Assistive Technology Center.
    Level Two:
    The next most intensive training will be provided to those who 
provide relief to the first group. This group will be provided training 
similar to that of the first group. This training will be slightly less 
detailed and will focus on the basic operation of the assistive 
technology available.
    Level Three:
    Lastly, it is important that everyone in the WorkOne center have a 
basic understanding of the X-tation. A brief overview or ``top ten'' 
training program will be provided to these individuals. Training will 
include awareness of the technology available and basic understanding 
of its use.
    Training materials:
    Training materials will be provided in two forms:
    1. Manufacturer's documentation: Each component of the X-tation 
comes with manufacturer's documentation. This documentation is 
typically brief and includes basic operations of each component.
    2. Custom documentation: Many components of the workstation are 
compatible with the CS3 system; however, special keystrokes or 
customization may have been developed to ensure compatibility. Custom 
manuals have been developed for these situations and will be provided.
    3. Quick reference guides: Each component's basic functionality has 
been described in terms of its functionality for persons with different 
types of disabilities. This full-color guide includes photographs that 
will assist the most novice user in utilizing various components of the 
X-tation.
    4. Accessible formats: All training materials and quick reference 
guides will be provided in both paper format and accessible CD-ROMs.
    Training for new staff:
    Individuals trained at Level One will be able to provide training 
to new staff who will function at Level Three. Additional training can 
also be purchased should the need arise.
    Training evaluation:
    WorkOne staff will subjected to a brief test prior to training and 
following training. This test will consists of questions designed to 
identify knowledge of working with individuals and assistive 
technology. The pre and post-test results will be compared and 
presented during the administrative wrap up meeting.
    Set up and installation:
    Two teams of installers will utilize cargo vans to deliver and 
install X-tations at each of the locations specified in the Request For 
Proposals. These teams will deliver and assemble X-tations at a rate of 
one workstation per day at each location. The time allotted for 
installation and set up are appropriate and can easily be met.
    Set up, installation and training will be coordinated in such a way 
that the Information Resource Areas will be available to the public at 
all times.
    Follow up assistance:
    Regular follow up visits:
    Follow up assistance will be readily available to the WorkOne 
centers. Up to three visits to each WorkOne center per year will be 
provided for the purposes of support, training and maintenance. (Should 
more than three visits per year be required, on-site support is 
available at standard rates. Should one site require more support than 
other sites, unused visits may be shared among sites, per approval of 
the WorkOne Director.)
    Technical support line:
    The Ruth Lilly Assistive Technology Center has established a 24-
hour 7 day-per-week help line available to our clients. This system 
allows the staff of the WorkOne centers to leave a message at any time 
and receive a return phone call. The target response time is within one 
hour of the call being received. In the event that problems cannot be 
resolved with a telephone call, an on-site visit (up to three per year) 
will be made within two working days.
    Measures implemented to reduce support needs:
    The X-tation utilizes technology that is specifically designed to 
ensure compatibility among components. This utilization has been found 
to drastically reduce the amount of support required.
    Evaluation process:
    Following the delivery and setup process, a brief questionnaire 
will be provided to the managers of each WorkOne center. This 
questionnaire will solicit feedback regarding the setup and delivery 
process. Results of this questionnaire will be presented during the 
administrative wrap up meeting.
Demonstrated Organizational Experience
    In 2000, the Ruth Lilly Assistive Technology Center partnered with 
the Indiana Private Industry Council, Goodwill Industries of Central 
Indiana, the Indiana Department of Workforce Development and Indiana 
Vocational Rehabilitation to make the WorkOne Centers in Indianapolis 
more accessible. This project involved all aspects of accessibility, 
including overcoming physical barriers in the WorkOne facilities, 
attitudinal barriers of staff and technology barriers. With regard to 
technology, four X-tation (accessible workstations) were implemented, 
staff were provided training based on their role and need to utilize 
the workstation, specialized software was developed to allow the X-
tations to be compatible with the CS3 system, and a set of customized 
training manuals/quick reference guides was developed to instruct end-
users and staff in techniques for utilizing adaptive computer equipment 
with the WorkOne's software.
Budget Narrative/Justification
    The Statement of Need (above) clearly details the need and 
utilization of equipment and services proposed.
    Please refer to attachments five, six and seven, which provide 
detailed costs associated with each phase of this project.
Time Line and Management
    Management of project:
    Easter Seals Crossroads' involvement in this project will be 
managed by Wade Wingler, Manager of the Ruth Lilly Assistive Technology 
Center. Mr. Wingler will coordinate all equipment and service delivery 
through the Executive Director of the WorkOne Center or her delegates. 
WorkOne Management will be responsible to coordinate scheduling of the 
following activities among the WorkOne Express sites.

                                TIME LINE
   [The following is the target time line for delivery of services and
                               equipment]
                                PHASE TWO
               (planning, procurement, delivery and setup)
------------------------------------------------------------------------
                                Planning
------------------------------------------------------------------------
July 31, 2003       Planning and introductions at Evansville, Posey &
                     Warrick
August 1, 2003      Planning and introductions at Vanderberg, Spencer &
                     Perry
------------------------------------------------------------------------
                          Equipment procurement
------------------------------------------------------------------------
August 4, 2003      Equipment ordered from suppliers
August 25, 2003     All equipment received at Easter Seals Crossroads
------------------------------------------------------------------------
                           Delivery and setup
------------------------------------------------------------------------
September 1, 2003   Delivery/setup teams (2) assemble, load and travel
                     to Southwestern Indiana
September 2, 2003   Evansville WorkOne setup (both teams)
September 3, 2003   Posey & Warrick County setup (one team per location)
September 4, 2003   Vanderberg & Spencer County setup (one team per
                     location)
September 5, 2003   Perry County setup and teams return to Indianapolis
                     (both teams)
------------------------------------------------------------------------
                               PHASE THREE
                               (training)
------------------------------------------------------------------------
September 8, 9 &    Evansville Level one & two training (trainer 1)
 10, 2003
September 8, 9 &    Vanderberg Level one & two training (trainer 2)
 10, 2003
September 10,11 &   Posey Level one & two training (trainer 1)
 12, 2003
September 10,11 &   Warrick Level one & two training (trainer 2)
 12, 2003
September 15,16 &   Spencer Level one & two training (trainer 1)
 17, 2003
September 15,16 &   Perry Level one & two training (trainer 2)
 17, 2003
September 22, 2003  Evansville & Vanderburg Level three training
                     (trainer 1)
September 23, 2003  Posey & Warrick Level three training (trainer 1)
September 24, 2003  Spencer & Perry Level three training (trainer 2)
------------------------------------------------------------------------
                         ADMINISTRATIVE WRAP UP
------------------------------------------------------------------------
September 30, 2003  Administrative wrap up meeting in Evansville and
                     project completion
------------------------------------------------------------------------

                                 ______
                                 

     Easter Seals Southern Nevada--Investing in Workforce Capacity

    For more than 85 years, Easter Seals has offered help and hope to 
children and adults living with disabilities and to the families that 
love them, nationwide. Over the past 25 years, Easter Seals Southern 
Nevada has been providing critical services that impact the lives of 
individuals and families and strengthen our entire community. Our 
strong record of high quality services, experienced staff, fiscal 
responsibility and use of best practices makes us uniquely positioned 
to partner with State and local agencies to leverage the Stimulus 
Package in Nevada.
    Our mission--To create solutions that help people with disabilities 
become self--sufficient through education, community partnerships and 
direct services.
    The goals of Easter Seals Southern Nevada are:
    <bullet> Full employment for persons with disabilities
    <bullet> Absolute independence for persons with disabilities
    <bullet> Community participation for persons with disabilities
    To ensure that people can get back to work, be successful in a job 
or living independently, and support their family during this economic 
downturn, we are able to provide a wide range of services as listed, 
below.
    Employment and Rehabilitation: Provides an opportunity for 
participants to learn new skills to successfully enter the workforce or 
return to work after an illness or injury and earn wages at the same 
time. Easter Seals often accepts individuals that have not been able to 
work in other environments and we succeed in helping them achieve their 
employment goals. This program currently assists over 100 people in 
these critical areas and could serve an additional 50 over the next 3 
months by hiring and training 6 new staff members, for a total of 56 
paid positions added to our community.
    Adult Day Services: Gives adults with severe/profound disabilities 
the opportunity to participate in center based activities that promote 
independence with daily living skills, social interaction with peers 
and physical fitness. Caregivers for these participants are able to 
continue working, secure in the knowledge that their loved one is 
receiving optimal care in a safe and stimulating environment, which 
adds to the economy and helps reduce unemployment rates. Over 40 
individuals currently participate in this program. If funding was 
readily available, this program could provide services for an 
additional 15 individuals, within the next two months, by hiring and 
training 5 new staff.
    Supported Living Assistance: Provides guidance and training to 
individuals with developmental delays and mental illness. These 
services are designed to enable these individuals to live as 
independently as possible in the community. The more individuals that 
are able to live independently, the less of a burden on the State to 
provide for them and less stress on the family members who care for 
them. This enables family members to maintain employment and also 
allows the individuals in the program to have the pride of living on 
their own and once they feel secure in their housing, it is much easier 
for them to find and maintain employment as well.
    There are currently over 70 individuals receiving supported living 
services and an additional 20 individuals could be served, within the 
next three months, by hiring and training 4 new staff.
    Assistive technology services: Provides person centered services 
that empower children and adult with disabilities to create positive 
change and increase independence and productivity using appropriate 
assistive technology. Services include evaluation, training, 
troubleshooting and customized solution development. All of these 
services lead to a more independent life and the ability to begin 
working, maintain employment or go back to work after an illness or 
injury. With increased funding, a minimum of 85 additional individuals 
could be served through the services listed above, in a one on one or 
classroom setting, which would ready them for employment or help them 
to maintain their current employment. Three staff positions would be 
added within a two month period to serve this increased caseload, for a 
total of 88 people potentially employed with these resources.
    Child Development Center: The Easter Seals--Wonders of Our World 
Child Development Center is designed for families with children of all 
abilities from 6 weeks to 8 years. Our inclusive environment promotes 
diversity that builds acceptance and positive attitudes toward others. 
All parents struggle with finding quality, safe, affordable child care 
but this issue is magnified for parents of children with special needs 
because there are so few options available. If funding were readily 
available, our center could accommodate 45 additional children within a 
two month period, by hiring and training 4 new staff. This would 
enhance the local workforce, not only by adding positions within our 
agency, but all of the parents who would be able to find and maintain 
employment. Our Center Director is also qualified to provide training 
to families or other providers on a variety of child related topics, 
including promoting inclusion within other centers statewide.
    Early intervention services: Works with children with developmental 
delays or diagnosed conditions affecting development from birth to 
three. This home based, parent driven program focuses on the family's 
goals for their child by providing developmental services as well as 
therapies, nutrition, parent training and playgroups. As funding has 
become scarce for this program, the waiting list is growing. Easter 
Seals could serve an additional 100 children, doubling our current 
capacity, within three months by hiring and training 4 new staff. As 
with our other children's services, this program assists children reach 
their potential and increases the chances for a less restrictive entry 
into education and other programs which saves the taxpayers and, 
ultimately, an increased chance of entering the work force as adults.
    Recreation/Camping: Provides camping and recreation activities for 
children of all abilities, ages 8 to 18. Activities are scheduled 
throughout the year allowing children to interact with their peers and 
engage in adventures that they might not normally have a chance to 
explore while promoting physical activity. With funding readily 
available to scholarship children with special needs that cannot afford 
camp, an additional 50 children could participate in camping/recreation 
experiences throughout the year, by hiring 4 contract staff.
    Autism services: Provides one on one applied behavior analysis to 
children with autism, ages 18 months to 8 years of age, in their own 
home. This program not only works with the child, but with the entire 
family to develop strategies for success that family members can carry 
out every day. Funding for autism services is sorely lacking in Nevada, 
and therefore, many families are looking to move out of state to find 
the services their child needs. Increasing funding will allow more 
children to be served, more parent training, and more residents staying 
in Nevada. Ultimately a child's success with these interventions can 
mean less restrictive environments in school resulting in lower cost to 
taxpayers and higher probability of employment when they become adults. 
This program is very time intensive so even a relatively small number 
of children receive a great many hours of service. Therefore, with 
funding readily available, an additional 12 children could be added to 
this program for approximately 400 additional hours per month, by 
hiring and training 4 new staff within the next 3 months.
                                 ______
                                 
    Chairman Hinojosa. And with that, I call on Mr. Brooks.

 STATEMENT OF CHRIS BROOKS, DIRECTOR, BOMBARD RENEWABLE ENERGY

    Mr. Brooks. Chairman, thank you. Congresswoman Titus, thank 
you.
    I was born here in the State of Nevada and I'm a third 
generation electrical worker and about a decade ago I started a 
renewable energy business where together with my current 
employer, Bombard Electric, we've installed over 20 megawatts 
of renewable energy in this state. And on 500, over 500 
projects, employing hundreds of Nevada electrical workers and 
other tradesmen for thousands and thousands of man-hours.
    I am and my family is, all my employees are all members of 
the IBEW, the electrical union, and we were all trained by that 
electrical union. I helped create the renewable energy training 
curriculum for the Joint Apprenticeship Training Center here in 
Las Vegas, and I also worked on the National Apprenticeship 
Training Center in their renewable energy curriculum 
development team and we provide certification and training for 
electricians.
    The renewable energy industry began in American 
laboratories with American scientists developing innovative 
solutions to the energy challenges. Over the past few decades 
the industry has grown from a niche market to one of the 
fastest growing industries in the world.
    From utility sized installations down to residential 
systems, renewable energy emerges as an enormous industry 
capable of providing thousands of jobs and millions of dollars 
in states like Nevada. Governments at all levels, understanding 
the potential for job and fiscal growth, have begun introducing 
policies to support the implementation of this now viable 
energy solution.
    For renewable energy to meet America's growing energy 
demands, we must continue to develop our most valuable 
renewable resource, the American workforce.
    We must train tomorrow's renewable energy workforce today. 
These green jobs, for the most part, are construction jobs. To 
train green workers, we need to train construction workers, and 
build on their already existing knowledge base.
    Renewable energy technologies require the same high 
standards for safety and reliability as existing energy 
technology installations, construction projects, and any other 
types of construction related processes. Many of the building 
trades training programs require these high standards already 
and are well aligned with the green jobs goals of the Workforce 
Investment Act.
    The IBEW has led the way in the training and providing of a 
highly skilled workforce for the safe installation of the 
latest electrical technologies, dating back to its inception 
over a century ago in 1891.
    The IBEW and NECA have been instrumental in establishing 
national standards to maintain the highest level of workmanship 
and safety in these installations. These high standards 
continue as the IBEW and the JATC establish renewable energy 
training programs.
    Southern Nevada JATC has been providing training since 
1947. The JATC is a non-profit member of the community focused 
on providing long-term employment for individuals seeking a 
career, not just a job, in the electrical construction industry 
and in renewable energy.
    The JATC understands the benefits of career-oriented 
training and placement, for both individuals and the 
communities that they are working in. In its long history in 
southernNevada, the JATC has trained thousands of electricians, 
including my grandfather, my father, my brothers and myself.
    Last week in Southern Nevada we turned out 93 electricians 
through that training program, in electrical theory, 
construction practices, safety, and during the course of the 
program, the five-year program that every apprentice went 
through, they received training in renewable energy systems.
    The Southern Nevada campus of JATC also has a state of the 
art wind and PV training facility that teaches about 
installation of these projects. These programs, all these 
programs that we've talked about to get these certifications 
already exist, are well aligned with the Workforce Investment 
Act, but are self-funded. Right now all of the electrical 
workers dispatched by the IBEW pay for these programs with 
portions of their own paychecks.
    There are many existing programs, like apprenticeships, 
that the JATC is currently working with. The Build Nevada 
Initiative, for instance, focuses on providing high school 
students a gateway into the trade schools and apprenticeship 
programs by giving the math skills and construction skills that 
will--or jobs skills that will then help them get into the 
apprenticeship programs right out of high school.
    Apprenticeship programs all over the country, like the JATC 
and several other building trades, hire American veterans 
through programs such as Helmets to Hardhats where they are 
taking former military personnel and putting them right into 
construction training apprenticeship programs.
    Educational outreach is essential in this. The 
apprenticeship programs in companies like ours, we reach out to 
all the schools, local schools, trade schools, job fairs, and 
offer employment opportunities through the apprenticeship 
programs to the students in the high schools.
    Because of the tremendous leadership of many Nevadans, some 
of them here and some of them in Washington, D. C. right now, 
and some up in Carson still, we have many things like Senator 
Horsford's Green Jobs act that are well aligned with the 
current goals of the Workforce Investment Act.
    The problem that we have is the recurring costs of training 
provided by JATC of Southern Nevada and many building trades 
facilities are self-funded. They are funded by the contractors 
and they are funded by our workers that they are training. As a 
result of the economic downturn, and the loss of jobs, we are 
losing funding at the same time.
    If we don't have men out there working, men and women in 
the field, they can't contribute to these training programs. 
The trainers are also usually workers in the field themselves. 
So these building trades programs and the facilities they use, 
the trainers that work there, the workforce they trained 
already exist, are well aligned and direct funding of these 
programs would be very helpful to furthering our goals.
    Chairman Hinojosa. Thank you, Mr. Brooks.
    Again, I want to say that your statement in its entirety 
will be made part of this record.
    [The statement of Mr. Brooks follows:]

 Prepared Statement of Chris Brooks, Director, Bombard Renewable Energy

    I was born and raised in Nevada. I am a third generation 
electrician and helped establish the current Renewable Energy industry 
in the state. I was a small business owner who saw the potential for 
Renewable Energy in Nevada nearly a decade ago. My father, brothers, 
and I, all trained electricians, work in the Renewable Energy industry 
today as green job pioneers.
    After working as an electrician in the construction and utility 
sectors in Nevada for many years I started a solar electric contracting 
company in 2000. In 2004 I joined forces with Bombard Electric, 
creating their Renewable Energy Division, as a response to an increase 
in demand and interest in the Renewable Energy industry. Together we 
have installed over 20 megawatts of Renewable Energy on over 500 
projects in and around the State of Nevada.
    I helped create and develop the Renewable Energy training program 
and curriculum for the International Brotherhood of Electrical Workers 
(IBEW) / National Electrical Contractors Association (NECA) / 
Electrical Joint Apprenticeship Training Center of Southern Nevada 
(JATC). In addition to my local efforts I am on the Renewable Energy 
Curriculum Development Committee for the National JATC. I was among the 
earliest solar professionals to obtain certification from the North 
American Board of Certified Energy Practitioners (NABCEP). In 2007 I 
was appointed to the Nevada Renewable Energy and Energy Conservation 
Task Force. In 2008 I was appointed to Senator Harry Reid's Blue Ribbon 
Task Force for a Clean Energy Future. I was a founding member of, and 
current board member of, the American Solar Energy Society (ASES) 
Southern Nevada Chapter, SolarNV.
    The Renewable Energy industry began in American laboratories with 
American scientists developing innovative solutions to meet energy 
challenges. Over the past few decades the industry has grown from a 
niche market to one of the fastest growing industries in the world.
    From utility sized installations down to residential systems, 
Renewable Energy has emerged as an enormous industry capable of 
providing thousands of jobs and millions of dollars to states like 
Nevada. Governments at all levels, understanding this potential for job 
and fiscal growth, have begun introducing policy to support the 
implementation of this now viable energy solution. For Renewable Energy 
to meet America's growing energy demands we must continue to develop 
our most valuable renewable resource, the American workforce.
    We must train tomorrow's Renewable Energy workforce today. These 
Green Jobs are construction jobs. To train green workers we need to 
train construction workers, and build on their already existing 
knowledge base. Renewable Energy technologies require the same high 
standards for safety and reliability as existing energy technology 
installations, construction projects, and any other construction 
related process. Many of the building trades training programs require 
these high standards already and are well aligned with the Green Job 
goals of The Workforce Investment Act.
    The IBEW has led the way in the training and providing of a highly 
skilled workforce for the safe installation of the latest in electrical 
technology, dating back to its inception, over a century ago, in 1891. 
The IBEW and NECA have been instrumental in establishing national 
standards to maintain the highest level of workmanship and safety in 
its installations. These high standards have continued as the IBEW and 
the JATC established Renewable Energy training programs.
    The Southern Nevada JATC has been providing training since 1947. 
The JATC is a non-profit member of the community focused on providing 
long-term employment for individuals seeking a career in the electrical 
construction industry, including Renewable Energy. The JATC understands 
the benefits of career oriented training and placement, for both the 
individuals and the communities they are working in. In its long 
history in Southern Nevada the JATC has trained thousands of 
electricians including my grandfather, my father, my brothers, and 
myself.
    Last week in Southern Nevada the JATC graduated 93 electricians 
from the five year apprenticeship program. This program's curriculum 
focuses on electrical theory, construction practices, and safety. 
During the course of the program every apprentice is taught the theory 
behind, and the methods of installation for, Renewable Energy systems.
    The Southern Nevada campus of the JATC also has a state of the art 
Wind and PV Training Laboratory. This lab offers hands on training on 
four different existing solar arrays, multiple types of inverters, and 
fully functional wind turbine. All this equipment, in addition to 
measurement and verification hardware, is routed to a comprehensive 
data acquisition system. All the data that is collected is available 
online as an educational resource to the public.
    In addition to the apprenticeship training on Renewable Energy and 
the Wind and PV Training Lab, the JATC also offers a 50 hour 
comprehensive training module, concentrated on safe and effective 
installation of photovoltaic (PV) systems. This class prepares the 
already certified electricians for the Nevada State PV Installer's 
License exam, administered by the Nevada State OSHA Department. Several 
hundred apprentices and electricians have successfully completed this 
course and exam in order to meet the state's requirements for 
installing wind and PV technology.
    These programs already exist, are well aligned with The Workforce 
Investment Act goals for Green Jobs, but are self-funded. All of the 
electrical workers dispatched by the IBEW pay for these programs with 
portions of their paychecks.
    There are many existing programs that apprenticeships like the JATC 
are currently working with. The Build Nevada Initiative focuses on 
providing high school students a gateway in to trade schools and 
apprenticeship programs. Students enrolled in the program obtain math 
skills that exceed the requirements for entry in to all apprenticeship 
programs, including the Renewable Energy programs offered by the JATC. 
Build Nevada partners with the Clark County School District to teach 
the future workforce occupational skills at facilities such as Desert 
Rose High School and the Area Technical Trade Center. The Build Nevada 
Initiative also ensures that the future workforce is properly trained 
in construction equipment operation and jobsite safety before they 
enter their respective apprenticeship program.
    Apprenticeship programs all over the country, including the JATC of 
Southern Nevada, are working with America's veterans through programs 
such as Helmets to Hardhats. Helmets to Hardhats is a non-profit 
organization that connects former military personnel with career 
opportunities from the nationwide building and construction trades.
    Educational outreach is an essential part of developing a Renewable 
Energy workforce. The Renewable Energy Division of Bombard Electric 
regularly attends elementary school energy fairs, donates time and 
materials to school science projects, and sponsors Renewable Energy 
competitions at area schools. Our company, together with the JATC 
apprenticeship program, also provides resources on careers in Renewable 
Energy at vocational high schools and technical academies.
    Because of the tremendous leadership demonstrated by many Nevadans, 
including State Senate Majority Leader Steven Horsford, United States 
Senate Majority Leader Harry Reid, and NV Energy, there are several new 
and existing programs that are well aligned with the Green Jobs goals 
of the Workforce Investment Act. Senator Horsford's proposed SB152 
would utilize existing apprenticeship training programs and non-profit 
workforce development groups to leverage federal funds for Green Jobs. 
All installers at the Renewable Energy Division of Bombard Electric 
were trained by JATC instructors, whose education would not have been 
possible without the hard work of Senator Reid. The JATC Wind and PV 
Training Laboratory was funded largely by NV Energy through the 
Renewable Generations program and a pilot and demonstration program 
authorized by the Nevada State Legislature.
    The reoccurring costs of training provided by the JATC of Southern 
Nevada are funded by the electrical workers of the IBEW and the 
contractors of NECA. These training programs continue to provide the 
most comprehensive training on the latest energy technology, including 
Renewable Energy. As a result of the economic downturn a growing 
portion of the workforce responsible for funding the training programs 
is unemployed and cannot contribute. This month alone Bombard Electric 
has spent over $10,000 in Renewable Energy training for its workforce.
    Growing unemployment means less funding for a program that is 
currently at maximum capacity. The existing classroom facilities for 
the JATC training programs are in need of expansion and modernization. 
All this at a time when Renewable Energy training is most needed.
    The trainers in the JATC programs are largely workers themselves 
who have to train the future Renewable Energy workforce in addition to 
their full time jobs. These trainers receive less compensation when 
training than if they were on the job. The apprentices and journeymen 
electrical workers receive all their training after hours and on 
weekends with no compensation whatsoever. In addition they also pay for 
all of their textbooks and materials, even when unemployed.
    These building trades training programs, the facilities they use, 
the trainers who work there, and the workforce they train already exist 
and are well aligned with the Workforce Investment Act goals for Green 
Jobs. Direct funding of these programs, and others like them around the 
state and country, are necessary for the growth and development of a 
Renewable Energy workforce. Bombard Electric, and contractors like them 
all over the country, need help to best prepare their workforce for our 
Renewable Energy future. With the guidance and support of the Workforce 
Investment Act our common goals of putting Nevadans and Americans back 
to work can be realized safely and soon.
                                 ______
                                 
    Chairman Hinojosa. I now call on Mrs. Cook.

 STATEMENT OF CHANDA COOK, DIRECTOR OF COMMUNITY INITIATIVES, 
               NEVADA PUBLIC EDUCATION FOUNDATION

    Ms. Cook. Thank you. Good morning. My name is Chandra Cook 
and I'm here today representing the Nevada----
    Chairman Hinojosa. Will you speak a little bit closer to 
the microphone? I want to be sure that everybody hears you 
clearly.
    Ms. Cook. Thank you.
    As you know, America's dropout crisis has continued to 
receive significant attention nationally. I commend you, 
Chairman Hinojosa and Chairman of the Full House Education and 
Labor Committee, George Miller, for your long-standing 
leadership on behalf of all of American youth, as well as our 
newest representative to Congress, Congresswoman Titus, who has 
been a leader and an advocate for issues that affect Nevadans 
and our youth.
    The scope of this problem and its impact in Nevada is 
staggering. Approximately 20 percent, or 43,000 Nevada youth, 
have not progressed beyond high school diploma and are neither 
employed, nor enrolled in secondary--in post-secondary 
education.
    Nevada ranks worst among all 50 states in the percentage of 
teens who are not attending school and who are not working. 
These individuals have little chance to ever learn a family-
supporting wage and many of them have been dependent upon 
public systems, rather than becoming contributing members of 
society.
    Beyond the individual impact, the economic and social 
consequences for Nevada are great. For example, the high school 
dropouts from 2008, if they had graduated, Nevada's economy 
would have seen an additional $5.1 billion in wages.
    I appreciate the opportunity to testify today on behalf of 
the Nevada Public Education Foundation which works for systemic 
change by bringing together the education, workforce 
development and youth development systems to our Ready For Life 
movement.
    While Congress looks at the youth provisions of the 
Workforce Investment Act, or WIA, it should ask a serious of 
broader questions about how to advance a comprehensive youth 
strategy that includes WIA as one of the federal policy 
vehicles for improving the education and career pathways for 
America's most vulnerable youth.
    Our legislative recommendations are captured in the 
following areas: Governance, eligibility services and 
performance, quality improvement, and innovation. To be most 
effective, WIA youth programs and activities should be part of 
a larger regional strategy connecting workforce, education and 
youth development activities, as opposed to working in 
isolation.
    This should include increased flexibility, regional 
integration, funding local priorities and investing in 
expansion of local capacities through intermediate areas and 
collaborative system approaches.
    Current eligibility and performance provisions are 
obstacles to serving many of the youth that are most at need. 
Eligibility determination must be simplified and streamlined, 
and I recommend the eligibility goes to age 24, which was done 
in March, and research has shown that we need to connect our 
youth by the time they are 25, or basically we've lost them 
forever.
    Ideally, determining eligibility for WIA should be based on 
risk factors. If income requirements are maintained, permit 
youth who are eligible for other federal means-tested programs 
to be automatically eligible for WIA services.
    Under the current performance measurement system providers 
often serve primarily those who are most job ready, thus 
reaching a smaller portion of the population that need 
services. Older disconnected youth, especially those with low 
skill levels present a special challenge. Congress should adopt 
measures to mark the progress of all eligible youth, 
particularly those who are hard to employ for those skills. 
This will require different performance measures for different 
segments of the population.
    Funding for youth activities is diffused, limiting the 
impact of federal efforts to raise workforce-imposed secondary 
readiness. To improve impact we recommend that Congress should 
place a priority on off-track students, including prevention 
and credit retrieval efforts to get them back on track for 
graduation, and to attaining post-secondary credentials.
    We recommend that we should link WIA in-school activities 
reviewed with other relevant federal programs and place a 
priority on funding partnerships among community organizations, 
colleges, K-12, employers, philanthropy as appropriate. More 
details and specific recommendations are in my written 
testimony.
    Again, thank you for this opportunity to testify. As you 
know, in today's economy it is imperative that the revised 
legislation be even more strategic, youth collaborative, 
targeted and deliberate activities promoting educational 
engagement and work skill development. The Workforce Investment 
Act can help our youth graduate from high school and gain 
appropriate post-secondary education or training to become 
productive members of our society.
    Chairman Hinojosa. Thank you.
    [The statement of Ms. Cook follows:]

 Prepared Statement of Chanda Cook, Director of Community Initiatives, 
                   Nevada Public Education Foundation

    America's dropout crisis has continued to receive significant 
attention nationally. This is the result of better data about the 
significant number of students not graduating on-time--only 70% 
nationally on average, with some schools graduating fewer than 50% of 
their students. Recent research has also underscored the serious social 
and economic impact on communities through the country.
    The scope of the problem and its economic impact on Nevada is 
staggering. Consider the following statistics:
    <bullet> Nevada's graduation rate was 67.4% for 2007-08
    <bullet> 20% or approximately 43,000 Nevada youth ages 18-24 are
    disconnected (have not progressed beyond a high school diploma and 
are neither employed nor enrolled in postsecondary education)
    Nevada ranks worst among all 50 states in the percentage of:
    <bullet> Teens who are high school dropouts
    <bullet> Teens not attending school and not working
    <bullet> Young adults enrolled in or completed college
    For the individuals represented by these numbers, their chances to 
ever be able to earn a family-supporting wage are slim, and research 
tells us many of them will be dependent on public systems rather than 
becoming contributors to the public good. Beyond the individual impact, 
the economic and social consequences for Nevada are grave:
    <bullet> If the more than 19,500 high school dropouts from 2008 had 
earned their diplomas, Nevada's economy would have seen an additional 
$5.1 billion in wages over these students' lifetimes.
    <bullet> If Hispanics/Latinos, African-Americans, and Native 
Americans achieved the same education levels as Whites by 2020, 
Nevada's personal income would increase by $2.2 billion.
    <bullet> More than 80% of America's prison population consists of 
dropouts. It costs approximately SIX TIMES MORE annually to incarcerate 
than educate an individual.
    In an effort to address these staggering numbers and resulting 
issues, Nevada Public Education Foundation created the Ready for Life 
movement to bring together youth-serving systems in a collaborative 
effort to ensure more Nevada youth are ``ready for life.''
Nevada Public Education Foundation's Ready for Life Movement
    Established in 1991, Nevada Public Education Foundation (NPEF) is a 
statewide non-profit intermediary organization working for systemic 
change on behalf of Nevada youth. Facilitating collaboration among 
public and private youth-serving organizations, NPEF brings together 
the education, workforce development, and youth development systems in 
order to better serve youth, particularly those most at risk of not 
graduating from high school and transitioning to productive adulthood. 
NPEF builds this connected infrastructure through its Ready for Life 
movement.
    NPEF launched Ready for Life in 2005 as a collaborative effort to 
improve Nevada's high school graduation rate. NPEF's focus was driven 
by research from Stanford University indicating that young people who 
are not connected by age 25 to either school or work are likely to 
remain disconnected forever, resulting in significant personal, 
economic, and societal costs. This concern was solidified by local 
research (see www.readyforlifenv.org) showing that too many of our own 
students are failing to transition from high school to productive 
adulthood. According to the Stanford research, those most at risk of 
not being ``connected by 25'' fall into four categories: youth who do 
not complete high school; those deeply involved in the juvenile justice 
system; youth in the foster care system; and young, unmarried mothers.
    Ready for Life is a statewide movement, a systemic effort to 
support youth; it is not a specific program or intervention, but a 
facilitation of collaboration among youth-serving organizations with 
the end goal of connecting Nevada youth to education or productive 
employment by age 25.
    Nevada's Ready for Life movement now involves hundreds of 
organizations statewide, local community collaboratives, and a network 
of nearly 1,000 stakeholders working toward the vision that all Nevada 
youth are ready for life, supported by a community ethic that values 
education. Convened by Nevada Public Education Foundation, public and 
private organizations are partnering in the belief that as they work 
together, students will be more likely to complete high school and gain 
appropriate postsecondary education or training to become productive, 
contributing members of society. Partners include local agencies, 
nonprofits, community-based organizations, education entities including 
local school districts and higher education, faith based organizations, 
youth, concerned parents, and elected officials.
    In November 2008, the Ready for Life Nevada Dropout Prevention 
Summit established the goal to increase Nevada's high school graduation 
rate 10% by 2013. Recognizing common goals and collaborative processes, 
Nevada Public Education Foundation was excited to unite the Ready for 
Life movement with NV DETR's federal Shared Youth Vision partnership in 
January 2009. With this unique blend of public, private and non-profit 
leadership, Nevada is now positioned to make sustainable systemic 
change via this collaboration, with the end goal of connecting Nevada 
youth to education or productive employment by age 25. Through Ready 
for Life in local communities and statewide, NPEF facilitates:
    <bullet> Creating a connected infrastructure by aligning education, 
workforce development and youth development to support youth
    <bullet> Public and private coordination at the local and state 
levels, recognizing multiple systems have roles in youth success
    <bullet> Cross-communication between federal, state and local work 
to leverage resources, remove barriers, and learn & share promising 
practices
    <bullet> Collaborative planning and progress toward measurable 
goals to help youth become ``ready for life''
    <bullet> Building a community ethic that values education
Intermediary Organizations
    The following recommendations are submitted by NPEF and include 
significant input and feedback from workforce and education 
intermediary organizations across the country, including those in 
Portland, Philadelphia, Boston and Chicago. Facilitated by Jobs for the 
Future, the Boston-based research, development and policy organization, 
this consortium (of which NPEF is a member) has been developing and 
sharing best practices for systemic change to help our nation's 
struggling students and disconnected youth succeed in school and 
transition to become productive, contributing members of society.
    The work of these intermediary organizations, including NPEF's 
Ready for Life Nevada work since 2005, underscores the need for 
intermediary organizations dedicated to building the infrastructure 
necessary for ongoing and sustainable collaboration among youthserving 
systems. In order to more effectively engage youth in school and 
develop an educated workforce to lead our nation's economy, investment 
in intermediary organizations is critical for alignment of education, 
workforce, and youth development systems.
Legislative Recommendations
    While Congress should look directly at the youth provision of the 
Workforce Investment Act, it must also ask a series of broader 
questions about how to advance a comprehensive youth strategy that 
include the Workforce Investment Act as one of the federal policy 
vehicles for improving the education and career pathways for America's 
most vulnerable youth. Congress should seize this moment to align 
outcomes, reporting & accountability, encourage and ease the use of 
multiple funding streams. All these multiple federal policy vehicles, 
including the youth activities of the Workforce Investment Act, should 
ensure that all eligible youth are advancing on a clear path toward a 
postsecondary credential required for success in today's economy.
    The legislative recommendations are captured in the following 
areas:
    <bullet> Governance
    <bullet> Eligibility, Services, and Performance
    <bullet> Quality Improvement and Innovation
Governance
    Current law authorized Youth Councils to provide coordination and 
oversight among a limited number of local stakeholders with respect to 
authorized youth activities. Today, Youth Councils must play a more 
strategic role.
    With the support of local Workforce Investment Boards (WIBs), Youth 
Councils must measure the needs of local youth and ensure that school 
districts, WIBs, higher education partners, and other key stakeholders 
collaborate to provide a targeted range of options to serve them.
    To be most effective, WIA youth programs and activities should be 
part of a larger regional strategy connecting workforce, education and 
youth development activities. Rather than stand-alone entities working 
in isolation, Youth Councils must collaborate with other youthserving 
systems and connect to related efforts in order to better meet the 
needs of local youth. As described above, intermediary organizations 
are highly effective conduits for this collaboration.
    Congress should:
    <bullet> Allow the maximum flexibility and encourage regional 
integration of WIA youth efforts with existing regional youth 
committees and/or intermediaries where appropriate, as opposed to 
working in isolation.
    <bullet> Invest in expansion of local capacity through 
intermediaries and collaborations that bring together workforce, 
education, and youth development systems at the local, regional and/or 
state levels.
    <bullet> Specify that representation must include an individual 
from the local education agency or agencies in the area responsible for 
secondary education; individual from at least one local institution for 
higher education; employers in local industries and sectors that are 
growing and have a high demand for skilled labor; and as appropriate 
local youth-related foundations and/or philanthropies.
    <bullet> Establish an incentive fund for entrepreneurial WIBs and 
Youth Councils to adopt an expanded set of duties, including improving 
capacity to gather, analyze, and use data to evaluate the quality of 
current youth program options and increasing the supply of quality 
education options for in-school and out-of-school youth.
    <bullet> Allow Youth Councils the discretion to direct funding 
toward local priorities. Such provisions should set floors on basic 
activities, such as in-school, out-of-school, and, as appropriate, 
summer jobs. A portion of funds would be directed toward highpriority 
purposes consistent with data analyses and investment strategies.
Eligibility, Services, and Performance
    WIA should focus on serving youth that are most in need of skill 
development services. That means retaining services for both in-school 
and out-of-school youth, while placing a priority on the hardest-to-
serve through targeting services, expanding eligibility, and improving 
performance measures. Current eligibility and performance provisions 
pose programmatic obstacles to serving many of the youth that are most 
in need.
    Eligibility--Too much time at the local level is devoted to 
determining eligibility, with little positive effect and in the face of 
new research that offers more streamlined strategies for eligibility 
determination. There is a need to simplify the determination of which 
youth are eligible to receive services.
    Congress should:
    <bullet> Increase age eligibility to 24. Research shows the 
importance of engaging youth by age 25. Congress already recognized 
this by raising the age for youth employment funds in the ARRA from 21 
to 24.
    <bullet> Permit youth who are eligible for other federal means-
tested programs to be automatically eligible for WIA services.
    <bullet> Make youth automatically eligible for services based on 
risk factors, such as disconnected status (out of school and out of 
work) and early warning indicators for in-school, off-track youth (e.g. 
over-age, under-credited, non-attendance), preferably without income 
eligibility.
    <bullet> If income requirements are maintained, permit the use of 
income proxy measures (e.g., ESEA Title I, Free and Reduced lunch 
status, high-poverty census tracks) as automatic designation for 
eligibility.
    Funding--Funding for youth activities is diffused, limiting the 
impact of federal efforts to raise workforce and postsecondary 
readiness. Funds should target off-track students within the in-school 
population.
    To improve impact, Congress should:
    <bullet> Place a priority on off-track students, including 
prevention and credit retrieval efforts to get them back on track to 
graduation and to attaining postsecondary credentials.
    <bullet> Permit follow-up services that provide continuing support 
(e.g., from a transition counselor) after young people leave schools or 
programs and as they seek to enter or remain in work or further 
education.
    <bullet> Link WIA in-school activities for youth with other 
relevant federal programs.
    Program Design--WIA youth program designs and elements should 
advance the development of high-quality pathways that ensure eligible 
youth attain skills and credentials necessary for educational and 
career advancement. WIA youth funding should result in the development 
of high-quality pathways and options that lead to postsecondary 
credentials and career advancement for youth.
    Congress should:
    <bullet> Establish that the purpose of WIA youth activities is to 
ensure that eligible youth attain workforce skills and credentials that 
promote educational and career advancement, with special attention to 
creating employment opportunities in highgrowth and emerging sectors.
    <bullet> Retain the ability to allow continued funding to support 
eligible youth over more than one year and for a transitional period 
after they have left the program or school.
    <bullet> Strengthen incentives for employers to train and employ, 
and for colleges to enroll, formerly disconnected youth who have 
completed WIA-funded youth programs. One example is the disconnected 
youth tax credit.
    Employment Programs--Youth employment programs, including project-
based learning activities, apprenticeships, and internships, should 
help youth attain both work-related skills and supports that can help 
students advance in educational attainment and achievement.
    These programs should provide highly structured and well-supervised 
work experiences that emphasize learning and skill development. 
Programs should be encouraged to build partnerships with employers, who 
can provide work-based training and learning experiences through 
internships and apprenticeships.
    Congress should:
    <bullet> Invest in a funding stream for high-quality summer and 
year-round youth employment opportunities that emphasize learning and 
skill development as well as academic programs.
    <bullet> Focus attention on educational engagement and work skills 
development strategies for all WIA-funded youth programs.
    Performance Measures--Differentiate performance measurements 
stipulated under WIA to align with the distinct needs of varying adult 
and youth populations.
    Under the current performance measurement system, providers often 
serve primarily those who are more job-ready, thus reaching a smaller 
proportion of the population that need services. Provide incentives in 
the law for programs to serve a broader range of youth. One way of 
achieving this is by differentiating performance measurements 
stipulated under WIA to align with the distinct needs of varying youth 
populations. Programs should be able to apply interim benchmarks that 
are predictive of educational and career advancement and that account 
for the relative difficulty of populations with multiple risk factors.
    Congress should:
    <bullet> For youth, adopt measurements to mark the progress of all 
eligible youth, particularly those who are hard to employ or low-
skilled. Determining the progress of all eligible youth would require 
different performance measures for different segments of the eligible 
population.
Quality Improvement and Innovation
    Current law lacks any effective mechanism of promoting quality 
improvement and innovation among WIA Youth programs and activities. As 
a result, the field lacks a pool of quality models and practices that 
can help spur broader systemic improvement.
    First, innovation and higher levels of successes should be promoted 
not just for national organizations with ``branded'' models but also 
for local organizations and/or partnerships that demonstrate the 
ability to serve particular groups well and achieve higher performance 
outcomes.
    Congress should:
    <bullet> Create an innovation fund for WIA Youth programs. 
Partnerships that seek to develop a new program, improve an existing 
program, or scale up a promising model, all toward more challenging 
performance outcomes, would be eligible to receive funding. The fund 
would be used to drive programs toward meeting challenging performance 
measures, including measures focused on lower-income, lower-skilled, 
and other disadvantaged populations.
    Second, older disconnected youth, especially those with low skill 
levels, present special challenges. Too few successful models for this 
population exist. Additionally, there are too few models for the 
hardest-to-serve adult workers (i.e., those with multiple barriers to 
employment, those with the lowest skill levels, and those with limited 
English proficiency).
    Congress should:
    <bullet> Establish an investment fund to encourage social 
entrepreneurs to take on these challenges and invent new promising 
approaches.
    <bullet> Place a priority on funding partnerships among community 
organizations, colleges, K-12 schools, employers, and philanthropy, as 
appropriate.
    <bullet> Include funding for evaluation of these new models.

Conclusion
    Nevada Public Education Foundation is honored to provide input and 
testimony for reauthorizing the Workforce Investment Act. This 
legislation has been successful in helping many of our nation's young 
people gain work experience and skills needed for gainful employment. 
In today's economy, it is imperative that the revised legislation be 
even more strategic to provide the opportunities necessary to help our 
struggling students and disengaged youth succeed through collaborative, 
targeted and deliberate activities promoting educational engagement and 
work skill development that will help them graduate from high school 
and gain appropriate post-secondary education or training to become 
productive, contributing members of society.
                                 ______
                                 
    Chairman Hinojosa. And I now call upon Rebecca Metty-Burns.

  STATEMENT OF REBECCA METTY-BURNS, INTERIM DIRECTOR FOR THE 
 WORKFORCE AND ECONOMIC DEVELOPMENT, COLLEGE OF SOUTHERN NEVADA

    Ms. Metty-Burns. Good morning, and thank you for this 
opportunity to testify regarding the Workforce and Investment 
Act.
    I am particularly encouraged in being able to come in and 
talk with you about innovations because innovations require the 
ability to search out for feedback, take that feedback, and 
then incorporate that to improve programs and reach a goal of 
excellence. I think that this is a wonderful opportunity to 
take a look at programs that are in place and what we can do to 
make them even better, even more effective and respond to 
community needs.
    I chose to look at one particular program that we operate 
in collaboration with the credit program at the College of 
Southern Nevada. The division that I represent offers non-
credit programs and we primarily focus on skill-specific 
training for local employers for their particular workforce 
needs.
    In this particular program, the Certified Nursing Assistant 
program, we worked in collaboration with the credit department 
to say how can we also, in combination with you, and provide 
some avenues for participants coming in with WIA funds to 
access that program and also access job opportunities from 
that.
    The collaboration resulted in an intensive seven-week 
program, and what the division does to support our participants 
is also offer an opportunity for them to attend an orientation, 
helping with administrative pieces, and introduce them to what 
they will be going through in that seven-week process.
    We also make sure that they have available refresher 
sessions, review sessions, to make sure that they can succeed 
with their studies.
    When I talked to several of the students and our health 
care coordinator, a lot of the comments that they make 
resonated, I think, with other information you've heard through 
this hearing process. The first is the opportunity that was 
there. Two of the people I talked with completed the program 
successfully and were very excited about the prospect of what 
their employment opportunities would be. They noted that it was 
essential to have additional support services, though, as they 
were re-entering education and they needed to make sure that 
they had some reinforcement as they were going through an 
academic program.
    I think there are still some ways that we can reinforce 
that and we are learning from students who may falter through 
that program that there's more to be done and more to add in 
for their success. Additional assessments that are needed to 
make sure that they are matched up correctly with the program, 
that they have the foundational skills to succeed, when we are 
driven to move people through too quickly in a short time 
frame, so they can search for a job, we may not be giving them 
the full opportunity of what they can do on a career path, if 
they have the foundational skills and a broader understanding 
of what that entry level job may lead to in the future.
    I'd like to recommend that in considering some innovations 
even to WIA that it be remembered that the community colleges 
are where a large part of the American workforce goes to 
receive their skill training and their education and that as 
you are building a career path it's really important to also 
build an education path with that participant.
    If we could provide additional support services for 
participants that are coming in that allow them to assess where 
their academic skills are, give them additional support and 
mentoring to the careers that are open to them and where their 
interests may be, as well as make sure that they are ready and 
aware of what the job is that they will be seeking.
    One of the students that I talked with in the CNA program 
said it was very important in the conversation that he had with 
his case worker that was very detailed and eye-opening about 
what that job as a CNA would be after he got that job, and 
other students hadn't received that opportunity and he felt 
that was a very valuable piece of the process and important to 
making sure there was a match to the program.
    As we continue to talk about education and career pathways, 
we also would like to encourage a focus that moves from the 
immediate short-term training to also allowing the opportunity 
for participants to expand that to degree attainment or deeper 
educational attainment.
    Again, one of the students that I talked with completed the 
CNA program and would very much have liked to have gone on to 
get his RN, but the funding stopped at the CNA. Certainly in a 
state that needs more nurses and healthcare workers, it's 
unfortunate that he couldn't go on at this time with someone 
who had such enthusiasm and success and capabilities.
    I also think that as we continue to receive employee--or 
I'm sorry, employer feedback in the contract training that we 
do in our division we become very aware of what employers are 
seeking for and any new information they need incorporated in 
training, and it would be important to include that 
flexibility.
    As those flexibilities are added into the legislation, and 
allow the regions to really decide what's most important to 
them, I feel that innovations in the training program can come 
very quickly.
    I appreciate the time today. Thank you so much.
    [The statement of Ms. Metty-Burns follows:]

 Prepared Statement of Rebecca Metty-Burns, Interim Director, Division 
    of Workforce & Economic Development, College of Southern Nevada

    Good morning and thank you for the opportunity to testify today 
regarding the Workforce Investment Act.
    My name is Rebecca Metty-Burns and I am the Interim Director for 
the Division of Workforce & Economic Development at the College of 
Southern Nevada. The Division of Workforce is a collection of programs 
that include an Adult Language and Literacy Program, Prison Program, 
Community Enrichment courses and contract training programs. Our skill 
intensive courses are primarily delivered through non-credit, 
customized training to local business and industry.
    I am encouraged that a focus in discussion around the Workforce 
Investment Act involves innovations. Innovations require program 
flexibility and continuous feedback by stakeholders and in that process 
you can develop programs of excellence. I believe that by responding to 
what we have learned in operating programs with WIA funding there is an 
opportunity to make the programs more effective for participants and 
employers while also allowing the education partners to more 
comprehensively respond to the needs of their communities.
    In feedback from two recent students in our Certified Nursing 
Assistant program, I found points that not only illustrate the promise 
of what that program can deliver but also where efforts are needed to 
ensure improvements are implemented. Their comments are specific to 
their experiences in one program but they also apply in general to WIA 
funded workforce programs. I'd like to share their observations with 
you today as well as some additional insights from the staff overseeing 
this program for the division.
    The Certified Nursing Assistant program for the Division of 
Workforce & Economic Development operates in collaboration with the 
credit program at the College of Southern Nevada. Students receive the 
full CNA program offered by college instructors in a focused and 
intensive set of courses that spans seven weeks. Participants receiving 
WIA funding attend an orientation to the program conducted by workforce 
staff to help them with administrative items. Throughout the seven 
weeks each Friday afternoon there is extra assistance available to 
workforce participants needing additional educational support.
    Charles Curtis recently completed our CNA program and at 57 years 
old exemplifies what an impact the program can have. He is brimming 
with enthusiasm about his new career path and, with his willingness to 
be flexible in a work schedule, feels his employment options are 
excellent. Charles had previous experience in working with senior care 
and while being initially nervous about returning to school, he gained 
confidence as the support offered and program structure reaffirmed his 
capabilities. He particularly liked the Friday review sessions and 
having access to that additional support. Charles had been unemployed 
for months and with his experience with senior care and an associate's 
degree it would seem he would have been identified as great candidate 
for the program. Yet, he only received a referral after he happened to 
hear about the program on a public television segment and then 
persistently pursued a referral to the program.
    Scott Lester is also a recent student in our CNA program and only 
found out about the program by word of mouth. He also took the 
initiative and went to a referral agency and requested the program. 
Scott made a good candidate as he had some previous work in healthcare 
as well as having completed a degree. The case worker he spoke with 
about the program explained in ``eye-opening'' detail what a job as a 
nursing assistant would entail. While Scott felt his previous work in 
healthcare prepared him, he mentioned that a number of students had not 
received that ``eye-opening'' information from their case worker and 
that they really should be aware of the realities of the job. Scott 
also mentioned his academic background prepared him for the rigors of 
the intensive program. He felt the additional assistance was an 
excellent option but was concerned that a number of his classmates were 
not prepared for the academics involved. He noted that a number of the 
students did excellent in the labs but struggled with keeping up with 
required reading and taking the tests.
    Scott successfully completed the program and very much wants to 
continue in the nursing program to become an RN. He would seem to be a 
terrific candidate and in a state that badly needs more nurses in the 
workforce so he was disappointed to find out that WIA funding is not 
available for him to continue with a degree program.
    Our Healthcare Workforce Coordinator, Sue Folds, has worked in 
cooperation for years with the credit nursing program to make the CNA 
program successful. As she herself was an RN, she is also concerned 
that students need to be prepared upfront for the coursework and what 
the job will entail. While she can tell you of many successful students 
she also is quick to point out that she has had students go to one lab 
class and come back and drop out saying there was no way they were 
going to do that for a job. While there may be a number of 
circumstances that cause a student to drop--we do know there is a need 
to better inform and match candidates to the program. The students that 
complete the program but did not pass demonstrate that perhaps if there 
was an upfront assessment of foundational academic skills we could 
better prepare those students for successful completion.
    Sue has built solid ties to healthcare employers in the community 
and provides several healthcare programs as well as contract training. 
She has many more programs on hold that would be beneficial for skills 
enhancement of the current workforce or allow entry into a healthcare 
position. Our programs are demand driven and currently start-up and 
administrative costs prevent those programs from being implemented. As 
much as she would like to implement more courses and support career 
paths in healthcare, limited resources determine priorities and pace of 
development.
    The information I received from the students and our workforce 
coordinator highlighted that given the right client match to the 
program it can be an absolute success. Through close communication and 
collaboration workforce and credit programs can deliver training in a 
unique structure that answers a clear community need. The instructors 
and staff have worked to add key features such as an orientation and 
extra support to ensure student success. It is also clear that we need 
to continue with new innovations and expand support for the students to 
fill educational gaps and to work closely with referral agencies to 
make sure the program is promoted and candidates identified.
Recommendations and innovation opportunities
    Community colleges are where much of the American workforce 
receives its education and skills. For innovations in WIA to have 
significant impact the colleges need to have the ability to play an 
important role with local businesses and agencies in developing a 
workforce strategy that answers the needs of the community. There is a 
current call for the building of career pathways but that requires a 
corresponding educational pathway in order to succeed.
    1. An important step in determining an education pathway that 
promotes a career pathway is allowing the college workforce programs to 
offer more of the support services.
    In its recommendations, Working it Out: Community Colleges and the 
Workforce Investment Act notes, ``Encourage colleges to provide case 
management and support services to ensure positive outcomes. * * * 
Community colleges increasingly recognize the importance of support 
services, but because they are viewed primarily as providers of 
training and not of support services they rarely receive WIA funding 
for these services. To enable WIA participants to succeed in community 
colleges, the colleges should have the means to meeting all their 
needs.'' \1\
---------------------------------------------------------------------------
    \1\ Working it Out: Community Colleges and the Workforce Investment 
Act, Mary Visher and Donna Fowler, Institute for the Study of Family, 
Work and Community, December 2006
---------------------------------------------------------------------------
    As demonstrated in the CNA program some students may need a details 
and realistic description of what the job they are training for 
entails. Students may need to brush up on basic skills and gain 
confidence to enter into a more rigorous program. How the colleges and 
its partners design and deliver the support services is one of those 
areas that should be rewarded for innovation. As core criteria, 
programs should require standard assessments of WIA clients that allow 
the workforce program staff, the case manager and the client to plan an 
education path for success. What assessments to use need to be 
determined by local educational institutions in partnership with local 
employers. Even clients that are not anticipating entering a formal 
training program should assess foundational skills to close any gaps 
prior to their employment search.
    2. Encourage innovations to programs by allowing flexibility and 
adaptability for training programs based on the feedback of clients, 
educators and the employers and including and encouraging contract 
training.
    Workforce programs that provide contract training have the 
advantage of an employer partner providing specific criteria for 
outcomes. The relationship built between the college workforce program 
and the employer brings to it the continuous feedback, evaluation and 
improvement cycle that would be a positive for any workforce program. 
Another recommendation in Working it Out: Community Colleges and the 
Workforce Investment Act supports a WIA adjustment to contract 
training, ``Relax constraints on contract training. Constraints on 
using WIA funds for customized and contract training, a system that 
works well for colleges and demand driven models of workforce 
development, have inhibited college participation in WIA.'' \2\
---------------------------------------------------------------------------
    \2\ Working it Out: Community Colleges and the Workforce Investment 
Act, Mary Visher and Donna Fowler, Institute for the Study of Family, 
Work and Community, December 2006
---------------------------------------------------------------------------
    A challenge highlighted in the economic recession has been how 
difficult the current structure of WIA has made it to assist employers 
and agency with needed skills training. Employers do not have the 
training dollars to spend and as a self-funded division we do not have 
the start-up funds to supply for equipment and curriculum development. 
``Each type of provider--independent of its ability to train and place 
job seekers--has a different capacity to adjust to the payment system 
and reporting requirements imposed by WIA. As a result, some effective 
programs have opted out, or have been forced out, of the federally 
funded workforce development system because of its ``one size fits 
all'' approach.'' \3\ Needed programs would be developed and 
implemented quickly if funding could be directed to start-up costs.
---------------------------------------------------------------------------
    \3\ Training Policy in Brief, by Gwen Rubinstein and Andrea Mayo, 
pg 18, The Workforce Alliance, 2007.
---------------------------------------------------------------------------
    3. Support a sustainable approach for creation of career-education 
pathways that rewards workforce strategies that build from short-term 
skills training to deeper education attainment.
    The ``work-first'' focus that continues to push the interpretation 
on how to best assist WIA clients promotes a short-term solution and 
perpetuates a long-term problem. The focus on quick placement often 
moves clients into entry-level positions rather than gaining advanced 
training for a higher level position. Incumbent workers need the 
opportunity to gain advanced education to retain their jobs, handle 
increased responsibility or be eligible for career movement. Discussion 
of career ladders won't lead to workable solutions unless workforce 
investment is viewed in career terms. Education and employer 
partnerships need to move from single program planning to comprehensive 
support for movement from short-term training to degree attainment.
    If workforce investment is designed to reward community 
collaboration, support of unique local workforce needs and allowed to 
be responsive and flexible, I believe continued innovations in 
workforce development will quickly come forth.
    I want to thank you for the opportunity to share the story about 
just one of our workforce programs. Your attention to the Workforce 
Investment Act is needed and appreciated.
                                 ______
                                 
    Chairman Hinojosa. Thank you. Thank you all for your 
testimony. I want to say that we had a slight difficulty, 
technical difficulty with the second microphone that is sitting 
there on the table. So instead of sending the microphone to Mr. 
Patchett, I'm going to reverse the order of questions that 
we're going to start with Rebecca Metty-Burns, and I will start 
by taking a five-minute period of dialogue with you. Then my 
colleague will have an opportunity to also ask questions, and 
we will move from my right to my left in the questions and I 
will wait to see how this dialogue goes. I may choose to have a 
second round of questions and just open to anyone, and so with 
that, I now recognize myself for five minutes.
    Rebecca Metty-Burns, how do you suggest candidates be well 
informed and matched to a program that tailors to their 
strengths so that individuals are not set up for failure, while 
at the same time not inhibiting individuals from entering? And 
the second part to my questions, how do you ensure that your 
programs are accessible by a diverse school of candidates, 
including minorities, individuals with disabilities, those with 
what we call English language learners, and those of low 
economic backgrounds?
    Ms. Metty-Burns. Thank you very much. In order to really 
make sure we've got the match, the assessments that need to 
occur are several. One is an academic assessment to make sure 
that they have some basic skills needed to move into and 
successfully complete a program. So whether it is a reading 
level or a math level or another technical area that we need to 
measure to put in an instrument there that can give us some 
feedback, and if there's additional skills that we need to be 
brought up, we can do that right at that point.
    We also think that there is an important kind of career 
goal match that needs to occur. Much of what the Community 
College system does is work with entering students on trying to 
sort out what kind of career are they interested in. So there's 
processes already in place and there's people with expertise in 
knowing how to make that happen. And it's important to match 
that up with the case managers that may be working with the 
system, to really start a little more dialogue between the 
groups, to make sure the right assessment tools are being used, 
the right conversations are being held with that participant, 
as well as opportunities maybe in just visiting a course, 
visiting an employer, really seeing what is it that would go 
into that job, so there is an awareness. Also to build that 
enthusiasm for a career.
    Chairman Hinojosa. Thank you very much. I want to ask Mrs. 
Cook, in your testimony you mention several ways to streamline 
eligibility criteria for WIA youth programs.
    Which of these would be the simplest to implement while 
keeping eligibility targeted to groups in need.
    Ms. Cook. Ideally, if there was a way that we could make a 
whole school eligible would be great. We have schools that are 
considered dropout factories. If we could identify a school and 
work within that school, that would make it eligible for anyone 
in there, and that would be very simple.
    Secondly, we would look at other risk factors and if 
there's a way to just base eligibility on those risk factors, 
being disconnected, not having the skill set, as opposed to the 
income eligibilities that are in place. That would be 
significant.
    There's an enormous amount of time that's used in 
collecting the paperwork to prove the eligibility and it makes 
it very difficult, if not impossible, for some of the youth 
that are most in need to be eligible.
    Chairman Hinojosa. Ms. Cook, do you have any objections if 
we were to write in that we want to use our public buildings 
longer, and more days of the week, so that there would be more 
time for these students to be well trained.
    Ms. Cook. I would have no objection to that. Everyone has 
limited resources and we need to use the resources that at our 
disposal most effectively and efficiently as possible.
    Chairman Hinojosa. And Mr. Brooks, in your testimony you 
describe training programs organized by the IBEW and the NECA. 
Are these programs open to non-members.
    Mr. Brooks. Well, the programs require membership to the 
individual organizations, like the IBEW and the National 
Electrical Contractors Association, to be available to the 
people who are members. And largely in part because they are 
funded by the members.
    But what the NECA and IBEW do is try to provide a path, 
using some of the initiatives like the Building Nevada 
Initiative and Helmets to Hardhats, to get people out of the 
military, out of high schools, out of trade schools and right 
into the apprenticeship program, so the facilities can be 
available.
    Chairman Hinojosa. I'm concerned, in listening to some of 
the commencement speakers here in the last two weeks, saying 
that out of college graduates, only one out of five college 
graduates had a job. We have a terrible situation. And then 
folks who dropped out, you can imagine how concerned we are. I 
will come back to you.
    My last question is to Mr. Patchett. In your testimony you 
stated that the vocational rehabilitation system counts a 
person as having a successful outcome if they are in their job 
placement for 90 days.
    What are your thoughts as to how to track meaningful 
outcomes, while serving all people with disabilities.
    Mr. Patchett. Thank you, Mr. Chairman. I think that when 
you look at reasonable outcomes, I don't think 90 days is 
enough. I think the outcomes need to be that an individual is 
clearly on a career path, that they are succeeding where they 
are at.
    That needs to be a much more long-term thing, maybe six 
months, maybe a year. We need to follow up with them and see if 
they are progressing within their job, are they receiving 
advancements, are they getting good marks and so forth, are we 
able to come back in there if something does not go well and 
provide additional job coaching to ensure that the individual 
is able to keep the job, and so forth. So that would be my 
recommendations.
    Chairman Hinojosa. Thank you. I now recognize the gentle 
lady from Nevada, Congresswoman Titus, recognized for five 
minutes.
    Ms. Titus. Thank you, Mr. Chairman. I'll start with you, 
Mr. Patchett. Your testimony about the work of Easter Seals is 
focused mostly on physical disabilities, problems of not being 
ADA qualified, even the job connection sites. I would ask you 
if you would further elaborate on that topic about neurological 
and psychological challenges. We see that a lot from our 
soldiers who are coming home. We know the problem of funding 
mental health in this state.
    Could you expand on what we might do to better include them 
in the authorization.
    Mr. Patchett. Thank you, Congresswoman Titus. Absolutely 
Easter Seals provides services to individuals with cognitive 
intellectual disabilities and psychiatric disabilities, 
including support, living services and job training 
rehabilitation.
    I think that one of the things that I would like to talk 
about that we're looking at, and actually we have a proposal on 
the street, is to utilize what my colleague next to me was 
saying, and that is green jobs.
    We have an opportunity right now to be able to focus on 
individuals coming back from war, individuals who have various 
kinds of disabilities, and look at how we can include them in 
some of the green jobs.
    I also think that the second part of my answer would be 
providing adequate support, providing adequate counseling, 
adequate monitoring of medications and so forth, and 
psychiatric disabilities. We have seen tremendous benefits and 
have been able to help individuals with psychiatric mental 
health disabilities to be successful, both in work and in 
living independently in the homes on their own.
    Ms. Titus. Thank you. Mr. Brooks, I would like just to 
expand, you mentioned Senator Horsford's green jobs bill, and 
there's just an article in the paper today about the need for 
green jobs and how Nevada has been losing them to New Mexico.
    I wonder if you would talk to us a little bit about not 
just your program, but perhaps what other kinds of green jobs 
we could help support that, build on what you do with the IBEW, 
whether it is training for weatherization, or training for 
manufacturing jobs, because we would like to get the companies 
that build the mirrors, as well as those who put them in. Would 
you elaborate on that.
    Mr. Brooks. Absolutely. A lot of what's happening is going 
to be through weatherization and modernization of existing 
buildings. That will encompass many different trades and crafts 
in the construction industries, as well as manufacturing.
    So the JATC for the IBEW is one of many training facilities 
around the State of Nevada that are training individuals who do 
the modernization, weatherization and energy efficiency 
measures, as well as some manufacturing, and it's working with 
like Senator Horsford's green jobs initiative where it 
leverages these dollars that members of these trade 
organizations are participating in with some of the State funds 
and Federal funds, and nonprofit organizations to get the most 
bang for your buck, to employ, to train people who then have a 
path to get out there and go do the work.
    At the end of the day it also takes companies, businesses 
to put these people to work. So partnerships that include the 
businesses with the training facilities, with the community 
organizations we feel are a very effective way to get it done.
    Ms. Titus. Are you finding that the businesses are 
cooperative because they need that trained workforce? And I 
would also ask you is if some of the members who could qualify 
for some assistance and not just have the whole cost come out 
of their own pocket, would that expand the workforce and the 
people who might participate in these kind of programs.
    Mr. Brooks. Absolutely. Right now there's no stipends, no 
scholarships, no assistance to a lot of people who are 
participating in some of the building trades programs that are 
teaching green jobs and weatherization and energy efficiency 
training. It's all coming out of their own pockets. It would 
definitely assist, especially those lower income people trying 
to get into these programs. It would definitely assist, it 
would help them get into the programs and get out to work, if 
there was some assistance in that, in their tuition and their 
textbooks and even living expenses.
    Ms. Titus. Okay. Ms. Cook, you mentioned the dropout 
factories. I know there are a number of them in my district, 
and it's very alarming when you read those kind of figures. But 
also there seems to be no incentive for companies to hire 
students who have dropped out or have those kinds of problems.
    I think in your written testimony you might have stated it, 
some things we need to do to incentivize businesses to hire 
these young people who might then get trained. Would you 
elaborate on that.
    Ms. Cook. Well, we need to do something to incentivize 
businesses, and maybe tax credits would be a way to do that. We 
have about 1,300 youth here in Southern Nevada that are 
participating in the summer stimulus program.
    One of the challenges we have is getting enough employers 
to give them a meaningful summer experience. We have thousands 
and thousands of other students that want a summer job. The 
Northwest Career Technical Academy has an excellent engineering 
program and they are looking at having everyone of their 
students have a meaningful summer experience.
    So if there are ways that we could incentivize businesses 
with tax credits, or other things, it would be great because it 
does take resources from that business to supervise these youth 
or young people at a level that's going to make it meaningful 
and make it productive.
    Ms. Titus. Mr. Chairman, could I have permission for a 
little more time.
    Chairman Hinojosa. I yield the Congresswoman to provide an 
additional two minutes.
    Ms. Titus. Thank you. I would just comment to Ms. Metty-
Burns what a great needthere is for healthcare professionals in 
this state, for nurses, and for other kinds of technicians and 
so a program like this seems to be great. I can imagine that a 
person who goes into nursing that has no idea what that job is 
going to be really like.
    So I appreciate your mention of the need to counsel on that 
before they go into that training. But your stories are also 
about people who just happened into the program. They just 
happened to find out about it, word of mouth or television.
    What can we do better to do outreach and information so 
people know that these programs exist, and can take advantage 
of them.
    Ms. Metty-Burns. That is a great question because it's a 
huge need to make sure we do advertise and market, actually, 
the programs that we have available. We work closely with the 
referral agencies and of course they have numerous people 
coming in and they are working many cases and they do the best 
they can to make sure people have that information.
    But one of the students mentioned that the way he learned 
about the program was on a public television segment that 
happened to mention the program and then he went and sought it 
out and asked for a referral, and pursued that.
    So I think that there are some opportunities either in 
partnering up with interested employers and helping us market 
the program to the community. We've continued to start reaching 
out to the community through communication resource fairs, so 
that we can also take that word out. There's a great deal to be 
done on that and I think it's an area where we need to 
collaborate in partnership to make sure we can market.
    As self-funded programs, we don't come with a marketing 
budget, an advertising budget. So we have to be creative to go 
and reach into these communities and there's a great deal I 
think more we could do in working with community centers, 
community fairs, to get the word out about the availability of 
these programs.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Chairman Hinojosa. Thank you. I have chosen to have a 
second round of questions. I find this information very 
valuable and I'm going to ask that Mrs. Cook, that you take the 
microphone and have an opportunity to tell me, in your 
presentation you described how the youth councils can play a 
larger coordinating role in the WIA youth programs. I am quite 
concerned about the illiteracy rate among adults and young 
people who are teenagers in their 20's dropping out of high 
school.
    So my questions to you are going to be how we can address 
that problem and as a member of my committee on education, 
whenever we've had Congressional hearings on literacy, both for 
adults and young people, we find that many do not know how to 
read.
    Would you have any suggestions on how in WIA we could have 
those extra hours that I asked you about earlier, utilizing a 
building where trained teachers on reading could spend time in 
training folks to be able to read, and hopefully love to read 
books, to have their own library at home. Because if that were 
the case, I think that employers would find it easier to train 
this workforce.
    Ms. Cook. Chairman Hinojosa, none of this can be done in 
isolation. Workforce is not separate than education is not 
separate than youth development and we have to have a connected 
infrastructure that support these youth.
    So by partnering with the education system and using the 
buildings and seeing this as a joint venture, as opposed to WIA 
being stand alone education and education funding being stand 
alone and youth services funding being stand alone, if we were 
to do that and bring them all together, we would have a 
connected infrastructure where we could expand the services 
within schools. Maybe part of it is funded with WIA, but it 
would be a continuation after school in providing those 
services.
    I think one of the most important things that you can do 
with the WIA reauthorization is to use this as an opportunity 
to create that infrastructure to serve the youth that's not 
done in pockets in isolation.
    Chairman Hinojosa. Let me share with you and the audience 
that I've had the pleasure, even when I was in the minority for 
ten years, to travel with then Chairman Buck McKeon from 
California, and we wanted to ask folks out in China how was it 
that their students were out-performing the American students 
in the international scholastic competition, academics, and we 
actually went into campuses that were feeder high schools to 
the colleges that were producing so many engineers and 
scientists and mathematicians and physicists and so forth.
    The parents were invited to some of these town hall 
meetings and when I would ask those questions, some parents 
would take the microphone and they would answer parental 
involvement is the basic answer to your question. But the final 
say, that gentleman with the long white beard said if you will 
just remember this formula, early reading, plus writing, equals 
success in schools.
    Ms. Cook. Right.
    Chairman Hinojosa. So this literacy idea, I took my 
Congressional district a year and a half ago and we started 
with the Texas State Technical College, which is a two-year 
program, and they chose to put up the match money, because 
Congress paid 75 percent of the cost of the books for these 
one-year-olds, two-year-olds, three-year-olds, and we have to 
raise 25 percent to match the Congressional portion. They said 
we will raise and we will contribute the 25 percent, and with 
the Meadows Foundation, which is in Texas, in Dallas, they have 
parental training on how to read to babies, one, two, three-
year-olds and that is on-going now.
    So I'm going to say that we are going to have to think out 
of the box. Whatever we've done the last ten years was good, 
but not good enough. This is the 21st century, and we are going 
to have to take, as you said, partners, stakeholders, 
employers, employees, and the entities, the non-profits and 
others, so that we can get the folks to become literate with 
the reading and writing.
    With that I yield to the Congresswoman from Nevada, 
Congresswoman Titus.
    Ms. Titus. Thank you, Mr. Chairman, and I so respect that 
project that you did in Texas. I would like to see us try to do 
something like that here in Nevada and see if we can get some 
people to help us meet that match. And I agree with that early 
reading. I know that one thing that works is all day 
kindergarten. The earlier you start, the better you do, and the 
likelier you are to finish, and I absolutely believe that.
    I'd just like to ask maybe a general question that anybody 
can answer, is that the workforce investment boards that have 
existed in the past are made up largely of business, or 
majority of business. And yet the problem we have is getting 
business more engaged, more willing to participate, more likely 
to hire the graduates of these programs.
    What would you do to recommend that we make this 
relationship better, in addition to perhaps those tax credits 
that Ms. Cook mentioned.
    Mr. Brooks. I actually am engaged in hiring people and 
unfortunately laying people off sometimes, too, on a daily 
basis. And we choose a path to provide our workforce through 
labor unions. But the children coming out of the schools and 
with options to either go into the university system and pursue 
a career that requires that, or to go through trade programs 
and pursue a career that requires that, it's what Ms. Cook said 
was very important, that we don't live in a pocket, we don't 
live in isolation, that the youth services, educational, 
whether it be higher education or the K through 12 and trade 
schools and universities, we all need to be working together at 
a very early stage so we can have the qualified students coming 
out of schools, going into the universities or the trade 
schools. And there needs to be much better coordination, I 
think, from us, the employers and organizations that represent 
employers with the university systems and with the K through 12 
in this state and there seems to be a disconnect there.
    And I feel as a father of three children, one entering into 
college right now, it's very difficult for a lot of kids coming 
out of school to have that path into a career, especially one 
that pays a living wage.
    Ms. Titus. May I, Mr. Chairman.
    Chairman Hinojosa. Yes.
    Ms. Titus. Along with those statements, kind of like the 
same mind, I know that the system works layer by layer by 
layer. The money comes from Congress and it goes to the State, 
it goes to the State investment boards, then passes on to 
different agencies. Sometimes those different agencies can act 
as roadblocks, as opposed to facilitators.
    Would we be better off looking at a program that goes 
directly to the institutions or the programs that are providing 
that training, rather than going to some kind of artificially 
established state agency, board, et cetera?
    Ms. Metty-Burns. We certainly would like to see that 
opportunity incorporated into the reauthorization or the 
rewriting of WIA. Because we go out in the, with the industry 
and business constantly seeking what is it that they need.
    We have a close connection with the industry. And I would 
like to have that opportunity to build those programs around 
the educational attainment and the specific skills being 
requested by the industry, as well as continue with the 
feedback and improvement cycle, rather than sometimes being 
locked into reporting requirements or cycles that are made in 
general, rather then specific to a region, a need in the 
community or a specific program that's responding to that.
    So that is something that we see that we think would be 
very helpful, at least in having that opportunity to put forth 
programs and receive that funding directly.
    Ms. Cook. I'd also like to add that I think it's important 
to have funding maybe go to some programs directly. However, if 
we are to move forward, we need to look at our community in a 
regional way and in a systemic way and set priorities and be 
able to fund in that way, setting priorities for population, 
setting priorities for the services that are needed, and if 
there's too much direct funding that's going out, then you are 
losing the collaborative process that you could have and the 
strategic ability to be able to address issues.
    So I think there's a way to do both, but for us to be 
effective and to move forward, we need to go from that shotgun 
approach to being able to be strategic to leverage resources, 
too, and be thoughtful about how the funding and resources are 
used.
    Ms. Titus. Do you feel like the boards are doing that now 
or we could improve that process.
    Ms. Cook. I think the process can be improved, and it 
should be improved and Congress should encourage collaboration 
to improve the process.
    Chairman Hinojosa. I yield the young lady another minute 
because I believe that Mr. Patchett was trying to get your 
attention and I'll give you another minute to finish up.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Patchett. Thank you very much. I think that this is 
kind of the crux of the issue, this question really addresses 
this. We've got to find a way to get, I'm thinking more high 
school kids, kids with disabilities, but kids in general into 
real work experience and into real work and therefore the real 
work, I think we all remember jobs we had when we were younger 
that led to other jobs and other jobs and so forth.
    Right now that's not happening. I don't see that happening. 
I don't see that those who have the potential to provide 
internships or provide early jobs are being connected with 
sufficiently to give, in the case of what I have been talking 
about, kids with disabilities, but it could be all kids. As a 
father of six children, I'm aware of a lot of issues.
    So I think that would be very beneficial if we could do 
that, and actually look more at those who provide the direct 
service to really create a system that would be able to focus 
more on kids having positive experiences at the youngest age 
possible.
    Ms. Titus. Thank you, Mr. Chairman.
    Chairman Hinojosa. This has been very interesting and as I 
prepare to make concluding remarks and go into adjournment, I 
wish to take this opportunity as the Chairman of this hearing 
to thank Dr. Lesley DiMare of Nevada State. She is the Provost. 
We thank you for hosting us here on your campus.
    I also would like to thank Spencer Stewart, Associate Vice 
President, for setting up the facilities so that we could have 
this large participation and large audience. Also I would like 
to thank Dr. Rho Hudson, Dina's sister, who made initial 
requests for the arrangements of this facility.
    And finally, I'd like to thank those who came from 
Washington on my staff, Mr. Ricardo Martinez, on my left, 
Paulette Acevedo, and Jim Rath, who is a Fellow working in my 
office on math and science projects which are of great interest 
to my Congressional district.
    I thank all of you for helping us have such a successful 
public hearing, field hearing here in Nevada.
    Once again, I would like to thank the witnesses and the 
members of the subcommittee for a very informative session.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. If any member 
wishes to submit follow-up questions in writing to the 
witnesses, you should coordinate with the staff within the 
requisite time.
    Without objection this hearing is adjourned.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
